                   U.S. Department of Agriculture

                      Office of Inspector General
                       Financial & IT Operations




         Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2004 and 2003




                         Report No. 50401-53-FM
                                 November 2004
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




DATE:          November 15, 2004

REPLY TO
ATTN OF:       50401-53-FM

SUBJECT:       U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal
               Years 2004 and 2003

TO:            Patricia E. Healy
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Agency Liaison Officer
               Office of the Chief Financial Officer


This report presents the results of our audit of the U.S. Department of Agriculture’s consolidated
financial statements for the fiscal years ending September 30, 2004 and 2003. The report
contains an unqualified opinion and the results of our assessment of the Department’s internal
control structure and compliance with laws and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned, including the timeframes, on our
recommendations. Please note that the regulation requires a management decision to be reached
on all findings and recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us during the audit.


/s/

Phyllis K. Fong
Inspector General
Executive Summary
U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal Years
2004 and 2003 (Report No. 50401-53-FM)

Purpose             Our audit objectives were to determine whether (1) the consolidated financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position; net costs; changes in net position; budgetary resources; and
                    reconciliation of net costs to budgetary obligations, (2) the internal control
                    objectives were met, (3) the Department complied with laws and regulations
                    for those transactions and events that could have a material effect on the
                    consolidated financial statements, and (4) the information in the Performance
                    and Accountability Report was materially consistent with the information in
                    the consolidated financial statements.

                    We conducted our audit at the financial offices of various U.S. Department of
                    Agriculture (USDA) agencies and the Office of the Chief Financial Officer
                    (OCFO) located in Washington, D.C., and its National Finance Center
                    located in New Orleans, Louisiana. We also performed site visits to selected
                    agencies’ field offices.

Results in Brief    As discussed in Note 20 to the financial statements, USDA restated its fiscal
                    year 2003 consolidated financial statements to correct errors disclosed during
                    the fiscal year 2004 audit as follows:

                      •   The Forest Service corrected errors totaling about $383 million for
                          alignment of budgetary and proprietary account relationships and
                          posting errors; unsupported balances in various suspense and deposit
                          clearing funds; Fund Balance with Treasury and associated custodial
                          liability; and certain revenue transactions.
                      •   The Food and Nutrition Service, Natural Resources Conservation
                          Service, and Animal and Plant Health Inspection Service corrected
                          errors totaling about $4.7 billion, $478 million, and $311 million,
                          respectively, for improper recognition of appropriations used.
                      •   The Federal Crop Insurance Corporation corrected errors totaling about
                          $1.17 billion for obligations and obligated balances carried forward
                          from fiscal year 2002. In addition, the Federal Crop Insurance
                          Corporation changed its accounting policy for funds held in escrow for
                          crop insurance losses.
                      •   The Commodity Credit Corporation corrected errors of about $188
                          million in amounts for intragovernmental costs previously recorded as
                          costs with the public.



USDA/OIG-A/50401-53-FM                                                                      Page i
                     •   The Department corrected about $176 million of Non-USDA
                         disbursements recorded on its fiscal year 2003 Statement of Budgetary
                         Resources.

                   For fiscal year 2003, the correction of these errors increased the ending
                   balance of Unexpended Appropriations by over $5 billion and decreased the
                   ending balance of Cumulative Results by over $5 billion. Consequently, the
                   beginning balances for these line items for fiscal year 2004 changed by the
                   same amounts.

                   In our Report on Internal Control Over Financial Reporting, we reported that
                   continued improvements are needed in financial management across USDA
                   and continued improvements are needed in information technology security.

                   In our Report on Compliance with Laws and Regulations, we continued to
                   note where further actions are necessary related to improving financial
                   management systems.

Key
Recommendations    OCFO has immediate and long term plans to address most of the weaknesses
                   in its financial management systems. For example, USDA recently
                   implemented a Department-wide property system. The key recommendations
                   in this report were limited to additional improvements in financial
                   management and enhancing the reporting and tracking of weaknesses within
                   financial management and information technology.

Agency Position    OCFO generally agreed with the findings and recommendations in this report
                   except it did not concur with our conclusion that the Statement of Financing
                   and Rural Development errors constituted material weaknesses.
                   Additionally, OCFO did not agree with our conclusion that the extensive
                   adjustments made after September 30 diminish the utility of financial data
                   during the year.

                   OCFO Response to Adjustments:

                   We will continue to make process improvements to limit yearend
                   adjustments. However, we do not concur that yearend adjustments result in
                   diminishing the utility of financial data during the year to assist management
                   in administering its programs and operations.

                   OCFO Response to SOF and Crosswalk issue:

                   Treasury’s published crosswalks for the Statement of Financing for FY 2004
                   Reporting states the following: “IMPORTANT NOTE: …the Statement of
                   Financing requires a level of detail beyond that of the USSGL accounts.”
                   This is a government-wide issue. Other Federal Departments have similar
USDA/OIG-A/50401-53-FM                                                                    Page ii
                   problems developing automated crosswalks for the SOF that are traceable to
                   their general ledger. The Standard General Ledger crosswalks from Treasury
                   have numerous scenarios that complicate automation using current financial
                   management systems architecture. We solicit OIG assistance as we work
                   with Treasury and the USSGL Board and the Office of Management and
                   Budget (OMB) to develop SGL account structure and crosswalks that will
                   eliminate the need for transactional analysis for certain line items on the SOF.

                   OCFO Response to RD credit reform related issue:

                   RD and the Department disagree that this credit reform related issue
                   constitutes a material weakness. RD has internal controls in place. The
                   finding represents a one-time download error from OMB’s system, which
                   cannot be duplicated. The error is an anomaly and does not represent a
                   material internal control structure weakness. (Credit reform is considered a
                   material weakness for Rural Development; however it is not considered a
                   material weakness for the Department).

OIG Position       Based on the discussion included in Section 1 regarding the Statement of
                   Financing, we continue to believe it constitutes a material weakness. We also
                   continue to believe that Rural Development’s multiple credit reform errors,
                   which totaled over $250 million, were not clerical in nature and are a material
                   weakness. Furthermore, our conclusion remains that the adjustments made
                   after yearend diminish the utility of financial data during the year when they
                   are needed to assist managers in administering their programs and operations.




USDA/OIG-A/50401-53-FM                                                                     Page iii
Abbreviations Used in This Report


ACIF              Agricultural Credit Insurance Fund
APHIS             Animal and Plant Health Inspection Service
CCC               Commodity Credit Corporation
CFO               Chief Financial Officer
DR                Departmental Regulation
FCIC              Federal Crop Insurance Corporation
FFIS              Foundation Financial Information System
FFMIA             Federal Financial Management Improvement Act
FFMSR             Federal Financial Management Systems Requirements
FISMA             Federal Information Security Management Act
FISCAM            Federal Information Systems Control Audit Manual
FMFIA             Federal Managers’ Financial Integrity Act
FS                Forest Service
FSA               Farm Service Agency
FSDW              Financial Statement Data Warehouse
GAO               Government Accountability Office
IT                Information Technology
JFMIP             Joint Financial Management Improvement Program
NFC               National Finance Center
NIST              National Institute of Standards and Technology
NITC              National Information Technology Center
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OIG               Office of the Inspector General
OMB               Office of Management and Budget
RSSI              Required Supplemental Stewardship Information
SGL               U.S. Government Standard General Ledger
SOF               Statement of Financing
SV                Standard Voucher
USDA              U.S. Department of Agriculture




USDA/OIG-A/50401-53-FM                                                Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Report of the Office of Inspector General ............................................................................................ 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting............. 4

Report of the Office of Inspector General on Compliance with Laws and Regulations .................. 6

Findings and Recommendations............................................................................................................ 8

    Section 1. Internal Control Over Financial Reporting – Material Weaknesses........................ 8

        Finding 1             Continued Improvements are Needed in Financial Management Across
                              USDA ...................................................................................................................... 8
                                  Recommendation No. 1.................................................................................. 12
                                  Recommendation No. 2.................................................................................. 12
                                  Recommendation No. 3.................................................................................. 12
        Finding 2             Improvements are Needed in Information Technology (IT) Security and
                              Controls ................................................................................................................. 12
                                  Recommendation No. 4.................................................................................. 17

    Section 2. Internal Control Over Financial Reporting – Reportable Condition..................... 18

        Finding 3             Credit Reform Processes and Practices Can Be Improved ................................... 18
                                  Recommendation No. 5.................................................................................. 19

    Section 3.        Compliance with Laws and Regulations.................................................................... 20

        Finding 4  Substantial Noncompliance with FFMIA Requirements ...................................... 20
                       Recommendation No. 6.................................................................................. 23
                       Recommendation No. 7.................................................................................. 24
     Finding 5     User Fee Reporting Needs Improvement .............................................................. 24
                       Recommendation No. 8.................................................................................. 27
                       Recommendation No. 9.................................................................................. 27
Exhibit A – Audit Reports Related to the Fiscal Year 2004 Financial Statements......................... 28
Exhibit B – Performance and Accountability Report ....................................................................... 29




USDA/OIG-A/50401-53-FM                                                                                                                           Page v
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL

                                            Washington, D.C. 20250




Report of the Office of Inspector General

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of Agriculture
(USDA) as of September 30, 2004 and 2003, and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources
(hereinafter referred to as the “consolidated financial statements”) for the fiscal years then ended. The
consolidated financial statements are the responsibility of USDA’s management. Our responsibility is
to express an opinion on the consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.” Those standards and
OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable assurance
that the consolidated financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall consolidated financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the USDA as of September 30, 2004 and 2003; and its net costs,
changes in net position, reconciliation of net costs to budgetary obligations, and budgetary resources
for the years then ended, in conformity with accounting principles generally accepted in the United
States of America.

As discussed in Note 20 to the financial statements, USDA restated its fiscal year 2003 consolidated
financial statements to correct errors disclosed during the fiscal year 2004 audit as follows:

       •   The Forest Service corrected errors totaling about $383 million for alignment of budgetary
           and proprietary account relationships and posting errors; unsupported balances in various
           suspense and deposit clearing funds; Fund Balance with Treasury and associated custodial
           liability; and certain revenue transactions.
       •   The Food and Nutrition Service, Natural Resources Conservation Service, and Animal and
           Plant Health Inspection Service corrected errors totaling about $4.7 billion, $478 million,
           and $311 million, respectively, for improper recognition of appropriations used.


USDA/OIG-A/50401-53-FM                                                                            Page 1
       •   The Federal Crop Insurance Corporation corrected errors totaling about $1.17 billion for
           obligations and obligated balances carried forward from fiscal year 2002. In addition, the
           Federal Crop Insurance Corporation changed its accounting policy for funds held in escrow
           for crop insurance losses.
       •   The Commodity Credit Corporation corrected errors of about $188 million in amounts for
           intragovernmental costs previously recorded as costs with the public.
       •   The Department corrected about $176 million of Non-USDA disbursements recorded on its
           fiscal year 2003 Statement of Budgetary Resources.

For fiscal year 2003, the correction of these errors increased the ending balance of Unexpended
Appropriations by over $5 billion and decreased the ending balance of Cumulative Results by over
$5 billion. Consequently, the beginning balances for these line items for fiscal year 2004 changed by
the same amounts.

The information in the Performance and Accountability Report (see exhibit B) is not a required part of
the consolidated financial statements, but is supplemental information required by accounting
principles generally accepted in the United States of America or by OMB Bulletin No. 01-09, “Form
and Content of Agency Financial Statements.” We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. We did not audit this information and, accordingly, we express no
opinion on it. However, as a result of such limited procedures, we believe that the Required
Supplemental Stewardship Information and the Required Supplementary Information related to
deferred maintenance for the Forest Service may not be reliable since preparation controls have not
been effectively designed to ensure the existence, completeness, accuracy, and timeliness of the
reported information.

We have also issued reports on our consideration of USDA’s internal control over financial reporting
and its compliance with certain provisions of laws and regulations. These reports are an integral part
of an audit performed in accordance with Government Auditing Standards, and, in considering the
results of the audit, these reports should be read in conjunction with this report. For internal controls
over financial reporting, we identified three reportable conditions:

   •   Continued improvements are needed in financial management across USDA;
   •   Improvements are needed in IT weaknesses and controls; and
   •   Credit reform practices can be improved.

We believe the first two conditions are material weaknesses. Our report on compliance with laws and
regulations discusses two instances of noncompliance relating to the Federal Financial Management
Improvement Act and the accounting for user fees.




USDA/OIG-A/50401-53-FM                                                                            Page 2
This report is intended solely for the information of the management of USDA, OMB, and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.


/s/

Phyllis K. Fong
Inspector General


November 12, 2004




USDA/OIG-A/50401-53-FM                                                                    Page 3
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2004 and 2003, and the related consolidated statements
of net cost, changes in net position, and financing, and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”), and have issued our
report thereon dated November 12, 2004. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit
Requirements for Federal Financial Statements.”

In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the internal controls, determining whether the internal
controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 01-02 and Government
Auditing Standards. We did not test all internal controls as defined by the Federal Managers’
Financial Integrity Act of 1982. The objective of our audit was not to provide assurance on
USDA’s internal control. Consequently, we do not provide an opinion on internal control over
financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions
are matters coming to our attention relating to significant deficiencies in the design or operation
that, in our judgment, could adversely affect the agency’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the consolidated
financial statements. Material weaknesses are reportable conditions in which the design or
operation of one or more internal control components do not reduce to a relatively low level the
risk that misstatements, in amounts that would be material in relation to the consolidated financial
statements being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions. Because of inherent limitations in any
internal control, misstatements due to error or fraud may occur and not be detected.


USDA/OIG-A/50401-53-FM                                                                            Page 4
We noted certain matters described in the “Findings and Recommendations,” Sections 1 and 2 of
this report involving the internal control over financial reporting and its operation that we consider
to be reportable conditions:

      •   Continued improvements are needed in financial management across USDA (Section 1);
      •   improvements are needed in IT security and controls (Section 1); and
      •   credit reform practices can be improved (Section 2).

In addition, we believe that the reportable conditions in Section 1 are material weaknesses.

Additional Other Procedures

As required by OMB Bulletin No. 01-02, we considered USDA’s internal control over Required
Supplemental Stewardship Information (RSSI) by obtaining an understanding of the internal
control, determining whether these internal controls had been placed in operation, assessing
control risk, and performing tests of controls. Our procedures were not designed to provide
assurance on internal control over such RSSI; accordingly, we do not provide an opinion on such
controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis section of the Performance and Accountability Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal
control over reported performance measures; accordingly, we do not provide an opinion on such
controls.

This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 12, 2004




USDA/OIG-A/50401-53-FM                                                                             Page 5
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the consolidated balance sheets of the U.S. Department of Agriculture (USDA) as
of September 30, 2004 and 2003, and the related consolidated statements of net cost, changes in
net position, and financing, and the combined statements of budgetary resources (hereinafter
referred to as the “consolidated financial statements”), and have issued our report thereon dated
November 12, 2004. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal
Financial Statements.”

The management of USDA is responsible for complying with laws and regulations applicable to it.
As part of obtaining reasonable assurance about whether the consolidated financial statements are
free of material misstatement, we performed tests of USDA compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 01-02, including certain requirements referred to in
the Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to the provisions described in the preceding sentence and did not test compliance with
all laws and regulations applicable to USDA. However, providing an opinion on compliance with
laws and regulations was not an objective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance disclosed one instance of noncompliance with other laws
and regulations discussed in the second paragraph of this report, exclusive of FFMIA, that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-02. (See
“Findings and Recommendations,” Section 3, “Compliance With Laws and Regulations.”)




USDA/OIG-A/50401-53-FM                                                                          Page 6
This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 12, 2004




USDA/OIG-A/50401-53-FM                                                                  Page 7
Findings and Recommendations
Section 1.   Internal Control Over Financial Reporting – Material Weaknesses

                     Material weaknesses are reportable conditions in which the design or
                     operation of one or more internal control components do not reduce to a
                     relatively low level the risk that misstatements, in amounts that would be
                     material in relation to the consolidated financial statements being audited,
                     may occur and not be detected within a timely period by employees in the
                     normal course of performing their assigned functions. Because of inherent
                     limitations in any internal control, misstatements due to error or fraud may
                     occur and not be detected. We believe that the findings discussed in this
                     section are material internal control weaknesses.




Finding 1            Continued Improvements are Needed in Financial Management
                     Across USDA

                     The U.S. Department of Agriculture (USDA) and its agencies operate at least
                     90 program and administrative financial management systems. The Office of
                     Inspector General (OIG) and the Government Accountability Office (GAO),
                     have reported that USDA’s financial system of records presents a high risk to
                     the Department. The longstanding and material problems were caused,
                     primarily, by the absence of corporate level oversight and planning when
                     these legacy systems were initially developed and upgraded. The Office of
                     the Chief Financial Officer (OCFO) has taken action to address these
                     problems and developed plans to review the legacy systems, and consolidate
                     and update the systems, as appropriate, to meet present accounting standards
                     and management needs. With assets totaling over $120 billion and program
                     costs in excess of $76 billion, USDA must continue to take actions to fully
                     resolve these problems.

                     During fiscal year 2004, the Department continued to make significant
                     improvements in its overall financial management. However, we noted areas
                     where further improvements are needed. For example:

                        •   We noted that certain relationships should exist when sound financial
                            management is practiced. The activity of certain proprietary general
                            ledger accounts should be equal to that of certain budgetary general
                            ledger accounts. For example, accounts receivable between budgetary
                            and proprietary balances should be equal. Similar relationships
                            between the Fund Balance with Treasury (FBWT) and other accounts
                            should also exist. In addition, many accounts within a general ledger

USDA/OIG-A/50401-53-FM                                                                     Page 8
                         normally have a debit or credit balance.              When accounting
                         relationships do not exist or abnormal balances are noted, immediate
                         research should be performed to identify the cause and correct the
                         condition. While this research improved during fiscal year 2004, much
                         of the corrective action did not occur until after fiscal year end. As a
                         result, while we expected minimal adjustments to be made after the
                         close of agency fiscal month 12 ledgers, there were about 1,800 final
                         closing adjustments made that totaled billions of dollars. Most of the
                         adjustments we reviewed were necessary; however, this yearend
                         activity diminishes the utility of financial data during the year when
                         they are needed to assist managers in administering USDA programs
                         and operations. Specifically, we noted the following:

                          •   Adjustments were processed to correct prior adjustments made in
                              error.
                          •   Adjustments were made to clean up activity that could have
                              occurred throughout the year and did not need to be made after
                              yearend. For example, while appropriations were recorded
                              throughout the year, the funds were not allotted until after
                              yearend close. This weakens the funds control mechanisms in
                              the system.
                          •   Adjustments were processed to correct systemic errors.
                          •   Budgetary and proprietary accounts were forced to equal each
                              other in order to pass FACTs II edits. These relationships should
                              exist without being adjusted.
                          •   Abnormal balances continued to exist without being fully
                              researched and corrected. As of fiscal yearend, we noted that 192
                              abnormal account balances existed totaling over $837 million.

                     •   The Foundation Financial Information System (FFIS) uses standard
                         vouchers (SV) to process adjustments to the general ledgers. The SV
                         uses predefined debits and credits based on business rules. We noted
                         that 11 of 24 SVs reviewed were (1) not entered correctly, (2) not
                         calculated/researched correctly, (3) required to correct a previous
                         adjustment, and/or (4) caused by system weaknesses. The types of
                         problems that we found could have been avoided had the agencies
                         effectively implemented the controls outlined in FFIS Bulletin 02-06,
                         “Internal Controls Over Standard Vouchers in the FFIS,” which
                         establishes overarching guidance for developing proper internal
                         controls.

                     •   We continue to find inconsistent implementation of accounting
                         processes in FFIS between agency applications. Table settings are
                         used to set edits, interest rates, penalty amounts, etc. We found that
                         field settings were inconsistent among the 15 agency applications we

USDA/OIG-A/50401-53-FM                                                                    Page 9
                         tested. As a result, inconsistent accounting processes could materially
                         impact the consolidated financial information.

                     •   Accountants need to improve their knowledge of financial system and
                         process operations. Additional training is needed for personnel
                         responsible for posting accounting entries in accordance with the U.S.
                         Government Standard General Ledger (SGL).

                     •   We also noted the lack of financial management systems and processes
                         that are capable of fully monitoring and controlling budgetary
                         resources for all programs. This occurred, primarily, because the
                         Commodity Credit Corporation (CCC) and the Forest Service (FS) do
                         not yet have integrated financial systems to track and govern the status
                         of obligations and administrative limitations established by legislation
                         or agency policy and are dependent upon manual processes. This
                         subjects overall funds control to significant risk. Funds control is a
                         vital component of any Federal Government operation.

                     •   OCFO uses its Financial Statement Data Warehouse (FSDW) to
                         compile the basic financial statements. The FSDW receives its
                         information from the Department’s FFIS general ledger. USDA
                         agencies using the Department’s FFIS and FSDW are subject to the
                         OCFO’s crosswalks for compilation of the agency’s basic financial
                         statements, including the Statement of Financing (SOF).

                         We determined that the OCFO’s crosswalk for the SOF was not
                         developed to populate all SOF line items from supporting transactions
                         and account balances in the FFIS general ledger. According to
                         OCFO’s crosswalk, five line items on the SOF are manually compiled
                         by agencies. Furthermore, FS, the largest USDA agency that uses the
                         FFIS and FSDW, manually compiles and adjusts four additional SOF
                         line items. One of the manual adjustments made by FS was an
                         unsupported adjustment to force its SOF to reconcile with its Statement
                         of Net Cost. OCFO indicated that the manual procedures and
                         adjustments are necessary due to the limitations of the SOF crosswalk,
                         as currently defined in the FSDW. This brings into question the
                         reliability of this statement. Furthermore, this manual process does not
                         ensure a consistent and accurate compilation of the SOF among the
                         agencies. The unsupported adjustments raise doubts about the
                         accuracy of the compilation process of the Department’s SOF
                         crosswalk and also raise doubts about the controls that should be
                         assuring proper entries to accounts when transactions occur. The
                         practice of making unsupported adjustments to the SOF contributed to
                         the need to restate prior years’ financial statements for the Department
                         and the Federal Crop Insurance Corporation (FCIC).

USDA/OIG-A/50401-53-FM                                                                  Page 10
                                         The SOF should be presented in a way that clarifies the relationship
                                         between the obligation basis of budgetary accounting and the accrual
                                         basis of financial (i.e., proprietary) accounting. By explaining this
                                         relationship through a reconciliation, the SOF provides information
                                         necessary to understand how the budgetary (and some nonbudgetary)
                                         resources finance the cost of operations and affect the assets and
                                         liabilities of the reporting entity.

                                    •    We identified deficiencies in Rural Development’s credit reform
                                         processes related primarily to the changes made to use data prior to
                                         fiscal yearend and enhancements made to its cash flow models. Rural
                                         Development (1) computed its “approximated”1 reestimates
                                         inaccurately, (2) did not properly address cash flow model changes for
                                         non-housing direct programs, and (3) provided inaccurate support
                                         and/or disclosure for two of the tables in the credit reform footnote.
                                         Furthermore, enhancements made by the contractor for the direct
                                         multi-family housing program resulted in overstated disbursements.
                                         The “approximated” errors occurred because Rural Development did
                                         not follow procedures to ensure the weighted average interest rate was
                                         correct and the second party review performed did not detect the errors.
                                         Furthermore, the changes made to the non-housing direct programs
                                         were not applied to all programs and were not applied consistently to
                                         all affected areas of the model used for those programs. The credit
                                         reform footnote errors occurred because the quality control review
                                         process did not identify the discrepancies in the footnote disclosure and
                                         the support documentation. Had the “approximated” errors not been
                                         identified by OIG and corrected by agency officials, Rural
                                         Development’s “approximated” reestimates and ultimately its financial
                                         statements would have been misstated by approximately $140 million.

                                    •    We also noted that FS and CCC yearend accrual processes need to be
                                         accurately calculated and posted prior to providing the financial
                                         statements for audit; subsidiary detail supporting material line items on
                                         the financial statements did not always exist; and additional supporting
                                         documentation needed to be provided in numerous instances in order to
                                         support the financial statements.

                                 These conditions hinder the ability to make informed decisions, in a timely
                                 manner, when the need for such information is a crucial factor for sound
                                 financial management. We believe the Department must continue to move
                                 forward in developing plans to integrate its program and administrative
                                 financial management systems. OCFO’s objective is for USDA financial
                                 systems to produce annual financial statements and other information needed

1
 In order to comply with accelerated financial reporting deadlines, Rural Development revised its approach to performing the reestimates
earlier using data prior to fiscal yearend. This is referred to as the approximated reestimates.
USDA/OIG-A/50401-53-FM                                                                                                       Page 11
                   to manage day-to-day operations dependably and routinely. Achieving the
                   reforms required by financial management legislation is essential because the
                   Department needs accurate financial information and appropriate internal
                   controls to effectively manage its vast resources.

                   The OCFO has immediate and long-term plans to address the weaknesses in
                   its and the agencies’ financial management systems. These actions include
                   working with the business process owners to address the problems with the
                   legacy feeder systems, with the objective to provide an improved integration
                   of the financial management architecture within the Department.

                   We are making no additional recommendations in this report for prior
                   recommendations that have not been management decided and are still open.

Recommendation No. 1

                   Establish a process to identify and eliminate the conditions causing the
                   extensive yearend adjustments so that corrections are made throughout the
                   year, as appropriate.

Recommendation No. 2

                   Prepare a clear and comprehensible SOF crosswalk that is supported by
                   transactions and account balances that are traceable to the general ledger.

Recommendation No. 3

                   Assess the overall process to compile the SOF in order to identify approaches
                   and techniques that provide for a more efficient, accurate and consistent
                   compilation process.




Finding 2          Improvements are Needed in Information Technology (IT)
                   Security and Controls

                   Historically, USDA agencies and departmental staff offices have
                   independently addressed their respective IT security and infrastructure needs.
                   This resulted in a broad array of technical and physical solutions that did not
                   provide assurance that Department-wide security was obtained. The efforts
                   of the Office of the Chief Information Officer (OCIO) and OIG in the past
                   few years have heightened program management’s awareness of the need to
                   plan and implement effective IT security. The Department and its agencies

USDA/OIG-A/50401-53-FM                                                                   Page 12
                                 should be commended for their efforts during the year toward completion of
                                 the certification and accreditation of its systems; however, we still found
                                 significant weaknesses in the Department’s security program that can be
                                 attributed to management’s lack of commitment to implementing an effective
                                 security program within their respective agencies. USDA management must
                                 remain involved and committed to implementing an effective security
                                 program within the Department. Both the OCIO and OIG reported the lack
                                 of agency management involvement as a material weakness in prior Federal
                                 Information Security Management Act (FISMA)2 reports. This is the third
                                 year we have reported this issue as a material weakness. Agency managers
                                 are ultimately responsible and should be held accountable for committing the
                                 appropriate resources to ensure compliance.

                                 The Department and its agencies have made progress in addressing the lack
                                 of compliance with the Office of Management and Budget (OMB) Circular
                                 A-130, Appendix III, but weaknesses continue to exist. Specifically, OIG
                                 found that (1) the Department was still unable to produce a reliable inventory
                                 of applications and general support systems,3 (2) not all documents produced
                                 through the agencies’ certification and accreditation processes complied with
                                 OMB and other Federal requirements, and (3) a significant majority of the
                                 Department’s applications were not certified until near the end of the fiscal
                                 year.

                                 Despite the Department’s site license for vulnerability scanning software and
                                 a formal scanning policy, the agencies have not timely identified and
                                 corrected known and exploitable vulnerabilities in their systems. The
                                 agencies we reviewed cited varying reasons for not performing vulnerability
                                 scans, including a lack of training and guidance on how to use the tools, and a
                                 lack of formal policies and procedures in place to periodically use the tools
                                 and mitigate the identified vulnerabilities.        As a result, significant
                                 vulnerabilities go undetected and uncorrected, increasing the risk that
                                 attackers, both internal and external, could compromise mission-critical IT
                                 resources and data.

                                 Further, we again identified access control weaknesses in the 12 agencies we
                                 reviewed during fiscal year 2004. This occurred because agencies did not
                                 have policies and procedures in place to (1) timely remove user accounts
                                 when no longer needed, (2) periodically reconcile user accounts to current
                                 employees and contractors, and (3) assign users only those permissions
                                 needed to perform their job responsibilities. We also found inadequate
                                 controls over the physical access to computer systems and critical network
                                 components in 6 of the 12 agencies reviewed. As a result, there is reduced

2
  FISMA superseded the Government Information Security Reform Act that expired in November 2002.
3
  OCIO officials acknowledged that the Department’s inventory of systems had evolved throughout the year and suggested that its current
list of departmental systems represents an improvement over prior efforts.
USDA/OIG-A/50401-53-FM                                                                                                      Page 13
                   assurance that agencies can effectively protect their mission-critical systems
                   and data from unauthorized modification, disclosure, loss, or impairment.

                   Finally, in the past several years, OCIO has strengthened its oversight of
                   agencies’ security programs; however, improvements could be made which
                   would significantly strengthen the Department’s security posture.
                   Specifically, OCIO needs to (1) formalize its tracking system for USDA
                   cyber security incidents to ensure timely followup and resolution, and (2)
                   increase the number and frequency of its agency reviews. Despite continual
                   requests for additional resources, OCIO acknowledges that it has not had the
                   significant resources it needs to increase its review and enforcement efforts
                   over agencies’ security programs.

                   We also performed IT general control reviews at two major USDA
                   computing centers that provide services to all USDA agencies and staff
                   offices. The reviews adhered to the GAO “Federal Information Systems
                   Control Audit Manual” (FISCAM). Specifically, we noted the following.

                   OCIO/National Information Technology Center (NITC)

                     •   While significant improvements have been made, OCIO/NITC was
                         still not fully compliant with the requirements of OMB Circular A-130
                         and other Federal security guidance. Specifically, OCIO/NITC had not
                         (1) finalized contingency planning, (2) conducted risk assessments
                         consistent with Federal requirements, or (3) prepared security plans for
                         each of its general support systems. OCIO/NITC officials informed us
                         that meeting the requirements of OMB Circular A-130 and National
                         Institute of Standards and Technology (NIST) security guidelines
                         involves major efforts and requires time and resources to comply
                         thoroughly. However, until these controls and documents are in place,
                         OCIO/NITC cannot be assured of the confidentiality, integrity, and
                         availability of its computer resources.

                     •   OCIO/NITC had not ensured that all midrange server security settings
                         were configured in accordance with departmental and NIST guidelines.
                         Further, OCIO/NITC needed to improve management over the routers
                         and firewalls in its general support system. This occurred because
                         OCIO/NITC had not established a policy or implemented controls to
                         require midrange systems and general support systems to follow OCIO
                         or NIST configuration guidance; and OCIO/NITC security staff have
                         not played a significant role in establishing or monitoring security over
                         midrange and general support systems. As a result, data residing on
                         these servers in the midrange environment could be compromised.

                     •   OCIO/NITC has made significant improvements over logical access
                         controls. However, further actions are needed to ensure the
USDA/OIG-A/50401-53-FM                                                                   Page 14
                         confidentiality and integrity of its IT resources.         Specifically,
                         OCIO/NITC had not completed implementation of procedures to
                         ensure (1) waivers were obtained for user accounts with non-expiring
                         passwords, (2) policies and procedures outlining monitoring of security
                         logs were implemented, (3) global system settings were fully
                         documented, and (4) controls from the internet were properly secured.
                         While OCIO/NITC has made significant progress to address these
                         issues, not all of the necessary controls were in place throughout the
                         year to ensure the confidentiality and integrity of its IT resources.
                         Until stronger controls over access are in place, OCIO/NITC resources
                         are vulnerable to potential fraud and misuse, inappropriate disclosure,
                         and potential disruption.

                   OCFO/National Finance Center (NFC)

                     •   OCFO/NFC has made significant improvements to ensure compliance
                         with Federal regulations is achieved; however, we found that
                         OCFO/NFC had not updated its directive and functional statements to
                         clearly define security responsibilities after its 2002 reorganization.
                         Further, OCFO/NFC had not completed all required background
                         investigations for individuals in high-risk positions. OCFO/NFC has
                         continued to make progress in these areas and completed its
                         certification and accreditation by September 30, 2004, in accordance
                         with departmental guidance. OCFO/NFC plans to initiate a review to
                         evaluate security responsibilities, and continue obtaining security
                         clearances as funds permit.         Without clearly defined security
                         responsibilities and adequate background investigations, OCFO/NFC
                         will not be adequately assured that its security management structure is
                         operating effectively; thus, putting its critical resources at increased
                         risk of loss, misuse, and improper modification.

                     •   We found OCFO/NFC personnel and some of its clients had access to
                         critical payroll and personnel applications that exceeded what was
                         required to perform their job functions. In some instances, the access
                         provided also violated separation of duty controls. This occurred
                         because OCFO/NFC had not adequately restricted access based on job
                         responsibilities or complied with its prescribed guidance to monitor
                         access for all its employees and external users. As a result,
                         OCFO/NFC systems are at an increased risk of inadvertent or
                         deliberate misuse without detection.

                     •   We also found that OCFO/NFC had not ensured that modems on its
                         network were adequately tracked or properly secured, that its firewall
                         configurations were appropriately maintained, or that logs were
                         periodically reviewed on its Web and Unix servers. This occurred
                         because OCFO/NFC had not established adequate controls or complied
USDA/OIG-A/50401-53-FM                                                                  Page 15
                         with its own guidelines to monitor and secure these critical network
                         resources. As a result, OCFO/NFC’s network is at unnecessary risk of
                         intrusion and unauthorized access that may not be detected in a timely
                         manner.

                     •   Finally, despite prior recommendations, we found that OCFO/NFC
                         needed to strengthen its controls over application changes. Although
                         OCFO/NFC was documenting application software change requests
                         and approvals, we found that OCFO/NFC needed to ensure that it (1)
                         completes documentation of application change testing, (2) performs
                         user acceptance testing on mandated application software changes, (3)
                         obtains users’ approval of application software requirements, and (4)
                         notifies users of emergency changes for subsequent review. These
                         occurred because OCFO/NFC was not adequately enforcing its
                         established guidance. Until these issues are addressed, OCFO/NFC
                         will face increased risk that application software changes may not meet
                         user needs, not operate as intended, or cause unforeseen adverse
                         impacts on the application.

                   While the Department and most of its agencies’ security staffs have taken
                   considerable actions in the past few years to improve the security over their
                   IT resources, significant progress is still needed toward establishing an
                   effective security program. However, departmental management needs to
                   strengthen its oversight of component agencies’ procedures for reporting
                   material information security weaknesses in accordance with the
                   requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the
                   Federal Financial Management Improvement Act (FFMIA), and the more
                   recent FISMA. We found that despite the extensive number of security
                   weaknesses we have continued to report over the past several years, USDA
                   component agencies’ fiscal year 2004 FMFIA Statements of Assurance and
                   FFMIA Remediation Plan submissions to the OCFO did not always include
                   the wide-range of information security weaknesses identified in USDA’s
                   financial management systems.

                   The component agencies were not reporting these weaknesses under the
                   FFMIA because it was not a requirement in the past, but they were also not
                   reporting them under FMFIA because OCIO reports a Department-wide
                   material information security weakness. In its fiscal year 2004 FMFIA
                   Assurance Statement, OCIO reports an overarching information security
                   deficiency in the Department’s ability to protect its assets from fraud, misuse,
                   disclosure, and disruption. OCIO states that “extensive and wide-ranging
                   weaknesses” within USDA information security programs are present, and
                   while much progress has been achieved, many problems remain. The
                   remedies provided in the FMFIA Assurance Statement are high-level
                   management actions and are not agency specific, identifying only the OCIO
                   as the responsible action official, instead of each agency head that is
USDA/OIG-A/50401-53-FM                                                                    Page 16
                   responsible for that specific agency’s progress towards resolving their
                   information security weaknesses.

                   We believe that improving the overall management and security of IT
                   resources should be a top priority in the Department. However, we believe
                   that agency managers are ultimately responsible and should also be held
                   accountable for committing the appropriate resources to implement an
                   effective security program within their agencies.

Recommendation No. 4

                   The OCIO and OCFO must ensure that reports required for FISMA, FMFIA,
                   and FFMIA are consistent and complete.




USDA/OIG-A/50401-53-FM                                                              Page 17
Section 2.   Internal Control Over Financial Reporting – Reportable Condition

                     Reportable conditions are matters coming to our attention relating to
                     significant deficiencies in the design or operation that, in our judgment, could
                     adversely affect the agency’s ability to record, process, summarize, and report
                     financial data consistent with the assertions by management in the
                     consolidated financial statements.




Finding 3            Credit Reform Processes and Practices Can Be Improved

                     In fiscal year 2001, the Department overcame longstanding problems in the
                     processes and procedures used to estimate and re-estimate the costs of loan
                     subsidies for loans made after fiscal year 1991. The Department’s Credit
                     Reform Task Force had worked diligently over 3 years to resolve the
                     longstanding weaknesses. In fiscal year 1999, the OCFO formed a task force
                     to resolve credit reform problems. This task force included representatives for
                     the lending agencies (Farm Service Agency, Rural Development, and
                     Commodity Credit Corporation) from both the financial and budget staff as
                     well as representatives from OCFO, OIG, GAO, and OMB.                    Upon
                     successfully overcoming the most serious weaknesses, the task force ceased
                     meeting on a regular basis.

                     However, changes to the Department’s credit reform practices and processes
                     have continued to evolve since fiscal year 2001. In order to comply with
                     accelerated financial reporting deadlines, the lending agencies revised their
                     approaches to perform the re-estimates earlier using data prior to fiscal year
                     end. Furthermore, the lending agencies worked to improve their cash flow
                     models and/or processes for inputting data into those models. Additional,
                     authoritative guidance continues to be issued as credit reform is a complex
                     area.

                     For example, in January 2004, the Federal Accounting Standards Advisory
                     Board issued Technical Release 6, “Preparing Estimates for Direct Loan and
                     Loan Guarantee Under the Federal Credit Reform Act.” The Department’s
                     lending agencies do not currently have a standardized, consistent approach for
                     performing trend analyses of total credit subsidy expense and its major
                     components, as required by the Technical Release.

                     In order to ensure full compliance with all guidance, address emerging issues,
                     and promote consistency and standardization, OIG recommends that OCFO
                     again provide leadership for the lending agencies and revive the USDA Credit
                     Reform Task Force.

USDA/OIG-A/50401-53-FM                                                                      Page 18
Recommendation No. 5

                  The OCFO should periodically reconvene the Department’s Credit Reform
                  Task Force as needed to ensure that its lending agencies continue to fully
                  comply with financial reporting requirements for loans; and that where
                  appropriate, the lending agencies’ activities are consistent and standardized.




USDA/OIG-A/50401-53-FM                                                                  Page 19
Section 3.   Compliance with Laws and Regulations

                    The management of USDA is responsible for complying with laws and
                    regulations applicable to it. As part of obtaining reasonable assurance about
                    whether the consolidated financial statements are free of material
                    misstatement, we performed tests of USDA compliance with certain
                    provisions of laws and regulations, noncompliance with which could have a
                    direct and material effect on the determination of the consolidated financial
                    statement amounts, and certain provisions of other laws and regulations
                    specified in OMB Bulletin No. 01-02, including certain requirements referred
                    to in the FFMIA.




Finding 4           Substantial Noncompliance with FFMIA Requirements

                    FFMIA builds on the foundation laid by the CFO Act by emphasizing the need
                    for agencies to have systems that can generate reliable, useful, and timely
                    information with which to make fully informed decisions and to ensure
                    accountability on an ongoing basis. With such information, Government
                    leaders will be better positioned to invest resources, reduce costs, oversee
                    programs, and hold agency managers accountable for the way they run
                    Government programs. For fiscal year 2004, we found USDA’s financial
                    management systems, as a whole, do not yet substantially comply with the
                    requirements of the Act, and system security weaknesses continue to expose
                    financial information to significant risk. We also found USDA management
                    needs to strengthen Department-wide standards and procedures for reviewing,
                    testing, and adequately documenting its financial systems’ compliance with
                    Joint Financial Management Improvement Program (JFMIP) Federal Financial
                    Management System Requirements (FFMSR).

                    Under FFMIA, agencies are required to annually assess whether their financial
                    management systems comply substantially with (1) Federal financial
                    management system requirements, (2) applicable Federal accounting
                    standards, and (3) the SGL at the transaction level. In addition, FISMA
                    requires each agency to report significant information security deficiencies,
                    relating to financial management systems, as a lack of substantial compliance
                    under FFMIA. FFMIA also requires auditors to report in their CFO Act
                    financial statement audit reports whether the agencies’ financial management
                    systems substantially comply with FFMIA’s systems requirements.

                    OMB Circular A-127, “Financial Management Systems,” which serves as the
                    source for Federal system requirements, specifically provides that agency
                    financial management systems shall conform to existing applicable functional

USDA/OIG-A/50401-53-FM                                                                   Page 20
                  requirements as defined in the FFMSR series issued by the JFMIP. In order to
                  support these requirements, each agency must have an ongoing financial
                  systems improvement planning process and periodically evaluate how
                  effectively and efficiently the financial management systems support the
                  agency’s changing business practices. Agencies are also expected to
                  implement, expeditiously, new functional requirements as they are established
                  and made effective through OMB Circulars and Bulletins and the Treasury
                  Financial Manual.

                  Agencies whose systems do not comply with one or all of the FFMIA
                  requirements are considered in substantial noncompliance with the Act.
                  Agencies that are not in substantial compliance with FFMIA must develop a
                  remediation plan that describes the findings or analysis of noncompliance and
                  identifies the resources, remedies, and milestones for achieving substantial
                  compliance. Agencies are also required to include their remediation plans in
                  their annual Performance and Accountability Reports.            Agencies are
                  responsible for agency progress towards resolving identified deficiencies and
                  such progress should be discussed in the agency’s remediation plan; however,
                  progress towards resolving the deficiencies should not be construed as
                  compliance with FFMIA.

                  For fiscal year 2004, our “standalone” audit agencies specifically reported the
                  following significant system nonconformances with FFMIA in their financial
                  statement audit reports:

                     •   Risk Management Agency (RMA)/FCIC financial auditors found
                         deficiencies in management’s policies and procedures to ensure its
                         financial management systems comply with current FFMSR and in
                         management’s documentation to support conclusions reached
                         regarding compliance with FFMIA. The auditors also again reported
                         significant IT security control weaknesses including (1) ineffective,
                         inappropriate, inconsistent, and excessive user access controls; and (2)
                         inadequate application program and database change controls which
                         support specific application systems.

                     •   Certification and accreditation of Rural Development’s Rural Utilities
                         Service legacy systems compliance with OMB Circular A-130 and
                         compliance with FFMSR will not be completed until fiscal year 2005,
                         although systems certifications and accreditations were completed on
                         all other Rural Development financial systems in July 2004. Rural
                         Development also continues to address material IT control weaknesses
                         we identified during fiscal year 2004 including access controls,
                         vulnerability identification and mitigation controls, application change
                         controls, and ineffective field office security controls.


USDA/OIG-A/50401-53-FM                                                                   Page 21
                                •    Farm Service Agency (FSA)/CCC needs to improve its funds control
                                     and financial reporting processes to fully comply with OMB Circular
                                     A-127 and improve its financial systems and processes for posting
                                     budgetary transactions in accordance with the SGL at the transaction
                                     level. Additionally, FSA/CCC financial auditors again noted several
                                     areas where improvements are needed in establishing and maintaining
                                     sustainable and repeatable information security controls and
                                     contingency planning capabilities to be in compliance with OMB
                                     Circular A-130.

                                •    Additionally, FS auditors reported noncompliance with multiple
                                     Federal accounting standards regarding (1) treatment of prior period
                                     adjustments and undetected variances in cumulative results of
                                     operations; (2) errors in accruals, unliquidated obligations, and
                                     recording timber and non-timber revenue; (3) stewardship reporting
                                     and various note disclosures; (4) accounting for leases and internal use
                                     software; and (5) not assessing the impact of remaining abnormal
                                     balances.

                            In addition to the noncompliance reported by the “standalone” audit agencies
                            listed above, we noted other information security control weaknesses during
                            our fiscal year 2004 FISCAM reviews that should have been reported as
                            FFMIA noncompliance by the Department and its component agencies. Those
                            weaknesses are described in Finding No. 2 of this report.

                            The Department made notable progress during the year in meeting corrective
                            action target dates and in completing system certification and accreditation for
                            a large number of its systems applications, but much work remains. Currently,
                            all scheduled completion dates are targeted for fiscal year 2005; however,
                            issues regarding modernization of systems continue to be and will remain
                            significant challenges in fiscal year 2005. These are complex areas and
                            significant efforts will be needed to accomplish the target dates without, again,
                            extending timeframes. We believe correcting these deficiencies should be a
                            primary concern and priority for the Department during fiscal year 2005.

                            During fiscal year 2004, we also found the Department had not performed a
                            documented review of its core financial management system’s compliance
                            with JFMIP’s FFMSR since 2000. The OCFO had not performed a review
                            because the system software4 was certified as JFMIP compliant, based on the
                            1999 requirements, at the time it was purchased and the certification did not
                            expire until 2003. However, the JFMIP updated its Core Financial System
                            Requirements5 in November 2001 to reflect changes in laws and regulations


4 American Management System Federal Financial System version 5.6.
5 “Federal Financial Management System Requirements” (JFMIP-SR-02-01, Nov. 2001) represents the latest update to the Core
Financial System Requirements document first issued in January 1988.
USDA/OIG-A/50401-53-FM                                                                                         Page 22
                  and in Government-wide reporting systems and revised several Core Financial
                  System Requirements in an addendum issued in March 2004. The Department
                  did not perform a review based on the updated FFMSR because it believed the
                  changes were not significant enough to warrant additional substantiating and
                  there were no Department-wide procedures requiring periodic reviews and
                  substantiation of financial systems’ compliance with updated requirements.

                  Under OMB Circular A-127 provisions that each agency shall ensure
                  appropriate reviews are conducted to determine whether its financial
                  management systems continue to comply with the JFMIP’s FFMSR, we
                  believe USDA management should establish Department-wide standards and
                  procedures for routinely reviewing, substantiating, and adequately
                  documenting its financial systems’ compliance with JFMIP FFMSR.
                  Agencies must continue to improve their financial systems and implement new
                  requirements as they are issued so that continuing efforts to standardize and
                  upgrade data and reporting requirements, in accordance with OMB’s
                  Government-wide 5-year financial management plan, and more recently the
                  President’s Management Agenda, will be successful. Also, because the
                  FFMIA statute codifies the FFMSR as key requirements that agency systems
                  must meet to be in substantial compliance with the provisions of the FFMIA,
                  as well as guidance for reviews of system compliance with the FMFIA, we
                  believe these instances of noncompliance and planned corrective actions
                  should be reported by the Department in accordance with these laws.

                  From recent discussions, Department officials have agreed to perform a more
                  thorough and documented review of its Core financial management system
                  during fiscal year 2005 and to begin efforts to develop Department-wide
                  standards and procedures for performing periodic reviews and substantiation
                  of financial systems’ compliance with current and updated financial
                  management system requirements. Improving Federal financial management
                  systems is critical to increasing the accountability of financial program
                  managers, providing better information for decision-making, and increasing
                  the efficiency and effectiveness of services provided by the Federal
                  Government.

Recommendation No. 6

                  Department management should continue to work with component agencies to
                  resolve the existing and newly-identified instances of FFMIA noncompliance
                  reported during the fiscal year 2004 financial statement audits and fully
                  disclose these deficiencies, along with the agencies’ corrective action plans in
                  the Department’s Performance and Accountability Report.




USDA/OIG-A/50401-53-FM                                                                   Page 23
Recommendation No. 7

                  USDA management needs to strengthen Department-wide standards and
                  procedures for routinely reviewing, substantiating, and adequately
                  documenting its financial systems’ compliance with JFMIP FFMSR and
                  ensure deficiencies are reported in accordance with FMFIA and FFMIA
                  requirements.




Finding 5          User Fee Reporting Needs Improvement

                   Our review disclosed errors and other deficiencies in the agencies’
                   submissions to OCFO entitled “CFO Biennial Review of Charges for Things
                   of Value.” OMB Circular No. A-25, “User Charges,” requires, in part, that
                   user charges be assessed to each identifiable recipient for special benefits
                   derived from Federal activities beyond those received by the general public.
                   Further, the Circular requires that user charges be sufficient to recover the
                   full cost of providing the special benefits incurred by the Federal
                   Government. The CFO Act of 1990 (Public Law 101-576, Section 205)
                   requires, in part, that the Chief Financial Officer “review, on a biennial basis,
                   the fee, royalties, rents and other charges imposed by the agency for services
                   and things of value it provides, and make recommendations on revising those
                   charges to reflect costs incurred by it in providing those services and things
                   of value.” We determined that the agency submissions were inadequate
                   because OCFO had not established a formal process to identify weaknesses in
                   the agencies’ reports. As a result, assurance was lacking that OCFO was in
                   compliance with the Act and the agencies were in compliance with OMB
                   Circular No. A-25.

                   We reviewed the 2004 user fee submissions of the Animal and Plant Health
                   Inspection Service (APHIS), the Agricultural Marketing Service, and the
                   Food Safety and Inspection Service to OCFO. We also reviewed the 2004
                   credit reform fee submissions of Rural Development and FSA to OCFO. We
                   selected these agencies for review because of their extensive user fee activity.
                   We also requested (and received) written confirmation from the Cooperative
                   State Research, Education, and Extension Service and the Natural Resources
                   Conservation Service that they had no programs for which user fees should
                   be charged.

                   Department Regulation (DR) 2100-3 requires that the agencies analyze their
                   financial activity and perform reviews to include, in part, an analysis of
                   current charges for things of value. The DR also states that “OCFO will

USDA/OIG-A/50401-53-FM                                                                     Page 24
                       review and consolidate the responses from the agency CFOs…,” and “OCFO
                       may conduct examinations of the agencies’ reviews on a sample basis.” Our
                       discussions with OCFO disclosed that the methodology to be employed in
                       these reviews was not documented and, thus, we could not independently
                       assess the adequacy of the control measures intended.

                       Our review of the agencies’ submissions identified issues which questioned
                       the utility of the reports and the level of assurance that could be garnered that
                       the requirements of the OMB Circular A-25 had been met. For example, the
                       report submitted by APHIS showed the following for various user fee
                       programs:

                                   Program                     Revenue                  Expense
                         International Air Passenger            $172,401,487             $172,401,487
                         Commercial Truck                         $4,492,935               $4,492,935
                         Commercial Vessel                       $23,840,488              $23,840,488
                         Aircraft Clearance                      $27,226,568              $27,226,568
                         Loaded Railcar                           $1,269,713               $1,269,713
                         Solid Wood Packing Materials                $15,189                  $15,189

                       When we discussed with agency officials the extraordinary accuracy with
                       which the user fees had been established, they then acknowledged that the
                       obligation data had been estimated to agree with actual revenues. They also
                       acknowledged that the process needed to be strengthened. As a result, there
                       was no assurance that full costs had been recouped, as required.

                       Further, the Food Safety and Inspection Service submission contained the
                       following for the user fee “Laboratory Accreditation Program:”

                       Total Revenue during fiscal year 2003 = $193,585

                       Total Full Cost during fiscal year 2003 = $697,124

                       When we inquired of agency officials why the deficit had occurred (i.e., why
                       fees had not been increased to cover full costs) we were told that the fee level
                       in prior years had been set too high, thus generating a sizeable surplus. As a
                       result, the agency reduced the fee to bring the fund closer to the required
                       break-even level. This means, however, that users in prior years were
                       overcharged and current years’ users have been provided an unwarranted
                       subsidy because of the inadequate rate–setting processes.

                    In addition, agencies which have credit reform programs are required by DR
                    2100-3 to submit their fee data annually in a specialized format. OMB
                    Circular No. A-129, “Managing Federal Credit Programs,” requires that
                    reviews of credit program fees be performed annually. Statement of Federal
                    Financial Accounting Standards No. 2 states, “the present value of fees and
USDA/OIG-A/50401-53-FM                                                                  Page 25
                   other collections is recognized as a deduction from subsidy costs.” The
                   Federal Credit Reform Act of 1990 defines cost as “the estimated long-term
                   cost to the Government of a direct loan or loan guarantee, calculated on a net
                   present value basis, excluding administrative costs.” Fees are collected to
                   offset subsidy costs.

                   We reviewed the credit reform fee submissions to OCFO from FSA and the
                   Rural Development mission area. We noted that frequently the fees charged
                   were insufficient to cover the subsidy costs of the programs. The
                   “Justification for Not Covering the Subsidy Cost of the Program” provided in
                   the agencies’ submissions appeared to be based on anecdotal, and not
                   documentary, evidence. For FSA’s Agricultural Credit Insurance Fund
                   (ACIF) program, for example, the justification reported as follows:

                         “It is our belief that raising user fees to cover the direct or full cost of
                         the program would prevent FSA from successfully providing
                         assistance to those who need it most and meeting the mission of FSA
                         Farm loans administered through the ACIF program.”

                   The (unrecouped) subsidy for this program was reported to be $81.6 million.

                   Rural Development’s submission contains several such “justifications.” For
                   example, one of the Rural Housing Insurance Fund programs submission
                   stated “Since the direct loan programs target rural families in the lowest
                   possible income brackets, requiring additional fees that would directly or
                   indirectly cost the targeted participants would impede the accessibility of the
                   programs.”

                   The subsidy for the Single Family Housing Loan program was $125.2
                   million.

                   Agency officials did not have documentation or analysis to support the
                   justifications for not covering the full cost of the direct and guaranteed loan
                   programs. Net program costs need to be minimized to comply with legal and
                   administrative requirements. Although the agencies’ views may be valid,
                   they should have documentation to support the level at which fees can be set
                   for direct and guaranteed loan programs to offset the subsidy and still retain
                   the required functionality of the programs.




USDA/OIG-A/50401-53-FM                                                                          Page 26
Recommendation No. 8

                   Prescribe a documented methodology for reviewing the reasonableness of
                   agency fee submissions and formalize a review schedule.

Recommendation No. 9

                   Require Rural Development and FSA to document their justifications for not
                   recouping the full costs of their programs.




USDA/OIG-A/50401-53-FM                                                               Page 27
Exhibit A – Audit Reports Related to the Fiscal Year 2004 Financial Statements


   AUDIT                                                                RELEASE
  NUMBER                         AUDIT TITLE                             DATE
              Fiscal Year 2004 Federal Information Security
50501-1-FM    Management Act Report                                   October 2004
              National Information Technology Center General
88501-1-FM    Controls Review-Fiscal Year 2004                        September 2004
              Federal Crop Insurance Corporation/Risk
              Management Agency’s Financial Statements for
05401-13-FM   Fiscal Years 2004 and 2003                              November 2004
              Commodity Credit Corporation’s Financial
06401-17-FM   Statements for Fiscal Years 2004 and 2003               November 2004
              Forest Service’s Financial Statement Audit for Fiscal
08401-4-FM    Years 2004 and 2003                                     November 2004
              Fiscal Year 2004 Review of the National Finance
11401-20-FM   Center General Controls                                 October 2004
              Rural Telephone Bank’s Financial Statements for
15401-5-FM    Fiscal Years 2004 and 2003                              November 2004
              Rural Development’s Financial Statements for Fiscal
85401-11-FM   Years 2004 & 2003                                       November 2004




USDA/OIG-A/50401-53-FM                                                                 Page 28
Exhibit B – Performance and Accountability Report




 USDA Performance and Accountability Report
            for Fiscal Year 2004



                         (Prepared by USDA)




USDA/OIG-A/50401-53-FM                              Page 29
                                         TABLE OF CONTENTS
Message from the Secretary................................................................................................... ii
About This Report ................................................................................................................. iv
I.      Management Discussion and Analysis..........................................................................1
        An Overview of the United States Department of Agriculture.................................................... 1
        Resources ..................................................................................................................................... 5
        Performance Goals and Results ................................................................................................... 6
        Future Demands, Risks, Uncertainties, Events, Conditions and Trends...................................... 8
        USDA’s Results Agenda—Implementing Federal Management Initiatives................................ 9
        Civil Rights ................................................................................................................................ 15
        Financial Statement Highlights.................................................................................................. 16
        Management Accountability and Control .................................................................................. 19
II.     Annual Performance Report .......................................................................................22
        Strategic Goal 1: Enhance Economic Opportunities for Agricultural Producers....................... 23
        Strategic Goal 2: Support Increased Economic Opportunities and Improved Quality
        of Life In Rural America............................................................................................................ 44
        Strategic Goal 3: Enhance Protection and Safety of the Nation’s Agriculture and
        Food Supply ............................................................................................................................... 57
        Strategic Goal 4: Improve the Nation’s Nutrition and Health ................................................... 79
        Strategic Goal 5: Protect and Enhance the Nation’s Natural Resource Base and
        Environment............................................................................................................................... 92
        Fiscal Year 2004 Program Obligations Incurred ..................................................................... 107
        Fiscal Year 2004 Staff Years ................................................................................................... 114
        Data Assessment of Performance Measures ............................................................................ 116
        Program Assessment Rating Tool (PART) Evaluations .......................................................... 138
        Program Evaluations ................................................................................................................ 160
III. Systems, Controls and Legal Compliance................................................................167
        Inspector General Act Amendments of 1988 Report on Audit Follow-Up ............................. 167
        Management’s Report on Final Action (Audit Follow-Up)..................................................... 171
        Federal Managers’ Financial Integrity Act Report on Management Controls........................ 174
        Federal Financial Management Improvement Act Report on Financial Management
        Systems .................................................................................................................................... 182
IV.     Financial Statements, Notes, Supplemental and Other Accompanying
        Information .................................................................................................................187
        Message From The Chief Financial Officer............................................................................. 188
        Consolidated Financial Statements .......................................................................................... 189
V.      Report of the Office of Inspector General Management’s Report ........................269
VI.     Appendicies .................................................................................................................304
        Appendix A—Management Challenges .................................................................................. 305
        Appendix B—Erroneous Payments and Recovery Auditing Details....................................... 331
        Appendix C—Table of Exhibits .............................................................................................. 344
        Appendix D—Acronyms ......................................................................................................... 347



                                                                                                                                              USDA
                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                  i
                  MESSAGE FROM THE SECRETARY
The United States Department of Agriculture (USDA) is pleased to share with
Congress, the Executive Branch and all Americans the important efforts and
progress undertaken over the course of the past year. From expanding the
economic security and opportunities available to farmers and ranchers, to
safeguarding the Nation’s food supply, to enhancing the quality of life in rural
America, to promoting nutrition and health, and to protecting our natural
resources, USDA has a proud record of accomplishment in 2004. We are
pleased to share the highlights of our efforts in this FY 2004 Performance and
Accountability Report.
USDA and its more than 100,000 employees directly touch the lives of virtually
every American every day. Evolving over 140 years, USDA is one of the most
complex departments in the Federal Government, with more than 300 programs
advancing a diverse array of significant public responsibilities. Annually, we
spend more than $75 billion. In 2004, these resources helped:
     Expand economic opportunities and security for farmers, ranchers and rural communities by
        effectively and efficiently implementing the Farm Security and Rural Investment Act of 2002;
     Aid U.S. agricultural producers impacted by severe weather conditions;
     Enhance U.S. farm export opportunities to record levels by advancing America’s commitment to free
        trade;
     Implement the President’s Healthy Forest Initative and removed 4 million acres of hazardous fuels
        from our public lands;
     Provide access to a healthy diet for 10 million needy households;
     Improve the health of low-income pregnant and postpartum women, infants and children;
     Support the increased use of renewable fuels, such as ethanol and biodiesel, to provide new revenues to
        farmers while reducing our Nation’s dependence on foreign fuel;
     Improve and expand conservation programs;
     Invest in infrastructure that can bring new economic opportunities and jobs to rural communities;
     Modernize the nutrition guidance we give the Nation to reflect the latest scientific information and to
        increase our efforts to combat obesity;
     Further advance food safety and protect U.S. agriculture from both existing and emerging threats; and
     Leverage technology to ensure the resources provided to us by Congress and the American people
        reach those who need them, with minimal expense and maximum impact.
This report reviews areas for improvement as well. Both Congress and taxpayers expect us to enhance our
performance continually. Equally true, we at USDA expect it of ourselves.
To ensure we have a strong foundation for the performance and accountability process, USDA managers have
reviewed the data used in this report. Except where we point out and discuss specific limitations, I hereby
provide reasonable assurance that the data we provide are valid, reliable and an accurate measure of where we
have made real progress and where we still have room for improvement. This effort complies with the Federal
Managers’ Financial Integrity Act (FMFIA), both in terms of the strength of our financial management systems
and the overall efficient, effective operations of our programs.




 USDA
   ii                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
FMFIA ensures that Federal programs are operated efficiently, effectively and in compliance with relevant
laws. Therefore, except for those areas for improvement identified in this document, USDA is providing
qualified assurance that our systems of internal control comply with FMFIA’s objectives. FMFIA also requires
financial systems to conform to certain standards, principles and other specifications to ensure timely, relevant
and consistent financial information. The Department’s financial management systems comply substantially
with the objectives of FMFIA, with the exception of the financial system nonconformance identified in this
report.
I am proud of our employees and the positive impact their diverse efforts have had on American life over the
past year. I also want to thank you for your interest in USDA and its work. I am pleased to share this
information with all of our stakeholders, and we look forward to reporting even more progress in the year
ahead.




Ann M. Veneman
Secretary of Agriculture
November 15, 2004




                                                                                                         USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               iii
                                ABOUT THIS REPORT
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic
planning process that directly aligns resources with results and enhances the accountability of all government
endeavors to the American taxpayers who finance them.
This results-oriented process includes the development and implementation of a five-year strategic plan, as well
as annual reporting that sets specific, measurable targets for performance at the beginning of each fiscal year
and then offers a concrete, data-based assessment at year-end of the success of these endeavors.
This FY 2004 Performance and Accountability Report is the year-end progress report of the U.S. Department of
Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at the beginning
of the fiscal year and compares initial targets to actual performance.
In addition to promoting accountability and enhancing the management of USDA programs, this reporting also
helps illuminate the strategic allocation of resources in the future, by directly linking program performance to
budgetary decisions.
This report aims to inform the decisions of policymakers who make critical choices that impact USDA
programs. It also strives to provide transparency to all Americans who have an interest in the workings of their
government and USDA’s ability to “manage for results” in performing its many vital public functions.




 USDA
   iv                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                    MANAGEMENT DISCUSSION AND ANALYSIS




I.           MANAGEMENT DISCUSSION AND ANALYSIS

AN OVERVIEW OF THE UNITED STATES DEPARTMENT OF
AGRICULTURE
Exhibit 1:          Headquarters Organization

                                                                   SECRETARY
                                                                   SECRETARY
                                                                  Deputy
                                                                  DeputySecretary
                                                                         Secretary




     Chief
     ChiefInformation
            Information       Chief
                              ChiefFinancial
                                    Financial                                         Executive
                                                                                       Executive              Director
                                                                                                               Directorof
                                                                                                                       of
                                                    Inspector
                                                     InspectorGeneral
                                                              General                                                                General
                                                                                                                                     GeneralCounsel
                                                                                                                                             Counsel
           Officer
           Officer                Officer
                                  Officer                                             Operations
                                                                                      Operations            Communications
                                                                                                            Communications




           Under Secretary      Under Secretary       Under Secretary            Under Secretary      Under Secretary      Under Secretary        Under Secretary
             for Natural         for Farm and            for Rural                  for Food,         for Food Safety       for Research,        for Marketing and
           Resources and            Foreign            Development                Nutrition, and                            Education and            Regulatory
            Environment           Agricultural                                     Consumer                                  Economics               Programs
                                   Services                                         Services
          • Forest Service     • Farm Service        • Rural Utilities          • Food and            • Food Safety and   • Agricultural         • Agricultural
          • Natural              Agency                Service                    Nutrition Service     Inspection          Research Service       Marketing
            Resources          • Foreign             • Rural Housing            • Center for            Service           • Cooperative State      Service
            Conservation         Agricultural          Service                    Nutrition Policy                          Research,            • Animal and Plant
            Service              Service             • Rural Business-            and Promotion                             Education, and         Health Inspection
                               • Risk                  Cooperative                                                          Extension Service      Service
                                 Management            Service                                                            • Economic             • Grain Inspection,
                                 Agency                                                                                     Research Service       Packers and
                                                                                                                          • National               Stockyards
                                                                                                                            Agricultural           Administration
                                                                                                                            Statistics Service




                                         Assistant
                                         AssistantSecretary
                                                     Secretary     Assistant
                                                                   AssistantSecretary
                                                                             Secretary       Assistant
                                                                                             AssistantSecretary
                                                                                                         Secretary
                                          for
                                           forCongressional
                                              Congressional        for
                                                                    forAdministration
                                                                       Administration          for
                                                                                                forCivil
                                                                                                   CivilRights
                                                                                                         Rights
                                               Relations
                                               Relations




                 1. Mission Statement:
                          The United States Department of Agriculture provides leadership on food,
                          agriculture, natural resources and related issues based on sound public policy,
                          the best-available science and efficient management.


The United States Department of Agriculture (USDA) is a diverse and complex organization with programs that
touch the lives of all Americans every day. More than 100,000 employees deliver more than $75 billion in
public services through USDA’s more than 300 programs worldwide, leveraging an extensive network of
Federal, State and local cooperators.
Founded by President Abraham Lincoln in 1862, when more than half of the Nation’s population lived and
worked on farms, USDA’s role has evolved alongside the United States (U.S.) economy and America. Today,
USDA improves the Nation’s economy and quality of life by:
    Enhancing economic opportunities for U.S. farmers and ranchers;
    Ensuring a safe, affordable, nutritious and accessible food supply;
    Caring for public lands and helping people care for private lands;
    Supporting the sound, sustainable development of rural communities;



                                                                                                                                                           USDA
                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                        1
 MANAGEMENT DISCUSSION AND ANALYSIS




          Expanding global markets for agricultural and forest products and services; and
          Working to reduce hunger and improve America’s health through nutrition.
Addressing these timeless concerns in the modern era presents its share of challenges today. America’s food
and fiber producers operate in a global, technologically advanced, rapidly diversifying and highly competitive
business environment that is driven by sophisticated consumers.
This report provides information on USDA’s core performance measures as described in its revised FY 2004
Annual Performance Plan. There are five strategic goals that guide the Department today. They are:
     To enhance economic opportunities for agricultural producers;
     To support increased economic opportunities and improved quality of life in rural America;
     To enhance protection and safety of the Nation’s agriculture and food supply;
     To improve the Nation’s nutrition and health; and
     To protect and enhance the Nation’s natural resource base and environment.
The primary legislative authority guiding USDA’s efforts today is the Farm Security and Rural Investment Act
of 2002 (FSRIA). This law aims to advance: a reliable, safe and affordable food and fiber supply; sound
stewardship of agricultural land and water resources; the economic opportunities available for American farm
products at home and abroad; continued economic and infrastructure development in rural America; and
leading-edge research to maintain an efficient and innovative agricultural and food sector.
Some of the more substantial reforms called for by this legislation include:
    Introducing counter-cyclical farm income support to assist farmers during hard times;
    Expanding conservation programs and adding emphasis on farm environmental practices;
    Making more borrowers eligible for Federal farm credit assistance;
    Restoring food stamp eligibility for legal immigrants;
    Adding several commodities to those requiring country-of-origin labeling;
    Introducing animal welfare provisions; and
    Enhancing the Nation’s biobased product and bioenergy programs.
As USDA moves into the third year of implementing this legislation, FY 2004 key milestones include:
     Releasing nearly $1.5 billion in funding for conservation programs on working lands;
     Allocating States $1.2 billion in financial assistance and $305 million for technical assistance for
      FSRIA programs and other activities. USDA will use at least $30 million for technical service
      providers and nearly $41 million to implement the new Conservation Security Program (CSP) under a
      final rule that will be published shortly. The allocation also includes $54 million in financial assistance
      for the Grasslands Reserve Program, which the Department hopes to operate this year under an interim
      final rule that will be published shortly;
     Publishing an interim final rule for Conservation Innovation Grants and announced the availability of
      $15 million to fund selected grant proposals in 2004;
     Publishing a final rule for the McGovern-Dole International Food for Education and Child Nutrition
      Program and signing agreements with cooperating sponsors fully allocating $100 million of assistance
      authorized for FY 2003;
     Publishing a final rule for the Technical Assistance for Specialty Crops Program and allocating
      $2 million of assistance authorized for FY 2003;
     Issuing purchase specifications involving irradiated food products for use by schools wishing to
      purchase such products for school feeding programs;
     Awarding $5 million in food stamp participation grants to State agencies;



 USDA
   2                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          MANAGEMENT DISCUSSION AND ANALYSIS




       Publishing a Notice of Funding Availability, implementing the Beginning Farmer and Rancher
        Contract Land Sales Program;
       Providing funds to help rural businesses create or save more than 81,000 jobs;
       Approving $150 million of funding for broadband loans and reviewing additional applications;
       Awarding $10 million in grants for 10 agricultural innovation centers;
       Awarding $23 million in grants under the Renewable Energy and Energy Efficiency program for
        FY 2004 to help rural small businesses, farmers and ranchers develop renewable energy systems and
        promote energy efficiency improvements;
       Awarding with the U.S. Department of Energy (DOE) a total of $25 million in grants under the USDA
        and DOE’s joint Biomass Research and Development Program to 24 projects in FY 2004;
       Making almost $150 million in Bioenergy Program producer payments for FY 2004;
       Publishing a final rule regarding blood and tissue collection to improve surveillance programs for
        animal diseases, contribute to the eventual control or eradication of such diseases, and assist in
        certifying the status of the U.S. or its regions with regard to freedom from specific animal diseases;
        and
       Utilizing approximately $300 million to purchase fruits, vegetables, and other specialty crops for
        distribution through USDA nutrition assistance programs. $50 million has been made available to the
        Department of Defense for procurement of fresh fruits and vegetables.

MISSION AREAS
To ensure that USDA’s efforts focus squarely on meeting its real world objectives, the Department’s work is
organized by mission areas, which are a collection of agencies that work together to achieve USDA’s
aforementioned strategic goals. USDA’s seven mission areas follow.

Natural Resources and Environment
The Natural Resources and Environment (NRE) mission area consists of the Forest Service (FS) and the Natural
Resources Conservation Service (NRCS). These agencies work to ensure sustainable management of both
public and private lands. FS manages 192 million acres of National Forests and Grasslands for the American
people. NRCS assists farmers, ranchers and other private landowners in managing their acreage for
environmental and economic sustainability. Both agencies work in partnership with Tribal, State and local
Governments, communities, related groups and other Federal agencies to protect the Nation’s soils, watersheds
and ecosystems.

Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area is comprised of the Farm Service Agency
(FSA), which delivers most traditional farm programs, the Foreign Agricultural Service (FAS), which assists
with U.S. agricultural exports, and the Risk Management Agency (RMA), which predominately handles
programs aimed at helping farmers and ranchers weather the unavoidable challenges inherent in agriculture,
such as natural disasters.
This mission area also includes two Government-owned corporations. The Commodity Credit Corporation
(CCC) exists to stabilize farm income and prices in order to help ensure an adequate, affordable supply of food
and fiber. This Corporation is the financial mechanism by which agricultural commodity, credit, export,
conservation, disaster and emergency assistance is provided. The Federal Crop Insurance Corporation (FCIC)
improves the economic stability of agriculture through a sound system of crop insurance.




                                                                                                        USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               3
 MANAGEMENT DISCUSSION AND ANALYSIS




Rural Development
The Rural Development (RD) mission area focuses on creating economic opportunities and improving the
quality of life in rural America. From rural infrastructure projects that finance the delivery of everything from
safe, running water to high-speed Internet access to housing programs and economic development initiatives,
this mission area unites a variety of valuable programs that together comprise the backbone of Federal efforts to
ensure rural communities are full participants in economic and other community opportunities of modern day
America.

Food, Nutrition and Consumer Services
The Food, Nutrition and Consumer Services (FNCS) mission area is comprised of the Food and Nutrition
Service (FNS), which administers Federal nutrition programs, and the Center for Nutrition Policy and
Promotion (CNPP), which provides science-based dietary guidance to the Nation. USDA’s Federal nutrition
assistance programs include the Food Stamp Program, Child Nutrition Programs, such as school lunches, and
the Special Supplemental Nutrition Program for Women, Infants and Children. These programs provide vital
access to nutritious food and support for better dietary habits for one in five Americans. USDA’s nutrition
research and promotion efforts aid all Americans by linking cutting-edge scientific research to the nutritional
needs of consumers.

Food Safety
The Food Safety Mission Area is comprised of the Food Safety and Inspection Service (FSIS), which ensures
the safety, wholesomeness and correct labeling and packaging of meat, poultry and egg products. FSIS sets
public health performance standards for food safety, and inspects and regulates these products in interstate and
international commerce, including imported products. This mission area has significant responsibilities
coordinating efforts among various Federal agencies, including the Department of Health and Human Services
and the Environmental Protection Agency.

Research, Education and Economics
The Research, Education and Economics (REE) mission area brings together all of the efforts underway
throughout USDA to advance a safe, sustainable and competitive U.S. food and fiber system through science
and the translation of science into real-world results. This mission area is integrally involved with every aspect
of USDA’s work. REE is comprised of the Agricultural Research Service (ARS), the Cooperative State
Research, Education and Extension Service (CSREES), the Economic Research Service (ERS) and the National
Agricultural Statistics Service (NASS).

Marketing and Regulatory Programs
The Marketing and Regulatory Programs (MRP) mission area is made up of the Agricultural Marketing Service
(AMS), the Animal and Plant Health Inspection Service (APHIS) and the Grain Inspection, Packers and
Stockyards Administration (GIPSA). This mission area facilitates the domestic and international marketing of
U.S. agricultural products, including food and fiber, livestock, and grain through a wide variety of efforts,
including the development of national and international agricultural trade standards via Federal, State and
international cooperation. This mission area also conducts increasingly critical and sophisticated efforts to
protect U.S. agriculture from plant and animal health-related threats and ensures the humane treatment of
animals.

DEPARTMENTAL OFFICES
Department-level offices provide centralized leadership, coordination and support for USDA’s policy and
administrative functions. Their efforts support agencies to maximize the time, energy and resources they devote
to the delivery of services to USDA customers and stakeholders.




 USDA
   4                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                   MANAGEMENT DISCUSSION AND ANALYSIS




RESOURCES
Congressional appropriations are the primary funding source for USDA operations. FY 2004 program
obligations totaled $114,289 million, a decrease of $4,561 million compared to FY 2003. Staff year resources
totaled 111,501, rising 2,258 compared to FY 2003.
Exhibit 2:               FY 2004 and 2003 USDA Program Obligations Dedicated to Strategic Goals*


                                                  USDA Program Obligations Dedicated to Strategic Goals

                                        FY 2004 Actual                                                                                        FY 2003 Actual


                           2004 Program Obligations                                                                            2003 Program Obligations

                   Strategic Goal 5:                                                                                     Strategic Goal 5:
                   Protect and Enhance                                                                                   Protect and Enhance
                   the Nation’s Natural                                                                                  the Nation’s Natural
                   Resource Base and                                                                                     Resource Base and
                   Environment — 8%                                                                                      Environment — 10%




                                                                      Strategic Goal 1:
                                                                      Enhance Economic
                                                                      Opportunities for
 Strategic Goal 4:                                                                                Strategic Goal 4:                                                           Strategic Goal 1:
                                                                      Agricultural Producers
 Improve the Nation’s                                                                             Improve the Nation’s                                                        Enhance Economic
 Nutrition and Health                                                 — 34%
                                                                                                  Nutrition and Health                                                        Opportunities for
 — 40%                                                                                            — 35%                                                                       Agricultural Producers
                                                                                                                                                                              — 39%


                                                         Strategic Goal 2:                                                                                Strategic Goal 2:
                           Strategic Goal 3:             Support Increased                                             Strategic Goal 3:                  Support Increased
                           Enhance Protection            Economic                                                      Enhance Protection                 Economic
                           and Safety of the             Opportunities and                                             and Safety of the                  Opportunities and
                           Nation’s Agriculture          Improved Quality of                                           Nation’s Agriculture               Improved Quality of
                           and Food Supply               Life in Rural America                                         and Food Supply                    Life in Rural America
                           — 3%                          — 15%                                                         — 3%                               — 13%



 *The sum of the pie chart percentages may be greater than 100 percent because of rounding.

Exhibit 3:               FY 2004 and 2003 USDA Staff Years Dedicated to Strategic Goals*


                                                          USDA Staff Dedicated to Strategic Goals

                                       FY 2004 Actual                                                                                         FY 2003 Actual


                                       2004 Staff Years                                                                                   2003 Staff Years

                                                                                                                                                                       Strategic Goal 1:
                                                                 Strategic Goal 1:                                                                                     Enhance Economic
                                                                 Enhance Economic                                                                                      Opportunities for
                                                                 Opportunities for                                                                                     Agricultural Producers
                                                                 Agricultural Producers                                                                                — 23%
                                                                 — 23%
 Strategic Goal 5:                                                                              Strategic Goal 5:
 Protect and Enhance                                                                            Protect and Enhance
 the Nation’s Natural                                                                           the Nation’s Natural
 Resource Base and                                                                              Resource Base and
 Environment — 49%                                                                              Environment — 47%                                                                 Strategic Goal 2:
                                                                      Strategic Goal 2:                                                                                           Support Increased
                                                                      Support Increased                                                                                           Economic Opportunities
                                                                      Economic Opportunities                                                                                      and Improved Quality of
                                                                      and Improved Quality of                                                                                     Life in Rural America —
                                                                      Life in Rural America —                                                                                     8%
                                                                      8%

                                                            Strategic Goal 3:                                                                                         Strategic Goal 3:
                                                            Enhance Protection                                                                                        Enhance Protection
                        Strategic Goal 4:                                                                                Strategic Goal 4:
                                                            and Safety of the                                                                                         and Safety of the
                        Improve the Nation’s                                                                             Improve the Nation’s
                                                            Nation’s Agriculture                                                                                      Nation’s Agriculture
                        Nutrition and Health                                                                             Nutrition and Health
                                                            and Food Supply                                                                                           and Food Supply
                                                                                                                         — 3%
                        — 3%                                — 18%                                                                                                     — 20%




 *The sum of the pie chart percentages may be greater than 100 percent because of rounding.




                                                                                                                                                                                             USDA
                              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                                      5
 MANAGEMENT DISCUSSION AND ANALYSIS




PERFORMANCE GOALS AND RESULTS
Of the 31 performance goals contained in USDA’s FY 2004 Revised Annual Performance Plan, 24 were met or
exceeded, three were reported as deferred (unable to report the necessary data until a specified date) and four
were unmet. The following Performance Scorecard table, organized by USDA’s strategic goals and objectives,
provides a summary of the Department’s performance results. Additional analyses of these results can be found
in the Performance Section of this report. Information on data quality is contained in the Data Assessment of
Performance Measures section.
Exhibit 4:   USDA Scorecard for FY 2004

                                      Performance Scorecard for FY 2004
          Objectives                               Annual Performance Goals                                    Result
 Strategic Goal 1: Enhance Economic Opportunities for Agricultural Producers
 1.1    Expand International     1.1.1   Dollar value of trade preserved through FAS staff interventions      Exceeded
        Marketing                        and trade agreement monitoring
        Opportunities
 1.2    Support International    1.2.1   Improve food security and nutrition through McGovern-Dole              Met
        Economic                         International Food for Education and Child Nutrition Program by
        Development and                  providing daily meals and take-home rations for mothers, infants
        Trade Capacity                   and school children
        Building
 1.3    Expand Alternative       1.3.1   Increase in bioenergy production                                     Exceeded
        Markets for              1.3.2   Number of generic groupings of biobased products designated for       Unmet
        Agricultural Products            preferred procurement by Federal agencies
        and Activities
 1.4    Provide Risk             1.4.1   Increase the value of risk protection provided to agriculture        Exceeded
        Management and                   producers through FCIC-sponsored insurance
        Financial Tools to       1.4.2   Increase the percent of loans to beginning and socially              Exceeded
        Farmers and                      disadvantaged farmer/ranchers
        Ranchers
 Strategic Goal 2: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 2.1     Expand Economic        2.1.1  Create or save additional jobs through USDA financing of        Exceeded
         Opportunities through         businesses
         USDA Financing of
         Businesses
 2.2    Improve the Quality of   2.2.1   Improve the quality of life in rural America through                 Exceeded
        Life in Rural America            Homeownership
        through USDA             2.2.2   Increase the number of subscribers receiving upgraded water          Exceeded
        Financing of Quality             and/or waste-disposal service
        Housing, Modern
        Utilities and Needed     2.2.3   Increase the number of subscribers receiving new and/or              Exceeded
        Community Facilities             improved electric facilities
                                 2.2.4   Increase financing to support high-speed telecommunication            Unmet
                                         services (broadband)
                                 2.2.5   Provide access for residents to new and/or improved essential          Met
                                         community facilities
 Strategic Goal 3: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
 3.1     Enhance the           3.1.1   Prevalence of Salmonella on broiler chickens                            Unmet
         Protection of Meat,   3.1.2   Prevalence of Listeria Monocytogenes in ready-to-eat meat and            Met
         Poultry and Egg               poultry products
         Products from
         Foodborne Hazards in 3.1.3    Prevalence of E. coli 0157:H7 on ground beef                             Met
         the United States     3.1.4   Millions of viewings of food safety messages                           Exceeded
 3.2    Reduce the Number        3.2.1   Number of significant introductions of foreign animal diseases and     Met
        and Severity of                  pests that spread beyond the original area of introduction and
        Agricultural Pest and            cause severe economic or environmental damage, or damage to
        Disease Outbreaks                the health of animals or humans




 USDA
   6                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                 MANAGEMENT DISCUSSION AND ANALYSIS




                                           Performance Scorecard for FY 2004
         Objectives                                     Annual Performance Goals                             Result
                                 3.2.2    Number of animals affected by noncompliances documented on         Unmet
                                          inspection reports
                                 3.2.3    Percent of facilities in complete compliance at the most recent     Met
                                          inspection
                                 3.2.4    Improve the capabilities of animal and plant diagnostic             Met
                                          laboratories
                                 3.2.5    Provide scientific information to protect animals from pests,       Met
                                          infectious diseases, and other disease-causing entities that
                                          impact animal and human health
 Strategic Goal 4: Improve the Nation’s Nutrition and Health
 4.1     Improve Access to      4.1.1   Improve Access to Nutritious Food                                   Deferred
         Nutritious Food
 4.2    Promote Healthier        4.2.1    Healthy Eating Index (HEI) for people with incomes under 130%     Deferred
        Eating Habits and                 of poverty in the U.S. population
        Lifestyles               4.2.2    Determine food consumption patterns of Americans and provide      Exceeded
                                          sound scientific analyses of the U.S. food consumption
                                          information to enhance the effectiveness and management of the
                                          Nation’s domestic food and nutrition assistance program
 4.3    Improve Food             4.3.1    Improve Food Program Management and Customer Service              Deferred
        Program Man-
        agement and
        Customer Service
 Strategic Goal 5: Protect and Enhance the Nation’s Natural Resource Base and Environment
 5.1    Implement the            5.1.1    Number of acres of hazardous fuel treated that are in the         Exceeded
        President’s Healthy               wildland-urban interface (WUI)
        Forests Initiative and   5.1.2    Number of acres of hazardous fuel treated that are in Condition   Exceeded
        Other Actions to                  Classes 2 or 3 in Fire Regimes 1, 2, or 3 outside the WUI
        Improve Management
        of Public Lands
 5.2    Improve Management       5.2.1    Conservation plans written for cropland and grazing lands (Mil      Met
        of Private Lands                  acres)
                                 5.2.2:   Cropland and grazing lands with conservation applied to protect     Met
                                          the resource base and environment
                                 5.2.3    Agricultural wetlands created or restored through the Wetlands      Met
                                          Reserve Program
                                 5.2.4    Reduction in average annual flood damage                          Exceeded



ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives. While
substantial anecdotal information exists that USDA has been successful in pursuing its strategic objective to
improve the Nation’s nutrition and health, with the exception of research goals, the Department has deferred
reporting on these goals until accurate and complete data is available to document the progress of these efforts
in FY 2004. Sometimes circumstances arise that result in the Department falling short of its goals. At other
times, the Department consciously alters its approach in ways that enhance its service to the public, but make a
specific performance goal a less effective indicator of real progress. The Annual Performance Report section of
this report offers further discussion of the Department’s actions on its goals.
      Performance goal 1.3.2—Unmet. Number of generic groupings of biobased products designated for
         preferred procurement by Federal agencies. While new regulations advancing this performance goal
         are moving forward, they were not published in the Federal Register in time to be counted
         appropriately as achieved in FY 2004.




                                                                                                               USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                    7
 MANAGEMENT DISCUSSION AND ANALYSIS




          Performance goal 2.2.4—Unmet. Increase financing to support high-speed telecommunication
           services (broadband). Factors that contributed to this performance goal being unmet are new program
           authority allowing refinancing and making larger loans than anticipated (hence fewer loans). The first
           factor (refinance previous RUS loans) greatly altered the assumptions used in setting the target and
           may require adjustments of future targets. The second factor (fewer large loans) is a temporary
           anomaly and should not impact future targets. However, USDA will monitor this, and will reevaluate
           the target if any trends indicate the need to reevaluate how many loan dollars are needed per subscriber
           receiving new or improved service.
          Performance goal 3.1.1—Unmet. Prevalence of Salmonella on Broiler Chickens. USDA consistently
           strives to reduce the prevalence of all leading causes of foodborne illness. However, the percentage of
           positive Salmonella samples in broiler chickens increased by almost 2 percent, despite the fact that
           most establishments continued to pass the performance standard established in 1996.
          Performance goal 3.2.2—Unmet. Number of animals affected by noncompliances documented on
           inspection reports. While the number of animals involved in noncompliance findings increased by 5.7
           percent to 364,773 in FY 2004, leaving USDA’s performance goal unmet, these numbers contradict a
           positive story. During the course of the past year, USDA field inspectors focused primarily on high-
           risk facilities. With more animals to oversee, large facilities are more likely to carry higher risks. As a
           result, inspectors counted more animals being affected by noncompliances; however, this is mainly
           attributable to their vigilance over larger facilities.
          Performance goal 4.1.1—Deferred. Improve access to nutritious food. The measure has been deferred
           due to unavailable data.
          Performance goal 4.2.1—Deferred. Promote the Healthy Eating Index. The measure has been
           deferred due to unavailable data.
          Performance goal 4.3.1—Deferred. Improve Food Program Management and Customer Service. The
           measure has been deferred due to unavailable data.

FUTURE DEMANDS, RISKS, UNCERTAINTIES, EVENTS, CONDITIONS
AND TRENDS
USDA is influenced by many of the same forces that shape the American economy—globalization of markets,
scientific advances and fundamental changes in the Nation’s family structure and workforce. U.S. farmers and
food companies operate in highly competitive markets with constantly changing demand for high-quality food
with a variety of characteristics, including convenience, taste and nutrition.
In addition to these enduring factors, homeland security has emerged as a significant, ongoing priority for
USDA. The Department is working with the U.S. Department of Homeland Security to help protect agriculture
from intentional and accidental acts that might affect America’s food supply or natural resources.
External factors that will challenge USDA’s ability to achieve its desired outcomes include:
     Weather-related hardships and other uncontrollable events at home and abroad;
     Domestic and international macroeconomic factors, including consumer purchasing power, the
         strength of the U.S. dollar, and political changes in other countries that can impact domestic and global
         markets greatly in any year;
     The availability of funds for financial assistance provided by Congress and the local and national
         economies. Sharp fluctuations in farm prices, interest rates and unemployment also impact the ability
         of farmers, other rural residents, communities and businesses to qualify for credit and manage their
         debts;
     The impact of future economic conditions and actions by a variety of Federal, State and local
         Governments that will influence the sustainability of rural infrastructure;



 USDA
   8                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                            MANAGEMENT DISCUSSION AND ANALYSIS




        The increased movement of people and goods, which provides the opportunity for crop and animal
         pests and diseases to move quickly across national and international boundaries;
        Potential exposure to hazardous substances, which may threaten human health and the environment
         and the ability of the public and private sectors to collaborate effectively on food safety, security and
         related emergency preparedness efforts;
        Reducing the risk of catastrophic fire is dependent on weather, drought conditions and the expanding
         number of communities in the wildland-urban interface; and
        The fact that efforts to reduce hunger and improve dietary behaviors depend on strong coordination
         between USDA and a wide array of Federal, State and local partners, and effective compliance by
         partners is vital.

USDA’S RESULTS AGENDA—IMPLEMENTING FEDERAL
MANAGEMENT INITIATIVES
USDA is working to strengthen its focus on results through vigorous execution of the President’s Management
Agenda (PMA). This agenda focuses on management improvements that help USDA consistently deliver more
efficient and effective programs to its stakeholders. This process is designed to improve customer service and
provide more effective stewardship of taxpayer funds. In the Department’s current Strategic Plan, released in
September 2002, USDA announced that it expected to:
      Ensure an efficient, high-performing, diverse, competitively sourced workforce, aligned with mission
          priorities and working cooperatively with USDA partners and the private sector;
      Enhance internal controls, data integrity, management information and program and policy
          improvements as reflected by an unqualified audit opinion, and a reduction of erroneous payments by
          USDA programs;
      Implement business processes and information technology needed to make services available
          electronically; and
      Link budget decisions and program priorities more closely with program performance, and recognize
          the full cost of programs.
USDA employees are charged with executing these management initiatives. Their work makes USDA’s
programs real “on the ground”—where customer service is delivered. While USDA has achieved much, there is
more to be done. The PMA calls for the Office of Management and Budget (OMB) to score departments on
each initiative. Green indicates success, yellow indicates mixed results and red indicates an unsatisfactory score.
There are two scores awarded. “Status” indicates that a department is meeting the standards established for
success. “Progress” indicates that a department is progressing adequately in meeting established deliverables
and timelines. As of September 30, 2004, USDA had earned a “green” progress score for all but one of its
initiatives. The following is a summary of major USDA management initiatives and FY 2004 highlights.

HUMAN CAPITAL
USDA always has been focused on results. A key to meeting USDA’s program goals is a high performing
workforce focused on delivering services to the American people. The future success of the “People’s
Department” (as President Abraham Lincoln referred to USDA) will be determined in part by how well it meets
its “people needs.” As USDA looks to the future, some challenges remain: (1) improving its strategic workforce
planning and alignment; (2) maintaining a results-oriented performance culture; (3) enhancing leadership and
employee development; and (4) retaining and recruiting a diverse, highly skilled workforce.
New performance standards have been established for the Senior Executive Service (SES) and GS-14 and
GS-15 managers. New standards will be established for about 60 percent of all employees by January 2005.
With these standards, employees will understand better the contributions they make to the missions and goals of




                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  9
 MANAGEMENT DISCUSSION AND ANALYSIS




the Department. Employees also will have more clearly defined expectations and feedback on their
performance.
The newly launched AgLearn system provides greater development opportunities for employees and tools for
managers. AgLearn is an online system that offers access to training 24 hours a day. Managers can supervise
staff development, offer more courses at a lower cost and track employees’ progress. While AgLearn is
expected to reduce training costs, the biggest result will be providing more career advancement opportunities to
USDA employees. This year AgLearn became available to all employees across the Department.
To help fill the vacancies that will be created by the large number of USDA senior executives eligible to retire,
USDA created the SES Candidate Development Program, which includes developmental assignments, formal
interagency executive training, leadership forums and guidance from a senior executive mentor. The initial class
of 80 candidates, selected through a rigorous merit-based selection process, graduated in July 2004. Four of the
candidates already have been selected for senior positions.
To improve the skills of USDA staff who work with unions and bargaining units, the Office of Human
Resources Management developed a five-day course that is helping employees understand basic labor-relations
functions. As a result, practitioners and managers are able to recognize, prevent and resolve labor-management
disputes, and meet their collective-bargaining obligations more effectively.
To expedite hiring employees, USDA is pilot testing an automated hiring system. This process allows position
descriptions and vacancy announcements to be posted within minutes. Interested job seekers can review
vacancy announcements 24 hours a day. They also can answer position-specific questions to create, edit and
submit electronic resumes. The system rates and ranks applicants resulting in quicker identification of the best-
qualified candidates. Additionally, to meet future hiring needs, USDA enhanced its internship programs.
USDA made great strides in the area of Human Capital, which earned it a “green” rating for progress on the
OMB Scorecard. The Department earned the “green” by:
    Reviewing the Human Resource Management System and selecting a new Human Capital Executive to
      assist in leading the Human Capital initiative;
    Implementing mid-level succession plans in all agencies;
    Reviewing and refocusing the USDA Human Capital Plan;
    Deploying strategies to address talent and leadership gaps in mission critical occupations; and
    Implementing a results-oriented performance system for executives that cascades down to GS-14 and
      GS-15 supervisors, and aligns to strategic mission accomplishment.

COMPETITIVE SOURCING
During the past year, USDA made organizational changes to increase accountability and improve oversight of
its Competitive Sourcing Initiative. A key component of the President’s Management Agenda, this initiative
calls on all Federal agencies to create a more market-based government that enhances service and reduces costs
through public-private competition initiatives. The Department’s early efforts in this area did not result in cost
savings and management efficiencies. USDA has identified a number of root causes:
      Many of the studies focused on too small an area of work;
      There was inadequate market research; and
      Competitions were not structured strategically.
For the Competitive Sourcing initiative, USDA earned a score of “yellow” for progress on the management
scorecard, appropriately indicating the mixed results of its early efforts. The Department now is working to
fine-tune its use of competitive sourcing. USDA is working to ensure that the studies it conducts reflect more
strategically grouped and related functions to maximize the impact of this initiative. The Department also now
requires that a feasibility study, including cost-benefit analysis, be completed prior to conducting a competitive
sourcing study. This will ensure that functions selected for public-private sector competitions will result in an


 USDA
  10                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          MANAGEMENT DISCUSSION AND ANALYSIS




organization implemented with lower costs and increased management efficiencies. Studies are now being
linked to agency human capital plans to ensure work force planning and restructuring, and retention goals are
met while achieving cost savings.
During FY 2004, USDA made significant progress toward a successful Competitive Sourcing Initiative. Forest
Service (FS) conducted a study examining 1,200 positions supporting its information technology infrastructure.
The Natural Resource and Conservation Service (NRCS) also completed a competition of 96 positions at the
National Cartography and Geospatial Center. In both cases, the agency was the winning service provider.
USDA expects significant efficiencies and cost savings totaling $173.9 million over a five-year period as a
result of its competitions.

FINANCIAL PERFORMANCE
USDA’s Financial Performance is overseen by the Office of the Chief Financial Officer (OCFO), which works
in partnership with all USDA agencies to ensure the Department’s financial management reflects sound
business practices. The President’s Management Agenda requires all Federal agencies to maintain an
unqualified financial statement audit opinion, which indicates a Department’s financial statements are free of
significant errors or misstatements. In 2002, USDA—and all of its agencies—achieved their first unqualified
consolidated financial audit opinion in the Department’s 140-year history. USDA financial managers have
focused significant attention on enhancing internal controls, improving asset management, implementing a
standard accounting system and improving related corporate administrative systems across the Department. As
a result, USDA’s clean audit opinion was sustained in FY 2003 and FY 2004. Actions taken by USDA to
achieve this result include:
      Revamping business, financial management and accounting processes;
      Completing installation of a standard general-ledger accounting system;
      Determining the program cost or present value cash flows of approximately $100 billion in loans;
      Reconciling, in an accurate and timely way, more than $100 billion in annual cash receipts and
          disbursements;
      Correcting deficiencies in $1 billion of real and personal property; and
      Significantly reducing the number of material weaknesses.
USDA made significant progress in Financial Management, and as a result earned a “green” for progress on the
OMB Scorecard. Key milestones include: implementation of a new Corporate Property Automated Information
System, which standardizes management of the Department’s owned and leased real property; and deployment
of a new acquisition system that is integrated with its USDA’s financial system, so it can provide accurate, on-
demand financial information.
Management Challenge
While USDA made extraordinary strides in recent years and today enjoys a clean audit opinion, there is still
room for improvement. Accordingly, the Department’s financial performance remains a management challenge.
(Appendix A contains the Office of the Inspector General’s report on USDA’s major management challenges.)
One area of concern is the USDA Forest Service. To help bring the agency’s financial management up to par
with the rest of the Department, USDA is planning to:
     Eliminate material weaknesses and reportable conditions, and obtain an unqualified opinion on the
         Forest Service’s FY 2004 and 2005 financial statements;
     Initiate a Financial Management Improvement Process that will standardize and centralize the agency’s
         budget and finance processes through business process reengineering;
     Publish enhanced financial management policies and procedures by June 30, 2005; and
     Continue to focus on data-quality improvement, such as the resolution of abnormal account balances.
This year, the Department also has continued to modernize delivery of USDA’s financial systems.



                                                                                                        USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               11
 MANAGEMENT DISCUSSION AND ANALYSIS




In FY 2004, USDA worked with the Forest Service, the Commodity Credit Corporation and other USDA
agencies to improve financial management systems and processes. This effort included a reliable system of
internal controls designed to generate accurate and timely financial data.

ENHANCING EGOVERNMENT
Much has changed in the workplace with advances in information technology. USDA has focused significant
attention on leveraging technology to improve service delivery and control or reduce costs. Recognizing this
opportunity, representatives from across the Department developed a common eGovernment strategy that has
guided USDA’s information technology deployment for the past three years. The Department’s modernized
Web site (http://www.usda.gov/) and USDA’s robust new customer statement page
(http://customerstatement.usda.gov), which allows farmers and ranchers to track and conduct their transactions
with the Department online, are two recent examples of this progress. The USDA Web site now is organized by
service instead of agency allowing users to find the information they need more quickly. The new Customer
Statement page offers agricultural producers a consolidated online statement of their USDA program activities
and benefits. These and other eGovernment accomplishments have earned USDA the high “green” score from
the Office of Management and Budget for progress on the Department’s technology initiatives.
In executing the strategic, user-friendly deployment of technology, USDA is fostering a culture of
collaboration. The Department’s eGovernment activities are being guided by continuous feedback from
employees, partners and customers. For example, the USDA Technology and eGovernment Advisory Council,
which was formed in late 2003, is comprised of representatives from across USDA’s customer base. This
council now plays an integral role in assisting the Department with strategies to enhance its services through
technology.
From the strategic planning process to the implementation of specific initiatives, the Department also uses
surveys and focus groups to guide effective decision-making. USDA created a community of interest using
customer usability studies and feedback on its Web sites and applications. So far, the Economic Research
Service, the Risk Management Agency, the Food Safety Inspection Service and other agencies have capitalized
on these feedback opportunities to design new Web pages and applications that better meet the needs of their
customers, partners and employees.
In terms of online security, USDA has taken aggressive action. Teams of employees at every agency are
working to certify and accredit USDA’s information technology systems. USDA completed this process for 402
systems (93 percent) in FY 2004. This effort is building trust with customers and partners in the reliability and
security of online transactions with USDA. The Department conducted an extensive review of its information
technology investments during the FY 2005 budget process. As a result, USDA reduced the number of IT
projects from more than 500 to about 350. This consolidation effort focused on reducing redundant investments
and has resulted in $167 million in cost savings that agencies now can reallocate to serving their customers
directly. The Department is now focused on creating an Enterprise Architecture to help align technology with
program delivery further to ensure that USDA’s information technology benefits continue to enhance the
quality and cost-effectiveness of the Department’s service to its customers.
Management Challenge
In today’s environment, the security of USDA’s online networks remains a serious area of focus and a
management challenge for the Department. (Appendix A contains the Office of the Inspector General’s report
on USDA’s major management challenges.) In response to this challenge, USDA is developing and
implementing a process to collect pertinent agency security status information regularly and systematically, and
share it with USDA’s Chief Information Officer. To establish this new process, USDA will:
      Notify agencies of training availability for security products;
      Finalize new security policies; and
      Establish a standard procedure for identifying, tracking and eliminating security weaknesses.




 USDA
  12                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          MANAGEMENT DISCUSSION AND ANALYSIS




Additional USDA information technology security initiatives include:
    Expanding and improving USDA’s Intrusion Detection System;
    Conducting regular Federal Information Security Management Act (FISMA) self-assessments and
        developing plans of action for any weaknesses found;
    Certifying and accrediting new USDA systems as they are developed;
    Contracting with independent companies to validate agency certification and accreditation activities;
        and
    Securing sensitive data and improving contingency planning, configuration management and physical
        security, and finalizing policy on these sensitive matters.

BUDGET AND PERFORMANCE INTEGRATION
The Budget and Performance Integration (BPI) directive of the President’s Management Agenda challenges
agencies to set measurable goals; monitor progress toward achieving results and make management and funding
decisions based on these outcomes. This cost-benefit approach helps illuminate where the American taxpayer is
receiving real value and where Government agencies have room for improvement. This direct link between
dollars spent and real world outcomes also is helpful to the congressional appropriations process where
priorities must be set. During the last two years, USDA has earned the high “green” score from the Office of
Management and Budget for progress in this category. USDA values the budget and performance integration
process as a critical tool that helps employees fulfill program missions most effectively by establishing clear
performance targets, tracking progress in achieving stated objectives and making adjustments to improve
results. This process also helps ensure that employees responsible for executing programs are achieving results
daily.
To further enhance the value of this effort, USDA is taking steps to improve on:
     Clearly identifying goals, objectives and meaningful measures of progress;
     Quantifying and demonstrating the results of programs;
     Demonstrating that USDA is using taxpayer dollars efficiently to achieve those results; and
     Effectively using the expertise of USDA employees and cooperators.
USDA has implemented a quarterly reporting process to provide management with timely insight into how
program results are matching up against stated goals. This, in turn, allows managers the opportunity to adjust
strategies and realign resources at several points throughout the year. USDA also included requirements for the
annual performance plan and quarterly reporting in its FY 2005 budget guidance to make clear the need for all
agencies to take a results-oriented approach to their resource requests. This guidance requires meaningful, real-
world outcomes for each agency, unit cost information for each performance measure and an efficiency measure
for each USDA program, as well. USDA also developed Department-wide efficiency measures, which will be
presented to Congress in the FY 2006 Budget.
For example, FSA implemented a Budget and Performance Management System (BPMS) in FY 2004. BPMS
involves a range of activities to ensure that FSA taxpayer dollars are directed to efficient programs. A new FSA
strategic plan, using the Program Assessment Rating Tool and IT tools, is key to ensuring BPMS success and,
ultimately, the success of the Nation’s farmers, ranchers and agricultural partners.
Another important mechanism is the Program Assessment Rating Tool (PART), which is a system of evaluation
that identifies how well and efficiently a program is working and what specific actions can be taken to improve
performance. During the past three years, USDA has used this tool aggressively to evaluate programs that
account for more than half of the Department’s funding. By implementing PART recommendations,
effectiveness ratings of several programs have been improved. Additional PART assessments currently are
under review and may result in additional performance rating upgrades.




                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               13
 MANAGEMENT DISCUSSION AND ANALYSIS




PART findings have led USDA to:
    Target conservation programs more effectively;
    Improve efficiencies in the guaranteed farm loan programs;
    Improve targeting of international food aid programs;
    Re-examine multi-family housing programs to develop better long-term and annual measures; and
    Develop stronger goals and measures for the Federal Crop Insurance Program.

FAITH-BASED AND COMMUNITY INITIATIVE
USDA strives to ensure that its public services reach all potential beneficiaries. As part of its Faith-Based and
Community Initiatives, USDA ensures that faith-based and community organizations have full and equal access
to the Department’s programs and benefits. The focus is on four key areas:
      Outreach and technical assistance;
      Equal treatment;
      Data collection; and
      Innovative pilot projects.
By educating and partnering with local organizations, USDA can, for example, increase the number of men,
women and children receiving nutritious meals and wholesome food through its anti-hunger programs.
Similarly, through these partnerships, the Department can enhance the reach of its services to widely dispersed
rural populations. Through this initiative, USDA focuses on which organizations can help accomplish its
strategic goals and objectives best, regardless of religious affiliation or non-affiliation.
The Outreach in the Summer Food Service Program demonstrates how this initiative helped USDA programs
serve more people in FY 2004. For the first time this past summer, the AGAPE Outreach Program in Marion,
Virginia, received Federal funding. The funding was used to provide 3,643 nutritious meals to needy children as
part of its summer school and recreational program, complementing other faith-based community activities.
Elsewhere, through a one-time program for FY 2004, the Commodity Credit Corporation donated non-fat dry
milk to more than 50 not-for-profit, faith-based and community organizations. These groups distributed the
product to hundreds of local organizations in almost every State. The organizations then distributed the milk to
needy individuals and families. Almost 400 million pounds of non-fat dry milk will be delivered through the
Annual Performance Report program by the end of the fiscal year.
Additional accomplishments relating to this initiative include:
    Publishing final Department-wide rules on the abilities, rights and responsibilities of faith-based
        organizations;
    Implementing changes to improve data collection and reporting of faith-based, and community
        organizations’ participation in USDA programs;
    Designating a faith-based and community initiative coordinator in every Rural Development State
        office and Food and Nutrition Service regional office;
    Enhancing equal opportunity efforts by implementing new systems for targeted USDA benefits;
    Initiating a pilot project to encourage State agencies to partner with faith- and community-based not-
        for-profit organizations to increase enrollment in the Food Stamp program; and
    Initiating a Community Facilities Guaranteed Loan Program pilot project in RD.




 USDA
  14                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                            MANAGEMENT DISCUSSION AND ANALYSIS




CIVIL RIGHTS
Management Challenge
Civil rights complaint processing remains a management challenge for USDA. (Appendix A contains the Office
of the Inspector General’s report on USDA’s major management challenges.) In response to this challenge,
USDA held listening sessions to obtain input and information from Department stakeholders about their
experiences as program participants. Stakeholders’ input led to the following activities specifically targeted to
reducing the number of program Civil rights complaints filed:
      Establishing of the Center for Minority Farmers and the Minority Farm Registry;
      Increasing outreach efforts;
      County Committee reforms;
      Increasing diversity in county offices;
      Implementating the “Notice of Farm Loan Application Received” form and the “Customer Service
          Comment Card;”
      Partnering with Marriott International, Inc. to enhance and expand business oportunities for minority
          farmers through participation in the hospitality industry. USDA’s role involves providing outreach
          activities, technical assistance and training for building business capacity and marketing strategies; and
      Partnering with the U.S. Department of Health and Human Services to coordinate policies and
          activities aimed at improving the economic conditions of refugees engaged in farming, agribusiness
          and rural entrepreneurship. USDA’s role includes providing outreach activities, technical assistance
          and training on its programs and services.
USDA has planned a Program Complaint Prevention Initiative that will be implemented in FY 2005. This
initiative will ensure that all Department programs are structured and presented in a manner to ensure equal
access is available for all eligible customers, particularly socially and economically disadvantaged groups. A
series of hands-on, technical assistance and training workshops will be conducted for USDA management
officials. The workshops will offer analyses and reviews of civil rights program complaints and participation
rates of USDA customers. Internal agency reports and data related to outreach, education and technical
assistance programs and service delivery will be examined. The results of these analyses will be used to develop
a process to reduce the number of complaints of discrimination in the delivery of USDA programs and services.
All agricultural producers will benefit from equal and fair access to USDA programs and services.
Complaint Inventory Reduction was one of USDA’s most important initiatives for FY 2004. A thorough
inventory reduction plan was developed and implemented during FY 2004. The plan called for:
     Implementing a temporary realignment of management and staff to focus on case processing;
     Resolving complaints pending as of October 1, 2003;
     Timely processing of complaints received throughout the year;
     Implementing a method to prevent future backlogs and maintain the complaint workload at a
         manageable level; and
     Incorporating inventory reduction as an element in the performance standards of staff and holding
         them accountable.
As a result of this initiative, 1,016 of the 2,001 employment discrimination complaints and 1,828 of the 2,236
program discrimination complaints have been resolved.
USDA is introducing new Alternative Dispute Resolution (ADR) procedures into the informal Equal
Employment Opportunity (EEO) complaint process. A draft ADR policy is in the formal clearance process and
will be implemented following approval. The new policy requires all USDA agencies to offer ADR during both
the informal and formal stages of the EEO complaint process. The success of this initiative will result in faster
and more responsive service for USDA employees and fewer formal complaints.



                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 15
 MANAGEMENT DISCUSSION AND ANALYSIS




The USDA Office of Civil Rights arranged, through its partnership with the Equal Employment Opportunity
Commission (EEOC), for 26 headquarters and agency civil rights staff members to receive training about the
Equal Employment Opportunity Commission Management Directive 715 (MD-715). MD-715 is designed to
reduce the number of formal complaints. This training took place in April and May 2004. The training will
prepare the staff as it implements the USDA Annual MD-715 EEO Plan. The training plan will include a
comprehensive workforce assessment to identify barriers to the full utilization of employees within USDA. It
also will serve as the foundation for the development of a “Model EEO Program” at USDA.

FINANCIAL STATEMENT HIGHLIGHTS
BUDGETARY RESOURCES AND OUTLAYS
USDA receives most of its funding from appropriations authorized by Congress that are administered by the
Treasury Department. Total resources consist of the balance at the beginning of the year, appropriations
received during the year, spending authority from offsetting collections and other budgetary resources.
Appropriations Received as reported in the Statement of Budgetary Resources differ from Appropriations
Received as reported in the Statement of Changes in Net Position due to Special and Trust funds appropriated
receipts. These are shown as Appropriations Received in the budgetary statement but are reported based on their
nature, either as exchange revenue in the Statement of Net Cost, or non-exchange revenue or transfers in the
Statement of Changes in Net Position.
                                                    2004          2003             Variance
                 Appropriations Received           94,316        83,967              12%
                 Total Budgetary Resources       142,890        144,917              -1%
                                                                (restated)
                 Obligations Incurred            117,809        122,353              -4%
                                                                (restated)
                 Outlays                           78,446         79,848             -2%
                                                                (restated)


Restatement
In Fiscal 2004, Treasury issued updated requirements for reporting Cash Held Outside of Treasury. Treasury
does not consider the Escrow Account Balances as outlays until the funds are transferred from the Escrow
account to reimburse outside parties. This change required a restatement to the 2003 Statement of Budgetary
Resources and a reclassification in the 2003 Balance Sheet.
In fiscal 2002, the Office of Management and Budget (OMB) directed FCIC to record its insurance program
fund obligations on a cash basis rather than the accrual basis. Certain adjustments to obligations made in fiscal
2002 and 2003 were incorrectly recorded and are currently adjusted to reflect the 2003 obligations and the
obligated balances carried forward from the prior year.
Analysis of Resources
Appropriations Received increased during fiscal 2004 due to increased funding for the Commodity Credit
Corporation (CCC) related to expenses attributable to the 2002 Farm Bill. The 2002 Farm Bill governs Federal
farm programs and offers certainty and support for America’s farmers and ranchers by providing a safety net for
farmers without encouraging overproduction and depressing prices.
The Food and Nutrition Service experienced a significant increase in appropriations in fiscal 2004. Of the $5.3
billion increase, 86% of the increase is attributable to growth in the Food Stamp Program, with 14% attributable
to the Child Nutrition Programs for meal services and higher food costs.




 USDA
  16                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          MANAGEMENT DISCUSSION AND ANALYSIS




Assets and Liabilities
Presented below are some key components of the USDA Balance Sheet for comparison and analysis.

Assets
                                                                        2003
                                                          2004       (restated)          Variance
         Fund Balance with Treasury                      39,488        36,450               8%
         Investments                                         71             60             18%
         Cash and Other Monetary Assets                     165           241             -32%
         Accounts Receivable                              3,103         2,415              28%
         Loans Receivable and Related Foreclosed         73,841        73,590      less than 1 percent
         Property
         General Property, Plant, and Equipment, Net      4,914         4,919      less than 1 percent



Cash and Other Monetary Assets
Cash and Other Monetary Assets consist mainly of funds held in escrow to pay property taxes and insurance for
housing borrowers, loan repayments and excess reserves from fee-for-service programs. The majority of the
variance from fiscal 2003 to 2004 stemmed from the CCC’s reclassification of Undeposited Collections from
Cash and Other Monetary Assets in 2003 to Receivables in FY 2004.
Accounts Receivable
Accounts Receivable includes both intra-governmental and with the Public.
As of September 30, 2004, Commodity Credit Corporation recorded $372 million in receivables due from
producers. This amount represents overpayments of 2003 counter-cyclical payments. The Direct and Counter-
Cyclical Program, the Peanut Quota Buyout and Milk Income Loss Contract Program are programs that support
producers for market price fluctuations and crop production. Advance payments were made in January 2004.
Subsequent to that, market prices rose, thereby eliminating the need for the program subsidy payments.
The Risk Management Agency Producer Premium revenue increased by $341 million due to increased
participation in the Crop Revenue Coverage Insurance Plan, which covers losses in revenue in addition to losses
in production.
Loans Receivable and Related Foreclosed Property
Loans Receivable and Related Foreclosed Property is the single largest asset on the USDA Balance Sheet. Rural
Development offers both direct and guaranteed loan products for rural housing and rural business infrastructure.
These represent 77 percent of the total USDA loan program. Commodity Loans, and Credit Programs
administered by CCC represent 14 percent of the total USDA loan program CCC’s loans are used to improve
economic stability and provide an adequate supply of agriculture communities. CCC credit programs provide
foreign food assistance, expand foreign markets, and provide domestic low cost financing to protect farm
income and prices. The remaining 9 percent of loans receivable are the direct and guaranteed loan programs
administered by the Farm Service Agency, providing support to farmers who are temporarily unable to obtain
private, commercial credit.
General Property, Plant and Equipment, Net (PP&E)
Improvements to Land, which represents 50 percent of the net PP&E, consists primarily of forest road surface
improvements. Other major categories include Building, Improvements and Renovations, Other Structures and
Facilities, and Equipment that represent 37 percent of the total.




                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              17
 MANAGEMENT DISCUSSION AND ANALYSIS




Liabilities
                                                                                2003
                                                                 2004        (restated)     Variance
              Debt – Intragovernmental                          69,053         76,140           -9%
              Loan Guarantee Liability                           1,188           883            35%
              Other                                             31,490         32,779           -4%


Liabilities represent the amount of monies or other resources that are likely to be paid as a result of a transaction
or event that has already occurred. However, no liability can be paid absent an appropriation. Where an
appropriation has not been enacted, liabilities are considered not covered by budgetary resources.
Debt-Intragovernmental
CCC’s repayments to Treasury for savings achieved in program costs for the Milk Income Loss Contract,
Peanut Quota Buyout and Direct and Counter-Cyclical Programs contributed to the reduction of
Intragovernmental Debt in FY 2004. Additionally, CCC repaid Treasury debt from appropriated funds received
in FY 2004 related to the implementation of FSRIA.
Loan Guarantee Liability
USDA’s loan guarantee liability is affected by guaranteeing new loans, adjustments from loan activity (i.e.
collecting fees, interest subsidies, claim payments), and the annual reestimate of loan costs. In FY 2004, the
increased loan guarantee liability is primarily due to disbursing $10.7 billion in new loans, resulting in the
increased guarantee liability.
Other
Of the $31,490 and $32,779 million in other liabilities in FY 2004 and 2003 respectively, $17,469 and $16,981
million respectively, is payable to Treasury. The amount payable to Treasury represents the net resources of
pre-Credit Reform programs that are held as working capital. After liquidating all liabilities the excess funds are
returned to Treasury.

NET COST OF OPERATIONS
USDA Net Cost of Operations totaled $74,022 million and $83,249 million for fiscal years 2004 and 2003,
respectively. Grants represent the largest portion of USDA cost, with $60,197 million and $63,098 million in
cost for 2004 and 2003, respectively. Grants decreased in FY 2004 primarily due to changes in CCC activity
related to reduction in payments for peanut quota buyouts, milk income loss contracts, direct and counter-
cyclical programs, and crop disaster assistance program.

DEBT MANAGEMENT
USDA is one of the Federal Government’s largest providers of direct credit with a credit portfolio of
approximately $100 billion. This represents about 32 percent of the non-tax debt owed to the Federal
Government. In FY 1996, Congress passed the Debt Collection Improvement Act. As of June 30, 2004,
USDA’s $6.2 billion in delinquent receivables represent a 30-percent decrease from the $8.8 billion in
delinquencies reported for FY 1996. Of this $6.2 billion, only $1.6 billion is eligible for referral to the Treasury
for collection. The remaining delinquent debt is ineligible due to such statutory or administrative requirements
as bankruptcy, litigation or debt owed by international/sovereign entities. (approximately $3.5 billion of
delinquent debt is international debt.) As of June 30, 2004, USDA referred 96 percent of the eligible delinquent
debt to the Treasury Offset Program and 97 percent of eligible delinquent debt to the Treasury Cross-Servicing
Program. During the first three-quarters of FY 2004, USDA collected $883 million in delinquent debt, a
6-percent increase over the same period of the previous fiscal year.




 USDA
   18                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          MANAGEMENT DISCUSSION AND ANALYSIS




ERRONEOUS PAYMENTS
Management Challenge
The USDA Office of Inspector General has identified erroneous payments as a major management challenge for
the Department. (Appendix A contains the Office of the Inspector General’s report on USDA’s major
management challenges.) In response to this challenge, USDA has developed comprehensive internal control
and quality assurance processes to ensure accurate and complete program payments. The Office of the Chief
Financial Officer issued policy directives to all the Department’s agencies, requiring them to create inventories
and develop risk assessments and statistically valid estimates for all programs susceptible to significant
erroneous payments.
In accordance with this effort, USDA now is reporting on the following nine programs:
      Marketing Assistance Loan Program;
      Food Stamp Program;
      School Programs;
      Special Supplemental Program for Women, Infants and Children;
      Child and Adult Care Food Program;
      Wildland Fire Suppression Management;
      Rental Assistance Program;
      Federal Crop Insurance Corporation Program Fund; and
      Farm Security and Rural Investment Programs.
However, risk assessments of the Farm Service Agency programs were not completed in FY 2004. As a result,
more programs may be determined to be susceptible to significant erroneous payments.
In late FY 2003, USDA directed all agencies with contracts totaling at least $25 million to implement recovery
auditing programs. For a detailed report on 2004 management actions, plans to address erroneous payments in
programs and results of the recovery auditing programs, see Appendix B.

MANAGEMENT ACCOUNTABILITY AND CONTROL
USDA is providing qualified assurance of compliance with the objectives of the Federal Managers’ Financial
Integrity Act and OMB Circulars A–123, “Management Accountability and Control,” and A–127, “Financial
Management Systems.” Not included in that assurance are the material deficiencies described in this report.
Within USDA, Subcabinet Officials, agency administrators and staff office directors are responsible for the
efficient operation of their programs and compliance with relevant laws. These executives also ensure that their
financial management systems conform to applicable laws, standards, principles and related requirements.
USDA’s goal is to eliminate the remaining material deficiencies by the end of FY 2005, and correct any new
material deficiencies within one year.
USDA made substantial progress in reducing the number of existing material deficiencies to just one in
FY 2004. That number is down from 8 at the start of FY 2004 and 19 at the start of FY 2003. In addition, one
new material weakness and one new system nonconformance were added this year for a total of three
outstanding deficiencies, which USDA is striving to eliminate by the end of the coming fiscal year.




                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               19
 MANAGEMENT DISCUSSION AND ANALYSIS




SUMMARY OF MATERIAL DEFICIENCIES

Exhibit 5:     List of Material Deficiencies

                                Federal Managers’ Financial Integrity Act Material Deficiencies
                                                                                      Reason for Change
 Responsible            Material Deficiency             Corrective Actions                in Estimated       Estimated
   Agency                    Description              Remaining To Be Taken             Completion Date     Completion
 OCIO/RMA/        00-01: USDA Information           Improve the quality and         Extensive and wide-     FY 2005
 CCC/RD/          Security Weaknesses —               process for managing           ranging weaknesses
 APHIS/FS         Weaknesses have been                USDA information security      within USDA’s
                                                      vulnerabilities and actions.
                  identified in the Department’s                                     information security
                  ability to protect its assets      Complete    vulnerability      program have
                                                      assessments of all mission
                  from fraud, misuse,                                                delayed completion.
                                                      critical systems;
                  inappropriate disclosure and
                  disruption.
                                                     Continue to manage the
                                                      USDA information
                                                      survivability program to
                                                      guide agencies in the
                                                      development and testing of
                                                      disaster recovery and
                                                      business resumption plans
                                                      for USDA’s highest priority
                                                      mission critical systems;
                                                     Refine or develop and
                                                      enforce security policies as
                                                      required;
                                                     Improve security controls in
                                                      system authorization and
                                                      logical access;
                                                     Develop a plan to fund,
                                                      prioritize, and initiate the
                                                      process to perform and
                                                      update required employee
                                                      background investigations;
                                                      and
                                                     Complete certification and
                                                      accreditation of systems.
 FS               04-01: Financial Management        Develop detailed future                N/A             FY 2005
                  Internal Control Weaknesses:        state process. Work with
                  Controls inadequate to assure       other teams to develop
                  improvements in data quality.       roles and responsibilities,
                                                      staffing plan, migration
                                                      plan, customer service IT
                                                      requirements, and
                                                      performance metrics.
                                                     Build detailed future state
                                                      processes (e.g., policies
                                                      and procedures, reports,
                                                      etc.).
                                                     Build training materials for
                                                      transition.
                                                     Begin process to transition
                                                      people and processes from
                                                      the field and the
                                                      Washington D.C. Office
                                                      into the Center.




 USDA
  20                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                             MANAGEMENT DISCUSSION AND ANALYSIS




                          Federal Managers’ Financial Integrity Act Material Deficiencies
                                                                               Reason for Change
 Responsible        Material Deficiency           Corrective Actions                in Estimated    Estimated
   Agency              Description              Remaining To Be Taken            Completion Date   Completion
 FS (cont’d)                                     Transition the Northeastern
                                                  Research Station/
                                                  Northeastern Area staff
                                                  and finance activities to the
                                                  Albuquerque Service
                                                  Center to address major
                                                  financial management
                                                  deficiencies.
                                                 Migrate management,
                                                  administrative support, and
                                                  customer service functions.
                                                 Migrate personal property,
                                                  real property, and WCF
                                                  teams.
                                                 Complete migration of the
                                                  payments-grants and
                                                  agreements and
                                                  payments-other teams.
 CCC            04-01: Improvement Needed        Identify and group                N/A              FY 2005
                in Funds Control Mechanisms       programs with specific
                and Budgetary Financial           obligation and
                Accounting and Reporting          disbursement events;
                Policies and Procedures.         Identify and implement
                                                  changes to current
                                                  financial management
                                                  processes and systems to
                                                  improve the accuracy and
                                                  timeliness of obligation
                                                  amounts in the CORE
                                                  financial system; and
                                                 Revise policy for estimating
                                                  and recording accruals of
                                                  producer program payment
                                                  liabilities and materiality
                                                  thresholds.


We hope this overview of the Department as a whole helps inform all stakeholders of the significant efforts
underway to enhance, through sound management practices, the performance of all USDA programs and the
Department’s stewardship of the significant taxpayer dollars entrusted to it. Through the performance and
accountability process, USDA has undertaken an intensive effort to link Departmental and program
management to the only result that matters: the provision of valuable programs and services delivered in a high-
quality, cost-effective way to the American people. While this section has focused on overall management
efforts that encompass the Department as a whole, additional information on how these initiatives impact
specific programs, agencies and USDA efforts can be found in the next section, Annual Performance Report,
which offers a detailed, objective-by-objective discussion of the progress USDA made in reaching its FY 2004
goals.




                                                                                                        USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              21
 ANNUAL PERFORMANCE REPORT




II. ANNUAL PERFORMANCE REPORT
USDA’s mission is to provide leadership on food, agriculture, natural resources and related issues based on
sound public policy, the best available science and efficient management. The Department executed this
mission in 2004 through such activities as:
     Providing farmers and ranchers with risk management and financial tools;
     Meeting with experts from around the globe to discuss current and new economic opportunities;
     Ensuring the safety and protection of the Nation’s food supply;
     Helping millions of low-income households and most of America’s children improve their diets via
         Departmental leadership of nutrition assistance programs;
     Delivering targeted nutrition assistance to children and low-income people;
     Fostering better nutrition and health with dietary guidance and promotion;
     Completing new Free Trade Agreements and opening new international markets;
     Fighting potential pests and disease outbreaks;
     Working to ensure the health and protection of the environment; and
     Providing aid to those impacted by severe weather and other disasters.
USDA’s public performance management reporting process includes the following key components:
    A strategic plan that depicts the Department’s long-term goals and strategies;
    An annual performance plan that outlines year-to-year strategies and targets for achieving USDA’s
       long-term goals; and
    A performance and accountability report that shows Congress and the American people how well the
       Department did in reaching the goals established in the previous fiscal year.
Most of the Department’s programs and activities are represented in specific performance goals and targets.
USDA also conducts and supports a broad range of research, educational and statistical activities that contribute
to the achievement of each of its overall goals. The creation of knowledge at the frontiers of biological, physical
and social sciences, and the application of that knowledge to agriculture, forestry, consumers and rural America
are core processes for USDA. Accordingly, selected accomplishments in research are presented throughout this
report. Additionally, the report describes the data assessment used in the performance measures. These
descriptions cover any material inadequacies in the completeness, reliability and quality of the performance
data. Also included is a brief reason for why the data are inadequate and the actions USDA is taking to remedy
such inadequacies. The thresholds, or ranges, for determining year-end performance results are also identified in
the report. These thresholds are owner-identified and document the process for determining if a performance
goal was exceeded, met or unmet. The owners also provided the rationale used to establish the met range.
The report includes a list of programs that have undergone the Office of Management and Budget (OMB)
Program Assessment Rating Tool (PART). The PART identifies how well and efficiently a program is working
and what specific actions can be taken to improve performance. Other program evaluations, which discuss the
achievements or conclusions from the completion of internal and other external assessments conducted during
FY 2004 related to the measures, also are included. Only Federal employees participated in the preparation of
the performance information contained in the Annual Performance Report section.
Upon USDA’s creation, it was President Abraham Lincoln’s hope “that by the best cultivation in the physical
world, beneath and around us, and the intellectual and moral world within us, we shall secure an individual,
social and political prosperity and happiness, whose course shall be onward and upward, and which, while the
earth endures, will not pass away.” These next chapters of the USDA Performance and Accountability Report
show how the Department committed itself to keeping President Lincoln’s dream alive during 2004.




 USDA
  22                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       ANNUAL PERFORMANCE REPORT




STRATEGIC GOAL 1: ENHANCE ECONOMIC OPPORTUNITIES FOR
AGRICULTURAL PRODUCERS
The United States Department of Agriculture (USDA) continuously works to create more international
economic opportunities for U.S. agricultural producers. The Department played a key role in negotiating free-
trade agreements (FTAs) with Australia, Central America, the Dominican Republic, Morocco and Bahrain. It
helped keep the Chinese market open for U.S. soybeans, leading to a record level of exports. USDA has taken
the lead in reassuring its trading partners that it is safe to import U.S. meat and poultry. This effort follows
several outbreaks of Avian Influenza and the finding of Bovine Spongiform Encephalopathy (BSE) in one U.S.
cow that was imported from Canada. These animal disease outbreaks in the U.S. have caused export markets to
close throughout the world.
Since the one case of BSE in December 2003, USDA has pursued actively the re-opening of key markets
throughout the world. To date, more than $4.5 billion in export markets have been regained. Most recently, in
October, the U.S. reached agreements with Japan and Taiwan that pave the way to resume the beef trade. In
July, a framework agreement was reached in the World Trade Organization (WTO) agriculture negotiations,
which tracks closely with USDA objectives, including a commitment to eliminate export subsidies and further
reductions in market access barriers. Bilateral and regional trade agreements have been finalized with Australia,
Morocco, Bahrain the countries of Central America and the Dominican Republic.
Building trade capacity in future international markets is a companion goal in reducing trade barriers. Long- and
short-term efforts to stabilize and improve the social and economic infrastructure boost opportunities for trade
to and from international markets. Education, business law, food safety, sound science and food aid to stabilize
developing countries assures future U.S. export opportunities with fewer risks and stable growth potential.
Using every means available, USDA diplomats and scientists work to overcome barriers to international trade
and create opportunities for U.S. agricultural producers.
The Department also continued to implement the framework for farm and commodity programs under the
FSRIA. The act provided America’s farmers and ranchers with a variety of financial assistance options
including direct and counter-cyclical payments, marketing assistance loan benefits and farm operating and
ownership loans to promote stability in the agricultural sector. The FSRIA also provided, under Title IX
provisions through the Bioenergy Program, financial support to bioenergy (commercial fuel grade ethanol and
biodiesel) producers to encourage them to increase domestic production of renewable fuels. The Bioenergy
Program provides financial support to biodiesel producers on all production to aid the developing industry.
Additionally, USDA continued its efforts to streamline and modernize its program delivery structure to provide
more efficient service for its customers.
Farmers also benefit from FSRIA, which requires:
     Procuring of qualifying biobased products by Federal agencies
     Paying eligible producers to encourage increased purchases of eligible commodities for the purpose of
        expanding production of bioenergy and supporting new production capacity for bioenergy;
     Awarding grants to eligible entities to educate Governmental and private entities that operate vehicle
        fleets, other interested entities (as determined by the Secretary) and the public about the benefits of
        biodiesel fuel use;
     Authorizing loans, loan guarantees and grants to farmers, ranchers and rural small businesses to
        purchase renewable energy systems, and to make energy efficiency improvements; and
     Providing funding totaling $75 million for Fiscal Years 2002 through 2007 from the Commodity
        Credit Corporation.
Successful use of biobased products by Federal agencies will serve as an important demonstration of the
performance, efficiency and environmental benefit of using biobased products. This usage is expected to spur




                                                                                                         USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              23
 ANNUAL PERFORMANCE REPORT




the increased use of such products outside the Federal Government as well. That, in turn, will increase demand
for agricultural, forestry and marine products for use as feedstocks in manufacturing biobased products.
USDA continued to expand the Federal Crop Insurance Program during 2004. The Agricultural Risk Protection
Act of 2002 (ARPA) significantly changed how USDA conducts its new risk management pilot programs. This
act also provides risk management education to farmers and ranchers. USDA has implemented the processes
and vehicles needed for these new pilot programs through private and public organizations. USDA also has
continued to maintain and improve its existing insurance products.

OBJECTIVE 1.1: EXPAND INTERNATIONAL MARKETING OPPORTUNITIES

Exhibit 6:   Resources Dedicated to Expand Alternative Markets for Agricultural Products and Activities

                                                                              FY 2004
                USDA Resources Dedicated to Objective 1.1           Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $1,796.5              5%
                Staff Years                                         5,809               23%


Introduction
The value of U.S. agricultural exports in FY 2004 is approximately 10 percent higher than last year. In FY
2004, total U.S. export sales likely will reach a record $62 billion. U.S. soybean exports to China were a major
contributing factor. Exports to China now are estimated at $6 billion, compared with $3.5 billion last year.
Currently, China is the leading importer of U.S. cotton and soybeans, and overall the fourth largest market for
all U.S. agricultural exports. Total U.S. agricultural exports for FY 2005 are forecast at $57.5 billion, down $4.5
billion from FY 2004. Most of the projected decline is due to increased international competition and lower
overseas prices for cotton, wheat and soybeans. Prices for these commodities are expected to decrease in
response to their increased global production. While total U.S. cotton exports are expected to decrease 400,000
tons and wheat exports are expected to decline 6 million tons, corn exports are forecast to be 4 million tons
higher and soybeans 3.8 million tons higher. The forecasted trade surplus for 2005 is expected to decline to $2.5
billion, the lowest level since 1972. While the growth in the volume of U.S. imports has remained stable,
between 2002 and 2004, the total cost of U.S. imports has grown even more due largely to a weakening dollar,
making foreign processed products more expensive. This climb in U.S. import costs based on exchange rates is
expected to slow in 2005.

Overview
While progress has been less than initially hoped for in recent global trade negotiations conducted through the
World Trade Organization (WTO), member countries did reach a framework agreement in July. The agreement
outlines basic commitments that all participating countries will continue to work toward, including eliminating
export subsidies, reducing trade-distorting and domestic support, and increasing market-access opportunities.
USDA continues to work bilaterally to create new export opportunities through free-trade agreements (FTA)
with individual countries. However, reducing trade barriers and creating opportunities is just the beginning for
U.S. exporters. Opportunities are potential exports pending development. In order for U.S. exporters to
capitalize on free-trade agreements, the Department is active in assuring that new and current market
opportunities are maintained. This creates U.S. exporter confidence in taking the risks associated with
developing export sales, which depend on consistent and reliable market access. As more international trade
agreements are concluded, additional Department resources for monitoring and compliance efforts are
necessary to assure sustainable export opportunities. Nearly 5,000 notifications of intent, to alter or create new
import requirements, are submitted by WTO members annually. This is up from about 500 notifications
annually just 10 years ago. While the number of notifications affecting agricultural trade is between 10 and 15
percent a year, every notification must be translated and evaluated for U.S. impacts, and immediately addressed
if U.S. exports or export opportunities are affected negatively. A good many WTO notifications are a result of


 USDA
  24                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




the success of free-trade expansion. Developing countries in particular find that writing import regulations and
instituting the details of new, official trade rules and scientific requirements, create new unforeseen issues. With
agriculture being a central focus for upcoming WTO negotiations, future notifications affecting agricultural
trade likely will increase. The Department is working to secure long-term resolutions to challenges as they arise,
such as BSE, Avian Influenza and individual countries’ restrictions on bio-engineered crops.
According to U.S. Department of Commerce (DOC) trade statistics, through July of this year, U.S. exports to
China rose 77 percent over the same period the previous year to a record $5.3 billion. While soybeans and
cotton imports account for the majority of growth, wheat, consumer ready foods, and forest and seafood
products also jumped in sales. This figure makes China the fastest growing U.S. export market and the fourth
largest overall, behind Mexico, Japan and Canada. With a growth rate of only 25 percent, China easily could
become the U.S. Government’s second largest market in just a few years. Adding to this growth was a joint
effort of USDA and the Office of the U.S. Trade Representative (USTR) to successfully reopen China's markets
for U.S. soybeans. China threatened to suspend U.S. imports of several major soybean traders in 2003 because
of the alleged presence of the fungus Phytophthora sojae in shipments. Although China's threatened suspension
never was made official, it had the effect of shutting down nearly all soybean imports from the U.S. Importers
and traders feared significant losses if shipments were denied entry at Chinese ports. Coordinating with other
agencies, USDA ensured that this issue was raised during high-level meetings between the U.S. and Chinese
Governments. China lifted its threat partially because of domestic market pressures. The move also signaled
that Phytophthora, which is present in China, is not a threat. By late October 2003 (FY 2004), the soybean
shipping season, which had a late start due to other market barriers, began in earnest. Soybean shipments to
China are now at record levels. U.S. soybean exports to China totaled $1.8 billion in 2003. China purchased a
record $2.4 billion of the crop through July 2004, an increase of 40 percent from the previous year.
In terms of agricultural trade, China’s first year of WTO membership in 2002 involved implementing
regulations relating to biotechnology safety, testing and labeling. These rules, issued by China’s Ministry of
Agriculture shortly before the country’s WTO accession, did not provide adequate time for scientific
assessment and the issuance of final safety certificates for U.S. biotechnology products. Following concerted
high-level pressure from USDA and other U.S. agencies, China agreed to issue temporary safety certificates.
China issued final safety certificates in February 2004 for all but one biotech corn variety.

Selected Results in Research, Extension and Statistics
Global Markets for High-Value Foods—USDA research on high value product markets produced initial
findings that support future research on the complex trade patterns for these products. The report “International
Evidence on Food Consumption Patterns” provides statistical evidence of global food consumption patterns
across levels of income and products. Among high value products, trade in fruits and vegetables has increased
rapidly in recent years. This increase is in response to consumer demand for fresh products and variety. The
report “Global Trade Patterns in Fruits and Vegetables” documents the importance of regional markets centered
on Europe, Asia and the Western Hemisphere. It also covers the growth in exports of juices and off-season fresh
fruits from Southern Hemisphere countries. Information learned from this research is enabling the U.S. to
participate competitively in international trade.

Serving the Public
Expanding market opportunities through trade negotiations is a major benefit to U.S. exporters. Each year,
USDA reaches new agreements that expand market opportunities. On January 1, 2004, the U.S. and Chile
entered into an historic and cutting-edge FTA that will eliminate bilateral tariffs, lower trade barriers, promote
economic integration and expand opportunities for Americans and Chileans. Within four years, U.S. farmers
will gain duty-free access to the Chilean market for such important U.S. products as pork, beef, soybeans,
durum wheat, feed grains, potatoes and many processed food products. An FTA with Singapore also took effect
on January 1, 2004. USDA also reached FTAs with Australia, Morocco, Bahrain, Central America and the
Dominican Republic. U.S. agricultural exports to these countries currently total nearly $2.5 billion. Future
market opportunities soon will be available for development. The Department, working with the U.S. Trade
Representative’s Office, launched new negotiations in 2004 with Panama, Thailand and the Andean countries of



                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 25
 ANNUAL PERFORMANCE REPORT




Colombia, Peru and Ecuador. The new export opportunities created by these agreements typify the benefit
derived from USDA’s work in international trade policy.

Challenges for the Future
The next few years present exciting challenges for the Department, and increased export opportunities for the
U.S. by reaching agreement in the WTO on new rules for agricultural trade while working towards additional
FTAs. Agriculture is a central theme for this round of WTO negotiations and a sensitive issue for most
developing counties. In these countries, food and agriculture are the dominant economic driver and the singular
focus in establishing a stable social environment and a sustainable market infrastructure. New WTO trade rules
will eliminate export subsidies, decrease trade distorting domestic support and reduce market access barriers
around the world. Additional FTAs will address country or region specific market access issues. These issues
are designed to boost U.S. export opportunities immediately while enhancing the impact of global agreements
through the WTO. U.S. export opportunities will increase in large and important export markets and in
emerging markets. This increase could push total U.S. agricultural exports to record levels in the next few years.
U.S. meat, grains, soybeans, cotton and especially value-added, consumer-ready products will benefit from
expanding export sales. On the U.S. import side, consumers are expected to continue their interest in high-
value, internationally produced agricultural products. Additionally, developing countries will want more access
to U.S. markets. This new access will allow them to benefit mutually from agreements on opening markets and
conforming to international food and health standards. Along with additional agreements will come additional
vigilance by USDA to monitor trade policy implementation to assure that export opportunities can materialize
into U.S. sales.

KEY OUTCOME: IMPROVE INTERNATIONAL MARKETING OPPORTUNITIES
USDA works closely with USTR to pursue new trade agreements and enforce the provisions of existing
agreements. The Department’s industry partners promote trade and outreach activities to educate producers,
processors and exporters on emerging market opportunities as a result of trade agreements. To capitalize on
trade opportunities, USDA offers market intelligence, supply and demand forecasts, and sales development
assistance to enhance U.S. exporters’ success in the highly competitive, global marketplace.
New export opportunities are realized by agriculture producers when:
    New opportunities and existing market access remains open and stable; and
    Better requirements are negotiated for certifying or testing the health of animals and plants with
       international destinations.
USDA seeks to lessen the financial burdens on U.S. exporters and adhere more closely to international science
based standards. The U.S. agricultural sector and export businesses benefit from fewer barriers when moving
products overseas.
The most effective means of expanding international market opportunities is to ensure that trade agreements
with other countries cover the conditions applied to imports. A predictable system with basic sanitary and
phytosanitary standards for fair and safe trade assures partners that those products will harm neither humans nor
any agricultural resources. U.S. Government agricultural attachés, with 65 overseas posts, help retain, expand
and open international markets for U.S. food and agricultural products. These officials discuss pest and disease
issues affecting food and agricultural commodities.
In cooperation with its stakeholders, USDA’s National Center for Import and Export (NCIE) develops
scientifically based protocols and health certification procedures for exporting U.S. livestock, wild or exotic
zoological animals, poultry, other birds, germplasm and animal-derived products and by-products. NCIE
reviews import requirements and, where it finds unjustified requirements or restrictions, proposes changes to
that country’s requirements. These changes reflect advances in scientific knowledge and incorporate technically
sound risk management procedures.




 USDA
  26                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                             ANNUAL PERFORMANCE REPORT




Exhibit 7:    Increase U.S. Marketing Opportunities

                                                                                          Fiscal Year 2004
             Annual Performance Goals and Indicators                         Target             Actual        Result
 1.1.1   Dollar value of trade preserved through FAS staff
                                                                             $2,000             $3,950       Exceeded
         interventions and trade agreement monitoring ($Mil)


Analysis of Results
USDA exceeded its performance goal by $1.95 billion. This was accomplished by trade opportunities preserved
through monitoring and compliance enforcement, overseas advocacy services and trade negotiations.
Contributing to the performance were two permanent trade agreements with China. At risk was $2.7 billion in
annual U.S. exports to China due to issues over biotechnology and other U.S. soybean concerns.
This FY 2004 performance compares with FY 1999’s baseline of $1.9 billion. There are billions of dollars
worth of new trade opportunities waiting to be developed every year thanks to successful trade negotiations.
The exact value of new markets opened through trade agreements is difficult to determine using traditional
economic models. In a new market, there is little quantifiable data to estimate how consumer demand will react
to import opportunities. Market development takes time and centers on consumer and wholesaler education to
create a desire to purchase U.S. products, rather than those of competitors. Only after observing international
import demand and growth rates over a few years can an estimate of total import opportunities be estimated
with confidence. Assuring promised market access is a critical part of stable free trade. From year to year, the
number of trade issues and their potential impact on U.S. exports depends on international reaction to such
issues as biotechnology, plant and livestock diseases, pests, pesticides and sanitation. Addressing issues can be
a quick agreement of mutual understanding or a long negotiation process, depending on the issue’s complexity.
While some of these trade-disrupting events occur in time to set work priorities and annual goals based on
expected international reactions, additional events could occur that require immediate regrouping and realigning
of staff and work priorities. While realigning goals mid-year can result in maximized market access for U.S.
exporters, initial goals can appear either too low or too high at year’s end. USDA projected a target of $2 billion
in trade access and opportunities preserved in FY 2004. The target level was based partly on the value of last
year’s market access assistance to individual U.S. exporters by overseas-based agricultural Foreign Service
officers. These U.S. agricultural officers reported more than 200 successful interventions for U.S. exporters
having trade difficulties with international customs agents. This translated to more than $500 million in U.S.
sales. The target also reflects the ongoing progress of active trade negotiations on market access. These
negotiations cover new issues on old agreements and fresh and ongoing concerns about product standards,
health issues, sanitation, diseases and biotechnology. A complicating factor is the limited availability of trade
negotiations staff and resources. USDA’s selecting this performance measure demonstrates the critical role that
trade monitoring and compliance enforcement play in protecting U.S. exporter opportunities to capture sales as
an outcome of successful negotiations. The successful China negotiations in FY 2004 that reopened U.S.
soybean sales demonstrate how U.S. agriculture benefits from this activity. As the U.S. Government continues
to negotiate new bilateral, regional and multilateral trade agreements, the challenge will be to monitor and
enforce compliance effectively. This monitoring will ensure that U.S. agriculture receives full benefits from
negotiated reductions in tariff and non-tariff barriers.
Exhibit 8:    Expand and Retain Market Access

                                                                               Fiscal Year 2004
                        Trends                            2000        2001             2002         2003       2004
                                                                                                                      1
 Dollar value of trade preserved through FAS staff        $837      $1.329            $1,327      $2,713     $3,950
 interventions and trade agreement monitoring
 ($Mil) Baseline: 1999 = $2,567
 1
  Result based on projected estimate. See the Data Assessment of Performance Measures section for more information.




                                                                                                                USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                    27
 ANNUAL PERFORMANCE REPORT




Through diligent monitoring and resolution of trade disputes with countries’ notification processes, USDA has
made remarkable progress in retaining sales of U.S. agricultural products that likely would have been lost
without active market intervention. Sales retained or expanded are estimated at $3.9 billion. This is $1.33 billion
higher than the baseline. The hard work of USDA’s domestic and overseas field offices and the Department
working with other Federal and State agencies, and industry and international Government officials made this
achievement possible. Next steps include completion of the “Doha Round” agriculture negotiations and bilateral
and regional FTA trade agreements.

OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND
TRADE CAPACITY BUILDING

Exhibit 9:   Resources Dedicated to Support International Economic Development and Trade Capacity Building

                                                                              FY 2004
                USDA Resources Dedicated to Objective 1.2           Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $2,891.5              7%
                Staff Years                                          979                 4%


Introduction
The ultimate goal for supporting developing countries is to help them become economically stable and capable
of supporting their populations with jobs, affordable food and a vibrant trade capacity. USDA participates in
this effort with food aid, development programs and research programs. These services are carried out by
USDA and with other Federal agencies and countries through projects aimed at trade-capacity building and
socio-economic infrastructure. In combination with food aid that covers gaps in supplies and keeps the
population healthy, economic development projects cover an array of social and economic needs. For USDA,
these projects mainly address food safety and inspection, potable water, soil erosion, productive and sustainable
growing, harvesting and storage techniques, and market infrastructure. These projects also facilitate progress
towards building policy and regulatory frameworks consistent with international standards and a foundation for
successfully participating in international trade. The primary focus for USDA food aid in developing countries
is for school children and mothers, regulatory standards for sanitary and phytosanitary issues, and
biotechnology. The standardization of forms will facilitate future U.S. trade in biotechnology products.
The McGovern-Dole International Food for Education and Child Nutrition Program, with funding levels at
$100 million in FY 2003 and $50 million in FY 2004, is only in its second year of operation. The program
provides for the donation of U.S. agricultural commodities and associated financial and technical assistance for
pre-school and school feeding programs in developing countries. The program also authorizes maternal, infant
and child nutrition programs. Its purpose is to support a healthy future population necessary for a stable society
and a capable workforce. This workforce, healthy and literate, is a requirement for attracting jobs, supporting a
sustainable economy and a secure food supply through domestic production and imports.

Overview
Like their international counterparts, Americans want a world where all countries are stabilized through
economic development and trade capacity building. In developing and transitioning economies, USDA focuses
on:
     Trade and investment liberalization to stimulate job and income growth;
     Research, education and development of market information systems to support production and
         marketing decisions;
     Institution building to support sustainable agriculture and market infrastructure; and
     Food support to assist social stability and enhance the health of current and future workers.



 USDA
  28                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




A recent example of this is USDA technical assistance to Central American Free Trade Agreement (CAFTA)
countries to help align their meat-inspection systems with U.S. import requirements. This assistance enhances
trade between CAFTA countries and the U.S., since these countries now acknowledge and accept the U.S.
inspection system. USDA also is providing technical assistance to all Latin American countries to advance the
adoption of standard documentation for trade in biotechnology products throughout the Western Hemisphere. It
also will advance trade in these products around the world. CAFTA is a free trade agreement between the U.S.
and Costa Rica, El Salvador, Guatemala, Honduras and Nicaragua.

Selected Results in Research, Extension and Statistics
Science and Technology Initiative to Reduce World Hunger—USDA launched the Norman E.
Borlaug International Science and Technology Fellows Program to provide short-term training and exchanges
in the U.S. for agricultural researchers, policymakers and university faculty from developing countries. The goal
is to promote the development, adoption and transfer of agricultural and food-related technologies. Two
regional ministerial conferences were held in Central America and West Africa to reinforce new priorities that
emerged from the global Science and Technology Ministerial in Sacramento, California in June 2003.
Participants at the Central American Ministerial Conference agreed on the importance of consistent and
transparent regulatory frameworks to promote free trade. The conference also stimulated new ideas on regional
integration and cooperation on agricultural research priorities. In West Africa, ministers adopted a resolution
calling for greater research and investment in agricultural biotechnology, and recommended the creation of a
center for biotechnology. They also asked how best to use these technologies to address the serious problems of
hunger and malnutrition, and benefit small African farmers, consumers and the environment. USDA and the
African Agricultural Technology Foundation signed a memorandum of understanding at the conference,
providing access for Governments and researchers across Africa to USDA’s vast scientific resources and
experience.
International Research Partnerships—To help solve critical problems affecting food and agriculture in
both the U.S. and cooperating countries, USDA supported a diverse group of American institutions in
international research partnerships in more than 50 countries. Each joint project increased the pool of scientists
with experience in agricultural biotechnology and other scientific techniques. Among these projects was
Tuskegee University’s cooperation with India to reduce the level of foodborne pathogens in poultry.
Collaborative Research—Innovative approaches to extension helped ensure use of new technologies
developed from collaborative research. USDA scientists collaborated with the University of Hawaii, the
California Extension Service and South African research centers to prevent the introduction of pathogens on
Protea flowers. The flowers represent a multi-million dollar industry with tremendous growth potential for
farmers in the U.S. and South Africa. Additionally, USDA researchers and scientists in the Pacific Islands
collaborated to identify slug and snail pests that cause losses in food crops and hinder the export of specialty
crops. The group will use a resulting manual to train quarantine and extension personnel in the Pacific region
who are the first line of defense against the spread of new pests.
Sustainable Production in Developing Countries—Development activities and management of projects
across Federal agencies, is a specialty of USDA’s International Cooperation and Development staff. In
FY 2004, more than 900 projects were ongoing, many affecting sustainable production in Africa, Central and
South America, and Asia. Projects can be very short-term or last two to three years. At least 25 percent are
completed each year and new efforts begun, which rollover to subsequent years. A good example is the soil
fertility project in Haiti. For years, farmers in Haiti and other countries have used unsustainable farming
practices that depleted the fertility of land. These actions forced them to abandon their sites and clear new ones.
In Haiti, which has a small land mass but dense population, this has caused poverty and flight to the cities. With
partial support from USDA, Experiment Station researchers at Auburn University are participating in a program
in Haiti on soil management practices for sustainable production on densely populated tropical steeplands. The
research is focused specifically on a system called alley cropping. Alley cropping involves planting nitrogen
fixing trees in hedgerows between crops. This process is an alternative to “slash-and-burn” agriculture in
Indonesia, Nigeria and Haiti in which the vegetation on a plot of rain forest is chopped down and then burned.
After several years of farming, the plot is abandoned after exposure to tropical sunlight hardens the typically



                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                29
 ANNUAL PERFORMANCE REPORT




thin and fragile soil. This exposure leaves it unproductive and exposed to erosion. In contrast, alley cropping
promotes sustainable agricultural production by reducing surface water runoff and erosion, improving
utilization of nutrients, and reducing wind erosion, while modifying the microclimate for improved crop
production.

Serving the Public
The McGovern-Dole International Food for Education and Child Nutrition Program has gained efficiencies of
delivery over the first year of operation, reducing the initial cost of meal distribution by more than 40 percent.
This program has reduced the cost of its overall delivery. Using paperless Internet applications by private
voluntary food-distribution organizations, USDA and organization staff hours and processing time were cut
significantly. USDA offered a Web-based application process to receive proposals for FY 2003 and FY 2004.
The Department received more than 50 funding applications from these private voluntary organizations. Internet
submissions accounted for 31 of the proposals. Additionally, for the first time, a number of faith-based
organizations successfully applied and were selected as partner-distributors.

Challenges for the Future
USDA’s trade capacity building efforts are aimed at helping developing countries participate in negotiations,
implement agreements and connect trade liberalization to a program for reform and growth. Helping these
countries achieve sustainable economic development and capacity to trade helps build future growth markets for
the U.S.
Unfortunately, significant food needs continue to limit development of trade capacity in many countries. USDA
works closely with the World Food Program and private voluntary relief organizations to ensure that the U.S.
commitment to alleviating global hunger and malnutrition remains strong.

KEY OUTCOME: SUPPORT FOREIGN FOOD ASSISTANCE
More than 800 million people worldwide suffer from hunger and malnutrition—most of them children. These
children are the basis for a sustainable economic future. In many developing countries, children represent most
of the total population. A healthy and educated young population is necessary to advance economic
development, food security and a stable social structure. Activities aimed at market-capacity building, for both
domestic and international trade are enhanced by, and in-turn support, these basic requirements for a sustainable
economic infrastructure. The U.S is the world’s leader in international food aid, providing more than 50 percent
of total worldwide food assistance to combat this challenge. U.S. food-aid programs are a joint effort across a
number of Federal departments. USDA works with the U.S. Agency for International Development, not-for-
profit organizations and American universities, to provide food-aid support and assistance. These activities
foster a stable society, economic growth and market structure development. This development, in turn, increases
the recipient countries’ ability to reduce their dependence on food aid and boosts domestic production. It also
allows these countries to become economically healthy and sustainable participants in global agricultural trade.
The principal programs supporting these efforts are concessional food-aid sales under Title I of Pub. L. No. 83-
480, the Food for Progress Program and McGovern-Dole International Food for Education and Child Nutrition
Program and the Bill Emerson Humanitarian Trust.
Exhibit 10: Support Foreign Food Assistance

                                                                                         Fiscal Year 2004
                Annual Performance Goals and Indicators                         Target        Actual        Result
 1.2.1   Improve food security and nutrition through McGovern-Dole               1.25          1.25          Met
         International Food for Education and Child Nutrition Program by
         providing daily meals and take-home rations for mothers, infants and
         school children (Mil.)

Analysis of Results
The performance goal was met. An important overall goal of USDA’s economic development and trade
capacity building objective is to help other countries reduce their dependence on food aid. Schools in food-



 USDA
  30                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                          ANNUAL PERFORMANCE REPORT




emergency countries frequently do not provide lunches to students. The Food for Education Program promotes
school attendance while supplementing food-aid supplies designed to meet temporary domestic consumption
needs. The Food for Education Program is unique in that its primary goal of increasing school attendance can be
measured with confidence. In FY 2003, $100 million began the initial program and, on average, 1.75 million
meals per day were distributed to school children and mothers. While the FY 2004 funding declined to
$50 million, 1.25 million meals per day were distributed.
Exhibit 11: McGovern-Dole International Food for Education and Child Nutrition Program

                                                                          Fiscal Year Actual
                       Trends                           2000       2001         2002            2003      2004
 Improve food security and nutrition through            N/A        N/A           N/A             1.75     1.25
 McGovern-Dole International Food for Education                                                Baseline
 and Child Nutrition Program by providing daily meals
 and take-home rations for mothers, infants and
 school children (Mil.)



An extensive operational and results survey is conducted by every private voluntary organization participating
in the delivery of food aid through McGovern-Dole International Food for Education and Child Nutrition
Program. A thorough review and evaluation of the survey by USDA will cover the progress, results and
challenges faced by the participating food distributors. The survey will be used to develop a strategy to address
challenges to effective food distribution and barriers to better results.

OBJECTIVE 1.3: EXPAND ALTERNATIVE MARKETS FOR AGRICULTURAL
PRODUCTS AND ACTIVITIES

Exhibit 12: Resources Dedicated to Expand Alternative Markets for Agriculture Products and Activities

                                                                            FY 2004
                                                                                   Percent of
                    USDA Resources Dedicated to Objective 1.3        Actual         Goal 1
                   Program Obligations ($ Mil)                      $4,458.2           11%
                   Staff Years                                       3,608             14%


Introduction
FSRIA provides new opportunities for USDA to foster the development and production of bioenergy
(commercial fuel grade ethanol and biodiesel) through the Bioenergy Program. This program encourages the
production of renewable energy and lessens U.S. dependence on international oil. At the same time, it supports
market prices for commodities used in bioenergy production, which assists farmers, ranchers and small rural
communities. Commodity Credit Corporation (CCC) Charter Act authority also is used by the Bioenergy
Program to make payments on biodiesel production that is not supported under the FSRIA authority. This
support has been critical in sustaining the developing biodiesel industry. The programs and authorized funding,
along with funding from the CCC to support certain programs, enable USDA to strengthen its role in biomass
and renewable resources.
FSRIA authorized a program for the preferred procurement of biobased products by Federal agencies.
Currently, the rulemaking process necessary to establish this program is underway. The discussion for this
objective, as related to biobased products, details the benefits, challenges and progress in implementing the
Federal Biobased Products Preferred Procurement Program. The Office of Energy Policy and New Uses
(OEPNU) is engaged in implementing the Federal Biobased Products Preferred Procurement Program. The



                                                                                                          USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              31
 ANNUAL PERFORMANCE REPORT




program is expected to increase the use of biobased products within the Federal Government significantly. This,
in turn, will boost the production of biobased products for that market.
FSRIA also is designed to increase public awareness about the benefits of using biobased products.
Additionally, the act authorizes loans, loan guarantees and grants to farmers, ranchers and rural small businesses
to purchase renewable energy systems, and to make energy efficiency improvements. Farmers across the
country are being introduced to a new energy source and given the opportunity to transition into this new
venture.

Overview
The Bioenergy Program stimulates industrial consumption of agricultural commodities by promoting their use
in bioenergy production. The increased use of these commodities supports demand and prices in the areas
around the facilities. The bioenergy plants also have a significant financial impact in the communities where
they are located, including creating new and supporting existing jobs.
USDA’s programs are designed to:
    Develop alternative markets for agricultural products;
    Stimulate new sources of demand that will benefit farmers by increasing economic activity and job
       opportunities in rural America;
    Create a portfolio of more environmentally friendly products; and
    Enhance the energy security of the U.S. by reducing dependence on imported energy.
The Federal Biobased Products Preferred Procurement Program will increase the demand for processing
facilities in rural areas. It also will boost the demand for biomass material from agricultural, marine and forest
sources. Currently, USDA is working to make the program fully functional. Once this is complete, the
aforementioned benefits will be realized.

Selected Results in Research, Extension and Statistics
Feather Fiber Technology—Turning agricultural waste products into assets is crucial to increasing farm
income. USDA scientists developed a process that converts chicken feathers into industrial fiber. The
researchers found that feathers can be added to plastic used in car parts, such as dashboards, to strengthen them
while reducing their weight. They also discovered that feather fiber could be combined with wood pulp to make
filter and decorative paper as well as other products. Processed chicken feather fiber, because of its super-fine
size and shape, may be used in filtration for trapping minute airborne particles. The feather-fiber technology has
been patented and licensed.
Biotech Supports Biomass-to-Ethanol—Breakthrough biotechnology developed by a University of
Florida scientist, with USDA support, helps produce 20 million gallons of ethanol fuel annually at the world's
first commercial biomass-to-ethanol plant. This discovery creates an alternative to petroleum-based fuels and
enhances demand for agricultural products. The plant's technology and operating system is based upon
genetically engineered bacteria. The university’s bioconversion technology is the world's first genetically
engineered E. coli 0157:H7 bacteria capable of converting all sugar types found in plant cell walls into fuel
ethanol for automobiles. By cloning the unique genes needed to direct the digestion of sugars into ethanol,
genes were inserted into a variety of bacteria with the ability to use all sugars found in plant material. The
ethanol genes redirected the digestive processes in the bacteria to produce ethanol at 90-to-95-percent
efficiency.
Lubricants From Soybeans 90 to 95—New industrial applications for soybeans present a unique niche
market for producers. USDA’s Ag-Based Industrial Lubricants Program has proven that soy-based industrial
fluids and grease products offer specific performance features. These features include better lubricity and
adherence to metal, unique energy efficiency and improved environmental advantages derived from being
biodegradable. Confirmation of these advantages over petroleum-based counterparts have led Norfolk Southern




 USDA
  32                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       ANNUAL PERFORMANCE REPORT




railroad to use a soy-based rail curve grease exclusively to meet the demanding requirements of freight railroads
with an environmentally friendly, cost-effective product.
New Paints and Coating Provide Markets for Soybeans—Soy-based substitutes for polymers used in
paints and protective coatings are expanding the markets for agricultural materials and stimulating new business
opportunities. Emissions of volatile organic compounds from polymer-based paints cause significant
environmental and health problems. University of Southern Mississippi researchers, with financial support from
USDA, have developed an indoor latex paint made with a castor oil-based additive substitute for the polymer
solvent. The resulting product contains neither an odor nor toxic emissions. Additionally, the paint
demonstrated superior quality when used in the renovation of the Pentagon. The same unique chemistry is being
used for the permanent-press treatment of military uniforms.

Serving the Public
Through the Bioenergy Program, producers receive payments to offset part of their cost of buying commodities
used to expand eligible bioenergy (commercial fuel grade ethanol and biodiesel) production. Increased
bioenergy production helps strengthen the income of soybean, corn and other producers, and lessens U.S.
dependence on traditional energy sources. It also supports rural communities through the jobs created and
maintained by the production facilities.
USDA’s Federal Biobased Products Preferred Procurement Program serves the agricultural sector, rural
communities and their residents, and the broader U.S. economy. Farmers and ranchers benefit from increased
demand for their products and new crops used as feedstocks in biobased-product production. Rural communities
and their residents benefit from the new investment in handling and processing facilities used in the production
of these commodities. New jobs in rural communities related to biobased handling and processing create new
economic vigor and bring opportunities to the families living there.

Challenges for the Future
The challenges to future success are:
     The development of an infrastructure to support the efficient and economically viable development of
        biobased products;
     Informing rural America about the benefits of biodiesel fuel use and helping farmers transition to a
        new style of operating;
     The continued need for public policies supporting the development and use of biobased products;
     The need for public education about the environmental, performance and energy-security benefits of
        using biobased products, and more effectively managing the carbon cycle;
     The development and valuation of measures that identify and assess the benefits that flow from
        increased use of biobased products, including benefits internal to the seller and user of the products
        and external benefits that affect society and the environment;
     The willingness of manufacturers and vendors of biobased products, working with USDA, to provide
        material and data necessary for testing and evaluation of biobased content, environmental attributes
        and life-cycle costs that will be required for the Department to designate generic groupings of products
        for preferred procurement within the program; and
     The willingness of manufacturers and vendors of biobased products that have been designated by
        rulemaking for preferred procurement within the program to cooperate with USDA in publicizing their
        availability. This can be done by their voluntarily posting their product and contact information on the
        program Web site at www.biobased.oce.usda.gov. This will allow Federal agencies to find biobased
        products for procurement. Without that cooperation, it will be difficult for the agencies to learn of the
        availability of biobased products.
In response to these challenges, USDA is creating regulations and operating procedures under which the
Bioenergy and the Federal Biobased Products Preferred Procurement Programs will operate. The Department



                                                                                                         USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              33
 ANNUAL PERFORMANCE REPORT




also is developing a model procurement program for Federal agencies to help them meet their responsibilities
within the program’s parameters. This model will educate and train Federal agencies about procurement and
how to use related informational resources. It also will allow manufacturers and vendors to identify and
evaluate biobased products available in the market place for their use. The Department’s Office of Procurement
and Property Management will announce the model procurement program once USDA agencies have
implemented the model. If successful, this model procurement program will make an important contribution
toward creating market-based opportunities to produce and consume increased amounts of biobased products.

KEY OUTCOME: INCREASE SUPPLY OF DOMESTICALLY PRODUCED RENEWABLE FUELS
Through USDA’s Bioenergy Program, producers receive payments to offset part of their cost of buying
commodities used to expand eligible bioenergy (commercial fuel grade ethanol and biodiesel) production. The
program stimulates industrial consumption of agricultural commodities by promoting their use in bioenergy
production. This is a significant element of the U.S. Government’s energy development policy, which calls for
increased production from renewable energy sources. Increased bioenergy production helps strengthen the
income of soybean, corn and other producers. It also lessens U.S. dependence on traditional energy sources.
Payments are based on bioenergy production increases from eligible commodities compared with the year
earlier period. USDA provided additional support to the developing biodiesel industry by making payments on
base level biodiesel production. For FY 2004, the payment rate on base level production was equal to 30 percent
of the payment rate on the increased production.
Exhibit 13: Expanding Bioenergy Production

                                                                                         Fiscal Year 2004
                    Annual Performance Goals and Indicators                   Target          Actual          Result
 1.3.1     Increase in bioenergy production (Mil Gal)                                                       Exceeded
              biodiesel                                                           4              9.2
                 ethanol                                                       200             442.4

 FY 2004 results as of July 23, 2004.

Analysis of Results
The performance goal was exceeded significantly. The ethanol industry is experiencing a dramatic increase in
demand. Biodiesel production increased 8.7 million gallons, exceeding the target by 4.7 million gallons.
Ethanol production surpassed the 200 million-gallon target by 221.5 million gallons. These results indicate an
important rise in the supply of domestically produced renewable fuels and expanded consumption of
agricultural commodities (feed stocks) used in production.
Performance targets were developed with industry and OMB input with the goal of moving the U.S. to more
energy independence, supporting the ethanol industry and helping the establishment of the biodiesel industry.
Baseline should equal total biodiesel production of 6.4 million gallons and total ethanol of 141.3 million in
2001.
Exhibit 14: Bioenergy Production Levels

                                                                           Fiscal Year Actual
                            Trends                      2000      2001           2002            2003          2004
 Increase in bioenergy production (Mil Gal)
     biodiesel                                          N/A      6.4              8.9            12.6          9.2*
                                                                Baseline
     ethanol                                            N/A     141.3           219.3          615.9         442.4*
                                                                Baseline

*Third quarter actual numbers.




 USDA
     34                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




A significant future challenge to the effectiveness of bioenergy programs is that large production increases
combined with historic high prices for associated feed stocks used in production, as experienced in FY 2004,
results in significant program payment prorations (reductions). Recent market forecasts project decreased prices
for certain commodities. The FY 2005 sign-up completed in August suggests that the ethanol industry may have
another record growth year ahead with more than 1 billion gallons under the program. Biodiesel producers also
predicted record increases in production. Payments to biodiesel producers help make the product competitive
with traditional diesel.
Due to high production levels and feedstock prices, payments were reduced 37 percent for the second quarter
and 46 percent for the third quarter so that program expenditures would not exceed the amount of available
funding. These reductions occurred with full funding ($150 million) in FY 2004. Fourth quarter payments,
which will be issued in December, are expected to be reduced 50 percent or more. The proposed funding
reduction to $100 million for FY 2005 will further reduce payments.

KEY OUTCOME: INCREASE THE PURCHASE OF BIOBASED PRODUCTS BY FEDERAL
             AGENCIES, RESULTING IN INCREASED DEMAND FOR FARM
             COMMODITIES AND INCREASED INVESTMENT IN PROCESSING AND
             MANUFACTURING ACTIVITY BASED IN RURAL AMERICA
A final rule establishing the program’s operation is expected to be published in the Federal Register by the end
of 2004. The first of a continuing series of rules to designate generic groupings of biobased products for
preferred procurement is expected to be available as a proposed rule for public comment by the end of calendar
year 2004. Rulemaking to designate generic groupings of biobased products for preferred procurement will
continue for a number of years as rapidly as the statutory data requirements to support designation can be
developed. A proposed rule to establish a voluntary labeling program for biobased products is expected to be
available for public comment by the end of the calendar year 2004, with a final rule in place by mid-calendar
year 2005.
This program will help the U.S. economy move toward increased leadership in biobased-products technology.
This will create profitable and environmentally friendly markets for these products, which will benefit the rural
communities that produce them.
USDA received $1 million in funding for testing biobased products. That funding has enabled the Office of
Energy Policy and New Users (OEPNU) to develop a Web-based information system for the Federal Biobased
Products Preferred Procurement Program. USDA’s Office of Procurement and Property Management currently
is developing a model procurement and training program for agencies within the Department. That program will
be extended to all Federal agencies later. One of the objectives of that program will be to create a system for
measuring Federal agency purchases of biobased products. No such system currently is available. OEPNU also
has launched a testing program to gather the necessary data on products within selected generic groupings of
biobased products. This is designed to satisfy the information requirement the statute poses for the designation
of these groupings for preferred procurement. The Web-based information system accomplishes three
objectives. First, it is a primary source of information to manufacturers and vendors of biobased products and to
Federal agencies, about the Federal Biobased Products Preferred Procurement Program. (A program under
which Federal agencies are required to purchase biobased products that fall within generic groupings of
biobased products that have been designed for preferred procurement). Second, this Web-based information
system has directions on how manufacturers can work with USDA to qualify generic groupings of biobased
products for preferred procurement. Third, the Web-based information system will be a primary source of
information about biobased products available to be procured by Federal agencies. This information will be
posted voluntarily on the site by manufacturers and vendors of the biobased products.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               35
 ANNUAL PERFORMANCE REPORT




Exhibit 15: Increase the Use of Biobased Products

                                                                                          Fiscal Year 2004
                Annual Performance Goals and Indicators                        Target         Actual         Result
 1.3.2   Number of generic groupings of biobased products designated for          2              0           Unmet
         preferred procurement by Federal agencies


Analysis of Results
The performance goal was unmet because a final rule had not been published. The final rule implementing the
Federal Biobased Products Preferred Procurement Program is currently under review within the Administration.
USDA expects to have published the final rule establishing the Federal Biobased Products Preferred
Procurement Program in the Federal Register by the end of calendar year 2004.
The statute creating this preferred procurement program specifies that “items” will be designated for preferred
procurement under this program through a process of regulatory rulemaking. “Items” are generic groupings of
biobased products. For example, such a generic grouping could be “biobased hydraulic fluids for mobile use”
which would include all biobased products in the market intended for that use. Another example could be
“janitorial cleaners” which would include all biobased products used in janitorial cleaning applications. “Items,”
or generic groupings of biobased products, are made up of individual branded products that fit within the
definition of the generic groupings. Such a grouping can include several dozens of individual branded products.
USDA has identified more than 80 generic groupings of biobased products for potential designation. The items
in the FY 2004 target that the Department designated for rulemaking were selected based on the availability of
test data and other information. That availability was based upon the level of cooperation from manufacturers
and vendors of products that fell within these items. The manufacturers and vendors provided test material and
other product information to USDA to support its designation rulemaking.
Manufacturer and vendor cooperation is crucial in developing the information required to support designation.
Once items are designated and Federal agencies begin to purchase biobased products that fall within the
designated generic groupings, USDA anticipates that manufacturers and vendors will become increasingly
interested in cooperating with USDA to develop the information necessary for designation of additional
groupings. As more groupings are designated and the benefits of preferred procurement demonstrated, USDA
expects Federal agencies to increase their purchases of biobased products substantially. The Department also
anticipates even stronger cooperation from manufacturers and vendors as they see this program’s value.
Since FY 2004 is the first year for the program’s operation, USDA will use performance information from both
this year and FY 2005 in determining a baseline for it.
Exhibit 16: Biobased Products Performance

                                                                           Fiscal Year Actual
                    Trends                           2000         2001          2002            2003          2004
 Number of generic groupings of biobased             N/A           N/A       Authorized    Developmental        0
 products designated for preferred procurement                                in FSRIA         stage
 by Federal agencies


USDA has made substantial progress in establishing the regulatory framework necessary for operating the
preferred procurement program. It also has created the necessary electronic information system to provide a
timely and efficient communication mechanism. Federal agencies can use the system to learn which biobased
products are available. It also will provide them with information on qualifying for preferred procurement and
contacting the manufacturers and vendors of those products. Manufacturers and vendors of biobased products
that fall within “items,” or generic groupings of biobased products, designated for preferred procurement by
regulatory rulemaking will be invited to post product and contact information on those biobased products on the
Web-based electronic information system developed by the Office of Energy Policy and New Uses (OEPNU).


 USDA
  36                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       ANNUAL PERFORMANCE REPORT




That Web-based information system will be the primary source of information on the identity and availability of
biobased products for Federal agencies required to purchase such products. Moreover, it is expected that this
Web site also will be used by the general consuming public to gather information on the availability and identity
of biobased products, thus facilitating broader use of such products.
In FY 2005, manufacturers and vendors will begin to reap the benefits of the program as measured in increased
sales of biobased products to Federal agencies. Voluntary cooperation by manufacturers and vendors with
OEPNU in gathering the information needed to designate generic groupings of biobased products by
rulemaking and providing information on those products to USDA’s electronic information system remain
major challenges that will determine how quickly the program grows.
USDA is undertaking a substantial outreach effort to manufacturers and vendors of biobased products to help
them assess the benefits of the program and develop the needed cooperation. The Department has entered into a
cooperative agreement with Iowa State University to identify biobased products and manufacturers and vendors.
The agreement also seeks their cooperation in developing data and other product information needed for the
designation of groupings by rulemaking. In turn, Iowa State has developed cooperative relationships with the
Biobased Manufacturers Association, the United Soybean Board, the National Corn Growers, the National
Biodiesel Board, the Renewable Fuels Association and USDA’s Forest Products Laboratory. These
relationships are designed to identify biobased products and manufacturers and vendors of those products, and
enlist their cooperation in obtaining information necessary to designate biobased products by rulemaking.
USDA also is increasing its efforts to test selected biobased products within generic groupings to speed the
collection of a database needed to support designation by rulemaking of these products.
Description of Actions and Schedules
The clearance process for the final rule establishing guidelines for the Federal Biobased Products Preferred
Procurement Program extended far longer than expected. The same problem existed for the proposed rule to
designate items for preferred procurement. Both rules are expected to be ready for publishing in the Federal
Register by the end of the 2004 calendar year.

OBJECTIVE 1.4: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO
FARMERS AND RANCHERS

Exhibit 17: Resources Dedicated to Providing Risk Management and Financial Tools to Farmers and
            Ranchers

                                                                             FY 2004
                USDA Resources Dedicated to Objective 1.4         Actual          Percent of Goal 1
               Program Obligations ($ Mil)                       $30,221.8              77%
               Staff Years                                        14,888                59%


Introduction
Agricultural producers face severe economic losses annually due to unavoidable causes such as low prices
and/or reduced yield due to drought, excessive moisture, hail, wind, hurricane, tornado and insects. The
agricultural production sector is characterized by small profit margins and ever changing cycles of good and bad
production years. USDA provides and supports cost-effective means of managing risk for agricultural
producers. This assistance is designed to improve the economic stability of agriculture by developing a variety
of risk management tools and continuing to assess producers’ needs. These tools range from yield-based
insurance products that protect individual crops against loss of field and/or price reduction to whole farm
products which protect the producer’s entire farming operation against loss. Providing risk management tools to
farmers and ranchers assists them in protecting their livelihood in times of disasters or other uncontrollable
conditions. The value of risk protection denotes the amount of insurance in force protecting and stabilizing the



                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               37
 ANNUAL PERFORMANCE REPORT




agricultural economy. It also illustrates the acceptance of these products by producers and indicates a
broadening of economic stability across the agricultural spectrum.
The economic stability of farms and ranches is critical for protecting the Nation’s agricultural industry. USDA
programs support the financial viability of the Nation’s farmers and ranchers by providing a financial “safety
net” that helps ensure productive and viable farms and ranches. USDA’s loan assistance and income support
and disaster assistance programs work to ensure that food producers receive the financial assistance and support
necessary to maintain and grow.
USDA strives to improve its program delivery structure by ensuring fair and equitable services to all of its
customers. This includes all beginning, socially disadvantaged and limited-resource farmers. Departmental
activities aimed at preventing civil rights program complaints will minimize associated risk, ensure equal access
to financial tools and enhance economic opportunities.

Overview
The USDA Federal Crop Insurance Program provides an actuarially sound risk management program to reduce
agricultural producers’ economic losses due to unavoidable causes. Recently, USDA has seen dramatic growth
in this program. It now insures an additional 20.5 million acres more than in 1999, and 45 percent or 119.5
million acres more than it did 10 years ago. Federal crop insurance is available to producers solely through
private insurance companies that market and provide full service on the insurance policies upon which these
companies share the risk. Principally, the Standard Reinsurance Agreement (SRA) defines the amount of risk-
they share. Under this agreement, insurance providers agree to deliver risk management insurance products to
eligible entities under certain terms and conditions. Providers are responsible for all aspects of customer service
and guarantee payment of premium to the Federal Crop Insurance Corporation (FCIC). In return, FCIC
reinsures the policies and provides reimbursement for administrative and operating expenses associated with
delivering the insurance products. In 2004, USDA updated the SRA. Each insurance company intending to
write new business for the 2005 reinsurance year is required to submit a signed copy in order to participate in
the Federal Crop Insurance Program. During 2004, the number of participating companies increased by 1 to
bring the total to 15. USDA continues to receive inquiries from additional insurance companies interested in
joining the program. Additional companies are in various stages of applying. For FY 2004, the value of risk
protection provided to agriculture producers through FCIC-sponsored insurance reached $46.7 billion.
Producers have access to a number of USDA farm income support programs that bring much needed economic
stability to the agricultural sector. Assistance is provided through direct payments, which are based on historical
planting and yields. These payments are not tied to the production of specific crops and counter-cyclical income
support payments based on market prices in relation to target prices. Marketing assistance loans provide
producers interim financing at harvest time. These loans help producers meet their cash flow needs without
having to sell their commodities at harvest time when prices are low. With adequate financing, producers store
their production at harvest. These loans facilitate orderly marketing of commodities throughout the year. In
FY 2004, USDA issued approximately 430,000 marketing assistance loans valued at more than $9 billion.
Additionally, to ensure the effectiveness of its credit programs, it is important to provide timely financial
resources and other assistance to borrowers when a need arises. Therefore, USDA plans to continue to reduce
processing times for loan requests each year. The Department also will continue to monitor closely the
delinquency and loss rates of the direct loan portfolio. Borrower ability to pay installment debt on time is a
strong indicator of financial strength and viability. Reduced losses in the program indicate that borrowers are
experiencing greater success in meeting their financial obligations.

Selected Results in Research, Extension and Statistics
Farm Bill Technical Assistance—The counter-cyclical payment introduced in FSRIA is calculated in part by
Marketing Year Average prices estimated by USDA. The large magnitude of payments potentially affected by
the accuracy of these averages led to a self initiated review of the Prices Received by Farmers Survey, which
reports average prices of all commodities sold. All procedures and documentation have been reviewed and
updated as appropriate, increasing data quality and ensuring consistent data collection activities by States.



 USDA
  38                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




Real-Time Pricing and Market Simulation—Keeping a competitive edge in the cattle fed industry requires
understanding such complex concepts as price discovery, market dynamics, breakeven analysis, derived
demand and industry structure conduct performance. Oklahoma State University, with funding support from
USDA, developed a Fed Cattle Market Simulator, a computerized simulator for adult groups of 24 to 48 people.
In workshops, two or more agricultural economists lead the program simulator and fielded questions that
emerge from the simulators multiple teachable moments. The workshops become simulations of the daily trials
of cattle feeders and beef packers interacting with each other as they buy and sell. The program since has
expanded to Colorado, Florida, Iowa, Kansas, Kentucky, Michigan, Tennessee, Texas and Utah.
Assessment of Agricultural Policy—USDA led the development of analytical studies that responded to
requests for information on the FSRIA. For example, the USDA report, “Economic Effects of U.S. Dairy Policy
and Alternative Approaches to Milk Pricing,” provides a comprehensive assessment of the effects of current
U.S. dairy programs. This assessment considers the ongoing structural change in consumer demand, farm
structure and the processing industry. Other reports on specific commodities where FSRIA changed programs
include Policy Change and Adjustment in the U.S. Peanut Sector and Trends in the U.S. Sheep Industry.
Farm Households and the Rural Economy—“Farm Policy, Farm Households, and the Rural Economy,”
which can be accessed electronically at http://ers.usda.gov/Briefing/Adjustment, discusses the links between
agricultural policy, the diverse set of U.S. agricultural producers and the rural communities in which they live.
The findings show the broad effects of policies and explore alternative types of policies and the adjustments
associated with various scenarios.
Improved Access to Market Outlook and Analysis—USDA initiatives have increased the accessibility,
timeliness and breadth of the data and analysis of agricultural markets. The Department launched a Web page
that offers the latest outlook information, data and links through a central location. Additionally, USDA’s
agricultural baseline projections now are more readily available through the release of components as they are
completed. For more information, visit http://ers.usda.gov/.
Serving the Public
Agricultural production is an inherently risky enterprise. Producers are exposed to both production and price
risks daily. They can benefit from the crop insurance to protect themselves against these economic risks. Over
the years, USDA has played an active role in helping producers ease the effects of these risks on farm income.
The Department promotes the use of crop insurance and other risk management tools. Federal crop insurance
offers producers various types of coverage and other tools to protect against crop and revenue loss.
USDA also offers direct and guaranteed farm ownership and operating loans to family-sized farmers and
ranchers who cannot obtain commercial credit from a bank, farm credit system institution or other lender.
Department loans can be used to purchase land, livestock, equipment, feed, seed and supplies. The loans also
can be used to construct buildings or make farm improvements. These loans are particularly important to
beginning, minority and women farmers whose limited cash flow may preclude them from qualifying for a
commercial loan.
USDA’s commodity programs continue to be a testament to the country’s commitment to maintaining a
balanced food and fiber industry for its consumers. The assistance made available under these programs helps
stabilize American farming and ranching operations. This assistance enables farmers and ranchers to reduce
their risk of financial loss due to inclement weather or unfavorable global market conditions.
Direct and counter cyclical payments reduce financial risks and help producers meet their cash flow needs.
Marketing-assistance loans provide producers interim financing at harvest time to meet cash flow needs without
having to sell their commodities when market prices are at harvest time lows. Enabling producers to store
production at harvest facilitates more effective commodity marketing throughout the year.
USDA is working continuously to ensure the public knows about all of its programs and services. The efficient
processing of civil rights program complaints will decrease lawsuits, reduce civil rights complaints, decrease
delays and lower costs to the Department. These reductions will assist in achieving the goal of ensuring that
USDA provides fair and equitable services and benefits to all of its customers.



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               39
 ANNUAL PERFORMANCE REPORT




Challenges for the Future
Today, approximately 78.5 percent of the acreage planted in major crops is at least minimally insured.
Providing existing crop insurance programs into new counties and States expand coverage. It also occurs by
developing new types of coverage, such as for livestock pasture, forage, rangeland and revenue protection.
These programs, along with diversified production, marketing and the use of futures and options, allow each
producer to customize his or her risk management strategy. These products can help producers protect
themselves from yield and/or market risks. To meet producer needs, USDA continues to seek out actuarially
sound innovative risk management solutions for providing coverage suited for a diverse agriculture. For
example, in 2004, USDA awarded four contracts to develop new and very innovative risk management
solutions for insuring pasture, rangeland, forage and hay. They include developing a new plan for pasture,
rangeland and dryland hay using a dual index consisting of such tools as a satellite-based vegetative index and a
proxy crop, and a Temperature Constrained Normalized Difference Vegetation Index. This index uses data
derived from satellite-based remote sensing imagery that will describe the seasonal growth dynamics of
vegetation for target areas. Other tools include a Seasonal Growth Constrained Rainfall Index, which uses a
weighted warm season/cool season indexing period and the National Oceanic and Atmospheric Administration
rainfall data system; and a Precipitation Index using a rainfall index based on a weighted average amount of
precipitation during a particular time period.
USDA’s challenge is to continue expanding and improving coverage, particularly for the underserved States,
communities and commodities. To do this, the Department needs to address the information technology cost
increase associated with maintaining and upgrading existing product data needs. This technology also services
new or revised products. It has become increasingly more difficult to bring new products online with the
existing information systems. USDA is researching how to deliver more products suited for a diverse
agriculture. USDA will continue to evaluate risk management delivery of products, review and approve private
sector insurance products to be reinsured by FCIC, and ensure the effective delivery of products to agricultural
producers. To further contribute to the producer’s ability to protect their financial stability, USDA will continue
to provide education, outreach and non-insurance risk management assistance initiatives and tools through
partnerships.
USDA consistently reviews its farm loan program activities to assess the effectiveness and impact of its
programs. Ensuring an efficient delivery of services is affected by the availability of funds for financial
assistance and the local and national economies. It also depends on training, human capital planning and
organizational efficiencies. Farm loan program challenges include ensuring a highly trained staff, assisting
farmers during economic distress and natural disasters, and offering credit to eligible buyers unable to obtain it
from other sources.
One challenge is a lack of customer focus at the service delivery point. USDA will improve technical assistance
and education, and provide workshops for farmers, farming-related associations and civil rights organizations
with an interest in farming and agriculture. These targeted, multi-agency efforts will provide greater awareness
of USDA program availability and inform its customers of participation requirements.

Management Challenge
Agencies’ coordination of program delivery and control is a management challenge for the Department.
(Appendix A contains the Office of the Inspector General’s report on USDA’s major management challenges.)
In response to this challenge, USDA agencies are working together to identify and review potential program
integrity issues. This includes conducting producer spot-checks, referring potential issues to county offices, and
consulting with State committees on program matters. The Department is progressing with the eGovernment
initiative for USDA agencies and insurance providers to share and report on common information that
producers must provide. The system is scheduled for completion in FY 2006. The Department also is piloting
an agency software project. The software can draw on a variety of databases and information sources to present
progress and financial information graphically in an integrated display. This display is designed to provide real-
time information for managers to use in decision making.




 USDA
  40                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




An electronic Loan Deficiency Payments (e-LDP) system was deployed nationwide in September 2004
allowing producers and other entities to apply for LDPs from their home or work computer. Because it is a
Web-based application, county USDA offices also will be able to enter requests they receive through the
system. Within 24 to 48 hours after an application is submitted electronically, and if all requirements are met,
the funds will be disbursed electronically to the proper bank account. This process should alleviate the long
lines and extended waits producers experience during times of heavy LDP activity.

KEY OUTCOME: INCREASED VALUE OF RISK PROTECTION PROVIDED TO AGRICULTURAL
             PRODUCERS THROUGH FCIC-SPONSORED INSURANCE
FCIC improves economic stability by ensuring that new and innovative risk management alternatives are
available. The increased value of risk protection provided to agricultural producers through FCIC-sponsored
insurance illustrates the acceptance of these products by producers and the broadening of economic stability
across the agricultural spectrum.
FCIC is a wholly owned Government corporation created in 1936, to provide for nationwide expansion of a
comprehensive crop insurance program. This program consists of many public and private risk management
alternatives designed to improve the economic stability of agriculture. The long-term agricultural producers’
capability to supply U.S. and global food-related markets depends on their ability to manage financial and
natural risks associated with production. FCIC promotes the availability of a sound system of crop insurance for
American agricultural producers. FCIC sponsored insurance provides assistance in managing this risk. Private
sector insurance companies sell and service these policies. FCIC develops and/or approves the premium rates,
administers premium and expense subsidies, approves and supports products, and reinsures the companies.
Contracts or partnerships are used for research and development of new and innovative insurance products. It
also provides the means for the research and experience helpful in devising and establishing such a system.
Private entities also may submit unsolicited proposals for insurance products to the FCIC for approval. During
2004:
      The FCIC Board of Directors approved a pilot program to provide crop insurance coverage for
          sorghum silage. Sorghum is a grain used to feed livestock. Grain sorghum varieties grown for harvest
          as silage in 2 counties in Colorado and 37 others in Kansas will be eligible for coverage under the new
          pilot program beginning in the 2005 crop year;
      USDA County Crop Programs rose by 3,774 over the previous year for a total of 43,433. Fifty-three
          percent of this increase was in the expansion of livestock programs;
      USDA requested proposals to develop new or revised methods for mitigating declines in an insured’s
          approved yield following successive years of low yield. The evaluation of these contract proposals is
          expected to occur later this year;
      Sales of the Livestock Risk Protection (LRP) and Livestock Gross Margin (LGM) insurance policies
          resumed September 30, 2004. LRP is designed to insure against declining market prices available for
          swine, feeder cattle, and fed cattle in selected States. Producers may select from a variety of coverage
          levels and periods of insurance. Sales of LRP Feeder cattle and fed cattle were suspended in December
          when Bovine Spongiform Encephalopathy was detected within the U.S. USDA made several
          modifications to the LRP program to include six new States, and to allow the availability of all 3 LRP
          products in the 13 existing pilot States;
      USDA issued provisions to convert the pecan revenue and the blueberry pilot crop insurance programs
          to permanent insurance programs for the 2005 and succeeding crop years. USDA also amended the
          apple crop insurance provisions to better meet the needs of the insured;
      USDA sponsored educational and outreach programs and seminars on risk management. There were
          99 agreements utilizing approximately $14.1 million to expand the amount of risk management
          information available. The FCIC also promoted risk management education opportunities, informed
          agribusiness leaders of increased emphasis on risk management, delivered training to producers,




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                41
 ANNUAL PERFORMANCE REPORT




         emphasizing small farm, limited-resource and other traditionally underserved producers, and reached
         producers of speciality crops; and
        In response to the catastrophic damage to crops in Florida due to hurricanes, USDA authorized
         emergency loss procedures that streamline certain loss determinations and assisted the adjustment of
         losses and issuance of indemnity payments to crop insurance policyholders in the affected areas.
USDA continues to assess producers’ needs and private risk management tools to ensure that new and
innovative alternatives are available.
Exhibit 18: Expand Use of Risk Management Tools

                                                                                               Fiscal Year 2004
                 Annual Performance Goals and Indicators                             Target        Actual         Result
 1.4.1   Increase the value of risk protection provided to agriculture                $42.7           $46.7    Exceeded
         producers through FCIC sponsored insurance ($ Bil)


Analysis of Results
USDA exceeded its target by $4 billion. During FY 2004, the economic risk of American agricultural producers
was reduced by approximately $46.7 billion through Federal crop insurance coverage. This is approximately $6
billion more than in 2003. The performance measure illustrates the dollar value of FCIC insurance in force
within the agricultural economy. Since FY 1999, the value has increased by approximately $11 billion. While
there are a number of factors that influence these numbers, including increases in market values and inflation, it
still represents a major growth in the amount of the agricultural economy insured via the FCIC-sponsored
insurance. For example, the program now insures approximately 1.7 million acres more than it did in FY 2003.
In the FY 2003 Performance and Accountability Report, this measure was deferred. However, the FY 2003
target of $40.6 billion was found to be met for FY 2003 when the actual results were reported in Spring 2004.
Exhibit 19: Providing Risk Management and Financial Tools to Farmers and Ranchers

                                                                                 Fiscal Year Actual
                      Trends                             2000            2001         2002            2003         2004
 Increase the value of risk protection provided to       $34.5           $36.7       $37.3             $40.6      $46.7
 agriculture producers through FCIC sponsored
 insurance. ($ Bil) Baseline: 1999 = $30.9


USDA has enhanced the value of risk protection significantly through FCIC-sponsored insurance since
FY 2000. The Department continues to work closely with insurance providers that market and provide full
service on crop insurance policies, It also researches and develops new products that address the needs of
producers. Additionally, USDA has partnered with State Departments of Agriculture, universities and farm
organizations to deliver regionalized risk management education programs for producers in the historically
underserved States and to specialty crop producers. Due to these efforts, the Federal Crop Insurance Program
should continue to provide actuarially sound risk management solutions to strengthen and preserve the
economic stability of American agricultural producers.
Management Challenge
Ensuring the integrity of Federal crop insurance programs, improved quality control systems and information
technology processing is a management challenge for USDA. (Appendix A contains the Office of the Inspector
General’s report on USDA’s major management challenges.) In response to this challenge, USDA has issued
Appendix IV, Quality Standards and Controls, of the 2005 Standard Reinsurance Agreement outlining the
quality control guidelines that insurance providers are required to follow. Some of the requirements include:
     Providing a plan outlining the company’s quality control program;



 USDA
  42                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            ANNUAL PERFORMANCE REPORT




        Reviewing claims in excess of $100,000 and reporting the results to the FCIC;
        Reviewing anomalies identified by FCIC (data mining) that suggest abnormal or unusual underwriting
         or loss performance (not to exceed 3 percent of indemnified eligible crop insurance contracts for the
         crop year); and
        Immediately notifying FCIC of any potential claim likely to exceed $500,000.
Additionally, RMA’s compliance operation reviews insurance provider adherence to the Standard Reinsurance
Agreement requirements.

KEY OUTCOME: IMPROVE ECONOMIC VIABILITY OF BEGINNING AND SOCIALLY
             DISADVANTAGED FARMERS AND RANCHERS
While the future of farming in America depends on the continued entry by new operators and owners, the
agricultural census reveals that there are fewer young farmers today than in the past, and that the number of new
entrants into farming has fallen over time. To help offset this trend and encourage new entrants to farming,
USDA targets a portion of its lending each year to beginning farmers. Beginning farmers are defined as those
who have not operated a farm or ranch for more than 10 years, and who participate substantially in the operation
of a farm or ranch. USDA credit assistance is particularly vital to beginning farmers as they tend to have smaller
operations and lower equity levels. This limits their ability to obtain commercial credit.
Similarly, USDA also targets its lending to socially disadvantaged farmers. Socially disadvantaged farmers are
members of a group who have been subjected to racial, ethnic, or gender prejudice because of their identity as a
member of that group without regard to individual qualities. Women also are considered a socially
disadvantaged group. Socially disadvantaged farmers are more likely to have smaller farming operations lower
average incomes and a limited asset base. As a result, they are less likely than other farmers to qualify for credit
from commercial sources.
Farm loan programs provide support to family farmers and ranchers who otherwise would be unable to
contribute to the agricultural sector. Assistance is offered through the Direct Loan Program and the Guaranteed
Loan Program. Through the Direct Loan Program, USDA makes and services farm operating and farm
ownership loans, and provides customers credit counseling and loan supervision so they have a better chance of
success in their farming operation. The Guaranteed Loan Program provides agricultural lenders with up to a 95-
percent guarantee of the principal loan amount for farm operating and farm ownership loans. The lender is
responsible for servicing a borrower's account for the life of the loan. All loans must meet certain qualifying
criteria to be eligible for guarantees. USDA has the right and responsibility to monitor the lender's servicing
activities.
Exhibit 20: Providing Credit Assistance

                                                                                       Fiscal Year 2004
                Annual Performance Goals and Indicators                       Target        Actual         Result
 1.4.2   Increase the percent of loans to beginning and socially               35%           40%          Exceeded
                                         1
         disadvantaged farmer/ranchers
 1
  Includes Direct and Guaranteed Farm Operating and Farm Ownership loans.

Analysis of Results
USDA exceeded its goal of providing increased assistance to beginning and socially disadvantaged farmers. In
FY 2004, 40 percent of all direct and guaranteed farm loans were provided to these groups. This represents a
nearly 18 percent increase from FY 2003 and a 48 percent increase from the FY 2000 baseline. In all, 12,063
farm loans totaling $1.2 billion were issued. Loan proceeds are used to acquire, enlarge or improve a farm (farm
ownership loans) or provide short- to intermediate-term production or chattel financing (farm operating loans).
As the following table indicates, the long-term trend of providing increased credit assistance to beginning and
socially disadvantaged farmers and ranchers has continued.



                                                                                                             USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  43
 ANNUAL PERFORMANCE REPORT




The improved efficiency is attributed to the comprehensive streamlining of the Guaranteed Loan Program,
which was completed in 2001. This effort essentially reinvented the guaranteed loan program. In addition to the
streamlining effort, USDA created a Preferred Lender Program that continues to yield positive results. The
program was established to reward experienced agricultural lenders by streamlining and adding flexibility to the
loan application and servicing requirements. It also expedites loan approval and other USDA decisions and
allows lenders to originate and service guaranteed loans the way they do other loans in their portfolio.
USDA also is implementing a Web-based farm planning software application, Farm Business Plan, which will
be used to develop farmers’ business plans and manage their loan portfolio. This is a significant undertaking,
changing the way USDA has operated for more than 50 years. The Farm Business Plan will provide much
improved borrower information, allowing the Department to improve the measuring of borrowers’ financial
viability, perform more in-depth portfolio analysis and focus resources on problem areas. Once implemented for
the Direct Loan Program, the system will be available to lenders participating in the Guaranteed Loan Program
and eventually directly to farmers.
Exhibit 21: Trends in Lending to Beginning and Socially Disadvantaged Farmers/Ranchers

                                                                       Fiscal Year Actual
                     Trends                        2000        2001         2002            2003        2004
 Increase the percent of loans to beginning and    27%         30%          33%             34%         40%
 socially disadvantaged farmer/ranchers           Baseline


During FY 2004, USDA further strengthened its loan programs designed for beginning and socially
disadvantaged farmers. The Department continued its comprehensive streamlining program for the Direct Loan
Program regulations, handbooks and information collections. This ongoing streamlining effort has reduced the
burden for both applicants and USDA dramatically. It also has contributed to the continued improvement in
loan processing efficiencies. Loan processing timeliness continued to improve. The average time to process a
direct loan has decreased from 46 days in FY 2000 to 37 days in FY 2004. Likewise, guaranteed loan
processing times continued their downward trend, with an average processing time of 14 days—a 30-percent
decline from FY 2000.
Implementing these projects allows USDA to focus more resources on providing the technical assistance,
services, monitoring and oversight essential to supporting high-risk beginning and socially disadvantaged
farmers. USDA helps customers identify problems and develop solutions. This leads to lower loan
delinquencies and reduced losses, and assists USDA in accomplishing its objective of improving the economic
viability of farmers.

STRATEGIC GOAL 2: SUPPORT INCREASED ECONOMIC
OPPORTUNITIES AND IMPROVED QUALITY OF LIFE IN RURAL
AMERICA
The United States Department of Agriculture (USDA) focuses on expanding economic opportunities and
improving the overall quality of life in rural America. According to the most recent USDA statistics, while rural
poverty rates in 2000 and 2001 were some of the lowest on record, they still continued to be higher than that of
their urban and suburban counterparts. In 2002, one in five rural children lived in poverty, and a similar
proportion resided in households unable to acquire enough food for all its members. Additionally, based on
1999 date, the poverty rate is 16.8 percent in rural areas verses 11.5 in urban areas. Many rural communities lag
behind suburban and urban America because of their remoteness, lower educational attainment and specialized
economic base.
USDA programs offer these rural communities opportunities for improvement. To expand economic
opportunities, the Department provides loans, grants and infrastructure to rural entrepreneurs. To improve the
quality of life in rural communities, USDA offers assistance to upgrade the quality and quantity of housing,


 USDA
  44                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       ANNUAL PERFORMANCE REPORT




water- and waste-disposal facilities, electric facilities, telecommunications infrastructure and community
facilities.
In all, USDA programs are designed to make a significant difference in the rural economy and other aspects of
the rural quality of life.

OBJECTIVE 2.1: EXPAND ECONOMIC OPPORTUNITIES THROUGH USDA
FINANCING OF BUSINESSES

Exhibit 22: Resources Dedicated to Support Expanding Economic Opportunities Through Financing of
            Businesses

                                                                             FY 2004
                USDA Resources Dedicated to Objective 2.1          Actual        Percent of Goal 1
               Program Obligations ($ Mil)                        $7,374.8             44%
               Staff Years                                         2,595               30%


Introduction
Financing of businesses led to the creation and saving of 81,010 jobs in FY 2004. As a result, economic
opportunities for rural communities have expanded.

Overview
USDA focuses on expanding economic opportunities in rural areas, the heartland of American values. Declining
economies challenges many rural communities. This is caused by the transition away from traditional economic
bases. Key challenges include their distance from input or product markets, poor labor-force skills and rising
international competition. The Department makes a variety of investments in rural communities, including:
      Guarantees of bank loans to rural businesses;
      Capitalizing local revolving microloan funds that assist local small and emerging businesses;
      Grants to develop business infrastructure, such as industrial parks and incubators, and feasibility
          studies;
      Grants for business planning, public transportation and re-training;
      Technical assistance to help communities develop strategic plans for economic development;
      Loans and technical assistance to agricultural cooperatives;
      Grants to develop energy savings and alternative energy sources; and
      Grants to create new enterprises based on value-added products.

Selected Results in Research, Extension and Statistics
Understanding Rural Diversity—The economies, resources, opportunities and challenges of individual
rural areas differ. USDA has developed a new county classification, also called a typology, which captures the
broad economic and social diversity among rural areas. This typology is used widely by policy analysts and
public officials to determine eligibility for and effectiveness of Federal programs to assist rural America. It
identifies six discrete economic types of non-metro counties based on the primary economic activity of the
county. They include:
      Farming;
      Manufacturing;
      Mining;
      Service;



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                45
 ANNUAL PERFORMANCE REPORT




        Federal/State Government; and
        Other.
The typology also identifies seven county types that distinguish important policy themes. These themes are:
     Persistent poverty;
     Persistent population loss;
     Housing stress;
     Retirement destination;
     Recreation;
     Low education; and
     Low employment.
Small Business Support—Through a variety of education programs, USDA helped minority residents gain
the necessary skills to meet employer demands and pursue their own businesses. In Alabama, the Department
worked with a local chamber of commerce to offer a Franchise Entrepreneurship Workshop for 200 minority
individuals. Ten percent of the participants later started their own businesses. Five others plan to open a
franchise. A South Carolina State University Small Business Workshop Series taught 22 small business owners
and entrepreneurs different aspects of business planning, marketing, bookkeeping, employee management and
technology solutions. Small business owners who attended use their new skills to operate more effectively.
Alabama Cooperative Extension launched a Hispanic/Latino Initiative to provide Web-based links to Spanish
educational materials to ease the transition into community life for newcomers. Extension established a
diversity council to address language and cultural differences and hired a bilingual agent to conduct programs.
Twenty-three food service workers with limited English language skills passed a food-safety certification test
USDA taught in Spanish. Colorado State University researchers verified that Hispanic workers are meeting
seasonal production, harvesting employment demands and contributing to the local economy.
2002 Census of Agriculture—The 2002 Census of Agriculture was released in June 2004. This census
provides the only source of detailed, comprehensive agricultural facts for every county in America. For the first
time, data for every county and state were adjusted statistically to account for farms missed or misclassified in
the census. The 2002 census revealed that:
      90 percent of farms are operated by an individual or family;
      The value per farm averaged $537,833, up 24 percent from 1997; and
      Direct sales to consumers increased 37 percent from 1997.

Serving the Public
USDA programs help create and save jobs in rural America. USDA manages several programs designed to
support businesses in rural communities. For example, the Business and Industry (B&I) Guaranteed Loan
Program can help a rural business get needed credit by guaranteeing as much as 90 percent of a business loan
made by a commercial lender. Loan proceeds may be used for working capital, machinery and equipment,
buildings and real estate, and certain types of debt refinancing. B&I expands the lending capacity of private
lenders in rural communities. Typically local lenders are small banks with limited lending authority under
banking laws. The guarantee allows these lenders to make bigger loans and avoid a “concentration of credit”
problem. With the guarantee, lenders can make, sell and service quality loans that provide lasting community
benefits. Businesses in rural communities tend to buy local goods and services and boost employment. This
investment stimulates the economy. The B&I program represents a true private-public partnership in rural
communities. USDA also provides loans to establish revolving loan programs to local not-for-profit
organizations. These revolving loan programs are capitalized by 1-percent loans from USDA. Revolving loan
funds provide financing to help develop small or emerging private business enterprises in rural areas for land
acquisition, working capital, building renovation, new construction, new equipment and equipment upgrading.
This program helps the beginning entrepreneur and the small business by providing low cost loans, usually
coupled with mentoring. For example, such loans might enable the one local taxi service to buy a newer, fuel-


 USDA
  46                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




efficient car; let a dentist buy equipment or expand; or give a local craftsman the wherewithal to buy in larger
quantity to gain some savings. As these loans are repaid, additional local businesses can borrow. Grants permit
local fire departments to purchase improved equipment, communications and training.

Challenges for the Future
Rural economies face different challenges than urban and suburban areas. These challenges include:
     Historic dependence on natural resources, mostly commodities, which are subject to cyclical trends;
     Low profit margins on commodity sales;
     Large-scale changes in technology and the resulting efficiency gains in these industries; and
     Their inaccessibility and low-density populations.
Also, rural areas typically are caught in a cycle of underdevelopment of public services that make it difficult to
attract or retain businesses. Education, health care and entertainment are typically only marginally acceptable.
Every rural area has its unique concerns.

KEY OUTCOME: ENHANCE CAPITAL FORMATION FOR RURAL COMMUNITIES
Many rural communities are challenged by declining economies due to a combination of factors. These factors
include transitioning away from traditional economic bases, efficient and competitive access to input or product
markets, outmoded labor force skills, and rising international competition. USDA seeks to address these
circumstances by expanding economic opportunities in rural areas through the stimulation of capital investment.
The variety of investment strategies used includes guarantees of bank loans to rural businesses, capitalizing
local revolving loan funds that assist rural small businesses, grants to develop business-friendly infrastructure,
business planning grants and guarantees on bank loans, direct loans and grants to foster energy savings. The
resulting enhanced capital formation is linked directly to the USDA Strategic Objective of expanding economic
opportunities.
In many rural communities, farm families seek part-time and seasonal work to supplement on-farm income.
USDA programs support skill development (marketing, finance) and small financial incentives to lenders who
help broaden and stimulate local employment. Job growth and employment in rural communities lag behind that
in urban areas. According to 2001 figures, while rural communities account for about 20 percent of the Nation’s
population, they represent only 18 percent of all jobs in the U.S.
Physical conditions and credit terms in rural areas are inferior to those in metropolitan and urban areas. For
example, rural banks are smaller and bank regulations impose more restrictive lending limits (size of loans and
concentration of industry) than for larger urban institutions. The availability of the Internet and other Web
services is inconsistent in rural areas. Even telephone access is uneven in rural areas. Access to computer
servers for business use may be unavailable or cost prohibitive. Phone lines are often too slow to accommodate
high-data needs of businesses. This is a distinct disadvantage to business growth. The rare publicly financed
rural industrial park is smaller and has fewer amenities than its urban counterparts. While rural areas tend to
grow during national economic expansions, sometimes at faster rates than metro areas, many have neither the
size nor depth of tax bases to finance the direct amenities and conditions that businesses can demand from
metro governments. These amenities include transportation links, necessary sewer and water, adequate fire
protection, attractive downtowns, well-regarded school systems, reliable and accessible health care, and
publicly financed training of workers.
B&I can guarantee loans for satisfactory credit risks. This program allows lenders to offer competitive terms
and make loans of up to $25 million in eligible areas. Up to $40 million may be guaranteed for certain value-
added cooperative enterprises. USDA also provides technical assistance and modest grants (frequently as a
catalyst for attracting local private funds) for communities to launch the infrastructure necessary for businesses.
Funding of small revolving loan funds encourages business growth by helping new borrowers and emerging
local entrepreneurs without a credit history or adequate collateral for a commercial lender.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                47
 ANNUAL PERFORMANCE REPORT




A small Montana consulting firm expanded its staff from 23 to 50 by using an USDA-capitalized revolving loan
fund to cover short-term cash needs during its expansion. Relatively new service businesses like this one, with
few tangible assets to pledge as collateral, are not offered affordable terms by traditional lenders.
Exhibit 23: Strengthen Rural Businesses

                                                                                           Fiscal Year 2004
                Annual Performance Goals and Indicators                           Target          Actual       Result
 2.1.1   Create or save additional jobs through USDA financing of businesses.     73,569          81,010      Exceeded


Analysis of Results
The performance goal was exceeded for the number of jobs computed to be created or saved. The amount of
carryover funding had a direct impact on performance. Another factor in variation is that three of the eight
business programs awards were made in the third and fourth quarters. These factors had a profound impact on
both estimating and establishing jobs saved/created targets. The number of jobs created or saved is related
directly to the funding levels for each program and business conditions in regional and national economies.
There is an unequal relationship between program dollars provided and jobs resulting. There are six different
programs, which count jobs created differently. The B&I guarantee program counts the jobs when the loan is
closed. This also is true for some of the grant programs. The major revolving loan fund uses a formula based on
a study, as the cost of actually acquiring job information on each loan was determined to be not cost effective.
These factors are beyond USDA’s control. Additionally, State offices substantially improved their ability to
gather, record and report job information on all programs consistently
The 81,010 jobs resulting from USDA’s programs for expanding economic opportunities in FY 2004 exceeded
the target level. While this number is less than the 2003 number, it is proportionate to funding. The clear
controlling factor is funding availability. USDA also used some carryover funds from FY 2003.
In addition to direct jobs created or saved, the economic benefit to the rural community is estimated to be $2.50
for every dollar in guaranteed loans closed, according to U.S. Department of Labor statistics. These investments
make a continuing difference in rural communities, though only counted and reported as the jobs computed in
the year a loan or grant is obligated. The current state of the economy and the downward trend in interest rates
in commercial credit has made it fairly easy for USDA to use all of its loan, grant and loan guarantee authority.
Exhibit 24: Trends in Creating or Saving Jobs

                                                                             Fiscal Year Actual
                     Trends                           2000          2001          2002            2003          2004
 Create or save additional jobs through USDA         73,502       105,222        76,301           88,611       81,010
 financing of businesses                                          Baseline


One challenge USDA faces is that general economic conditions strike harder and longer in rural areas. Bleak
poverty areas also require a greater scope and depth of technical support.
The national delinquency rate for USDA business loans represents a myriad of conditions across the country in
dispersed rural communities. National and regional economic trends are the primary influence, followed by the
local business environment and finally the quality of the agency‘s loan underwriting. While the agency has no
control over macroeconomic factors or the conditions of each rural community, it has begun strengthening loan
underwriting through continuous training and implementing an accreditation program. The results have started
to appear in the form of decreasing delinquency rates.




 USDA
  48                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




OBJECTIVE 2.2: IMPROVE THE QUALITY OF LIFE IN RURAL AMERICA
THROUGH USDA FINANCING OF QUALITY HOUSING, MODERN UTILITIES,
AND NEEDED COMMUNITY FACILITIES


Exhibit 25: Resources Dedicated to Support Improving the Quality of Life in Rural America Through Financing
Housing, Utilities and Community Facilities

                                                                              FY 2004
                USDA Resources Dedicated to Objective 1.1           Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $9,211.8             56%
                Staff Years                                         6,130               70%


Introduction
USDA successfully improved the quality of life in rural America during FY 2004, by financing quality homes
for 48,894 homebuyers, new/improved water and waste disposal facilities for 690,000 subscribers,
new/improved electric facilities for 3 million subscribers, broadband telecommunications in 6 counties and
improved community facilities for 12 million rural residents.

Overview
Many USDA programs make important contributions toward improving the quality of life in rural America. Of
particular significance are programs increasing the quality and availability of housing, modern utilities and
community facilities. USDA’s utilities programs also contribute to the creation of jobs and strengthening of the
rural economy. For example, without adequate electric service, industries will not operate in rural America.
Ensuring that rural America can participate fully in economic recovery requires safe, reliable and affordable
infrastructure.
A major focus of USDA is improving the availability and affordability of good housing. The Department is
doing this through loan and grant programs designed to help families achieve homeownership. Almost 49,000
homeownership opportunities were provided to very low to moderate-income rural families in FY 2004. USDA
also provides programs to develop multi-family housing and provide assistance to make homes affordable.
Special emphasis is placed on improving home affordability for minorities.
USDA also makes grants and loans to provide facilities that ensure rural communities have access to safe
drinking water. These grants also help communities treat wastewater and solid wastes properly.
Additionally, through loans and loan guarantees, USDA provides many rural communities with reliable,
affordable electricity. In FY 2004, USDA utilities programs provided 221 loans to distribution, generation and
transmission providers worth more than $3.8 billion. This is essential to economic strength and an overall good
quality of life in rural communities.
USDA also invests in critically needed infrastructure, such as broadband technology, that provides rural
businesses access to emerging competitive opportunities. Today's advanced telecommunications networks allow
rural communities to provide businesses with opportunities to compete locally, nationally and globally. These
networks also will ensure that rural residents are equipped to compete in an increasingly information-oriented
economy.
Finally, the Department provides other grants and loans for use in developing a broad range of community
facilities, such as schools, libraries, fire and rescue equipment, and public buildings that enable communities to
improve the quality and scope of community services. These services help rural residents achieve a quality of
life more comparable to that found in urban and suburban areas.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                49
 ANNUAL PERFORMANCE REPORT




Selected Results in Research, Extension and Statistics
Measurement, Determinants and Consequences of Poverty—A USDA study examined the effects of
major changes in demographic and economic conditions, and Government policy on rural poverty during the
1990s. During this period, welfare reform simultaneously scaled back the traditional social safety net and
increased the incentives towards achieving self-sufficiency for the poor. Also during the 1990s, the U.S. and
rural economies experienced one of the longest periods of economic expansion and the rural population grew.
These factors had important implications for changing rural poverty rates. Throughout the history of recording
poverty rates, the incidence of rural poverty has been consistently higher than urban poverty. This analysis
supports the theory that poverty-reduction programs and policies need to include components to target non-
metro areas. It also shows that different policies may be appropriate for different areas.

Serving the Public
USDA’s assistance reaches large numbers of rural Americans with services crucial to achieving a satisfactory
quality of life. The Department provides direct and guaranteed loans to help rural citizens achieve
homeownership. These loans served 48,894 households in 2004. Minority households accounted for 18 percent
of homeowners purchasing homes through USDA.
USDA’s rural water and waste programs provided new access to safe drinking water or sanitary wastewater
disposal (or improved service) for 690,000 subscribers.
The Department’s electric program makes loans and loan guarantees to finance the construction of electric
distribution, transmission and generation facilities. This includes system improvements and replacement
required to furnish and improve electric service in rural areas. It also includes demand-side management, energy
conservation programs and on-grid and off-grid renewable energy systems. Since its beginning, the Electric
Program has invested more than $70 billion in the infrastructure of rural America.
USDA makes loans to corporations, territories and subdivisions of Governments. The Department also provides
loans to such agencies as municipalities, people’s utility districts and cooperative, not-for-profit, limited-
dividend, or mutual associations. These organizations provide retail electric-service needs to rural areas and
supply the power needs of distribution borrowers. USDA also provides financial assistance to rural
communities with extremely high energy costs to acquire, construct, extend, upgrade and otherwise improve
energy generation, transmission or distribution facilities. Overall, the Department services nearly 700
cooperatives, utility districts and other institutions, which provide rural electricity in 46 States.
USDA’s Broadband Telecommunications Program provides loans and loan guarantees for broadband services
in rural communities. These loans facilitate deployment of new and innovative technologies to provide two-way
data transmission of at least 200 kilobytes-per-second in communities with populations up to 20,000. These
important investments in rural areas make high-speed data transmission available in low-density, remote areas
ignored often by the private sector. Since its inception in 2001, the program has grown quickly, reaching more
than twice as many rural counties as in the initial year, or 6 percent of all rural counties in 2003 alone. These
investments in critical telecommunications infrastructure are essential to enabling rural businesses and
communities keep pace with rapid developments in the rest of America and the world.
USDA’s grants and loans to help rural communities obtain essential facilities reached 10.3 million residents in
2004. Taken together, these investments bring important benefits to a large number of rural communities and
citizens. They increase the availability of essential services and raise the quality of life in rural America.

Challenges for the Future
Special challenges to this objective continue to be the increased cost of housing and other building costs, with
program budgets that are not increasing. For example, as building costs continue to rise, fewer homes,
community facilities and water and waste systems ultimately can be financed with available funding levels.
In the water and wastewater area, a future challenge USDA faces is assisting, with limited program resources,
rural communities most in need of its financial and technical services. These communities usually have the least
resources for such services. Droughts, limited water resources, extreme temperatures and other environmental


 USDA
  50                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




maladies present unique problems in developing utility systems, and worsen this condition. Since solutions to
difficult conditions often are expensive, additional grant funds must be used to develop feasible projects.
USDA’s utilities programs also support the creation of jobs and the strengthening of the rural economy. Rural
communities are unattractive to industry if they cannot provide adequate (and competitively priced) electric,
telephone, water and waste services to these industries. A community’s ability to attract and keep these
businesses and the jobs they provide are linked directly to these services. Ensuring that rural America can
participate fully in the economic recovery of rural America requires safe, reliable and affordable infrastructure.

KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH HOMEOWNERSHIP
             OPPORTUNITIES PROVIDED
There continues to be an unmet need for decent and affordable housing in rural America. USDA implements a
wide variety of housing programs. Through its Single Family Housing Direct and Guaranteed Loan Programs,
USDA helps rural families who would not be able to achieve the dream of homeownership without its
assistance. The Department has invested more than $4.6 billion to assist 48,894 rural families obtain homes, and
an additional $63 million to rehabilitate the homes of more than 11,500 very low-income families. The average
income for families receiving direct loans is approximately $22,600, while the average for guaranteed loans is
approximately $39,900. Other programs focus on assisting dwellers in rental housing, farm-worker housing,
home rehabilitation and self-help, and new-home construction.
Exhibit 26: Improving Rural Quality of Life Through Homeownership Opportunities

                                                                                            Fiscal Year 2004
                Annual Performance Goals and Indicators                           Target         Actual         Result
 2.2.1   Improve the quality of life in rural America through Homeownership                                    Exceeded
             Increase financial assistance to rural households to buy a home      41,705        48,894
             Increase the number of minority homeowners                            8,400         8,500


Analysis of Results
USDA exceeded its homeownership target for 2004. With historically low interest rates, the housing industry
represented the Nation’s leading economic force during the past year. Demand for housing, particularly for
entry-level starter homes, has increased. Housing is one of the leading economic indicators used by the U.S.
Department of Commerce. On September 27, 2004, Commerce Secretary Donald Evans stated that the “demand
for new homes rose by 9.4 percent as new home sales made its biggest jump in nearly 4 years. Housing starts,
building permits, existing home sales and the homebuilders’ housing market index all remain at high levels.”
USDA’s housing programs are critical for very low- to moderate-income families in attaining affordable homes
and sharing in the Nation’s prosperity.
The demand for housing, particularly for entry-level starter homes, has increased. This increase in demand took
place at all income levels including low and very low-income residents. These are typically families who cannot
obtain credit from a conventional lender because of credit issues and lack of a down payment. In FY 2004,
direct housing programs provided 14,643 low and very low-income rural Americans with new homes for the
first time. That is a 16-percent increase from FY 2003. More than 35,000 families, who could not obtain
mortgages otherwise, attained homes through USDA’s loan guarantee programs. The Department aggressively
responded to the President’s October 2002 goal of increasing minority homeownership by 5.5 million families
by the end of the decade. USDA’s “5-Star Commitment” to increase minority homeownership, which was
established in 2003, includes:
       Lowering fees to reduce barriers to minority homeownership;
       Doubling the number of self-help participants by 2010;
       Increasing participation by minority lenders through outreach;
       Promoting credit counseling and homeownership education; and



                                                                                                                  USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                      51
 ANNUAL PERFORMANCE REPORT




        Monitoring lending activities to ensure a 10-percent increase in minority homeownership.
Additionally, each State office was provided benchmarks and goals through 2010. The offices also have
developed their own plans to meet the Secretary’s 5-Star Commitment. While 13 percent of rural America is
comprised of minorities, 18 percent of USDA loans reached minorities in FY 2004. USDA helped 8,500
minority households achieve their dreams of homeownership in 2004. One of the major contributors to this
success is USDA’s Mutual Self-Help Housing Program, which serves a population comprised of more than 50
percent minority families. Through this program, groups of 6 to 12 families mutually build each other’s homes.
This program has significantly reduced the barriers experienced by many minorities in achieving
homeownership by allowing customers to use “sweat equity,” or their own labor, to reduce the overall cost of
building the home. The default rate on loans made through this program generally is 4 percent lower than other
loans in the single-family housing portfolio.
When a Colorado couple, who inquired about Habitat for Humanity’s home building program, didn’t meet the
criteria, Habitat referred them to Housing Resources of Western Colorado. This entity participates in USDA’s
Mutual Self-Help Housing Program. This summer, the young couple, now with a 2-year old child, began work
with their future neighbors to build their own homes. With direct loans, technical construction assistance from
Housing Resources and their mutual efforts to help each other, they literally have built their own neighborhood.
Habitat for Humanity is a not-for-profit organization dedicated to eliminating homelessness and poverty.
While the economy is recovering and housing booming in many parts of the country, these programs exist to
ensure that the essentials—clean water, decent and affordable housing, and utilities—are available to those who
have not experienced this upswing.
Exhibit 27: Trends in Rural Homeownership

                                                                         Fiscal Year Actual
                      Trends                       2000         2001          2002            2003       2004
 Increase financial assistance to rural           45,420       44,701        43,036           44,130    48,894
 households to buy a home
 Baseline: 1999 = 55,941
                                                   8,996       8,402          8,231            8,539      8,500
 Increased the number of minority homeowners
                                                              Baseline


KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH NEW OR IMPROVED
             WATER AND WASTE DISPOSAL FACILITIES
Water and waste disposal loans and grants are provided to rural communities for the development, replacement
or upgrading of such facilities. This effort includes poverty stricken rural communities and those facing distress
because of out-migration, natural disasters or economic distress due to Federal actions. Direct loans are
repayable over a maximum term of 40 years. Since the program’s inception in 1937, water and waste disposal
borrowers have received $29 billion in direct loans, loan guarantees and grants.
Failing infrastructure is a common problem both in large cities and small rural areas’ water and waste disposal
systems. Additionally, investments in repairs and replacements usually do not generate more revenue. Smaller
systems with a smaller user base cannot absorb these added expenses without significant rate increases.
Some of these issues can be mitigated through better asset management, full-cost pricing and technology
advances. Proper care of assets can extend their useful life and improve their productivity. Keeping the public
aware of the benefits of safe drinking water can improve its willingness to pay the cost of unsubsidized service.
Additionally, technology advances can provide lower cost solutions.




 USDA
  52                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            ANNUAL PERFORMANCE REPORT




Exhibit 28: Improving Water and Waste Disposal

                                                                                          Fiscal Year 2004
                Annual Performance Goals and Indicators                          Target        Actual       Result
 2.2.2   Increase the number of subscribers receiving new and/or improved         0.65          0.69       Exceeded
         water and/or waste disposal service (Mil)

Analysis of Results
The performance goal was exceeded. Results from the FY 2003 Office of Management and Budget (OMB)
Program Assessment Rating Tool (PART) assessment showed the program to be extremely well designed and
managed. Additionally, it found:
     The program successfully targeted assistance for water and wastewater infrastructure to poor rural
        areas;
     USDA effectively collects program data and uses that information to manage effectively. Over the life
        of the program, fewer people in rural areas are experiencing access problems to safe, affordable
        drinking water and wastewater disposal; and
     While this assessment is based largely on existing measures, these measures do not demonstrate results
        adequately. Improvements to the performance measures needed to be made. USDA cannot show that
        the long-term results are directly related to its program. The long-term goal needs to be more strategic
        and focused to allow for better analysis.
Exhibit 29: Trends in Water and Waste Disposal Service

                                                                            Fiscal Year Actual
                    Trends                           2000          2001          2002            2003       2004
 Increase the number of subscribers receiving        0.67          1.01          0.79            0.59        0.69
 new and/or improved water and/or waste            Baseline
 disposal service (Mil)


KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH NEW AND/OR IMPROVED
             ELECTRIC FACILITIES
Electricity has been taken for granted in American cities since at least 1936. But if one lived in a rural area
nearly 70 years ago, chances are that person went without these necessities of modern life and the high standard
of living they make possible. With close to 70 years of experience, the Electric Program has found that electric
utility construction, operation and maintenance are best when high-quality, long-lasting materials are used.
Electricity came to rural America through some of the most successful Government initiatives in American
history. This happened through USDA working with rural cooperatives, not-for-profit associations, public
bodies and for-profit utilities. Today, the Electric Program continues this tradition by helping rural utilities
expand and keep their technology up to date. This program also helps USDA establish new and vital electrical
services.
The public-private partnership forged between USDA and the electric industry results in billions of dollars in
rural infrastructure development. It also creates thousands of jobs for the American economy. Providing
reliable, affordable electricity is essential to the economic well-being and quality of life for all of the Nation’s
rural residents. The Electric Program provides leadership and capital to upgrade, expand, maintain and replace
America’s vast rural electric infrastructure. Under the authority of the Rural Electrification Act of 1936, USDA
makes direct loans and loan guarantees to electric utilities to serve rural customers. This makes the Federal
Government the majority note holder for more than 700 electric systems.




                                                                                                             USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  53
 ANNUAL PERFORMANCE REPORT




Exhibit 30: Connecting and Improving Electric Service

                                                                                          Fiscal Year 2004
                 Annual Performance Goals and Indicators                         Target        Actual       Result
 2.2.3   Increase the number of subscribers receiving new and/or improved        1.350         4.325       Exceeded
         electric facilities (Mil)


Analysis of Results
The performance goal exceeded its target by 2.975 million subscribers, thanks in part to favorable interest rates.
In FY 2004, the Rural Utilities Service Electric Program approved 221 loans to rural distribution, generation
and transmission providers with more than $3.8 billion. These loans connected 378,776 new consumers and
upgraded and/or improved electric service to more than 3.9 million consumers.
For every dollar that USDA invests, $2.70 is leveraged in private investment. This creates local jobs and higher
local tax bases. It also develops a much stronger economy in rural communities.
Exhibit 31: Trends in Connecting and Improving Electric Service

                                                                            Fiscal Year Actual
                     Trends                          2000          2001          2002            2003       2004
 Increase the number of subscribers receiving        1.779        4.501         3.302            3.776      4.325
 new and/or improved electric facilities (Mil)                   Baseline


In addition loaned funds providing safe, reliable and affordable electric service, these loaned funds also are
responsible for providing additional jobs in rural areas. For instance, the cooperatives and corporations that
obtain financing from the Electric Program, like all businesses, have an impact on the local economy through
their employment and payroll. However, the total economic activity of these rural businesses stretches beyond
these direct effects. Linkages exist between one firm or industry and the rest of the economy. An industry may
buy a portion of its material inputs and business services from other loan businesses. Likewise, employees
spend a portion of their earnings on goods and services within the local economy. These additional activities, or
linkages, generate additional economic activity in the local area.
Rural America is diverse and the challenges facing rural communities are wide-ranging and varied. Its diversity
presents opportunities for the creative application of programs and policies and calls for unique partnerships.
The Electric Program is focused on strengthening the partnership between the Rural Utilities Service, USDA’s
borrowers and grantees, and all rural America participating in and benefiting from the agency’s programs. The
Electric Program continuously studies the future needs of rural communities, assesses its current lending
practices and identifies opportunities to better serve rural America.
The Electric Program is committed to improving its efficiency and effectiveness by promoting progressive,
entrepreneurial and innovative thinking. Electric Program employees are encouraged to develop and share new
ideas so as to promote and deliver its mission in a customer-oriented manner. The program works with local
communities and borrowers to ensure that its loan funds are spent for the purposes intended and in needed rural
areas. These loan funds enable rural Americans to enjoy the same opportunities as their urban counterparts.
Those rural communities still in need of electric program services tend to be those with unique or costly
conditions that are not addressed easily or cheaply. Distance between customers, aging substandard existing
systems, or unique environmental conditions make those Americans most in need of USDA’s services
increasingly expensive to support. At a minimum, these customers require more technical assistance provided
through agency salaries and expenses. Likewise, reduction in the funding for salaries and expenses will limit the
ability of the Electric Program to provide the staff and other resources needed to deliver the program and
achieve the estimated level of performance.




 USDA
  54                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH NEW OR IMPROVED
             TELECOMMUNICATIONS FACILITIES
USDA finances the deployment of a nationwide, rural broadband network. Since private capital for the
deployment of broadband services in rural areas is insufficient, USDA incentives are that much more important.
Providing rural residents and businesses with barrier free access to today’s technological benefits will bolster
the economy and improve the quality of life for rural residents.
Building and delivering an advanced telecommunications network is affecting the Nation's economy, strength
and growth significantly. Broadband networks in small, rural towns facilitate economic growth and provide the
backbone for the delivery of increased educational opportunities through state-of-the-art telecommunications
networks. While rural America can be defined by various statistics, the most important one is that 49 million
people call it home. Just as the citizens in U.S. cities and suburbs benefit from access to broadband services, so
should rural residents. In rural America, access to broadband plays a vital role in solving the problems created
by time, distance, location and lack of resources. The promise of broadband is not just "faster access." It means:
      New educational opportunities through distance learning, enabling rural students to take virtual field
         trips around the world;
      Lifesaving medical treatment via telemedicine networks, allowing specialists to guide surgeries
         hundreds of miles away; and
      Economic growth and new markets, where businesses prosper and grow locally, while competing
         nationally and globally via high-speed networks.
The Farm Security and Rural Investment Act of 2002 (FSRIA) established the new loan and loan guarantee
program “Access to Broadband Telecommunications Services in Rural Areas.” This program is designed to
provide funding for the cost of constructing, improving and acquiring facilities and equipment for broadband
service in rural communities of 20,000 people or less. Direct loans are made for the life of the facilities
financed. Loans may be made at 4 percent to rural communities, where broadband service currently does not
exist. Loan guarantees bear an interest rate set by the private lender consistent with the current applicable
market rate for a loan of comparable maturity. The guarantees are made for no more than 80 percent of the
principal amount. The number of counties receiving new service will measure the extent to which the
deployment of broadband service is achieved.
Exhibit 32: Support High-Speed Telecommunications Service

                                                                                      Fiscal Year 2004
                Annual Performance Goals and Indicators                      Target        Actual        Result
 2.2.4   Increase the number of subscribers receiving new or improved          .695         .374         Unmet
         telecommunication services (broadband) (Mil)


Analysis of Results
The performance goal was unmet. Only 15 percent of the estimated funding was used, primarily due to a
shortfall in application submission by June 30 in the infrastructure program. While funding was fully utilized in
the fourth quarter, the target for new subscribers was not met. This was due to new authority in FSRIA which
allows use of loan funds to refinance previous RUS loans. Thus, funding for refinancing did not contribute to
subscribers receiving new or improved service. Also, several large loans were made that required substantial
investment with relatively low subscriber additions. The President has announced the goal for all Americans to
have access to broadband service by 2007. As such, during the year, USDA aggressively marketed the
broadband program by reaching out to the telecommunications industry and the broadband providers to achieve
the Department’s part of the goal of funding facilities that deliver broadband service to rural America.
The broadband loan program is distinctively different from the traditional telecommunications program
portfolio. First, even in today’s technology-driven marketplace, broadband service, while critically important,
still is not deemed a “necessity-of-life” in the same manner as electricity, telephone service and water and waste



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               55
 ANNUAL PERFORMANCE REPORT




disposal. It is a commodity that must be marketed properly so that potential customers are made aware of the
many benefits of broadband service. Only then are they likely to spend their hard-earned discretionary dollars
on broadband access. Second, a majority of the applicants are “start-up” companies with little, if any, history of
doing business in this industry. Third, today’s marketplace is a highly competitive one as opposed to the
traditional monopolistic environment. Finally, many applications cover multi-State service territories, rather
than a single cooperative serving a single rural community. Many are applications requesting to serve 50, 75 or
in excess of 100 rural communities in multiple States.
These differences, while opening the door to a greater number of potential applicants, pose new challenges for a
lending program. While financial feasibility remains as the key to making good loans, USDA looks to continue
marketing and facilitating the deployment of broadband in rural America aggressively and support the goal
announced by the President.
Increasing the number of counties with broadband service benefits rural counties. The entire U.S. broadband
service opens new markets for business to relocate, raises educational standards through distance learning
projects and improves health care through the use of telemedicine delivery systems.
Exhibit 33: Trends in the Number of Subscribers Served by High-Speed Telecommunications Service

                                                                       Fiscal Year Actual
                    Trends                         2000         2001         2002            2003         2004
 Increase the number of subscribers receiving      N/A          N/A          N/A              .382        .374
 new or improved telecommunication services                                                 Baseline
 (Broadband) (Mil)


Description of Actions and Schedules
The new authority to use loan funds to refinance previous RUS loans and several large loans that required
substantial investment with low subscribers were external to and beyond the control of the agency. The first
factor (refinance previous RUS loans) greatly altered the assumptions used in setting the target and may require
adjustments to future targets. The second factor (large loans with low subscribers) is a temporary anomaly and
should not impact future targets. However, USDA will monitor this to detect any trends that might indicate the
need to re-evaluate how many loan dollars are needed per subscriber receiving new or improved service.

KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH NEW OR IMPROVED
             COMMUNITY FACILITIES
USDA provides a series of grants and loans to finance the development of facilities that are essential to a
modern standard of living in rural communities. A wide range of public services can be assisted by these
programs, including hospitals, fire trucks, police cars, child care centers, food banks, schools, medical clinics,
nursing homes, community centers, town halls, jails and street improvements. These essential community
facilities reached more than 12 million rural residents in 2004. Taken together, these investments bring
important benefits to a large number of rural communities and citizens. They increase the availability of
essential services and raise the quality of life in rural America. Moreover, USDA’s programs leverage Federal
funds with private capital to invest in rural infrastructure, technology and human-resource development. A good
example would be the new child care/learning center in Ellsworth, Maine. “Let’s put the children first” was the
mantra used during the design phase. This new child care learning center includes a 12,000-square-foot building
with six classrooms, a meeting room, parent space, a commercial kitchen, offices, a library, a secure computer
area, a parking area, and an outdoor playground. Specific attention was taken to create rooms filled with natural
light and promote a safe and creative environment for 60 preschoolers and 24 infants and toddlers. The project
was financed by a USDA Community Facilities Direct Loan of $605,000, a Department Community Facilities
Guaranteed Loan with Union Trust Company of $380,000, a Head Start Grant and community-wide
fundraising.




 USDA
  56                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                             ANNUAL PERFORMANCE REPORT




A special USDA initiative in FY 2004 was the Rural Emergency Responders Initiative to strengthen the ability
of rural communities to respond to local emergencies. During FY 2004, USDA invested over $274 million of
Community Facilities loan and grant funds into 531 first responder projects that serve rural Americans. These
projects included 129 fire trucks, 85 fire departments, 62 police cars, 44 hospitals and related equipment, 38
ambulances, and numerous other facilities that will allow rural communities to respond to emergencies.
USDA has provided funds to construct, renovate or improve 1,167 essential community facilities in FY 2004.
Rural Americans will have improved services available from 158 health care facilities, 418 public safety
facilities, 138 educational facilities, 25 energy-related facilities, 237 public buildings and improvements, 14
recreation facilities and 177 other essential community facilities.
Exhibit 34: Number of New and Improved Community Facilities

                                                                                              Fiscal Year 2004
                 Annual Performance Goals and Indicators                          Target           Actual        Result
 2.2.5   Provide access for residents to new and/or improved essential                   12           12          Met
         community facilities (Mil)

Analysis of Results
The performance goal was met. Despite favorable interest rates, many rural communities are facing increased
financial stress due to agricultural conditions (including drought, flooding and forest fires), natural disasters, the
slowed economy and other factors. Additionally, many sectors, such as health care, are experiencing increased
financial pressures. Working with its partners, USDA has been able to help meet many of these vital needs.
Exhibit 35: Trends in New and Improved Essential Community Facilities

                                                                             Fiscal Year Actual
                     Trends                           2000          2001          2002             2003           2004
 Provide access for residents to new and/or            N/A          6.8            7.2              7.2            12
 improved essential community facilities (Mil)                    Baseline


Management Challenge
Implementing improvements and safeguards needed for the Rural Multi-Family Housing Program is a
management challenge for USDA. (Appendix A contains the Office of the Inspector General’s report on
USDA’s major management challenges.) In response to this challenge, in October 2004, USDA is completing
an analysis from a statistical sample of its rural rental housing projects. The study combines physical, financial
and market analyses of the sample properties. USDA has received preliminary results on the capital needs of the
multi-family portfolio and is considering alternatives for addressing those needs.

STRATEGIC GOAL 3: ENHANCE PROTECTION AND SAFETY OF THE
NATION’S AGRICULTURE AND FOOD SUPPLY
The United States Department of Agriculture (USDA) provides a secure agricultural production system and
healthy food supply to consumers by protecting it against pests and diseases, minimizing production losses,
maintaining market viability, and containing environmental damage. USDA also ensures that the commercial
supply of meat, poultry and egg products moving in interstate commerce or exported to other countries is safe,
wholesome, labeled and packaged correctly. Additionally, the Department ensures that products imported from
other countries are produced by a system equivalent to USDA’s.
In May 2004, USDA provided $14.7 million in funding (including CCC funding) to address Avian Influenza. Of
that amount, $10.8 million was used to develop a national low pathogenic Avian Influenza control and
prevention program. Avian influenza is an infectious disease found in poultry. The Department also expanded



                                                                                                                  USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                      57
 ANNUAL PERFORMANCE REPORT




its surveillance program for Bovine Spongiform Encephalopathy (BSE). BSE is a degenerative brain disease
found in cattle. The plans call for USDA to increase the number of animals it tests for the disease. The
Department will build on previous cooperative efforts with its partners to obtain samples from the targeted high-
risk populations. USDA also spent $18 million to help halt the spread of Phytophthora Ramorum, or sudden oak
death, to non-infested areas of the U.S. The money was used for a national survey, nursery inspection,
sampling, diagnostic testing, quarantine activities, regulatory enforcement, and public outreach.
A key to enhancing public health is ensuring that employees executing USDA’s food safety responsibilities are
scientifically and technically skilled. USDA is addressing the training and education of its workforce
aggressively. During FY 2004, the Department held a series of national workshops for small meat and poultry
processing plants. The workshops were designed to teach employees about new directives for strengthening
E. coli 0157:H7 prevention procedures. The workshops provided owners and operators with detailed
information about the directives and updated procedures inspectors will follow in certifying plant compliance.
E. coli 0157:H7 is a bacterium found in undercooked meat. To ensure consistent and accurate inspection, the
Department has made a strong commitment to recruiting scientists and retooling its entire training and
education program for all employees. These employees will be able to identify and focus on activities that
enhance public health.
USDA continues to implement five core initiatives to improve food safety for American families. The
initiatives, which were established in 2002, include:
      To improve the management and effectiveness of the Department’s regulatory programs;
      To ensure that policy decisions are scientifically based;
      To improve the coordination of food safety activities with other public health agencies;
      To enhance public education, and
      To protect USDA-regulated products from intentional contamination.
Additionally, the emergence of previously unrecognized pathogens and new trends in food distribution and
consumption highlight the need for new strategies to reduce health risks. These risks often are associated with
pathogenic microorganisms in meat, poultry and egg products. In an effort to reduce incidences of foodborne
illness, USDA works to educate consumers on the importance of following food safety guidelines. As a liaison
to the Partnership for Food Safety Education, USDA is involved in the Fight BAC!™ campaign. The goal of
this campaign is to educate consumers on the following four easy steps that they can take to decrease the risk of
foodborne illness:
      Cook—Cook to a safe internal temperature. Ground beef should be heated to 160 degrees Fahrenheit;
      Separate—Separate raw and cooked/ready-to-eat food to prevent cross-contamination;
      Clean—Clean the thermometer after use. Be sure there are plenty of clean utensils and platters on
          hand. Wash hands often; and
      Chill—At home, store leftovers in the refrigerator or freezer within two hours of taking food off the
          grill. On hot days above 90-degrees Fahrenheit, refrigerate or freeze within 1 hour. Make sure the
          temperature in the refrigerator is 40 degrees Fahrenheit or below, and 0 degrees Fahrenheit or below in
          the freezer. Check the temperature occassionally with a refrigerator/freezer thermometer.
Through analysis and discussions with the scientific community, public health experts and all interested parties,
issues have been identified that need to be addressed to reach the “next level” of public-health protection. A
brief description of these challenges also is presented in this section. The resulting strategies should help USDA
achieve its goals for reducing foodborne illness.
For the Nation to have affordable and safe food, the food system must be protected at each step from production
to consumption. The production and distribution system for food in the U.S. is diverse, extensive and easily
accessible. This open system is vulnerable to introduction of pathogens and toxins through natural processes,
global commerce and by intentional means. Crop and livestock production systems must be protected from the



 USDA
  58                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




ravages of diseases whether domestic or foreign. The food supply must be protected during production,
processing and preparation from contamination by pathogens and toxins that cause disease in humans.
The possibility of intentional contamination of the food supply or pathogen attacks on crops and livestock
defines the need to conduct research to keep the U.S. food supply safe by incorporating a biologically based
(biodefense) strategy to reduce vulnerabilities. Novel scientific strategies must be developed to meet new
threats.

OBJECTIVE 3.1: ENHANCE THE PROTECTION OF MEAT, POULTRY AND EGG
PRODUCTS FROM FOODBORNE HAZARDS IN THE UNITED STATES

Exhibit 36: Resources Dedicated to Reduce Pest and Disease Outbreaks

                                                                              FY 2004
                USDA Resources Dedicated to Objective 1.1           Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $1,168.3             37%
                Staff Years                                         10,739              54%


Introduction
Protecting the Nation’s food supply from potential hazards, whether chemical, microbial or physical, is a
formidable task. Accomplishing it will require sound science to make the appropriate decisions and policy
development. In the light of the public’s heightened apprehension that the Nation’s food supply could be a
target for terrorists, and with the potential for new and merging microbial hazards to enter the food supply,
USDA’s food safety systems, particularly those for meat, poultry and egg products, must be assessed and
updated continually. This will help maintain consumer confidence and protect them from exposure to foodborne
diseases. These systems include activities to track the incidence of pathogens and illness-causing organisms in
these products. They also are designed to raise public awareness about food safety, food security and safe food
handling. Foodborne diseases include infections caused by bacteria.

Overview
Significant food safety advancements have been made in the past year. One of these has been improvement in
implementation and verification of plant Sanitation Standard Operating Procedures (SSOP) and Hazard
Analysis and Critical Control Point (HACCP) plans. HACCP identifies both the hazards associated with a food,
in this case the consumption of meat and poultry, and the key steps that must be controlled to ensure that those
products are safe. SSOP requires all Federally inspected meat and poultry plants to have written sanitation
procedures to show how they meet basic sanitation practices before and during operation. This has led to a
dramatic decline in the number of meat and poultry product recalls during 2003. The number of Class I, or high-
risk, recalls in 2003 was cut nearly in half from the total observed in 2002. In the first half of 2004, the number
of Class I recalls had decreased even further to 16. This is a strong indicator that USDA’s scientifically based
policies and programs are working to prevent adulterated products from entering the marketplace.
Other indicators of success include a trend of the reduction in pathogens found in meat and poultry regulatory
samples. This year, USDA released data that showed a 25-percent drop in the percentage of positive Listeria
monocytogenes regulatory samples from the previous year. Listeria monocytogenes is a type of bacteria found
in soil, ground water and plants. Animals and humans can carry the bacteria without ever becoming sick. Most
human exposure results from eating contaminated foods. This exposure can cause listeriosis, a serious brain
disease. While most people are not at increased risk for listeriosis, some can be more susceptible to the disease,
including pregnant women and their unborn babies, and newborns. Other at-risk groups for listeriosis include
older adults and people with weakened immune systems caused by cancer treatments, AIDS, diabetes and
kidney disease, among other maladies. The data also showed a 70-percent decline compared with years prior to
the implementation of HACCP. USDA is cautiously optimistic that this downward trend will continue because



                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                59
 ANNUAL PERFORMANCE REPORT




of the regulation issued in June 2003 for establishments producing ready-to-eat products where Listeria
monocytogenes is a concern.

Serving the Public
Science-based risk assessments drive USDA food-safety policies and programs to enhance public health. Risk
assessment provides the framework for developing the scientific basis for USDA meat, poultry and egg product
policies and programs. HACCP is the system that plants use to address the hazards identified in risk
assessments. Through risk assessment, USDA has been able to identify methods by which plants can control
pathogens. USDA recognizes that enhancing the public’s health in terms of safe meat, poultry and egg products
is not a lone venture. It has formed many partnerships to provide food-safety information to the industry, the
public and Federal, State and local agencies. The Department also works closely with academia to help provide
guidance and assistance.
Another important part of USDA’s responsibility is protecting meat, poultry and egg products from intentional
contamination and bioterrorism. Information gained from risk assessments will help USDA continue its efforts
to protect these products.
While the results of risk assessments shape inspection policy, they also help USDA design food-safety
education programs to increase consumer knowledge, and change behaviors to prevent foodborne illness. The
program targets the general public and at-risk groups for foodborne illness – the very young, the elderly,
pregnant women and people with chronic diseases or compromised immune systems.
USDA scientists developed a cost-effective, rapid and accurate procedure to identify genus and species of
Enterococci in food products. Enterococci can harbor antibiotic resistance genes and transfer them to harmful
foodborne pathogens. The multiplex Polymerase Chain Reaction procedure detects the presence of the genes
responsible for encoding antibiotic resistance. Results indicated that, although Enterococci are prevalent among
food items, the chances of transmitting antibiotic resistance from animal food products to humans are very low.
This procedure is useful to producers, regulatory agencies and researchers in tracing and preventing both
pathogens and antimicrobial resistance in food products.

Selected Results in Research, Extension and Statistics
Bacterial Proteins Combat Campylobacter—Campylobacter is one of the most common bacterial causes
of foodborne illness. Poultry is the primary vehicle for transfer to humans. A team of USDA and Russian
scientists has discovered proteins from harmless microorganisms that can reduce Campylobacter numbers in
bird intestines by 99.9 percent in small research trials. Large research trials will be necessary to determine if the
technology is feasible commercially. This is the first treatment used in the last 25 years to achieve a significant
reduction of Campylobacter in research trials on chickens. Bacteriocins could provide an effective alternative to
antibiotics the poultry industry uses to control pathogenic bacteria.
Scientists Investigate Probiotic Use in Poultry, Develop New Tests—USDA scientists have found
several promising intestinal bacteria that could protect live chickens from Salmonella, Campylobacter and other
pathogens that cause foodborne illness in people who eat poultry. To prevent contamination, it is important to
prevent the pathogens from infiltrating the intestinal tracts of the live birds. A team of scientists is trying to find
new, healthful bacteria that, when fed to live birds, help them resist harmful pathogens and grow more
efficiently. The team already has screened more than 4 million intestinal cells to develop several promising
biotic combinations.
Tracking Food through Production and Distribution—Food traceability, or the ability to track the path
of food from farm to kitchen, is making news in discussions ranging from homeland security, food safety to
country-of-origin labeling, and genetically engineered foods. USDA released a widely cited study that
examined the use of traceability in the U.S. food system. The study explored the private and public-sector
rationale for adapting traceability schemes. It also provided details of how food firms and the Government
sector are using traceability systems to meet consumer needs. The findings indicate that mandatory
traceability—possibly a one-size-fits-all regulation—can be costly. Firms already trace many food attributes
and other approaches may be targeted better toward enhancing trace back for food safety.


 USDA
   60                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




Food Safety and International Trade—Food safety and international trade increasingly are becoming
linked. As new food safety challenges have emerged, trade has expanded and changed to meet global demand.
USDA released a study that examined the conceptual relationships between food safety and international trade.
The study also analyzed examples from the meat and poultry, produce, food crop, and seafood sectors.
Food Handler Certification—University of Delaware educators offered the Selvage® Manager Certification
Course. Developed by the National Restaurant Association Educational Foundation, the course is offered
statewide. Participants come from a range of facilities that offer food service, including restaurants, State
facilities, nursing homes and child care providers. The participants work as chefs, restaurant managers and
front-line food service employees. According to the National Restaurant Association, if food safety education
helps eating establishments avoid one foodborne illness outbreak, it saves it approximately $75,000. This figure
excludes the economic costs of health complications to the individuals affected.

Challenges for the Future
The first challenge is to anticipate/predict risk of chemical, microbial or physical hazards to the food supply
through enhanced data integration. USDA must have the best available data to identify the extent and nature of
these risks clearly. This will allow the Department to respond effectively. These data consist of regulatory
samples and those collected by food processing establishments. There is a need to improve access to and
analysis of food-safety data from all reliable sources.
The second challenge is the improved application of risk into regulatory and enforcement activities. Food safety
problems need to be documented as they occur. This will allow USDA to analyze and, if necessary, mitigate
any potential risks. A better understanding of the prevalence and causes of food safety failures could allow
better assessment of how to address them appropriately. Data regarding the causes of food safety violations,
either within a specific establishment or class, can be utilized to focus prevention and regulatory enforcement
strategies better.
To develop a relative, real-time measure of how well an establishment controls the biological, chemical and
physical hazards inherent in its operations, USDA is exploring the development of a Hazards Control
Coefficient. For example, if the universe of meat and poultry plants could be divided into categories based on
the risk inherent in their products (ground beef vs. beef jerky) and their respective compliance histories, the
Department could determine the probability of each plant producing safe products. Such a scheme would help
USDA make resource allocation decisions across this country’s more than 6,000 meat and poultry
establishments based on risk. This would maximize food safety and public health protection.
Finally, the third challenge is better association of program outcomes to public health surveillance data. There
have been notable advances in preventing foodborne illness. While the U.S. Centers for Disease Control and
Prevention (CDC) has attributed this partially to the implementation of HACCP, the need to determine how
specific policies affect public health remains. To accomplish this, data that link illness outbreaks with specific
foods need to be obtained and documented. That information then may be linked with prevalence data of
specific pathogens in specific foods. To complete the linkage with public health outcomes, a strong connection
with human health surveillance data are needed.
Accomplishing this task will help point regulatory efforts toward focusing its inspection and enforcement on
those practices where risk is deemed to be highest. This will result in a more efficient use of Government
resources. Toward this goal, USDA is working with CDC’s National Center for Infectious Diseases to design
and support studies that connect the occurrence of specific pathogens in specific foods with that of human
foodborne illness.
USDA is strengthening relationships with State health departments to include attribution data in scientific
epidemiological investigations. The Department also is examining the establishment of a joint task force with
CDC to determine ways to improve data collection by FoodNet. The Foodborne Diseases Active Surveillance
Network (FoodNet) is the principal foodborne disease component of CDC’s Emerging Infections Program
(EIP). EIP is a population-based network of CDC and State health departments working with collaborators to
assess the public health impact of emerging infections and evaluate methods of their prevention and control.


                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                61
 ANNUAL PERFORMANCE REPORT




These collaborators include local health departments, public health laboratories, academic institutions and other
Federal agencies. FoodNet is a collaborative project of the CDC, 10 EIP sites (California, Colorado,
Connecticut, Georgia, Maryland, Minnesota, New Mexico, New York, Oregon and Tennessee), USDA and the
U.S. Food and Drug Administration (FDA). The project consists of active surveillance for foodborne diseases
and related scientific studies. FoodNet is designed to help public health officials better understand the causes of
foodborne diseases in the U.S. It also provides a network for responding to new and emerging foodborne
diseases of national importance, monitoring their public burden and identifying their sources. USDA will
continue to engage the scientific community, public health experts and all interested parties to identify science-
based solutions with public health outcomes.

KEY OUTCOME: BASING POLICIES ON SCIENCE
The accomplishments of various USDA food safety initiatives, including basing policies on science, can be
observed in CDC’s 2004 report on the incidence of infections from foodborne illness. The report noted
significant declines from 1996 to 2003 in illnesses caused by the pathogens E. coli 0157:H7 (42 percent),
Salmonella (17 percent), Campylobacter (28 percent) and Yersinia (49 percent). Illnesses caused by Salmonella
Typhimurium decreased 38 percent. This pathogen typically is associated with meat and poultry. Between 2002
and 2003, illnesses caused by E. coli 0157:H7 dropped 36 percent. This reduction in E. coli 0157:H7 illnesses
— typically associated with ground beef — brings the U.S. closer to achieving the “Healthy People 2010” goal
of 1 case per 100,000 people. “Healthy People 2010” is a long-range plan from the U.S. Department of Health
and Human Services (HHS). It illustrates a wide range of public health opportunities that exist in the first
decade of the 21st century. The plan was created by a broad coalition of experts from many sectors and
introduces a series of objectives designed to bring better health to all people in the U.S. With 467 objectives in
28 focus areas, “Healthy People 2010” was created to guide health planners, medical practitioners, educators,
elected officials and all who work to improve health. CDC attributes the decreases to control measures
implemented by Government agencies and the food industry, and enhanced food safety education efforts.
Specifically, with regard to E. coli 0157:H7, CDC attributes the reduction in illness caused by this pathogen to
USDA policies implemented in 2002 and 2003.
Listeria monocytogenes (Lm)
Data gathered during an outbreak of Listeria-related illnesses during the summer/fall of 2002, other food safety
investigations and in-depth verification reviews led USDA to conclude that some establishments were not
addressing the potential for bacterial contamination adequately in their HACCP plans, SSOP or other control
measures. In response, USDA implemented a directive in December 2002. The directive outlined steps that
USDA inspectors must follow to ensure that establishments producing ready-to-eat (RTE) meat and poultry
products were preventing the Listeria monocytogenes contamination. The directive was designed to reduce the
risk of listeriosis from consumption of high and medium risk RTE products. It subjected establishments to
intensified verification testing if they produced high and medium risk RTE meat or poultry products (deli meats
and hot dogs) without validated controls for preventing Listeria monocytogenes, or if they failed to share
information related to such programs with USDA.
In February 2003, USDA released a draft scientific risk assessment on Listeria in RTE meat and poultry
products. A public meeting was held February 26, 2003, to discuss the risk assessment. The risk assessment was
written in conjunction with a previously released FDA/USDA risk ranking, public comment gathered on the
topic and a peer review. It provided important data enabling USDA to design a final Listeria monocytogenes
rule.
On June 6, 2003, the Department issued an interim final rule requiring Federal establishments producing certain
RTE meat and poultry products to take steps to reduce the incidence of Listeria monocytogenes. The rule
required establishments to choose one of three approaches based on the stringency of the control program for
Listeria monocytogenes that they implement. The approach taken is one factor in determining the frequency of
USDA-conducted verification activities in each establishment. The highest frequency was concentrated in
establishments that rely solely on sanitation practices compared with those that implement more aggressive and
effective strategies. These include incorporating an inhibiting agent in product formulation or inserting an
additional processing step to kill pathogens that may contaminate the product after cooling.


 USDA
  62                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




The rule took effect October 6, 2003. The Listeria monocytogenes directive was updated to reflect the policies
outlined in the rule. USDA is accepting comments about the rule for 18 months after publication for the purpose
of reviewing and evaluating the effectiveness of these approaches.
The Listeria rule was built on the results of a quantitative risk assessment. The assessment provided guidance
about the practices the industry should follow to exert the greatest control over this pathogen in RTE meat and
poultry products. It showed that testing the processing environment was important in helping find the organism
in the niches where it may reside. This allows processors to target and eliminate it from the plant environment
before it could contaminate product. Most importantly, the risk assessment showed that an establishment could
choose the most effective strategy to control Listeria depending on its product(s) and the environment in which
it operates.
The Listeria rule’s impact already has been significant. Establishments have made changes to prevent products
from harboring this organism. USDA recently conducted a survey of its inspection personnel in 1,400
establishments producing RTE meat and poultry products. It found that more than 87 percent have changed
their operations in one way or another to control Listeria monocytogenes more effectively. More than 57
percent started testing for Listeria in the plant environment, more than 27 percent have begun using an
antimicrobial agent to inhibit the growth of this organism and 17 percent are using post-lethality treatments.
This rule challenged industry to do more to prevent contamination.
Escherichia coli O157:H7
USDA measures to prevent ground beef contaminated with E. coli 0157:H7 from entering commerce also have
yielded significant decreases in this pathogen. In 1994, USDA declared E. coli 0157:H7 an adulterant in raw
ground beef. During the last decade, the Department has undertaken a number of initiatives to reduce the
prevalence of this pathogen in raw ground beef. Beginning in October 2002, USDA required that each plant
producing raw beef products reassess its HACCP plan to prevent adulterated products from entering commerce.
Scientifically trained USDA personnel then conducted the first-ever comprehensive audits of 1,500 beef
establishments’ HACCP plans. Sixty-two percent of those plants made major improvements based on these
reassessments. Sixty percent added E. coli 0157:H7 as a pathogen likely to occur. These moves led to a
significant drop in the percentage of E. coli 0157:H7 positive regulatory samples in ground beef.
In September 2003, USDA released data collected from January 1 through August 31, 2003. The data showed a
drop in the number of E. coli 0157:H7 positive samples of ground beef collected than in past years. Of these
samples, 0.32 percent tested positive for E. coli 0157:H7, a decrease from 0.78 percent in 2002, 0.84 percent in
2001 and 0.86 percent in 2000. Since 2001, USDA has analyzed approximately 7,000 samples annually.
Additionally, USDA has taken steps to begin a science-based baseline study for trimmings used to make raw
ground beef. The study was reviewed by scientists serving on the National Advisory Committee on
Microbiological Criteria for Foods (NACMCF). The committee, then, issued its recommendations in a report
titled, “NACMCF Response to USDA/FSIS Request for Guidance on Baseline Study Design and Evaluations
for Raw Ground Beef Components.”
A directive was issued in May to provide new instructions to inspection program personnel for collecting
samples for E. coli 0157:H7 testing. The directive provides new instructions for follow-up actions that USDA
personnel will take after an initial USDA sample of raw ground beef product, raw ground beef components or
raw beef patty components tests positive for E. coli 0157:H7. It also provides new instructions to inspection
program personnel for verifying the control of raw beef products that are “positive” and “presumptive positive”
for E. coli 0157:H7, and moved to another official establishment, landfill operation or renderer for proper
disposal. A renderer is an operator that may subject edible or inedible tissue to a process in which the resulting
products are distinguished as edible rendered material (e.g., beef stock or flavoring) or inedible material. The
resulting products are used as protein sources for animal feed or other industrial purposes.
The new directive calls for establishments with sampling and verification testing, and a high degree of
confidence of finding the pathogen in both trim and finished ground product to be sampled less frequently.
Additionally, USDA will weigh its sample scheduling process so that an establishment producing a large



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                63
 ANNUAL PERFORMANCE REPORT




volume of raw ground-beef products will be sampled more frequently than one with a lower volume. In the
future, USDA intends to develop a random sampling and testing program for raw ground-beef and beef-patty
components, and non-intact beef products other than ground beef. This includes mechanically tenderized and
injected steaks and roasts.
USDA is considering how best to ensure that its inspectors know and can access the results of testing done by
establishments. The Department plans to conduct an internal audit to determine the effectiveness of the new
policies, which have been designed to reduce the incidence of E. coli 0157:H7.
Salmonella
A little more than a year ago, USDA also issued new procedures for utilizing Salmonella performance standards
as a verification tool for food safety. Now, instead of waiting for two consecutive failures of tests to trigger an
in-depth review of plant SSOP and HACCP plans, reviews are initiated after any series is declared substandard.
Improvements to the in-depth review process also have been implemented, such as the inclusion of
Enforcement, Investigative Analysis Officers and other HACCP-trained personnel. This process and other
science-based initiatives, including strategies implemented to reduce E. coli 0157:H7 have played a significant
role in reducing the prevalence of Salmonella in raw meat and poultry regulatory samples. Salmonella in these
products has dropped substantially during the past six years. Out of the number of regulatory samples collected
and analyzed by USDA between January 1 and October 31, 2003, 3.6 percent of all products tested positive for
Salmonella. That compares to 4.29 percent in 2002 and 10.65 percent in 1998.
Although the Agency’s rate of positives in regulatory samples of all three pathogens discussed above may not
represent the prevalence of these pathogens nationwide, it is indicative of a statistically significant downward
trend for all foods.
Exhibit 37: Pathogen Reduction (Food Inspection)

                                                                                                Fiscal Year 2004
                 Annual Performance Goals and Indicators                             Target          Actual          Result
 3.1.1   Prevalence of Salmonella on Broiler Chickens                                 11.7%          13.6%           Unmet
 3.1.2   Prevalence of Listeria monocytogenes on Ready-to-Eat Meat and                0.8%           0.89%*           Met
         Poultry Products
 3.1.3   Prevalence of E. coli 0157:H7 in Ground Beef                                 0.37%          0.19%            Met

 *Includes newer-risk-based sampling project which is an effort that directs the inspector’s sampling activity toward higher
 risk products. Approximately 80 percent of the samples for ready-to-eat meat and poultry products are scheduled under
 this project.

Analysis of Results:
The target for 3.1.1 was not met. With respect to the prevalence of Salmonella on broiler chickens, the
percentage of positive samples increased by almost 2 percentage points for FY 2004. At the same time, most
establishments continue to pass the performance standard established in 1996 that provides for a maximum of
12 positives in a compliance set of 51 samples. USDA recently posted data on its Web site showing that 87
percent of 127 sets completed during 2003 passed the standard. This compliance rate is only slightly lower than
the rates in the five previous years. The Department expressed its concern that the percentage of positive
Salmonella tests (all sizes of establishments combined) increased slightly in all three poultry categories. USDA
is examining Salmonella set data from 1998 to the present to identify clearly those plants displaying negative
performance trends. Enforcement investigations analysis officers (EIAO) then will conduct in-depth HACCP
and sanitation verification reviews at those facilities to help ensure that this one-year increase does not continue.
The target for 3.1.2 was met. USDA revised its directive that covers the sampling of ready-to-eat (RTE)
products for Listeria monocytogenes. Under this directive, most sampling is directed to higher risk products.
Approximately 80 percent of the samples are scheduled under a project that directs the inspector to collect post-
deli salads, pate and meat spreads. These product categories have had higher overall rates of Listeria




 USDA
   64                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                      ANNUAL PERFORMANCE REPORT




monocytogenes in recent years. USDA also schedules sampling for all RTE products. The target was met even
when including the results from the higher risk sampling.
The target for 3.1.3 was met. USDA scheduled reviews for each establishment this year using the new set of
compliance requirements in the new Directive 2000. When an establishment failed an initial review, the front-
line supervisor and senior veterinary medical officer/inspector-in-charge (SVMO/IIC) conducted and
documented an assessment of the HACCP and SSOP procedures. Where applicable, they analyzed data actions
of the establishment. They also developed, documented and implemented a comprehensive plan to verify the
corrective actions implemented by the establishment.
Performance targets were selected because USDA recognizes that Salmonella levels on young chickens can
increase even as most establishments continue to meet the performance standard. Listeria moncytogenes in RTE
will continue to see further decreases in an already low level. In this case USDA estimated further decrease
because the Department expected to see some benefit from the new rule. It should be noted that USDA should
maintain the current low level.
Exhibit 38: Trends in Pathogen Reduction (Food Inspection)

                                                                     Fiscal Year Actual
                    Trends                       2000        2001         2002            2003        2004
 Prevalence of Salmonella on Broiler Chickens    8.7%        11.9%       11.5%            11.7%      13.6%
                                                                        Baseline
 Prevalence of Listeria monocytogenes in        1.45%        1.26%       1.03%            0.9%       0.89%
 Ready-to-Eat Meat and Poultry Products                                 Baseline
 Prevalence of E. coli 0157:H7 in Ground Beef   0.57%        0.59%       0.77%            0.37%      0.19%
                                                                        Baseline



To illustrate the significance of these trends, the accomplishments of USDA’s food safety initiatives can be
observed in the annual (2004) report on the incidence of infections from foodborne illness by the U.S. Centers
for Disease Control and Prevention (CDC). The report noted significant declines from 1996 to 2003 in illnesses
caused by E. coli (42 percent). CDC attributes the reduction in illness caused by this pathogen to policies
implemented in 2002 and 2003 by USDA. In late 2003, the Department released data that showed, as of
September 30, a 25-percent drop in the percentage of positive Listeria monocytogenes regulatory samples from
the year before, and a 70-percent decline compared with years prior to the implementation of HACCP.
Additionally, for E. coli, USDA is publishing a peer-reviewed analysis showing that the decrease in the
percentage of positive regulatory samples from 2002 to 2003 was statistically significant. This finding is
consistent with the CDC reports of decreasing illness.
USDA now is collecting industry data on RTE products as part of a recent rulemaking. The Department will use
these data to revise its testing program for Listeria monocytogenes in RTE products. USDA intends to conduct
more testing in higher-risk establishments.
The next steps to maintain low pathogen levels are discussed further in the Management Challenge paragraph
immediately below the next section.
Description of Actions and Schedules
While the percentage of establishments passing the performance standard has remained very high, USDA has
recognized that the percentage of broiler samples positive for Salmonella has been increasing since 2000.
A major challenge concerns how to reduce Salmonella in young chickens, given that most establishments are
meeting the existing performance standard.
When USDA posted the 2003 data on its Web site, the data showed that the percentage of positive Salmonella
tests (all sizes of establishments combined) increased slightly in all three poultry categories.



                                                                                                       USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                            65
 ANNUAL PERFORMANCE REPORT




The agency is examining Salmonella set data from 1998 to the present to identify clearly those plants displaying
negative performance trends. EIAOs then will conduct in-depth HACCP and sanitation verification reviews at
those facilities to help ensure that this one-year increase does not continue.
The agency also will continue to schedule a compliance set for each establishment annually. Under Directive
5000 (effective May 21, 2003), whenever an establishment fails an initial compliance set, the front-line
supervisor and SVMO/IIC will conduct and document an assessment of the establishment’s HACCP and SSOP
procedures, and, where applicable, analyze data from the establishment’s generic E. coli testing. That testing
will focus on the corrective and further-planned actions by the establishment.
The front-line supervisor and SVMO/IIC also will develop, document and implement a comprehensive plan to
verify any corrective actions implemented by the establishment.
Management Challenge:
The need for increased oversight and monitoring of food safety systems is a management challenge for USDA.
(Appendix A contains the Office of the Inspector General’s report on USDA’s major management challenges.)
In response to this challenge, USDA is using the BAX system to screen for dangerous bacteria and pathogens in
raw meat and poultry products. BAX is used commonly to screen food and environmental samples for
pathogens or other organisms. Since FY 2003, USDA has used BAX to test meat and poultry samples for
Listeria moncytogenes, Salmonella and E. coli 0157:H7—three of the most commonly found pathogens in these
food groups. USDA also has issued three directives. One is to provide a current list of approved substances for
use in the production of meat and poultry products. The others are providing direction in the collection and
processing of trace back samples, and instructions for handling and re-inspecting contaminated carcasses.
In FY 2005, USDA will continue to maintain low pathogen levels by:
     Providing guidance in using the Pathogen Reduction Enforcement Program. This program schedules
        sample collections for laboratory testing of regulated pathogens (such as Salmonella, Listeria
        monocytogenes and E. coli 0157:H7). It also provides certain reports, such as non-responders and plant
        eligibility reports, and aids district officials in the oversight of the testing program;
     Providing ProClarity training to district and front-line supervisors. ProClarity is a data mining program
        that gives district office personnel and circuit supervisors direct access to “real time” data on scheduled
        inspection procedures, whether performed or not, and the results of those procedures. It provides
        inspection information in a summary format that can be analyzed quickly and easily. ProClarity also
        allows for progressively more targeted and detailed levels of analysis of problem areas;
     Providing ongoing food safety regulatory essentials training to inspection program personnel. This
        training is designed to reinforce staff understanding of food safety inspection duties;
     Conducting baseline studies to determine the nationwide levels of various microorganisms in raw meat
        and poultry;
     Developing a comprehensive management control program; and
     Implementing data analysts’ positions within districts.
To improve controls over the recall process, USDA will:
     Complete and publish a Hazards Analysis and Controls Guide; and
     Complete enforcement and analysis officer training to provide guidance on conducting effectiveness
        checks of establishments conducting recalls.

KEY OUTCOME: RAISING PUBLIC HEALTH AWARENESS
USDA consumer education programs are based on “integrated marketing.” This concept has three components:
    Mass media, or reaching out to the broad public;
    Cluster targeting, which use demographic, geographic and socio-demographic information to tailor
      communications to segmented audiences; and


 USDA
  66                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                          ANNUAL PERFORMANCE REPORT




        One-on-one interactions, especially through the USDA’s Food Safety Mobile, expanding outreach
         programs to include new services and partnerships for minorities and underserved populations both in
         the U.S. and abroad. The Food Safety Mobile is a 35-foot, recreational-style vehicle covered with a
         bold, eye-catching design and prominent food safety messages. It travels continuously throughout the
         continental U.S. to educate consumers about the risks associated with mishandling food and the steps
         they can take to reduce their risk of foodborne illness.
Each component of the integrated marketing program is developed based on risk research. It also is delivered
utilizing social marketing concepts and assessed through evaluative research. Ongoing nationwide surveys and
consumer focus-group studies are used to evaluate and ensure the initiative’s continuing effectiveness. They
also are designed to track documented changes in consumer behavior.
One such initiative currently planned is a targeted thermometer education campaign in Michigan in August.
USDA is working with the National Food Safety and Toxicology Center from Michigan State University and
local partners to host events in Ann Arbor, Lansing and Grand Rapids. The goal is to increase the use of food
thermometers and prevent foodborne illness. The initiative will use social marketing principles to promote
positive behavior change. The target audience will be a selection of parents with children under 10 years old.
This age group has been chosen as the one most likely to change its behavior. Before and after testing, an
overall evaluation will be conducted in collaboration with USDA to assess this effort’s effectiveness. This pilot
will be a role model for other States and may serve as the basis for a possible national launch of this initiative in
2005.
USDA is committed to communicating with all food handlers. This is especially true for those who serve others
in large-scale food operations or are personally at risk for foodborne illness. The Department has made great
strides in reaching out to non-English-speaking citizens. Food safety publications for both industry and
consumers have been translated into several languages including Spanish, Korean and Mandarin Chinese.
USDA uses national television, cable networks, educational television, radio, magazines, newspapers and Web
sites to enhance public education efforts.
Ensuring that meat, poultry and egg processing plants understand USDA directives and regulations is a key
aspect of its food safety outreach program. Recently, the Department has initiated a series of teaching
workshops designed to provide owners and operators of plants with detailed information about new directives.
They also feature updated procedures inspectors will follow in verifying plant compliance in several areas.
Workshops have been held across the country on such topics as Listeria monocytogenes, Bovine Spongiform
Encephalopathy and E. coli 0157:H7. More than 1,000 attendees have benefited from these interactive sessions.
The information from these workshops is available upon request in both English and Spanish online at
www.fsis.usda.gov.
Exhibit 39: Public Health Outreach & Education

                                                                                        Fiscal Year 2004
                Annual Performance Goals and Indicators                        Target        Actual         Result
 3.1.4   Viewings of food safety messages (Mil)                                  94           123          Exceeded


Analysis of Results
USDA defines “viewing” as its best estimate of the number of people receiving the Department’s food safety
messages. These messages are delivered via print, radio, television, conventions, presentations, newsletters, the
Internet, Meat and Poultry Hotline calls, Department publications, the USDA Food Safety Mobile and State
partnerships.
USDA reached more than 123 million consumers through food safety education campaigns such as the
Michigan Food Thermometer Education Campaign, press releases, video feature articles published in
newspapers and magazines nationwide, and the printing of a food safety message on the “IRS Back of the
Envelope” mailing.


                                                                                                             USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  67
 ANNUAL PERFORMANCE REPORT




USDA launched a newly designed Web site in April. It offers features and tools presented in a user-friendly
way to help visitors easily find the food safety information and services they need. The Web site is arranged by
subject so users can navigate by topic rather than having to search through the various agencies.
This customization helps all stakeholders quickly find the food safety information most relevant to them. The
site now averages more than 10 million hits, 1.5 million page views and a 500,000 visitors per month.
Electronic outreach through the site’s “AskKaren” feature answers questions about the safe storage, preparation
and handling of meat and poultry products. Though this is not a live chat, the robust 55,000-question database
behind “AskKaren” allows visitors to correspond naturally by typing in a question and receiving an immediate
answer. “AskKaren” also can provide visitors with a list of related question in their area of interest. Nearly
5,000 users have visited the “AskKaren” tool since its April launch, receiving timely answers to almost 15,000
food safety questions.
Exhibit 40: Number of Viewings for Food Safety Messages

                                                                        Fiscal Year Actual
                    Trends                         2000         2001         2002            2003         2004
                                                   N/A          N/A          90               92          123
 3.1.5   Viewings of food safety messages (Mil)
                                                                           Baseline


In August, USDA began a new e-mail alert subscription service that tailors pages updated on the Web site to an
individual subscriber’s needs. In the first month of service, there were more than 1,000 subscribers to the new
service with usage continuing to grow.
The Web site is devoted to assisting visitors get the information and services they need easily by participating in
the Customer Satisfaction Survey. This survey benchmarks results with other Government and commercial
sites. The combined scores before and after relaunch showed a 4.7-percent increase in the overall customer
satisfaction score, with nearly across-the-board improvement in individual scores. In fact, three of the
satisfaction scores recommend the site (79 percent), site performance (81 percent) and likelihood to return
(86 percent) exceeded both the U.S. Government and private sector benchmarks for the latest quarter.
Through various focus groups for the Michigan Campaign and the Food Safety Mobile, USDA is evaluating
campaign results and refining food safety messages and education materials to meet the needs of this particular
targeted audience. It also benefits the underserved populations, including Native American, Asian-American,
African-American and Hispanic audiences, and at-risk populations. Focus group results will help shape
USDA’s national approach to future consumer food safety education outreach activities.
Future challenges include targeting the right messages to numerous audiences nationwide utilizing mass media
initiatives, the Internet and the Food Safety Mobile to continue to expand outreach.
Immediate plans for next steps include continued utilization of social marketing principles and integrated
marketing through mass media campaigns and the Food Safety Mobile. Michigan campaign results will help
shape USDA’s national approach to future consumer food safety and serve as a foundation for a national launch
of this campaign in 2005. Continued use of electronic, Web-based communication also will enhance public
health outreach and education.




 USDA
  68                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




OBJECTIVE 3.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL
PEST AND DISEASE OUTBREAKS
Exhibit 41: Resources Dedicated to Reducing Pest and Disease Outbreaks

                                                                              FY 2004
                USDA Resources Dedicated to Objective 1.1           Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $1,990.0              63%
                Staff Years                                          9,258               46%


Introduction
By reducing the number and severity of agricultural pest and disease outbreaks, USDA and its cooperators
protect the agricultural production system and ensure a healthy food supply. Strategies include:
     Conducting offshore threat assessment and risk reduction activities to identify and eliminate pests,
          diseases and weeds;
     Regulating and monitoring the importation of animals, plants and commodities. This work is designed
          to reduce the risk of the introduction of invasive species that may cause damage to agriculture and the
          environment. Other regulatory activities ensure safe research, release and movement of biotechnology
          and the development of effective veterinary biologies.
     Managing issues related to animal and plant health, and conflicts with wildlife. It prevents the neglect
          and inhumane treatment of animals used in commerce, protects their health and reduces the chances of
          their contracting and spreading disease. Additionally, the Department’s work helps to control damage
          done to agricultural and natural resources by wildlife; and
     Conducting programs to detect pests, diseases and weeds quickly should they enter the country. This
          allows scientists to fight pests and diseases while outbreaks remain localized and less costly to control.
          USDA accomplishes this through educating and training public and private sector organizations to
          report pests and diseases when they first are observed and coordinating larger, complex eradication and
          control efforts. Surveys of the infestation boundaries are done and quarantines are established if
          necessary. This stops the movement of host materials that may spread pests and diseases.
Taken together, these components comprise the Nation’s agricultural “safeguarding system.”

Overview
Thanks to USDA’s effort, no foreign animal diseases introduced into the U.S. spread beyond their original area
of introduction. These efforts prevented severe economic or environmental damage or damage to the health of
animals or humans. This met the target established in the FY 2004 Annual Performance Plan.
Diseases and pests have profound effects on the performance and well being of plants and animals. They cause
poor growth, decreased yield, higher production costs and unacceptable quality. Billions of dollars are lost
through trade embargoes, quarantines and the destruction of national livestock herds or vast crops when
emerging or reemerging diseases or pests strike. For emerging diseases to be detected and controlled
effectively, the biology and ecology of the causal pathogens must be understood and their weaknesses exploited
to limit their spread. Rapid diagnostic tests, novel genetic vaccines, immune modulatory strategies, disease
resistance genes and increased biosecurity measures will be needed to prevent or control outbreaks and the
spread of plant and animal diseases in the future.
Growing out of the increased concern about the intentional introduction of disease agents and pests has come
the development of networks of diagnostic laboratories. These laboratories have enhanced the Nation’s
collective capacity for surveillance and identification of specific pathogens greatly. The network uses common
software platforms to process diagnostic requests and share information among diagnostic laboratories.
Education included training for national partners and conducting simulated tests of the network’s ability to


                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 69
 ANNUAL PERFORMANCE REPORT




detect suspect plant diseases. This network also can detect malicious or accidental introductions of disease.
Through Extension Service, producers gain an understanding of threats from diseases and pests, and learn
effective and efficient means of control of economically significant pests, pathogens and diseases.

Selected Results in Research, Extension and Statistics
Preventing Newcastle Disease—USDA scientists developed a new approach to experimental vaccines that
combats Exotic Newcastle Disease (END) in poultry flocks. END is a contagious and fatal viral disease that
affects most species of birds and kills almost all unvaccinated birds within days.
Trait in Honey Bees Keeps Mites from Multiplying—Honeybees deliver the pollen necessary for
$15 billion worth of U.S. agricultural production. For more than 20 years, beekeepers have been battling varroa
mites. These tiny, bloodsucking parasites weaken adult bees and sometimes cause deformities. USDA scientists
have discovered that some bees have a built-in defense against varroa mites. The trait can be bred into any bee
population. This “suppressed mite reproduction” (SMR) protects bees by preventing harmful varroa mites from
reproducing. It is hoped that, when bred adequately into bee populations, SMR will free beekeepers from their
dependence on chemical miticides.
Rapid Test for Global Fungal Threat—Rusts are fungal disease agents that threaten just about every plant
or crop in the world. USDA scientists have developed a test to identify the species or agents that do the most
damage to wheat: stem rust, stripe rust and two species of leaf rust. The test identifies the species by detecting
specific DNA sequences in fungal genes. The test will allow diagnostic labs to analyze rust samples and track
their movement around the world. This process will allow scientists to recognize immediately the types of rust
fungi that might be new to this country.
New Test to Improve Plum Pox Monitoring in Stone Fruit—Monitoring the spread of the plum pox
potyvirus in stone fruit crops could get a lot easier with a new, genetic fingerprinting test developed by USDA
scientists. The aphid-borne disease causes acidity, unsightly rings and other defects that diminish the quality of
peaches and other stone fruit. While plum pox poses no consumer danger, it threatens the economic well being
of the Nation’s $1.8 billion stone fruit industry. The newly developed test uses a chemical procedure that mass
produces copies of specific genes or gene fragments for identification. Using the new test, scientists generally
can determine whether the protein is in a sample in about six hours. By comparison, current detection tests take
about a day.
Estimating the Potential Economic Impact of Accidental or Intentional Problems in the Food
and Agricultural Sector—Building on its previously developed homeland security programs and its
economic, data and geographic information systems, USDA now can analyze the economic effects of enhanced
security and the potential impacts of accidental or intentional problems in the Nation’s agricultural and food
sectors. The analyses use current data and information about the U.S. agricultural and food systems. This
process includes resource use, production, processing, distribution and consumption. The analyses also use
agricultural production and food industry business information. This information system data allow USDA to
perform complex analyses that inform policy decisions made within the Department. Using this analytical
capability, the Department contributed to a number of homeland security exercises by estimating potential
economic damage of security threats and the impacts of alternative responses. The Department also delivered a
stand-alone information system to the USDA Homeland Security Office. This system can be used by staff to
provide spatially oriented economic and production information during emergencies.
Invasive Species—USDA studied soybean rust in its report, Economic and Policy Implications of Wind-
Borne Entry of Asian Soybean Rust into the United States. The analysis examined how the economic impacts of
the potential establishment of an invasive species, soybean rust, will depend on the timing, location, spread and
severity of rust infestation. The study also documented how soybean and other crop producers, livestock
producers, and consumers of agricultural commodities respond to this new pathogen.
Animal Health: Cattle, Sheep and Goats—Researchers supported with USDA funds are using science
and communications technology to battle such animal diseases as Bovine Spongiform Encephalopathy (BSE)
and Foot-and-Mouth Disease (FMD). BSE, also called mad-cow disease, is a chronic degenerative disorder that


 USDA
  70                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




affects the central nervous system of cattle. FMD is a severe, highly contagious viral disease of cattle and
swine. It also affects sheep, goats, deer and other cloven-hoofed ruminants. Arkansas scientists use infrared
spectroscopy to analyze beef samples more quickly and reliably than previously possible. An Ohio State
University scientist is developing a “Prion-detection test” that uses scrapie, a disease-affecting sheep and goats,
as a model for detecting degenerative diseases that attack the central nervous system. One quick response was
highlighted at Iowa State University. There, university television broadcasts and news releases reached farmers
and consumers in at least 28 States within hours of the December 2003 announcement of the Nation’s first BSE
case.

Serving the Public
USDA’s work helped reduce losses in livestock herds and flocks, better crop yields and lower costs for pest and
disease control and eradication measures. The producers also realized higher farm sector incomes.
Taxpayers and citizens benefited from USDA’s efforts in this area because Federal cost was less than it would
have been had pest and disease outbreak spread. U.S. consumers were provided with a wide variety of low-
priced food and fiber. Public and private land and property were protected from environmental damage and loss
of species. Animal suffering was prevented and humans were protected from disease.
Additionally, USDA launched a national awareness campaign to educate non-commercial bird owners about
avian health and poultry diseases. The Biosecurity for Birds Campaign is designed to inform people who raise
their own poultry or who own exotic birds about diseases that could strike the animals. The campaign includes
an expanded emergency poultry surveillance and outreach program focusing on non-commercial or backyard
poultry in States considered at risk for poultry diseases. In partnership with States, Biosecurity for Birds will
enhance rapid reporting of any signs of clinical disease, particularly in States where there is a large presence of
backyard poultry. This is intended to protect supplies of commercially raised birds.
USDA also increased sampling rates for BSE. Laboratories were added to the national surveillance network.
The enhanced surveillance effort will help determine whether the disease is present in the U.S. cattle herd and
whether existing risk management measures are sufficient.
In April, USDA announced the framework for implementation of a National Animal Identification System
(NAIS). NAIS is designed to identify any agricultural premises (building or grounds) that may be exposed to a
foreign animal disease. The ability to track animals as they move between farms, auction houses, feedlots and
slaughtering or rendering plants will allow USDA to identify any that might have been exposed to disease.
In an important animal welfare case monitored closely by USDA, representatives from the Hawthorn
Corporation of Grayslake, Illinois, pleaded guilty to 19 counts of the Animal Welfare Act violations, including
inadequate veterinary care.

Challenges for the Future
USDA faces many challenges in reducing the number and severity of pest and disease outbreaks. Some of these
are external factors that, should they occur, could prevent achievement of the program goals.
As in all farming, unexpected events in the natural environment can impact pest and disease programs. A pest
also may move from wild to domestic populations. Migratory birds may carry diseases across boundaries.
Climatic factors may create unusually good conditions for the growth and spread of a pest or disease. Unusually
wet weather can prevent program survey actions. If a pest or disease with unknown biological information or
survey methodology enters the country, it might not be detected or it might go undetected before spreading and
causing significant damage.
The outbreak and spread of a significant emerging, foreign animal, or plant, pest or disease in the U.S. can drain
available resources quickly. The occurrence of multiple instances of these problems or one instance in multiple
locations would limit USDA’s prevention methods severely. When large or multiple outbreaks occur, personnel
resources must be shifted temporarily from non-emergency programs. This could leave the donor program
unable to achieve its outcomes if the emergency runs longer than expected. In the emergency programs,



                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 71
 ANNUAL PERFORMANCE REPORT




activities such as developing guidelines and training cooperators may suffer, thereby affecting the ability to
shorten response times in the future. An outbreak of epidemic proportions can overwhelm the program’s ability
to conduct timely testing. Support activities, such as regulatory enforcement and veterinary diagnostics and
biologics, may find their workload outpacing their ability to provide effective services. When work priorities
are reviewed, some of the burden may be shifted to cooperators.
USDA is challenged to keep up with new developments in technology. The development of transgenic animal
species will present new problems in regulation, both in terms of maintaining the health and safety of
agriculture and developing policy regarding their welfare.
USDA must communicate and coordinate with its employees and partners so that they clearly understand their
roles and responsibilities, and ensure they have the necessary resources to respond quickly and effectively. The
Department relies on State and local Government agencies, professional societies and industries to implement,
administer and pursue the program standards required to complete them successfully. The cooperation and
participation of all these groups is essential to achieving goals.
In some parts of the world, political instability may prevent program personnel from entering areas for
inspection or eliminating pests. In other cases, a foreign Government may allow ships to leave its ports without
properly inspecting them for pests.
Management Challenge
Incorporating homeland security considerations into program design and implementation is a management
challenge for the Department. (Appendix A contains the Office of the Inspector General’s report on USDA’s
major management challenges.) In response to this challenge, since November 2001, USDA has deployed 20
import surveillance liaison inspectors around the nation’s ports of entry. This action is designed to strengthen
import inspection and improve coordination with other agencies, such as the U.S. Department of Homeland
Security (DHS) and Health and Human Services (HHS). These three agencies share the responsibility of
ensuring the safety of imported food products. During the past two years, USDA has used the “CARVER +
Shock” methodology, which is used to determine vulnerabilities in the farm-to-table continuum. The method
called “CARVER + Shock” is an offensive technique in that it identifies physical locations an enemy might find
advantageous to introduce contaminants by evaluating the target through the enemy’s eyes.
Eighteen new veterinarians have been added to the agricultural quarantine inspection staff at borders and ports
of entry. These additions are designed to ensure strong preparedness programs are in place to protect U.S.
agriculture. Approximately 2,600 members of the border inspection force have been transferred to DHS. In
close consultation with this agency, USDA will continue to train inspectors and set policy for plants, animals
and commodities entering the U.S.
In March, DHS, the U.S. Bureau of Customs and Border Protection (CBP) and the U.S. Border Patrol (BP)
launched the 2004 Arizona Border Control Initiative. The effort was designed to achieve operational control of
the Arizona border and support the DHS priority mission of anti-terrorism, detection, arrest and deterrence of all
cross-border illicit trafficking. The initiative calls for more cooperation between DHS, the U.S. Department of
Interior and USDA in allowing access to border public lands.
USDA also has created a National Surveillance Unit within its Veterinary Services Program. The unit will
provide a focal point for the collection, processing and delivery of surveillance information that is needed to
perform risk analyses and respond accordingly.
USDA developed guidance documents to help remind farmers and ranchers of steps they can take to secure
their operations. Information was posted on USDA’s Web site and distributed through the Department’s
extension system to reach people nationwide. USDA upgraded security efforts at its State and county offices.
These measures included:
      Establishing a Web-based tracking system for disaster reporting;
      Maintaining databases of fertilizer, food, feed and seed listings; and



 USDA
  72                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




        Coordinating with State and county emergency boards to assist during an emergency.
A future project to continue protecting U.S. agriculture is the National Animal Identification System. This
involves developing a system capable of tracing an animal back to the most logical disease source within 48
hours of detection. USDA also implemented the National Consumer Complaint Monitoring System. This
national system monitors, investigates, responds to and tracks food-related consumer complaints. It also serves
as a sentinel system for terrorist attacks on the food supply. USDA established Departmental policies and
procedures for labs on issues such as:
      Maintaining accountability records;
      Handling, storage shipping, disposal, record-keeping and monitoring pathogens;
      Securing pathogens;
      Ensuring appropriate levels of physical security to protect against unauthorized access, theft or loss of
          agents or toxins; and
      Biosecurity incident response plans.
Management Challenge
The controls over germplasm storage material and the genetically engineered organism (GEO) field is a
management challenge for the Department. (Appendix A contains the Office of the Inspector General’s report
on USDA’s major management challenges.) In response to this challenge, USDA has developed draft policy
guidelines for effectively maintaining information related to GEO germplasm in the National Plant Germplasm
System (NPGS). GEO refers to any organism whose cellular structure has been altered scientifically.
Germplasm is the cellular structure of germ cells. NPGS is a cooperative effort by Federal, State and private
organizations to preserve the genetic diversity of plants. The draft policy, which currently is in clearance,
includes procedures for additions, storage, access and disposal of GEO germplasm. It also provides guidelines
on information exchange procedures and documentation in USDA’s Germplasm Information Resource
Network.
Management Challenge
Consistently applying the research misconduct policy is a management challenge for the Department.
(Appendix A contains the Office of the Inspector General’s report on USDA’s major management challenges.)
In response to this challenge, senior agency management of the Department’s major research agencies
committed to develop USDA guidelines for the definition and treatment of research misconduct consistent with
Federal policy issued by the Office of Science and Technology Policy. The Research, Education and Economics
Mission Area will oversee the process. All research agencies and the Office of Inspector General will be asked
to participate.

KEY OUTCOME: PROVIDE A SECURE AGRICULTURAL PRODUCTION SYSTEM AND
             HEALTHY FOOD SUPPLY
Pests and diseases represent the biggest threat to agriculture because they are unexpected and can have quick,
disastrous consequences. In the last few decades, increased travel and trade contributed to the spread of invasive
species around the world. An effective safeguarding system is crucial to protecting the agricultural sector.
Congress has appropriated funds to provide a secure agriculture production system and healthy food supply to
consumers by protecting them against pest and disease outbreaks, minimizing production losses, maintaining
market viability, and containing environmental damage.
USDA’s primary safeguarding strategy is to monitor the health of U.S. plant and animal resources. This
monitoring helps ensure that any new animal pest and disease outbreaks are detected and eliminated quickly.
Animal Pests and Diseases
A key benefit of the Animal Health Monitoring and Surveillance system is the rapid detection of emerging
foreign animal diseases. These may be introduced accidentally or intentionally. Information about the health
status, productivity and health-related attributes of U.S. animal population products, and biologics is critical to


                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  73
 ANNUAL PERFORMANCE REPORT




understanding the spread of animal pests and disease, establishing necessary quarantines, and planning effective
eradication and control measures. Public concerns about diseases that affect both animals and people reinforce
the need for accurate, timely and thorough information.
The Department enhanced the National Surveillance System that previously was directed at specific diseases
and commodities. In the new approach, USDA broadened its network by developing partnerships with State
Governments, Tribes, veterinary colleges, animal and livestock industries, public health agencies, and other
governmental and private groups. USDA also collaborated with other governmental agencies to address issues
that involved linkages between farm-raised animals, wildlife and companion animals. This program designed to
quickly mitigate and manage the potentially devastating impacts animal diseases may have on the Nation’s food
supply and economy, continued to implement recommendations made by the National Association of State
Departments of Agriculture in the Animal Health Safeguarding Review.
Exhibit 42: Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems

                                                                                         Fiscal Year 2004
                Annual Performance Goals and Indicators                        Target         Actual         Result
    3.2.1   Number of significant introductions of foreign animal diseases       0                0           Met
            and pests that spread beyond the original area of introduction
            and cause severe economic or environmental damage, or
            damage to the health of animals or humans.


Analysis of Results
The target was met. USDA selected a target of zero because all program leaders, partners and cooperators, and
congressional representatives do not want a single instance of an animal disease to spread and cause severe
damage. During FY 2004, the U.S. had several introductions of foreign disease agents that were reported to the
World Organization for Animal Health.
Despite these introductions, there were no outbreaks of significant foreign animal diseases or pests that spread
beyond the original area of introduction and caused severe economic or environmental damage or damage to the
health of animals or humans. In FY 2003, the actual result was one outbreak that spread beyond the original
area to cause severe damage. This was the outbreak of Exotic Newcastle Disease which caused millions of
dollars of damage to the poultry industry, as well as to state governments and USDA. The Secretary declared
the outbreak over on September 16, 2003. For more information, visit
www.usda.gov/news/releases/2003/09/0321.htm.
Exhibit 43: Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection
Systems

                                                                             Fiscal Year Actual
                     Trends                            2000          2001         2002                2003       2004
 Number of significant introductions of foreign          0             0           0                   1            0
 animal diseases and pests that spread beyond                                   Baseline
 the original area of introduction and cause
 severe economic or environmental damage, or
 damage to the health of animals or humans.


A presumptive diagnosis of a case of BSE was announced on December 23, 2003, and confirmed 2 days later.
An intensive epidemiological investigation was conducted and confirmed that the affected animal was of
Canadian origin. The exposure to BSE was assumed to have occurred in Canada. Animals from the same herd of
origin were traced and depopulated as part of the investigation. This reported case of BSE caused significant
losses to the beef exporting industry. Some of these markets have been regained.
Several policy changes were announced in response to this case. Both the Food Safety and Inspection Service
(FSIS) and the Food and Drug Administration (FDA) took actions to provide additional protection for public


 USDA
  74                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




health. The Animal and Plant Health Inspection Service (APHIS) initiated an enhanced surveillance program
for the disease. The goal of the enhanced program is to test as many cattle as possible from the targeted high-
risk population in a 12-18 month period. The targeted population includes adult animals in the following
categories:
      Non-ambulatory cattle;
      Cattle exhibiting signs of a central nervous system disorder;
      Cattle exhibiting other signs that may be associated with BSE, such as emaciation or injury; or
      Dead cattle.
Data obtained from this surveillance effort will help identify whether BSE is present in the United Sates, and if
so, help to determine possible parameters around the prevalence level. This data will also help determine
whether risk management practices are adequate or whether they need to be changed.
This program was initiated on June 1, 2004. Surveillance efforts prior to June 1, 2004, had a total of 17,121
samples between October 1, 2003 and May 1, 2004. From June 1, 2004 through September 20, 2004, a total of
73,007 samples were tested as part of the enhanced surveillance effort.
As part of this effort, seven State laboratories were trained and are participating in the BSE surveillance efforts.
Additionally, five more State laboratories have been approved, and these will be brought online in the future as
necessary. These labs use approved rapid tests for BSE surveillance purposes. USDA’s National Veterinary
Services Laboratories in Ames, Iowa, remains the national reference lab for BSE confirmatory testing. All of
these laboratories are part of an existing network of State and Federal institutions that assist USDA with animal
disease testing, as needed.
USDA has completed an update to Veterinary Services Memorandum 580.4 entitled, “Procedure for
Investigating a Suspected Foreign Animal/Emerging Disease Incident.” It includes specific instructions for
conducting and reporting Foreign Animal Disease/Foot and Mouth Disease investigations. Information has been
distributed for Federal animal health first responders, including a compact disc entitled, “Food Security: The
Threat to American Livestock.” The disc offers comprehensive information on infectious disease threats to
livestock, animal disease awareness briefings, standard veterinary medical information for diagnosing such
diseases and emergency information gathering and reporting mechanisms.
The framework for implementation of the National Animal Identification System (NAIS) was designed to
identify any agricultural premise exposed to a foreign animal disease so that it can be more quickly contained
and eradicated. USDA has implemented a premises registration system that will record locations where animals
reside or will reside. Registering animal premises is the key component of a NAIS that along with animal
identification, allows animal movements to be reported to national data repositories. A fully implemented
NAIS, will allow animal health authorities to conduct timely trace backs during any future outbreaks. In
August 2004 USDA selected 29 State and tribal projects to conduct field trials and other research in order to
fine-tune identification technologies and collect animal movement data.
Animal Welfare
The Animal Welfare Program is designed to protect animals used for research in biomedical laboratories, and
bred by the wholesale pet trade. The program also covers those used for education and entertainment in zoos,
circuses and various exhibits, and those being transported in commerce. It protects them from disease outbreaks,
neglect and inhumane treatment. USDA inspects facilities and records, investigates complaints and reinspects
facilities with documentation problems. The program places primary emphasis on voluntary compliance
educating facility personnel and training its inspectors.
An example of the Animal Welfare Program’s educational emphasis is a proposed Center for Education,
Outreach and Technology in Kansas City, Missouri. The center will offer advanced training courses for its
employees to expand their knowledge on animal welfare and treatment. Eventually, it will serve as the hub for
all educational, outreach and methods development activities related to animal care. The program also has



                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 75
 ANNUAL PERFORMANCE REPORT




conducted several canine-care workshops to educate the general public and licensees on issues dealing with the
health and well-being of dogs.
The Animal Welfare Program focused on adapting new technology to improve the effectiveness and efficiency
of its field inspectors. Two different instruments were used. The first was a handheld gas chromatograph
capable of identifying chemical vapors within 10 seconds. Applications for this technology include identifying
illegal “soring” chemicals applied to the legs of show horses to make them feel sore so the horses lift them high
in the ring, bacteria from wounds or animal solid waste, and harmful chemical vapors in animal housing
facilities. The second is a handheld infrared camera capable of detecting surface temperatures on living or
inanimate objects. The device is being used to evaluate the adequacy of temperature, shade and ventilation
management in zoos, kennels and research facilities. It also can determine the heat patterns in horse limbs that
have been subjected to chemical and physical soring methods.
Exhibit 44: Ensure the Humane Care and Handling of Animals Used in Commerce

                                                                                              Fiscal Year 2004
                 Annual Performance Goals and Indicators                             Target        Actual        Result
 3.2.2   Number of animals affected by noncompliances documented on                 340,000          383,563     Unmet
         inspection reports
 3.2.3   Percent of facilities in complete compliance at the most recent              70%             70%         Met
         inspection


Analysis of Results
Through regulatory inspections and educational efforts, the Animal Welfare Program has succeeded in raising
the level of facility compliance for a baseline of 58 percent in 2001 to 70 percent in 2004. This new and more
difficult target was met.
Exhibit 45: Trends in Ensuring the Humane Care and Handling of Animals Used in Commerce

                                                                                Fiscal Year Actual
                      Trends                            2000          2001           2002             2003        2004
 Number of animals affected by noncompliances            N/A         588,961       371,856           344,866     383,563
 documented on inspection reports                                    Baseline
 Percent of facilities in complete compliance at         N/A          58%            68%              70%         70%
 the most recent inspection                                          Baseline


The target of having only 340,000 animals affected by noncompliances documented on inspection reports was
not met. During FY 2004, a total of 383,563 animals were affected by noncompliances. The increase in the
number of animals affected observed during the past year may be due to several factors: (1) a change in
inspection methods; (2) a change in the composition of the industry; and (3) an increase in the size of the
industry. This reveals noncompliance more effectively. During this past year, field inspectors focused their
efforts on facilities posing the highest risk. High-risk facilities are defined by several factors, including larger in
size. With more animals to oversee, large facilities are more likely to neglect some of them. Another possible
explanation may be that the mix or composition of the industry has changed slightly to include a larger
proportion of new facilities that have just received their licenses. A third explanation may be that the total
number of licenses and registrants has been growing. There has been a 40-percent increase in the number of
facilities since 2001. The results for FY 2004 are based on 15,133 inspections in 9,424 facilities. As a result of
these three factors, inspectors would have counted more animals affected by noncompliances and documented
them on the inspection reports. If this is true, the slight increase most likely is a consequence of a change in the
measurement method and the characteristics of the industry.




 USDA
   76                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                 ANNUAL PERFORMANCE REPORT




While the number of animals affected by noncompliances did not decrease during FY 2004, the Animal Welfare
Program has reduced the total number of animals affected by noncompliances by more than 200,000 since the
baseline was established in FY 2001. The benefits of this achievement for the Nation are:
     Assurances that the animals are being treated properly; and
     Diseases that might move from captive animals to wildlife and humans are being detected and treated.
Description of Actions and Schedules
Because the Animal Welfare Program did not meet one of its goals, it will analyze data from the last two years
to see if the number and composition of noncompliant facilities can reveal more about the reasons for the slight
change in the trend. When the data are ready, they will be used by the animal care management team to make
appropriate changes in the FY 2005 operating plan.

KEY OUTCOME: IMPROVE ANIMAL AND PLANT DIAGNOSTIC LABORATORY CAPABILITIES
The National Animal Diagnostic Network and Plant Diagnostic Network Centers ensure the performance of
timely diagnostics. They also enhance the process of producing and maintaining a timely, comprehensive
catalogue of pest and disease outbreak occurrences in a nationally accessible database. Identifying new or
uncommon pests and diseases accurately will allow USDA, in conjunction with the States, to expedite initial
control responses, verify the physical boundaries of an outbreak and initiate regional or national containment
strategies. The ultimate performance measure for these networks is their disease detection preparation. The
networks will continue to study new diseases regularly to protect the Nation effectively from accidental or
deliberate introduction of diseases.
Exhibit 46: Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved

                                                                                              Fiscal Year 2004
                  Annual Performance Goals and Indicators                            Target       Actual       Result
 3.2.4   Improve the capabilities of animal and plant diagnostic laboratories:                                  Met
             Specific plant diseases labs are prepared to detect                      3            3
             Specific animal diseases labs are prepared to detect                     6            6


Analysis of Results
The performance goal was met. Limited trend data are available since the effort began in FY 2003 (plant) and
FY 2004 (animal).
Plant disease detection criteria have been developed for soybean rust, sudden oak death (SOD) and Ralstonia
stem rot. Soybean rust is a fungal disease that attacks the foliage of a soybean plant, causing its leaves to drop
prematurely. SOD is a plant disease that attacks many types of plants and trees common to the Pacific
Northwest. Currently, soybean rust and Ralstonia stem rot are considered two major threats.
National centers in Champaign and Urbana, Illinois; East Lansing, Michigan; Raleigh, North Carolina; and
Bellefonte, Pennsylvania have received training and are prepared to battle these two diseases. State laboratories
in California, Florida, Kansas, Michigan, Mississippi, New York, Oregon and West Virginia are targeting
soybean rust and Ralstonia stem rot. Additionally, laboratories in all 50 States have been prepared to examine
samples potentially infected with the SOD pathogen.
Animal disease-detection criteria have been developed for the following six high consequence diseases. FMD is
a severe, highly contagious viral disease of cattle and swine. END is a contagious and fatal viral disease
affecting all birds. Classical Swine Fever, or hog cholera, is a highly contagious viral disease of swine. High
Pathogen Avian Influenza is a virus that can cause varying amounts of clinical illness in poultry. BSE, or mad
cow disease, is a chronic degenerative disease that affects the central nervous system of cattle. Chronic Wasting
Disease attacks the central nervous system of deer and elk.




                                                                                                                USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                    77
 ANNUAL PERFORMANCE REPORT




USDA agencies partner with State agencies and universities to achieve a high level of agricultural biosecurity.
This process is done through the early detection, response and containment of outbreaks of invasive pests and
diseases. The diagnostic laboratories, adequately staffed and stocked with cutting-edge technology, are essential
to accomplishing this mission.
Exhibit 47: Trends Improving the Capabilities of Diagnostic Laboratories

                                                                               Fiscal Year Actual
                      Trends                             2000           2001         2002            2003          2004
 Specific Plant diseases labs are prepared to             N/A            N/A          N/A              2             3
 detect                                                                                             Baseline
 Specific animal diseases labs are prepared to            N/A            N/A         N/A              N/A            6
 detect                                                                                                           Baseline
 N/A = Not Available

Future challenges to improving laboratory capabilities include making non-Federal funding available. This
funding could be used to expand laboratory links in each State, increase the number of screened diseases and
their detection criteria, and ensure that more strategically located laboratories are prepared to deal with
geographically relevant disease threats.

KEY OUTCOME: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND
             DISEASE OUTBREAKS
Genome sequencing involves studying the genetic factors that allow a cell to exist. USDA has sequenced the
genomes of a wide variety of pathogens to understand their diversity better. This sequencing allows scientists to
recognize new cells. It also allows them to determine why a pathogen causes disease. Due to the ever-
decreasing cost of obtaining sequence data, the number of organisms or variants of the microorganisms has
increased each year.
To understand what genes allow an organism to resist infection, USDA has identified genetic combinations that
would give economically important agriculture species a greater ability to survive infection. Sequencing of the
complete genome of important agricultural species like chickens and cows is vital to this effort and facilitates
the identification of diseases during the last several years.
USDA has provided a number of diagnostic tests that help producers find and control diseases more rapidly. In
some cases, these tests eventually are transferred to universities, State laboratories, private industry or other
countries for use.
USDA is only at the very early stages of finding genomic markers linked to phenotypes of disease resistance.
Much more needs to be done. Once more of these become available to companies, these entities will be able to
breed animals without the danger of it contracting diseases. USDA is studying this process for the economically
important livestock commodities. The future challenges are to continue and enhance this effort. To do this, the
Department must support host genome sequencing and establish models of disease to validate the markers or
resistance.
Exhibit 48: Provide Scientific Information to Protect Animals from pests, Infectious Diseases, and Other
Disease-Causing Entities that Impact Animal and Human Health.

                                                                                                 Fiscal Year 2004
                   Annual Performance Goals and Indicators                             Target        Actual       Result
 3.2.5:   Provide scientific information to protect animals from pests, infectious                                 Met
          diseases, and other disease-causing entities that impact animal and
          human health.
            Number of organisms or variants of the microorganisms sequenced                55         55
               each year.
            Number of resistance markers for a variety of diseases identified.             8           8
              Number of tests that are transferred to universities, State                  3           3
               laboratories, private industry, or other countries for use.



 USDA
  78                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                          ANNUAL PERFORMANCE REPORT




Analysis of Results
USDA met the goal. While USDA has sequenced parts of many microorganisms and made new discoveries,
many of these sequences only cover part of the genome. There are many more organisms and varieties to be
studied. Despite this shortcoming, the sequence data are very useful. They have allowed scientists to discover
the origin of microorganisms quickly and provided valuable insight into their diversity. Future challenges are to
continue sequencing efforts and build relational databases so that the sequence data can be stored, mined and
interpreted easily.
Exhibit 49: Trends in Providing Scientific Information to Protect Animals from Pests, Infectious Diseases, and
Other Disease-Causing Entities that Impact Animal and Human Health.

                                                                         Fiscal Year Actual
                     Trends                       2000         2001               2002        2003      2004
 Number of organisms or variants of the            20            30                 40        50         55
 microorganisms sequenced each year.             Baseline
 Number of resistance markers for a variety of     N/A          N/A                 3          5          8
 diseases identified.                                                            Baseline
 Number of tests that are transferred to           N/A           1                  2          4          3
 universities, State laboratories, private                    Baseline
 industry, or other countries for use.


While USDA has succeeded in transferring technologies, concepts and some fully viable tests to the end user
during the past several years, many diagnostic innovations still are being lost before they are commercialized.
Those tests that have been marketed immediately are used and have enhanced the capability of the producer,
State Government and diagnostic labs in determining the cause and location of diseases.

STRATEGIC GOAL 4: IMPROVE THE NATION’S NUTRITION AND
HEALTH
The United States Department of Agriculture (USDA) made strides in promoting access to a nutritious diet and
healthy eating behaviors for everyone in the U.S. in 2004. Through its leadership of 15 Federal nutrition-
assistance programs, the Department made a healthier diet available for millions of children and low-income
working families. Meanwhile, USDA’s Center for Nutrition Policy and Promotion used the latest science
information to update Federal nutrition guidance and interactive tools. This information was designed to help
consumers establish and maintain healthy diets and lifestyles. Key accomplishments included:
      Promoting access to the Food Stamp Program (FSP)—Food stamps help low-income families and
         individuals purchase nutritious low-cost meals. FSP is the Nation’s largest nutrition assistance program
         serving a monthly average of more than 23 million people during FY 2004. The program enables
         eligible participants to improve their diets by increasing their food-purchasing power via benefits
         redeemable at retail grocery stores across the U.S. USDA promoted FSP through a national media
         campaign designed to reinforce the importance of food stamps as nutrition assistance and work
         support. The Food Stamps Make America Stronger campaign distributed radio spots in 75 major media
         markets, advertisements on city buses and more than 2 million flyers and posters written in English
         and Spanish across America. The campaign is designed to highlight the nutrition-assistance benefits
         available through FSP. USDA also made outreach efforts to educate potential participants about
         program changes in the FSRIA that expanded eligibility for legal immigrants. These program changes
         brought 150,000 participants into the program during the first year of their implementation.
      Achieving the Highest Food Stamp Program Payment Accuracy Rate in History—Improving
         payment accuracy, while increasing outreach and access, has been a major USDA priority. The FSP
         payment accuracy rate rose to 93.4 percent in FY 2003 from 91.7 percent in FY 2002.




                                                                                                         USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               79
 ANNUAL PERFORMANCE REPORT




        Completing electronic benefits transfer (EBT) expansion to reach all 50 States, the District of
         Columbia, Puerto Rico and the Virgin Islands—EBT uses debit-card technology to allow FSP
         recipients to use their benefits to purchase food items at retail stores, eliminating the need for paper
         coupons. In 2004, USDA completed a 20-year process of working with State agencies and retailers to
         convert to EBT. This conversion replaced an outdated paper process with a modern system that
         enhances convenience and dignity for participants, improves service for retailers and offers new tools
         and data to promote program integrity.
        Working with Congress to improve the Child Nutrition Programs to ensure access, promote
         integrity and fight obesity— Child Nutrition Programs are designed to provide nutritious meals to
         students at participating schools, with eligible students receiving free or reduced-price meals.
         Legislative improvements achieved through passage of the Child Nutrition and WIC Reauthorization
         Act of 2004 established priorities to ensure access to Federal nutrition-assistance programs for the
         children who need them, while maintaining and improving their integrity and supporting USDA efforts
         to address the growing public health threat of obesity.
        Development with the U.S. Department of Health and Human Services (HHS) of the 2005 Dietary
         Guidelines for Americans—These guidelines represent the cornerstone of Federal nutrition policy and
         nutrition-education activities. They are issued jointly by USDA and HHS and updated every five years.
         Additionally, the Food Guidance System (formerly known as the Food Guide Pyramid, originally
         released in 1992) that supports and communicates the guidelines was reviewed and revised. The
         changes were designed to reflect the most comprehensive, up-to-date science available to provide clear
         and useful nutrition information to consumers in the U.S. With 90 percent of the work completed on
         the Food Guidance System, USDA is poised to release the new food guide in early 2005.
The key to improving the Nation’s health lies in improving the quality of its diet through a nutritionally
enhanced food supply (developing new more nutritious food products that contribute to healthier diets) and
better knowledge and education to promote healthier food choices. USDA made such improvements a top
priority in FY 2004. Four of the top 10 causes of death in the U.S. (cardiovascular disease, cancer, stroke and
diabetes) are associated with the quality of diets—diets too high in calories, total fat, trans and saturated fat and
cholesterol, or too low in fruits and vegetables, whole grains and fiber. The Nation is experiencing an obesity
epidemic resulting from multifaceted causes including a “more is better” mindset, a sedentary lifestyle and the
availability and choices of fat- and sugar-laden, high-calorie foods. Consumers are looking for foods that taste
good, offer nutrition and other health benefits, and are convenient to prepare and consume. In FY 2004, USDA
pursued national policies and programs to ensure that everyone has access to a healthy diet regardless of
income, and that the information is available to make good nutrition choices.
USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. The research provides critical knowledge of what we
need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner that leads to true
dietary changes. Research also supports development of new healthy and tasty food products providing another
avenue for helping consumers eat well. In FY 2004, USDA conducted and supported research that clarified how
different nutrients, such as isoflavins, promote health, demonstrated what influences people’s eating patterns
and developed healthy new products made from common commodities, such as rice and cheese by-products.

OBJECTIVE 4.1: IMPROVE ACCESS TO NUTRITIOUS FOOD

Exhibit 50: Resources Dedicated to Improving Access to Nutritious Food

                                                                                FY 2004
                 USDA Resources Dedicated to Objective 1.1           Actual         Percent of Goal 1
                Program Obligations ($ Mil)                         $44,985.7             98%
                Staff Years                                            736                26%



 USDA
   80                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




Introduction
USDA’s nutrition-assistance programs represent the Federal Government’s core effort to reduce hunger and
improve nutrition across the U.S. By working with States to ensure effective program operations and benefit
delivery for participants, USDA seeks to provide access to a nutritious and adequate diet for those with little
income and few resources. For a variety of reasons, many individuals and families eligible to participate in
these programs do not. In FY 2004, USDA focused on increasing the rate of participation among people eligible
for food stamps and expanding access to the School Breakfast Program (SBP), which is not as widely available
as the National School Lunch Program. While SBP provides cash assistance to States to operate not-for-profit
breakfast programs in schools and residential child care institutions, many institutions that offer school lunches
currently do not offer school breakfasts. On an average school day in FY 2004, more than 50 million children
have access to school lunch, nearly 29 million children chose to eat a program lunch and nearly 9 million
children received a breakfast through these programs.
The Department also sought to serve all those eligible for the Special Supplemental Nutrition Program for
Women, Infants and Children Program (WIC) who wish to participate within authorized funding levels. WIC
helps to safeguard the health of low-income women, infants and children up to age five who are at nutritional
risk. The program provides nutritious foods to supplement diets, information on healthy eating and referrals to
health care. About 7.8 million pregnant women, new mothers and their young children benefited in an average
month in FY 2004 thanks to WIC.

Overview
USDA made significant advances in promoting access to nutritious food in 2004. The Department worked with
States to implement new Food Stamp Program (FSP) provisions that restore food stamp benefits to otherwise
eligible legal immigrants whose eligibility had been eliminated as part of welfare reform legislation. The
provisions also give States the ability to adopt user-friendly options to simplify program requirements for
participants and transitional benefits that can ease the transition from welfare to work. USDA developed and
delivered a media campaign to inform low-income people of their potential eligibility. The Department also
provided technical assistance, outreach and participation grants and guidance to faith- and community-based
organizations to encourage FSP participation. Additionally, USDA completed the transition to EBT for all food-
stamp benefits, which has improved convenience for participants in redeeming their benefits greatly.
USDA promoted SBP through raising awareness of the program’s availability with State and civic leaders, and
supporting and celebrating National School Breakfast Week. This program is designed to promote the link
between a good breakfast and student learning and behavior. The Department worked with the OMB, Congress
and State partners to ensure that WIC funding is available and distributed effectively to serve all those eligible
who wish to participate. This maximizes the reach of this important program within authorized funding levels.
Finally, USDA reached out to a wide range of faith-based and community organizations to deliver program
benefits and services, and encourage access to the programs.

Serving the Public
The Nation is committed to ensuring that no child or family goes hungry. Federal nutrition-assistance programs
are designed to provide nutritious food and nutrition promotion. They aided one in five people in the U.S.
during FY 2004. These programs promote better health for all people in the U.S. support the transition to self-
sufficiency for low-income working families and support children’s readiness to learn in school. A well-
nourished population is healthier, more productive and better able to fulfill its full potential.

Challenges for the Future
Studies and analyses show that there continue to be large numbers of eligible people who do not participate in
Federal nutrition assistance programs. While recent changes in FSP have made more low-income people
eligible, many may be unaware of the opportunity to receive these benefits. USDA looks to improve access to
and promote awareness of these programs among those who may benefit from their services with continued
outreach and information strategies.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                81
 ANNUAL PERFORMANCE REPORT




USDA’s ability to achieve this objective depends partly on adequate legislative authority for policies and
program initiatives. These initiatives would promote effective access to nutrition assistance and funding to
support program participation for all eligible people who seek service. The quality of program delivery by third
parties—hundreds of thousands of State and local Government workers and their cooperators—are critical to
Department efforts to reduce hunger and improve nutrition. Economic changes can affect both the number of
people eligible and the ability of cooperators to provide services.

KEY OUTCOME: REDUCE HUNGER AND IMPROVE NUTRITION
As noted above, the resources and services USDA distributes through 15 programs represent the Federal effort
to improve the nutrition of children and low-income people. The Department is committed to providing access
to nutritious food through the major nutrition assistance programs for all eligible people who wish to
participate. In FY 2004, USDA targeted FSP, WIC and SBP for special efforts to improve program access.
While data are unavailable to assess the success of these FY 2004 efforts in increasing the rate of participation
among eligible people, the period did see increased participation in all three targeted programs.
Exhibit 51: Improve Access to Nutritious Food

                                                                                      Fiscal Year 2004
                Annual Performance Goals and Indicators                      Target        Actual        Result
 4.1.1   Improve Access to Nutritious Food (Mil):                                                        Deferred
            Food Stamp Program Participation Rate                           64%            N/A
            School Breakfast Program Participation Rate                      N/A           N/A
            Special Supplemental Nutrition Program for Women, Infants and
                                                                              N/A           N/A
             Children Participation Rate (measure under development)

Analysis of Results
The measure has been deferred because data on the number of eligible persons are currently unavailable. Data
for the SBP measure should be available for reporting in the FY 2005 Performance and Accountability Report.
Data for the FSP and WIC measures should be available for the FY 2006 Performance and Accountability
Report. Analysis of the most recent information available follows:
Food Stamp Program—While the FY 2004 food stamp participation rate is unavailable, new information
suggests that participation rates among people eligible for such benefits are lower and rising more slowly than
reported previously. The most recent data, based on analysis of U.S. Census Bureau survey information indicate
that overall participation rates increased slightly between 2001 and 2002, from 53 percent to 54 percent. While
USDA remains committed to achieving the objective of reaching 68 percent of all those who are eligible, as
shown in the Strategic Plan 2002-2007, it now appears that this may take longer than previously expected. (See
Trend Analysis below for more information.) USDA executed a range of efforts to support and encourage food
stamp participation in FY 2004, including:
      Approving waivers to increase FSP access among the elderly and other targeted groups. For example,
         FNS is working with a number of States on combined application projects (CAP). CAP allows
         Supplemental Security Income (SSI) recipients to apply for Food Stamp benefits through a simplified
         process. In one such project in Texas, food stamp participation among the elderly people increased by
         more than 60,000;
      Awarding 6 grants totaling $5 million to help increase awareness of USDA’s FSP for low-income
         households and simplifying the application process;
      Awarding $1 million in grants to faith- and community-based organizations and public agencies to
         educate people about the benefits of food stamps so that they can make informed decisions about
         applying and participating;
      Providing outreach and educational materials free upon request, including posters, brochures, flyers
         and other materials in 35 languages;



 USDA
  82                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                          ANNUAL PERFORMANCE REPORT




        Expanding its Web site with new outreach resources and enhanced the FSP toll-free 1-800 hotline
         available to the public to learn more about FSP and learn how and where to apply in English and in
         Spanish;
        Launching the Food Stamps Make America Stronger media campaign to raise awarness of the
         availability of the FSP to help low-income families have access to healthier diets;
        Working with the U.S. Department of Justice to inform Federal program administrators of their
         obligations regarding the accommodation of people with limited English skills; and
        Launching an FSP National Outreach Coalition to partner and strengthen educational and outreach
         efforts nationally by sharing efforts and joining forces and resources.
School Breakfast Program—FY 2004 SBP participation rate data will be available in December 2004, and
reported in the FY 2005 USDA Performance and Accountability Report. SBP makes healthy, nutritious meals
available to an average of 8.9 million children at the start of each school day. More than 74,000 schools operated
the program in FY 2004. This figure is an increase of more than 1,300 schools from the prior year that gave
thousands of additional students access to the program. USDA worked to support and encourage SBP
participation in FY 2004 by:
      Continuing promotion of SBP through such activities as School Breakfast Week, which involves
         schools across America in highlighting the program through events, posters and student activities in the
         importance of a good breakfast—either at home or served through the program—in being ready for
         school; and
      Supporting provisions in Child Nutrition reauthorization included in final legislation to expand
         program access by: 1) requiring States to enroll children who receive food stamps in the free school
         meals program without an additional application; 2) combining applications for subsidized meals so
         that each household can submit just one for all its children; and 3) making each certification valid for
         the school year, eliminating the need to re-apply if circumstances change.
WIC—FY 2004 WIC participation rate data will be available in late 2005, and reported in the FY 2006
Performance and Accountability Report. In FY 2004, USDA continued efforts to ensure that funding was
available to support participation for all those eligible who wish to participate. During the year, rising food costs
and increased participation made it necessary to provide additional funding to WIC State agencies to allow
applicants to join the program. USDA distributed more than $170 million from sources for program grants,
including a contingency fund created for this purpose in FY 2003.
Exhibit 52: Trends in Improving Access to Nutritious Food

                                                                         Fiscal Year Actual
                   Trends                         2000           2001             2002         2003        2004
 Food Stamp Program % of eligible people         55.7%
                                                                 53.2%            53.8%         N/A         N/A
 participating                                  Baseline
 School Breakfast Program % of school            14.2%
                                                                 14.5%             15%         15.5%        N/A
 children participating                         Baseline
 WIC Program % of eligible people
                                                  N/A             N/A              N/A          N/A         N/A
 participating (measure under development)


Food Stamp Program: Newly available information suggests that participation rates among people eligible
for food stamp benefits are lower and rising more slowly than previously reported. This is largely the result of
important policy reforms that expanded eligibility by making it easier, for example, for a low-income family to
own a reliable car to get to work and still participate.
The policy reforms were expected to depress participation rates, as a percentage of eligible participants, for two
reasons. First, it takes time for information about rule changes to make its way into communities, and for people
to act on that information. Second, the main beneficiaries of the rule changes–working poor families–tend to



                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  83
 ANNUAL PERFORMANCE REPORT




have lower-than-average participation rates. As a result, overall participation rates increased just slightly
between 2001 and 2002. While USDA remains committed to achieving the strategic plan objective of reaching
68 percent of all those who are eligible, it now appears that it may take longer than previously expected. It will
take more time and effort to promote the rule changes to new potential participants.
School Breakfast Program: Trend data indicate that the proportion of children enrolled in school who
participate in SBP has risen slowly but steadily in recent years. This use reflects USDA’s continuing efforts to
encourage schools to operate the program. In FY 2004, approximately 8.9 million children received breakfast
through the program each school day.
WIC: A methodology to estimate the number of people eligible to participate in WIC is currently under
development. Data are expected to be available in late 2005 and will be reported in the FY 2006 Performance
and Accountability Report.

OBJECTIVE 4.2: PROMOTE HEALTHIER EATING HABITS AND LIFESTYLES

Exhibit 53: Resources Dedicated to Promoting Healthier Eating Habits and Lifestyles

                                                                              FY 2004
                 USDA Resources Dedicated to Objective 1.3          Actual        Percent of Goal 4
                Program Obligations ($ Mil)                         $901.2               2%
                Staff Years                                           914                32%


Introduction
Eating healthy is vital to reducing the risk of death or disability due to heart disease, certain cancers, diabetes,
stroke, osteoporosis and other chronic illnesses. Despite this, a large gap remains between recommended dietary
patterns and what people in the U.S. actually eat. USDA’s nutrition assistance programs focus on improving
eating behaviors through nutrition promotion and shaping food benefits to help ensure improved nutrition
levels. For the benefit of the total U.S. population, the Department uses Federal nutrition policy—through such
avenues as the Dietary Guidelines for Americans and the food guidance system—and nutrition education to
provide scientifically based information about healthy diets and lifestyles. The guidelines provide advice about
food choices that promote health and prevent disease.
The Nation faces an alarming increase in the obesity of children and adults, and associated diseases related to
poor eating habits of Americans. The nutritional quality of diet is the connection between agriculture and health.
A key to maintaining long-term health and decreasing the risk for chronic diseases is selecting an appropriate
diet in moderation in combination with regular physical activity.

Overview
USDA used its nutrition assistance programs and its broader nutrition education efforts to promote healthier
eating and physical activity across the U.S. It worked to improve nutrition education efforts within each of the
major nutrition assistance programs. Highlights in FY 2004 included a series of projects to identify new
strategies to address unhealthy weight gain through WIC, and new Team Nutrition educational materials
designed to encourage fruit and vegetable consumption and healthier school environments. Additionally, a
major review and reengineering effort of food stamp nutrition education is in progress. This effort is designed to
ensure that it focuses on changing behaviors using the best strategies available.
USDA also provided technical support to the Dietary Guidelines Advisory Committee in its review of the
Dietary Guidelines for Americans. Additionally, the Department launched a broad-based review and update of
the Food Guidance System that details the guidelines. USDA also continued updating interactive tools that
consumers in the U.S. can use to assess their diet and physical activity (www.cnpp.usda.gov). USDA agencies
promote healthy food choices, dietary habits and eating behavior through research to improve understanding of



 USDA
  84                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                          ANNUAL PERFORMANCE REPORT




optimal nutrient requirements at all stages of the life cycle, the relationship between diet, physical exercise and
health, and the factors influencing individual food choices. The Department conducts and supports
multidisciplinary nutrition research and education that considers interrelated factors affecting nutritional status,
such as genetics, physiology, sociocultural factors, psychology, economics, agricultural and food systems, and
public policy.

Selected Results in Research, Extension and Statistics
Fast Food Linked to Poor Nutrition Among U.S. Children—A collaborative study conducted by USDA
and Harvard University scientists showed decreased nutritional dietary quality and increased caloric intake
among U.S. children on days they ate fast food. Despite intense public interest, there has been little scientific
examination of the effects of eating fast food on nutritional status or health outcomes. Almost one in three
children ate fast food on typical days. Findings generally confirmed what most parents would expect. U.S.
children who ate fast food consumed more total calories, more calories per gram of food, more total and
saturated fat, more total carbohydrate, more added sugars and more sugar-sweetened beverages than those who
did not. The former group also consumed less milk, fiber, fruit and non-starchy vegetables. Some experts
estimate that childhood consumption of fast foods increased from 2 percent of daily meals in the late 1970s to
10 percent of daily meals by the mid-1990s. The findings are important because childhood obesity is becoming
more prevalent. Inadequate consumption of fruits and vegetables has been associated with such obesity-related
problems as cardiovascular disease and diabetes. Fruits and non-starchy vegetables may protect against
excessive weight gain because of their low-energy density and high-fiber content. The study was published in
the Medical Journal of Pediatrics in January 2004 and is summarized at
http://pediatrics.aappublications.org/cgi/content/abstract/113/1/112.
Process Packs Protein into Snacks—Whey proteins that remain after cheese making are a key ingredient
in new nutritious snack foods produced through a process developed by USDA. The Department recently filed a
patent on the process, which uses a standard industry device called the twin-screw extruder to make crunchy
snacks with whey proteins. The new snacks could help meet the demands of health-conscious consumers. By
using whey, the process boosts protein in expanded snacks, such as breakfast cereals, corn puffs, cheese curls
and energy bars, from the traditional average of between 2 and 5 percent to 35 percent. Several high protein
snacks developed through a Cooperative Research and Development Agreement with Harden Foods, Inc., a
minority-owned company in Philadelphia, Pennsylvania, will be ready for market by December 2004. Using
this USDA patent pending texturization technology, Harden has produced successfully market-ready cheese
curls, tortilla chips and other snack products with reduced amounts of carbohydrates. Several other companies
also have submitted applications to license this technology.
If Clogged Arteries Are Your Problem, Try Eating Oats—Of the 65 million Americans with heart
disease and millions more at risk, diet is considered the first line of defense. Oats are known to lower serum
cholesterol because of their water-soluble fiber content. Meantime, new research shows other ingredients in oats
have additional benefits. Researchers funded by USDA have shown that antioxidant compounds in oats, called
avenanthramides, significantly reduce the ability of white blood cells from sticking to cells lining the artery,
thereby decreasing the chances for plaque buildup. The suppression of plaque provided by avenanthramide
compounds may lessen the gradual constriction of vessels that leads to hardening of the arteries. Water-soluble
fiber from oats long has been believed to help reduce the amount of cholesterol circulating in blood. Elevated
levels of cholesterol indicates a risk for heart disease. To gain heart-healthy benefits from fiber and
avenanthramides, the researchers suggest adding oat products as part of an overall healthy diet and cutting down
on high-fat, high-cholesterol foods. The study was published in the biomedical journal Atherosclerosis in July
2004 and can be found at www.ncbi.nlm.nih.gov/entrez/query.fcgi?cmd=Retrieve&db=pubmed&dopt=
Abstract&list_uids=15186945.
Rice Offers a Healthier Way to “Batter Up”—Consumers need to avoid fried foods because they contain
high levels of fat oil and may pose other health risks. USDA researchers examined a variety of batters, made
with long-grain rice, waxy rice, wheat or corn, to see which flour type would absorb the least amount of oil. The
findings showed that batters made with long-grain rice flour and small amounts of other specially modified rice
ingredients absorbed about 55 percent less oil than the traditional wheat batter. Rice flour has unique properties



                                                                                                             USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  85
 ANNUAL PERFORMANCE REPORT




that resist oil absorption. A U.S. food ingredients company is negotiating an exclusive license to produce and
market this product. Notice of Intent to Grant Exclusive License has been published in the Federal Register.
Comments must be received before October 25, 2005.
Enhancing Absorption of Chromium—USDA scientists have developed a new, stable and more
absorbable form of the element chromium. Chromium helps transfer sugar from the blood to muscles, thereby
helping to maintain normal blood-sugar levels. People with impaired sugar levels are at high risk for type II
diabetes and increased cardiovascular disease. As much as 40 percent of the adult population is diagnosed with
pre-diabetes and an additional 16 million have diabetes. This element also has been found to help maintain
normal blood-sugar levels. The new chromium compound is a water-soluble complex of natural chromium
mixed with the essential amino acid histidine, which helps enhance the mineral’s absorption within the body.
Currently, there is no blood test to distinguish adequate or deficient chromium levels. Scientists are developing
tests to assess people’s chromium levels and evaluating the interaction between these levels and sugar
circulating in blood. The U.S. Patent and Trademark Office issued a patent to USDA in February 2004
(#6,689,383), which can be found at www.uspto.gov. The Department’s Office of Technology Transfer is
seeking U.S. companies interested in obtaining a license on the new compound and conducting clinical trials
associated with product safety and proper dosage.
Understanding America’s Food Choices—Combating obesity will require better knowledge of why
people make the food choices they do. This fight also will necessitate potential policy interventions designed to
influence choices. USDA published Low-Income Households Expenditures on Fruits and Vegetables. While
increases in income result in more fruit and vegetable purchases in higher-income households, these same
increases in low-income households result in the purchase of other products. Another study found that while the
consumption of salty snacks would fall if a tax were imposed specifically on them, this decrease would be
smaller in percentage terms than the size of the tax.
Improving Food Choices of People Who Use Food Stamps—Ohio State University operates the
Family Nutrition Program (FNP) for food stamp program participants in 74 of the State’s 88 counties. In
FY 2004, it reached 91,672 people in programs covering nutrition, food shopping and budgeting, meal
management, and food safety. Fourteen percent of participants began using the recommended practices they
learned. Additionally, 70 percent learned new information and 44 percent planned to make recommended
changes. Of the 15,252 people attending the shopping/budgeting presentation, 24 percent began using
recommended practices.
Improved Peanuts Reduce Serum Cholesterol—The Sun Oleic 97R peanut, developed at the University
of Florida Institute of Food and Agricultural Sciences with partial support from USDA, surpasses olive oil in
cholesterol lowering properties. This hybrid peanut offers growers 10-to-14 percent better yields than the
industry standard. It also offers manufacturers and retailers a 3-to-15-fold increase in product shelf life. The
peanut is being touted for its health-promoting qualities. A University of Florida nutrition study showed that the
new peanut, in conjunction with a low-fat diet, helped reduce coronary-risk factors by lowering blood-
cholesterol levels in postmenopausal women.
Enhancing Production of Health-Promoting Soy Isoflavones—South Dakota State University
scientists supported by USDA discovered that soybean isoflavone levels vary significantly across the country.
Isoflavone is a nutrient found chiefly in soybeans. The scientists discovered that isoflavone levels decrease
dramatically from the north to the south. They attributed the differences to soybean variety, crop year, location
and growth conditions. By determining why soybean isoflavone content fluctuates, it may be possible to create
a variety that features stable levels of this health-promoting phytochemical.

Serving the Public
Overweight and obesity soon will rival cigarette smoking as a leading cause of premature death and disability in
the U.S. Improved diets can help with weight management and reduce the risk of certain types of cancers and
type II diabetes, the most common form of the disease. USDA’s efforts focus on updating nutrition policy,
providing information and promoting behavioral changes that can reduce weight, obesity and other diet-related



 USDA
  86                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




health conditions. These actions hold the potential to improve the lives of millions of Americans and reduce the
social costs of these conditions.
Science has established strong links between diet and health. Researchers attribute about 300,000 premature
deaths annually to poor diets. The total costs attributed to being overweight and obese are estimated to be nearly
$120 billion annually. Even small improvements in the average diet would yield large health and economic
benefits to individuals and society as a whole.
To this end, the Department will continue promoting healthier eating and lifestyle behaviors as a vital public-
health issue. The Dietary Guidelines for Americans is the cornerstone of Federal nutrition guidance. Using the
new Guidelines, and guidance updated in 2004, USDA will continue its leadership role of providing advice on
patterns Americans can follow to improve overall health through proper nutrition.
In the same vein, the nutrition assistance programs managed by USDA touch the lives of one in five Americans
—an enormous opportunity to promote healthier behaviors. In 2004, the Department maintained its focus on
getting benefits to children and low-income people that contribute to a healthy diet, and the skills and
motivation to encourage healthy eating and increased physical activity.

Challenges for the Future
While USDA’s goal of reducing obesity levels begins with understanding what constitutes a healthy diet and the
appropriate balance of exercise, success ultimately requires individuals to change their diets by modifying their
eating behavior and increasing their physical activity. Crafting more effective messages and nutrition education
programs to help people make better food choices requires understanding their current choices and the
relationships between these choices and their attitudes, knowledge and awareness of diet/health links.
Accomplishing this understanding requires data that link behavior and consumption decisions for individuals of
various backgrounds, regions, ages and genders. While data exist on a national scale, current survey sample
sizes do not yield reliable information for population subgroups.
While updated Federal nutrition guidance is critical in helping Americans develop and maintain healthier diets
and lifestyles, using this guidance to motivate Americans to change remains a major challenge in light of the
limited resources available for nutrition promotion. USDA will continue to explore ways to devote significant
long-term resources to develop consumer-friendly and cost-effective nutrition education materials. These
materials will be used both within Federal nutrition assistance programs and with the general public.
More broadly, attaining performance outcomes in this area depends partly on the emphasis that the Nation
places on healthier eating, including products and practices in the food marketplace. Additionally, physical
activity and other lifestyle issues have a significant affect on body weight and health.

KEY OUTCOME: PROMOTE MORE HEALTHFUL EATING AND PHYSICAL ACTIVITY
             ACROSS THE NATION
USDA promotes healthful eating through its comprehensive nutrition research and education programs as well
as through the design of program food benefits. The nutrition research and education programs are targeted to
nutrition-assistance program participants and the general public. For each target audience, the challenge is to
find effective ways to translate research into working knowledge to understand what people eat. USDA assesses
its performance in promoting healthful eating and physical activity among low-income populations served by
the Federal nutrition-assistance programs. This is done by monitoring the Healthy Eating Index score (HEI).
HEI is a measure of diet quality developed by USDA’s Center for Nutrition Policy and Promotion. The
Department sets targets for improvement in the HEI both for the U.S. population as a whole and among people
with incomes at or below 130 percent of poverty. The Department also tracks and uses health data on
overweight and obesity.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               87
 ANNUAL PERFORMANCE REPORT




Exhibit 54: Promoting Healthier Eating Habits and Lifestyles

                                                                                      Fiscal Year 2004
                 Annual Performance Goals and Indicators                    Target         Actual        Result
 4.2.1   Healthy Eating Index (HEI) for:                                                                 Deferred
            People with incomes under 130% of Poverty (Mil)                 N/A            N/A
            The U.S. Population (Mil)                                       64.6           N/A


Analysis of Results
The measure has been deferred because data are unavailable. FY 2004 data will be available in 2006 and
reported in the FY 2006 Performance and Accountability Report. USDA continued efforts to promote
improvement in dietary practices for low-income people. In the development of Federal nutrition policy, the
Department successfully initiated updates to the Dietary Guidelines for Americans and the food guidance
system, helping to deliver up-to-date nutrition information and guidance to the American public. USDA also:
      Continued improvement of FSP nutrition education by drafting the Food Stamp Nutrition Education
         Policy Framework and posting it on its Web site for public comment. This effort ultimately will make
         the program more effective in educating and motivating Food Stamp Program eligibles to improve
         their diets;
      Provided technical assistance to State agencies or partners in the development of State Nutrition Action
         Plans (SNAPs), which will help State agencies better coordinate nutrition strategies across the
         programs that serve their people;
      Distributed more than 1.2 million Eat Smart, Play Hard nutrition education materials to schools, food
         stamp offices and others delivering nutrition assistance programs for use by the children and low-
         income people they serve;
      Announced the next phase in the review of the food guide by seeking public comment about its
         “Proposal for Food Guide Graphic Presentation and Consumer Education Materials.” This food guide,
         an educational tool, will interpret—and help Americans use—the revised Dietary Guidelines for
         Americans, scheduled for release in early 2005. When Americans follow this science-based
         information, they can enhance their nutritional well-being; and
      Introduced the Interactive Physical Activity Tool (IPAT), allowing consumers to assess their daily
         physical activity against expert recommendations. As an integral part of assessing their diet with the
         Interactive HEI, the IPAT encourages Americans to develop and maintain an active lifestyle. When
         combined with a nutritious diet, an active lifestyle promotes overall health and helps to reduce obesity
         and weight.
Exhibit 55: Trends in Promoting Healthier Eating Habits and Lifestyles

                                                                      Fiscal Year Actual
                    Trends                        2000         2001            2002          2003          2004
 Healthy Eating Index (HEI) for people with         62          N/A             N/A           N/A          N/A
 incomes under 130% of poverty (Mil)
 Healthy Eating Index for the U.S. population      63.8         N/A             N/A           N/A          N/A
 (Mil)


While data on trends in diet quality from 2001 to 2004 currently are unavailable, evidence from other sources
indicates that problems related to diet quality persist, both among low-income people and the general
population. USDA’s ongoing efforts during this period to promote behavior change, both through the nutrition
assistance programs and its nationwide nutrition policy and promotional efforts, have been focused on
motivating changes to reduce and prevent excessive weight gain and obesity.



 USDA
  88                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




KEY OUTCOME: INCREASE NUTRITION INFORMATION AVAILABLE TO THE PUBLIC
In 2004, USDA labs released three nutrient databases to the public. All are freely available at
www.nal.usda.gov/fnic/foodcomp/. The major release was the National Nutrient Database for Standard
Reference, which includes the most essential nutrients in foods commonly eaten in the U.S. As the American
diet changes, updates to this database are essential to know if the public can get adequate amounts of essential
nutrients. The database is available for use on personal digital assistants (PDA), personal computers and Web-
based applications. Availability in a variety of computer formats has increased the access and utilization of this
valuable national resource by the scientific community, private industry and the general public.
Two additional databases also were released in 2004:
      Choline in common foods; and
      Proanthocyanidins in fruits, vegetables and nuts.
Choline is a vitamin-like compound essential to the human diet. It is important for many cellular functions
including making new cell membranes and developing the memory. Proanthocyanidins are plant pigments that
function as antioxidants. Higher consumption is related to reduced risk of chronic diseases such as cancer and
heart disease.
In 2004, USDA released the new “What We Eat in America” survey. It is freely available at
www.barc.usda.gov/bhnrc/foodsurvey/home.html. This release represents the first year of full integration of two
nationwide dietary intake surveys—the Continuing Survey of Food Intakes by Individuals (CSFII) conducted
by USDA and the National Health and Nutrition Examination Survey (NHANES) conducted by the U.S.
Department of Health and Human Services (HHS). The database contains nutrient values and typical food
portion weights for foods commonly eaten by Americans. It has been applied to the USDA’s Healthy Eating
Index and Pyramid Servings Database. These are available to the public on food packages, in advertising, and
through the Web for self-evaluation of diets at http://www.cnpp.usda.gov/healthyeating.html. This continuing
nationwide survey provides essential information on foods and nutrients consumed by Americans.
Exhibit 56: Provide Nutrition Information

                                                                                   Fiscal Year 2004
                Annual Performance Goals and Indicators                   Target        Actual         Result
    4.2.2   Determine food consumption patterns of Americans and                                      Exceeded
            provide sound scientific analyses of the U.S. food
            consumption information to enhance the effectiveness and
            management of the Nation’s domestic food and nutrition
            assistance program
               Number of reports from the USDA Food and Nutrient           4             7
                Database


Analysis of Results
In 2004, USDA scientists reported significant new findings on a variety of nutrition issues related to health
promotion with a special focus on preventing obesity. They identified dietary patterns associated with adverse
weight gain. This finding indicated that adults with wider waistlines ate more meat and potatoes or white bread.
The scientists also found that fast-food consumption by children tends to be associated with lower dietary-
nutritional quality and excess caloric intake. These findings, derived from the “What We Eat in America”
survey, help determine eating patterns for healthy body-weight maintenance.
For intervention strategies aimed at individuals who need to lose weight, USDA scientists determined that one-
third of obese women who diet recurrently and have a restrained dietary pattern have marked bone loss. This
finding counters the general belief that obese women have normal or high bone density. This knowledge is
critical in designing effective weight-loss plans to minimize bone loss in women at risk for osteoporosis.




                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                   89
 ANNUAL PERFORMANCE REPORT




USDA exceeded its target in FY 2004 primarily as a result of publishing two databases on previously
unavailable minor components of foods. These one-of-a-kind databases are used widely by scientists, the food
industry and the public. They are considered the definitive reference source in evaluating the healthfulness of
foods. These databases are unique assets that exist nowhere else. Private companies often use the data to
produce diet-analysis software. That software is used to produce interactive Web sites at which the public can
analyze individual foods, a recipe or diets. Additionally, the public can download applications and nutrient data
for personal computers and PDAs free of charge. These latter applications earned a Special Service Award from
the Secretary.
Exhibit 57: Trends in Determining Food Consumption Patterns

                                                                             Fiscal Year Actual
                        Trends                            2000        2001           2002         2003   2004
 Number of reports from the USDA Food and Nutrient         6            4             5            4       7
 Database                                               Baseline


USDA scientists have enhanced significantly the public’s knowledge of dietary intervention in 2004. This
allows consumers in America to maintain and improve health, be aware of the types and amounts of foods they
should eat and know the nutrients they consume in those foods. All of this focuses on being better able to make
dietary choices that can improve the health of the Nation.

OBJECTIVE 4.3: IMPROVE FOOD PROGRAM MANAGEMENT AND CUSTOMER
SERVICE

Exhibit 58: Resources Dedicated to Improving Food Program Management and Customer Service

                                                                             FY 2004
                 USDA Resources Dedicated to Objective 4.3         Actual        Percent of Goal 1
                Program Obligations ($ Mil)                        $134.5           Less than 1%
                Staff Years                                        1,171                  42%


Introduction
USDA is committed to ensuring that nutrition assistance programs serve those in need at the lowest possible
costs and with a high level of customer service. Managing Federal funds for nutrition assistance effectively,
including prevention of program error and fraud, is a key component of the President’s Management Agenda.
USDA focused on maintaining strong performance with the food stamp payment-accuracy rate as its key
performance goal in this area.

Overview
USDA continued to improve management by reducing program errors and continuing its use of electronic
technology to enhance customer service. The Department achieved a critical goal in FY 2004 by completing,
with its State agency and retailer partners, the nationwide implementation of electronic benefit transfer (EBT)
for the delivery of food stamp benefits. EBT uses debit card technology to allow FSP recipients to use their
benefits to purchase food, eliminating the need for paper coupons. It improves convenience for recipients while
also making new tools available to identify and take action against program abuse—a “win-win” for good
management and customer service.
While FY 2004 results of collaborative efforts between States and USDA to improve payment accuracy are
unavailable, the FY 2003 payment error rate fell to a new record low of 6.64 percent.




 USDA
  90                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




Selected Results in Research, Extension and Statistics
Women, Infants and Children (WIC) and the Supermarket Retail Prices for Infant Formula—
WIC provides food, nutrition counseling and access to health services to low-income women, infants and
children. Rebates from infant-formula manufacturers to State WIC agencies support more than one-quarter of
all WIC participants. Despite these moves, concerns have been raised that WIC and its infant-formula rebate
program may impact prices faced by non-WIC consumers. USDA conducted the most comprehensive national
study to date on retail infant-formula prices. The study showed that, for a given set of wholesale prices, WIC
and its infant-formula rebate program resulted in modest increases in the supermarket price of the product. This
increase is especially true in States with a high percentage of WIC formula-fed infants.
Understanding the Nation’s Food Assistance Programs—Several important studies were completed
that provide policymakers, program agencies and others with information to improve USDA food assistance
programs. Research on program dynamics and administration examined changes over time in families’ income
and FSP participation. The research found that monthly incomes of households receiving food stamps varied
much less than households that were eligible but not participating. USDA also continued to publish “The Food
Assistance Landscape,” a semi-annual periodical that highlights recent research on USDA’s food assistance
programs and contains important and up-to-date program statistics and economic indicators that affect program
participation and expenditures. “The Food Assistance Landscape” helps policy officials better understand
program operations, target populations and the economic and policy environment in which the programs
operate.

Serving the Public
USDA’s continued focus on improving nutrition-assistance program management and customer service reflects
its long-term core commitment to prevent waste, inefficiency and abuse. The sheer size of these programs
demands that the utmost attention be given to applying efficient management practices and, to the extent
possible, preventing errors in distributing benefits. Deficiencies in customer service undermine the effectiveness
of the programs in reaching clients with the benefits they need. Maintaining public trust in Federal nutrition-
assistance programs is vital to their success and continued support.

Challenges for the Future
Some erroneous and improper payment problems are inherent to the legislatively mandated program structure.
This structure is intended to serve people in special circumstances and settings. USDA must shape its
management approach in light of the need to make services convenient and accessible to participants.
Additionally, State and local Governments bear direct responsibility for delivering the programs. The
Department must address erroneous and improper payment problems through monitoring and technical
assistance. This approach requires adequate numbers of trained staff supported by a modernized information
technology infrastructure to ensure full compliance with national program standards, and prevents or minimizes
error, waste and abuse.
To meet the challenge of continued improvements in payment accuracy in the Food Stamp Program (FSP),
USDA continues to dedicate resources to this area. Despite this, two significant challenges will impact future
success. Congressional action has changed the quality-control process, lowering the risk of penalties for poor
State agency performance. It remains to be seen how States will react to these changes. Additionally, State
budgets have been and will continue to be extremely tight. This factor could hurt State performance in the
payment-accuracy arena. USDA will continue to provide technical assistance and support to maintain payment
accuracy in the context of this changing program environment.

KEY OUTCOME: MAINTAIN A HIGH LEVEL OF INTEGRITY IN THE NUTRITION ASSISTANCE
             PROGRAMS.
While 2004 data are unavailable, the food stamp payment accuracy rate has increased over the past several
years and reached a record high in 2003. This record likely reflects both changes in the definition of program
error as well as the sharing of best practices among states for improving payment accuracy.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               91
 ANNUAL PERFORMANCE REPORT




Exhibit 59: Increase Efficiency in Food Management

                                                                                      Fiscal Year 2004
                Annual Performance Goals and Indicators                      Target        Actual        Result
 4.3.1   Improve Food Program Management and Customer Service                                            Deferred
            Increase Food Stamp Payment Accuracy Rate                       92.2%            N/A


Analysis of Results
The FY 2004 Food Stamp Payment Accuracy Rate will become available in June 2005 and be reported in the
FY 2005 Performance and Accountability Report.
The FY 2003 Food Stamp Payment Accuracy rate was a record high 93.36 percent. The corresponding national
error rate was 6.64 percent. This reflects a combination of 5.05 percent in benefit overpayments, and 1.59
percent in benefit underpayments. Twenty-one State agencies, including Texas and New York, achieved a
payment error rate less than 6 percent. California, with a rate of 7.96 percent, showed a marked improvement
over FY 2002’s error rate of 14.84 percent. Eleven State agencies experienced a high enough error rate to be
subject to sanctions if they do not improve in FY 2004.
USDA efforts such as the Partner Web (an intranet for State Food Stamp agencies) and the National Payment
Accuracy Workgroup (consisting of representatives from USDA headquarters and regional offices) contributed
significantly to this success. It made timely and useful payment accuracy-related information and tools available
across regions and States. Additionally, the Department continued to use an early detection system to target
States that may be experiencing a higher incidence of errors based on preliminary Quality Control (QC) data.
In the FY 2003 Performance and Accountability Report, the measure was deferred. The target of 93.4 percent
was met.
Exhibit 60: Trends in Increase Efficiency in Food Management


                                                                        Fiscal Year Actual
                    Trends                        2000          2001         2002            2003         2004
                                                 91.1%        91.3%         91.7%            93.4%         N/A
 Increase Food Stamp Payment Accuracy Rate
                                                             Baseline


USDA’s close working relationship with its State partners over the last several years, along with program
changes to simplify rules and reduce the potential for error, has resulted in consistent increases in the Food
Stamp Payment Accuracy rate. The most important factor in maintaining improved performance in this area is
the need for State partners to continue and renew their commitment to utilize findings from the quality control
system. To support State improvement, USDA will continue efforts with the National Payment Accuracy Work
Group to share best practice methods and strategies. USDA also will continue to resolve QC liabilities through
settlements, which require States to invest in specific program improvements.

STRATEGIC GOAL 5: PROTECT AND ENHANCE THE NATION’S
NATURAL RESOURCE BASE AND ENVIRONMENT
The United States Department of Agriculture (USDA) continues to implement the President’s Healthy Forest
Initiative (HFI), in cooperation with the U.S. Department of the Interior (DOI) and non-Federal partners. HFI
was developed in response to unhealthy conditions on America’s public lands due to the suppression of fires
and a lack of active forest and rangeland management during the last century. The initiative has amended
regulatory processes to ensure more timely decisions and greater efficiency. This includes:
      Improving procedures for developing and implementing fuels treatment and forest restoration projects
          in priority forests and rangelands, in collaboration with local Governments;


 USDA
  92                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




        Reducing the number of overlapping environmental reviews by combining projects analysis and
         establishing a process for concurrent project clearance by Federal agencies;
        Developing guidance for weighing the short-term risks against the long-term benefits of fuels
         treatment and restoration projects; and
        Developing guidance to ensure consistent NEPA procedures for fuels treatment activities and
         restoration activities, including developent of a model Environmental Assessment for these types of
         projects.
USDA worked with DOI and Congress in a bipartisan effort to protect America’s forests with passage of the
Healthy Forest Restoration Act (HFRA). HFRA strengthens public participation in developing high-priority
forest health projects and reduces the complexity of environmental planning allowing Federal land agencies to
use the best science and methods available to manage land under their stewardship. It also provides a more
effective appeals process encouraging early public participation in project planning, and issues clear guidance
for courts when reviewing litigation concerning forest health projects.
An interim field guide was released jointly with DOI implementing these new tools and authorities. Training
sessions were conducted to increase the understanding of USDA field employees in their use. The field guide
will improve the analysis of certain forest and rangeland restoration projects. Specifically, projects that already
have been determined necessary by States, tribes and local communities will qualify for expedited National
Environmental Policy Act review. To qualify, the projects must occur on one or more of the following types of
areas:
      At-risk communities in the wildland-urban interface;
      High-risk municipal watersheds;
      Areas that provide habitat for threatened and endangered species; and
      Areas susceptible to insect infestation or disease epidemics.
Management tools provided by the HFI and HFRA enable land managers to reduce the risk of wildland fire to
communities and forest resources. Decades of fire exclusion have allowed excess vegetation to crowd forest
stands. The crowding makes them more susceptible to uncontrollable fires and pests, degrading wildlife habitat
and reducing water yield and timber productivity. USDA and DOI have developed the concept of fire regime
condition class as an indicator for the degree to which changes in vegetation have increased the likelihood of
forest areas to burn catastrophically. Using streamlined procedures to remove excess vegetation more efficiently
can reduce the likelihood of dangerous fire behavior while restoring wildlife habitat, tree resistance to insects
and disease, water flows, and the production of quality timber. Interdisciplinary teams of USDA specialists talk
to communities when designing vegetation management actions to ensure that forest restoration projects enjoy a
high level of public involvement and support. USDA also is working closely with DOI to develop performance
measures to track the effectiveness of collaboration with local communities and activities that restore fire-
adapted ecosystems.
The ecological functions of public lands are put at risk when excessive concentration of hazardous substances or
toxic metals are present, as are the health and safety, of those working there or visiting. In FY 2004, USDA’s
ongoing environmental cleanup program reduced or eliminated environmental contamination on more than 20
sites. One of these cleanups resulted in the lifting of a fish-consumption warning. Another kept toxic metals-
laden mining wastes from entering a salmon stream after a forest fire made the site highly erodible. A third
removed 10,000 tons of soil contaminated by polychlorinated biphynyls (PCB).
In addition to this workload, the Department has devoted much effort to providing conservation leadership,
technical assistance and financial assistance to the conservation of private lands through new and existing
programs. USDA has accomplished much including:
      Allocated $5.2 billion for programs designed to improve forest and rangeland management, create
         healthier landscapes and reduce the risk of catastrophic fire;




                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 93
 ANNUAL PERFORMANCE REPORT




        Helped develop more than 143,000 conservation plans through the Conservation Technical Assistance
         program, USDA’s basic program for conservation of private lands;
        Designated $84 million to protect farm and ranch land through USDA’s Farm and Ranch Lands
         Protection Program (FRPP). FRPP is designed to protect productive agricultural land by purchasing
         conservation easements to limit conversion of farm and ranch lands to non-agricultural uses;
        Provided $69.4 million to landowners through the Grassland Reserve Program, which enables
         recipients to protect, restore and enhance grasslands on their property;
        Provided nearly $32 million through the Environmental Quality Incentives Program (EQIP) to help
         farmers and ranchers with limited resources develop and maintain economic viability in their farm
         operations. EQIP is a voluntary program that offers financial and technical assistance to farmers and
         ranchers who face threats to soil, water, air and related natural resources on their land;
        Provided $15.5 million to address halt the spread of Phytophthora ramorum, or sudden oak death, to
         non-infested areas of the U.S. Sudden oak death is caused by a fungus and attacks trees and shrubs;
        Implemented Conservation Innovation Grants Program providing $14.25 million to fund the
         development and adoption of innovative technologies and approaches through pilot projects and
         conservation field trials; and
        Launched the Conseration Security Program providing $41 million in financial and technical assistance
         to 2,200 farmers and ranchers in 18 watershed in 22 states promoting the conservation and
         improvement of soil, water, air, energy, plant and animal life, and other conservation efforts.

OBJECTIVE 5.1: IMPLEMENT THE PRESIDENT’S HEALTHY FORESTS INITIATIVE
AND OTHER ACTIONS TO IMPROVE MANAGEMENT OF PUBLIC LANDS


Exhibit 61: Resources Dedicated to Protect the Nation’s Resource Base and Environment

                                                                              FY 2004
                USDA Resources Dedicated to Objective 5.1          Actual         Percent of Goal 5
               Program Obligations ($ Mil)                         $5,320.4             58%
               Staff Years                                         38,266               70%


Introduction
USDA and DOI are aggressively implementing tools provided by the Healthy Forests Initiative (HFI) and
authorities provided by HFRA. USDA, in collaboration with the U.S. Bureau of Land Management, now is
using HFRA authorities to expedite planning for projects to reduce fire hazards. These projects largely consist
of the removal of excess vegetation or controlled burning (collectively, hazardous fuel treatment) to reduce the
risk from catastrophic wildfires that in 2004 alone burned more than 7 million acres. The integration of the fire
hazard reduction program with other restoration programs and the overall increase in hazardous fuel treatment
is the direct result of HFRA authorities and USDA leadership. USDA will continue to treat hazardous fuel as
the primary method of protecting the Nation’s natural base from wildland fire.

Overview
USDA is implementing HFI and HFRA through collaboration among Federal, State and local Governments, and
non-Governmental organizations. The Department is using HFRA authorities to work with communities to
develop Community Wildfire Protection Plans (CWPP) that reduce wildland fire hazard in areas surrounding
communities. USDA’s partners also are engaged in this process. The Western Governors’ Association, the
National Association of Counties, the Society of American Foresters, and the National Association of State
Foresters (NASF) compiled the handbook Preparing a Community Wildfire Protection Plan to educate




 USDA
  94                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




communities about wildfire hazard mitigation and to organize communities to draft these plans and track
accomplishments.
Other 2004 accomplishments include:
     More than 76 percent of the hazardous fuel treatments occurred in areas located near communities;
     Fuels reduction efforts significantly increased from 1.4 million acres in 2003 to 2.3 million acres in
        2004 due to a streamlined procedures and a focused USDA commitment;
     Using authority provided under Title IV of HFRA, USDA currently has six landscape-scale research
        projects that are planned on nearly 3,000 acres. The purpose of these projects is to conduct landscape-
        scale applied research to address insect infestations and diseases; and
     Continued development of LandFire, an interagency landscape-scale fire, ecosystem and vegetation-
        mapping project. The information provided in LandFire will help land managers make informed
        decisions for reducing wildland fire risks across landscapes.

Selected Results in Research, Extension and Statistics
Effects of Changes in Fuel Structure on Fire Behavior—A major goal of both the National Fire Plan
and the Healthy Forests Initiative is to reduce the potential for uncharacteristically severe fires by decreasing the
levels of hazardous fuels, with a focus on forest ecosystems that were characterized historically by frequent,
low-severity fires. The effectiveness and effects of various fuel treatments for restoring dry forests in the
Western United States are summarized in a state-of-knowledge synthesis paper, which provides important
guidance for hazard reduction activities. Major conclusions include:
     Fire behavior is strongly influenced by fuel structure and composition;
     Reducing surface and ladder fuels can decrease fire severity and the probability of crown fire
          substantially;
     A landscape approach is more likely to have significant overall impacts on fire behavior and
          suppression capability than an approach that treats individual stands in isolation.
Utilization of Forest Biomass—Important considerations in hazardous fuel reduction include developing
practical methods for harvesting and using harvested biomass, and tools for evaluating the economics of
biomass utilization. Forest Service (FS) researchers have developed several models to help managers and policy
makers understand the potential to use fire hazard reduction treatments to meet energy needs, and to evaluate
the economics of biomass utilization. The Fuel Treatment Evaluator is a Web-based tool to help assess the
biomass potential from forests. This tool allows users to identify and prioritize hazardous fuel reduction
opportunities in forests based on forest condition, the need for thinning and proximity to the wildland-urban
interface. Research evaluation of a new biomass bundling machine indicates that it can be a cost-effective forest
management tool, which reduces fire risk, avoids prescribed fire limitations, improves storage life of residues
and improves the recovery of biomass for utilization. Researchers also are working with business owners to
help promote local uses of small diameter lumber.
Study Reveals Cause of Disease in Beneficial Insects—The mystery behind the decline of beneficial
biocontrol weevils that help control the invasive weed water hyacinth in Florida has been solved by USDA
scientists. They found that a microorganism is killing the weevils and reducing their reproductive capacity. The
two closely related South American weevils have been used since the 1970s to control water hyacinth. Water
hyacinth is an aquatic weed that clogs waterways, displaces native vegetation and degrades wildlife habitats in
Florida. The weevils are mass-reared and, once released, feed on the weed and help prevent it from spreading.
Recently, the weevils’ effectiveness had been declining for unknown reasons. The scientists attributed the
decline to a disease caused by the microorganism microsporidium. Tests determined that a recently discovered,
still unnamed, microsporidium was decreasing weevil survival rates by 30 percent and reducing their
reproductive capacity. The study’s findings demonstrate the importance of selecting disease-free organisms for
biological control programs. If it is determined to be economically practical to treat weevil colonies, researchers
will work at developing a method to cure them of the disease.



                                                                                                            USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  95
 ANNUAL PERFORMANCE REPORT




Forest Carbon Dioxide Sequestration— University of Wisconsin-Madison forest ecologists and USDA
scientists are conducting a unique outdoor study on land in northern Wisconsin. The research reveals how
increases in carbon dioxide and ozone impact forests and global climate change. Scientists are studying how
quaking aspen, paper birch and sugar maple – major components of forests that cover much of the Northeast
U.S. – respond to the levels of carbon dioxide and ozone expected by 2050. The initial results show that aspen
and birch grew 20 percent to 28 percent faster with elevated carbon dioxide than they did in the reference area.
In contrast, adding just ozone decreased aspen and birch growth by 20 percent to 26 percent, and the gas’
combined effects on growth offset each other when both are elevated. The results suggest that these trees will
not slow the rising carbon dioxide level unless ozone pollution is controlled.

Serving the Public
Hazardous fuel reduction treatments help protect life and property by reducing the intensity of wildland fires. In
recent years, the U.S. has consistently experienced some of the worst wildfire seasons on record. In 2002,
wildland fires burned 7.2 million acres, nearly double the 10-year average. In southern California’s “October
2003 Fire Siege,” more than 750,000 acres erupted in flames, claiming 24 lives and destroying 3,710 homes.
This ongoing trend of catastrophic wildfire seasons indicates that the USDA, along with all other land-
management agencies, must increase efforts to reduce fire hazards using hazardous fuels funds. Reduction of
excess vegetation decreases fire hazards while also improving firefighter and public safety. In 2004, USDA
treated 2.5 million acres to remove excess vegetation. Approximately 1.7 million of these acres were treated
specifically to reduce fire hazardous fuels funds. An additional 700,000 acres were treated using other
restoration and rehabilitation programs (i.e., wildlife habitat, watershed, timber and pest management that also
reduced fire hazards). To maintain this level of accomplishment in 2005 and reduce the risk of future
catastrophic wildland fires, USDA must use available resources to work collaboratively with all Federal, State
and local entities.

Challenges for the Future
Future challenges include ensuring public and firefighter safety while protecting lands, which still are
threatened by fire in forests dense with vegetation and fuel. Additional challenges are the continued drought
conditions in many western states and the expansion of communities into previously uninhabited wildlands (the
wildland-urban interface). While the number of USDA-managed acres impacted by wildland fire fell
dramatically from 2003 to 2004 by 900,000 acres, the historical trend is for increasing impact from wildland
fire. As drought continues and communities expand into forested areas, the potential increases for even more
deadly and damaging fires. Other challenges include the cost of containing wildfires.
Existing hazardous fuel treatment performance currently is based on outputs of acres treated and the number of
acres treated as result of local collaboration. The Office of Management and Budget (OMB) Performance
Assessment Rating Tool (PART) determined in 2002 that the Wildland Fire Management Program did not
demonstrate results based on lack of baselines and targets for recently created performance measures developed
as a result of the “10-year Comprehensive Strategy for the National Fire Plan.” Research has shown that
treatments to remove excess vegetation for fire and restoration purposes can impact the size and behavior of
wildland fires dramatically. The current performance measures for hazardous fuel treatment do not capture the
results of treatments on the landscape. They track acres treated as an output measure. USDA and DOI recognize
the need to develop a new performance measure that demonstrates the impact of treatments beyond the direct
area treated. This new performance measure is being developed as part of a pilot process to prioritize treatments
for hazardous fuel reduction and restoration of fire-adapted ecosystems at the landscape scale. For more
information on the PART, visit www.whitehouse.gov/omb/budget/fy2004/pma/usdawildlandfire.pdf.
Recent research has identified 73 million acres administered by USDA and 59 million acres of privately-owned
forest land at high risk of ecologically destructive wildland fire. Commercial utilization of excess vegetation has
been identified as one way to lower the cost of Government forest fuel-reduction treatments through
cooperation with private enterprise. A barrier to expanding forest biomass utilization is the limited market for
this material because of reduced forest products processing capacity in much of the Western U.S. Much of this
material is small diameter and non-traditional species. This factor presents a further barrier to utilization where
forest products processing capacity remains. Title II of HFRA authorizes measures to further commercial use of


 USDA
  96                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                   ANNUAL PERFORMANCE REPORT




biomass. A significant challenge for USDA and DOI is to expand the acreage of hazardous fuel and restoration
treatments with available funding by increasing the commercial utilization of hazardous fuel. USDA and DOI
hope to promote the increased use of biomass as a domestic source of energy, and are developing a strategy to
encourage biomass utilization.

KEY OUTCOME: REDUCE THE RISK FROM CATASTROPHIC WILDLAND FIRE
Implementing the President’s Healthy Forest Initiative and other actions to improve management of public
lands involves the integration of several key USDA programs that manage vegetation. The hazardous fuel
reduction program is a key piece of the effort to implement HFI and HFRA. Strategically placed treatments by
USDA and partners will continue to increase the Department’s ability to protect communities by reducing fire
size and altering fire behavior.
Exhibit 62: Hazardous Fuel Reduction

                                                                                                Fiscal Year 2004
                Annual Performance Goals and Indicators                             Target           Actual           Result
 5.1.1    Number of acres of hazardous fuel treated that are in the               1,000,000         1,736,000       Exceeded
          wildland urban interface (WUI).
 5.1.2    Number of acres of hazardous fuel treated that are in Condition          259,000             531,000      Exceeded
          Classes 2 or 3 in Fire Regimes 1, 2, or 3 outside the wildland
                                 1
          urban interface (WUI).
 1
     Fire regime condition class is an indicator for the degree of departure of forest areas from historical vegetation and
     disturbance patterns.

Analysis of Results
USDA exceeded its 2004 performance goals for protecting the health of the Nation’s forests and other public
lands through aggressive pro-active efforts. These increased efforts have significant value to all Americans.
They protect human life and whole communities that reside in areas adjacent to national forests and other public
lands. The 2.3 million acres treated in FY 2004 exceed the Department’s FY 2004 goal by more than 80
percent. Improved management tools and favorable weather conditions allowed teams to treat significantly
more at-risk acreage. Overall accomplishment for hazardous fuel treatments increased 61 percent from 1.4
million acres in FY 2003 to 2.3 million acres in FY 2004. The increase in accomplishment above the FY 2004
target also resulted from improvements in fire regime condition class that protect communities and resources
from wildland fire on 636,000 acres due to activities to restore forest health, wildfire habitat, watershed
condition, and timber productivity in fire-adapted ecosystems.
In FY 2005, USDA plans to reduce fire hazard on 1.8 million acres using direct funding, and on an additional
700,000 acres as a secondary benefit from other management activities. The USDA Strategic Plan proposes that
the Department treat 11 million cumulative acres by FY 2007. The successes of FY 2004 moved USDA well on
its way toward meeting this goal.
Exhibit 63: Trends in Treatment of Hazardous Fuel


                                                                                  Fiscal Year Actual
                     Trends                               2000          2001           2002             2003            2004
 Number of acres of hazardous fuel treated that           N/A          611,551        764,364        1,114,106        1,736,000
 are in the WUI.                                                       Baseline
 Number of acres of hazardous fuel treated that           N/A            N/A            N/A            293,127         531,000
 are in Condition Classes 2 or 3 in Fire Regimes                                                       Baseline
 1, 2, or 3 outside the WUI.


USDA tracked hazardous fuel treatment with a single performance measure for all treatment activities prior to
FY 2001 and initiation of the National Fire Plan. In FY 2001, USDA began to track fire hazard reduction in the
wildland-urban interface (WUI). In FY 2003, an additional performance measure based on fire regime condition


                                                                                                                         USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                               97
 ANNUAL PERFORMANCE REPORT




class was established to track treatment on forests more susceptible to catastrophic wildland fire because of
excess vegetation resulting from fire exclusion. Performance in FY 2004 includes the contribution of improved
fire regime condition class resulting from resource restoration activities, in addition to direct hazardous fuel
reduction treatments.
Management Challenge
The USDA Office of Inspector General has identified the FS internal control structure as a management
challenge. (Appendix A contains the Office of the Inspector General’s report on USDA’s major management
challenges.) In response to this challenge, FS is planning to:
     Develop and implement a national schedule of internal program reviews for FY 2005 and FY 2006 that
        ensures high priority, agency-wide issues are addressed;
     Conduct comprehensive risk assessments for FS programs and develop plans to address identified
        risks;
     Provide consolidated report of review findings to USDA by July 31, 2005, and develop a process to
        monitor actions to address “significant” review findings;
     Conduct annual reviews/analyses to ensure funding is spent as intended for higher priority agency
        programs (e.g., National Fire Plan, fire rehabilitation program); and
     Continue making progress towards implementing the agency-wide, comprehensive, Performance
        Accountability System, thereby improving implementation of the Government Performance and
        Results Act of 1993 (GPRA).

OBJECTIVE 5.2: IMPROVE MANAGEMENT OF PRIVATE LANDS

Exhibit 64: Resources Dedicated to Improving Management of Private Lands



              USDA Resources Dedicated to Objective 5.2               FY 2004 Actual       Percent of Goal 5
        Program Obligations ($ Mil)                                      $3,834.2                42%
        Staff Years                                                       16,407                 30%


Introduction
Non-Federal land makes up almost 70 percent of the total area of the U.S. The vast majority of that land is
privately owned cropland, rangeland, pastureland and forestland. Millions of individuals are responsible for
making decisions on the use and management of those lands. Their decisions form the foundation of a
substantial and vibrant agricultural economy that provides food and fiber for the Nation. The productive and
sustainable use of natural resources or private lands, therefore, is a vital goal for the nation. Achieving the dual
goals of a productive and profitable agricultural sector and a high-quality environment requires good
management based on sound science and practical technology. Good management helps sustain the productive
capacity of these important agricultural lands. In 2004, USDA helped producers develop conservation plans for
35.5 million acres, providing producers with a management tool to know the capability of their soils, condition
of their rangeland and woodlands, and requirements for irrigation. This provides the land user with the
knowledge on how best to use the land to continue supporting healthy plant, animal and human communities.
USDA’s most recent inventory of resource conditions on non-Federal lands indicated that progress in
controlling erosion is being maintained and that the loss of wetlands has been halted. USDA’s technical
assistance to agricultural producers has been key in helping them address both these resource concerns.




 USDA
   98                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       ANNUAL PERFORMANCE REPORT




Overview
USDA helps farmers and ranchers improve their management of the soil, water and related resources on non-
Federal lands. In 2004, the Department worked with natural resource managers to maintain and improve land
productivity and environmental quality by providing:
     Technical assistance tailored to the needs of individual farmers and ranchers;
     Financial assistance in the form of cost shares and incentive payments to apply key practices on
         working land; and
     Easements and rental payments to protect sensitive land.
USDA also provides technical and financial assistance to State agencies to help non-industrial private forest
landowners better manage, protect and utilize their forest resources. Additionally, USDA provides research,
technology development, resources inventory and assessment programs. These USDA activities provide the
information and effective tools resource managers need to be good stewards of the Nation’s land and water.
In 2004, the Department provided technical assistance to hundreds of thousands of producers in planning and
applying conservation to better manage their soil and water resources. The Department’s assistance helped
managers of private lands maintain soil quality, protects water and air quality, and enhance wildlife habitat.

Selected Results in Research, Extension and Statistics
New Method Can Boost Yields, Lower Fertilizer Use—Grain crop farmers who need to know how
much nitrogen fertilizer to apply to the soil could save money and protect the environment. This is being made
possible by a fertilizer-application method recently developed by USDA scientists and cooperators at the
University of Missouri-Columbia. Grain farmers usually use the “yield-goal” method to determine how much
nitrogen to use based on the estimated yield. The researchers have completed a large-scale study on corn
showing that farmers who use this method may be losing per-acre profit and using too much nitrogen. Yield
was found to be a poor predictor of how much nitrogen was needed because it is hard to determine the season’s
yield months before harvest. Additionally, the method does not consider changes in weather or the soil
variability within fields. Using new methods, the researchers found that yield only accounts for about 15 percent
of what is known as corn’s “economically optimal nitrogen fertilizer rate (EONR).” It was discovered that, if
farmers could grow corn knowing the EONR and how it varies within fields, on average they could make $15
more per acre, than if they allocated fertilizer by the yield-goal formula. This figure excludes costs associated
with determining EONR and variable-rate fertilizer application. This increase in profit would come from both
higher yields and less fertilizer.
Old Soil Study Uncovers Value of Long-term Nitrate Research—A second look at a USDA
experiment completed nearly 30 years ago demonstrated that short-term studies cannot reveal the value of
conservation efforts to correct such problems as the contamination of soil and groundwater by nitrates. USDA
soil scientists found that nitrate applied during the experiment, conducted between 1969 and 1974, apparently
took nearly 30 years to move through soils and reach a 70-foot-deep water table. In the original study,
conducted on a 74-acre field in western Iowa, fertilizer was applied to soil at three times the normal rate. The
resulting soil nitrate concentration was tracked for the next decade. In 1996, USDA scientists were preparing to
monitor groundwater for a new experiment when they detected the nitrate from the old experiment 60 feet deep
in the soil. Leaching of nitrate from agricultural fertilizers has been linked to such concerns as drinking-water
quality and hypoxia, a condition in which water bodies contain low oxygen amounts. While farmers are being
encouraged to use nitrogen more efficiently, resulting environmental improvements have been difficult to
document using studies lasting just two to four years. These new findings indicate that the benefits of
application of a conservation practice within a watershed may not be apparent for several decades. Efforts to
determine the cost-effectiveness of public conservation programs must take this into account.
USDA’s Gentle, But Tough, Termiticide Now Patented—USDA scientists have patented a new toxic
bait that is tasty to termites but designed to eradicate them. Formosan subterranean termites alone cost
Americans about $1 billion annually in control and repair costs. The new termiticide contains low
concentrations of naphthalene, a solvent commonly used in mothballs. USDA researchers have found that, even



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               99
 ANNUAL PERFORMANCE REPORT




at low doses, the termiticide helps control native Eastern subterranean termites as well as the more notorious
Formosan subterranean termite. The researchers were seeking replacements for wood preservatives that contain
heavy metals, such as arsenic, chromium and copper. Their research found that certain naphthalenic compounds
prevented wood decay and killed native termite colonies. USDA incorporated the naphthalenic compounds into
a cellulose-based matrix, slow-acting toxic bait that appeals to termites’ taste buds, which encourages wider
distribution throughout the colony. Because they are effective at low doses, the termite-killing compounds are
both environmentally friendly and cost-effective.
Water Treatment Residues Curb Phosphorus Runoff—Residue from water-treatment plants, often
discarded as waste into landfills, may instead provide an effective means of preventing phosphorus runoff from
farms. USDA scientists are studying an alum-based water treatment residual that increases the soil’s capacity to
bond phosphorus, a vital plant nutrient. The studies may especially benefit States along the mid- to-southern-
Atlantic seaboard. In these regions, sandy soils generally absorb and hold less phosphorus. Increased absorption
of phosphorus would curb runoff of this important nutrient. Phosphorus runoff can lower the oxygen content of
water bodies and spoil the taste of drinking water. Applying this residue would be especially useful for livestock
operators. Phosphorus in manure makes agricultural facilities, such as large livestock production operations,
potential sources of runoff pollution.
Environmental Compliance—In 2004, USDA released a report on environmental mechanisms,
Environmental Compliance in Agriculture: Past Performance and Future Potential. Since 1985, U.S.
agricultural producers have been required to practice soil conservation on highly erodible cropland and conserve
wetlands as a condition of farm program eligibility. Evidence suggests that these requirements have helped
reduce soil erosion and preserve wetlands. Extending compliance to nutrient management in crop production
could yield additional environmental gains.
Regulations for Land Application of Manure from Confined Animal Feeding Operations—USDA
analysis played an important role in the design of the recent EPA water-quality regulations for confined animal-
feeding operations. As a result of the Department’s analysis comparing costs and effectiveness on land
applications of animal waste, EPA shifted to a more cost-effective option in its final regulations.
Reducing Runoff—Several USDA-supported studies resulted in promising means to reduce runoff. Nonpoint
source pollution often comes from hardscapes, such as asphalt and concrete roads and drives. Impervious
surfaces intensify storm water runoff, prevent rain from replenishing underground water reservoirs and trap
warmth that heats up cities. In Florida, where 100,000 new homes are built annually, USDA is helping to
minimize the environmental impact of these homes. In one effort, nearly 6,000 acres of an 11,000-acre project
will remain a sanctuary for local flora and fauna. Wisconsin researchers identified ways for builders to reduce
the amount of hardscape on a site by 30 percent by making modest changes. Ohio State University students and
faculty helped reduce runoff into the Olentangy River watershed located in central Ohio by installing
bioswales–engineered stretches of grass, plants, trees and bushes that filter storm water runoff. The successful
use of bioswales will allow more than 250 Ohio communities to comply with Federal runoff mandates.

Serving the Public
Farmers, ranchers and private forest and other landowners manage two-thirds of the Nation’s land. They are the
primary stewards of U.S. soil, air and water. USDA assists them in adopting environmentally sound
management practices and provides information on soil quality, water management, water quality, plant
materials, resource management and wildlife habitat. Additionally, USDA assists landowners and land
managers in using this information to implement sustainable production techniques. Those who receive
technical assistance are more likely to plan, apply and maintain conservation systems that support agricultural
production and environmental quality as compatible goals. In 2004, the Department assisted people in
developing conservation plans for 32.4 million acres of cropland and grazing lands and creating or restoring 1.7
million acres of agricultural wetlands.
USDA’s technical experts help people in communities work together to protect their shared environment. The
assistance provided to State and local governmental entities, Tribes and private sector organizations helps them
protect the environment and improve the standard of living and quality of life for the people they represent.


 USDA
  100                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                 ANNUAL PERFORMANCE REPORT




USDA conducts research and develops and transfers technology, including conservation standards,
specifications and guidelines for conservation practices. The Department also collects and disseminates data on
water and soil conditions and related resources. The information and technical tools USDA develops and
provides to resource managers help sustain natural resources. Department information reaches a wide and
diverse audience, with increasing emphasis on electronic communications technology.

Challenges for the Future
Greater population densities exert greater pressures on the environment. As the landscape becomes a more and
more dense mosaic of developed areas scattered within agricultural forested land, the need for conservation
increases while the options available to producers may be constrained. USDA will continue to work with
producers and its conservation partners to successfully implement conservation practices and to preserve the
Nation’s resources and environment.

KEY OUTCOME: MAINTAIN THE PRODUCTIVE CAPACITY OF THE RESOURCE BASE AND
             QUALITY OF THE ENVIRONMENT
Privately owned cropland, grazing lands and forestland represent a substantial and vibrant agricultural economy
that provides food and fiber for the Nation. In FY 2004, USDA’s conservation programs helped producers
maintain the productive capacity of 32.4 million acres through development and implementation of
conservation plans on cropland and grazing land that help support healthy and productive plant, animal and
human communities. In addition, the conservation applied with USDA assistance in past years continues to
protect the landscape.
The basis for sound management of agricultural land is a conservation plan that helps each producer manage a
specific production unit. Each producer needs to know the capabilities of the soil of the farm’s fields and the
condition of rangeland and woodland that is part of the operation. In areas where irrigation is practiced,
producers also need forecasts of water supply to plan the year’s crops. In FY 2004, USDA continued to increase
emphasis on helping producers develop technically sound plans to provide a framework for their activities.
The extent of land on which producers have developed a conservation plan is an indicator of the amount of land
on which producers are trying to be good stewards. Plans developed in one year are typically applied in
following years. The extent of land on which producers have actually applied the practices planned is an
indicator of progress toward protecting soil, water, and related resources.
USDA’s Conservation Operations provides the basic resource inventory data, technical tools and
comprehensive-planning approach producers need to manage their soil and water resources well. The
Conservation Technical Assistance (CTA) Program is the primary avenue through which USDA assists
agricultural producers and other land managers to plan environmentally and economically sustainable
operations. USDA provides technical and financial assistance to apply conservation practices through the
Environmental Quality Incentives Program (EQIP) and other programs authorized by FSRIA. In FY 2004,
USDA worked hard to ensure that this increasing level of public investment in conservation was directed to
solving high priority resource concerns.
Exhibit 65: Maintain the Productive Capacity of the Natural Resource Base and the Quality of the Environment

                                                                                            Fiscal Year 2004
                 Annual Performance Goals and Indicators                           Target        Actual         Result
 5.2.1   Conservation plans written for cropland and grazing lands (Mil acres)      31.7          32.4           Met
 5.2.2   Cropland and grazing lands with conservation applied to protect the        26.8           27*           Met
         resource base and environment (Mil acres)

 *Preliminary results. Actual shown includes cropland and grazing lands where conservation was applied with all NRCS
 programs.




                                                                                                                  USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                          101
 ANNUAL PERFORMANCE REPORT




Analysis of Results
USDA met its FY 2004 goals for helping producers plan for conservation efforts on the Nation’s private lands.
Conservation plans are essential to good management of soil and water resources. A conservation plan describes
the schedule of operations and activities needed to solve natural-resource problems and take advantage of
opportunities. Conservation planning helps individual managers consider their operations within the larger
landscape of which a farm or ranch it is a part. It also helps land managers consider the effects of their actions
on that wider environment. They can avoid actions that would damage natural resources offsite while meeting
their economic targets for the operation.
Reported performance for the FY 2004 measure for conservation plans is higher than the target and the baseline
year. This increase is caused by several factors. It is partly the result of a change in how the measure was
defined in FY 2004 and in the system for reporting performance in FY 2004 compared to earlier years. It also
results from the increased public investment in conservation authorized by FSRIA, which is motivating farmers
and ranchers to ask for more assistance in conservation planning.
While the target for application of conservation appears to have been met, final analysis of the data is
incomplete. Analysis is needed to estimate the performance at the program level rather than in total. It is
possible that the analysis will find that performance for the two programs on which the target is based was less
than projected. For FY 2005, the agency has implemented further refinements to its accountability system to
ensure progress on program specific targets can be monitored and costs documented. The availability of
technical expertise to help producers get conservation on the land is a major determinant of the rate at which
producers can act. In FY 2004, USDA continued to encourage technical assistance providers in the private
sector to come forward to help USDA implement its conservation programs.
The long-term goal is to have a land-management system that leads to a high productive capacity for future
generations. This would come while people today continue to enjoy the benefits of a high-quality environment
and an economically healthy agricultural sector that produces abundant supplies of food and fiber.
Annual targets for the assistance USDA will provide for planning and application are based on data about
resource condition and trends. This information was developed in resource inventories and covers priorities
identified in local, State and national plans. Conservation needs and available program resources are evaluated
to establish feasible annual targets.
Exhibit 66: Trends in Planning and Application of Improved Management of Cropland and Grazing Lands

                                                                               Fiscal Year Actual
                       Trends                           2000          2001          2002             2003          2004
 Conservation plans written for cropland and            14.9          15.2          13.1              31.4         32.4
                          1
 grazing lands (Mil acres)                                                                          Baseline
 Cropland and grazing lands with conservation           19.5          24.5          23.8             26.0           27
 applied to protect the resource base and                           Baseline
                          2
 environment (Mil acres)
 1
     Includes all planning reported as assistance provided through the CTA. Data for FY 2000-2002 are not comparable to
     later years. In FY 2003, policy on planning was revised and reporting instructions were clarified.
 2
     Data for FY 2002 and 2003 include only land where conservation was applied with assistance from the Conservation
     Technical Assistance program or Environmental Quality Incentives Program.


USDA’s strategic plan for FY 2002-2007 set a strategic goal of helping producers apply needed conservation
treatment on 130 million acres during that period. For the FY 2002-2004 period, USDA had provided assistance
to improve management on nearly 77 million acres.
A major challenge is to develop a practical and reliable tool to document the effects of conservation practices on
water and air quality. Better knowledge will enable USDA to focus programs on the most serious problems. By
the end of FY 2005, we expect to have this analytical system in place to estimate the effects of specific



 USDA
  102                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                           ANNUAL PERFORMANCE REPORT




conservation practices on cropland health. It also will study the effects of the movement of sediment, nitrogen
and phosphorus from agricultural operations.

KEY OUTCOME: ENSURE DIVERSE WILDLIFE HABITATS
Wetlands are among the most biologically diverse areas on earth. They provide habitat for a rich mixture of
plants and animals, including many rare and endangered species. Wetlands also protect shorelines, filter
impurities from water, help control floodwaters, regulate water flow and decrease soil erosion. Since the early
1980’s, USDA has focused increasing attention to protecting wetlands. The strategy for protecting wetlands and
wetland wildlife habitat relies heavily on encouraging private landowners to protect wetlands under long-term
or permanent easements offered through USDA’s Wetlands Reserve Program. This is a voluntary conservation
program that offers landowners the means and opportunity to protect, restore and enhance wetlands on their
property with the financial assistance of USDA. The Department also requires agricultural producers to protect
wetlands to participate in other USDA programs.
Exhibit 67: Ensure Diverse Wildlife Habitats

                                                                                         Fiscal Year 2004
                 Annual Performance Goals and Indicators                        Target        Actual        Result
 5.2.3   Agricultural wetlands created or restored through the Wetlands          1.7            1.7          Met
         Reserve Program (WRP) (Mil acres)


Analysis of Results
The target for the measure was met. The Wetlands Reserve Program is very popular and consistently enrolls the
target number of acres. The program has shown a steady climb in enrollment of acres by increasing by
approximately 200,000 acres a year since FY 2001. The program also is efficient. A recent internal evaluation
indicated that the cost of acquiring easements has remained relatively stable. It has risen only in response to
increasing prices of agricultural land.
In 1990, the U.S. set a goal of preventing any net loss of wetlands. USDA’s 2002 National Resources Inventory
found that our Nation is achieving this goal on agricultural land. Much of the prevention of loss resulted from
USDA’s efforts to help people restore wetlands and discourage their conversion to agricultural uses.
The performance measure reported here includes the wetlands and associated uplands that have been protected
and restored under easements or agreements. Adjacent uplands are included in the program where necessary to
preserve the wetland’s health. The measure represents the program’s cumulative accomplishments to date. The
majority of land protected through this program is under permanent easement, ensuring that the ecosystem will
be maintained in perpetuity. In addition to permanent easements, the program offers producers the options of
30-year easements and of cost-share agreements. FSRIA authorized an increase in the cumulative level for the
program to 2.28 million acres, which is considered a long-term target. The Wetlands Reserve Program is the
most important USDA program that protects wetlands.
Exhibit 68: Trends in Wetland Protection

                                                                           Fiscal Year Actual
                     Trends                           2000          2001        2002            2003         2004
 Agricultural wetlands created or restored             0.9           1.1        1.3             1.5           1.7
 through WRP. Million acres                                                   Baseline


USDA anticipates that this upward trend in wetlands protection will continue. The President has set a new goal
of increasing the acreage of wetlands. During the next 5 years, the new goal includes:
      Restoring and creating at least 1 million acres of wetlands;
      Improving the quality of at least 1 million acres of wetlands; and



                                                                                                              USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 103
 ANNUAL PERFORMANCE REPORT




        Protecting at least 1 million acres of wetlands.
The benefits of these outcomes will be enhanced by further efforts to improve associated uplands and river
habitat. For example, ducks will have the wetland they need for food and dry land habitat nearby for nesting.
USDA will work in cooperation with U.S. Departments of the Interior and Transportation, the U.S.
Environmental Protection Agency, the Army Corps of Engineers and the National Oceanic and Atmospheric
Administration to achieve the President’s goals.
One challenge in wetlands protection is developing better tools for tracking wetlands status and values. Another
is improving coordination among Federal agencies with a role in wetlands protection. Additionally, better
coordination is needed on remote sensing and ground-level data collection on wetlands gain, loss and quality.
USDA will continue to work with other federal agencies and conservation partners to ensure wetlands
protection.

KEY OUTCOME: COMMUNITIES AND INDIVIDUALS PROTECTED AGAINST FLOOD RISKS
             AND BENEFITING FROM PRODUCTIVE USE OF WATER RESOURCES
USDA provides assistance in reducing flood damage within the context of comprehensive water-resources
planning. The ability of water resources to meet the Nation’s needs is an increasing concern across the Nation.
Concerns focus on water quality and quantity. Comprehensive, locally led planning and management can ensure
that watersheds provide adequate supplies of clean, well-managed water. USDA assists individuals, Tribes and
communities with comprehensive water resources planning and management. The Department’s programs
provide technical and financial assistance to help local and State entities plan and implement projects. These
projects are designed to protect water quality, improve its supply and enhance wildlife habitat. In FY 2004, all
the Small Watershed protection projects completed with USDA assistance prevented an estimated $266 million
dollars in flood damage. USDA also helps local communities protect watersheds through its Conservation
Operations Program, which provides basic resource inventory data on soil moisture and water supply forecasts
and a comprehensive planning approach for addressing problems.
Exhibit 69: Communities and Individuals Protected Against Flood Risks and Benefiting from Productive Use of
Water Resources

                                                                                     Fiscal Year 2004
                Annual Performance Goals and Indicators                     Target        Actual         Result
 5.2.4   Reduction in average annual flood damage ($Mil)                      16           16.5         Exceeded



Analysis of Results
This measure has exceeded its target. In FY 2004, the agency transitioned to a new reporting system for the
water resources programs. The FY 2004 data in the new system provide a baseline for future years, but may not
be comparable to earlier years. The value shown in the table is an estimate of the reported benefits that should
be considered 2004 performance. This measure represents the results of the watershed protection projects
completed during FY 2004. The measure includes the effects the new projects had on losses that floods caused
to agriculture. Flood prevention projects provide protection for many years. The planned life of a floodwater
retarding structure is generally 50 years. The number in the table will not include the total value of assets
protected by projects completed in earlier years that figure is far higher. In FY 2004, for example, the
agriculture flood reduction of all projects in operation totaled more than $266 million. Most of these watershed-
protection projects have multiple purposes and provide benefits such as water supply, wildlife habitat and
recreation as well as flood damage reduction.
USDA helps communities plan the use of watersheds and flood plains to provide benefits and protect property
values. This benefits all residents. The table below shows the annual savings in flood damage that were
provided by watershed protection projects completed during each of the fiscal years. That is, it shows the annual




 USDA
  104                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                         ANNUAL PERFORMANCE REPORT




increase in benefits rather than the total annual flood reduction benefits of USDA’s programs. These benefits
are provided by:
      Building structures;
      Planning local and land use;
      Treating critical areas;
      Purchasing easements; and
      Developing and implementing early-warning and emergency response plans.
Exhibit 70: Trend in Flood Damage Reduction

                                                                        Fiscal Year Actual
                    Trends                         2000         2001         2002            2003         2004
 Reduction in average annual flood damage           NA           21          22               20           16.5
 ($Mil)                                                                    Baseline


Working with individuals and communities to help reduce the risk of flood damage is a continuing process.
Progress toward the goal of meeting the needs for flood damage protection in a consistent and thorough manner
is challenged by many factors. One is development in flood prone areas, which increases the number of
individuals and communities at risk.
USDA has provided technical and financial assistance to local sponsors in the development of water resources
since the 1940s. Nearly 2,000 projects cover 140 million acres and include a network of 10,000 small watershed
structures across the U.S. These projects help prevent and relieve flooding to protect human health and safety.
They also have contributed to flood protection and improving water quality and supplies. This creates wildlife
habitat and provides recreational opportunities.
Many of the current structures designed to protect individuals and communities from flood risks are nearing the
end of their life cycles. More than 1,000 of these structures will require rehabilitation or other action to ensure
public health and safety within the next 10 years. USDA is working with the local sponsors who own these
structures to assess the risks and either rehabilitate or decommission their structures.
In the next few years, USDA will continue activities to assist producers to adopt comprehensive conservation
systems that enable them to meet their production goals while fully protecting the health and quality of natural
resources including soils and grazing land ecosystems. USDA will focus on providing the technical assistance
and technology to enable local people to plan comprehensive, wide area planning to meet their goals. USDA
also will continue to focus on helping producers to comply with federal, state, and local regulations for
protecting the environment and to practice a level of stewardship that makes regulation unnecessary.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                105
ANNUAL PERFORMANCE REPORT




                   THIS PAGE INTENTIONALLY LEFT BLANK




USDA
106            FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                             ANNUAL PERFORMANCE REPORT




FISCAL YEAR 2004 PROGRAM OBLIGATIONS INCURRED
The following table depicts the component agencies and staff offices of the U.S. Department of Agriculture with total program level dollars for each account
allocated to each objective. The program level dollars are displayed in millions and have been rounded to the nearest tenth. An account’s funding was allocated to
more than one objective when the amount for each objective was significant and could be identified. The table provides a general indication of the funding
dedicated to each objective. Staff office and departmental management accounts generally support all USDA objectives and, in most cases, have been reallocated
equally among all strategic objectives.
Exhibit 71: USDA Program Obligations

                                                                      USDA FY 2004 Program Obligations
                                                                            (Dollars in Millions)
                                         Program
 Agency               Account           Obligations      1.1    1.2       1.3       1.4      2.1     2.2       3.1     3.2     4.1     4.2    4.3     5.1          5.2
 OSEC     Office of the Secretary              23.7      1.8    1.8       1.8       1.8      1.8     1.8       1.8     1.8     1.8     1.8    1.8     1.8          1.8
 OCFO     OCFO                                 11.5      0.9    0.9       0.9       0.9      0.9     0.9       0.9     0.9     0.9     0.9    0.9     0.9          0.9
          Working Capital Fund                261.1     20.1   20.1      20.1      20.1     20.1    20.1      20.1    20.1    20.1    20.1   20.1    20.1      20.1
 OCIO     OCIO                                 56.0      4.3    4.3       4.3       4.3      4.3     4.3       4.3     4.3     4.3     4.3    4.3     4.3          4.3
          Common Computing                    212.7     16.4   16.4      16.4      16.4     16.4    16.4      16.4    16.4    16.4    16.4   16.4    16.4      16.4
          Environment
 DA       Agriculture Buildings and           178.1     13.7   13.7      13.7      13.7     13.7    13.7      13.7    13.7    13.7    13.7   13.7    13.7           0
          Facilities Rental Payments
          Departmental Administration          37.2      2.9    2.9       2.9       2.9      2.9     2.9       2.9     2.9     2.9     2.9    2.9     2.9          2.9
          Hazardous Materials                  17.3        -      -         -         -        -         -       -       -       -       -      -    17.3            -
          Management
 OCR      Office of Civil Rights               21.4      1.6    1.6       1.6       1.6      1.6     1.6       1.6     1.6     1.6     1.6    1.6     1.6          1.6
 OC       OC                                     9.4     0.7    0.7       0.7       0.7      0.7     0.7       0.7     0.7     0.7     0.7    0.7     0.7          0.7
 OIG      OIG                                  80.0      6.2    6.2       6.2       6.2      6.2     6.2       6.2     6.2     6.2     6.2    6.2     6.2          6.2
          IG Assets Forfeiture Funds             1.3     0.1    0.1       0.1       0.1      0.1     0.1       0.1     0.1     0.1     0.1    0.1     0.1          0.1
 OGC      OGC                                  36.0      2.8    2.8       2.8       2.8      2.8     2.8       2.8     2.8     2.8     2.8    2.8     2.8          2.8
 OCE      OCE                                  11.4      0.9    0.9       0.9       0.9      0.9     0.9       0.9     0.9     0.9     0.9    0.9     0.9          0.9
 NAD      NAD                                  13.5      1.0    1.0       1.0       1.0      1.0     1.0       1.0     1.0     1.0     1.0    1.0     1.0          1.0
 OBPA     OBPA                                   7.4     0.6    0.6       0.6       0.6      0.6     0.6       0.6     0.6     0.6     0.6    0.6     0.6          0.6
 HSS      Homeland Security Staff                0.5     0.0    0.0       0.0       0.0      0.0     0.0       0.0     0.0     0.0     0.0    0.0     0.0          0.0
 ERS      Economic Research                    72.7     12.4    4.4       4.4      16.0      3.6     5.1       1.5     2.2     2.9     2.9    5.8       -      11.6
 NASS     NASS                                146.9    103.1      -         -       7.6     28.9         -       -     3.1       -       -      -       -          4.1
 ARS      ARS Salaries and Expenses          1,160.0       -      -     109.0         -        -         -   109.0   656.6       -   104.4      -    90.5      90.5
          Buildings and Facilities            160.5        -      -      15.1         -        -         -    15.1    90.8       -    14.4      -    12.5      12.5
          ARS-No Year Funds                    13.6        -      -       1.3         -        -         -     1.3     7.7       -     1.2      -     1.1          1.1
 CSREES   Extension Activities                   0.5     0.0    0.0       0.0       0.0      0.0     0.0       0.0     0.1       -     0.1      -     0.1          0.1
          Research and Education              624.2     56.2   56.2      81.1      18.7     18.7    18.7      43.7    87.4       -    49.9      -    96.8      96.8
          Activities




                                                                                                                                                            USDA
                                               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                 107
ANNUAL PERFORMANCE REPORT




                                                                             USDA FY 2004 Program Obligations
                                                                                   (Dollars in Millions)
                                                Program
 Agency               Account                  Obligations      1.1    1.2        1.3       1.4    2.1     2.2        3.1       3.2   4.1   4.2   4.3   5.1     5.2
CSREES     Integrated Activities                      52.0      0.1    0.1        0.6       0.6    0.6     0.6        4.2     25.0      -   7.3     -   6.8     6.2
(cont’d)
           Initiative for Future Agriculture            0.1     0.0    0.0        0.0       0.0    0.0     0.0        0.0       0.0     -   0.0     -   0.0     0.0
           & Food Systems
           Native Americans Institutions                1.9     0.1    0.1        0.2       0.1    0.1     0.1        0.1       0.2   0.2   0.2     -   0.3     0.3
           Endowment Fund
           Native Americans Institutions                8.9     0.6    0.4        0.8       0.4    0.4     0.4        0.4       1.1   0.7   0.8     -   1.4     1.4
           Endowment Fund - Feeder
           Account
           Community Food Projects                      5.0       -      -          -         -      -          -       -         -     -     -   5.0     -       -
           Section 2501                                 6.2     1.6      -        1.6       1.6      -          -       -       1.6     -     -     -     -       -
           Risk Management                              5.0       -      -          -       5.0      -          -       -         -     -     -     -     -       -
           Biodiesel Fuel Education                     1.0       -      -        1.0         -      -          -       -         -     -     -     -     -       -
           Program
APHIS      Salaries and Expenses                    1,149.2   137.9      -          -         -      -          -       -   1,011.3     -     -     -     -       -
           Buildings and Facilities                   16.2        -      -          -         -      -          -       -     16.2      -     -     -     -       -
           Trust Funds                                  2.1       -      -          -         -      -          -       -       2.1     -     -     -     -       -
FSIS       FSIS-Salaries & Expenses                  774.7        -      -          -         -      -          -   774.7         -     -     -     -     -       -
           FSIS-No Year Funds                        139.0        -      -          -         -      -          -   139.0         -     -     -     -     -       -
           Trust Funds                                  3.6       -      -          -         -      -          -     3.6         -     -     -     -     -       -
GIPSA      Salaries and Expenses                      39.4     16.2    0.8        2.0     17.3     3.2          -       -         -     -     -     -     -       -
           Inspection and Weighing                    36.9     36.9      -          -         -      -          -       -         -     -     -     -     -       -
           Services
AMS        Marketing Services                         77.5     77.5      -          -         -      -          -       -         -     -     -     -     -       -
           Payments to States and                       3.3     3.3      -          -         -      -          -       -         -     -     -     -     -       -
           Possessions
           Perishable Ag. Commodities                   9.7     9.7      -          -         -      -          -       -         -     -     -     -     -       -
           Act Fund
           Funds for Strengthening                   875.1    875.1      -          -         -      -          -       -         -     -     -     -     -       -
           Markets/Income/Supply
           Wool Research Development                    2.2     2.2      -          -         -      -          -       -         -     -     -     -     -       -
           and Promotion Trust Fund
           Expenses & Refunds,                       169.0    169.0      -          -         -      -          -       -         -     -     -     -     -       -
           Inspection & Grading of Farm
           Products
RMA        Administrative and Operating               71.0        -      -          -     71.0       -          -       -         -     -     -     -     -       -
           Expenses
           Federal Crop Insurance                   4,090.7       -      -          -   4,090.7      -          -       -         -     -     -     -     -       -
           Corporation Fund
FSA        Salaries and Expenses                        1.0       -      -          -       1.0      -          -       -         -     -     -     -     -       -
                                                    1,273.7       -   31.8    1,076.3         -      -          -       -         -     -     -     -     -   165.6
           Salaries and Expenses                     115.1        -      -      94.4          -      -          -       -         -     -     -     -     -    20.7
           /Transfer to CCC
           State Mediation Grants                       4.0       -      -          -       4.0      -          -       -         -     -     -     -     -       -




USDA
 108                                                            FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                            ANNUAL PERFORMANCE REPORT




                                                                         USDA FY 2004 Program Obligations
                                                                               (Dollars in Millions)
                                            Program
 Agency                Account             Obligations       1.1   1.2        1.3        1.4   2.1      2.2     3.1   3.2    4.1   4.2   4.3   5.1          5.2
FSA        Agricultural Credit Insurance         491.6         -     -          -     491.6      -          -     -     -      -     -     -     -            -
(cont’d)   Fund (Prog.)
           Dairy Indemnity Program                  0.6        -     -          -        0.6     -          -     -     -      -     -     -     -            -
           Emergency Conservation                 26.7         -     -          -      26.7      -          -     -     -      -     -     -     -            -
           Program/Transfer to CCC
           Tree Assistance                          4.0        -     -          -        4.0     -          -     -     -      -     -     -     -            -
           Program/Transfer to CCC
           Agricultural Credit Insurance          14.1         -     -          -      14.1      -          -     -     -      -     -     -     -            -
           Fund
           Farm Storage Facility Loan                    -     -     -          -          -     -          -     -     -      -     -     -     -            -
           Direct Financing Acct.
           Farm Storage Facility Loan                    -     -     -          -          -     -          -     -     -      -     -     -     -            -
           Direct Financing Acct.
           Ag. Conservation Guarantee               1.2        -     -          -        1.2     -          -     -     -      -     -     -     -            -
           Financing Acct.
           Agricultural Credit Insurance        2,102.0        -     -          -    2,102.0     -          -     -     -      -     -     -     -            -
           Fund-Direct (Fin.)
           Agricultural Credit Insurance         185.5         -     -          -     185.5      -          -     -     -      -     -     -     -            -
           Fund-Guar. (Fin.)
           CCC Apple Loans Direct Loan              0.6        -     -          -        0.6     -          -     -     -      -     -     -     -            -
           Financing Account
           CCC Export Loans Program              578.9         -     -          -     578.9      -          -     -     -      -     -     -     -            -
           Account
           CCC Export Loans Program                 4.1        -     -          -        4.1     -          -     -     -      -     -     -     -            -
           Account (Admin.)
           Commodity Credit Corporation       24,839.5         -     -    2,980.7   21,858.8     -          -     -     -      -     -     -     -            -
           CCC Livestock Indemnity                  0.3        -     -          -        0.3     -          -     -     -      -     -     -     -            -
           Program
           CCC Export Guarantee                  643.0         -     -          -     643.0      -          -     -     -      -     -     -     -            -
           Financing Account
           CCC Export Guaranteed Loans              1.1        -     -          -        1.1     -          -     -     -      -     -     -     -            -
           Liquidating Account
           CCC Emergency Boll Weevil                0.2        -     -          -        0.2     -          -     -     -      -     -     -     -            -
           Direct Loan Financing Account
           CCC Emergency Boll Weevil                0.2        -     -          -        0.2     -          -     -     -      -     -     -     -            -
           Direct Loan Program Account
           CCC Farm Storage Facility                0.9        -     -          -        0.9     -          -     -     -      -     -     -     -            -
           Loans Program Account
NRCS       Conservation Operations               914.0         -     -          -          -     -     91.4       -     -      -     -     -     -     822.6
           Watershed Rehabilitation               29.0         -     -          -          -     -     29.0       -     -      -     -     -     -            -
           Program
           Biomass Research and                   14.0         -     -      14.0           -     -          -     -     -      -     -     -     -            -
           Development Program
           Farm Security and Rural              1,577.0        -     -          -          -     -          -     -     -      -     -     -     -    1,577.0
           Investment Programs
           Resource Conservation and              53.0         -     -          -          -     -     26.5       -     -      -     -     -     -      26.5
           Development
           Watershed Surveys and                  10.0         -     -          -          -     -      4.0       -     -      -     -     -     -          6.0
           Planning
           Watershed and Flood                   156.0         -     -          -          -     -     31.2       -     -      -     -     -     -     124.8
           Prevention Operations




                                                                                                                                                     USDA
                                                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                       109
ANNUAL PERFORMANCE REPORT




                                                                      USDA FY 2004 Program Obligations
                                                                            (Dollars in Millions)
                                            Program
Agency               Account               Obligations    1.1   1.2       1.3      1.4       2.1       2.2   3.1   3.2   4.1   4.2   4.3   5.1   5.2
           Wetlands Reserve Program                 1.0     -     -         -        -         -         -     -     -     -     -     -     -   1.0
           Forestry Incentives Program              1.0     -     -         -        -         -         -     -     -     -     -     -     -   1.0
RD         Rural Community Advancement           925.0      -     -         -        -     277.5    647.5      -     -     -     -     -     -     -
           Program
           Salaries and Expenses                 641.0      -     -         -        -     192.3    448.7      -     -     -     -     -     -     -
RHS        Rental Assistance Program             581.0      -     -         -        -         -    581.0      -     -     -     -     -     -     -
           Rural Housing Assistance               44.0      -     -         -        -         -     44.0      -     -     -     -     -     -     -
           Grants
           Mutual and Self-Help Housing           35.0      -     -         -        -         -     35.0      -     -     -     -     -     -     -
           Grants
           Rural Housing Insurance Fund          861.0      -     -         -        -         -    861.0      -     -     -     -     -     -     -
           (Prog.)
           Rural Housing Insurance Fund          285.0      -     -         -        -         -    285.0      -     -     -     -     -     -     -
           (Liq.)
           Rural Housing Insurance Fund         2,469.0     -     -         -        -         -   2,469.0     -     -     -     -     -     -     -
           Direct (Fin.)
           Rural Housing Insurance Fund-         129.0      -     -         -        -         -    129.0      -     -     -     -     -     -     -
           Guar. (Fin.)
           Rural Community Facility              624.0      -     -         -        -         -    624.0      -     -     -     -     -     -     -
           Loans-Direct (Fin.)
RHS        Farm Labor Housing                     33.0      -     -         -        -         -     33.0      -     -     -     -     -     -     -
(cont’d)
           Rural Community Facility               16.0      -     -         -        -         -     16.0      -     -     -     -     -     -     -
           Loans-Guar.(Fin.)
RBCS       Rural Cooperative                      40.0      -     -         -        -      40.0         -     -     -     -     -     -     -     -
           Development Grants
           Rural Business Investment                1.0     -     -         -        -       1.0         -     -     -     -     -     -     -     -
           Program
           Renewable Energy Programs              23.0      -     -         -        -      23.0         -     -     -     -     -     -     -     -
           Rural Development Loan Fund            22.0      -     -         -        -      22.0         -     -     -     -     -     -     -     -
           (Prog.)
           Rural Economic Development             11.0      -     -         -        -      11.0         -     -     -     -     -     -     -     -
           Grants
           Rural Economic Development               3.0     -     -         -        -       3.0         -     -     -     -     -     -     -     -
           Loans (Prog.)
           Rural Economic Development             21.0      -     -         -        -      21.0         -     -     -     -     -     -     -     -
           Loans (Fin.)
           Rural Development Loan Fund-           59.0      -     -         -        -      59.0         -     -     -     -     -     -     -     -
           Direct (Fin.)
           Rural Business and Industry              4.0     -     -         -        -       4.0         -     -     -     -     -     -     -     -
           Direct Loans (Fin.)
           Rural Business and Industry           144.0      -     -         -        -     144.0         -     -     -     -     -     -     -     -
           Direct Loans-Guar.(Fin.)
           Rural Empowerment Zones/               13.0      -     -         -        -      13.0         -     -     -     -     -     -     -     -
           Enterprise Communities
RUS        RETRF (Prog. Acct.)                   391.0      -     -         -        -     273.7    117.3      -     -     -     -     -     -     -
           Rural Telephone Bank Program             4.0     -     -         -        -       2.8       1.2     -     -     -     -     -     -     -
           Account




USDA
 110                                                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                      ANNUAL PERFORMANCE REPORT




                                                                                 USDA FY 2004 Program Obligations
                                                                                       (Dollars in Millions)
                                                 Program
 Agency               Account                   Obligations      1.1       1.2       1.3      1.4        2.1       2.2   3.1   3.2        4.1     4.2    4.3   5.1          5.2
RUS        Distance Learning and Medical               68.0        -         -         -        -      47.6      20.4      -     -          -       -      -     -            -
(cont’d)   Link Programs
           High Energy Cost Grants                     31.0        -         -         -        -      21.7        9.3     -     -          -       -      -     -            -
           Rural Communication                           2.0       -         -         -        -        1.4       0.6     -     -          -       -      -     -            -
           Development Fund
           Distance Learning                          642.0        -         -         -        -     449.4     192.6      -     -          -       -      -     -            -
           Telemedicine Direct Loan (Fin.
           Acct.)
           Rural Development Insurance                 69.0        -         -         -        -      48.3      20.7      -     -          -       -      -     -            -
           Fund (Liq. Acct.)
           Rural Telephone Bank (Fin.                 213.0        -         -         -        -     149.1      63.9      -     -          -       -      -     -            -
           Acct.)
           RETRF (Fin. Acct.-Direct)                 5,298.0       -         -         -        -    3,708.6   1,589.4     -     -          -       -      -     -            -
           Rural Water & Waste Disposal              1,479.0       -         -         -        -    1,035.3    443.7      -     -          -       -      -     -            -
           Loans (Direct Fin. Acct.)
           RETRF (Liq. Acct.)                         929.0        -         -         -        -     650.3     278.7      -     -          -       -      -     -            -
           Rural Telephone Bank (Liq.                  49.0        -         -         -        -      34.3      14.7      -     -          -       -      -     -            -
           Acct.)
           Appalachian Reg. Commission                 17.0        -         -         -        -      11.9        5.1     -     -          -       -      -     -            -
           Transfer
FAS        Scientific Activities Overseas                0.2       -       0.2         -        -          -         -     -     -          -       -      -     -            -
           (Foreign Curr. Prog)
           Trade Adjustment Assistance                 78.7     78.7         -         -        -          -         -     -     -          -       -      -     -            -
           for Farmers
           Salaries and Expenses                      196.2    127.5     68.7          -        -          -         -     -     -          -       -      -     -            -
                                                         5.3     3.4       1.9         -        -          -         -     -     -          -       -      -     -            -
                                                         4.4     2.9       1.5         -        -          -         -     -     -          -       -      -     -            -
                                                       12.6      8.2       4.4         -        -          -         -     -     -          -       -      -     -            -
           McGovern-Dole International                149.2        -    149.2          -        -          -         -     -     -          -       -      -     -            -
           Food for Education
           Title I Ocean freight Differential          40.5        -     40.5          -        -          -         -     -     -          -       -      -     -            -
           Grants
           P.L. 480 (Liq. Acct.)                         2.5       -       2.5         -        -          -         -     -     -          -       -      -     -            -
           P.L. 480 (Prog.)                           244.6        -    244.6          -        -          -         -     -     -          -       -      -     -            -
           P.L 480 Title II                          1,669.3       -   1,669.3         -        -          -         -     -     -          -       -      -     -            -
           P.L. 480-Direct (Fin. Acct.)               262.7        -    262.7          -        -          -         -     -     -          -       -      -     -            -
           Debt Reduction (EAI) Fin. Acct.            278.4        -    278.4          -        -          -         -     -     -          -       -      -     -            -
FNS        Food Donations Programs                       3.0       -         -         -        -          -         -     -     -        3.0       -      -     -            -
           Food Stamp Program                      28,927.0        -         -         -        -          -         -     -     -   28,637.7   289.3      -     -            -
           Commodity Assistance                       175.0        -         -         -        -          -         -     -     -     175.0       0       -     -            -
           Program
           Food Program Administration                142.0        -         -         -        -          -         -     -     -      84.5      7.8   49.7     -            -
           Special Supplemental Nutrition            4,960.0       -         -         -        -          -         -     -     -    4,612.8   347.2      -     -            -
           Program (WIC)
           Child Nutrition Programs                11,395.0        -         -         -        -          -         -     -     -   11,395.0       -      -     -            -




                                                                                                                                                                     USDA
                                                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                  111
ANNUAL PERFORMANCE REPORT




                                                                     USDA FY 2004 Program Obligations
                                                                           (Dollars in Millions)
                                           Program
Agency             Account                Obligations    1.1   1.2       1.3      1.4      2.1     2.2      3.1   3.2   4.1   4.2   4.3       5.1     5.2
FS       Land Acquisition Title VIII               8.1     -     -         -        -        -          -     -     -     -     -     -       8.1       -
         Capital Improvement and                634.2      -     -         -        -        -          -     -     -     -     -     -    634.2        -
         Maintenance
         Forest and Rangel and                  326.0      -     -         -        -        -          -     -     -     -     -     -    326.0        -
         Research
         State and Private Forestry             390.7      -     -         -        -        -          -     -     -     -     -     -     78.1    312.6
         National Forest System                1,708.2     -     -         -        -        -          -     -     -     -     -     -   1,708.2       -
         Wildland Fire Management              1,811.9     -     -         -        -        -          -     -     -     -     -     -   1,739.4    72.5
         Payments to States                     316.1      -     -         -        -        -          -     -     -     -     -     -         -   316.1
         Payments to States, Northern              4.9     -     -         -        -        -          -     -     -     -     -     -       4.9       -
         Spotted Owl Guarantee
         Management of National Forest             5.6     -     -         -        -        -          -     -     -     -     -     -       5.6       -
         Lands for Subsistence Uses
         Federal infrastructure                  (0.2)     -     -         -        -        -          -     -     -     -     -     -     (0.2)       -
         Improvement
         Working Capital Fund                   205.8      -     -         -        -        -          -     -     -     -     -     -    205.8        -
         Land Acquisition                        92.9      -     -         -        -        -          -     -     -     -     -     -     92.9        -
         Recreation Fees for Collection            0.8     -     -         -        -        -          -     -     -     -     -     -       0.8       -
         Costs
         Federal Payment, Payments to            21.0      -     -         -        -        -          -     -     -     -     -     -         -    21.0
         States, National Forests Fund
         Timber Roads, Purchaser                   1.9     -     -         -        -        -          -     -     -     -     -     -       1.9       -
         Elections
         Roads and Trails for States,            (7.3)     -     -         -        -        -          -     -     -     -     -     -     (7.3)       -
         National Forest Fund
         Timber Salvage Sales                    62.4      -     -         -        -        -          -     -     -     -     -     -     62.4        -
         Expenses, Brush Disposal                11.7      -     -         -        -        -          -     -     -     -     -     -     11.7        -
         Range Betterment Fund                     2.6     -     -         -        -        -          -     -     -     -     -     -       2.6       -
         Payment to Minnesota from the             2.1     -     -         -        -        -          -     -     -     -     -     -         -     2.1
         National Forests Fund
         Licenses Programs                         0.1     -     -         -        -        -          -     -     -     -     -     -         -     0.1
         Restoration of Forest Lands             (2.0)     -     -         -        -        -          -     -     -     -     -     -     (2.0)       -
         Operation and Maintenance                 3.9     -     -         -        -        -          -     -     -     -     -     -       3.9       -
         Quarters
         Timber Sale Pipeline                      6.1     -     -         -        -        -          -     -     -     -     -     -       6.1       -
         Restoration Fund
         Recreation Fee Demonstration            46.0      -     -         -        -        -          -     -     -     -     -     -     46.0        -
         Program
         Midewin National Tall grass               0.9     -     -         -        -        -          -     -     -     -     -     -       0.9       -
         Prairies Rental Fees
         Land Between the Lakes                    3.7     -     -         -        -        -          -     -     -     -     -     -       3.7       -
         Management Fund
         Other Land Uses                           0.2     -     -         -        -        -          -     -     -     -     -     -       0.2       -
         Valles Caldera Fund                       0.5     -     -         -        -        -          -     -     -     -     -     -       0.5       -
         Legacy Fund                             58.5      -     -         -        -        -          -     -     -     -     -     -         -    58.5




USDA
 112                                                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                                    ANNUAL PERFORMANCE REPORT




                                                                                  USDA FY 2004 Program Obligations
                                                                                        (Dollars in Millions)
                                             Program
 Agency               Account               Obligations           1.1       1.2        1.3         1.4       2.1         2.2       3.1       3.2        4.1     4.2        4.3       5.1          5.2
FS         Payments to Counties ,National           6.1             -         -          -           -         -           -         -         -          -       -          -         -          6.1
(cont’d)   Grasslands
           Cooperative Work Trust Fund            (42.6)            -         -          -           -         -           -         -         -          -       -          -    (42.6)            -
           Reforestation Trust Fund                18.3             -         -          -           -         -           -         -         -          -       -          -     18.3             -
           Gifts and Bequests                             -         -         -          -           -         -           -         -         -          -       -          -         -            -
           Transfer from DOL to USDA for          100.1             -         -          -           -         -           -         -         -          -       -          -    100.1             -
           Job Corps
           Federal Highway Transfer (FS)            8.1             -         -          -           -         -           -         -         -          -       -          -       8.1            -
Total                                         114,289.0       1,796.5   2,891.5    4,458.2    30,221.8   7,374.8     9,211.8   1,168.3   1,990.0   44,985.7   901.2      134.5   5,320.4    3,834.2
Total                                                                                        39,368.0              16,586.6              3,158.4                      46,021.4             9,154.6
by
Goals




                                                                                                                                                                                           USDA
                                                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                            113
 ANNUAL PERFORMANCE REPORT




FISCAL YEAR 2004 STAFF YEARS
The following table depicts the component agencies and staff offices of the U.S. Department of Agriculture with estimated staff years obligated to each objective.
Staff years have been rounded to the nearest tenth and have been allocated to more than one objective when the amount of each objective was significant and
could be identified. Staff offices and departmental management generally support all USDA objectives and, in most cases, have been reallocated equally among
all objectives.
Exhibit 72: USDA Staff Years

                                                                         USDA FY 2004 Staff Years
                   Staff                                                                     Objectives
   Agency          Years       1.1       1.2        1.3        1.4          2.1       2.2        3.1       3.2       4.1       4.2       4.3        5.1        5.2
OSEC                   73        5.6       5.6         5.6        5.6          5.6      5.6       5.6         5.6      5.6       5.6       5.6         5.6        5.6
OCFO                 1,599     123.0     123.0      123.0      123.0        123.0     123.0     123.0      123.0     123.0     123.0     123.0      123.0      123.0
OCIO                  307       23.6      23.6       23.6       23.6         23.6      23.6      23.6       23.6      23.6      23.6      23.6       23.6       23.6
DA                    521       40.1      40.1       40.1       40.1         40.1      40.1      40.1       40.1      40.1      40.1      40.1       40.1       40.1
OC                     98        7.5       7.5         7.5        7.5          7.5      7.5       7.5         7.5      7.5       7.5       7.5         7.5        7.5
OIG                   597       45.9      45.9       45.9       45.9         45.9      45.9      45.9       45.9      45.9      45.9      45.9       45.9       45.9
OBPA                   61        4.7       4.7         4.7        4.7          4.7      4.7       4.7         4.7      4.7       4.7       4.7         4.7        4.7
OGC                   321       24.7      24.7       24.7       24.7         24.7      24.7      24.7       24.7      24.7      24.7      24.7       24.7       24.7
OCE                    55        4.2       4.2         4.2        4.2          4.2      4.2       4.2         4.2      4.2       4.2       4.2         4.2        4.2
HSS                     6        0.5       0.5         0.5        0.5          0.5      0.5       0.5         0.5      0.5       0.5       0.5         0.5        0.5
OCR                   148       11.4      11.4       11.4       11.4         11.4      11.4      11.4       11.4      11.4      11.4      11.4       11.4       11.4
NAD                   116        8.9       8.9         8.9        8.9          8.9      8.9       8.9         8.9      8.9       8.9       8.9         8.9        8.9
ERS                   491       83.5      29.5       29.5      108.0         24.6      34.4       9.8       14.7      19.6      19.6      39.3            -     78.6
NASS                 1,343     953.7           -          -     77.9        252.8         -         -       26.7           -         -         -          -     32.6
ARS                  8,444           -         -   3,208.7           -                    -     844.4     2,111.0          -   253.3           -   1,013.3    1,013.3
CSREES                443       35.4      35.4       35.4       22.2         17.7      17.7      26.6       44.3           -    93.0           -     57.6       57.6
APHIS                6,761           -         -          -          -                    -         -     6,761.0          -         -         -          -          -
FSIS                 9,503           -         -          -          -           -        -   9,503.0            -         -         -         -          -          -
GIPSA                 690      282.9      13.7       35.6      303.6             -        -      55.2            -         -         -         -          -          -
AMS                  3,323   3,323.0           -          -          -           -        -         -            -         -         -         -          -          -
RMA                   520            -         -          -    520.0             -        -         -            -         -         -         -          -          -
FSA                  5,883           -   405.9            -   5,018.2            -        -         -            -         -         -         -          -    458.9



 USDA
  114                                               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                          ANNUAL PERFORMANCE REPORT




                                                                                 USDA FY 2004 Staff Years
                     Staff                                                                           Objectives
    Agency           Years        1.1        1.2            1.3        1.4          2.1       2.2        3.1          3.2       4.1         4.2        4.3         5.1            5.2
FSA Non-Federal       11,017            -          -              -   8,538.2            -           -        -             -         -            -         -           -    2,478.8
NRCS                  12,346            -          -              -          -           -   1,111.1          -             -         -            -         -           -   11,234.9
RD                     6,666            -          -              -          -     1,999.8   4,666.2          -             -         -            -         -           -               -
FAS                    1,025      830.7      194.3                           -           -           -        -             -         -            -         -           -               -
FNS/CNPP               1,496            -          -              -          -           -           -        -             -   415.9       248.3      831.8             -               -
FS                    37,648            -          -              -          -           -           -        -             -         -            -         -   36,895.0         753.0
Total*              111,501       5,809        979          3,608     14,888        2,595        6,130   10,739       9,258      736         914       1,171     38,266.0    16,407.0
Total by Goals*                                    25,285                                8,725               19,997                        2,821                         54,673




*Goal and objective totals have been rounded to the nearest whole number. Totals affected by rounding.




                                                                                                                                                                                  USDA
                                            FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                          115
 ANNUAL PERFORMANCE REPORT




DATA ASSESSMENT OF PERFORMANCE MEASURES
STRATEGIC GOAL 1: ENHANCE ECONOMIC OPPORTUNITIES FOR
AGRICULTURAL PRODUCERS
Objective 1.1:           Expand International Marketing Opportunities
KEY OUTCOME: IMPROVE INTERNATIONAL MARKETING OPPORTUNITIES
1.1.1    Dollar value of trade preserved through FAS staff interventions and trade agreement
         monitoring ($Mil)
        Completeness of Data—Data for the World Trade Organization and tariff rates are projected
         estimates based on results posted to the performance tracking system within the Foreign Agricultural
         Service. Data for successfully retaining and assuring U.S. trade access to export markets are projected
         estimates based on results posted during the first three quarters of FY 2004. Fourth quarter estimates
         were derived using the average quarterly reporting and discounting the results to reflect any large, one-
         time annual events not expected to be repeated in the final quarter. If any trade access disputes are
         resolved successfully by the end of the fiscal year, USDA will update this data accordingly.
         The primary sources of trade data are U.S. Customs, which was absorbed into the U.S. Department of
         Homeland Security, information compiled by the U.S. Census Bureau, the USDA publication “Foreign
         Agricultural Trade of the United States,” and other databases. For some products, trade data are not
         recorded. Estimating the potential value of a sanitary and phytosanitary accomplishment may be a
         challenge, especially where new exports to a previously closed market are concerned. In arriving at
         these estimates, USDA considers such factors as similar exports by other countries, the importing
         countries’ respective purchasing power and sales into comparable markets. In addition to trade data,
         other sources include market reports compiled by USDA and industry estimates.
        Reliability of Data—Data are highly reliable and used by agency and Department officials to
         highlight successes in the trade-policy arena.
        Quality of Data—USDA uses an automated performance tracking system to collect and analyze
         actual performance data. The data are collected from the Department’s network of overseas offices and
         headquarters staff conducting trade compliance and enforcement activities, and providing trade
         negotiation support to the U.S. Trade Representative (USTR). An established procedure is maintained
         to review each reported success for verification and the prevention of double counting. There often is a
         lag time between reporting successful resolution of trade issues and reporting the estimated value to
         U.S. agriculture. This also can happen with independent verification through the U.S. Government’s
         official trade statistics. There is no known remedy immediately available to address this problem.
Exhibit 73: Performance Threshold for 1.1.1

                                             Threshold Documentation Table
                 Performance Goal                                                           Performance Thresholds
                                                           Owner         Target
                                                                                      Exceeded       Met        Unmet
 1.1.1   Dollar value of trade preserved through FAS        FAS           2,000        > 2,500     2,500 to     <1,500
         staff interventions and trade agreement                                                    1,500
         monitoring ($Mil)
 Rationale for Met Range:
 Annual targets for this measure, based on five years of program history, have demonstrated that the performance levels are
 controlled by international parties. USDA annual targets reflect U.S. expectations for successfully addressing international
 compliance with trade agreements and resolving actual U.S. trade access issues that arise so that domestic exports can
 continue. Additionally, the level of international cooperation and agreement with U.S. proposed trade negotiations depends
 on international parties. A met or exceeded target reflects USDA successes in addressing barriers to U.S. trade. An unmet
 target can mean that USDA monitoring activities prevented noncompliance.




 USDA
  116                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                      ANNUAL PERFORMANCE REPORT




OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND
TRADE CAPACITY BUILDING
KEY OUTCOME: SUPPORT FOREIGN FOOD ASSISTANCE
1.2.1     Improve food security and nutrition through McGovern-Dole International Food for
          Education and Child Nutrition Program by providing daily meals and take-home rations
          for mothers, infants and school children (Mil.)
The data for the McGovern-Dole International Food for Education and Child Nutrition Program are monitored
and evaluated through the application of a biannual survey designed by the USDA’s NASS. The survey
methodology and reporting details are listed in the Government Publication, “The Global Food for Education
Pilot Program: A Review of Project Implementation and Impact,” Appendix 1, pages 289-305, February 2003.
      Completeness of Data—All cooperating sponsors who participate as program delivery partners are
         required to follow an exact established survey methodology developed by the USDA. The survey
         covers data on food rations distributed and school enrollment and promotions to the next grade level.
         While the biannual survey results supplied cover the first and third quarters of the fiscal year, there is a
         30-day lag time between the survey’s completion, coordination and delivery to USDA. Projected
         estimates between these times are provided through ongoing correspondence with the program
         organizations. All estimates and results are based on the previous year’s signed agreements since the
         signatures occur during the fourth quarter of the previous fiscal year.
          Annual performance targets take into account a one-year lag time for the food aid to arrive in the
          country. During the first quarter of FY 2004, the FY 2003 agreements for food were delivered to the
          countries. During the second quarter, approximately half of the agreements counties food for direct
          feeding. During the third quarter, all of the agreements provided food rations. For most of the fourth
          quarter, few food rations were distributed as schools are on summer break.
         Reliability of Data—Data are reliable, of good quality and used by Department officials to highlight
          successes in the trade policy arena.
         Quality of Data—Data collected following the USDA-developed and required survey tool depend on
          the program participant’s ability to interview food recipients. Access to recipients during the survey
          period may depend upon social conditions, civil unrest and weather and transportation conditions.
Exhibit 74: Performance Threshold for 1.2.1

                                                Threshold Documentation Table
                  Performance Goal                                                             Performance Thresholds
                                                              Owner          Target
                                                                                          Exceeded      Met        Unmet
 1.2.1    Improve food security and nutrition through          FAS            1.25         > 1.50      1.50 to     < 1.10
          McGovern-Dole International Food for                                                          1.10
          Education and Child Nutrition Program by
          providing daily meals and take-home rations
          for mothers, infants and school children
          (Mil.)
 Rationale for Met Range:
 This is a new, pilot food aid program with no historical record. An initial annual target threshold is set at 90 percent of the
 target. A new threshold will be evaluated after three years of actual data are collected.




                                                                                                                            USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                               117
 ANNUAL PERFORMANCE REPORT




OBJECTIVE 1.3 EXPAND ALTERNATIVE MARKETS FOR AGRICULTURAL
PRODUCTS AND ACTIVITIES
KEY OUTCOME: INCREASE SUPPLY OF DOMESTICALLY PRODUCED RENEWABLE FUELS
1.3.1    Increase In Bioenergy Production (biodiesel & ethanol in Mil Gal)
The data source for performance information is the Bioenergy-CCC-850A “Application for Payment” form.
Ethanol production also is verified with data reported by the Renewable Fuels Association (RFA), a trade group
representing the ethanol industry.
     Completeness of Data—Data for both biodiesel and ethanol are year–to–date actual, as of July 23,
         2004. Final fiscal year data are not expected until late November.
     Reliability of Data—Performance data come directly from Bioenergy Program records, which show
         production for each fiscal year compared to the previous one. These data are considered reliable. For
         biodiesel, there are no other data sources. Regarding ethanol, data reported by the RFA, which is the
         industry standard, are used as a verification of internal data.
     Quality of Data—U.S. warehouse examiners conduct on-site examinations to verify the accuracy and
         completeness of data reported on the Bioenergy-CCC-850A.
Exhibit 75: Performance Threshold for 1.3.1

                                            Threshold Documentation Table
                                                                                  Performance Thresholds
               Performance Goal                      Owner      Target      Exceeded      Met          Unmet
 1.3.1   Increase in bioenergy production          FFAS/FSA         
         (Mil Gal)
             biodiesel                                           4           > 4.4     3.6 – 4.4      < 3.6
             ethanol                                            200         > 240      200 – 240     < 200
 Rationale for Met Range: Management determination


KEY OUTCOME: INCREASE THE PURCHASES OF BIOBASED PRODUCTS BY FEDERAL
             AGENCIES, RESULTING IN INCREASED DEMAND FOR FARM
             COMMODITIES AND INCREASED INVESTMENT IN PROCESSING AND
             MANUFACTURING ACTIVITY BASED IN RURAL AMERICA
1.3.2    Number of Generic Groupings of Biobased Products Designed for Preferred
         Procurement by Federal Agencies
Data to support designation of biobased products for preferred procurement by rulemaking are obtained from a
number of sources. First, manufacturers and vendors of such products are identified and contacted. USDA asks
for their cooperation in providing data and other product information necessary for the designation of an item
by rulemaking. Second, product samples are requested from manufacturers and vendors for biobased content
testing. Third, product-manufacturing information also is requested from manufacturers and vendors to support
an analysis of several environmental factors associated with the use of the product and its life-cycle cost.
Finally, the Department asks manufacturers and vendors for the results of industry-accepted performance tests
against which their products have been tested.
      Completeness of Data—These data are used to develop the required information on generic
          groupings of biobased products for use in designation rulemaking. They are developed in cooperation
          with manufacturers and vendors of biobased products that fall under the umbrella of a designation.
          Data used meet the statutory requirements for designation rulemaking.




 USDA
  118                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




        Reliability of Data—Data are gathered from cooperating manufacturers and vendors. Then, these
         data are used in analyses to determine the biobased content of a range of products within a generic
         grouping and the environmental attributes and life-cycle costs of these products. The data are used in
         tests that determine American Society for Testing and Materials (ASTM) compliance. This compliance
         is named for ASTM International, a major standards-setting organization that develops consensus
         standards using participants from industry, academia and Government. Its standards are used widely
         around the world. The results from analyses of a range of products then are used to characterize the
         generic groupings considered consistent with statutory requirements.
        Quality of Data—The quality of the data used in analyses is high. Samples of products to be tested
         for biobased content are handled consistently with ASTM-specified processes. Information is gathered
         for analysis of environmental attributes and life-cycle costs, which is required to support an ASTM-
         compliant analytic framework. Information is gathered from manufacturers and vendors for analysis of
         the environmental and health effects of using the products and the life-cycle costs associated with their
         use (life-cycle costs are measured over the life of the products, including disposal costs, and stated in
         current dollars), as opposed to simply the purchase price of the product.
Exhibit 76: Performance Threshold for 1.3.2

                                              Threshold Documentation Table
                                                                                        Performance Thresholds
                Performance Goal                        Owner         Target      Exceeded      Met          Unmet
 1.3.2   Number of generic groupings of                 OEPNU            2            >3            1-3              <1
         biobased products designated for
         preferred procurement by Federal
         agencies
 Rationale for Met Range:
 This is a new program and ranges will be re-evaluated each year for reasonableness and identification of a historical trend.
 The current ranges reflect the cooperation level of manufacturers and vendors in working with OEPNU to develop data
 required for designation of generic groupings by rulemaking.



OBJECTIVE 1.4: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO
FARMERS AND RANCHERS
KEY OUTCOME: REDUCE THE ECONOMIC RISK OF AMERICAN AGRICULTURAL
             PRODUCERS.
1.4.1    Increase the value of risk protection provided to agricultural producers through FCIC-
         sponsored insurance.
The value of risk protection denotes the amount of insurance in effect protecting and stabilizing the agricultural
economy. USDA’s value projection target is based on projections developed in November 2003, forecasted
participation and conditions current at that time. The baseline model uses the latest information from the crop
insurance program and combines it with USDA baseline projections for major crops. These crops include corn,
wheat, soybeans, sorghum, barley, rice and cotton. In making the projections, the model holds various factors
constant, such as premium rates and average coverage level. The model assumes that all non-major crops
behave consistently with other USDA projections for major crops. The baseline model is a tool for developing
budget projections contained in Presidential budget requests. The budget and performance projections for the
crop insurance program mainly depend on the baseline projections from numerous USDA agencies.
      Completeness of Data—The data used in conjunction with performance information is based on
         actual data reported through the end of the third quarter. To provide the annual data, USDA projects
         the results for the fourth quarter of the fiscal year based on prior year performance. Analysis has shown
         that normally 99 percent of the final actual data will be reported to USDA during the first quarter of



                                                                                                                       USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                          119
 ANNUAL PERFORMANCE REPORT




         the next fiscal year. The Department receives the actual data from insurance companies. It then
         maintains data through two integrated processing systems that validate the information transmitted by
         insurance companies. The data then are sent through the system to generate all accounting functions.
         These processing systems provide a mechanism to ensure that data received are accurate, errors are
         corrected quickly and timely monthly accounting reports are provided.
        Reliability of Data—USDA deems this information to be reliable. The insurance companies receive
         data from the producers and transmit them to USDA. Once received, the Department takes extensive
         steps to verify the data’s accuracy and validity. The Standard Reinsurance Agreement (SRA) also
         provides reinsured companies with disincentives for not following prescribed guidelines and
         procedures. While the data are deemed reliable, a recent audit by OIG found that the RMA information
         technology environment might be vulnerable to errors, misuse, abuse, unauthorized access, disruption
         of service and willful destruction. RMA generally agreed with these findings and has made substantial
         progress in implementing the agreed to recommendations.
        Quality of Data—Data are projected based on historical performance and the target information uses
         data dependent upon the baseline projections from numerous USDA agencies. To the extent that any of
         the USDA projections are inacurate, the projection of value also will be inaccurate.
Exhibit 77: Performance Threshold for 1.4.2

                                                 Threshold Documentation Table
                                                                                           Performance Thresholds
                Performance Goal                         Owner         Target     Exceeded           Met            Unmet
 1.4.1   Increase the value of risk protection         FFAS/RMA        $42.7        >$43.8         $41.7 to         <$41.6
         provided to agricultural producers                                                         $43.7
         through FCIC sponsored insurance
         ($ Bil)
 Rationale for Met Range:
 Annual targets for this measure, based on five years of program history, have consistently seen a variability of plus or minus
 two for each fiscal year.



KEY OUTCOME: IMPROVE ECONOMIC VIABILITY OF FARMERS AND RANCHERS
1.4.2:   Increase the Percent of Loans to Beginning and Socially Disadvantaged Farmers
The Farm Loan Program (FLP) makes direct and guaranteed farm ownership and operating loans to family-size
farmers and ranchers unable to obtain commercial credit. The data reside primarily in the Program Loan
Accounting System (PLAS), Guaranteed Loan System (GLS) and FLP Databases. Web-based reports are the
primary means of measuring Farm Loan Program performance. USDA reviews these reports quarterly to
monitor progress toward achieving performance goals.
     Completeness of Data—Data reported are year-to-date actual as of September 30.
     Reliability of Data—Farm Loan Program data are considered reliable. To help ensure data
         reliability, internal controls are built into the systems. System enhancements and reviews also have
         contributed to the overall reliability. Additionally, USDA reviews system reports to monitor program
         performance. Comprehensive internal control reviews are conducted in State offices annually to ensure
         sound loan-making decisions and that program implementation complies with statutes and regulations.
         Finally, since most Farm Loan Program data originate from USDA’s accounting system, it is subject to
         an OIG audit.
     Quality of Data—The data used in this report are collected for multiple purposes. They are gathered
         throughout the normal lending process without significant additional burden or analytical resources
         needed.




 USDA
  120                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




Exhibit 78: Performance Threshold for 1.4.2

                                           Threshold Documentation Table
                                                                               Performance Thresholds
              Performance Goal                     Owner       Target      Exceeded        Met        Unmet
 1.4.2   Increase the percent of loans to         FFAS/FSA      35%         >35.5%     34.5-35.5%     <34.5%
         beginning and socially disadvantaged
         farmer/ranchers
 Rationale for Met Range:
 Management determination based on previous year results.



STRATEGIC GOAL 2: SUPPORT INCREASED ECONOMIC OPPORTUNITIES AND
IMPROVED QUALITY OF LIFE IN RURAL AMERICA
Objective 2.1:         Expand economic opportunities through USDA financing of
                       businesses
KEY OUTCOME: IMPROVE RURAL QUALITY OF LIFE THROUGH HOME OWNERSHIP
             OPPORTUNITIES PROVIDED
Business program data are collected in various systems and ways. The finance office records and reports total
loan and grant obligations as of the date the obligation is executed. These data are collected as part of the
obligation process. Additionally, RD uses one of its own systems, Guaranteed Loan System (GLS), to collect
additional information to satisfy reporting requirements, and for management and evaluation purposes. This
information includes the number of jobs created or saved. Data on delinquency status mostly are reported by
lenders directly to GLS. In other cases, USDA staff reports delinquency information.
      Completeness of Data—Business program data are considered final and complete as of
         September 30 each year. Other than year-end closing adjustments, once a year is reported, it is not
         revisited.
      Reliability of Data—While borrower financial performance is reported by hundreds of lenders semi-
         annually to RBCS, all lenders are not submitting required borrower financial performance.
         Additionally, there is inconsistency in the time periods represented by lender reports. In lieu of a
         reliable, consistent and complete data set from lenders, the Finance Office’s financial data have been
         found acceptable to OIG, as are State office-verified data on the financial performance of loans. Data
         for jobs created or saved are obtained by State office staff from borrowers and lenders. They are
         entered into GLS at the same time that obligations are recorded. These data are reliable when they have
         been updated and verified by State staff. USDA reports the computed jobs saved or created based on
         underlying market and financial feasibility projections that support loan applications. The jobs are
         counted only in one fiscal year, the year the loan is obligated. The delinquency rate, which excludes
         loans in bankruptcy, is based on reports supplied by lenders on the performance of each loan.
        Quality of Data—While the percentage of States verifying third-party financial and jobs data have
         improved each year, further improvements are needed. They are designing and completing a model to
         compute and measure the impacts of business programs in rural communities better. These impacts
         include a fuller description of the economic impact and such “quality-of-life” issues as health and
         education.




                                                                                                        USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                            121
 ANNUAL PERFORMANCE REPORT




Exhibit 79: Performance Threshold for 2.1.1

                                              Threshold Documentation Table
                                                                                          Performance Thresholds
               Performance Goal                        Owner         Target       Exceeded              Met          Unmet
 2.1.1   Create or save additional jobs through       RD/RBS            73,569     >77,247      69,890 – 77,247      <69,890
         USDA financing of businesses                 (RCAP)
 Rationale for Met Range:
 USDA has initiated a comprehensive study to verify the methodologies available to accurately track the outcomes of these
 programs. Until that study is complete and implemented, the Department will continue to track jobs. The job data is gathered
 when projects are obligated in GLS and the jobs projected are computed based on a formula driven by appropriations, each
 FY the formula is adjusted based on the historic numbers. A met range of 5 percent is used.


OBJECTIVE 2.2: IMPROVE THE QUALITY OF LIFE THROUGH USDA FINANCING
OF QUALITY HOUSING, MODERN UTILITIES, AND NEEDED COMMUNITY
FACILITIES.
KEY OUTCOME:
2.2.1    Homeownership
        Completeness of Data—Homeownership data are actual, final and complete. The initial entry point
         for homeownership data is the Web-based UniFi system. This centralized server application ensures
         viable data collection. It tracks performance and forecasts needs. Information entered into UniFi also
         uploads nightly into the MortageServ (a.k.a., Fasteller) system that is used to obligate funds, establish
         closed loans, administer escrow accounts, manage defaulted loans and perform other administrative
         functions. Brio, a query and reporting tool, serves as the interface between the data warehouse and RD
         staff.
        Reliability of Data—Homeownership data originate in systems used to obligate funding and are
         reliable. Data for initial placement of households into their own homes are reliable since they are
         linked directly to homeownership loans maintained in USDA’s financial accounting systems. No
         adjustments are made for later defaults and the resulting loss of homeownership.
        Quality of Data—Homeownership data are based on loan obligations collected in the Dedicated
         Loan Origination and Servicing system and stored in USDA’s Data Warehouse. As such, the data on
         the number of households are auditable. Data represent the population served based on available U.S.
         census information.
Exhibit 80: Improve the Quality of Life in Rural America through Homeownership

                                              Threshold Documentation Table
                                                                                        Performance Thresholds
             Performance Goal                     Owner        Target        Exceeded             Met              Unmet
 2.2.1   Increase financial assistance to         RD/RHS       41,705         >45,875        37,535- 45,875         <37,535
         rural households to buy a home            (SFH)
 Rationale for Met Range:
 The range of 10 percent is based on the historical variance form the target during the past several years in the number of
 houses sold in the Guaranteed and Direct Single Family Housing loan programs.




 USDA
  122                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




2.2.2    Water and the Environment
The Water and Environmental Programs (WEP) collects data initially through the Community Programs
Application Processing (CPAP) system. CPAP is a non-financial system in which the agency field staff input
data about applicants, borrowers, funding and services provided. The data obligations flow through the Rural
Utilities Loan Servicing System (RULSS) to the PLAS and through a data server to a data warehouse.
USDA’s data warehouse stores historical information on Department programs and such non-agency data as
census information. Program data are downloaded to the warehouse every evening from several accounting
databases. Data generally are current through the previous day. The warehouse provides data about obligations
and can be used to measure the number of loans, loan amounts, number of borrowers and funds advanced. The
warehouse is an easy, accessible online method of extracting information and data for reports and analyses.
Based on information in CPAP, the number of subscribers receiving new or improved water or wastewater
service can be extrapolated from the data warehouse. The WEP National Office and USDA field offices use
data from CPAP, the data warehouse and Department accounting systems to review or evaluate the financial,
operational and managerial programs of the utilities serving rural customers.
Exhibit 81: Performance Threshold for 2.2.2

                                             Threshold Documentation Table
                                                                                         Performance Thresholds
               Performance Goal                        Owner         Target        Exceeded            Met         Unmet
 2.2.2   Increase the number of subscribers           RD/RUS         .650 Mil         >.680        680 to .610      >.610
         receiving new and/or improved water
         and/or waste disposal service (Mil)
 Rationale for Met Range:
 Annual targets for this measure are based on historical activity and are adjusted according to the program level received
 each fiscal year.



2.2.3    Electricity
        Completeness of Data—Electric Program data are collected from various Rural Utility Service
         (RVS) documents including RUS Forms 740c and 130, Borrower’s Statistical Profile, Information
         Publication 201-1 and the borrower’s loan application. The data are complete and accurate, and
         collected at the time of loan approval and reported annually.
        Reliability of Data—Applicants are required to report essential data to the Electric Program. These
         data are used to administer Department loan funds and to ensure the security of the loans. USDA is
         developing a new loan tracking and data collection system, Rural Utilities Loan Servicing System
         (RULSS). The Department will be able to capture and access this information in RULSS in FY 2006.
        Quality of Data—All applications undergo an extensive review to determine whether the borrower
         meets all eligibility requirements for the various loans, guarantees and grants offered by the Electric
         Program. All approved applications must show feasibility from a financial standpoint and ensure loan
         security. Loan funds only may be used for the approved purposes for which the loan was made.




                                                                                                                      USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                          123
 ANNUAL PERFORMANCE REPORT




Exhibit 82: Performance Threshold for 2.2.3

                                               Threshold Documentation Table
                                                                                             Performance Thresholds
                Performance Goal                         Owner          Target        Exceeded             Met          Unmet
 2.2.3    Increase the number of subscribers          RD/RUS          1.504 Mil      >1.579 Mil       1.59 Mil –      <1.429 Mil
          receiving new or improved electric                                                          1.429 Mil
          service (Mil)
 Rationale for Met Range:
 Annual targets for this measure are based on historical activity and are adjusted according to the program level received
 each fiscal year.



2.2.4    Telecommunications
        Completeness of Data—Data are actual, final and complete. The county data are collected from each
         approved loan application. Applicants are required to detail their proposed service territories. This
         includes the number of subscribers to be served in the location by county. Loan funds are advanced
         only for approved purposes. Measuring the extent to which broadband service is deployed in rural
         America on a county-by-county basis will enable USDA to assess improved economic conditions
         because of the availability of high-speed telecommunications network access for residents and
         business.
         The data on the number of counties to be served for each loan are derived from applicants’ loan
         applications. Data must be complete before loans can be approved.
        Reliability of Data—While applicants are required to perform market surveys of their proposed
         service areas, the actual counties served may vary from the plan if all funds are not used or the
         borrower later requests a change of purpose from the original loan application. Overall, the data on
         counties served are reliable.
        Quality of Data—All applications undergo an extensive review to determine eligibility. Additionally,
         all approved applications must show feasibility from a financial and technical standpoint. Applicants
         also are required to perform market surveys of their proposed service areas. Therefore, the data are
         reliable. As previously noted, the data on the number of counties to be served for each loan approved
         come from the applicant’s loan application. The data depend on the borrower drawing down loan funds
         and constructing the system as portrayed in the applicant’s loan design. Loan funds only may be used
         for the approved purposes for which the loan was made. Variance may result if a borrower does not
         draw down all loan funds or request approval for a change of purpose from the original loan. This
         could result in a different number of counties served from the number specified in the plan.
Exhibit 83: Performance Threshold for 2.2.4

                                               Threshold Documentation Table
                                                                                             Performance Thresholds
                Performance Goal                         Owner          Target        Exceeded             Met          Unmet
 2.2.4    Increase the number of subscribers           (RD/RUS)          .695            >.700           .650 to         <.650
          receiving new and/or improved                                                                   .700
          telecommunications service (Mil)
 Rationale for Met Range:
 Target based on utilization of approximately $600 million in broadband funding and $687 million in infrastructure funding.
 The number of subscribers is based on historical costs. Thus, fluctuations occur when plan investment per subscriber is
 significantly different from historical costs. They also occur when plant investment per subscriber is significantly different
 from historical costs from year to year. The met range of 50,000 allows for a modest 7 percent deviation below the
 estimated target.




 USDA
  124                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                 ANNUAL PERFORMANCE REPORT




2.2.5    Community Facilities
        Completeness of Data—Community Facilities Program data are complete and final. They are
         collected by means of two streams of input. The finance office records and reports total loan and grant
         obligations as of the date of obligations. These data are collected as part of the obligation process.
         Additionally, USDA collects information for management and evaluation purposes. Data on
         delinquency status are reported by the finance office for community facilities direct loans, and by
         lenders for the community Facilities guaranteed loans.
        Reliability of Data—Community Facilities data are entered into GLS by field staff as the program
         funds are obligated. Data are final, complete and reliable. They also represent the population served
         based on available U.S. census information. Population data served by community facilities are
         estimates. USDA screens data annually for irregularities. Given the variety of areas served by different
         types of community facilities (e.g., libraries, fire stations, health clinics), estimation is not a precise
         science. Population estimates served by community facilities are based on engineering studies used for
         the design of new or expanded public utilities systems. The Department is developing mapping
         technologies to improve the determination of service areas for community facilities.
        Quality of Data—As new programs are authorized, CPAP is used to create data systems that field staff
         can use to work directly and interactively with applicants. Planned system requirements can be
         developed quickly. CPAP contains a number of edit checks to enhance reliability. The data are stored
         on a server and moved nightly to the data warehouse for permanent storage and reporting. This manner
         of developing system plans greatly enhances data reliability since they are integral to program
         planning.
Exhibit 84: Performance Threshold for 2.2.5

                                                Threshold Documentation Table
                                                                                           Performance Thresholds
                Performance Goal                        Owner          Target        Exceeded            Met          Unmet
 2.2.5   Increase the number of subscribers            RD./RHS           12             >14           10 to 14         <10
         receiving new and/or improved                 (RCAP)
         essential community facilities (Mil)
 Rationale for Met Range:
 Because the number of residents served by each grant may vary widely, it is difficult, if not impossible, to estimate with any
 precision a range of residents served. One grant for a fire engine could serve 22,000 people whereas the same grant
 amount for a hospital could server 22,000. Therefore, USDA would consider its 2004 goal unmet if CF serves fewer than 10
 million people.


STRATEGIC GOAL 3: ENHANCE PROTECTION AND SAFETY OF THE NATION’S
AGRICULTURE AND FOOD SUPPLY
Objective 3.1:           Enhance the Protection of Meat, Poultry and Egg Products from
                         Foodborne Hazards in the United States
KEY OUTCOMES: BASING POLICIES ON SCIENCE
For the two Key Outcomes, USDA uses secure and accurate food safety data systems. The data are derived
from sampling plans and analysis of product samples taken from meat and poultry plants by Department
employees. The samples are analyzed by International Standards Organization (ISO) accredited laboratories to
ensure accurate results. ISO is a network of the national standards institutes of 146 countries. These countries
work with international organizations, Governments industry business and consumer representatives. Once the
laboratories have the results, they enter them into the Laboratory Sample Flow System. The system then
forwards the results to the Microbiological and Residue Computer Information System. The results then are sent


                                                                                                                        USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                           125
 ANNUAL PERFORMANCE REPORT




to the Pathogen Reduction Enforcement System (PREP). PREP uses the results to schedule future sampling at
USDA-inspected plants. The data are considered to be extremely reliable. Policy, program decisions and
resource allocation are based on this data.

Improve Detection of Foodborne Hazards
Data for developing systems for detecting foodborne hazards represent actual accomplishments to date and are
highly reliable. Each research unit submits annual progress reports via USDA’s state-of-the-art electronic
information and database system. Line and program managers review the information and report their findings
to Congress, customers, stakeholders, partners and the general public. Progress reports are available at
http://www.ars.usda.gov/. Once there, click on the word “Research” located in the upper left-hand corner of the
screen. The reports also are available at the Food Safety Research Information Office (FSRIO). This office is
the source for all Federal food safety research information, including the role and duties of the Joint Institute for
Food Safety Research. This group was created to coordinate Federal food safety research to ensure that valuable
resources are directed to the most needed and most promising projects. Data from the USDA Food Safety
Research Program must meet FSRIA’s quality standards. Customers and stakeholders provide the Department
with continual feedback on the data’s quality, relevance, value and usefulness.
      Completeness, Reliability and Quality of Data
         − Pathogen measures—All samples are logged in upon receipt, analyzed and then entered into the
              Laboratory Sample Flow System. A sample’s milestones are posted on an intranet site accessible
              by the sample collector and other agency personnel to monitor the sample’s progress. Reports are
              generated periodically to review sample status, cumulative results and other sampling data
              summaries. Any potential errors are brought immediately to the attention of the System
              Administrator for investigation and correction.
         − Viewing measure—Audience viewings reflect a combination of documented Hotline calls,
              electronic mailboxes, Web viewings, newsletter subscriptions, publication distributions, and the
              Agency Rep, “AskKaren” Web-based initiative. Included is a percentage (20 percent) of various
              media (TV, radio, print) outlet audience tracking data as compiled by independent media outreach
              tracking services.
        Quality of Data
         − Pathogen measures—The laboratories are accredited through ISO 17025, which requires
              extensive quality procedures, documentation and review.
         − Viewing measure—Viewing data of food safety messages is based on a combination of actual
              documented records, reports and/or print-outs (daily, weekly and monthly) along with a
              percentage (20 percent) of the total various media circulation, listener and viewing audience
              figures provided through tracking services.
        Reliability of Data
         − Pathogen measures—The data are reviewed thoroughly prior to posting annual summaries on the
              FSIS Web site http://www.fsis.usda.gov/, publications and published reports.
         − Viewing measures—USDA defines viewings as a best estimate of the number of people exposed
              to food safety messages through all the means used to deliver these messages: print, radio or
              television media, conventions, presentations, newsletters, USDA Web site visits, Meat and Poultry
              Hotline calls, food safety publications, the USDA Mobile and State partnerships. Data are
              reviewed weekly and/or monthly prior to inclusion in other reports.
Exhibit 85: Performance Thresholds for 3.1.1, 3.1.2, 3.1.3 and 3.1.4

                                          Threshold Documentation Table
           Performance Goal/Measure                  Owner        Target            Performance Thresholds




 USDA
  126                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                              ANNUAL PERFORMANCE REPORT




                                                                                        Exceeded          Met        Unmet
 3.1.1:   Prevalence of Salmonella on broiler               FSIS          11.7%            <10.0       10 to 12       >12
          chickens.
 Rationale for Met Range:
 For Salmonella in young chickens where existing prevalence is more than 10 percent, a regulatory prevalence of 10 to 12
 percent reflects a performance consistent with the target.
 3.1.2: Prevalence of Listeria monocytogenes on             FSIS           0.8%             < .7        .7 to .9      >.9
          ready-to-eat meat and poultry products
 Rationale for Met Range:
 For Listeria monocytogenes on ready-to-eat meat and poultry products where regulatory prevalence is already below 1
 percent, a regulatory prevalence of .7 to .9 percent reflects a performance consistent with the recommended target.
 3.1.3:   Prevalence of E. coli 0157:H7 on ground         FSIS           0.37%        <.18%         .18 to .9      > .9
          beef.
 Rationale for Met Range:
 For E. coli 0157:H7 on ground beef products where regulatory prevalence is already below 1 percent, a regulatory
 prevalence of .18 to .9 percent reflects a performance consistent with the recommended target.
 3.1.4: Millions of viewings of food safety               FSIS            94M         >100M          90M to       <90M
          messages (Mil)                                                                              100M
 Rationale for Met Range:
 Achieving 90-100 Million viewings is recognized as a sound marketing strategy to raise awareness of safe food handling
 behaviors.



OBJECTIVE 3.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL
PEST AND DISEASE OUTBREAKS
KEY OUTCOME: PROVIDE A SECURE AGRICULTURAL PRODUCTION SYSTEM AND
             HEALTHY FOOD SUPPLY
3.2.1     Number of significant introductions of foreign animal diseases and pests that spread
          beyond the original area of introduction and cause severe economic or environmental
          damage, or damage to the health of animals or humans.
The process of determining this performance result involves several steps: (1) routine monitoring and
surveillance of world animal health problems; (2) investigating specific reports to identify if a new introduction
of a significant foreign animal disease has occurred and testing to determine the extent of infection; and (3)
evaluation to determine the severity of the damage and summarize the results count.
(1) Routine Monitoring: Notice of the need to investigate a possible foreign animal disease may come from a
wide variety of sources spread throughout the country. The National Animal Health Monitoring System
conducts planned surveys of diseases likely to have major impact on production and marketing. The National
Anima Health Strategic Plan Objective 2 “Develop standards, quality control, and performance metrics for
surveillance systems” states that key health indicator data will be collected annually starting in October 2005.
Specific causes of loss by age group within each commodity will be gathered. In addition to conducting
domestic surveys, USDA also maintains the presence of animal health professionals overseas to collect
surveillance information on foreign animal diseases to prevent these diseases from entering the United States.
(2) Foreign Animal Disease Investigations and Testing: USDA set a target of 550 foreign animal disease
investigations for FY 2004. When an infection is reported and confirmed, area-wide testing is conducted around
the foci of infection using a comprehensive system of statistically significant diagnostic samples. The samples
are tested in state-of-the-art laboratories. Testing data are recorded in the Emergency Management Response
System (EMRS), National Animal Health Monitoring System (NAHMS) and the National Animal Health
Reporting System (NAHRS.) All susceptible animals within an appropriate distance of the foci of infection are
tested. The appropriate area for testing is determined using data regarding disease agents and how those agents
are spread (through the air by biological or mechanical). The anticipated spread rate is based on weather
conditions and movements or contacts on and off of the infected premises, as well as the anticipated


                                                                                                                    USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        127
 ANNUAL PERFORMANCE REPORT




expectations of trading partners regarding testing and surveillance. Animals that are positive or have known
exposure within at least two disease agent incubation periods are destroyed or retested until the quarantine is
removed. If there are limited numbers of animals around the foci of infection the testing area may be expanded
to ensure that no animals are infected, and trace out investigations and testing on all animals from the foci herd
may be performed.
Statistical sampling focuses on animals at slaughter and, concentration points if movement is being allowed, or
in high risk areas. Door-to-door censuses are completed or requests are made that the public report any sick
animals meeting a particular case description. Sampling data should be entered into the National Veterinary
Services Laboratories (NVSL) databases, EMRS and National Animal Health Laboratory Network (NAHLN)
databases. NVSL validates all samples found positive by other network laboratories.
(3) Reporting and Summarizing Results: As data about introduction arrive, veterinarians on USDA’s
Emergency Programs Staff analyze them and apply criteria to determine if the introductions are significant and
have spread. All introductions of agents listed by World Organization for Animal Health (Office International
des Epizooties (OIE)) and considered to be foreign to the U.S. are reported are reported to that body.
      Completeness of Data—The end-of-year data are complete, actual and final when the scheduled
         testing is finished, the samples are analyzed and the quarantined animals are tested and released. A
         cutoff time for the data, which are used for the final summary count, has been set at approximately one
         month before the required reporting date. If no data indicating an outbreak has spread have been
         received in the month preceding the decision, the decision based on that time period will be made. If
         additional data are submitted indicating an outbreak has spread, they will be considered for the next
         time period.
      Reliability of Data—The summary data are considered reliable when USDA’s Deputy Administrator
         of Veterinary Services’ has reviewed and approved them.
      Quality of Data—The issues related to collection and reporting of performance information are
         described above.
Exhibit 86. Performance Threshold for 3.2.1

                                             Threshold Documentation Table
                                                                                         Performance Thresholds
            Performance Goal/Measure                    Owner         Target         Exceeded      Met       Unmet
 3.2.1   Number of significant introductions of         APHIS            0          Not possible        0        1 or above
         foreign animal diseases and pests that
         spread beyond the original area of
         introduction and cause severe economic
         or environmental damage, or damage to
         the health of animals or humans.
 Rationale for Met Range:
 These foreign animal diseases are very serious. Veterinary Services seeks to prevent the spread of every single one.



3.2.2    Number of animals affected by noncompliances documented on inspection reports,
         and
3.2.3    Percent of facilities in complete compliance at the most recent inspection.
The data source for these measures is the Licensing and Registration Information System (LARIS), which
contains facility inspection results data on licensed and registered facilities.
Animal Care field inspectors enter reports into LARIS using laptop computers. Copies of inspection reports are
provided to facility personnel and reviewed by supervisory animal-care specialists. There is ample opportunity
for correcting any errors. In FY 1999, reports were found to be present in LARIS for 99 percent of active




 USDA
  128                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                 ANNUAL PERFORMANCE REPORT




facilities. The validity of the measures was established in 1996 using a team of front-line inspectors and input
from stakeholder organizations. Totals are computed by an automated program.
While the percentage of compliant facilities is an excellent, comprehensive, overall measure, it is not a perfect
indicator of the welfare of animals. Minor problems that do not affect the welfare of animals directly count
against the facilities. To compensate, a measure for animals affected by noncompliances was added. The
number of inspections performed also is tracked and made available to managers.
      Completeness of Data—It takes animal welfare facility inspectors about a month to finalize their
         facility inspection data. If they fail to enter the data for a given facility, the computer program that
         counts the number of facilities in compliance will select the previous inspection report to see if the
         facililty was in compliance on its previous inspection. If results data are required to be reported before
         the inspectors can enter their findings, the data on the percentage of compliant facilities, while still
         considered complete, will be based on a slightly earlier time period. This should not affect the results
         significantly. On the other hand, the computer program that counts the number of animals affected by
         violations will understate the results, and they will need to be adjusted to represent a full year of
         findings.
      Reliability of Data—While there will be some variation between inspectors in how strict they are,
         when all their tendencies are pooled, the differences offset each other. The inspectors must continue to
         use their best professional judgment in the same way each year for comparable results.
      Quality of Data—These data are of highest quality. They are taken very seriously by the inspectors
         and facility owners or managers, and documented with signatures. If there are mistakes or
         disagreements, an avenue for appeal to the inspector’s supervisor exists.
Exhibit 87: Performance Thresholds for 3.2.2 and 3.2.3

                                               Threshold Documentation Table
                                                                                         Performance Thresholds
            Performance Goal/Measure                    Owner          Target        Exceeded        Met     Unmet
 3.2.2   Number of animals affected by                  APHIS         340,000        >336,600     336,600   <343,400
         noncompliances documented on                                                              to 343,
         inspection reports Baseline: 2001 =                                                         400
         588,961
 3.2.3   Percent of facilities in complete              APHIS           70%             >72%         72 to 68      < 68%
         compliance at the most recent inspection
 Rationale for Met Range:
 With so many animals affected by noncompliance, it is reasonable that the results could vary by 1 percent more than or less
 than the target and still be considered to have met it. Anything beyond 1 percent would mean the target has been exceeded
 or not met. Note that the goal is to lower this result.
 A similar basis was used for the percent of facilities in compliance. There are more than 15,000 at any given time. A
 variation of 1 percent seems insignificant.


KEY OUTCOME: IMPROVE ANIMAL AND PLANT DIAGNOSTIC LABORATORY CAPABILITIES
3.2.4    Improve the capabilities of animal and plant diagnostic information
        Completeness of Data—This measure is direct and verifiable and representative of the ultimate
         purpose of the Diagnostic Networks, i.e., to detect and identify disease threats.
        Reliability of Data—USDA action, other internal and external customers and stakeholders, and
         regulatory agencies routinely accept the data.
        Quality of Data—Most of the data released is published in scientific journals where they undergo
         peer review before publication. All data released to the public are governed by the USDA Data Quality
         Guidelines.



                                                                                                                     USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        129
 ANNUAL PERFORMANCE REPORT




                                               Threshold Documentation Table
                                                                                             Performance Thresholds
            Performance Goal/Measure                       Owner          Target         Exceeded      Met       Unmet
 3.2.4   Improve the capabilities of animal and
         plant diagnostic information.
             Specific plant diseases labs are            CSREES             3                >4              2 to 4        <2
              prepared to detect
            Specific animal diseases labs are            CSREES             6                >7              5 to 7        <5
              prepared to detect
 Rationale for Met Range:
 With the possibility of unanticipated research barriers mitigating against achieving the target, it qualifies as a reasonable
 proposed range.



KEY OUTCOME: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND
             DISEASE OUTBREAKS
3.2.5     Provide scientific information to protect animals from pests, infectious diseases and
          other disease-causing entities that impact animal and human health.
         Completeness of Data—Research is a continuum of discovery so it is constantly being updated.
          ARS does everything it can to ensure the completeness of its data at the time it is released..
         Reliability of Data—ARS data is routinely accepted by the USDA action and regulatory agencies.
         Quality of Data—Most of the data released by ARS is published in scientific journals where it
          undergoes peer review before publication. ARS data released to the public is governed by the USDA
          Data Quality Guidelines.
                                               Threshold Documentation Table
                                                                                             Performance Thresholds
            Performance Goal/Measure                       Owner          Target         Exceeded      Met       Unmet
 3.2.5   Provide scientific information to protect
         animals from pests, infectious diseases
         and other disease-causing entities that
         impact animal and human health.
             Number of organisms or variants of             ARS             55              >57             53 to 57      <53
              the microorganisms sequenced each
              year.
            Number of resistance markers for a              ARS             8                >9              7 to 9        <7
              variety of diseases identified.
            Number of tests that are transferred            ARS              3               >4              2 to 4        <3
              to universities, State laboratories,
              private industry or other countries for
              use.
 Rationale for Met Range:
 With the possibility of unanticipated research barriers mitigating against achieving the target, it qualifies as a reasonable
 proposed range.




 USDA
  130                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                        ANNUAL PERFORMANCE REPORT




STRATEGIC GOAL 4: IMPROVING THE NATION’S NUTRITION AND HEALTH
Objective 4.1:        Improve Access to Nutritious Food
KEY OUTCOME: IMPROVE NUTRITION INTAKE THROUGH INCREASED ACCESS TO, AND
                      UTILIZATION OF THESE VITAL PROGRAMS BY THOSE ELIGIBLE TO
                      PARTICIPATE
4.1.1    Improve Access to Nutritious Food
The Food Stamp Program (FSP) Participation Rate—This rate is calculated by comparing estimates of
eligible individuals with the number of actual participants. The resulting participation rates estimate the
percentage of individuals eligible for FSP who choose to participate.
Participation data are drawn from USDA administrative records. State agency reports are certified accurate and
submitted to regional offices. There, they are reviewed for completeness and consistency. If the data are
acceptable, the regional analyst posts them to the National Data Bank (NDB) Preload System. NDB is a holding
area for data review prior to release. Otherwise, regional office personnel reject the report and the State agency
is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and
consistent with previous reports, they will be downloaded to NDB for public release. Otherwise, USDA works
with regional offices and States to resolve problems and inconsistencies. This process of review and revision
ensures that the data are as accurate and reliable as possible.
The estimate of individuals eligible for the program is developed using a computer model of eligibility
requirements applied to data from the U.S. Census Bureau’s annual Current Population Survey. This survey
covers demographic characteristics of the U.S. population. It uses nationally representative sampling
techniques. This data are supplemented with that on food stamp participant characteristics derived from the food
stamp quality control (QC) process. Food stamp participant data are based upon statistically valid methodology
(For more information on QC, see the assessment section for Objective 4.3.1).
     Completeness of Data—Because of the time required to collect and analyze the current population
         survey and the QC data, reporting on this measure is deferred to the following year’s report. Once
         available, data for both participants and eligible people are complete. Participation data are collected
         and validated monthly before being declared annual data. The current population survey and QC data
         represent statistically valid national samples.
     Reliability of the Data—The data are highly reliable. Participation data reporting is used to support
         program financial operations. All of the data are used in published analyses, studies and reports. They
         also are used to support dialogue with and information requests from the Government Accountability
         Office (GAO), the Office of Inspector General (OIG) and the Office of Management and Budget.
     Quality of the Data—As described above, the data used to develop this measure are used widely for
         multiple purposes, both within and outside USDA. The measure itself is reported in stand-alone
         publications as an important, high-quality indicator of program performance.
Special Supplemental Nutrition Program for Women, Infants and Children (WIC) Participation Rate—
Currently, the measure— specifically, a methodology to estimate the number of people eligible for WIC —is
under development. Reporting on this measure will be deferred until data are available.
School Breakfast Program (SBP) Participation Rate—This measure is calculated by comparing the average
daily participation of children in SBP with estimates of total enrollment in U.S. public and private schools. The
estimates originate from data collected and compiled by the U.S. Department of Education’s National Center
for Educational Statistics (NCES). NCES collects and analyzes data related to education in the U.S. and other
nations.
Data on public school enrollment are drawn from the NCES Common Core of Data. This is a comprehensive,
annual, survey-based national statistical database of information concerning all public elementary and



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              131
 ANNUAL PERFORMANCE REPORT




secondary schools (approximately 100,000) and school districts (approximately 18,000). Data on private school
enrollment is drawn from the private school universe survey. This survey represents a biennial data collection
on the number of private schools, teachers and students in the U.S.
      Completeness of Data—Because of the time required to collect and report the NCES survey data,
         reporting on this measure is deferred to a subsequent year’s report. Once available, data for both
         participants and eligible people are complete. Participation data are collected and validated monthly
         before being declared annual data. The NCES survey data represent statistically valid national samples
         of public and private school enrollment.
      Reliability of the Data—The data are highly reliable. Participation data reporting are used to
         support program financial operations. NCES surveys are recognized nationally as definitive sources of
         information on U.S. schools.
      Quality of the Data—As described above, the data used to develop this measure are used widely for
         multiple purposes, both within and outside USDA.
Exhibit 88: Performance Threshold for 4.1.1

                                               Threshold Documentation Table
                                                                                              Performance Thresholds
                 Performance Goal                         Owner          Target         Exceeded           Met         Unmet
 4.1.1   Improve Access to Nutritious Food                                    
              Food Stamp Program % Participation          FNS            64%             (+.5%)        Deferred        (-.5%)
              School Breakfast Program                    FNS             N/A            (+.5%)        Deferred        (-.5%)
               Participation Rate
              Special Supplemental Nutrition                         Measure          Measure          Deferred
               Program for Women, Infants and                         under            under
               Children Participation Rate                            development      development
 Rationale for Met Range:
 The participation rate threshold range of ±.5 percent from the target reflects a level of performance consistent with the
 target.


Objective 4.2:           Promote Healthier Eating Habits and Lifestyles
KEY OUTCOME: PROMOTE MORE HEALTHFUL EATING AND PHYSICAL ACTIVITY ACROSS
             THE NATION.
4.2.1:   Healthy Eating Index (HEI) scores for People in Households with Incomes Under 130%
         of Poverty and for the U.S. Population
USDA’s Healthy Eating Index (HEI) is an analysis of data from the U.S. Department of Health and Human
Service’s National Health and Nutrition Examination Survey (NHANES). HEI determines the extent to which
the diets of survey respondents are consistent with the recommendations of the Dietary Guidelines for
Americans and the food guidance system. NHANES is a nationally representative survey that provides
information on people’s consumption of foods and nutrients, health-related data and Americans’ demographic
and socioeconomic characteristics.
        Completeness of Data—Because of the time required to collect, analyze and publish NHANES
         data, reporting on this measure is deferred to a subsequent year’s report. Once available, the HEI data
         are complete, reflecting a nationally representative sample of the population.
        Reliability of the Data—The data are highly reliable. NHANES uses a well-documented, consistent
         survey protocol. It is used as a basis for a wide range of peer-reviewed research reports. The HEI
         methodology is used consistently by USDA in analyses of data quality nationwide and interactive tools
         designed to assess the diet quality of individuals.




 USDA
  132                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




        Quality of the Data—As described above, the data used to develop this measure are used widely for
         multiple purposes, both within and outside USDA. The HEI measure itself is published in publicly
         available reports and used as a national indicator of diet quality.
Exhibit 89: Performance Threshold for 4.2.1

                                             Threshold Documentation Table
                                                                                           Performance Thresholds
                  Performance Goal                         Owner         Target       Exceeded        Met         Unmet
 4.2.1   Promote Healthy Eating (HEI) Habits and                             
         Lifestyles:
             HEI for People with Incomes under 130%        FNS            N/A         (+1.33)        N/A         (-1.33)
              of Poverty
             HEI for the U.S. Population                   CNPP          64.6           65.5        <65.5,        63.7
                                                                                                     >63.7
 Rationale for Met Range:
 HEI for People with Incomes under 130 percent of Poverty threshold is based on the 95-percent confidence interval
 centered on the HEI measure (mean). Though no FY 2004 target was set, the Exceed and Unmet thresholds would be
 derived from the confidence interval of ± 1.33 points above or below the annual target. Performance that falls within the
 range between the thresholds is considered to have met the target.
 HEI for the U.S. Population threshold is based on the 95-percent confidence interval centered on HEI measure (mean). The
 Exceed and Unmet thresholds are derived from the confidence interval of ± .95 points above or below the FY 2004 target.
 Performance that falls within the range between the thresholds is considered to have met the target.


KEY OUTCOME: INCREASE NUTRITION INFORMATION AVAILABLE TO THE PUBLIC.
4.2.2    Determine food consumption patterns of Americans and provide sound scientific
         analyses of the U.S. food consumption information to enhance the effectiveness and
         management of the Nation’s domestic food and nutrition assistance program.
Each research project submits an annual project report. The report, which is reviewed by the appropriate area
office and national program leaders, provides such performance information as achieving project milestones.
      Completeness of Data—Research is a continuum of discovery so it is being updated constantly.
         USDA does everything it can to ensure the completeness of its data at the time it is released.
      Reliability of Data—USDA action, other internal and external customers and stakeholders, and
         regulatory agencies routinely accept the data.
      Quality of Data—Most of the data released is published in scientific journals where they undergo
         peer review before publication. All data released to the public are governed by the USDA Data Quality
         Guidelines.




                                                                                                                   USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                       133
 ANNUAL PERFORMANCE REPORT




Exhibit 90: Performance Threshold for 4.2.2

                                            Threshold Documentation Table
                                                                                         Performance Thresholds
              Performance Goal/Measure                     Owner          Target     Exceeded     Met       Unmet
 4.2.2   Determine food consumption patterns of                              
         Americans and provide sound scientific
         analyses of the U.S. food consumption
         information to enhance the effectiveness and
         management of the Nation’s domestic food
         and nutrition assistance program.
             Number of reports from the USDA Food           ARS            4            >5        3 to 5      <3
              and Nutrient Database.
 Rationale for Met Range:
 Data sets determined as the most valuable information from the survey.


Objective 4.3:          Improve Food Program Management and Customer Service
4.3.1:   Improve Food Management Efficiency
Food stamp payment accuracy data drawn from the Quality Control (QC) system are used annually to support
performance incentives to promote payment accuracy. They are based upon statistically valid methodology. The
QC process uses a systematic random sampling of Food Stamp Program (FSP) participants. The results of these
activities are used to determine individual States’ combined payment error rate. This rate is composed of over-
issuances and under-issuances of FSP benefits. A regression formula is applied to the results of the reviews to
calculate official error rates.
State agencies select cases monthly that are reviewed to determine the accuracy of the eligibility and benefit-
level determination. They include a client interview and verification of all elements of eligibility, and the basis
of issuance of food stamp benefits. Federal reviewers validate a sample of the State’s reviews by conducting a
second review. State agencies can verify and validate data through an informal review process. This process and
current protections designed to ensure the data’s accuracy are based on an agreement between the States and
Federal reviewers. The process has proven to be a sound method of calculating reliable data.
      Completeness of Data—The most current data available for this measure are for FY 2003.
         Analysis of FY 2004 performance will be deferred until next year’s report. Once available, the data are
         complete and reliable.
      Reliability of Data—QC data are valid and accepted by State FSP agencies as a basis for
         performance-incentive payments and penalties. GAO and OIG also use it regularly.
      Quality of the Data—The data used to develop this measure, which are considered the most valid
         food nutrition intake information available, are used widely for multiple purposes, both within and
         outside USDA. The measure itself is frequently cited as an important, high-quality indicator of
         program performance.
Exhibit 91: Performance Threshold for 4.3.1

                                            Threshold Documentation Table
                                                                                           Performance Thresholds
              Performance Goal/Measure                     Owner          Target     Exceeded       Met       Unmet
 4.3.1   Food Stamp Payment Accuracy                        FNS           92.2%        <92.5%     92.5% to   >91.9%
                                                                                                   91.9 %
 Rationale for Met Range:
 The 95 percent confidence interval around the estimate of payment accuracy is ±.33 percent.




 USDA
  134                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                    ANNUAL PERFORMANCE REPORT




STRATEGIC GOAL 5: PROTECT AND ENHANCE THE NATIONS’ NATURAL
RESOURCE BASE AND ENVIRONMENT
Objective 5.1:           Implement the President’s Healthy Forests Initiative and Other
                         Actions to Improve Management of Public Lands
KEY OUTCOME: REDUCE THE RISK FROM CATASTROPHIC WILDLAND FIRE
5.1.1    Number of acres of hazardous fuel treated that are in the Wildland Urban
         Interface (WUI)
5.1.2    Number of acres of hazardous fuel treated that are in Condition Classes 2 or 3 in Fire
         Regimes 1, 2, or 3 outside the WUI (acres)
The data for hazardous fuels treatments are reliable, of good quality and certified by the respective line officer.
USDA wildfire and other program managers collected, compiled and analyzed the data.
     Completeness of Data—Data are based on actual data.
     Reliability of Data—All data for hazardous fuels were reported through the National Fire Plan
        Operations and Reporting System. This system was co-developed by USDA and U.S. Department of
        Interior land-management agencies. Validation and oversight are accomplished through monthly
        conference calls between USDA and regional foresters.
     Quality of Data—Data quality has been assessed at greater than 90 percent for project data in all
        regions. The quality of these data is monitored continuously and being improved with focused training
        and policy direction on reporting requirements.
Exhibit 92: Performance Threshold for 5.1.1 and 5.1.2

                                              Threshold Documentation Table
                                                                                               Performance Thresholds
          Performance Goal/Measure                       Owner             Target         Exceeded          Met         Unmet
 5.1.1   Number of acres of hazardous fuel               NRE/FS              1.0             >1.1        0.9 to 1.1      <0.9
         treated that are in the Wildland Urban
         Interface (WUI)
 Rationale for Met Range
 Annual targets for this measure, based on history, have seen a consistent variability of 100,000 acres.
 5.1.2   Number of acres of hazardous fuel               NRE/FS           259,000         >285,000       233,000      <233,000
         treated that are in Condition Classes 2                                                            to
         or 3 in Fire Regimes 1, 2, or 3 outside                                                         285,000
         the WUI
 Rationale for Met Range
 This is a new performance measure for FY 2004. There is no historical information related to the target to establish
 thresholds. Based on the historical variability within the entire hazardous fuel program, plus or minus 10 percent of target is
 reasonable.




                                                                                                                         USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                             135
 ANNUAL PERFORMANCE REPORT




OBJECTIVE 5.2: IMPROVE MANAGEMENT OF PRIVATE LANDS
KEY OUTCOME: MAINTAIN THE PRODUCTIVE CAPACITY OF THE RESOURCE BASE AND
             QUALITY OF THE ENVIRONMENT
5.2.1    Conservation plans written for cropland and grazing lands (Mil acres)
5.2.2    Cropland and grazing lands with conservation applied to protect the resource base
         and environment (Mil acres)
The chief sources of data for these performance measures are the Customer Service Toolkit, USDA’s primary
conservation planning tool, and the Performance Results System (PRS).
     Completeness of Data—Numerous data quality mechanisms are in place within PRS to ensure the
        completeness of the performance information. This Web-based application includes such integrated
        quality controls as data type, required fields defined pull-down menus and choice lists. Additionally,
        the system recognizes records that do not include data identified as critical and requires the user to
        complete the required data fields before the record can be uploaded to the national database.
     Reliability of Data—For FY 2004, more than 80 percent of the data reported for this performance
        measure was uploaded from the Customer Service Toolkit. All natural resource information in Toolkit
        is drawn from USDA databases. All data on conservation practices are developed in consultation with
        the client. This process ensures that the data accurately reflect the client’s operation, goals and status of
        the conservation plan. Data are date-stamped, geo-referenced and linked to an employee ID, enabling
        detailed quality-assurance reviews. Periodic reviews are conducted to assess the accuracy of reported
        data. Data entered directly through PRS rather than Toolkit also are linked to a specific land unit,
        enabling on-site reviews to determine the accuracy of data. Because this is the first year of
        implementation of the new system, not all quality checks that will be part of the fully implemented
        system were in place for FY 2004.
     Quality of Data—Overall quality of the performance data is good. The data are based on
        conservation plans, systems and practices planned and applied to land. The information is entered by
        field staff located onsite where the conservation is occurring. The staffs entering the data are trained
        and skilled in conservation planning and application suited to the local resource conditions.
Within PRS, the conservation program responsible for each conservation practice is reported. Because these
performance measures refer to conservation plans that include multiple measures, the linkage to specific
programs is more complex. For FY 2004, methods were under development to estimate the contribution of each
conservation program to planning and application. Overall quality of data is good.
Exhibit 93: Performance Threshold for 5.2.1 and 5.2.2

                                              Threshold Documentation Table
                                                                                              Performance Thresholds
                 Performance Goal                           Owner          Target       Exceeded          Met         Unmet
 5.2.1   Conservation plans written for cropland and        NRCS             31.7           >33          30.1 to       < 30
         grazing lands (Mil acres)                                                                        32.9
 Rationale for Met Range:
 Variation of plus or minus 5 percent is considered reasonable at the national level. The range of variation is much greater at
 the state and local levels.
 5.2.2   Cropland and grazing lands with                    NRCS             26.8          >28.1       25.5 to 28     < 25.4
         conservation applied to protect the
         resource base and environment (Mil acres)
 Rationale for Met Range:
 Variation of plus or minus 5 percent is considered reasonable at the national level. The range of variation is much greater at
 the state and local levels.




 USDA
  136                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




KEY OUTCOME: ENSURE DIVERSE WILDLIFE HABITATS
5.2.3    Agricultural wetlands created or restored through the Wetlands Reserve Program
         (Mil acres)
Data for acreage enrolled in WRP are reported through a national database.
     Completeness of Data—Data are complete for all transactions related to WRP.
     Reliability of Data—Data are reported by USDA field and State office personnel. The national
         program manager reviews the data for accuracy.
     Quality of Data—Data are considered of good quality for making management decisions.
Exhibit 94: Performance Threshold for 5.2.3

                                             Threshold Documentation Table
                                                                                            Performance Thresholds
          Performance Goal/Measure                     Owner            Target        Exceeded          Met       Unmet
 5.2.3   Agricultural wetlands created or               NRCS              1.7            *N/A        1.6 to 1.7   <1.6
         restored through the WRP (Mil acres)
 Rationale for Met Range:
 *Target cannot be exceeded because Congress sets it.


KEY OUTCOME: COMMUNITIES AND INDIVIDUALS PROTECTED AGAINST FLOOD RISKS AND
                        BENEFITING FROM PRODUCTIVE USE OF WATER RESOURCES
5.2.4    Reduction in Average Annual Flood damages
        Completeness of Data—Reported in Program Operations Information Tracking System (POINTS)
         developed during FY 2004 to improve completeness of data collection.
        Reliability of Data—Initial data may be less reliable in FY 2004, the first year of using POINTS,
         than will be the case in later years. All States were directed to review prior year data and ensure that it
         is reliable. The review could result in some adjustments to the initial input.
        Quality of Data—High quality data, developed by an agency economist in each State.
Exhibit 95: Performance Threshold for 5.2.4

                                             Threshold Documentation Table
                                                                                            Performance Thresholds
          Performance Goal/Measure                     Owner            Target        Exceeded          Met       Unmet
 5.2.4   Reduction in average annual flood              NRCS               16             16.5       14.1-16.4     14
         damage ($Mil)
 Rationale for Met Range:
 Considered reasonable in comparison to prior year reports and the transition to the new reporting process.




                                                                                                                  USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                       137
ANNUAL PERFORMANCE REPORT




PROGRAM ASSESSMENT RATING TOOL (PART) EVALUATIONS

Perform.                                                                        Efficiency     FY 2004   FY 2004
Measure       Program                 Findings and Actions                       Measure        Target    Actual
1.2        Food Aid       Results: “Moderately Effective”                     N/A until         N/A       N/A
           Programs                                                           FY2006.
                          Findings:
                                                                              Baseline and
                             FAS needs to develop performance                target will be
                              measures that link to the long-term             developed by
                              outcome goals of food security.                 Spring 2005.
                             USDA is unique in administering food aid
                              on credit terms and focusing on
                              Government-to-Government donations.
                             The Department has made investments
                              and implemented improvements in their
                              business practices and food aid delivery
                              systems. USDA has planned additional
                              management process improvements that
                              will improve database integration, training,
                              monitoring and prescreening processes.
                             Performance measures need to be
                              developed that are tied to strategic goals
                              and linked to the budget. Current
                              performance measures, such as the
                              number of food aid agreements signed
                              annually, and the level of funding, are
                              inadequate to measure progress towards
                              achieving strategic goals.
                             Coordination is lacking with the U.S.
                              Agency for International Development
                              (USAID) for common performance
                              measures since the programs have similar
                              goals.
                          Actions:
                          USDA will administer the food aid programs in
                          a manner that will:
                           Limit duplication and inconsistent program
                             implementation between USDA and
                             USAID and make more efficient use of US
                             food aid resources through the
                             implementation of the President's
                             Management Agenda. The PART affirmed
                             the need for USDA and USAID to
                             coordinate on program performance
                             measures, program evaluation and
                             monitoring, and eligibility criteria. Fund the
                             programs at a level that is consistent with
                             the 2003 Budget, reflecting the
                             Administration’s management reform
                             goals. The PART helped identify the need
                             to develop a strategy to replenish the Bill
                             Emerson Humanitarian Trust to ensure
                             the long-term availability of commodities
                             for emergency food assistance.
                          Copy Available: http://www.whitehouse.
                          gov/omb/budget/fy2005/pma/agriculture.pdf




USDA
 138                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            ANNUAL PERFORMANCE REPORT




Perform.                                                                       Efficiency     FY 2004   FY 2004
Measure       Program             Findings and Actions                          Measure        Target    Actual
1.3.1      Bioenergy    Results: “Adequate”                                  Ethanol’s         N/A       N/A
           Program                                                           percentage
                        Findings:
                           Current market conditions for ethanol vary       or share of
                            substantially from biodiesel. As a result,       total
                            the program plays a large role in spurring       transportation
                            biodiesel production increases whereas           fuel usage.
                            the program is not key in increasing             Biodiesel’s
                            ethanol production because the ethanol           percentage
                            market is more mature with an                    or share of
                            established demand.                              total diesel
                           Other efforts have a greater impact on           fuel usage.
                            stimulating increased ethanol
                            production—primarily tax credits, the
                            proposed renewable fuels standard, and
                            California’s ban on MTBE. Moreover, this
                            program is only one of a number that
                            provides financial support to construct
                            ethanol facilities (e.g., Business & Industry
                            loans and other USDA grant programs as
                            well as State incentives).
                           Better coordination with other U.S.
                            Department of Agriculture (USDA)
                            bioenergy-related programs is needed.
                            Coordination efforts related to
                            commercialization are substantially
                            weaker than that for R&D activities.
                           While the program made significant
                            improvements in performance
                            measurement, targets should be
                            reassessed to make sure they are
                            ambitious in light of available resources.
                        Actions:
                           Ensure a sufficient level of support to
                            growing biodiesel industry.
                         Increase collaboration and coordination
                            between related programs.
                         Assess performance targets to ensure
                            they are ambitious and reasonable.
                         The program performance to budget
                            requests in the FY 2005 President’s
                            Budget.
                        Program agreements for the life of the
                        program were executed with participants
                        before this recommendation was made.
                        Biodiesel support level improvements are
                        based on a soybean-conversion factor and
                        price. This has increased support to the
                        biodiesel industry. The program manager has
                        participated in USDA-wide biobased products
                        and coordination council planning sessions
                        and in both ethanol and biodiesel annual
                        industry conferences.
                        Copy Available: http://www.whitehouse.
                        gov/omb/budget/fy2005/pma/agriculture.pdf




                                                                                                         USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 139
ANNUAL PERFORMANCE REPORT




Perform.                                                                         Efficiency     FY 2004   FY 2004
Measure       Program                    Findings and Actions                     Measure        Target    Actual
1.4.1      Federal Crop      Results: ”Results Not Demonstrated”               Implemented       N/A       N/A
           Insurance                                                           revised SRA
                             Findings:
           Program                                                             for crop year.
                                The program's purpose is clear.
                                Additional planning and performance
                                 measurement is needed. The program
                                 cannot yet demonstrate the extent of its
                                 impact on farm income or in reducing
                                 dependence on other
                                Government support programs.
                                The management of this program is
                                 relatively good. It includes a close
                                 partnership with the crop insurance
                                 companies. Participation information, such
                                 as policies sold, liability, acres, and
                                 premiums are provided on a daily basis at
                                 a producer level by the companies. The
                                 data is crucial to the formulation of the
                                 strategic plan.
                             Actions:
                                Establish adequate long-term and short-
                                 term measures and goals, and
                              Identify improvements in the program
                                 that will get it closer to becoming a
                                 complete risk-management tool for the
                                 agriculture sector, such as developing a
                                 successful livestock crop insurance plan.
                             Copy Available: www.whitehouse.gov/
                             omb/budget/fy2004/ pma
           Pesticide Data    Results: “Adequate”                               Rates of          $1.23     $1.23
           and                                                                 dollars spent
                             Findings:
           Microbiological                                                     avoided
           Data Programs        The PDP program currently has only one        through
                                 output related long-term performance          Strategic
                                 measure. The program would be                 Data Analysis
                                 strengthened by adopting at least one         2005.
                                 additional outcome-based, long-term
                                 measure of the program's performance.
                                The most recent review of PDP program
                                 operations was conducted by the USDA
                                 Inspector General's Office in 1994. While
                                 not independent from the program, federal
                                 staff also conducts periodic reviews of
                                 program operations.
                                It is difficult to determine the extent to
                                 which mechanisms are in place to ensure
                                 accountability among program partners.
                             Actions:
                               Develop additional, outcome-based
                                performance measures.
                              Independent audit of program operations.
                              Revisit recently developed efficiency
                                measures of a unit cost per test and
                                gauge its effectiveness in helping to
                                control costs and prioritize resources.
                              Study the feasibility of charging a fee to
                                industry beneficiaries to cover partial/full
                                cost of the pesticide data program.
                             Copy Available: http://www.whitehouse.
                             gov/omb/budget/fy2005/pma/agriculture.pdf




USDA
 140                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            ANNUAL PERFORMANCE REPORT




Perform.                                                                       Efficiency    FY 2004   FY 2004
Measure       Program                Findings and Actions                       Measure       Target    Actual
1.4.2      Guaranteed    Results: “Moderately Effective”                     Reduce            15        14
           Farm Loan                                                         average
                         Findings:
           Program                                                           processing
                            Develop a measure to assess the long-           time for
                             term goal of improving the financial            guaranteed
                             viability of eligible farmers and ranchers.     loans (days).
                            Explicitly tie budget requests to
                             accomplishment of annual and long-term
                             performance goals.
                            Develop ambitious targets for long-term
                             measures.
                         Actions:
                           Conduct a performance-focused review
                             that will include, but is not limited to:
                             analysis of program participants; length of
                             time borrowers remain in program;
                             number of borrowers who “graduate” and
                             return to the program; effectiveness of
                             targeted assistance; and the potential to
                             reduce subsidy rates.
                          Revise long-term performance measure to
                             better assess progress toward meeting
                             the goal of improving economic viability of
                             farmers/ranchers.
                          Assess performance targets to ensure
                             they are ambitious.
                          Develop an efficiency measure such as
                             “cost per loan processed” to track
                             administrative expenses and allow
                             comparison among loan programs.
                          Tie program performance to budget
                            requests in the 2005 President’s Budget.
                         Copy Available: http://www.whitehouse.
                         gov/omb/budget/fy2005/pdf/ap_cd_rom/part.pdf.
           Direct Crop   Results: “Adequate”                                      N/A         N/A       N/A
           Payments
                         Findings:
                            The purpose of the program is clear;
                             however the design could be improved.
                             Direct payments are designed as part of a
                             safety net for farmers; however they are
                             going to about 41 percent of all farmers,
                             85 percent of which have annual sales of
                             at least $50,000.
                          The program management has devised
                             performance goals that are designed to
                             improve the delivery of the program.
                          The program is generally well managed.
                          Outside sources have reviewed the
                             program and determined that it has
                             provided support in maintaining farm
                             income, but has not been effective in
                             reducing the need for government
                             subsidies.
                         Actions: Because this is a mandatory
                         program, it is difficult to address program
                         weaknesses through the budget process. The
                         limitations of the direct payment program will
                         have to be dealt with legislatively. In response
                         to the PART findings, the Administration will
                         reduce trade barriers through trade




                                                                                                        USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                141
ANNUAL PERFORMANCE REPORT




 Perform.                                                                      Efficiency   FY 2004   FY 2004
 Measure      Program                    Findings and Actions                   Measure      Target    Actual
1.4.2                       negotiations, to create new markets for U.S.
(cont’d)                    agricultural exports, so that farmers will be
                            less reliant on government income support.
                            Copy Available: http://www.whitehouse.
                            gov/omb/budget/fy2005/pma/agriculture.pdf
            CCC Marketing   Results: “Moderately Effective”                       N/A        N/A       N/A
            Loans
                            Findings:
                            As statutorily mandated, the marketing
                            assistance loan and LDP program is targeted
                            at providing support on production of relevant
                            marketing assistance loan commodities. For
                            producers with eligible production of one or
                            more of these commodities, the program has,
                            for the most part, effectively provided per-unit
                            revenue support on realized production.
                            Specific findings include:
                             The program provides the same level of
                                support (on a per unit basis) to all
                                producers, regardless of financial need.
                             Marketing loans provide support to
                                producers of major field crops, but do not
                                provide a safety net to producers of other
                                crops that may need assistance.
                             Commodity certificate redemption and
                                nonrecourse forfeiture provision allow
                                producers to exceed their payment limits.
                            Actions:
                               Suggest the House and Senate
                                Agricultural Committees examine the
                                issue of payment limits for marketing loan
                                and LDP gains and how they could be
                                tightened.
                               More frequent external audits of program
                                effectiveness out to be conducted.
                               Discrepancies between county offices in
                                the delivery of services to producers
                                should be addressed.

                            Copy Available: http://www.whitehouse.
                            gov/omb/budget/fy2005/pma/agriculture.pdf
            Guaranteed      Results: “Moderately Effective”                       N/A        N/A       N/A
            Loans
                            Findings:
                            The assessment found that the program
                            serves a clear need. Due to a number of
                            factors (e.g., market uncertainty,
                            young/beginning farmers who lack sufficient
                            credit history, limited resource farmers,
                            geographic isolation), farmers may have
                            difficulty demonstrating creditworthiness to
                            lenders. The program is comparatively cost-
                            effective with low subsidy rates and the
                            delivery mechanism is consistent with
                            program objectives. However, improvements
                            to performance measures are still needed to
                            demonstrate how the program is improving
                            the economic viability of farmers and
                            ranchers. Specific findings include:
                             The agency has improved administrative
                                 efficiencies. While a low loss rate on




USDA
 142                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




 Perform.                                                                         Efficiency      FY 2004   FY 2004
 Measure      Program                   Findings and Actions                       Measure         Target    Actual
1.4.2                          guaranteed loans is a proxy indicator for
(cont’d)                       the financial viability of borrowers, there is
                               no measure that indicates the program is
                               providing adequate coverage of the
                               intended market or whether or not there
                               are any unmet needs.
                              Although the program targets beginning
                               and socially disadvantaged farmers, there
                               is no method to assess whether
                               outreach/targeting efforts are the most
                               effective.
                              Program lacks independent evaluations.
                           Actions:
                              Conduct a performance focused review of
                               the program.
                              Revise long-term performance measure to
                               better assess progress toward meeting
                               the goal of improving economic viability of
                               farmers/ranchers.
                              Assess performance targets to ensure
                               they are ambitious.
                              Develop and efficiency measure such as
                               “cost per loan processed” to track
                               administrative expenses and allow
                               comparison among loan programs.
                              The program performance to budget
                               requests.
                           Copy Available:
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pma/agriculture.pdf
2.1.1       Business &     Results: “Adequate”                                   N/A               N/A       N/A
            Industry                                                             Baselines
                           Findings:
            Guaranteed                                                           and targets
            Loan Program      Long-term performance measurement                 are being
                               could be strengthened by evaluating               developed for
                               actual program performance with                   tracking in FY
                               established benchmarks to better                  2005.
                               understand the community benefits
                               provided by the program.
                              Reforms are needed to improve the cost-
                               effectiveness of the program. The subsidy
                               rate has increased over the last couple of
                               years and the Inspector General has
                               made numerous recommendations to
                               improve lender servicing, training and
                               oversight.
                              Budget requests do not yet tie to the
                               accomplishment of performance goals.
                           Actions:
                              Improve long-term performance
                               measurement by comparing actual
                               program data on the types of jobs
                               supported each year with established
                               benchmarks based upon U.S. Department
                               of Labor statistics. This will allow RBS to
                               determine the extent of community
                               benefits more accurately. Such
                               information also will help guide agency
                               decisions on how to manage the funds
                               they receive.




                                                                                                             USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                    143
ANNUAL PERFORMANCE REPORT




 Perform.                                                                         Efficiency   FY 2004   FY 2004
 Measure       Program                Findings and Actions                         Measure      Target    Actual
2.1.1                       Complete a rewrite of program regulations          Efficiency      N/A       N/A
(cont’d)                      to address identified concerns and                measures
                              deficiencies, such as lender performance          have been
                              and eligibility, borrower eligibility, priority   drafted for
                              goals, and underwriting requirements.             Agency
                              These efforts coupled with improvements           clearance.
                              in program management will help the
                              agency make targeted efforts to decrease
                              delinquency and default rates.
                            Develop an efficiency measure such as
                              “cost per loan processed” to track
                              administrative expenses and allow
                              comparison among loan programs.
                            The program performance to budget
                              requests.
                           Copy Available: http://www.whitehouse.
                           gov/omb/budget/fy2005/pma/agriculture.pdf
            Electric       Results: “Adequate”                                      N/A         N/A       N/A
                           Findings:
                           RUS's electric program is well designed with
                           a clear purpose, which resulted in a high
                           purpose rating. In addition, RUS received a
                           high management rating because the
                           program is effectively managed. However, the
                           analysis reveals a disconnect between
                           USDA's strategic goals and RUS's
                           performance goals and measures. The
                           Department's plan and RUS's goals do not
                           match up with each other. The PART analysis
                           also highlighted the need for better
                           performance measures. Specifically, we
                           found:
                            One of USDA's goals is to provide support
                               to rural areas of greatest need. Except for
                               the hardship program, RUS electric loans
                               are not provided in such a way that would
                               focus the support to areas of greatest
                               need and do not always go to rural areas.
                               RUS goals and measures supposedly
                               support USDA's rural development goals,
                               but the link between the goals and
                               measures is not readily apparent.
                            RUS strategic goals are very broad, and it
                               is difficult to demonstrate the impact of
                               program funding on rural economies. Due
                               to this, RUS received low scores in the
                               Strategic Planning and Program Results
                               sections.
                           Actions:
                             Target RUS electric loans to areas with
                              high poverty rates.
                            Increase funding for hardship loans that
                              can only be used in areas that are
                              severely depressed (applicants must meet
                              rate disparity thresholds and their
                              consumers must fall below average per
                              capita and household income thresholds).
                           Copy Available: http://www.whitehouse.
                           gov/omb/budget/fy2005/pma/agriculture.pdf




USDA
 144                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                             ANNUAL PERFORMANCE REPORT




Perform.                                                                        Efficiency     FY 2004   FY 2004
Measure      Program                  Findings and Actions                       Measure        Target    Actual
2.2.2      Water &        Results: “Not Demonstrated”                         N/A for           N/A       N/A
           Wastewater                                                         tracking in FY
                          Findings: Summary results showed the
                                                                              2005.
                          program to be extremely well designed and
                          managed. It also found:                             Baselines
                           The program is successful in targeting            and targets
                                                                              are being
                               assistance for water and wastewater
                               infrastructure to poor rural areas.            developed.
                           USDA does an effective job of collecting
                               program data and using it to manage
                               effectively.
                           Existing measures do not demonstrate
                               adequately results. Improvements to the
                               performance measures need to be
                               made.
                          Action:
                             Develop better annual goals.
                             Create reasonable long-term goals that
                              measure outcomes.
                          Copy Available:
                          http://www.whitehouse.gov/omb/budget/fy200
                          5/pma/agriculture.pdf
2.2.3      Multi-Family   Results: “Results Not Demonstrated”                 N/A for           N/A       N/A
           Housing        Findings: Summary of results found that the         tracking in
                          multifamily housing programs generally are          FY 2005.
                          run well.                                           Baselines
                          Other PART findings include:                        and targets
                                                                              are being
                           Although the program achieves what it             developed.
                             was designed to do, it is inefficient in that
                             funds needed to show an effect on the
                             problem to the economy as a whole would
                             be prohibitively expensive.
                           USDA collects data and uses these data
                             in managing the program effectively.
                           The annual performance measures
                             adequately guide the agency.
                           The long-term goal needs to be more
                             strategic and focused.
                          Actions:
                            Improve and develop better annual goals.
                            Develop adequate long-term goals that
                             measure outcomes.
                          Program staff met with OMB examiner during
                          summer 2004 to develop improved long-term
                          measures.
                          Copy Available:
                          http://www.whitehouse.gov/omb/budget/fy200
                          5/pma/agriculture.pdf
2.2.4      Telecommuni-   Results: “Adequate”                                 N/A for           N/A       N/A
           cations Loan                                                       tracking in
                          Findings:
           Programs                                                           FY 2005.
                          The telecommunications program has a clear
                                                                              Baselines
                          purpose and good program management that
                                                                              and targets
                          resulted in high scores in the program
                                                                              are being
                          purpose and design and program
                                                                              developed.
                          management sections.
                           The PART analysis showed that RUS did
                             not have adequate long-term and annual
                             measures.




                                                                                                          USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  145
ANNUAL PERFORMANCE REPORT




 Perform.                                                                          Efficiency      FY 2004   FY 2004
 Measure      Program                   Findings and Actions                        Measure         Target    Actual
2.2.4                      Actions: To address these findings, RUS
(cont’d)                   will:
                                Develop ambitious targets for the new
                                 long-term and annual performance
                                 measures.
                                Require program participants recently
                                 rural status in the application for a new
                                 loan.
                                Determine if the current method of
                                 issuing loans, “first in; first out,” provides
                                 adequate support to the areas with the
                                 highest priority needs.
                              Develop a measure that determines how
                               rural the subscribers are.
                           Copy Available:
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pma/agriculture.pdf
2.2.5       Community      Results: “Results Not Demonstrated”                    N/A for           N/A       N/A
            Facilities                                                            tracking in FY
                           Findings: FY 2005 PART assessment
                                                                                  2005.
                           status updated FY 2004 Summary of results
                           found that the CF Direct Loan Program                  Baselines
                           serves a clear purpose in improving the                and targets
                           quality of life in rural America. Other PART           are being
                           findings include:                                      developed.
                            Long-term performance measures that
                               identify the need or gap being addressed
                               should be developed. Furthermore, while
                               annual measures support the long-term
                               goal of the program to enhance the quality
                               of life in rural America, they do not assess
                               the extent to which those with the greatest
                               need are benefiting from the program.
                              The program could benefit from
                               evaluations that focus on the achievement
                               of desired outcomes.
                              The program has achieved increased
                               efficiency through greater outreach efforts
                               and leveraging other funding sources.
                              Budget requests still do not tie to the
                               accomplishments of goals.
                           Actions:
                              Develop a long-term measure during FY
                               2004 that measures outcomes.
                              Consider revising annual measures to
                               more directly link to decisions on how the
                               agency manages the funds it receives.
                              Conduct program evaluation to assess the
                               needs being addressed, populations
                               served and the effectiveness of outreach
                               efforts.
                              Develop an efficiency measure such as
                               “cost per loan processed” to track
                               administrative expenses and allow
                               comparison among loan programs.
                              Tie program performance to budget
                               requests in the 2005 President’s Budget.
                           Copy Available: http://www.whitehouse.
                           gov/omb/budget/fy2005/pma/agriculture.pdf




USDA
 146                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                              ANNUAL PERFORMANCE REPORT




Perform.                                                                        Efficiency    FY 2004   FY 2004
Measure       Program                   Findings and Actions                     Measure       Target    Actual
3.1.1      Food Safety      Results: “Adequate”
           and Inspection
                            Findings: FSIS’ purpose and planning rated
           Service
                            high because it has a clear and significant
                            role in protecting the Nation’s food supply. In
                            addition, the program’s outcome goals
                            meaningfully reflect the purpose of this
                            program. However, FSIS received lower
                            scores in management and accountability.
                            Even though, over the last few years, FSIS
                            has undertaken several initiatives to improve
                            resource management efficiencies and cost
                            effectiveness, FSIS still does not have
                            tangible incentives or procedures in place to
                            measure cost effectiveness. FSIS has
                            experienced financial management problems
                            for which efforts are underway to resolve. In
                            addition, the assessment found:
                             The program has been effective in
                                 reducing incidences of foodborne illness.
                                 However, the program is not optimally
                                 designed to address food safety, resulting
                                 in lower program result scores.
                             Implementation of a new risk-based
                                 inspection system should be further
                                 evaluated to determine whether it would
                                 help FSIS meet their strategic and
                                 performance goals and should improve
                                 efficiencies and cost effectiveness.
                            Actions: To address these findings, FSIS
                            will evaluate the impact of implementing a
                            risk-based inspection system beyond the
                            current pilot program.
                            Copy Available:
                            http://www.whitehouse.gov/omb/budget/fy200
                            5/pma/agriculture.pdf
3.2.1      Animal Health    Results: “Effective”                               Time is         N/A       N/A
           Monitoring and                                                      required for
                            Findings:
           Surveillance                                                        reporting of
           (Reviewed for
                               The program purpose and design were            sample
                                clear. It addresses a clearly defined          testing
           the FY 2005          problem. The program also was well
           Budget.)                                                            results.
                                managed.
                               Resources are allocated to prepare and         The average     N/A       N/A
                                respond to plant and animal pest               cost of each
                                outbreaks, and support and coordinate          surveillance
                                State, tribal and local efforts.               activity.
                               Annual and long-term measures reflected
                                program activities. They are chosen
                                program analysts and managers as the
                                best overall indicators of program
                                effectiveness.
                               The programs are striving for excellent
                                scores, such as a 97-percent detection
                                rate within the next 3 years.
                               Only two of the six measures in the overall
                                program met their long-term target.




                                                                                                         USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 147
ANNUAL PERFORMANCE REPORT




 Perform.                                                                     Efficiency      FY 2004   FY 2004
 Measure      Program                   Findings and Actions                   Measure         Target    Actual
3.2.1                        Actions:
(cont’d)                        Update the measures and
                                 accomplishments of the program.
                                Funding for FY 2005 is $254 million, an
                                 increase of about $80 million from the FY
                                 2004 enacted. Increases are related to
                                 Agricultural Defense, and to respond to
                                 the discovery of a cow infected with
                                 Bovine spongiform encephalopathy.
                                Add an additional efficiency measure,
                                 such as the average cost of an
                                 investigation.
                             Copy Available:
                             http://www.whitehouse.gov/omb/budget/fy200
                             5/pdf/ap_cd_rom/part.pdf
3.2.2 and   Animal Welfare   Results: “Adequate”                             Average cost      N/A      $1,165
3.2.3       (Reviewed for                                                    per Animal                  (Est.)
                             Findings:
                                                                             Welfare Act
            the FY 2004
            Budget.)
                                The program has a clearly defined           (AWA)
                                 purpose.                                    inspection.
                               There is a need for more independent         Number of         N/A       N/A
                                 evaluations. Although APHIS conducts as     repeat/chronic
                                 needed evaluations of its program           violators of
                                 components and USDA’s Office of the         AWA per
                                 Inspector General has conducted             dollar spent
                                 evaluations of the program (1992 through    on education/
                                 1996). The PART found no evidence of        outreach.
                                 recent reviews outside of the Department.
                              The program has made improvements in
                                 performance measures, and the PART
                                 was reassessed for the 2005 Budget to
                                 account for these changes.
                             Actions:
                              Animal Care is seeking clearance for a
                                 customer satisfaction survey that will
                                 evaluate the effectiveness of some of its
                                 education and training efforts.
                              Seek additional input from sources
                                 outside of the government, including peer
                                 evaluations, when appropriate.
                              Include at least one additional annual
                                 measure, to more closely link annual
                                 performance and long-term performance.
                              The program has made improvements in
                                 performance measures, and the PART
                                 was reassessed for the 2005 Budget to
                                 account for these changes.
                             Actions:
                              Animal Care is seeking clearance for a
                                 customer satisfaction survey that will
                                 evaluate the effectiveness of some of its
                                 education and training efforts.
                              Seek additional input from sources
                                 outside of the government, including peer
                                 evaluations, when appropriate.
                              Include at least one additional annual
                                 measure, to more closely link annual
                                 performance and long-term performance.
                             Copy Available: http://www.whitehouse.
                             gov/omb/budget/fy2005/pdf/ap_cd_rom/part.pdf.




USDA
 148                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                           ANNUAL PERFORMANCE REPORT




Perform.                                                                     Efficiency   FY 2004   FY 2004
Measure       Program                Findings and Actions                     Measure      Target    Actual
3.2.4      Forestry      Results: “Results Not Demonstrated”
           Research
                         Findings:
           Grants
                            The mandate that the program be funding
                             through formula grants may not be the
                             most effective way of allocating resources.
                             Other ways, such as competitive grants,
                             may be more effective in targeting
                             resources to get the greatest overall
                             effect.
                            CSREES needs to develop more effective
                             annual measures for this program,
                             including targets that are ambitious. Even
                             though research often may take several
                             years to achieve results, and results are
                             not guaranteed, targets against which to
                             measure progress need to be developed.
                          The program collects information on a
                           timely bases for use by management, and
                           maintains close contact with partners on a
                           routine basis.
                         Actions: The Administration will:
                          Consider an alternative way of delivering
                           benefits for this program.
                          Develop at least two annual measures,
                            one of which is based on the research
                            and development criteria. An example
                            could be: The percentage of funded
                            projects that outside peer review
                            determines to meet the research and
                            development criteria.
                         To be included in a new PART to be
                         conducted during the FY 2007 budget
                         process.
                         Copy Available:
                         http://www.whitehouse.gov/omb/budget/fy200
                         5/pma/agriculture.pdf
3.2.5      Food Safety   Results: “Results Not Demonstrated”
           Research
                         Findings:
                          The program purpose and design are
                           clear. The program is well managed.
                          Long-term and annual measures, with
                           ambitious targets have to be formulated
                           that tie closely with overall Department
                           long-term goals. The Department also
                           needs to develop a few quantifiable
                           annual measures. While this is difficult in
                           the R&D area, where annual results
                           cannot be guaranteed, one possibility is
                           the use of the research and development
                           criteria, which measure the relevance and
                           quality of research.
                         Actions:
                          USDA will develop a minimum of three
                            long-term measures, at least one of which
                            directly relates to the Department’s long-
                            term food-safety strategy and
                            performance plan.




                                                                                                     USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                             149
ANNUAL PERFORMANCE REPORT




Perform.                                                                     Efficiency   FY 2004    FY 2004
Measure      Program                   Findings and Actions                   Measure      Target     Actual
3.2.5                      USDA will develop a minimum of two
(cont’d)                      quantifiable annual measures, at least one
                              of which is related to the research and
                              development criteria.
                           The Budget includes $106 million in
                              funding for this program. Increases are
                              provided for programs related to
                              homeland security.
                           To be included in a new PART to be
                              conducted during the FY 2007 budget
                              process.
                          Copy Available:
                          http://www.whitehouse.gov/omb/budget/fy200
                          5/pma/agriculture.pdf
4.1.1      Food Stamp     Results: “Moderately Effective”                     92.2%        Food       N/A
           Program        Findings:                                                        Stamp
                              Food stamp benefits are well targeted to                   Accuracy
                               intended beneficiaries and virtually                         Rate
                               always spent for their intended purpose.
                              The program achieves its annual
                               performance goals to increase program
                               participation and reduce payment error.
                              The program is better designed to
                               reduce hunger and malnutrition related
                               to inadequate income, than to achieve
                               further incremental improvements in the
                               dietary status of low-income people.
                              While the program has been shown to
                               increase food expenditures among
                               program participants and the availability
                               of nutrients in the home food supply,
                               evidence that participation reduces
                               hunger and increases nutrient intake is
                               inconclusive, partly the result of
                               limitations in measurement techniques.

                          Actions:
                            The Department will develop a plan for the
                             use of Federal and State program funds to
                             improve nutrition among program
                             participants. The plan will include clear
                             goals, quantifiable outcomes, and specific
                             actions to be undertaken that directly tie to
                             the achievement of the specified
                             outcomes. The plan also will provide for
                             review, assessment and
                             recommendations to improve the
                             effectiveness of current Federal and State
                             activities.
                           The Department will develop studies to
                             demonstrate the impact of program
                             participation on hunger and dietary status.
                          Copy Available: http://www.whitehouse.
                          gov/omb/budget/fy2005/pma/agriculture.pdf;
                          Summary Available:
                          http://www.whitehouse.gov/omb/budget/fy200
                          5/pdf/ap_cd_rom/part.pdf.




USDA
 150                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                               ANNUAL PERFORMANCE REPORT




 Perform.                                                                        Efficiency   FY 2004   FY 2004
 Measure       Program               Findings and Actions                         Measure      Target    Actual
4.1.1       National       Results: “Results Not Demonstrated”                       N/A        N/A       N/A
(cont’d)    School Lunch   Findings:
            Program           While the program generally is well
                               designed and has a clear purpose, a large
                               proportion of children certified for free and
                               reduced-price meal benefits are from
                               households with incomes above the
                               program’s eligibility thresholds.
                              While the principal long-term goal of the
                               program, serving meals that meet the
                               dietary guidelines, is ambitious, the
                               annual performance measures are not
                               well linked to the long-term goal.
                              Participating schools do not report on
                               progress towards goals and program
                               funding does not reward schools that
                               meet program goals.
                              There is a high rate of erroneous
                               payments—perhaps as high as 25
                               percent.
                                While the program achieves long-term
                                 goals to a large extent and compares
                                 favorably with other programs with
                                 similar purposes and goals, annual
                                 goals do not support long-term goals
                                 directly.
                           Actions:
                               Create a system to improve the
                                accuracy of income information
                                submitted by households at the time of
                                application to address the high rate of
                                erroneous payments in the program.
                               Create a performance-based
                                reimbursement system that provides for
                                financial incentives for meals meeting
                                the dietary guidelines.
                               Develop performance measures that
                                meet the long-term goals.
                           Copy Available:
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pma/agriculture.pdf;
                           Summary Available:
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pdf/ap_cd_rom/part.pdf.
4.2.1       National       Actions: Create a performance-based                      N/A        N/A       N/A
            School Lunch   reimbursement system that provides for
            Program        financial incentives for meals meeting the
                           diertary guidelines.
                           Copy Available:
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pma/agriculture.pdf. Summary available at
                           http://www.whitehouse.gov/omb/budget/fy200
                           5/pdf/ap_cd_rom/part.pdf.
5.1         McIntire-      Results: “Results Not Demonstrated”
            Stennis        Findings:
            Research        The mandate that the program be funded
                               through formula grants may not be the
                               most effective way of allocating
                               resources. Other ways, such as
                               competitive grants may be more effective




                                                                                                         USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                151
ANNUAL PERFORMANCE REPORT




 Perform.                                                                    Efficiency   FY 2004   FY 2004
 Measure       Program                   Findings and Actions                 Measure      Target    Actual
5.1                             in targeting resources to get the greatest
(cont’d)                        overall effect. This would require a
                                change in authorizing legislation.
                             CSREES needs to develop more effective
                                annual measures for this program,
                                including targets that are ambitious. Even
                                though research may often take several
                                years to achieve results, and results are
                                not guaranteed, targets against which to
                                measure progress need to be developed.
                             The program collects information on a
                                timely basis for use by management, and
                                maintains close contact with partners on a
                                routine basis.
                            Actions:
                             Consider an alternative way to delivering
                                benefits for this program.
                             Develop at least two annual measures,
                                one of which is based on the research
                                and development criteria.
                            Copy Available:
                            http://www.whitehouse.gov/omb/budget/fy200
                            5/pma/agriculture.pdf
            Land            Results: “Results Not Demonstrated”
            Acquisition
                            Findings:
                              The assessment found that the Forest
                               Service Land Acquisition program
                               generally has good accountability,
                               program consistency, staffing, and
                               appraisal valuations. Although the
                               program has taken steps to address some
                               non-strategic planning deficiencies
                               through amended Forest Plans and the
                               Land Acquisition Priority System (LAPS),
                               additional outcome measures are needed
                               that focus on assessing the extent to
                               which the land acquisition program is
                               protecting public benefits provided by
                               acquisitions of private lands for national
                               forests to address program purposes.
                            Additional findings include:
                             Although lands are acquired at market
                               value meeting certain criteria, the program
                               lacks meaningful national programmatic
                               priorities that would provide optimal
                               reduction of the government's current and
                               future costs. Rather, emphasis is placed
                               on supporting individual forest plans.
                             The agency has not implemented program
                               unit cost comparisons, such as
                               totalcost/acre acquired, as an efficiency
                               measure, nor has it explored other
                               potentially beneficial measures, such as
                               timing targets or personnel cost/acre
                               acquired.
                            Actions:
                               Establish annual performance measures
                                that indicate how land acquisitions
                                advance in a measureable way agency
                                strategic plan milestones.
                               Establish relevant and meaningful
                                efficiency measures.




USDA
 152                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




 Perform.                                                                         Efficiency   FY 2004   FY 2004
 Measure       Program                    Findings and Actions                     Measure      Target    Actual
5.1                             Establish processes that provide analyses
(cont’d)                         of integrated spatial data sets on land
                                 management units, ecoregions,
                                 conservation lands, land cover and
                                 species to identify gaps or needs that in
                                 turn highlight priority areas in need of
                                 habitat, ecosystem and biodiversity
                                 protection.
                                Measure Federal administrative
                                 efficiencies associated with third parties
                                 purchasing non-Federal lands and placing
                                 them in trust prior to Federal purchase.
                             Copy Available:
                             http://www.whitehouse.gov/omb/budget/fy200
                             5/pma/agriculture.pdf
            Forest Service   Results: “Adequate”
            Capital
            Improvement
                             Findings:
            and              The program serves a clear and important
            Maintenance      purpose. The roads and trails accommodate
                             millions of visitors annually. However, the
                             PART evaluation highlighted a number of
                             obstacles the program faces in meeting its
                             long-term goals. Specific findings include:
                              The program is relatively well managed.
                                 The Forest Service has made significant
                                 strides in collecting performance
                                 information and establishing reporting
                                 protocols that distinguish between critical
                                 and non-critical health and safety
                                 deficiencies. However, financial
                                 management still needs improvement as
                                 the Forest Service has had difficulty
                                 collecting timely, reliable, and complete
                                 financial data on its physical assets.
                              The program scored low on the results
                                 section. The program has a significant
                                 deferred maintenance backlog (estimated
                                 at $13 billion) and the Forest Service has
                                 been unable to demonstrate that it can
                                 maintain its current infrastructure needs.
                              The program has improved performance
                                 measures and is now using a Facilities
                                 Condition Index (FCI) to assess physical
                                 infrastructure and prioritize funding needs.
                             Actions:
                                Continue to improve the maintenance
                                 prioritization process and increase
                                 incentives aimed at decommissioning
                                 obsolete and underutilized infrastructure.
                                Target $10 million for deferred
                                 maintenance, focusing on the projects that
                                 have the highest priority as measured by
                                 the improvement in the FCI.
                                Copy Available:
                                 http://www.whitehouse.gov/omb/budget/fy
                                 2005/pma/agriculture.pdf




                                                                                                          USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 153
ANNUAL PERFORMANCE REPORT




Perform.                                                                             Efficiency      FY 2004   FY 2004
 Measure       Program                    Findings and Actions                        Measure         Target    Actual
5.1.1 and   Wildland Fire     Results: “Results Not Demonstrated”                  Number of          10,573    7,956
5.1.2       Management        Findings:                                            acres treated
                                 The program faces significant obstacles in
                                                                                   within the
                                                                                   Wildland
                                  meeting its long-term goals, most of which
                                  appear to be management challenges. A            Urban
                                  number of management changes are                 Interface
                                  currently underway at the Forest Service         (WUI) areas
                                  to address these issues.                         per million
                                 The purpose and design of the program is         dollars gross
                                  clear and well focused.                          investment
                                 The cost of responding to fires is rapidly
                                  rising and no systematic cost-containment
                                  strategy is in place to track and control
                                  firefighting efficiency.
                                 Although Forest Service has taken
                                  substantive steps to improve the
                                  hazardous fuels program (the removal of
                                  excess wood to reduce the risk of
                                  catastrophic fire), more effort is needed to
                                  demonstrate that fuels reduction activities
                                  adequately targeted adequately and
                                  managed efficiently.
                                 The long-term goals developed as part of         Number of           8,203    7,956
                                  the 10-Year Fire Strategy still require          acres treated
                                  baseline data, annual and long-term              outside WUI
                                  targets, and clear prioritization among the      areas per
                                  4 goals and 18 measures.
                                                                                   million dollars
                              Actions: Based on the identified problems            gross
                              in the program, the Administration will              investment.
                              implement management improvements in the
                              fire program, including:
                               Developing a real-time obligations system
                                   to improve the accountability of firefighting
                                   costs and accuracy of wildland fire
                                   obligations.
                               Improving accountability for firefighting
                                   costs and ensuring that States are paying
                                   their fair share of such costs.
                               Developing a new fire preparedness
                                   model that focuses on efficient allocation
                                   of available resources.
                               Establishing project criteria that is
                                   consistent with the 10-Year
                               Implementation Strategy to ensure that
                                   hazardous fuels reduction funds are
                                   targeted as effectively as possible to
                                   reduce risks to communities in the
                                   wildland-urban interface.
                              Copy Available: http://www.whitehouse.
                              gov/omb/budget/fy2004/pma/usdawildlandfire.pdf.
5.2         Farm and          Results: “Results Not Demonstrated”
            Ranch Lands
                              Findings:
            Protection
            Program              The program is administered in an
                                  effective manner.
                                 While the program prioritizes applications
                                  at the State level and selects the best
                                  projects for protecting important
                                  agricultural lands from development, it
                                  does not have outcome-based annual or
                                  long-term performance measures. Thus,
                                  the program cannot demonstrate it is
                                  delivering results.




USDA
 154                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                ANNUAL PERFORMANCE REPORT




 Perform.                                                                         Efficiency      FY 2004      FY 2004
 Measure       Program                     Findings and Actions                    Measure         Target       Actual
5.2                            Actions:
(cont’d)                          The Department has contracted with
                                   outside research groups, such as
                                   American Farmland Trust and several
                                   universities, to develop improved
                                   performance measures that are outcome
                                   based.
                                  Design and implement an evaluation
                                   system to provide outcome performance
                                   indicators for farm conservation programs.
                               Copy Available:
                               http://www.whitehouse.gov/omb/part.
            Wildlife Habitat   Results: “Results Not Demonstrated”
            Incentives
                               Findings:
            Program
                               The program is managed in an effective
                               manner.
                                  WHIP prioritizes funding for rare,
                                   threatened, and endangered fish and
                                   wildlife. In addition, WHIP leverages
                                   significant resources from conservation
                                   partners and often acts as a seed source
                                   for additional habitat projects.
                                  WHIP could be more effective if its
                                   program purpose was more specific and
                                   narrowly focused.
                                  Possible overlap exists between WHIP
                                   and other conservation programs
                                   administered by the U.S. Department of
                                   Agriculture, such as the Environmental
                                   Quality Incentives Program and the
                                   Wetlands Reserve Program.
                                  The program does not have a limited
                                   number of ambitious, long-term
                                   performance goals that focus on
                                   outcomes.
                                  The PART identified no independent and
                                   quality evaluations of WHIP.
                               Actions:
                                  Work to develop outcome-based
                                   performance measures and targets.
                                  Conduct an internal, in-depth review of
                                   WHIP during 2003 by a Departmental
                                   Oversight & Evaluation team.
                               Copy Available:
                               http://www.whitehouse.gov/omb/part.
            Conservation       Results: “Results Not Demonstrated”               Technical       Baseline to
            Technical                                                            assistance      be
                               Findings:
            Assistance                                                           cost per acre   established
                               The assessment found that CTA pays for            of cropland
                               NRCS field staff to work in conjunction with      planning
                               State and local units of Government to
                               address resource concerns that are identified
                               at the local level. However, improvements are
                               needed in how CTA reports its activities and
                               tracks its accomplishments. Specific findings
                               include:




                                                                                                                USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                      155
ANNUAL PERFORMANCE REPORT




 Perform.                                                                     Efficiency   FY 2004   FY 2004
 Measure       Program                    Findings and Actions                 Measure      Target    Actual
5.2                            The budget does not have adequate
(cont’d)                        transparency. It funds a number of
                                activities beyond field-level technical
                                assistance and it is difficult to trace and
                                connect the budget requests with agency
                                performance and results.
                               The lack of budgetary transparency
                                makes it difficult to determine whether the
                                account’s resources are effectively
                                prioritized and targeted.
                               The CTA has difficulty developing a
                                concise list of long-term measures for the
                                PART exercise because it funds many
                                activities beyond providing field-level
                                technical assistance. The performance of
                                many of these activities is not reported.
                            Actions:
                               Develop long-term performance measures
                                for CTA that include outcome-based
                                measures and goals.
                               Develop efficiency measures for CTA.
                               Improve the annual measures to better
                                reflect the variety of activities funded by
                                CTA beyond the field-level technical
                                assistance provided to producers.
                            Copy Available:
                            http://www.whitehouse.gov/omb/part.
            Soil Survey     Results: “Moderately Effective”
            Program
                            Findings:
                               The snow survey and water supply
                                forecast program is the only high
                                elevation, data-collection network in the
                                U.S.
                               The water supply forecasts it produces
                                are coordinated with other entities, such
                                as the National Weather Service.
                               The program has developed long-term
                                performance measures that support the
                                programs purpose—baseline data for
                                these new measures currently are
                                unavailable, however. The measures
                                evaluate the program's progress in
                                eliminating information gaps for water
                                supply forecasting purposes, improving
                                water supply data utility, and increasing
                                accuracy of streamflow data.
                               NRCS needs to develop baselines for the
                                new long-term measures.
                               The program also needs to develop
                                adequate efficiency measures.
                               The program’s budget requests are not
                                explicitly tied to achieving the long-term
                                goals. It is unclear how performance
                                would increase for the measures if
                                program funding was increased.




USDA
 156                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                               ANNUAL PERFORMANCE REPORT




 Perform.                                                                        Efficiency    FY 2004   FY 2004
 Measure       Program                    Findings and Actions                    Measure       Target    Actual
5.2                           Actions:
(cont’d)                         Improve long-term performance measures
                                  by refining the measures and developing
                                  the baseline data.
                                 Refine the program efficiency measures.
                              Copy Available:
                              http://www.whitehouse.gov/omb/part.
            Snow Survey       Results: “Moderately Effective””                  Average unit   $1,022
            and Water         Findings:                                         cost of a
            Supply
            Forecasting
                                 The snow survey and water supply
                                                                                water supply
                                                                                forecast
                                  forecast program is the only high
                                  elevation, data-collection network in the
                                  U.S.
                                 The water supply forecasts it produces
                                  are coordinated with other entities, such
                                  as the National Weather Service.
                                  The program has developed long-term
                                  performance measures that support the
                                  programs purpose—baseline data for
                                  these new measures currently are
                                  unavailable, however. The measures
                                  evaluate the program's progress in
                                  eliminating information gaps for water
                                  supply forecasting purposes, improving
                                  water supply data utility, and increasing
                                  accuracy of streamflow data.
                                 NRCS needs to develop baselines for the
                                  new long-term measures.
                                 The program also needs to develop
                                  adequate efficiency measures.
                                 The program’s budget requests are not
                                  explicitly tied to achieving the long-term
                                  goals. It is unclear how performance
                                  would increase for the measures if
                                  program funding was increased.
                              Actions:
                                 Improve long-term performance measures
                                  by refining the measures and developing
                                  the baseline data.
                                 Refine the program efficiency measures.
                              Copy Available:
                              http://www.whitehouse.gov/omb/part.
            Plant Materials   Results: “Results Not Demonstrated”
            Program
                              Findings:
                                 The Plant Materials Program is integrated
                                  closely into NRCS’ technical assistance
                                  delivery system, and the research and
                                  training the program provides is
                                  fundamental to NRCS’ mission.
                                 The program is managed effectively.
                                 While the program uses a ground-up
                                  approach to identify priority and emerging
                                  conservation issues that it can address,
                                  improvements are needed.
                                 The program lacks adequate long-term
                                  measures and targets to track its
                                  performance.




                                                                                                          USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                 157
ANNUAL PERFORMANCE REPORT




 Perform.                                                                         Efficiency   FY 2004   FY 2004
 Measure      Program                       Findings and Actions                   Measure      Target    Actual
5.2                              The program’s budget requests are not
(cont’d)                          explicitly tied to achieving the long-term
                                  goals. It is unclear how performance
                                  would increase for the measures if
                                  program funding was increased. It also is
                                  unclear how additional program funding
                              Actions:
                                 Develop long-term performance measures
                                  by refining the measures and developing
                                  the baseline data
                                 Develop Plant Material Centers efficiency
                                  measures
                              Copy Available:
                              http://www.whitehouse.gov/omb/part.
            Forest Legacy     Results: “Moderately Effective”
            Program
                              Findings:
                              The assessment found that the program is
                              valuable and generally has strong
                              management. Its effectiveness could improve
                              with the adoption of adequate performance
                              measures that could track the percentage of
                              priority forest lands at risk of conversion to
                              non-forest uses that are maintained in
                              contiguous forest. Additional findings include:
                               Recent evaluations and program redesign
                                  have led to improvements; however work
                                  is needed to develop suitable
                                  performance goals and demonstrate
                                  results.
                               The program has instituted a project
                                  selection process criterion that focuses on
                                  the readiness of projects.
                              Actions:
                                 Complete a strategic plan that will
                                  articulate national goals, objectives and
                                  outcome-based performance measures,
                                  and identifies issues and trends affecting
                                  forests in regions across the country.
                                 Improve the link between the budget and
                                  strategic plans, and reassess funding
                                  distribution to ensure proper alignment.
                                 Develop efficiency measures.
                              Copy Available:
                              http://www.whitehouse.gov/omb/budget/fy200
                              5/pma/agriculture.pdf
            National          Results: “Results Not Demonstrated”
            Resource
                              Findings:
            Inventory
                                 NRI is one of the Federal Government’s
                                  primary sources of information on the
                                  status, condition, and trends of soil, water,
                                  and related resources in the United
                                  States.
                                 Provides the basis for specific measures
                                  and objectives in the overall NRCS
                                  strategic plan.
                                 NRCS designed the program well and
                                  effectively manages the NRI’s data
                                  gathering, assessment, and information
                                  sharing.



USDA
 158                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                             ANNUAL PERFORMANCE REPORT




 Perform.                                                                      Efficiency   FY 2004   FY 2004
 Measure        Program               Findings and Actions                      Measure      Target    Actual
5.2                          Uses independent evaluations to assure
(cont’d)                      the quality of the NRI’s data collection and
                              made improvements to the program’s
                              operations based on these reviews. The
                              NRI incorporates the findings from these
                              reviews into its 1-, 2-, and 5-year
                              management plans.
                          Actions:
                             Develop long-term performance measures
                              and set ambitious targets for the
                              measures.
                             Develop NRI efficiency measures.
                          Copy Available: http://www.whitehouse.
                          gov/omb/budget/fy2005/pma/agriculture.pdf

N/A = Not Available




                                                                                                       USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                             159
ANNUAL PERFORMANCE REPORT




PROGRAM EVALUATIONS
Perform.
Measure              Title             Findings and Recommendations/Actions                        Availability
1.1.1      GAO Report, March          Findings: GAO recommended that the                  Report is available on
           2000, GAO/NSIAD-00-76      Office of the U.S. Trade Representative and         http://www.gao.gov/new.items/n
           - International Trade:     the Department of Commerce and Agriculture          s00076.pdf
           Strategy Needed to         jointly develop a strategy to better manage
           Better Monitor and         the U.S. Government’s growing trade
           Enforce Trade              agreement monitoring and enforcement
           Agreements.                workload.
                                      Action: GAO and FAS Deputy Administrator
                                      for International Trade Policy activities are
                                      working to implement the GAO report
                                      recommendations.
1.3.2      GAO-040437, Improved       Findings:                                           Report is available on
           USDA Management               Execute a management plan for                   www.gao.gov/cgi-
           Would Help Agencies            completing the work.                            bin/getrpt?GAO-04-437.
           Comply with Farm Bill       Identify and allocate the staff and financial
           Purchasing                     resources needed.
           Requirements
                                       State the priority for the work’s completion
                                          clearly.
                                      Actions: USDA currently is implementing
                                      the GAO recommendations .
1.4.1      GAO-04-517, Crop           Findings: Improve reviews of companies’             Report is available on
           Insurance: USDA Needs      financial conditions, establish better              http://www.gao.gov/atext/d0451
           to Improve Oversight of    coordination with States on the oversight of        7.txt
           Insurance Companies        companies and clarify RMA’s authority
           and Develop a Policy to    relative to when a state regulator takes
           Address Any Future         control of a company.
           Insolvencies
                                      Actions: RMA generally agreed with these
                                      findings and continues to take action to
                                      address them.
           OIG-05401-12-FM,           Findings: Improve policies and procedures           Report is available on
           Financial Statements for   on access to information systems, and               http://www.usda.gov/oig/
           Fiscal Years 2002 and      application program and system software             webdocs/05401-12-FM.pdf
           2003                       changes controls. Additionally, continue to
                                      implement and improve policies and
                                      procedures to comply fully with the Federal
                                      Financial Management Improvement Act.
                                      Actions: RMA generally agreed with these
                                      findings continues to take action to address
                                      them.
           OIG-05601-11-Te, Risk      Findings: Improve National Office oversight         Report is available on
           Management Agency          of Regional Office activities relative to written   http://www.usda.gov/oig/webdoc
           Review of Written          agreements.                                         s/05601-11-TE.pdf
           Agreements
                                      Actions: RMA generally agreed with this
                                      finding and has and continues to take action
                                      to address it.
           OIG-05099-7-SF, Risk       Findings: Review a prune producer and               Report is available on
           Management Agency,         one of its two partners that did not report         http://www.usda.gov/oig/
           Indemnity Payments to      ownership, size and harvest of their orchards       webdocs/05099-7-SF.pdf
           Prune Producers in         accurately.
           California – Producer D.
                                      Recommendations/Actions: RMA has
                                      initiated action to address this matter.




USDA
 160                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                              ANNUAL PERFORMANCE REPORT




Perform.
Measure               Title             Findings and Recommendations/Actions                      Availability
1.4.1       OIG-05099-17-KC, Risk      Findings: Crop Years 2001 through 2002           Report is available on
(cont’d)    Management Agency,         crop price elections were supported,             http://www.usda.gov/
            Established Maximum        reasonable and consistently applied              oig/webdocs/05099-17-KC.pdf
            Price Elections for        adequately.
            Agricultural Crops for
                                       Actions: No action required.
            2001 and 2002 Crop
            Years
            OIG-05099-25-At, Added     Findings: Revisions to added land policy         Report is available on
            Land Policy                since Crop Year 2000 have made yields more       http://www.usda.gov/oig/
                                       representative of producers’ operations.         webdocs/05099-25-AT.pdf
                                       Review five producers to determine whether
                                       identified errors were willful or intentional.
                                       Actions: RMA has initiated action to
                                       address the noted discrepancies.
            OIG-05099-18-KC, Risk      Findings: RMA’s IT environment is                Report is available on
            Management Agency,         vulnerable to errors, misuse, abuse,             http://www.usda.gov/
            Management and             unauthorized access, disruption of service       oig/webdocs/05099-18-KC.pdf
            Security of Information    and willful destruction.
            Technology Resources.
                                       Actions: RMA generally agreed with these
                                       findings. RMA has made substantial progress
                                       in implementing the agreed to
                                       recommendations.
1.4.2       Farm Service Agency        The objectives of this multi-year study being    A preliminary report for internal
            Direct Farm Loan           conducted by the University of Arkansas are      use has been issued with a final
            Effectiveness Study        to (1) identify groups being served by agency    report due June 1, 2005.
                                       loan programs, (2) examine the length of time
                                       borrowers remain agency customers and (3)
                                       measure and find ways to reduce loan
                                       subsidy costs.
2.1.1       Business Programs          Findings: National Office evaluations of the     Summary of findings to be
            Assessment Reviews         performance of individual State offices.         available on RD Intranet Web
                                                                                              nd
            (BPAR)                                                                      site 2 quarter of FY05.
                                       Actions: Findings and recommendations
                                       vary widely by State.
2.2.1       Management Control         Findings: Management Control Reviews             SFH MCR Report to be
            Review                     conducted in FY 2004 to evaluate the             released in mid-September.
            SFH Section 523 Self-      effectiveness of program operations; reviews     Contact RD Financial
            Help Program               are conducted every two to five years, or as     Management Division at
                                       needed, by program experts.                      202-692-0080
                                       Actions: Pending receipt of formal report
                                       from OMB.
2.2.2       Management Control         Findings: MCRs were conducted on the             MCR information available on
            Review:                    Solid Waste Management Grant Program and         RD Intranet Discussion Groups
            Solid Waste                Training Grant Program.                          and Document Libraries in
            Management Grant                                                            October 2004. Contact RD
                                       Actions: The files were supported by the
            Program and Training                                                        Financial Management Division
                                       required documentation. There were no
            Grant Program                                                               at 202-692-0080
                                       significant deficiencies.
2.2.3 and   Telecommunications and     Findings: Subscriber growth is tracked           Performance data available in a
2.2.4       Electric Data validation   quarterly on an aggregate basis for              variety of reporting documents
            process                    performance measurement reporting.               and from the RUS BPI
                                                                                        coordinator.
                                       Actions: Individual project data are
                                       periodically examined by the program line        Project data are available from
                                       offices, and are verified by General Field       the individual program line
                                       Representatives when loans are in process.       offices. Contact Electric
                                                                                        Program at 202-720-9545
                                                                                        Contact Telecommunications
                                                                                        Program at 202-720-9554




                                                                                                                 USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        161
ANNUAL PERFORMANCE REPORT




Perform.
Measure              Title              Findings and Recommendations/Actions                         Availability
3.1.2      FSIS Program                Findings: An FSIS team was formed to                Information may be requested
           Evaluation/Assessment       assess and measure the effectiveness of the         from the USDA Food Safety
           To Support The Interim      new regulation. Control of Listeria                 Inspection Service—Office of
           FSIS Listeria Ready-to-     monocytogenes in ready-to-eat meat and              Program Evaluation,
           Eat (RTE) Rule (2004)       poultry products, 68 Federal Register, 34208        Enforcement and Review.
                                       (June 6, 2003), including evaluating the
                                       microbilogical verification testing program
                                       established by the regulation, communication
                                       and outreach aspects of this rulemaking,
                                       changes in industry practices that have
                                       occurred as a result of adoption of the rule,
                                       instructions and training to FSIS inspectors,
                                       and the value of FoodNet and other public
                                       health data as an indicator of program
                                       effectiveness.
                                       Actions: Scheduled completion by
                                       Dec. 31, 2003
3.1.3      FSIS Reviews of Foreign     Findings: To export product to the U.S.,            Information may be requested
           Meat and Poultry            foreign establishments must demonstrate             from the USDA Food Safety
           Establishments (2004)       equivalent inspection programs, including           Inspection Service—Office of
                                       acceptable pathogen testing programs. FSIS          Program Evaluation,
                                       reviews these programs to ensure                    Enforcement and Review.
                                       equivalency standards are met.
                                       Actions: Reviews conducted at least once
                                       per year per exporting country, depending on
                                       compliance history. Countries and/or
                                       establishments may be listed or delisted as
                                       approved exporters depending on these and
                                       other evaluations.
           Evaluation of the           Findings: Program Evaluation and                    Information may be requested
           Implementation of           Improvement Staff (PEIS will conduct an             from the USDA Food Safety
           Directive 10,010.1 (2004)   evaluation of the implementation of FSIS            Inspection Service—Office of
                                       Directive 10,010.1, concerning sampling for         Program Evaluation,
                                       E. coli 0157:H7, approximately six months           Enforcement and Review.
                                       after is effective date. Although Office of Field
                                       Operations (OFO) implementation will be
                                       examined directly, the goal of the evaluation
                                       will be to determine if changes to inspection
                                       policy or to the Directive itself are necessary
                                       to better protect public health.
                                       Actions: Scheduled completion by
                                       Dec. 31, 2004.
           Advanced Meat               Findings: PEIS also plans to evaluate the           Information may be requested
           Recovery Interim Final      interim final rules regarding Bovine                from the USDA Food Safety
           Rule Evaluation (2004)      Spongiform Encephalopathy, focusing on new          Inspection Service—Office of
                                       requirements for Advanced meat Recovery             Program Evaluation,
                                       and Specified Risk Materials. Although              Enforcement and Review.
                                       industry compliance and Office of Field
                                       Operations (OFO) implementation would be
                                       examined directly, the goal of the evaluation
                                       will be to assist the Office of Policy, Program
                                       and Employee Development (OPPED) in
                                       determining what changes to the interim rules
                                       are necessary before they are made final.
                                       Actions: Tabled because OIG, GAO and
                                       AMS are conducting similar investigations.
3.2.1      “Animal Health              Findings: The National Association of State         NASDA’s final report was delivered
           Safeguarding Report”        Departments of Agriculture (NASDA)                  to USDA officials in November
                                       conducted a review of the USDA’s Animal             2001 and is available at:
                                       Health Safeguarding




USDA
 162                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            ANNUAL PERFORMANCE REPORT




Perform.
Measure              Title            Findings and Recommendations/Actions                       Availability
3.2.1                                system, assessing the performance and            http://www.aphis.usda.gov/vs/pdf_fi
(cont’d)                             efficacy of the infrastructure, activities,      les/safeguarding.pdf
                                     procedures, policies, partnerships, and          Progress achieved in implementing
                                     authorities that comprise the existing           the Review is reported by these
                                     safeguarding system.                             Issue Groups monthly and may be
                                     Actions: The review found performance            viewed at:
                                     adequate in handling most assigned roles,        http://www.aphis.usda.gov/vs/safeg
                                     and even heroic in some historical efforts to    uarding/index.html
                                     eradicate diseases that have infected U.S.
                                     livestock—but resources were fast becoming
                                     overwhelmed. The review called for:
                                      Improving areas that include, but are not
                                         limited to, staffing, equipment,
                                         surveillance, detection, applied research,
                                         communications and border security.
                                      Improving interagency and
                                         interdepartmental cooperation, and the
                                         resources to facilitate it.
                                      APHIS formed seven issue groups to
                                         develop action plans to address the
                                         issues raised in the NASDA review.
           “Exotic Newcastle         Findings: An evaluation of APHIS’                A copy of the report may be
           Disease (END) After       response to Exotic Newcastle Disease led to      obtained from Dr. John Clifford,
           Action Review”            general recommendations about USDA’s             Deputy Administrator, USDA
                                     animal health emergency response systems.        APHIS Veterinary Services,
                                     It was finalized on May 21, 2004.                202-720-5193
                                     Actions: Four major areas were covered in
                                     the report:
                                      Preparedness;
                                      The Incident Command System;
                                      Human resources; and
                                      External engagement (Action: Pending)
           “Report of the            Findings: At the request of the Secretary of     The report is available at:
           Secretary’s Advisory      Agriculture, an international expert Bovine      http://www.animalagriculture.org
           committee on Foreign      Spongiform Encephalopathy (BSE) panel was        /BSE/Report_Sec_BSE_2_13_0
           Animal and Poultry        convened to review actions taken by the          4.htm
           Diseases: Measures        United States in response to a single finding    For information about actions
           Relating to Bovine        of BSE. The panel, which was organized as a      taken see:
           Spongiform                subcommittee of the Secretary’s Foreign          http://www.aphis.usda.gov/lpa/is
           Encephalopathy in the     Animal and Poultry Disease Advisory              sues/bse_testing/index.html
           United States”            Committee, provided its report on February 4,
                                     2004.
                                     Actions: Among the actions taken after this
                                     report was received were:
                                      Increased sampling for BSE
                                      Animal Identification System – Listening
                                        Session; and
                                     Web site development.
4.1.1      Reaching Those in Need:   Presents percentage of eligible persons by       Available on the FNS Web site at:
           State Food Stamp          State. These estimates differ slightly from      http://www.fns.usda.gov/oane/M
           Participation Rates in    those reported last year because of the          ENU/Published/FSP/participatio
           2001                      change in the reference period from the          n.htm
                                     month of September to the average month
                                     across the fiscal year, and improvements in
                                     data and methods.
           Food Stamp Household      This report provides summary information         Available on the FNS Web site at
           Characteristics FY 2002   about the demographics and income                http://www.fns.usda.gov/oane/M
                                     circumstances of food stamp households.          ENU/Published/FSP/participatio
                                                                                      n.htm




                                                                                                                 USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                         163
ANNUAL PERFORMANCE REPORT




Perform.
Measure              Title             Findings and Recommendations/Actions                         Availability
4.1.1      Food Stamp Program—        Tests three strategies to increase FSP             Available on the ERS Web site at
(cont’d)   Elderly Nutrition          participation among the elderly. Preliminary       http://www.ers.usda.gov/Publica
           Demonstrations: Interim    analysis indicates that elderly participation      tions/efan04009/
           Report on Elderly          rose substantially after the demonstrations
           Participation Patterns     started. The analysis also provides some
                                      evidence that the demonstrations attract
                                      elderly individuals eligible for relatively low
                                      FSP benefits particularly in Maine and North
                                      Carolina, where a large number of individuals
                                      eligible for a $10 benefit are applying.
           WIC and the Retail Price   Rebates from infant formula manufacturers to       Available on the ERS Web site at
           of Infant Formula          State agencies that administer WIC support         http://www.ers.usda.gov/publication
                                      over one-quarter of all participants. This         s/FANRR39/
                                      report presents findings from the most
                                      comprehensive national study of infant
                                      formula prices at the retail level.
           Food Stamp Program         While many food stamp-eligible non-                Available on the ERS Web site at
           Access Study: Eligible     participants are aware of the FSP and how to       http://www.ers.usda.gov/publication
           Non-participants           apply, some are unaware of their eligibility.      s/efan03013/efan03013-2/
                                      This report was produced as part of the Food
                                      Stamp Program Access Study. The study
                                      examined local food stamp office policies and
                                      practices as possible barriers to participation.
           Relationship Between the   This study examines how these two programs         Available on the ERS Web site at
           EITC and Food Stamp        interact, particularly with regard to the impact   http://www.ers.usda.gov/publication
           Program Participation      of the EITC on participation during the latter     s/efan04002/
           Among Households With      half of the 1990s. The findings are mixed and
           Children                   they provide evidence of negative impact of
                                      EITC on FSP participation.
           Food Stamp Program         This report examines the extent to which local     Available on the ERS Web site at
           Access Study               office policies and practices affect               http://www.ers.usda.gov/
                                      households’ decisions to apply for food
                                                                                         publications/efan03013/
                                      stamps and continue participating once they
                                      are approved for stamp benefits.
           Employment Factors         This study examines how employment                 Available on the ERS Web site at
           Influencing Food Stamp     characteristics of low-income households           http://www.ers.usda.gov/publication
           Program Participation:     FSP participation. The relationship between        s/efan03012/
           Final Report               employment and FSP participation is of
                                      special interest because, although more low-
                                      income working families are eligible to
                                      participate, many do not. Low-income working
                                      households are less likely to participate.
           Using One-Stops To         The results indicate that the Coordinated          Available on the ERS Web site at
           Promote Access to Work     Economic Relief Centers (CERCs) helped             http://www.ers.usda.gov/publication
           Supports—Lessons from      some customers get information about where         s/efan03010/
           Virginia's Coordinated     to find services and made obtaining them
           Economic Relief Centers:   more convenient. Despite this, resource
           Final Report               constraints hampered the CERCs' efforts to
                                      operate as envisioned, the level of referrals to
                                      food assistance.
           The Relationship of        This study considers the role that the             Available on the ERS Web site at
           Earnings and Income to     dynamics of household income plays in              http://www.ers.usda.gov/publication
           Food Stamp                 determining FSP participation. The two main        s/efan03011/
           Participation: A           objectives of the analysis are to (1) determine
           Longitudinal Analysis      the extent to which non-participation can be
                                      attributed reasonably to temporary low
                                      income, and (2) assess why some
                                      households that appear to have long-term low
                                      income do not participate.




USDA
 164                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                              ANNUAL PERFORMANCE REPORT




Perform.
Measure               Title              Findings and Recommendations/Actions                          Availability
4.1.1       Household Food Security     This report, based on data from the                 Available on the ERS Web site at
(cont’d)    in the United States,       December 2002 food-security survey,                 http://www.ers.usda.gov/publication
            2002                        provides statistics on the food security of U.S.    s/fanrr35/
                                        households. The survey also details how
                                        much they spent for food and the extent to
                                        which food-insecure households participated
                                        in Federal and community food assistance
                                        programs.


4.2.1       Maternal Employment         This study analyzed differences in nutrition        Available on the ERS Web site at
            and Children's Nutrition:   outcomes among children whose mothers               http://www.ers.usda.gov/publication
            Diet Quality and the Role   work full time, part time and not at all. It also   s/efan04006/efan04006-1/
            of CACFP                    covered the role that CACFP plays in meeting
                                        the nutritional needs of participating children
                                        — especially those with working mothers.
4.2.2       The Economics of            This report presents a summary of the papers        Available on the ERS Web site at
            Obesity: A Report on the    and the discussions presented at the                http://www.ers.usda.gov/publication
            Workshop Held at            workshop. It was intended to provide an             s/efan04004/
            USDA's Economic             overview of leading health economics
            Research Service            research on the causes and consequences of
                                        rising obesity in the U.S.
4.3.1       Balancing Food Costs        A case study of 6 States found that WIC             Available on the ERS Web site at
            with Nutrition Goals in     agencies, using a variety of food restrictions,     http://www.ers.usda.gov/AmberWa
            WIC                         reduced food costs by an average of 15              ves/September03/Features/FoodC
                                        percent without diminishing participant use         ostsWIC.htm
                                        and satisfaction. These cost-containment
                                        practices appear to have had few adverse
                                        outcomes for participants.
            Case study of the           The study examined outcomes of the                  Available on the FNS Web site at
            National School Lunch       verification process. It also made an               http://www.fns.usda.gov/oane/MEN
            Program and the School      independent assessment of income eligibility        U/Published/CNP/FILES/NSLPCas
            Breakfast Program           with specific verification outcomes. To do this,    eStudy.htm
                                        the study used data from in-person interviews
                                        with families.
5.1.1 and   GAO-04-705                  Findings: Develop and issue guidance, with          Available on the FAO Web site:
5.1.2       Environmental Effects of    CEO and taking into account any lessons             http://www.gao.gov/new.items/d04
            Wildland Fire               learned from the CEQ demonstration                  705.pdf
                                        program, to clarify the assessment and
                                        documentation of the risks of environmental
                                        effects associated both with conducting and
                                        not conduction fuel reduction activities.
                                        Actions: USDA reviewed the lessons
                                        learned from the CEQ demonstration program
                                        and determined that existing direction is
                                        generally adequate for implementing these
                                        lessons. Risks associated with not taking
                                        action to reduce fuels (the no action to reduce
                                        fuels (the no action alternative) are assessed
                                        with
5.2.2       GAO-03-418: USDA            Findings: NRCS and FSA should improve               Report is available on
            Needs to Better Ensure      processes for reviewing compliance and              http://www.gao.gov/new.items/
            Protection of Highly        enforcing requirements.                             d03418
            Erodible Cropland and
                                        Actions: Web-based tracking system
            Wetlands.
                                        implemented. Policy revised and clarified.




                                                                                                                       USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                             165
ANNUAL PERFORMANCE REPORT




Perform.
Measure               Title             Findings and Recommendations/Actions                  Availability
5.2.2       OIG-10099-8-KC:            Findings: Improvements in prescribed          Report is available on
(cont’d)    Compliance with Highly     controls are needed to strengthen the         www.oig.usda.gov
            Erodible Land Provisions   agency’s ability to provide accurate and      www.usda.gove/oig/webdocs/1009
                                       reliable assessments of producer compliance   9-8KC.pdf
                                       with the HELC provision.
                                       Actions: Web-based tracking system
                                       implemented. Policy revised and clarified.
5.2.2 and   GAO-03-418: USDA           Findings: NRCS and FSA should improve         Report is available on
5.2.3       Needs to Better Ensure     processes for reviewing compliance and        www.gao.gov
            Protection of Highly       enforcing requirements.                       www.gao.gov/new.items/d03418.
            Erodible Cropland and                                                    pdf
                                       Actions: Web-based tracking system
            Wetlands.
                                       implemented. Policy revised and clarified.




USDA
 166                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                            SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




III. SYSTEMS, CONTROLS AND LEGAL COMPLIANCE

INSPECTOR GENERAL ACT AMENDMENTS OF 1988
REPORT ON AUDIT FOLLOW-UP
BACKGROUND
During the course of the fiscal year, OIG audits USDA’s programs, systems and operations. OIG then
recommends improvements to management based on its findings. USDA management may or may not agree
with the audit’s findings and/or recommendations. An agreement is reached during the management decision
process. If management agrees with a recommendation, a written plan for corrective action with a target
completion date is developed and submitted to OIG for its concurrence. If both OIG and management agree that
the proposed corrective action will correct the situation, management decision then is achieved for that
recommendation. Once management decision is reached for each recommendation in the audit, that audit is
considered resolved.
Audit follow-up ensures that prompt and responsive action is taken once management decisions are reached on
recommendations contained in final audit reports. USDA’s Office of the Chief Financial Officer (OCFO)
oversees audit follow-up for the Department. An audit remains open until all corrective actions for each
recommendation are completed. As agencies complete planned corrective actions and submit closure
documentation, OCFO reviews it for sufficiency and determines if final action is completed.

FY 2004 Results
USDA agencies closed 96 audits in FY 2004 as compared to FY 2003 when only 65 audits were closed; a 48
percent increase in audit closures. This improvement reflects management’s commitment to aggressively
address deficiencies identified in agency programs and to follow-up with agencies on final action needed to
close the audits. USDA’s current inventory of audits that have reached management decision and require final
action to close the audits includes 55 new audits in FY 2004 for a total of 185 audits. One of these audits is in
appeal status. As shown in Exhibit 96, this is an 18 percent decrease from the 226 audits that were open at the
end of FY 2003.
Exhibit 96: Decrease in Total Open Audit Inventory

                                           250
                                                    246
                        Number of Audits




                                           235
                                                          226                226

                                           215


                                           195
                                                                                                  185
                                           175
                                                 FY 01     FY 02           FY 03             FY 04
Note: The FY 2003 ending balance was revised from 217 to include 9 audits that reached management decision in September
2003. This adjustment also is reflected in the beginning balances for audits with disallowed costs and funds to be put to better
use shown in Exhibits 98 and 100.




                                                                                                                       USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                          167
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Audit Follow-Up Process
The Inspector General Act Amendments of 1988 require an annual report to Congress to provide the status of
all resolved audits which remain open. Reports on these resolved audits must include the elements listed in the
first three bullets below. Resolved audits that remain open one year or more past the management decision date
require an additional reporting element as described in the last bullet below:
       Beginning and ending balances for the number of audit reports and dollar value of disallowed costs and
          funds to be put to better use (see definitions below);
       The number of new management decisions reached;
       The disposition of audits with final action (see definition below); and
       For each audit report that remains open more than one year past the management decision date, the
          date issued, dollar value and an explanation of why final action has not been taken. For audits in
          formal administrative appeal or legislative solution, reporting may be limited to the number of affected
          audits.
Exhibit 97: Audit Follow-Up Definitions

 Disallowed Cost               An incurred cost questioned by OIG that management has agreed should not be
                               chargeable to the Government.
 Final Action                  The completion of all actions that management has concluded is necessary in its
                               management decision with respect to the findings and recommendations included in an audit
                               report. In the event that management concludes no action is necessary, final action occurs
                               when a management decision is made.
 Funds To Be Put to            A recommendation by OIG that funds could be used more efficiently if management took
 Better Use (FTBU)             actions to implement and complete the recommendation, including:
                                Reductions in outlays;
                                Deobligation of funds from programs or operations;
                                Withdrawal of interest subsidy costs on loans or loan guarantees, insurance or bonds;
                                Costs not incurred by implementing recommended improvements related to the
                                   operations of the establishment, a contractor or grantee;
                                Avoidance of unnecessary expenditures noted in pre-award reviews of contract or
                                   grant agreements; or
                                Any other savings which are specifically identified.
 Management Decision           Management’s evaluation of the audit findings and recommendations, and the issuance of
                               a final decision on corrective action agreed to by management and OIG concerning its
                               response to the findings and recommendations.


OCFO works with component agencies and OIG to identify and resolve issues that affect the timely completion
of corrective actions. USDA agencies are required to prepare combined, time-phased implementation plans and
interim progress reports for all audits that remain open more than one year beyond the management decision
date. Time-phased implementation plans are updated and submitted at the end of each quarter. They are updated
to include newly reported audits that meet the one year past management decision criterion. These plans contain
corrective action milestones for each recommendation and corresponding estimated completion dates.
Quarterly interim progress reports are provided to OCFO on the status of corrective action milestones listed in
the time-phased implementation plan. These reports show incremental progress toward completion of planned
actions, changes in planned actions, actual or revised completion dates, and explanations for any revised dates.




 USDA
  168                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                            SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Beginning and Ending Inventory for Audits with Disallowed Costs (DC) and Funds to
Be Put to Better Use (FTBU)1
Of the 96 audits that achieved final action during the fiscal year, 44 contained disallowed costs (DC). The
number of DC audits remaining in the inventory at the end of the fiscal year is 76 with a monetary value of
$81,073,719.
For audits with disallowed costs that achieved final action in FY 2004, OIG and management agreed to collect
$26,097,820. Adjustments were made totaling $21,765,160 (83 percent of the total) because of: 1) changes in
management decision; 2) legal decisions; 3) write-offs; 4) USDA agencies’ ability to provide sufficient
documentation to substantiate disallowed costs; 5) agency discovery; and 6) appeals. Management recovered
the remaining $4,332,660.
Exhibit 98: Inventory of Open Audits With Disallowed Costs

                              Audits with Disallowed Costs                      # of Audits        Amount ($)
             Beginning of the Period                                                  101          $102,666,949
                     Plus: New Management Decisions                                    19            $4,504,590
                     Total Audits Pending Collection of Disallowed Costs              120          $107,171,539
                     Adjustments                                                                    (21,765,160)
                     Revised Subtotal                                                               $85,406,379
                                                                                                                1
                     Less: Final Actions (Recoveries)                                  44            (4,332,660)
             Audits with DC Requiring Final Action at the End of the                   76            81,073,719
             Period
             1
                 This amount does not include $319,624 of interest collected.



Exhibit 99: Distribution of Adjustments to Disallowed Costs

                                         Category                                           Amount ($)
              Changes in Management Decision                                                   647,413
              Legal Decisions                                                                 4,167,004
              Write-Offs                                                                      1,210,868
              Agency Documentation                                                          15,671,774
              Agency Discovery                                                                 (21,210)
              Appeals                                                                           89,311
              Total                                                                      $21,765,160


Final action occurred on 18 audits that involved FTBU amounts. USDA projects more efficient use for 94
percent of the amount identified, based on the corrective actions implemented. The number of FTBU audits
remaining in the inventory to date is 37 with a monetary value of $1,308,465,874.




1
 Exhibits 98 and 100 include only those open audits with disallowed costs and funds to be put to better use, respectively.
Additionally, some audits contain both DC and FTBU amounts. For these reasons, the number of audits shown as the ending
balances in Exhibits 98 and 100 will not equal the total resolved audit inventory balance in Exhibit 96.


                                                                                                                    USDA
                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                     169
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Exhibit 100: Inventory of Open Audits with Funds to be Put to Better Use



                       Audits with Funds to be Put to Better Use                               # of Audits          Amount ($)
          Beginning of the Period                                                                   45             $641,411,712
               Plus: New Management Decisions                                                       10            $747,645,264
               Total Audits Pending                                                                 55           $1,389,056,976
               Less: Final Actions                                                                  18              $80,591,102
          Audits with FTBU Requiring Final Action at the End of the Period                          37           $1,308,465,874
          Disposition of Funds to Be Put to Better Use:
          FTBU Implemented                                                                                          $75,716,304
          FTBU Not Implemented                                                                                       $4,874,798
          Total FTBU Amounts for Final Action Audits                                                                $80,591,102


Audits Open One or More Years Past the Management Decision Date
The number of audits outstanding one or more years without final action has decreased 17 percent in FY 2004
from 161 to 134. Two audits are proceeding as scheduled, 87 are behind schedule and agencies have completed
corrective actions on 45 audits that only are pending collection of associated disallowed costs.
Exhibit 101: Decrease In Audits Outstanding One or More Years Past Management Decision Date

                                            170
                                                                                        161
                         Number of Audits




                                            160

                                            150
                                                           148             147
                                            140
                                                                                                             134
                                            130
                                                      FY 01            FY 02          FY 03           FY 04

While an additional 28 audits are scheduled for completion by September 30, 2004, final action documentation
will not be evaluated this reporting period.
Exhibit 102: Distribution of Audits Outstanding One or More Years Past the Management Decision Date,
Disallowed Costs and FTBU

                                Audits On Schedule                    Audits Behind Schedule                Audits Under Collection
   Agency         No.             DC($)             FTBU ($)     No.       DC ($)      FTBU ($)       No.         DC ($)     FTBU ($)
 Totals            2                        0          0         87       6,788,272   544,032,516      45      61,933,670   16,788,094


Audits that are without final action one or more years past the management decision date and behind schedule
are listed individually in the table that follows and are categorized by the reason final action has not occurred.
More detailed information on audits on schedule and audits under collection is available from OCFO. The
categories are pending the following actions:
      Issuance of policy/guidance;
      Conclusion of investigation, negotiation or administrative appeal;
      Receipt and/or processing of final action documentation;


 USDA
  170                                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                           SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




        Systems development, implementation, reconciliation or enhancement;
        Results of internal monitoring or program review;
        Results of agency request for change in management decision;
        OGC or OIG advice;
        Conclusion of external action; and
        Administrative action.

MANAGEMENT’S REPORT ON FINAL ACTION (AUDIT FOLLOW-UP)
Exhibit 103: Audits One Year or More Past the Management Decision Date and Behind Schedule


                             Estimated                                                               Monetary Amount
                  Date      Completion                                                            DC               FTBU
    Audits       Issued         Date                          Audit Title                    (U.S. dollars)    (U.S. dollars)
 (45) Pending issuance of policy/guidance
 03006-1-AT    09/19/95    09/30/04         FSA Management of the Dade County, Florida
                                                                                              684,642              -
                                            ASCS Office
 04099-01-AT   6/1/2001    03/31/05         RHS Guaranteed Multi-Family Housing Loans            -                 -
 04099-1-HQ    02/01/96    09/30/04         RHS Legislative Proposals to Strengthen the
                                                                                                 -                 -
                                            Rural Rental Housing Program
 04099-3-KC    02/25/02    12/31/04         RHS FY 2001 Financial Statement Field
                                                                                                 -                 -
                                            Confirmation Review, Nebraska
 04600-5-KC    09/30/93    09/30/04         RHS Rural Rental Housing Program, Servicing of
                                                                                                 -             4,815,119
                                            HUD Section 8/515 Projects
 04600-47-CH   09/30/94    09/30/04         RHS Rural Rental Housing Program,
                                                                                                 -                 -
                                            Management Operations
 04601-1-KC    12/16/96    09/30/04         RHS Rural Rental Housing Program, Additional      65,910          33,147,535
                                            Servicing of Section 8/515 Projects
 04601-2-AT    03/25/99    09/30/05         RHS Guaranteed Rural Housing Loan Program          5,928          139,146,407
 04801-4-CH    02/12/99    09/30/04         RHS Evaluation of Rural Rental Housing Tenant        -                 -
                                            Income Verification Process
 05600-4-TE    09/30/93    09/30/04         RMA FCIC Crop Year 1991 Claims                       -                 -
 08001-2-HQ    03/29/02    04/30/05         FS Aviation Security Over Aircraft Facilities        -                 -
 08002-2-SF    11/28/00    12/31/04         FS Valuation of Lands Acquired in
                                            Congressionally Designated Areas Land                -                 -
                                            Adjustment Program
 08003-2-SF    08/05/98    12/31/04         FS Toiyabe/Humboldt National Forest Land             -            27,900,000
                                            Adjustment Program
 08003-5-SF    12/15/00    12/31/04         FS Land Acquisitions and Urban Lot                   -            10,329,300
                                            Management Program
 08099-6-SF    03/27/01    03/31/05         FS Security Over USDA Information Technology         -                 -
                                            Resources
 08099-42-AT   08/03/93    10/29/04         FS FY 1992 Financial Statements                      -                 -
 08401-4-AT    07/18/96    12/31/04         FS FY 1995 Financial Statements                      -                 -
 08401-7-AT    07/13/98    12/31/04         FS FY 1997 Financial Statements                      -                 -
 08401-12-AT   02/26/02    12/31/04         FS FY 2001 Financial Statements                      -                 -
 08601-1-AT    03/29/96    10/29/04         FS Management of Hazardous Waste at Active or        -             1,950,000
                                            Abandoned Mines
 08601-27-SF   03/28/02    12/31/04         FS Review of National Land Ownership                 -                 -
                                            Adjustment Team Effectiveness
 08601-30-SF   03/31/03    12/31/04         FS Review of FS Security Over
                                            Explosives/Munitions Magazines Located Within        -                 -
                                            National Forest System
 08801-3-AT    06/16/00    12/31/04         FS Real and Personal Property Issues                 -                 -
 08801-6-SF    01/19/00    12/31/04         FS Land Adjustment Program San Bernadine
                                                                                                 -                 -
                                            National Forest & South Zone



                                                                                                                       USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                            171
SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                                Estimated                                                                    Monetary Amount
                   Date        Completion                                                                 DC               FTBU
   Audits         Issued          Date                            Audit Title                        (U.S. dollars)    (U.S. dollars)
10099-8-KC       09/10/02     09/30/04          NRCS Compliance with Highly Erodible Land
                                                                                                         -                 -
                                                Provisions
10601-6-TE       09/24/02     09/30/04          NRCS Controls Over Funds Congressionally
                                                                                                         -                 -
                                                Earmarked for Conservation Projects
23099-1-FM       03/30/00     10/31/04          OCIO Security Over Data Transmission in the
                                                                                                         -                 -
                                                Department Needs Improvement
24099-4-HY       02/25/04     09/30/04          FSIS Imported Meat and Poultry Inspection
                                                                                                         -                 -
                                                Process, Phase II
24601-1-CH       06/21/00     09/30/04          FSIS Food Safety and Inspection Service
                                                                                                         -                 -
                                                Laboratory Testing of Meat and Poultry Products
27002-14-CH      01/14/02     09/30/04          FNS State Agencies Oversight of the Child and
                                                                                                         -                 -
                                                Adult Care Food Program
27010-7-KC       04/23/02     12/31/04          FNS Analysis of Large Child and Adult Care Food
                                                                                                         -                 -
                                                Program Sponsors, Phase II
27010-11-CH      08/25/97     09/30/04          FNS National School Lunch Program –
                                                                                                         -            31,200,000
                                                Verification of Applications in Illinois
27600-6-AT       03/31/95     09/30/04          FNS Day Care Homes Nationwide                            -                 -
27601-3-CH       03/22/96     12/31/04          FNS Food Stamp Program—Disqualified
                                                                                                         -                 -
                                                Recipient System
27601-7-SF       08/23/99     09/30/04          FNS Presidential Initiative: Operation Kiddie Care       -            34,551,576
27601-27-CH      04/30/02     03/31/06          FNS Food Service Management Companies                    -                 -
33004-1-AT       03/07/00     TBD          APHIS Plant Protection and Quarantine Activities
                                                                                                         -                 -
                                           in Florida
34001-1-HQ     12/17/96    12/30/04        RBS Minority Enterprise Financial Acquisition
                                                                                                      150,000          100,000
                                           Corp., Cooperative Agreement, Kansas City, KS
34099-2-AT     09/14/01    03/25/05        RBS Business and Industry Loan Program, Fort
                                                                                                     4,052,351             -
                                           Gaines, GA
34601-1-HY     07/22/98    09/30/06        RBS Business and Industry Loan Program—
                                                                                                         -                 -
                                           Morgantown, West Virginia
34601-3-CH     03/11/03    09/30/04        RBS Processing of Loan Guarantees to Members
                                                                                                         -                 -
                                           of the Western Sugar Cooperative
34601-7-SF     12/04/02    09/30/04        RBS B&I Liquidation of Loans to the Pacific
                                                                                                         -            14,000,000
                                           Northwest Sugar Company in Washington State
50401-28-FM    02/01/99    02/28/05        RHS Fiscal Year 1998 Rural Development
                                                                                                         -                 -
                                           Financial Statements
50401-45-FM    11/19/02    09/30/04        OCFO Working Capital Fund Financial Statement
                                                                                                         -                 -
                                           Audit for FY 2001
85099-1-HQ     09/10/01    12/31/04        RD Cooperative Agreement with the Washington
                                           State Department of Community, Trade, and                     -                 -
                                           Economic Development
(4) Pending conclusion of investigation, negotiation or administrative appeal
04801-3-KC     03/31/99    TBD             RHS Bosley Management, Inc. – Sheridan
                                                                                                      146,690          85,516
                                           Wyoming
04801-6-HY     03/17/99    09/30/04        RHS Rural Rental Housing Program, Lewiston
                                                                                                         -                 -
                                           Properties, Fayetteville, NY
08017-11-KC    07/17/02    06/30/05        FS OMNI Development Corporation Contract                      -            2,049,653
34004-5-HY       02/18/00     12/31/04     RBS Audit of Procurement Operations, Virginia
                                                                                                         -                 -
                                           State Office, Richmond, Virginia
(14) Pending receipt and/or processing of final action documentation
03099-32-KC    12/22/99    09/30/04        FSA Controls Over Administrative Payment
                                                                                                         -                 -
                                           Operations
03601-15-KC    03/31/00    09/30/04        FSA Emergency Conservation Program                         12,583          2,794,586
04601-2-HY       07/22/03     10/31/04          RHS Review of Project Funds for Progressive
                                                                                                      72,511               -
                                                Property Management Inc.
04601-5-KC       08/08/02     TBD               RHS Rural Rental Housing Program Insurance
                                                                                                      418,321         15,500,000
                                                Expenses, Phase III



USDA
 172                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                               SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                                 Estimated                                                               Monetary Amount
                    Date        Completion                                                            DC               FTBU
   Audits          Issued          Date                             Audit Title                  (U.S. dollars)    (U.S. dollars)
04801-6-KC        12/18/00     TBD                RHS Rural Rental Housing Program Insurance
                                                                                                 1,029,999           9,000
                                                  Expenses, Phase I
06401-11-FM       07/13/00     09/30/04           CCC FY 1999 Financial Statements                   -                 -
06401-14-FM       06/27/01     09/30/04           CCC FY 2000 Financial Statements                   -                 -
08401-11-AT       05/04/01     12/31/04           FS FY 2000 FS Financial Statements                 -                 -
08601-25-SF       06/22/01     06/30/05           FS Working Capital Fund Enterprise Services        -             2,600,000
08801-2-TE        09/24/98     12/31/04FS Assistance Agreements with Not-for-profit
                                                                                                  140,497          1,173,925
                                       Organizations
23099-2-FM     05/22/02  TBD           DA Security of Information Technology Resources
                                                                                                     -                 -
                                       at USDA Departmental Administration
34601-14-TE    09/27/02  TBD           RBS Business and Industry Direct Loan Program –
                                                                                                     -                 -
                                       Arkansas
50099-13-AT    03/29/02  TBD           Multi-Agency Audit Oversight and Security of
                                       Biological Agents at Laboratories Operated by                 -                 -
                                       USDA
50099-28-FM    07/18/00  10/31/04      OCIO President’s Council on Integrity and
                                       Efficiency Critical Infrastructure Protection                 -                 -
                                       Review
(13) Pending systems development, implementation, or enhancement
02099-1-FM        12/04/01     09/30/05           ARS IT Security                                    -                 -
03601-36-TE       06/08/00     09/30/04           FSA Farm Loan Program Guaranteed Loans             -            205,248,800
05401-8-FM        03/30/00     12/31/04           RMA FY 1999 FCIC Financial Statements Report
                                                                                                     -                 -
                                                  on Management Issues
08001-1-HQ        06/28/00     03/31/05           FS Implementation of the Government
                                                                                                     -                 -
                                                  Performance and Results Act
09600-5-HQ        04/01/92     12/31/04           RUS FY 1991 Management Letter                      -                 -
10099-1-TE        02/01/02     12/30/04           NRCS Security Over IT Resources                    -                 -
24099-1-FM        08/11/03     09/30/04           FSIS Security Over Information Technology
                                                                                                     -                 -
                                                  Resources at FSIS
26099-2-FM        03/25/02     09/30/05           NASS Information Technology Security               -                 -
27004-3-AT        11/09/01     06/30/05           FNS Florida Food Stamp Program, Tallahassee,
                                                                                                     -            15,443,610
                                                  Florida
27099-4-KC        01/31/00     10/31/04           FNS Food Stamp Program Participation by
                                                                                                     -                 -
                                                  Disqualified Retailers
27601-8-CH        01/21/97     10/31/04           FNS Food Stamp Program—Retailer Monitoring
                                                                                                     -                 -
                                                  with Store Tracking and Redemption Subsystem
50401-42-FM       06/24/02     12/30/04           OCFO Audit of FFIS Operations                      -                 -
50601-3-CH        07/23/01     09/30/04     APHIS Assessment of APHIS & FSIS Inspection              -                 -
                                            Activities to Prevent the Entry of Foot and Mouth
                                            Disease
(6) Pending results of internal monitoring or program review
05099-1-TE        09/30/97     12/31/04           RMA Reinsured Companies Actual Production
                                                                                                     -                 -
                                                  History Self-Reviews
05099-8-KC        03/31/00     09/30/04           RMA Standard Reinsurance Agreement
                                                                                                     -                 -
                                                  Reporting Requirements
05600-1-TE        09/28/89     12/31/04           RMA Crop Year 1988 Insurance Contracts with
                                                                                                     -                 -
                                                  Claims
26099-1-FM        05/14/01     12/31/04           NASS Security of Information Technology
                                                                                                     -                 -
                                                  Resources
27401-8-HY        06/27/97     09/30/05           FNS FY 1996 Financial Statements                   -                 -
33099-2-AT        08/08/02     TBD                APHIS Citrus Canker Eradication Program –
                                                                                                     -             268,950
                                                  State of Florida
(1) Pending results of request for change in management decision
03099-47-KC       10/31/01     TBD                FSA Security Over FSA/CCC IT Resources             -                 -



                                                                                                                           USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                               173
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                             Estimated                                                             Monetary Amount
                  Date      Completion                                                          DC               FTBU
    Audits       Issued        Date                       Audit Title                      (U.S. dollars)    (U.S. dollars)
 (1) External Action Required
 27099-9-HY     12/14/99    09/30/04     FNS State Option Food Stamp Program                   -                 -
 (3) Pending Administrative Action
 04099-1-HY     11/07/95    TBD          RHS Rural Rental Housing Program,
                                                                                                       -                 -
                                         Whistleblower Complaint, San Juan, PR
 23801-1-HQ     08/20/98    TBD          OO Review of Office of Operations Contract with
                                                                                                       -      249,866
                                         B&G Maintenance, Inc.
 27099-22-CH    02/22/02    TBD          FNS Opportunities Industrialization Center of
                                                                                                   8,840       1,468,673
                                         Greater Milwaukee
 Total Number Audits (87)                                                        Total $     6,788,272      544,032,516



FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT
REPORT ON MANAGEMENT CONTROLS
BACKGROUND
USDA has made substantial progress in improving internal controls by reducing the number of existing material
deficiencies from eight to one. Two new material deficiencies were added this year for a total of three
outstanding weaknesses. This result continues the downward trend that began in FY 2002 when material
deficiencies dropped from 32 to 19. USDA’s recent progress further demonstrates its commitment to operating
its programs efficiently and effectively in accordance with the Federal Managers’ Financial Integrity Act
(FMFIA). FMFIA requires agencies to provide reasonable assurance that:
      Obligations and costs comply with applicable laws and regulations;
      Federal assets are safeguarded against fraud, waste and mismanagement; and
      Transactions are accounted for and properly recorded.
The Federal Information Security Management Act (FISMA) added a new reporting requirement for FMFIA.
FISMA requires agencies to report any significant deficiency in information security policy, procedure or
practice identified (in agency reporting):
     As a material weakness in reporting under FMFIA; and
     If relating to financial management systems, as an instance of a lack of substantial compliance under
          the Federal Financial Management Improvement Act. (See the Report on Financial Management
          Systems Compliance.)
FMFIA requires a separate statement as to whether financial management systems conform to standards,
principles and other requirements. This statement ensures that Federal managers have timely, relevant and
consistent financial information for decision-making purposes. USDA’s goal was to eliminate material internal
control weaknesses and financial system nonconformances by the end of FY 2004. While this result was not
achieved fully, the Department made significant progress through:
     The continuous evaluation of its programs, operations and financial systems;
     Financial statement and other OIG and GAO audits;
     Management and system reviews; and
     Prompt attention to correcting the causes of identified weaknesses.
USDA’s management control program ensures compliance with the requirements of FMFIA and OMB
Circulars A–123, “Management Accountability and Control,” and A–127, “Financial Management Systems.”




 USDA
  174                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Within USDA, Subcabinet officials, agency heads and directors of staff offices are responsible for ensuring that
their programs operate efficiently and effectively, and comply with relevant laws. They also must ensure that
financial management systems conform to applicable laws, standards, principles and related requirements. In
conjunction with OIG, USDA management works aggressively to determine the root causes of its material
deficiencies and correct them promptly and efficiently.

FY 2004 Results
The “Message from the Secretary” provides USDA’s assurance statement for FMFIA reporting. This message
contains a qualified statement of assurance with the objectives for both FMFIA Sections 2 (internal controls)
and 4 (financial management systems), except for the weaknesses described in this section. In cooperation with
OIG and the OCFO, agency heads and managers have worked diligently to address and correct existing and any
newly discovered weaknesses.
USDA agencies report quarterly on progress in correcting existing material weaknesses and/or financial
management system nonconformances. The agencies also provide annual assurance statements. Throughout the
year, determinations are made as to whether newly identified weaknesses should be declared agency level
material deficiencies. A material deficiency describes both material weaknesses and financial system non-
conformances collectively. Once one is declared, OCFO staff reviews each agency level material deficiency to
determine whether it meets the criteria to be considered a Departmental material deficiency. The criteria for
reportable, corrected and downgraded material deficiencies are outlined below.
During the fiscal year, USDA eliminated seven of the eight existing material deficiencies and added two new
ones. The scheduled completion date for the existing material weakness in information technology (IT) security
has been delayed until FY 2005. The Forest Service’s financial statement audit activities and internal agency
monitoring found a new material weakness in financial management controls. This weakness is related to
compliance with accounting standards for revenue recognition and reporting accruals. A new financial system
nonconformance was added to acknowledge weaknesses in CCC’s accounting for obligations, funds control,
and budgetary accounting and reporting policies. The FY 2005 goal is to eliminate the existing material
deficiencies and correct any new material deficiencies within one year.
Also, during the fiscal year, as part of the Department’s FY 2003 financial statement audit, OIG advised GIPSA
to request a ruling from OGC to determine whether there was a violation of the Anti-deficiency Act. As part of
the USDA FY 2003 financial statement audit, the Office of Inspector General instructed GIPSA to request a
ruling from the Office of General Counsel (OGC) to determine whether there was a violation of the
Antideficiency Act. In July 2004, the OGC determined that GIPSA violated the Antideficiency Act during
FY 2003 by exceeding the amount appropriated by Congress in its FY 2002 S&E Appropriation. During
FY 2004 GIPSA identified errors that occurred during the conversion of data to the Foundation Financial
Information System (FFIS), charges that belonged to another appropriation, and undelivered orders that were no
longer valid. Transactions were processed in September 2004 to correct these problems and resulted in
sufficient funds to nullify the antideficiency condition. In consultation with OGC, it was determined that a letter
be sent to them describing the action taken and requesting them to render another opinion. GIPSA believes the
facts will result in the rescission of the Antideficiency Act violation. Additionally, GIPSA implemented
USDA’s new accounting system (FFIS), a standard general ledger compliant, integrated budget and accounting
system, on October 1, 2002. GIPSA has strengthened its financial reporting with the implementation of FFIS
and its data warehouse that provides daily financial data.
USDA Guidelines for Reporting Material Deficiencies
The criteria for Departmental material weaknesses and financial system noncomformances are described below.
A Departmental material weakness is a deficiency in internal controls (Section 2 of FMFIA) that satisfies one or
more of the following criteria:
    Merits the attention of the Executive Office of the President and the relevant congressional oversight
         committees;
    Violates statutory or regulatory requirements;


                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               175
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




        Deprives the public of needed services;
        Significantly weakens safeguards against waste, loss, unauthorized use or misappropriation of funds,
         property or other assets;
        Significantly impairs fulfillment of the Department’s mission;
        Results in a conflict of interest; or
        Is of a nature that omission from the annual Report on Management Controls could reflect adversely
         on USDA’s actual or perceived management integrity.
A Departmental material financial system nonconformance (Section 4 of FMFIA) is a deficiency that satisfies
one or more of the following criteria:
     Merits the attention of the Executive Office of the President and relevant congressional oversight
        committees;
     Prevents USDA’s primary financial management system from achieving central control over agency
        financial transactions and resource balances; or
     Prevents compliance of the primary financial management system with standards published by the
        OMB Circular A–127, which includes the availability of timely, consistent and relevant financial
        information for decision-making purposes.

Material Weakness and Nonconformance Reported Under FMFIA
IT security continues to be a major issue for USDA. It impacts the Department’s ability to deliver its programs
efficiently and effectively and provide meaningful and reliable reporting. While further efforts are needed to
address serious weaknesses within USDA’s information security program, the Department and its agencies
continue to improve security over IT resources. USDA, under the direction of the OCIO, has worked diligently
to facilitate and assist agencies in complying with security mandates. OCIO created a framework to contract for
the certification and accreditation of major application and general support systems during the fiscal year.
Certification and accreditation of most of USDA’s systems has been completed or currently is in progress and
expected to be completed in the near future. Additionally, OCIO has been actively involved in the budget
process within USDA. This move is designed to ensure that cyber-security and FISMA requirements are
addressed in IT acquisitions.
USDA’s component agencies need to implement IT security requirements aggressively to reduce the level of
vulnerability. The following exhibit describes and summarizes the corrective actions planned for the remaining
material deficiencies.

Historical Data on Material Deficiencies
USDA has reduced the number of existing material deficiencies from a high of 32 in FY 2001 to 1 in FY 2004.
Two new material deficiencies were added this year for a total of three outstanding weaknesses. This result is a
91-percent decrease in the number of outstanding material deficiencies reported during the past 4 years. The
FY 2004 figure also is a 63-percent decrease from last year.




 USDA
  176                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                         SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Exhibit 104: Summary of Outstanding Material Deficiencies and Estimated Completion Dates

                                                                                                              Current
                                                                                                             Estimated
   Responsible             Material Deficiency                 Corrective Actions                Year       Completion
   Agency(ies)                Description                    Remaining To Be Taken             Identified      Date
 Section 2 Material Weakness
 OCIO/RMA/CCC/      Multi 00-01: USDA Information        OCIO will:                            FY 2000       FY 2005
 RD/APHIS/FS        Security Weaknesses:                  Improve the quality and
                    Weaknesses have been                   process for managing USDA
                    identified in the Department’s         information security
                    ability to protect its assets from     vulnerabilities and actions.
                    fraud, misuse and disruption.         Complete vulnerability
                                                           assessments of all mission
                                                           critical systems;
                                                          Continue to manage the USDA
                                                           information survivability
                                                           program to guide agencies in
                                                           the development and testing of
                                                           disaster recovery and business
                                                           resumption plans for USDA’s
                                                           highest priority mission critical
                                                           systems; and
                                                          Refine or develop new policies
                                                           as required.
                                                         RMA will:
                                                          Enforce newly implemented
                                                           security policies, formalize
                                                           draft policies and continue
                                                           developing additional required
                                                           policies;
                                                         RD will:
                                                          Implement incremental plan of
                                                           action milestones to resolve
                                                           network security and logical
                                                           access control weaknesses ;
                                                          Complete certification and
                                                           accreditation of RUS legacy
                                                           systems.
                                                         CCC will:
                                                          Improve security controls in
                                                           system authorization and
                                                           logical access;
                                                          Complete tabletop testing as
                                                           part of the Certification and
                                                           Accreditation process.
                                                           Tabletop testing is the
                                                           simulation of an actual disaster
                                                           to test documented plans for
                                                           recovery and resumption of
                                                           operations; and
                                                          Develop a plan to fund,
                                                           prioritize, and initiate the
                                                           process to perform and update
                                                           required employee background
                                                           investigations.
                                                         APHIS will:
                                                          Conclude certification and
                                                           accreditation of its systems.
                                                         FS will:
                                                          Continue to improve its general
                                                            control environment.




                                                                                                                USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                   177
SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                                                                                                             Current
                                                                                                            Estimated
  Responsible             Material Deficiency                  Corrective Actions               Year       Completion
  Agency(ies)                Description                    Remaining To Be Taken             Identified      Date
FS                  04-01: Financial Management          Develop detailed future state
                    Internal Control Weaknesses:          process. Work with other
                    Controls inadequate to assure         teams to develop roles and
                    improvements in data quality.         responsibilities, staffing plan,
                                                          migration plan, customer
                                                          service IT requirements, and
                                                          performance metrics.
                                                         Build detailed future state
                                                          processes (e.g., policies and
                                                          procedures, reports, etc.).
                                                         Build training materials for
                                                          transition.
                                                         Begin process to transition
                                                          people and processes from the
                                                          field and the Washington D.C.
                                                          Office into the Center.


                                                         Transition the Northeastern
                                                          Research Station/Northeastern
                                                          Area staff and finance activities
                                                          to the Albuquerque Service
                                                          Center to address major
                                                          financial management
                                                          deficiencies.
                                                         Migrate management,
                                                          administrative support, and
                                                          customer service functions.
                                                         Migrate personal property, real
                                                          property, and WCF teams.
                                                         Complete migration of the
                                                          payments-grants and
                                                          agreements and payments-
                                                          other teams.
Section 4 Financial Management System Nonconformance
CCC                  04-01: Improvement Needed in    Identify and group programs             FY 2004       FY 2005
                     Funds Control Mechanisms and     with specific obligation and
                     Budgetary Financial Accounting   disbursement events;
                     and Reporting Policies and      Identify and implement
                     Procedures                       changes to current financial
                                                      management processes and
                                                      systems to improve the
                                                      accuracy and timeliness of
                                                      obligation amounts in the
                                                      CORE financial system;
                                                     Revise existing policy to
                                                      reduce the materiality
                                                      threshold for recording accrued
                                                      liabilities from $5 million to $1
                                                      million;
                                                     Revise policy for estimating
                                                      and recording accruals of
                                                      producer program payment
                                                      liabilities.




USDA
 178                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                        SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




Exhibit 105: Material Deficiencies Decline

                                            Corrected              New             Remaining
                        Fiscal Year
                                           Deficiencies        Deficiencies        Deficiencies
                            2001                 10                   9                  32
                            2002                 15                   2                  19
                            2003                 12                   1                    8
                            2004                  7                   2                    3


Summary of Corrected or Downgraded Material Deficiencies
Material deficiencies, for which corrective actions were completed or deemed no longer material as of
September 30, 2004, are summarized below.
Criteria To Downgrade FMFIA Material Deficiencies
A material deficiency may be reassessed and downgraded for one of two reasons. The control vulnerability is no
longer considered to be material, or the vulnerability no longer exists. Although downgraded from a material
deficiency, it remains possible for these issues to be reported in other sections of this report (such as Improper
Payments or Management Challenges). USDA component agencies will continue to monitor and assess
downgraded deficiencies through completion of corrective actions.
Guidelines for Reporting a Corrected or Downgraded Material Deficiency
To report a material deficiency as corrected or downgraded, USDA agencies must:
     Demonstrate commitment of senior-level managers to resolve the material deficiency as evidenced by
        resource deployment and regular monitoring of corrective action progress;
     Provide substantial, timely and documented progress in completing corrective actions for the material
        deficiency;
     Complete the most significant corrective actions, with the remaining actions being minor in scope and
        not having a material effect on the program or operation; and
     Implement corrective actions that eliminate or minimize the cause(s) of the material deficiency.
Exhibit 106: Material Deficiencies Corrected or Downgraded

                                                                                                     Status
  Responsible                                                                           Year        Corrected/
    Agency                   Number and Title of Material Deficiencies                Identified   Downgraded
 FNS              94-01: Management of the Child and Adult Care Food Program            1994        Corrected
                  99-01: National School Lunch and Breakfast Program Eligibility        1999       Downgraded
                  01-01: Procurement in the Child Nutrition Program                     2001       Downgraded
 FS               03-01: Internal Control Weaknesses                                    2003        Corrected
 CCC              00-01: Foreign Credit Reform System                                   2000        Corrected
                  94-01: Direct Loan Servicing and Reporting Subsystem                  1994        Corrected
 RD
                  96-02: Oversight of the Multi-Family Housing Program                  1992        Corrected


Material Weaknesses Corrected
FNS-94-01: Management of the Child and Adult Care Food Program
Management and monitoring of weaknesses in the the Child and Adult Care Food Program (CACFP) need
strengthening. Sponsoring organizations have been identified as receiving excessive Federal funding for meal
service and administration.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              179
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




The Food and Nutrition Service (FNS) published regulations for CACFP. The regulations implemented
legislative reforms to strengthen program integrity and improve management.
FS-03-01: Internal Control Weaknesses
Overall financial management controls are not adequate in the Forest Service.
During the fiscal year, the Forest Service completed the following corrective actions to close the weakness:
     Developed service-level agreements with USDA and the National Finance Center, which included
         specific responsibilities, roles, clearing timelines and escalation procedures;
     Began a monthly analysis of the composition of its budget and clearing accounts to determine the
         proper disposition of the account balances;
     Identified revenue sources and issued direction to the field requiring transfer or justification of
         balances in budget clearing accounts monthly;
     Implemented adequate system controls in PAYCHECK7 to ensure that each employee’s supervisor of
         record appropriately reviews and approves timesheets;
     Developed training materials, trained the trainers and conducted training classes on property, plant and
         equipment (PP&E) transactions;
     Identified and issued compensating controls to ensure the accuracy of property transactions;
     Completed final review of capitalization controls in the PP&E handbook; and
     Issued policy requiring line officers and unit managers to complete a quarterly certification of all
         employees on payroll.
FSA-00-01: Foreign Credit Reform Systems
Systems are not fully automated and integrated into the Community Credit Corporation’s Core Accounting
System (CORE).
The General Sales Manager System (GSMS) was implemented to interface directly with the Commodity Credit
Corporation’s Core Accounting System (CORE) general ledger. Additionally, the Financial Management
System accounting structure was replaced in the Automated Public Law (Pub. L.) No. 83-480 Umbrella System
(APLUS) with the CORE accounting structure.
RD-94-01: Direct Loan Servicing and Reporting Subsystem
Direct Loan Servicing and Reporting system is not in compliance with OMB Circular A-127 “Financial
Management Systems.”
The agency has made substantial progress in the implementation of the Rural Utilities Loan Servicing System
(RULSS) to replace the Rural Utility Service (RUS) legacy loan systems. During the fiscal year, the agency:
     Implemented architectural enhancements, the Borrower Director Management Systems, and upgraded
        to Webshere 4.0;
     Implemented the RUS data warehouse;
     Incorporated Water and Environmental Program (WEP) Loans into RULSS and WEP obligations
        through the Program Loan Accounting System;
     Implemented the Loan Obligation and Disbursement System – Phase 1 – Obligation request;
     Implemented the Cash Receipts System; and
     Completed the system certification and accreditation requirements.
RD-96-02: Oversight of the Multi-Family Housing Program
The Multi-Family Housing Program lacks adequate oversight and internal controls, which has led to program
abuse by program participants.




 USDA
  180                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




The agency has made substantial progress in strengthening internal controls and providing adequate oversight of
the multi-family housing program. The Multi-Family Housing regulation condenses 13 existing regulations. The
proposed rule was published in June 2003. The final draft interim rule was provided to OMB for clearance and
final publication in September 2004.

Material Weaknesses Downgraded
FNS-99-01: National School Lunch and Breakfast Program Eligibility
Data indicate a problem with the integrity of household eligibility determinations for free and reduced-price
meals.
During the past five years, FNS has engaged in a number of activities to evaluate the extent and nature of
weaknesses better. In partnership with State agencies, some of the activities undertaken included conducting
demonstration projects, improving certification within the context of current regulations, exploring alternatives
to the current process and collecting data on eligibility determination and verification efforts at the school food
authority (SFA) level. States are expected to identify and resolve problems with the certification and
verification processes based on the data collected. During FY 2004, FNS completed evaluations of the
intervention effects on program integrity, participation and administrative burden. Senior agency officials used
this information to make recommendations to Congress on ways to improve program integrity. The information
also will be used to develop training for State and local officials on ways to reduce administrative errors.
FNS-01-01: Procurement in the Child Nutrition Program
Improper procurement of goods and services have been found to occur in the National School Lunch, School
Breakfast and CACFP and Summer Food Service Programs.
FNS identified a number of control features to pursue to strengthen procurement and contract management on
the part of cooperating State and local agencies. FNS implemented the following milestones:
      Issued a series of policy and guidance memoranda to expand required and recommended procurement
          practices. The guidance outlines policy and procedure for requesting applications for proposals and
          related contract standards. The policy covers bid specification standards required for Federal programs;
      Made presentations on strengthening procurement integrity at gatherings such as the American School
          Food Service Association (ASFSA) Convention and regional conferences with State agencies. ASFSA
          is a trade association created to advance the availability, quality and acceptance of school-nutrition
          programs as an integral part of education;
      Participated on an ASFSA task force to develop an online procurement manual for contracting with
          SFAs;
      In cooperation with the National Food Service Management Institute (NFSMI), developed and
          provided training on an equipment procurement manual for SFA use, and a comparable purchasing
          manual for CACFP. NFSMI is an institute that provides information and services promoting the
          continuous improvement of Child Nutrition Programs;
      Updated the “First Choice” manual, the primary procurement document for schools and school meal
          programs; and
      Developed a policy section on procurement contracts for purchasing food and management services.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                181
 SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
REPORT ON FINANCIAL MANAGEMENT SYSTEMS
BACKGROUND
The Federal Financial Management Improvement Act (FFMIA) is designed to improve accountability of
financial and program managers, provide better information for decision-making, and improve the efficiency
and effectiveness of Federal programs. FFMIA requires financial management systems to provide reliable,
consistent disclosure of financial data in accordance with generally accepted accounting principles and
standards. These systems also must comply substantially with: (1) Federal financial management system
requirements; (2) applicable Federal accounting standards; and (3) the Standard General Ledger at the
transaction level. Additionally, the Federal Information Security Management Act (FISMA) requires that there
be no significant deficiencies in information security policies, procedures or practices to be substantially
compliant with FFMIA (referred to as Section 4 in the table below).

FY 2004 RESULTS
During FY 2004, USDA evaluated its financial management systems to assess substantial compliance with the
Act. While the Department found itself to be substantially compliant with applicable Federal accounting
standards that was not the case with the Federal financial management system requirements, the Standard
General Ledger at the transaction level or the FISMA requirement. To reach this conclusion, USDA considered
all the information available, including the auditor’s opinions of its component agencies, independent
contractors and the progress made in addressing the weaknesses identified in the FMFIA section.
While USDA’s FY 2003 and FY 2002 Consolidated Financial Statements received an unqualified audit opinion
from OIG, the auditor’s Report on Compliance with Laws and Regulations also disclosed that the Department
was not substantially compliant with FFMIA. OIG found material weaknesses for USDA’s financial and
accounting systems and information security program. The Department will continue monitoring progress on
plans to improve its financial management systems and work to comply fully with the FFMIA and the FISMA
requirements, as reported below.
USDA is not compliant with FFMIA – Sections 1, 2 and 3, and the FISMA information security requirement.
Exhibit 107: Initiatives Completed


                                   Initiatives Completed to Achieve FFMIA Compliance
                                                                                                              Completion
            Instance/Agency                                           Actions Taken                             Date
 Section 1—Federal Financial Management System Requirements
 Compliance with OMB Circular A-130
    RD                                         Completed system certification and accreditation (C&A) to    07/30/2004
                                                 be in compliance with OMB Circular A-130.
    OCFO                                       Completed Phase II of the C&A process for Financial and      09/30/2004
                                                 Payroll Systems.
    FAS                                        Completed C&A for financial systems.                         09/30/2004
    FS                                         Completed C&A for financial systems.                         09/30/2004

 Quality control reviews of financial statements.
  RD                                          Developed a plan of action; trained personnel; provided       10/31/2003
                                                  OIG with RD’s quality control checklist; restructured and
                                                  clarified Statement of Financing crosswalks and
                                                  documentation; and compiled statements using the
                                                  Department’s Financial Statements Data Warehouse II.




 USDA
  182                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                            SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                                    Initiatives Completed to Achieve FFMIA Compliance
                                                                                                                 Completion
          Instance/Agency                                             Actions Taken                                Date
 Compliance with OMB Circular A-127
    RD                                          Completed a Joint Financial Management Improvement             09/30/2004
                                                  Program (JFMIP) Direct Loan System Requirements
                                                  review of the RUS Legacy Systems and determined that
                                                  the existing systems, procedures, and operations
                                                  substantially comply with the JFMIP functionality.
                                                  Implemented compensating controls to resolve problems
                                                  that originally contributed to RUS legacy systems
                                                  substantial non-compliance
    FSA/CCC                                     Migrated foreign credit programs accounting data to CORE       06/30/2004
                                                  Accounting System
                                                 Interfaced GSM and A Plus Systems with CORE                    06/30/2004
                                                  Accounting System
 Compliance with OMB Circular A-123
  FSA/CCC                                       Reviewed, revised and published accrual policies and           09/30/2004
                                                  procedures. Provided training to financial management
                                                  personnel on the same.
 Section 2—Applicable Federal Accounting Standards
 SFFAS No. 7 Accounting for Revenue and Other Financing Sources

    FS                                          Implemented a business process to recognize revenue at         06/30/2004
                                                  point of sale for maps and the national recreation
                                                  reservations systems.
 Section 3—Standard General Ledger at the Transaction Level
 Standard General Ledger Posting
  FS                                   Identified, analyzed and corrected invalid posting models.              09/30/2004
 CORE accounting system posting models
  FSA/CCC                                       Implemented changes to financial posting logic, which may      09/30/2004
                                                  have a material impact on CCC’s Financial Statements,
                                                  and improved interface controls between feeder systems
                                                  and CORE.
 Section 4—Information Security Policies, Procedures or Practices1
 1
     Completed corrective actions for this initiative apply to both Section 1 (OMB Circular A-130) and Section 4 (information
     security policies, procedures or practices) noncompliances and are therefore not repeated in Section 4.

Exhibit 108: Initiatives Remaining To Be Completed

                                    Remaining Initiatives To Achieve FFMIA Compliance
                                                                                     Target
                                                Section of Non-                                           Remediation Plan
                 Initiative                                             Agency    Completion
                                                  compliance                                                 Reference
                                                                                      Date
 Financial Management Planning and         Section 1 – OMB Circular      RMA       12/31/2004                     1.1
 Assurance Process                         A-127                                  and ongoing
 Certification and Accreditation of        Section 1 – OMB Circular      RMA       09/30/2005                     1.2
 System/Information Technology             A-130, and Section 4          RMA       12/31/2004                     1.3
                   1
 Security Controls                                                       FSA       12/31/2004                     1.4
                                                                        APHIS       12/3/2004                     1.5
                                                                          RD       06/30/2005                     1.6
                                                                          RD       06/30/2005                     1.7
                                                                          FS       06/30/2005                     1.8
 Improve compliance with Federal           Section 2                      FS       09/30/2005                     2.1
 accounting standards
 Funds Control Mechanisms                  Section 3                   FSA/CCC        TBD                         3.1




                                                                                                                        USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                           183
    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                                           Remaining Initiatives To Achieve FFMIA Compliance
                                                                                           Target
                                                       Section of Non-                                        Remediation Plan
                     Initiative                                                Agency    Completion
                                                         compliance                                              Reference
                                                                                             Date
    Sections:                                                           OMB Circulars:
    FFMIA:                                                              A-123, Management Accountability and Control.
    1 – Federal financial management system requirements.               A-127, Financial Management Systems.
    2 – Applicable Federal accounting standards.                        A-130, Management of Federal Information Resources
    3 – Standard General Ledger at the transaction level.               (Appendix 3).
    FISMA:
    4 – Information security policies, procedures or practices.
1
     Remediation Plans for this initiative apply to both Section 1 (OMB Circular A-130) and Section 4 (Information security
     policies, procedures or practices) noncompliances and are therefore not requested in Section 4.

Remediation Plans to Achieve Substantial Compliance
As required by law, the Department, in consultation with OMB, develops remediation plans that will result in
substantial compliance with FFMIA and improved financial management systems. These plans are discussed
below.
                            Area of Noncompliance/Proposed Corrective Actions                                Target Completion
                             (Completed Actions are not Shown on this Report)                                       Date
                                   Section 1 – Federal Financial Management System Requirements
    1.1      Financial Management Planning and Assurance Process
             Agency Points of Contact: RMA — Chief Financial Officer
             Estimated Resources Needed: FY 2005 FTE: 1 Dollars: TBD
                Review RMA/FCIC’s Financial Management Systems for compliance with financial                  12/31/2004 and
                 management systems requirements.                                                                 Ongoing
                Provide documentation to the OCFO of RMA’s continuous monitoring effort to ensure                 Annually
                 compliance with the financial management systems requirements including a
                 remediation plan for any substantial areas of noncompliance with the FFMIA.
    1.2      Information Technology (IT) Security Controls
             Agency Points of Contact: RMA — Chief Financial Officer
             Estimated Resources Needed: FY 2005 FTE: 8.5 Dollars: $1,823,000
                Enforce newly implemented security policies, formalize draft policies and continue              12/31/2004
                 developing additional required policies.
                Perform an agency-wide review of user IDs and access levels to monitor the                      09/30/2005
                 effectiveness of existing controls.
                Prescribe and apply a periodic monitoring and review process to ensure that approved            12/31/2004
                 policies and procedures for RMA IT operations, processes, functions and activities are
                 applied properly and consistently, and enforced continuously agency-wide.
                Prepare and submit quarterly status reports to OCIO until the cited weaknesses in               09/30/2005
                 FMFIA reviews and reporting, risk assessments, system certifications, security plans,
                 contingency planning and disaster recovery, background investigations, incident
                 response procedures, security training, performance measures and unauthorized
                 software are corrected.
                Develop internal written policies and procedures that establish effective access                12/31/2004
                 controls for RMA-controlled users to follow in using RMA, NITC and National Finance
                 Center (NFC) systems in accordance with applicable Federal guidance and
                 Departmental regulation requirements.
                Prescribe and implement in RMA’s formal directive system a system development                   12/31/2004
                 lifecycle (SDLC) methodology in accordance with Departmental regulations and
                 provide senior management oversight to ensure that application managers properly
                 implement the prescribed SDLC methodology and management controls.




    USDA
    184                             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




                  Area of Noncompliance/Proposed Corrective Actions                                 Target Completion
                   (Completed Actions are not Shown on this Report)                                        Date
                       Section 1 – Federal Financial Management System Requirements (cont’d)
         Add a contract provision requiring background investigations for all IT contractor           11/30/2004
          employees and associated subcontractor employees, where applicable, and ensure
          they are satisfactorily completed before access to RMA systems, hardware and
          facilities are authorized.
         Amend the appropriate contract to describe the specific security services expected           11/30/2004
          from contractor employees and to record the details of the services or deliverables to
          be provided by them.
         Develop and apply a policy to conduct a routine and timely review of RMA’s firewall          12/31/2004
          configuration and periodically verify the effectiveness of FSA firewall protection that
          RMA must rely upon.
         Improve network operating system policy and procedures.                                      12/31/2004
         Secure funding for the Business Impact Assessment to be completed by a third party.          12/31/2004
1.3   Application Program and System Software Change Controls
      Agency Points of Contact: RMA — Chief Financial Officer
      Estimated Resources Needed: FY 2005 FTE: 3.5 Dollars: $240,000
       Implement enterprise-wide change management procedures.                                        12/31/2004
1.4   Information Security
      Agency points of Contact: FSA/CCC—Director, Information Technology Services Division
      Estimated Resources Needed: FY 2005 FTE: 3 Dollars: $500,000
        Develop and test contingency plans for FSA/CCC financial applications                         12/31/2004
        Develop plan to perform security clearance and background checks on all personnel             10/31/2004
         accessing FSA/CCC applications.
1.5   Certification & Accreditation
      Agency Points of /Contact: APHIS—Deputy Administrator, MRP Business Services
      Estimated Resources Needed: FY 2005 FTE: 1 Dollars: $23,500
       Complete Phases I & II of Certification & Accreditation for the User Fee System                 12/3/2004
1.6   Certification & Accreditation
      Agency points of Contact: RD—Deputy Chief Financial Officer
      Estimated Resources Needed: FY 2005 FTE: 5 Dollars: 300,000
         Complete certification and accreditation of the RUS Legacy System                            06/30/2005
1.7   Strengthen Network Security and Logical Access Controls
      Agency points of Contact: RD—Deputy Chief Financial Officer
      Estimated Resources Needed: FY 2005 FTE: TBD* Dollars: TBD*
      (* Resources needed to resolve the areas of noncompliance will be determined in conjunction with the master plan,
      a living document, which includes fully defined tasks, timeframes, resources, interdependencies, and
      responsibilities.)

      Complete network security enhancements                                                           06/30/2005
       Implement incremental Plan of Action Milestones.
       Summarize the corrected vulnerabilities and rescan to verify corrections.
       Coordinate with the Information Technology Working Group; Web Farm; St. Louis,
        MO; and Washington, D.C. to:
         − Ensure the scheduling, analysis, and tracking of vulnerabilities and corrective
             actions.
         − Implement policy and procedures describing specific controls to ensure all
             Transmission Control Protocol/Internet Protocol functions are scanned, tracked,
             and reported to Agency Information Systems Security Staff (ISSS) and oversight
             agencies.




                                                                                                                USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                         185
SYSTEMS, CONTROLS AND LEGAL COMPLIANCE




1.7     Strengthen Network Security and Logical Access Controls
        Strengthen logical access controls
           Issue guidance concerning the responsibility of managers in reviewing and monitoring
            access.
         Implement incremental Plan of Action Milestones.
         Establish an Information Security-Point of Contact to serve as liaison with the ISSS on
            security matters and ensure the ISSS is adequately staffed
         Implement the Information Systems Security Plan.
         Develop a logbook system to track and monitor access requests. Work with the local
            access network (LAN) support personnel to differentiate between privileged users and
            implement procedures to restrict authority.
         Work with the LAN support personnel to implement policies and procedures for limiting
            privileged user’s accounts. Expand the monthly user access verification and
            certification process to include reports for all 129 user types within its organization.
         Establish a database for all current contractors and standardize logbook forms to track              06/30/2005
            and monitor authorized access by contractors.
         Implement procedures to verify user identification and access reports. Rural
            Development managers will attest to the accuracy of the user IDs for their
            organizations.
           Develop a master plan to resolve systemic internal control weaknesses on all
            platforms. Including migration from the existing logbook system to Magic Solutions.
           Conduct a review of the change control process of all major applications and general
            support systems to ensure the process complies with Departmental guidance.
1.8     Improve General Control Environment
        Agency points of Contact: FS—Financial Management Systems Director                                     06/30/2005
        Estimated Resources Needed
        FY 2005 FTE: TBD Dollars: TBD
        Remediation plan to be developed.
2.1     SFFAS No. 7 Accounting for Revenue and Other Financing Sources
        Agency points of Contact: FS—Financial Management Systems Director                                     09/30/2005
        Estimated Resources Needed
        FY 2005 FTE: TBD Dollars: TBD
        Remediation plan to be developed.
                              Section 3 – Standard General Ledger at the Transaction Level
3.1     Funds Control Mechanisms
        Agency Points of Contact: FSA/CCC—Controller
        Estimated Resources Needed: FY 2005 FTE: 3 Dollars: $200,000; FY 2006 FTE: 3 Dollars: $300,000
           Identify and implement changes to current financial management processes and                       09/30/2005
            systems to improve the accuracy and timeliness of obligation amounts in the core
            financial system.
           Develop and implement changes in the program and financial software to record                         TBD*
            obligations at the transaction level.
* The target date for completing this task will be identified as part of the Modernize and Innovate the Delivery of Agricultural
System (MIDAS) project being implemented by the Farm Program Directorate and Financial Management Division. This
modernization effort will include the obligation recognition requirements at the transaction level in the new business
processes being developed. Input to the MIDAS project will come after FSA identifies and implements changes to current
financial management processes and systems.




USDA
 186                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                   CONSOLIDATED FINANCIAL STATEMENTS




IV. FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND
    OTHER ACCOMPANYING INFORMATION




                                                               USDA
      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT             187
 CONSOLIDATED FINANCIAL STATEMENTS




MESSAGE FROM THE CHIEF FINANCIAL OFFICER
I hope that you have received a clear snapshot of the significant role that USDA
played in 2004 in enhancing so many aspects of American life. USDA is deeply
committed to the performance and accountability process, and the ample
opportunities it provides to have real visibility into our diverse operations and to
continually improve the quality of services we provide to the American people. In
making the most of this process, we are keenly aware of the pivotal role of sound
financial management—knowing how resources are spent, having the confidence
that programs and services are operating in continually more efficient ways, and
possessing a clear sense of ongoing challenges that require management attention
and focus.
Through the individual leadership and collaborative efforts of USDA managers,
employees, business partners and other stakeholders, we made significant strides in
2004 advancing the Department’s impressive recent record of excellence in financial management. Here are
some highlights of our substantive results over this past fiscal year:
     Another clean financial audit opinion. USDA had never achieved a clean audit opinion prior to
        FY 2002, so our ability to sustain this critical performance benchmark is powerful evidence of the
        Department’s improved accountability, internal control and data integrity;
     An 84-percent reduction in material deficiencies from FY 2002 to FY 2004. We are down from 19
        to 3, and we plan to eliminate the remaining trouble spots altogether in the year ahead;
     An effective strategic plan for USDA that will guide efforts throughout the Department to align
        strategic direction, operating budgets and performance measures to drive continued performance
        enhancements and clear accountability throughout the organization;
     Innovative information technology solutions relating to financial management and administrative
        systems that allow us to push more resources to the front lines of program delivery. Noteworthy among
        these is the new real property system that, in one place, accounts for USDA’s 22,000 owned and 4,300
        leased buildings and 192 million acres of land;
     Improved efficiency in travel through the selection of an electronic travel service provider, greatly
        simplifying the travel process to USDA’s employees and reducing travel costs; and
     Cost-effective and secure payroll and other administrative services reliably and accurately provided
        Government-wide through our National Finance Center.
USDA is committed to providing sound management of the resources under our stewardship and to
communicating the effectiveness of our efforts to all Americans through the performance and accountability
reporting process. Our results are due to the hard work and innovative leadership of skilled career employees
who take seriously their responsibility for the substantial resources entrusted to them by Congress and the
American people to perform the important work of this Department. While we cannot yet give unqualified
assurance of compliance with the Federal Managers’ Financial Integrity Act or the financial systems
requirements of the Federal Financial Management Improvement Act, we are redoubling our efforts in the
coming fiscal year to resolve these deficiencies.
In FY 2004, we made exceptional progress in financial management in USDA. As proud as we are of that
record, we look forward to beating it next year as sound financial management continues to enhance all aspects
of USDA’s vital work.



Patricia E. Healy
Acting Chief Financial Officer
November 15, 2004


 USDA
  188                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                             CONSOLIDATED FINANCIAL STATEMENTS




   CONSOLIDATED FINANCIAL STATEMENTS




                                                         USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT             189
CONSOLIDATED FINANCIAL STATEMENTS




                    THIS PAGE INTENTIONALLY LEFT BLANK




USDA
190             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                       CONSOLIDATED FINANCIAL STATEMENTS




                                 CONSOLIDATED BALANCE SHEET
                                  As of September 30, 2004 and 2003
                                             (in millions)

                                                                       2004            2003 Restated
Assets:
  Intragovernmental:
     Fund Balance with Treasury (Note 3)                           $    39,488         $       36,450
     Investments (Note 5)                                                   56                     45
     Accounts Receivable, Net (Note 6)                                     625                    646
     Other (Note 10)                                                         1                      7
  Total Intragovernmental                                               40,170                 37,148

  Cash and Other Monetary Assets (Note 4)                                  165                    241
  Investments (Note 5)                                                      15                     15
  Accounts Receivable, Net (Note 6)                                      2,478                  1,769
  Loans Receivable and Related Foreclosed Property, Net (Note 7)        73,841                 73,590
  Inventory and Related Property, Net (Note 8)                             142                    278
  General Property, Plant, and Equipment, Net (Note 9)                   4,914                  4,919
  Other (Note 10)                                                           89                    145

Total Assets (Note 2)                                              $ 121,814           $      118,105

Lia bilitie s:
  Intragovernmental:
     Accounts Payable                                                      809                  1,206
     Debt (Note 12)                                                     69,053                 76,140
     Other (Note 14)                                                    18,861                 19,918
  Total Intragovernmental                                               88,723                 97,264

  Accounts Payable                                                       3,430                  3,614
  Loan Guarantee Liability (Note 7)                                      1,188                    883
  Debt Held by the Public (Note 12)                                          1                     80
  Federal Employee and Veterans Benefits                                   836                    940
  Environmental and Disposal Liabilities (Note 13)                          23                     21
  Other (Notes 14 & 15)                                                 12,629                 12,861
  Total Liabilities (Note 11)                                          106,830                115,663

  Commitments and Contingencies (Note 16)

Ne t Position:
 Unexpended Appropriations                                              22,158                 22,192
 Cumulative Results of Operations                                       (7,174)               (19,750)
 Total Net Position                                                     14,984                  2,442

Total Lia bilities and Net Position                                $ 121,814           $      118,105




                 The accompanying notes are an integral part of these statements.


                                                                                                 USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                         191
CONSOLIDATED FINANCIAL STATEMENTS




                          CONSOLIDATED STATEMENT OF NET COST
                         For the Years Ended September 30, 2004 and 2003
                                            (in millions)

                                                                      2004            2003 Restated
Progra m Costs :

 Intragovernmental Gross Costs:
    Benefit Program Costs                                         $    1,092          $       1,034
    Imputed Costs                                                        629                    581
    Reimbursable Costs                                                 1,191                  2,200
    Borrowing Interest Expense                                         3,702                  3,878
    Other                                                               (184)                   195
    Total Intragovernmental Gross Costs                                6,430                  7,888
 Less: Intragovernmental Earned Revenues                                 993                  1,073
 Intragovernmental Net Costs                                           5,437                  6,815

 Gross Costs W ith the Public:
   Grants                                                             60,197                 63,098
   Loan Cost Subsidies                                                  (717)                  (778)
   Indemnities                                                         2,861                  3,848
   Commodity Program Costs                                             2,889                  6,567
   Stewardship Land Acquisition                                          113                    239
   Other (Note 18)                                                    10,892                 14,227
   Total Gross Costs with the Public                                  76,235                 87,201
 Less: Earned Revenues from the Public                                 7,650                 10,767
 Net Costs with the Public                                            68,585                 76,434

 Ne t Cost of Ope rations (Note s 17 & 19)                       $    74,022          $      83,249




                   The accompanying notes are an integral part of these statements.


USDA
 192                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                             CONSOLIDATED FINANCIAL STATEMENTS




                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                          For the Years Ended September 30, 2004 and 2003
                                             (in millions)


                                                                     2004                                  2003 Restated
                                                      Cum ula tive                               Cumula tive
                                                       Re sults of      Une x pe nde d             Re sults of     Une x pe nde d
                                                      Ope ra tions      Appropria tions           Ope ra tions    Appropria tions
Be ginning Ba la nce s                                $ (14,415)        $       16,810            $ (14,699)      $      25,619
Prior Period Adjustments (Note 20)                         (5,335)               5,382                     258               (153)
Beginning Balances, as adjusted                           (19,750)             22,192                 (14,441)           25,466

Budgetary Financing Sources:
   Appropriations Received                                      -               87,089                      -               76,572
   Appropriations Transfer In (Out)                             -                  127                      -                 (219)
   Other Adjustments(recissions, etc.)                          -               (2,665)                   (15)              (4,813)
   Appropriations Used                                     84,588              (84,585)                74,837              (74,814)
   Nonexchange Revenue                                         29                    -                      6                    -
   Donations and Forfeitures of Cash                            2                    -                     36                    -
   Transfers In (Out) without Reimbursement                 2,219                    -                  3,790                    -
   Other Budgetary Financing Sources                            -                    -                      -                    -

Other Financing Sources:
    Donations and Forfeitures of Property                       4                    -                      1                    -
    Transfers In (Out) without Reimbursement               (1,074)                   -                 (2,019)                   -
    Imputed Financing from Costs Absorbed by Others           629                    -                    581                    -
    Other                                                     201                    -                    723                    -
Total Financing Sources                                    86,598                  (34)                77,940               (3,274)

Net Cost of Operations                                    (74,022)                       -            (83,249)                      -

Ending Ba la nce s                                    $    (7,174)      $       22,158            $   (19,750)     $       22,192




                         The accompanying notes are an integral part of these statements.


                                                                                                                           USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                              193
 CONSOLIDATED FINANCIAL STATEMENTS



                                  COMBINED STATEMENT OF BUDGETARY RESOURCES
                                    For the Years Ended September 30, 2004 and 2003
                                                       (in millions)

                                                                        2004                                   2003 Restated
                                                                           Non-Budgeta ry                              Non-Budgetary
                                                                               Fina ncing                                  Financing
                                                         Budge tary            Accounts          Budgeta ry                Accounts
Budgeta ry Re source s:
 Budget Authority:
    Appropriations Received                              $    94,316                             $    83,967
    Borrowing Authority (Note 22 & 23)                        29,006       $         11,356           49,343           $        10,257
    Net Transfers                                                                                       (189)
  Unobligated Balances:
    Beginning of Period (Note 24)                             16,762                  5,802           19,788                     5,264
    Net Transfers, Actual                                       (193)                                   (453)
  Spending Authority From Offsetting Collections:
    Earned
      Collected                                               23,462                  7,519           24,302                     7,722
      Change in Receivables from Federal Sources                (672)                   146            1,602                           62
    Change in Unfilled Customer Orders
      Advances Received                                         935                                     289
      W ithout Advances from Federal Sources                      99                      (97)            47                           56
  Recoveries of Prior Year Obligations                         5,256                    634            3,865                       437
  Permanently not Available                                  (47,065)                (4,376)         (57,167)                   (4,275)
  Total Budgetary Resources                                  121,906                 20,984          125,394                    19,523


Status of Budgeta ry Re source s:
  Obligations Incurred (Note 21):
    Direct                                                    75,508                 14,659           71,940                    13,721
    Reimbursable                                              27,642                                  36,692
  Unobligated Balance:
    Apportioned                                                6,396                  5,921            5,850                     5,343
    Exempt from Apportionment                                   551                          6          328                             1
    Other Available                                                                                        9
  Unobligated Balance not Available                           11,809                    398           10,575                       458
  Total Status of Budgetary Resources                        121,906                 20,984          125,394                    19,523


Rela tionship of Obligations to Outla ys:
 Obligated Balance, Net, Beginning of Period (Note 24)        21,194                 14,871           18,180                    13,762
  Obligations Incurred                                       103,150                 14,659          108,632                    13,721
  Less:
    Recoveries of Prior Year Obligations                       5,256                    634            3,865                       437
    Change from Federal Sources                                 (573)                       49         1,649                       118
    Obligated Balance, Net, End of Period:
        Accounts Receivable                                   (1,978)                  (316)          (2,651)                     (170)
        Unfilled Customer Orders from Federal Sources           (412)                  (635)            (313)                     (732)
        Undelivered Orders                                    14,353                 17,735           14,278                    15,351
        Accounts Payable                                       9,047                    352            9,880                       422
    Total Obligated Balance, Net, End of Period               21,010                 17,136           21,194                    14,871


    Disbursements                                             98,651                 11,711          100,104                    12,057
    Collected and Advances Received                          (24,397)                (7,519)         (24,591)                    (7,722)
  Outlays                                                     74,254                  4,192           75,513                     4,335
      Less: Offsetting Receipts                                1,928                    600            1,763                     1,292
  Net Outlays                                            $    72,326       $          3,592      $    73,750           $         3,043



                          The accompanying notes are an integral part of these statements.


 USDA
  194                             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                 CONSOLIDATED FINANCIAL STATEMENTS




                                     CONSOLIDATED STATEMENT OF FINANCING
                                    For the Years Ended September 30, 2004 and 2003
                                                       (in millions)

                                                                                                                2004           2003 Re sta te d
Re source s Use d to Fina nce Activitie s:
Budgetary Resources Obligated
    Obligations Incurred                                                                                    $ 117,809          $      122,353
    Less: Spending authority from offsetting collections and recoveries                                        37,282                  38,382
    Obligations net of offsetting collections and recoveries                                                   80,527                  83,971
    Less: Offsetting receipts                                                                                   2,528                   3,055
    Net Obligations                                                                                            77,999                  80,916

Other Resources
   Donations and forfeitures of property                                                                              4                      1
   Transfers in(out) without reimbursement                                                                       (1,074)                (2,019)
   Imputed financing from costs absorbed by others                                                                  629                    581
   Other                                                                                                            201                    723
   Net other resources used to finance activities                                                                  (240)                  (714)

    Tota l re source s use d to fina nce a ctivitie s                                                           77,759                  80,202

Re source s Use d to Fina nce Ite m s not Pa rt of the Ne t Cost of Ope ra tions:
    Change in budgetary resources obligated for goods, services and benefits
      ordered but not yet provided                                                                               2,532                     533
    Resources that fund expenses recognized in prior periods                                                     2,529                   2,356
    Budgetary offsetting collections and receipts that do not affect net cost of operations
      Credit program collections which increase liabilities for loan guarantees or allowances for subsidy       (14,136)               (14,829)
      Other                                                                                                     (10,259)               (11,701)
    Resources that finance the acquisition of assets                                                             23,151                 28,799
    Other resources or adjustments to net obligated resources that do not affect net cost of operations           1,509                  2,641

    Total resources used to finance items not part of the net cost of operations                                 5,326                   7,799

    Tota l re source s use d to fina nce the ne t cost of ope ra tions                                          72,433                  72,403

Com pone nts of the Ne t Cost of Ope ra tions tha t w ill not Re quire or Ge ne ra te
Re source s in the Curre nt Pe riod:
Components Requiring or Generating Resources in Future Periods:
    Increase in annual leave liability                                                                              49                      42
    Increase in environmental and disposal liability                                                                 -                       1
    Upward/Downward reestimates of credit subsidy expense                                                         (341)                   (315)
    Decrease in exchange revenue receivable from the public                                                        534                     758
    Other                                                                                                        1,587                   2,141
    Total components of Net Cost of Operations that will require or generate
      resources in future periods (Note 28)                                                                      1,829                   2,627

Components not Requiring or Generating Resources:
   Depreciation and amortization                                                                                    598                    522
   Revaluation of assets or liabilities                                                                            (633)                   284
   Other                                                                                                           (205)                 7,413
   Total components of Net Cost of Operations that will not require or generate resources                          (240)                 8,219

    Tota l com pone nts of Ne t Cost of Ope ra tions tha t w ill not re quire or ge ne ra te
     re source s in the curre nt pe riod                                                                         1,589                  10,846

    Ne t Cost of Ope ra tions                                                                               $   74,022         $        83,249
                                                                                                                           .




                         The accompanying notes are an integral part of these statements.



                                                                                                                                      USDA
                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                       195
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
As of September 30, 2004 and 2003
(in millions)



NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The U.S. Department of Agriculture (USDA) provides a wide variety of services in the United States and
around the world. USDA is organized into seven distinct mission areas and agencies that execute these
missions.
Listed below are the missions and the agencies within each mission including four Government corporations:
FARM AND FOREIGN AGRICULTURAL SERVICES (FFAS)
 Farm Service Agency (FSA)
      − Commodity Credit Corporation (CCC)
 Foreign Agricultural Service (FAS)
 Risk Management Agency (RMA)
      − Federal Crop Insurance Corporation (FCIC)
FOOD, NUTRITION, AND CONSUMER SERVICES (FNCS)
 Food and Nutrition Service (FNS)
FOOD SAFETY
 Food Safety and Inspection Service (FSIS)
MARKETING AND REGULATORY PROGRAMS (MRP)
 Agricultural Marketing Service (AMS)
 Animal and Plant Health Inspection Service (APHIS)
 Grain Inspection, Packers and Stockyards Administration (GIPSA)
NATURAL RESOURCES AND ENVIRONMENT (NRE)
 Forest Service (FS)
 Natural Resources Conservation Service (NRCS)
RESEARCH, EDUCATION, AND ECONOMICS (REE)
 Agricultural Research Service (ARS)
 Cooperative State Research, Education, and Extension Service (CSREES)
 Economic Research Service (ERS)
 National Agricultural Statistics Service (NASS)
RURAL DEVELOPMENT
 Rural Development (RD)
      − Rural Telephone Bank (RTB) – a corporation
        − Alternative Agricultural Research and Commercialization Corporation (AARC)
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and
balances are eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis.



 USDA
  192                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                  NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




The financial statements are prepared in accordance with generally accepted accounting principles for the
Federal Government.

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
amounts reported in the financial statements and accompanying notes. Actual results could differ from those
estimates.

Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery
has occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably
assured. In certain cases, the prices charged by the Department are set by law or regulation, which for program
and other reasons may not represent full cost. Prices set for products and services offered through the
Department’s working capital funds are intended to recover the full costs incurred by these activities. Revenue
from non-exchange transactions is recognized when a specifically identifiable, legally enforceable claim to
resources arises, to the extent that collection is probable and the amount is reasonably estimable. Appropriations
are recognized as a financing source when used. An imputed financing source is recognized for costs subsidized
by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried at
cost. Investments in market-based Treasury securities are classified as held to maturity and are carried at
amortized cost. The amortized cost of securities is based on the purchase price adjusted for amortization of
premiums and accretion of discounts using the straight-line method over the term of the securities.

Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The
adequacy of the allowance is determined based on past experience and age of outstanding balances.

Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after FY 1991 are reported based on the present value of
the net cash flows estimated over the life of the loan or guarantee. The difference between the outstanding
principal of the loans and the present value of their net cash inflows is recognized as a subsidy cost allowance;
the present value of estimated net cash outflows of the loan guarantees is recognized as a liability for loan
guarantees. The subsidy expense for direct or guaranteed loans disbursed during the year is the present value of
estimated net cash outflows for those loans or guarantees. A subsidy expense also is recognized for
modifications made during the year to loans and guarantees outstanding and for reestimates made as of the end
of the year to the subsidy allowances or loan guarantee liability for loans and guarantees outstanding.
Direct loans obligated and loan guarantees committed before FY 1992 are valued using the present-value
method. Under the present-value method, the outstanding principal of direct loans is reduced by an allowance
equal to the difference between the outstanding principal and the present value of the expected net cash flows.
The liability for loan guarantees is the present value of expected net cash outflows due to the loan guarantees.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are
valued on the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of
cost or net realizable value using a weighted average method.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                193
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Property, Plant and Equipment
Property, plant, and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is
determined using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E
are disclosed in Note 9. Capitalization thresholds for personal property and real property are $25,000, and
$100,000 for internal use software.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the
time the employees’ services are rendered. The expense is equal to the actuarial present value of benefits
attributed by the pension plan’s benefit formula, less the amount contributed by the employees. An imputed cost
is recognized for the difference between the expense and contributions made by and for employees.

Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when
a future outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on
or before the reporting date. The liability for long-term other post-employment benefits is the present value of
future payments.

Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow
or other sacrifice of resources is probable and the future outflow or sacrifice of resources is measurable.

Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the entity, pursuant to the
requirements of 31 U.S.C. 3515(b).
While the statements have been prepared from the books and records of the entity in accordance with the
formats prescribed by the Office of Management and Budget (OMB), they also are used to monitor and control
budgetary resources, which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity. Thus, liabilities cannot be liquidated without enabling legislation that provides resources to do
so.




 USDA
  194                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                     NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, and employer contributions and
payroll taxes withheld for agencies serviced by the National Finance Center.

                                                                            FY 2004              FY 2003
             Intra g o ve rnm e nta l:
               F und b a la nc e w i th T re a s ury                    $          243       $         801
               A c c o unts R e c e iva b le                                         1                    -
             S ub to ta l Intra g o ve rnm e nta l                                 244                 801
             W i th the P ub li c :
               C a s h a nd o the r m o ne ta ry a s s e ts                         81                  76
               A c c o unts re c e i va b le                                        80                 107
             S ub to ta l W ith the P ub lic                                       161                 183
             To ta l no n-e nti ty a s s e ts                                      405                 984
             To ta l e nti ty a s s e ts                                    1 2 1 ,4 0 9         1 1 7 ,1 2 1
             To ta l a s s e ts                                         $ 1 2 1 ,8 1 4       $ 1 1 8 ,1 0 5




NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include special, deposit, and clearing accounts. Clearing Account Balances including
suspense accounts are awaiting disposition or reclassification. Borrowing Authority not yet Converted to Fund
Balance represents un-obligated and obligated amounts recorded at year-end that will be funded by future
borrowings.
                                                                                 FY 2004           FY 2003
             Fund Balances:
                Trust Funds                                                    $       648        $      519
                Revolving Funds                                                     10,552             7,541
                Appropriated Funds                                                  27,584            27,385
                Other Fund Types                                                       704             1,005
             Total                                                                  39,488            36,450

             Status of Fund Balance with Treasury:
             Unobligated Balance:
                Available                                                        12,190             10,277
                Unavailable                                                      11,669             10,454
             Obligated Balance not yet Disbursed                                 20,579             20,508
             Clearing Account Balances                                              299                779
             Borrowing Authority not yet Converted to Fund Balance               (5,249)            (5,568)
             Total                                                             $ 39,488           $ 36,450




                                                                                                                USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                     195
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 4. CASH AND OTHER MONETARY ASSETS
In FY 2004, cash includes Federal crop insurance escrow amounts of $83 million, funds held in escrow to pay
property taxes and insurance for single-family housing borrowers of $81 million, and $1 million in other
receipts.
In FY 2003, cash includes Federal crop insurance escrow amounts of $100 million, funds held in escrow to pay
property taxes and insurance for single-family housing borrowers of $76 million, funds to be transferred out of
$30 million, loan repayment and certain other receipts of $21 million, and interest-bearing deposits of $14
million.
                                                                      FY 2004          FY 2003

                   Cash                                               $    165         $   241



NOTE 5. INVESTMENTS

FY 2004                                                           Unamortized                         Market
                                Amortization                       Premium/       Investments,        Value
                                  Method              Cost         (Discount)          Net          Disclosure
Intragovernmental:
  Non-marketable
    Par value                                     $          52   $         -      $       52       $        -
    Market-based               Straight Line                  4             -               4                4
Total                                             $          56   $         -      $       56       $        4

With the Public:
 AARC                                             $          15             -      $       15       $       15
Total                                             $          15   $         -      $       15       $       15




FY 2003                                                           Unamortized                         Market
                                Amortization                       Premium/       Investments,        Value
                                  Method              Cost         (Discount)          Net          Disclosure
Intragovernmental:
  Non-marketable
    Par value                                     $          42   $         -      $       42       $        -
    Market-based                Straight Line                 3             -               3                3
Total                                             $          45   $         -      $       45       $        3

With the Public:
 AARC                                             $          15             -      $       15       $       15
Total                                             $          15   $         -      $       15       $       15




 USDA
  196                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                      NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 6. ACCOUNTS RECEIVABLE, NET
During FY 2004, CCC collected funds from the U.S. Department of Transportation (DOT) and eliminated the
related allowance of $188 million. In FY 2003, CCC had recognized a receivable of $613 million from the DOT
for current and prior years’ transportation costs in accordance with the Cargo Preference provisions of the Food
Security Act. Since these costs were subject to management determination, an allowance of $188 million was
recognized.

                FY 2004
                                              Accounts           Allowance for            Accounts
                                             Receivable,         Uncollectible           Receivable,
                                               Gross               Accounts                 Net
               Intragovernmental            $        625          $          -          $        625
               With the Public                     2,696                     218               2,478
               Total                        $      3,321          $          218        $      3,103


               FY2003
                                              Accounts           Allowance for            Accounts
                                             Receivable,         Uncollectible           Receivable,
                                               Gross               Accounts                 Net
               Intragovernmental            $        835          $          189        $        646
               With the Public                     2,000                     231               1,769
               Total                        $      2,835          $          420        $      2,415




NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligation or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.
Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of
1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the
cost of direct loans and loan guarantees at present value for the budget. Additionally, the present value of the
subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other
cash flows) associated with direct loans and loan guarantees are recognized as a cost in the year the loan or loan
guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in
time is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the
subsidy at that time.
The net present value of Loans Receivable and Related Foreclosed Property, Net is not necessarily
representative of the proceeds that might be expected if these loans were sold on the open market.
Loans Receivable and Related Foreclosed Property, Net at the end of FY 2004 was $73,841 million compared
to $73,590 million at the end of FY 2003. Loans exempt from the Federal Credit Reform Act of 1990 represent
$2,092 million of the total compared to $2,062 million in FY 2003. Table 1 illustrates the overall composition
of the Department’s credit program balance sheet portfolio by mission area and credit program for FY 2004 and
2003.




                                                                                                              USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                   197
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the
value of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and
reestimates all contribute to the change of the subsidy cost allowance through the year. The subsidy cost
allowance moved from $6,654 million to $6,256 million during FY 2004, a decrease of $398 million. Table 2
shows the reconciliation of subsidy cost allowance balances from FY 2003 to FY 2004.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the
current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
direct loan subsidy expense in FY 2004 was negative $131 million compared to $57 million in FY 2003. Table
3 illustrates the breakdown of total subsidy expense for FY 2004 and 2003 by program.
Direct loan volume decreased from $6,740 million in FY 2003 to $6,430 million in FY 2004. Volume
distribution between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of
the principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the
borrower's account for the life of the loan. The Department, however, is responsible for ensuring borrowers
meet certain qualifying criteria to be eligible and monitoring the lender's servicing activities. Borrowers
interested in guaranteed loans must apply to a conventional lender, which then arranges for the guarantee with a
Department agency. Estimated losses on loan and foreign credit guarantees are reported at net present value as
Loan Guarantee Liability. Defaulted guaranteed loans are reported at net present value as Loans Receivable and
Related Foreclosed Property, Net.
Guaranteed loans outstanding at the end of FY 2004 were $34,160 million in outstanding principal and $30,369
million in outstanding principal guaranteed, compared to $33,573 and $29,885 million, respectively at the end
of FY 2003. Table 5 shows the outstanding balances by credit program.
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability
held against those loans. Current year subsidy expense, modification and reestimates all contribute to the
change of the loan guarantee liability through the year. The loan guarantee liability is a combination of the
liability for losses on pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved
from $883 million to $1,188 million during FY 2004, an increase of $305 million. The post-1991 liability
moved from $877 million to $1,183 million, an increase of $306 million. Table 7 shows the reconciliation of
loan guarantee liability post-1991 balances and the total loan guarantee liability.
Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed
in the current year, modifications to existing loans, and interest rate and technical reestimates to existing loans.
Total guaranteed loan subsidy expense in FY 2004 was negative $312 million compared to $158 million in FY
2003. Table 8 illustrates the breakdown of total subsidy expense for FY 2004 and 2003 by program.
Guaranteed loan volume increased from $9,149 million in FY 2003 to $10,721 million in FY 2004. Volume
distribution between mission area and program is shown in Table 9.

Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through
the FSA and the CCC, and in the RD mission area.

The Farm and Foreign Agricultural Services (FFAS) Mission Area
The FFAS mission area helps keep America's farmers and ranchers in business as they face the uncertainties of
weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance
programs that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the
farm sector with programs that encourage the expansion of export markets for U.S. agriculture.




 USDA
  198                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                  NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial
credit and nonprofit entities that are engaged in the improvement of the nation's agricultural community. Often,
FSA borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient financial
resources. Additionally, the agency helps established farmers who have suffered financial setbacks from natural
disasters, or have limited resources to maintain profitable farming operations. FSA officials also provide
borrowers with supervision and credit counseling.
FSA's mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and
weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is able
to provide certain loan servicing options to assist borrowers whose accounts are distressed or delinquent. These
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements, and
debt write-downs. The eventual goal of FSA's farm credit programs is to graduate its borrowers to commercial
credit.
CCC's foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both guarantee credit and
direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance.
Its sole purpose is to assess, on a case-by-case basis, liquidity problems faced by the world's most severely
economically disadvantaged countries. The general premise of the Club's activities is to provide disadvantaged
nations short-term liquidity relief to enable them to re-establish their credit worthiness. The Departments of
State and Treasury lead the U.S. Delegation and negotiations for all U.S. Agencies.

Farm and Foreign Agricultural Service List of Programs
            Farm Service Agency                                    Commodity Credit Corporation
            Direct Farm Ownership                                  Guaranteed Sales Manager Credit
            Direct Farm Operating                                  Program
            Direct Emergency Loans                                 Supplier Credit Guarantee Program
            Direct Indian Land Acquisition                         Facility Program Guarantee
            Direct Boll Weevil Eradication                         P.L. 480 Title 1 Program
            Direct Seed Loans to Producers                         Direct Farm Storage Facility
            Guaranteed Farm Operating Subsidized/Unsubsidized      Direct Sugar Storage Facilities
            Agricultural Resource Demonstration Fund
            Bureau of Reclamation Loan Fund
            Guaranteed Farm Ownership Unsubsidized



The Rural Development (RD) Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of
rural housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal
Governments, as well as private and not-for-profit organizations and user-owned cooperatives.
Through its rural housing loan and grant programs, RD provides affordable housing and essential community
facilities to rural communities. Rural housing programs help finance new or improved housing for moderate,
low, and very low-income families each year. The programs also help rural communities finance, construct,
enlarge or improve fire stations, libraries, hospitals and medical clinics, industrial parks, and other community
facilities.
The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners
with the private sector and community-based organizations to provide financial assistance and business
planning. It also provides technical assistance to rural businesses and cooperatives, conducts research into rural
economic issues, and provides cooperative educational materials to the public.



                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               199
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan
programs for electric energy, telecommunications, and water and environmental projects. This program
leverages scarce Federal funds with private capital for investing in rural infrastructure, technology and
development of human resources.
RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of
easements and debt write-downs. The choice of servicing options depends on the loan program and the
individual borrower.

Rural Development List of Programs


        Rural Housing Program                       Rural Business Program                          Rural Utilities Program
 Home Ownership Direct Loans                  Business and Industry Direct Loans            Water and Environmental Direct Loans
 Home Ownership Guaranteed Loans              Business and Industry Guaranteed Loans        Water and Environmental Guaranteed Loans
 Home Improvement and Repair Direct Loans     Intermediary Relending Program Direct Loans   Electric Direct Loans
 Home Ownership and Home Improvement          Rural Economic Development Direct Loans       Electric Guaranteed Loans
 and Repair Nonprogram Loans                                                                Telecommunications Direct Loans
 Rural Housing Site Direct Loans                                                            Rural Telephone Bank
 Farm Labor Housing Direct Loans                                                            Federal Financing Bank-Telecommunications
 Rural Rental and Rural Cooperative Housing                                                 Guaranteed
 Loans                                                                                      Distance Learning and Telemedicine Direct
 Rental Housing Guaranteed Loans                                                            Broadband Telecommunications Services
 Multi-family Housing–Nonprogram–Credit
 Sales
 Community Facilities Direct Loans
 Community Facilities Guaranteed Loans



Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2004 and 2003 are shown in Table 10.
Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting
treatment of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan
guarantees is referred to as "subsidy cost." Under the act, subsidy costs for loans obligated beginning in FY
1992 are recognized at the net present value of projected lifetime costs in the year the loan is disbursed. Subsidy
costs are revalued annually. Components of subsidy include interest subsidies, defaults, fee offsets, and other
cash flows.
Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between
the budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy
formulation and reestimate rates of many USDA direct programs. USDA uses the Government-wide interest
rate projections provided by the Office of Management and Budget (OMB) in order to do its calculations and
analysis.
The Inter-agency Country Risk Assessment System is a Federal interagency effort chaired by OMB under the
authority of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk
assessment and budget assumptions for all direct credits and credit guarantees provided by the Government, to
foreign borrowers. Sovereign and non-sovereign lending risks are sorted into risk categories, each associated
with a default estimate.



 USDA
  200                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                  NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




The CCC delinquent debt is estimated at 100-percent allowance. When the foreign borrower reschedules their
debt and renews their commitment to repay CCC, the allowance is estimated at less than 100 percent.
Subsidy rates are used to compute each year's subsidy expenses as disclosed above. The subsidy rates disclosed
in Tables 11 and 12 pertain only to the FY 2004 and 2003 cohorts. These rates cannot be applied to the direct
and guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy
expense for new loans reported in the current year could result from disbursements of loans from both current
year cohorts and prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.
As a result of new guidance provided by the credit reform Treasury certificate training class, CCC chose to
reflect interest on downward reestimates in the Statement of Changes in Net Position as other financing sources
for FY 2004 and 2003, respectively. The remainder of USDA credit programs chose to reflect downward
reestimates in earned revenue on the Statement of Net Cost. Both methodologies are accepted alternatives that
have been promulgated by Treasury.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with
loans are reported at their market value at the time of acquisition. The projected future cash flows associated
with acquired properties are used in determining the related allowance (at present value).
As of September 30, 2004 and 2003, foreclosed property consisted of 783 and 952 rural single-family housing
dwellings, with an average holding period of 24 and 22 months, respectively. As of September 30, 2004 and
2003, FSA-Farm Loan Program properties consist primarily of 133 and 169 farms, respectively. The average
holding period for these properties in inventory for FY 2004 and 2003 was 60 and 62 months, respectively.
Certain properties can be leased to eligible individuals.
Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling.
When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late
interest is accrued on arrears.
Loan Modifications
The Debt Reduction Fund is used to account for CCC's "modified debt." Debt is considered to be modified if
the original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
All outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by the Federal Credit
Reform Act of 1990 as amended.
During FY 2004, modified loans resulting in a reduction of principal and interest just less than $1 billion with
the remaining amount of debt transferred to CCC’s Debt Reduction Fund.
During FY 2003, two debts were modified. This resulted in $22 million and $32 million reductions in principal
and interest with the remaining amount of debt transferred from CCC’s liquidating/financing fund to its Debt
Reduction Fund.
Interest Credit
Approximately $18,300 and $18,600 million of RHS unpaid loan principal as of September 30, 2004, and 2003
were receiving interest credit, respectively. If those loans receiving interest credit had accrued interest at the
full-unreduced rate, interest income would have been approximately $1,100 million higher for FY 2004 and
2003.




                                                                                                           USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                             201
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Restructured Loans
At the end of FY 2004 and 2003, the RD portfolio contained approximately 88,000 and 96,000 restructured
loans with an outstanding unpaid principal balance of $2,500 and $5,900 million, respectively.

Table 1. Total Loans Receivable and Related Foreclosed Property, Net
FY 2004

                                                                Loans                                      Present       Value of Assets
Direct Loans                                                  Receivable,    Interest    Foreclosed        Value              Related to
                                                                Gross       Receivable    Property        Allowance       Direct Loans
Obligated Pre - 1992
  Foreign Loans                                                $ 6,244       $    71      $      -        $ (2,930)       $        3,385
  Farm Loans                                                      2,809          171                 28       (335)                2,673
  Home Loans                                                     13,215          124                 17      (5,587)               7,769
  Utility Loans                                                  15,371           37                  -      (1,938)              13,470
  Community Loans                                                 1,854           19                  -       (289)                1,584
  Business and Industry Loans                                        60             -                 -         (28)                  32
Total Pre - 1992                                                 39,553          422                 45    (11,107)               28,913


Obligated Post -1991
  Foreign Loans                                                   3,007           34                  -      (1,821)               1,220
  Farm Loans                                                      4,661          120                  5       (610)                4,176
  Home Loans                                                     13,875           87                 24      (2,066)              11,920
  Utility Loans                                                  17,014             7                 -       (753)               16,268
  Community Loans                                                 6,009           63                  -       (760)                5,312
  Business and Industry Loans                                       524             2                 -       (236)                  290
Total Post - 1991                                                45,090          313                 29      (6,246)              39,186
Total Direct Loan Program Receivables                            84,643          735                 74    (17,353)               68,099


Defaulted Guarantee Loans


  Pre - 1992
    Foreign Loans                                                 4,709           21          (2,204)                -             2,526
    Business and Industry Loans                                         5           1                 -              -                     6
Total Pre - 1992                                                  4,714           22          (2,204)                -             2,532


  Post - 1991
    Foreign Loans                                                 1,794           27           (873)                 -               948
    Community Loans                                                     4           -                 -              -                     4
    Business and Industry Loans                                     176             -                 -         (10)                 166
Total Post - 1991                                                 1,974           27           (873)            (10)               1,118
Total Defaulted Guarantee Loans                                   6,688           49          (3,077)           (10)               3,650


Loans Exempt from Credit Reform Act
  Commodity Loans                                                 1,798             -                 -              -             1,798
  Other Foreign Receivables                                         294             -                 -              -               294
Total Loans Exempt                                                2,092             -                 -              -             2,092


Total Loans Receivable and Related Foreclosed Property, Net                                                               $       73,841




 USDA
  202                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                             NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 1. Total Loans Receivable and Related Foreclosed Property, Net
FY 2003

                                                                Loans                                   Present       Value of Assets
Direct Loans                                                  Receivable,    Interest    Foreclosed     Value              Related to
                                                                Gross       Receivable    Property     Allowance       Direct Loans
Obligated Pre - 1992
  Foreign Loans                                                $ 7,545       $    75      $   -        $ (4,045)       $        3,575
  Farm Loans                                                      3,375          200              36       (821)                2,790
  Home Loans                                                     14,219          123              31      (5,801)               8,572
  Utility Loans                                                  17,581             8              -      (2,070)              15,519
  Community Loans                                                 2,127           19               -       (355)                1,791
  Business and Industry Loans                                        64             -              -         (30)                    34
Total Pre - 1992                                                 44,911          425              67    (13,122)               32,281


Obligated Post -1991
  Foreign Loans                                                   2,981           35               -      (1,747)               1,269
  Farm Loans                                                      4,741          129               6       (749)                4,127
  Home Loans                                                     13,435           68              30      (1,980)              11,553
  Utility Loans                                                  14,478          200               -      (1,162)              13,516
  Community Loans                                                 5,565           49               -       (809)                4,805
  Business and Industry Loans                                       525             2              -       (199)                  328
Total Post - 1991                                                41,725          483              36      (6,646)              35,598
Total Direct Loan Program Receivables                            86,636          908          103       (19,768)               67,879


Defaulted Guarantee Loans
  Pre - 1992
    Foreign Loans                                                 4,943           55               -      (2,203)               2,795
    Business and Industry Loans                                         5           1              -              -                     6
                                                                  4,948           56               -      (2,203)               2,801


  Post - 1991
    Foreign Loans                                                 1,800           28               -      (1,161)                 667
    Business and Industry Loans                                     189             2              -         (10)                 181
Total Post - 1991                                                 1,989           30               -      (1,171)                 848
Total Defaulted Guarantee Loans                                   6,937           86               -      (3,374)               3,649


Loans Exempt from Credit Reform Act:
  Commodity Loans                                                 1,644          119               -         (48)               1,715
  Other Foreign Receivables                                         353             -              -          (6)                 347
Total Loans Exempt                                                1,997          119               -         (54)               2,062


Total Loans Receivable and Related Foreclosed Property, Net                                                            $       73,590




                                                                                                                             USDA
                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                              203
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1999) Direct Loans
                                                                             FY 2004       FY 2003

Beginning balance of the subsidy cost allowance                              $   6,654     $   7,047
Add: Subsidy expense for direct loans disbursed during the year by component
 Interest rate differential costs                                                  (83)         112
 Default costs (net of recoveries)                                                 211          234
 Fees and other collections                                                        (12)         (32)
 Other subsidy costs                                                               339          220
Total subsidy expense prior to adjustments and reestimates                         455          534
Adjustments
 Loan modifications                                                                142            58
 Fees received                                                                      17            14
 Loans written off                                                                (405)         (163)
 Subsidy allowance amortization                                                   (317)         (198)
 Other                                                                             437          (103)
Total subsidy cost allowance before reestimates                                  6,983         7,189
Add or subtract subsidy reestimates by component
 Interest rate reestimate                                                           275           81
 Technical/default reestimate                                                    (1,002)        (616)
Total reestimates                                                                  (727)        (535)
Ending balance of the subsidy cost allowance                                $    6,256     $   6,654




 USDA
  204                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                        NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 3. Direct Loan Subsidy Expense by Program and Component
        FY 2004
                                                                              Fees and                               Tota l        Rate         Technical            Tota l           Toa l
        Direct Loan Programs                        Interest                   Other                    Subtota l   Modifi-        Re-              Re-               Re -          Subsidy
                                                   Differential    Defaults   Collections    Other      Subsidy     ca tions   estimates        estimates       e stim a te s       Ex pe nse
        P.L. 480, Title I                          $       21      $    10    $      -       $     3     $    34     $ 141     $          (3)   $    (201)       $      (204)        $    (29)
        Debt Reduction Fund                                    -         -               -         -           -          -                -         (118)              (118)            (118)
        Farm Storage Facility Loan Program                  (1)          1               -         -           -          -               2                7                  9               9
        Agriculture Credit Insurance Fund (ACIF)          (29)         162               -       (10)        123          -           (14)           (202)              (216)             (93)
        Rural Community Facilities Fund                    14            1               -        (1)         14          -           (13)                (1)            (14)                 -
        Rural Housing Insurance Fund                     (161)          32           (12)        356         215          -               3           (23)               (20)            195
        Rural Electrification Loans                       (19)           3               -        (6)        (22)         -          352             (455)              (103)            (125)
        Rural Telephone Loans                                1           1               -        (1)          1          -              13           (40)               (27)             (26)
        Rural Telephone Bank                                 1           -               -         -           1          -               (3)             (5)                 (8)          (7)
        Rural W ater and W aste Disposal Loans             73            1               -        (3)         71          -           (67)                 5             (62)                 9
        Rural Business and Industry Loans                      -         -               -         -           -          -               5               37                 42           42
        Rural Development Loan Fund                        13            -               -         -          13          -               (1)             (2)                 (3)         10
        Rural Economic Development Loans                     4           -               -         -           4          -               (1)             (1)                 (2)             2
        Total Subsidy Expense, Direct Loans        $      (83)     $   211    $      (12)    $ 338      $    454    $ 141      $     273        $    (999)      $       (726)        $ (131)



        FY 2003
                                                                              Fees and                               Tota l        Rate         Technical            Tota l           Toa l
                                                    Interest                   Other                    Subtota     Modifi-        Re-              Re-               Re -          Subsidy
        Direct Loan Programs                       Differential    Defaults   Collections    Other      Subsidy     ca tions   estimates        estimates       e stim a te s       Ex pe nse
        P.L. 480, Title I                          $       28      $    19    $      -       $     3     $    50    $    58    $          (1)   $         45    $            44      $   152
        Debt Reduction Fund                                    -         -               -         -           -          -                -          (83)               (83)             (83)
        Food for Progress                                      -         -               -         -           -          -                -          (81)               (81)             (81)
        Farm Storage Facility Loan Program                     -         1               -         -           1          -                -              (8)                 (8)          (7)
        Agriculture Credit Insurance Fund (ACIF)          (28)         185               -        (8)        149          -           (53)           (648)              (701)            (552)
        Rural Community Facilities Fund                    18            2               -        (1)         19          -               1               (9)                 (8)         11
        Rural Housing Insurance Fund                       11           23           (32)        231         233          -               4          (192)              (188)             45
        Rural Electrification Loans                       (19)           4               -        (2)        (17)         -              94           359                453             436
        Rural Telephone Loans                                1           -               -         -           1          -               6               30                 36           37
        Rural Telephone Bank                                 1           -               -         -           1          -                -              (6)                 (6)          (5)
        Rural W ater and W aste Disposal Loans             85            1               -        (3)         83          -              40           (37)                    3           86
        Rural Business and Industry Loans                      -         -               -         -           -          -               (3)             10                  7               7
        Rural Development Loan Fund                        12            -               -         -          12          -               (6)              3                  (3)             9
        Rural Economic Development Loans                     3           -               -         -           3          -                -              (1)                 (1)             2
        Total Subsidy Expense, Direct Loans        $      112      $   235    $      (32)    $ 220      $    535    $    58    $         82     $    (618)      $       (536)        $    57




                                                                                                                                                                                                  USDA
                                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                            205
NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

        Direct Loans                                            FY 2004       FY 2003

        Farm and Foreign Agricultural Services Mission Area
         P.L. 480, Title I                                  $       60    $       65
         Farm Storage Facility Loan Program                         61            44
         Agriculture Credit Insurance Fund (ACIF)                  894         1,084
        Mission area total                                       1,015         1,193

        Rural Development Mission Area
         Rural Community Facilities Fund                           232           228
         Rural Housing Insurance Fund                            1,395         1,163
         Distance Learning and Telemedicine Loans                   58            44
         Rural Electrification Loans                             2,600         3,007
         Rural Telephone Loans                                     319           256
         Rural Telephone Bank                                       67            56
         Rural Water and Waste Disposal Loans                      700           754
         Rural Business and Industry Loans                           -             2
         Rural Development Loan Fund                                28            26
         Rural Economic Development Loans                           16            11
        Mission area total                                       5,415         5,547
        Total Direct Loans Disbursed                        $    6,430    $    6,740




USDA
 206                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 5. Loan Guarantees Outstanding
                                                                      Pre - 1992   Post - 1991         Tota l         Pre - 1992        Post - 1991           Tota l
                                                                     Outstanding   Outstanding     Outsta nding       Outstanding       Outstanding        Outsta nding
         FY 2004
                                                                      Principal,    Principal,      Principal,         Principal,        Principal,         Principal,
                                                                     Face Value    Face Value      Fa ce Value        Guaranteed        Guaranteed         Guara nte ed
       Guaranteed Loans
       Farm and Foreign Agricultural Services Mission Area
         Agriculture Credit Insurance Fund (ACIF)                    $      152    $   10,224      $    10,376        $      134        $      9,183       $       9,317
         Export Credit Guarantee Programs                                     -         5,041            5,041                 -               4,833               4,833
         Mission area total                                                 152        15,265           15,417               134              14,016              14,150
       Rural Development Mission Area
         Rural Community Facilities Fund                                      -           437             437                  -                 375                 375
         Rural Housing Insurance Fund                                         9        13,549          13,558                  8              12,194              12,202
         Rural Electrification Loans                                        255           221             476                255                 221                 476
         Rural W ater and W aste Disposal Loans                               -            33              33                  -                  27                  27
         Rural Business and Industry Loans                                   41         4,194           4,235                 31               3,105               3,136
         Rural Cooperative Development Fund                                   4             -               4                  3                   -                   3
         Mission area total                                                 309        18,434          18,743                297              15,922              16,219
       Total Guarantees Disbursed                                    $      461    $   33,699      $    34,160        $      431        $     29,938       $      30,369


                                                                     Pre - 1992    Post - 1991       Total        Pre - 1992        Post - 1991           Tota l
                                                                     Outstanding   Outstanding    Outstanding     Outstanding       Outstanding        Outstanding
            FY 2003
                                                                      Principal,    Principal,     Principa l,     Principal,        Principal,         Principa l,
                                                                     Face Value    Face Value     Face Value      Guaranteed        Guaranteed         Guarante ed
          Guaranteed Loans
          Farm and Foreign Agricultural Services Mission Area
            Agriculture Credit Insurance Fund (ACIF)                  $     201    $   10,090     $    10,291     $        178      $        9,061     $        9,239
            Export Credit Guarantee Programs                                  -         4,820           4,820                -               4,657              4,657
            Agriculture Research Conservation Demonstration (ARCD)            -            24              24                -                  24                 24
            Mission area total                                              201        14,934          15,135              178              13,742             13,920
          Rural Development Mission Area
            Rural Community Facilities Fund                                   -           373             373                -                 319                319
            Rural Housing Insurance Fund                                     12        13,420          13,432               10              12,078             12,088
            Rural Electrification Loans                                     293           224             517              293                 224                517
            Rural W ater and W aste Disposal Loans                            -            29              29                -                  23                 23
            Rural Business and Industry Loans                                51         4,032           4,083               39               2,976              3,015
            Rural Cooperative Development Fund                                4             -               4                3                   -                  3
            Mission area total                                              360        18,078          18,438              345              15,620             15,965
          Total Guarantees Disbursed                                  $     561    $   33,012     $    33,573     $        523      $       29,362     $       29,885




                                                                                                                                                                           USDA
                                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                       207
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)
                                                        Liabilities for      Liabilities for Loan
                                                       Losses on Pre-       Guarantees on Post-     Total Liabilities
    FY 2004
                                                      1992 Guarantees        1991 Guarantees           for Loan
                                                       Present Value           Present Value         Guarantees
Liability for Loan Guarantees

Farm and Foreign Agricultural Services Mission Area

  Export Credit Guarantee Programs                    $             -       $               240     $            240
  Agriculture Credit Insurance Fund (ACIF)                              2                   162                  164
Total Mission area                                                      2                   402                  404

Rural Development Mission Area

  Rural Community Facilities Fund                                       -                     7                    7
  Rural Housing Insurance Fund                                          -                   440                  440
  Rural Business and Industry Loans                                     3                   334                  337
Total Mission area                                                      3                   781                  784
Total Liability for Loan Guarantees                   $                 5    $            1,183     $          1,188




                                                        Liabilities for      Liabilities for Loan
                                                       Losses on Pre-       Guarantees on Post-     Total Liabilities
    FY 2003
                                                      1992 Guarantees        1991 Guarantees           for Loan
                                                       Present Value           Present Value         Guarantees
Liability for Loan Guarantees

Farm and Foreign Agricultural Services Mission Area

  Export Credit Guarantee Programs                    $             -       $                22     $             22
  Agriculture Credit Insurance Fund (ACIF)                              4                   130                  134
Total Mission area                                                      4                   152                  156

Rural Development Mission Area

  Rural Community Facilities Fund                                       -                     1                    1
  Rural Housing Insurance Fund                                          -                   399                  399
  Rural Business and Industry Loans                                     2                   325                  327
Total Mission area                                                      2                   725                  727
Total Liability for Loan Guarantees                   $                 6   $               877     $            883




 USDA
  208                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                            NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 7. Schedule for Reconciling Loan Guarantee Liability
                                                                                   FY 2004      FY 2003

Beginning balance of the loan guarantee liability                                  $    876     $    1,034
Add: Subsidy expense for guaranteed loans disbursed during the year by component
 Interest rate differential costs                                                         35            45
 Default costs (net of recoveries)                                                       481           339
 Fees and other collections                                                             (105)         (141)
Total of the above subsidy expense components                                            411           243
Adjustments
 Fees received                                                                           116            96
 Interest supplements paid                                                                (4)          (47)
 Claim payments to lenders                                                              (372)         (301)
 Interest accumulation on the liability balance                                           31            48
 Other                                                                                   847          (115)
Ending balance of the subsidy cost allowance before reestimates                        1,905           958
Add or subtract subsidy reestimates by component
 Interest rate reestimate                                                               (202)           32
 Technical/default reestimate                                                           (520)         (114)
Total of the above reestimate components                                                (722)          (82)

Ending balance of the loan guarantee liability                                     $   1,183    $     876




                                                                                                    USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                        209
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 8. Guarantee Loan Subsidy Expense by Program and Component
FY 2 0 0 4
                                                                                                                                                  Tota l       In te re s t     Te ch n ica l         Tota l          Tota l
                                                                                                Fe e s a n d Oth e r
                                                              In te re s t                                                                      M odifi-      R a te R e -           Re-               Re -         S ubs idy
Gu a ra n te e d L o a n P ro g ra m s                     S u p p le m e n t   D e fa u lts      C o lle ctio n s       Oth e r   S ubtota l   c a tions    e s tim a te s     e s tim a te s    e s tim a te s    Ex pe ns e
  E xp o rt C re d it Gu a ra n te e P ro g ra m s         $                -   $     271       $               (2 5 )   $    -      $246        $       -    $      (2 5 9 )    $     (5 4 9 )    $     (8 0 8 )    $ (5 6 2 )
  Fa rm Op e ra tin g — U n s u b s id ize d                                -           40                        (8 )        -        32                -                5              (2 5 )            (2 0 )          12
  Fa rm Op e ra tin g — S u b s id ize d                                27                 9                      (2 )        -        34                -                1                  -                1            35
  Fa rm Ow n e rs h ip — U n s u b s id ize d                               -           15                      (1 0 )        -          5               -                3                (7 )              (4 )            1
  R u ra l C o m m u n ity Fa cilitie s                                     -               -                     (1 )        -         (1 )             -                  -             13                13             12
  R u ra l H o u s in g In s u ra n ce Fu n d                              8            90                      (4 6 )        -         52               -              40                 (1 )             39             91
  R u ra l B u s in e s s a n d In d u s try L o a n s                      -           54                      (1 2 )        -        42                -                8               49                57             99
To ta l L o a n Gu a ra n te e S u b s id y E xp e n s e    $           35      $     479       $             (1 0 4 )   $    -      $410        $       -    $      (2 0 2 )    $     (5 2 0 )    $     (7 2 2 )    $ (3 1 2 )

FY 2 0 0 3
                                                                                                                                                  Tota l       In te re s t     Te ch n ica l         Tota l          Tota l
                                                                                                Fe e s a n d Oth e r
                                                              In te re s t                                                                      M odifi-      R a te R e -           Re-               Re -         S ubs idy
Gu a ra n te e d L o a n P ro g ra m s                     S u p p le m e n t   D e fa u lts      C o lle ctio n s       Oth e r   S ubtota l   c a tions    e s tim a te s     e s tim a te s    e s tim a te s    Ex pe ns e
  E xp o rt C re d it Gu a ra n te e P ro g ra m s         $                -   $       93      $                 (8 )   $    -      $ 85        $       -    $           4      $     (2 0 5 )    $     (2 0 1 )    $ (1 1 6 )
  Fa rm Op e ra tin g — U n s u b s id ize d                                -           41                        (9 )        -        32                -                2              (2 1 )            (1 9 )          13
  Fa rm Op e ra tin g — S u b s id ize d                                39              14                        (4 )        -        49                -               (4 )            (1 4 )            (1 8 )          31
  Fa rm Ow n e rs h ip — U n s u b s id ize d                               -           20                      (1 1 )        -          9               -                4                (6 )              (2 )            7
  R u ra l C o m m u n ity Fa cilitie s                                     -               -                     (1 )        -         (1 )             -                  -              (2 )              (2 )          (3 )
  R u ra l H o u s in g In s u ra n ce Fu n d                              6          129                       (9 8 )        -        37                -              13                58                71           108
  R u ra l B u s in e s s a n d In d u s try L o a n s                      -           42                      (1 1 )        -        31                -              12                75                87           118
To ta l L o a n Gu a ra n te e S u b s id y E xp e n s e    $           45      $     339       $             (1 4 2 )   $    -      $242        $       -    $         31       $     (1 1 5 )    $       (8 4 )   $    158




     USDA
      210                                                  DRAFT—FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 9. Guaranteed Loans Disbursed
                                                                    FY 2004                       FY 2003
                                                           Principal,      Principal,    Principal,      Principal,
                                                          Face Value      Guaranteed    Face Value      Guaranteed
                                                          Disbursed       Disbursed     Disbursed       Disbursed
   Guaranteed Loans
    Farm and Foreign Agricultural Services Mission Area
     Export Credit Guarantee Programs                     $    3,873      $    3,372    $     2,770     $     2,529
     Agriculture Credit Insurance Fund (ACIF)                  2,347           2,108          2,592           2,328
    Total Mission area                                         6,220           5,480          5,362           4,857
    Rural Development Mission Area
     Rural Community Facilities Fund                             135             116            138             117
     Rural Housing Insurance Fund                              3,420           3,078          2,992           2,693
     Rural Electrification Loans                                  18              18               -              -
     Rural Water and Waste Disposal Loans                          4               3              3               2
     Rural Business and Industry Loans                           924             725            654             513
    Total Mission area                                         4,501           3,940          3,787           3,325
   Total Guaranteed Loans Disbursed                       $   10,721      $    9,420    $     9,149     $     8,182




Table 10. Administrative Expenses
                                                                                            FY 2004         FY 2003
    Direct Loan Programs

     P.L. 480, Title 1                                                                   $        2     $         2
     Agriculture Credit Insurance Fund (ACIF)                                                   283             277
     Rural Development                                                                          282             256
    Total                                                                                $      567      $      535

    Guaranteed Loan Programs

     Export Credit Guarantee Programs                                                    $        4     $         4
     Rural Development                                                                          159             155
    Total                                                                                $      163      $      159




                                                                                                                  USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                          211
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 11. Subsidy Rates for Direct Loans (percentage)
 F Y 2004                                                                         F ees and
                                                     Interest                       Other
                                                   D ifferential    D efaults    C ollections   Other        Total
  D irect Loan P rograms
  F arm S torage F acility Loan P rogram                 (0.97)          1.62          (0.11)       0.68        1.22
  P .L. 480, Title 1                                     42.49          24.53            -         11.88       78.90
  F arm Operating                                        (3.05)         16.48            -          0.99       14.42
  F arm Ownership                                        (6.48)         37.56            -         (9.00)      22.08
  E m ergency D isaster                                   2.15          18.10            -         (6.42)      13.83
  Indian Land A cquisition                               (1.02)          0.76            -         (0.52)      (0.78)
  B oll W eevil E radication                             (6.73)          1.58            -         (0.92)      (6.07)
  C ommunity F acilities Loans                           (0.48)          0.19            -         (0.42)      (0.71)
  S ection 502 D irect S ingle F am ily Housing         (19.23)          2.62            -         25.88        9.27
  S ection 504 D irect Housing Repair                    25.08           2.59            -         (0.21)      27.46
  S ection 203 C redit S ales (S F H)                   (21.54)          1.22            -          2.86      (17.46)
  S ection 514 F arm Labor Housing                       42.74           0.03            -         (0.04)      42.73
  S ection 515 Rural Rental Housing                     (20.70)          0.01            -         63.70       43.01
  S ection 524 Housing S ite D evelopm ent               (4.76)          3.37            -          1.36       (0.03)
  S ection 523 S elf-Help Housing Land                    0.13           3.22            -         (0.27)       3.08
  S ection 209 C redit S ales                           (21.32)          0.07            -         65.45       44.20
  E lectric M unicipal                                   (2.26)          0.03            -         (0.19)      (2.42)
  F F B E lectric                                        (1.35)          0.01            -         (0.65)      (1.99)
  D irect E lectric Hardship                             (2.27)          0.03            -         (0.09)      (2.33)
  Telephone Treasury                                       -             0.04            -          0.01        0.05
  F F B Telephone                                        (1.04)          0.11            -         (0.92)      (1.85)
  Telephone Hardship                                     (4.49)          0.02            -          0.03       (4.44)
  Rural Telephone B ank                                  (4.29)          0.02            -         (0.05)      (4.32)
  D irect W ater and W aste D isposal                     3.56           0.09            -         (0.32)       3.33
  Intermediary Relending P rogram                        43.27            -              -           -         43.27
  Rural E conom ic D evelopment                          19.61           0.04            -         (1.04)      18.61
  E lectric Treasury                                       -             0.03            -         (0.09)      (0.06)
  B roadband 4%                                           2.79           2.15            -           -          4.94
  B roadband                                               -             2.28            -         (0.10)       2.18



 F Y 2003                                                                        F ees and
                                                    Interest                       Other
                                                  D ifferential    D efaults    C ollections    Other       Total
  D irect Loan P rogram s
  F arm S torage F acility Loan P rogram                (0.88)          2.27          (0.11)        -          1.28
  P .L. 480, Title 1                                    47.24          22.04            -          5.83       75.11
  F arm Operating                                       (4.34)         20.36            -          1.23       17.25
  F arm Ownership                                       (8.17)         27.53            -         (7.75)      11.61
  E mergency D isaster                                   8.48          15.24            -         (3.33)      20.39
  Indian Land A cquisition                               7.79           8.02            -         (6.86)       8.95
  B ollW eevil E radication                             (9.56)          8.35            -         (1.49)      (2.70)
  C om munity F acilities Loans                          6.80           0.20            -         (0.76)       6.24
  Modular Housing Loans                                 21.03          (0.10)           -         (3.01)      17.92
  S ection 502 D irect S ingle F am ily Housing        (12.90)          2.68            -         29.59       19.37
  S ection 504 D irect Housing Repair                   28.98           2.27            -         (0.23)      31.02
  S ection 203 C redit S ales (S F H)                  (16.51)          1.17            -          5.76       (9.58)
  S ection 514 F arm Labor Housing                      48.64           0.07            -          0.31       49.02
  S ection 515 Rural Rental Housing                    (13.18)          0.03            -         59.78       46.63
  S ection 524 Housing S ite D evelopment               (4.02)          3.92            -          1.19        1.09
  S ection 523 S elf-Help Housing Land                   1.15           3.72            -         (0.46)       4.41
  S ection 209 C redit S ales                          (13.12)          0.03            -         59.77       46.68
  E lectric Municipal                                    4.46            -              -         (0.43)       4.03
  F F B E lectric                                       (1.26)          0.04            -         (0.60)      (1.82)
  D irect E lectric Hardship                             5.84            -              -         (0.13)       5.71
  Telephone Treasury                                      -             0.02            -          0.03        0.05
  F F B Telephone                                       (1.09)          0.13            -         (1.40)      (2.36)
  Telephone Hardship                                     1.71            -              -           -          1.71
  Rural Telephone B ank                                  2.21           0.02            -         (0.85)       1.38
  D irect W ater and W aste D isposal                   11.77           0.10            -         (0.53)      11.34
  Intermediary Relending P rogram                       48.32            -              -         (0.06)      48.26
  Rural E conomic D evelopm ent                         22.46           0.05            -         (1.15)      21.36
  E lectric Treasury                                      -             0.03            -         (0.07)      (0.04)
  D istance Learning and Telem edicine                   0.41            -              -         (1.56)      (1.15)
  B roadband                                              -             5.21            -         (0.05)       5.16




 USDA
  212                              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                            NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                       Fees and
FY 2004                                   Interest                       Other
                                         Differential   Defaults       Collections       Other           Total
Guaranteed Loan Programs
 Export Credit Guarantee Program                -            7.48           (0.66)           -              6.82
 Farm Operating—Unsubsidized                    -            4.23           (0.90)           -              3.33
 Farm Operating—Subsidized                    10.18          3.48           (0.89)           -             12.77
 Farm Ownership—Unsubsidized                    -            1.44           (0.90)           -              0.54
 Rural Community Facilities Loans               -            0.23           (0.83)           -             (0.60)
 Section 538 Multiple Family                   9.61          0.56           (4.22)           -              5.95
 Section 502 Single Family                      -            3.07           (1.50)           -              1.57
 NADBANK Loans                                  -            4.53           (1.59)           -              2.94
 Business and Industry Loans                    -            6.33           (1.48)          0.01            4.86
 Electric                                       -            0.06             -              -              0.06
 Water and Waste Disposal Loans                 -             -             (0.90)           -             (0.90)
 Local Television                               -            8.96           (0.50)           -              8.46
 Guaranteed & Broadband Loans                   -            3.90             -              -              3.90
 Section 502 Single Family- Refinance           -            0.79           (0.50)           -              0.29




                                                                       Fees and
FY 2003                                   Interest                       Other
                                         Differential   Defaults       Collections       Other           Total
Guaranteed Loan Programs
 Export Credit Guarantee Program                -            7.64           (0.68)           -              6.96
 Farm Operating—Unsubsidized                    -            4.07           (0.90)           -              3.17
 Farm Operating—Subsidized                     9.31          3.38           (0.89)           -             11.80
 Farm Ownership—Unsubsidized                    -            1.64           (0.89)           -              0.75
 Rural Community Facilities Loans               -            0.28           (0.82)           -             (0.54)
 Section 538 Multiple Family                   8.22           -             (3.72)           -              4.50
 Section 502 Single Family                      -            2.72           (2.00)           -              0.72
 NADBANK Loans                                  -            6.15           (1.59)           -              4.56
 Business and Industry Loans                    -            5.45           (1.48)           -              3.97
 Electric                                       -            0.08             -              -              0.08
 Water and Waste Disposal Loans                 -             -             (0.81)           -             (0.81)
 Section 502 Single Family - Refinance          -            0.68           (0.50)           -              0.18




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
In FY 2003, the Departmental Working Capital Fund began recognizing inventory of supplies to be consumed
in the production of goods for sale or in the provision of services for a fee. The inventory mainly consists of
copier paper, toner and other office supplies purchased in bulk. In FY 2003, the FS changed its method of
accounting for operating material and supplies. Previously, FS had capitalized operating materials and supplies
when purchased and recognized an expense when consumed in normal operations. Under the new accounting
method, operating materials and supplies are expensed when purchased.
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity
donations and loan forfeitures are estimated to be $645 and $25 million in FY 2005, respectively.




                                                                                                         USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              213
NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                                      FY 2004                         FY 2003

Inventories                                                     $       1                       $       2


                                                Volume                          Volume
Commodities:
                                             (in millions)      Amount       (in millions)      Amount
  Corn (In Bushels):
   On hand at the beginning of the year               16              29              18              33
   Acquired during the year                           19              52              20              57
   Disposed of during the year
      Sales                                          (22)             (58)            (11)            (31)
      Donations                                        -               (1)            (11)            (31)
      Other                                           (1)               -               -               1
   On hand at the end of the year                     12               22              16              29

  W heat (In Bushels):
   On hand at the beginning of the year               81             290             102             364
   Acquired during the year                           56             240              84             392
   Disposed of during the year
      Sales                                          (51)            (221)            (65)           (280)
      Donations                                       (4)             (16)            (39)           (193)
      Other                                           (1)              (2)             (1)              7
   On hand at the end of the year                     81              291              81             290

  Nonfat Dry Milk (In Pounds):
   On hand at the beginning of the year           1,440             1,294          1,332            1,279
   Acquired during the year                         359               288            634              512
   Disposed of during the year
      Sales                                         (381)            (344)          (269)            (257)
      Donations                                     (436)            (388)          (253)            (262)
      Other                                         (321)            (256)            (4)              22
   On hand at the end of the year                    661              594          1,440            1,294
  Sugar (In Pounds):
   On hand at the beginning of the year                -                -            514             101
   Acquired during the year                           32                8              -               -
   Disposed of during the year
      Sales                                            -                -           (462)             (92)
      Other                                            -                -            (52)              (9)
   On hand at the end of the year                     32                8              -                -
  Tobacco (In Pounds):
    On hand at the beginning of the year              96             278             225             599
    Acquired during the year                           -               -               -               1
    Disposed of during the year
       Sales                                          (2)              (4)             -                -
       Other                                         (93)            (272)          (129)            (322)
    On hand at the end of the year                     1                2             96              278

  Other:
    On hand at the beginning of the year                              93                              109
    Acquired during the year                                         871                            4,023
    Disposed of during the year
        Sales                                                     (689)                          (3,804)
        Donations                                                 (239)                            (244)
        Other                                                       (3)                               9
    On hand at the end of the year                                  33                               93
Allowance for losses                                              (809)                          (1,708)
Total Commodities                                                  141                              276
Total Inventory and Related Property, Net                       $ 142                           $ 278



 USDA
  214                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
During FY 2004 the Department implemented the Corporate Property Automated Information System (CPAIS).
CPAIS tracks and manages real property assets including owned, leased and General Services Administration
(GSA)-assigned property. It serves as the subsidiary ledger for owned property by recording the acquisition,
depreciation and disposal of property.
Prior to the CPAIS implementation, depreciation calculations were made based on the actual date an asset was
placed into service. CPAIS utilizes the mid-year convention methodology for calculation of depreciation.
Additionally, the implementation of CPAIS standardizes the useful life tables for adding structures and their
improvements to the system. The useful life table methodology for depreciation calculation is consistent with
GSA and OMB standards.
As a result of these changes, an additional $73 million of depreciation was recorded in the current fiscal year.
In FY 1995–1999 the construction costs of the George Washington Carver Center (GWCC) (a USDA owned
building) and the renovations and improvements to the South Building (a GSA-owned building) were expensed.
In FY 2004, $83 million was recorded to capitalize GWCC for $55 million, and leasehold improvements for the
South Building of $28 million. Accumulated amortization for the building and leasehold improvements of $23
million was recorded, and prior year expensed costs for the 2 buildings of $60 million were reversed. An
additional $25 million in depreciation was recorded for the 2 buildings as a result of the conversion to CPAIS.
    FY 2004                                          Useful                                             Net
                                                      Life                        Accumulated          Book
       Category                                     (Years)            Cost       Depreciation         Value

    Land and Land Rights                                           $       76      $      -        $        76
    Improvements to Land                            10 - 50             4,917           2,480            2,437
    Construction-in-Progress                                              438                -             438
    Buildings, Improvements and Renovations         15 - 30             1,766             983              783
    Other Structures and Facilities                 15 - 50             1,544           1,092              452
    Equipment                                       5 - 20              1,842           1,378              464
    Assets Under Capital Lease                      3 - 20                 40               17              23
    Leasehold Improvements                            10                   46               26              20
    Internal-Use Software                            5-8                  335             163              172
    Internal-Use Software in Development                                   43                -              43
    Other General Property, Plant and Equipment      5 - 15                 6                -               6
        Total                                                      $   11,053      $    6,139      $     4,914


    FY 2003                                          Useful                                             Net
                                                      Life                        Accumulated          Book
       Category                                     (Years)            Cost       Depreciation         Value

    Land and Land Rights                                           $       77      $      -        $        77
    Improvements to Land                            10 - 50             4,872           2,375            2,497
    Construction-in-Progress                                              320                -             320
    Buildings, Improvements and Renovations         15 - 30             1,681             859              822
    Other Structures and Facilities                 15 - 50             1,516           1,048              468
    Equipment                                       5 - 20              1,937           1,402              535
    Assets Under Capital Lease                      3 - 20                 41               17              24
    Leasehold Improvements                            10                   12                8               4
    Internal-Use Software                            5-8                  264             130              134
    Internal-Use Software in Development                                   32                -              32
    Other General Property, Plant and Equipment      5 - 15                 6                -               6
        Total                                                      $   10,758      $    5,839      $     4,919




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  215
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 10. OTHER ASSETS
In FY 2004 and 2003, other assets include investments of $35 million in trust for loan asset sales.
                                                                                  FY 2004             FY 2003
  Intragovernmental:
    Advances to Others                                                          $         1       $          4
    Prepayments                                                                           -                  3
  Subtotal Intragovernmental                                                              1                  7
  With the Public:
   Advances to Others                                                                    51                107
   Prepayments                                                                            1                  1
   Other Assets                                                                          37                 37
  Subtotal With the Public                                                               89                145

  Total Other Assets                                                            $        90       $        152




NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In FY 2004 and 2003, other liabilities not covered by budgetary resources includes accrued rental payments
under the Conservation Reserve Program (CRP) of $1,663 and $1,634 million, unfunded leave of $526 and
$524 million, and contract dispute claims payable to Treasury’s Judgment Fund of $7 million and $192 million,
respectively. Estimated losses on insurance claims were covered by budgetary resources in FY 2004 due to
sufficient premium received. FY 2003 includes estimated losses on insurance claims of $1,400 million not
covered by budgetary resources.


                                                                                     FY 2004            FY 2003
Intragovernmental:
  Other                                                                             $       168        $         346
Subtotal Intragovernmental                                                                  168                  346
With the Public:
Federal employee and veterans' benefits                                                   836                940
Environmental and disposal liabilities                                                     23                  8
Benefits due and payable                                                                   36                  -
Other                                                                                   2,634              3,847
Total With the Public                                                                   3,529              4,795
Total liabilities not covered by budgetary resources                                    3,697              5,141
Total liabilities covered by budgetary resources                                      103,133            110,522
Total liabilities                                                                   $ 106,830          $ 115,663




 USDA
  216                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 12. DEBT
                                                               Beginning             Net              Ending
FY 2004
                                                                Balance           Borrowing           Balance
Intragovernmental:
  Debt to the Treasury                                         $   53,440         $   (6,547)        $   46,893
  Debt to the Federal Financing Bank                               22,700               (540)            22,160
                                                                   76,140             (7,087)            69,053
Agency Debt:
  Held by the Public                                                   80                (79)                 1
Total Debt                                                     $   76,220         $   (7,166)        $   69,054



                                                               Beginning             Net              Ending
FY 2003
                                                                Balance           Borrowing           Balance
Intragovernmental:
  Debt to the Treasury                                         $   53,555         $     (115)        $   53,440
  Debt to the Federal Financing Bank                               22,379                321             22,700
                                                                   75,934                206             76,140
Agency Debt:
  Held by the Public                                                   84                 (4)                80
Total Debt                                                     $   76,018         $      202         $   76,220




NOTE 13. ENVIRONMENTAL AND DISPOSAL LIABILITIES
USDA is subject to the Comprehensive Environmental Response, Compensation, and Liability Act, the Clean
Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. FS and CCC
estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $8 million and $15
million in FY 2004, and $8 and $13 million in FY 2003, respectively, based on actual cleanup costs at similar
sites. These estimates will change as new sites are discovered, remedy standards change and new technology is
introduced.



NOTE 14. OTHER LIABILITIES
As of September 30, 2004, and 2003, other liabilities include estimated losses on crop insurance claims of
$2,320 million and $2,803 million respectively; stock payable to RTB borrowers of $1,343 million and $1,309
million respectively; amounts payable to Treasury’s General Fund due to subsidy downward reestimates of
$399 million and $1,454 million respectively; crop insurance premium subsidy deficiency reserve of $420
million and $342 million respectively; and underwriting gains on crop insurance due companies of $784 million
and $167 million respectively.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               217
NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




         FY 2004                                             Non-
                                                                         Current          Total
                                                            Current
         Intragovernmental:
           Other Accrued Liabilities                        $     19     $      582   $      601
           Employer Contributions and Payroll Taxes                1             35           36
           Unfunded FECA Liability                                39            124          163
           Advances from Others                                    3             15           18
           Liability for Deposit Funds, Clearing Accounts         (1)            83           82
           Resources Payable to Treasury                           -         17,469       17,469
           Custodial Liability                                    34             59           93
           Other Liabilities                                       -            399          399
         Subtotal Intragovernmental                               95         18,766       18,861

         With the Public:
          Other Accrued Liabilities                                11         5,997        6,008
          Accrued Funded Payroll and Leave                          2            37           39
          Unfunded Leave                                           31           495          526
          Other Unfunded Employment Related Liability               -            43           43
          Advances from Others                                      -            41           41
          Deferred Credits                                          -           309          309
          Liability for Deposit Funds, Clearing Accounts           20           614          634
          Contingent Liabilities                                    1             9           10
          Capital Lease Liability                                   -            23           23
          Accounts Payable from Canceled Appropriations             1             -            1
          Custodial Liability                                       -            16           16
          Other Liabilities                                     1,361         3,618        4,979
         Subtotal With the Public                               1,427        11,202       12,629

         Total Other Liabilities                            $ 1,522      $ 29,968     $ 31,490


         FY 2003
                                                             Non-
                                                                         Current          Total
                                                            Current
         Intragovernmantal:
           Other Accrued Liabilities                        $     16     $ 1,030      $ 1,046
           Employer Contributions and Payroll Taxes                -          26           26
           Unfunded FECA Liability                                41         123          164
           Advances from Others                                    2          21           23
           Liability for Deposit Funds, Clearing Accounts          1         186          187
           Resources Payable to Treasury                           -      16,981       16,981
           Custodial Liability                                    41         (14)          27
           Other Liabilities                                       1       1,463        1,464
         Subtotal Intragovernmental                              102      19,816       19,918

         With the Public:
          Other Accrued Liabilities                                 6         5,790        5,796
          Accrued Funded Payroll and Leave                         (2)           33           31
          Unfunded Leave                                           29           495          524
          Other Unfunded Employment Related Liability               -           427          427
          Advances from Others                                      7            30           37
          Deferred Credits                                          -           256          256
          Liability for Deposit Funds, Clearing Accounts           24           904          928
          Contingent Liabilities                                    9             9           18
          Capital Lease Liability                                   -            23           23
          Accounts Payable from Canceled Appropriations             5             -            5
          Custodial Liability                                       -           128          128
          Other Liabilities                                     1,327         3,361        4,688
         Subtotal With the Public                               1,405        11,456       12,861

         Total Other Liabilities                            $ 1,507      $ 31,272     $ 32,779




USDA
218                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 15. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA)
leased facilities and USDA-owned buildings. The USDA Headquarters complex (Whitten Building, South
Building and Cotton Annex) is a Government-owned facility, which is part of the GSA Federal Buildings
Inventory. As the result of a 1998 Agreement between GSA and USDA, a moratorium was placed on the rental
billings for the Headquarters complex beginning in FY 1999.
Pursuant to the agreement, USDA retains that portion of GSA rental payments and makes it available for the
operation, maintenance and repair of the building. It also expends such funds directly for the operation,
maintenance or repair of the building or facility. At current market rate, the estimated yearly rental payment for
the above-mentioned space would be $54 million. This agreement remains in effect, and as result, USDA
activities located in the Headquarters complex are not billed for rental costs.
USDA has undertaken major projects to improve and maintain some of these buildings that are over 60 years
old and in need of repair. In FY 2003, USDA received an appropriation to perform these major improvements
for this modernization program of $34 million.


          FY 2004
          Capital Leases:
           Summary of Assets Under Capital Leases:
            Land and Building                                $          40
            Accumulated Amortization                                    17

            Future Payments Due:
                                                                  Land &
                                                                                 Totals
                                                                 Buildings
             Fiscal Year
             2005                                                       11             11
             2006                                                       11             11
             2007                                                       11             11
             2008                                                       10             10
             2009                                                       10             10
             After 5 Years                                              88             88
          Total Future Lease Payments                                  141            141
          Less: Imputed Interest                                        38             38
          Less: Executory Costs                                         48             48
          Less: Lease Renewal Options                                   32             32
          Net Capital Lease Liability                        $          23   $         23

          Lease liabilities covered by budgetary resources   $          23

          Operating Leases:
            Future Payments Due:
                                                                Land &       Machinery &
            Fiscal Year                                                                         Totals
                                                               Buildings     Equipment
             2005                                                     101              1             102
             2006                                                      93              1              94
             2007                                                      85              1              86
             2008                                                      75              -              75
             2009                                                      67              -              67
            After 5 Years                                             360              -             360
            Total Future Lease Payments                      $        781    $         3    $        784




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               219
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




          FY 2003
          Capital Leases:
            Land and Building                                $      41
            Accumulated Amortization                                17

            Future Payments Due:
                                                              Land &
             Fiscal Year                                     Buildings        Totals

             2004                                                  11              11
             2005                                                  11              11
             2006                                                  11              11
             2007                                                  11              11
             2008                                                  10              10
             After 5 Years                                         97              97
          Total Future Lease Payments                             151             151
          Less: Imputed Interest                                   41              41
          Less: Executory Costs                                    24              24
          Less: Lease Renewal Options                              63              63
          Net Capital Lease Liability                        $     23     $        23

          Lease liabilities covered by budgetary resources   $      23

          Operating Leases:
           Future Payments Due:
                                                               Land &     Machinery &
            Fiscal Year
                                                             Buildings    Equipment         Totals
             2004                                                   85              1             86
             2005                                                   74              1             75
             2006                                                   67              -             67
             2007                                                   61              -             61
             2008                                                   53              -             53
             After 5 Years                                         331              -           331
          Total Future Lease Payments                        $     671    $         2     $     673




NOTE 16. COMMITMENTS AND CONTINGENCIES
USDA is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability has been
estimated, $10 million and $19 million has been accrued in the financial statements as of September 30, 2004,
and 2003, respectively.
No amounts have been accrued in the financial statements for claims where the amount or probability of
judgment is uncertain. The Department’s potential liability for these claims ranges from $475 million to $514
million and $211 million as of September 30, 2004, and 2003, respectively.
In FY 2004 and 2003, commitments under contractual and other commercial obligations were estimated to be
$66,000 million and $52,000 million respectively. These consist of $32,000 million and $20,000 million in
rental payments under the CRP, $2,000 million and $3,000 million in loan guarantees, and $18,000 million and
$15,000 million in direct loans, respectively. Additionally, undelivered orders were $14,000 million for FY
2004 and 2003.




 USDA
  220                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




RD has determined that no adequate funds were accrued to address future maintenance costs for the multiple
family housing portfolio for 2003. For the next 5 years, approximately 4,250 properties and 85,000 apartment
units will need general modernization. Costs for this process are expected in the hundreds of millions of dollars.
In FY 2003, one of the FCIC’s reinsured companies, American Growers Insurance Company (AGIC) was
placed under an order of supervision by the Nebraska Department of Insurance. FCIC is working with the
Nebraska Department of Insurance and AGIC management to ensure that all outstanding policy claims will be
paid and service to producers will continue. Approximately $580 million of the estimated $3,000 million losses
on insurance claims for the 2002 crop year were related to business written by AGIC. While additional costs
may be incurred by FCIC for other administrative costs of AGIC, they are not quantifiable at this time.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              221
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS S




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
                                                                                                                                                                       Inter-Mission
FY 2004                                                FNCS         FFA S           NRE           RD            REE          MRP           FSIS          DO                                  Total
                                                                                                                                                                     A rea Elimination
Pr ogr am Cos ts :
  Intragovernmental Gross Costs:
     Benef it Program Costs                        $       16   $       170     $      478    $      68     $     110    $      94     $      109    $         47    $             -     $       1,092
     Imputed Costs                                         64           198            365           98            96          114             82              27               (415)    $         629
     Reimbursable Costs                                    48           293            788           69            42          130             43             255               (477)            1,191
     Borrow ing Interest Expense                            -           598              -        3,104             -            -              -               -                  -             3,702
     Other                                                  -          (183)             1            -             1            -              -              (3)                 -              (184)
     Total Intragovernmental Gross Costs                  128         1,076          1,632        3,339           249          338            234             326               (892)            6,430
  Less: Intragovernmental Earned Revenues                   1           410            181          349            97           27              8             396               (476)              993
  Intragovernmental Net Costs                             127           666          1,451        2,990           152          311            226             (70)              (416)            5,437
                                                                                                                                                                                   -
  Gross Costs With the Public:                                                                                                                                                     -
    Grants                                             44,301        11,790          1,231         1,692         1,082           56            45               -                  -            60,197
    Loan Cost Subsidies                                     -        (1,016)             -           300             -            -             -              (1)                 -              (717)
    Indemnities                                             -         2,829             (3)           (8)            1           40             -               2                  -             2,861
    Commodity Program Costs                               613         2,276              -             -             -            -             -               -                  -             2,889
    Stew ardship Land A cquisition                          -            26             87             -             -            -             -               -                  -               113
    Other                                                 142           839          4,996           423         1,389        1,781           684             638                  -            10,892
    Total Gross Costs w ith the Public                 45,056        16,744          6,311         2,407         2,472        1,877           729             638                  -            76,234
  Less: Earned Revenues f rom the Public                   17         2,728            554         3,620            36          545           118              29                  -             7,647
  Net Costs w ith the Public                           45,039        14,016          5,757        (1,213)        2,436        1,332           611             609                  -            68,587
                                                                                                                                                                                   -
  Ne t Cos t of Ope rations (Note s 17, 18 & 19)   $   45,166   $    14,682     $    7,208    $   1,777     $    2,588   $    1,643    $      837    $        537    $          (416)    $      74,022

                                                                                                                                                                       Inter-Mission
FY 2003                                                FNCS         FFA S           NRE           RD            REE          MRP           FSIS          DO                                  Total
                                                                                                                                                                     A rea Elimination
Pr ogr am Cos ts :
  Intragovernmental Gross Costs:
     Benef it Program Costs                        $       16   $       162     $      444    $      64     $     101    $       98    $      105    $         44    $             -     $       1,034
     Imputed Costs                                         60           179            338           95            86           111            79              25               (392)              581
     Reimbursable Costs                                    42           155            479           64            59         1,579            38             212               (428)            2,200
     Borrow ing Interest Expense                            -           692              -        3,186             -             -             -               -                  -             3,878
     Other                                                  -           193              -            -             -            (1)           (1)              4                  -               195
     Total Intragovernmental Gross Costs                  118         1,381          1,261        3,409           246         1,787           221             285               (820)            7,888
  Less: Intragovernmental Earned Revenues                   2           419            356          322            39            16             3             344               (428)            1,073
  Intragovernmental Net Costs                             116           962            905        3,087           207         1,771           218             (59)              (392)            6,815


  Gross Costs With the Public:
    Grants                                             40,537        19,016            848        1,530          1,055           71            41               -                   -           63,098
    Loan Cost Subsidies                                     -        (1,633)             -          855              -            -             -               -                   -             (778)
    Indemnities                                             -         3,768             12            8              1           59             -               -                   -            3,848
    Commodity Program Costs                               798         5,769              -            -              -            -             -               -                   -            6,567
    Stew ardship Land A cquisition                          -            48            191            -              -            -             -               -                   -              239
    Other                                                 161         2,296          5,635        2,257          1,345        1,241           697             595                   -           14,227
    Total Gross Costs w ith the Public                 41,496        29,264          6,686        4,650          2,401        1,371           738             595                   -           87,201
  Less: Earned Revenues f rom the Public                   54         5,572            492        3,998             28          504           108              11                   -           10,767
  Net Costs w ith the Public                           41,442        23,692          6,194          652          2,373          867           630             584                   -           76,434
  Ne t Cos t of Ope rations (Note s 17, 18 & 19)   $   41,558   $    24,654     $    7,099    $   3,739     $    2,580   $    2,638    $      848    $        525    $          (392)    $      83,249




     USDA
      222                                                                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Food, Nutrition and Consumer Service
                                                                                                            Women,
FY 2004                                                          Child          Food           Food       Inf ants, and   Commodity
                                                                Nutrition       Stamp        Donations      Children      A ssistance       Total
Program Costs
  Intragovernmental Gross Costs
     Benef it Program Costs                                 $            -      $     -      $       -    $           -   $        16   $       16
     Imputed Costs                                                       -            -              -                -            64           64
     Reimbursable Costs                                                 11           23              5                1             8           48
  Total Intragovernmental Gross Costs                                   11           23              5                1            88          128
  Less: Intragovernmental Earned Revenue                                 -            -              -                -             1            1
  Intragovernmental Net Costs                                           11           23              5                1            87          127
  Gross Costs With the Public
     Grants                                                        10,941         28,372            26           4,865             97     44,301
     Commodity Program Costs                                          347            130            47               -             89        613
     Other                                                             15             16             2               2            107        142
     Total Gross Costs w ith the Public                            11,303         28,518            75           4,867            293     45,056
  Less: Earned Revenues f rom the Public                                -             17             -               -              -         17
  Net Costs w ith the Public                                       11,303         28,501            75           4,867            293     45,039
  Net Cost of Operations                                    $      11,314       $ 28,524     $      80    $      4,868    $       380   $ 45,166

                                                                                                            Women,
FY 2003                                                          Child          Food           Food       Inf ants, and   Commodity
                                                                Nutrition       Stamp        Donations      Children      A ssistance       Total
Program Costs
  Intragovernmental Gross Costs
     Benef it Program Costs                                 $               -   $     -      $      16    $           -   $         -   $       16
     Imputed Costs                                                          -         -             60                -             -           60
     Reimbursable Costs                                                     5        21             15                1             -           42
  Total Intragovernmental Gross Costs                                       5        21             91                1             -          118
  Less: Intragovernmental Earned Revenue                                    -         -              2                -             -            2
  Intragovernmental Net Costs                                               5        21             89                1             -          116
  Gross Costs With the Public
     Grants                                                        10,375         25,431            85           4,553             93     40,537
     Commodity Program Costs                                          534            152            45               -             67        798
     Other                                                             17             25           117               1              1        161
  Total Gross Costs w ith the Public                               10,926         25,608           247           4,554            161     41,496
  Less: Earned Revenues f rom the Public                                -             55            (1)              -              -         54
  Net Costs w ith the Public                                       10,926         25,553           248           4,554            161     41,442
  Net Cost of Operations                                    $      10,931       $ 25,574     $     337    $      4,555    $       161   $ 41,558




                                                                                                                                                     USDA
                                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                              223
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS S




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Farm and Foreign Agricultural Services
                                                                                                                                                                                    Intra-
                                                                                                                                                                                  M issio n
              F Y 2004                                                                                                                                                                                T o tal
                                                         C o m m o dity           Inco m e      C o nservatio n     F o reign      F arm Lo an       C ro p                         A rea
                                                         Operatio ns              Suppo rt        P ro gram s      P ro gram s     P ro gram s    Insurance           Other      Elim inatio n
         P ro gram C o sts
            Intrago vernm ental Gro ss C o sts
                B enefit P ro gram C o sts               $               -    $          -      $            -     $          -    $        -     $          6    $      164     $          -     $          170
                Im puted C o sts                                       40              766                 175               11             -                11          194             (999)               198
                R eim bursable C o sts                                   -               2                  12              21            283               43            (13)            (55)              293
                B o rro wing Interest Expense                           (1)             96                  17            207             277                 -             2               -               598
                Other                                                   4                -                   -            (187)             -                 -             -               -               (183)
            T o tal Intrago vernm ental Gro ss C o sts                 43              864                 204              52            560               60           347           (1,054)            1,076
            Less: Intrago vernm ental Earned R evenue                   6                7                   -             122            136                 -           191             (52)               410
            Intrago vernm ental N et C o sts                           37              857                 204             (70)           424               60           156           (1,002)              666
            Gro ss C o sts With the P ublic
                Grants                                              -                9,235               2,068             306               4            -                177              -            11,790
                Lo an C o st Subsidies                              -                     10                 -            (988)            (38)           -                  -              -             (1,016)
                Indem nities                                        -                      -                 -                -              -        2,829                  -              -            2,829
                C o m m o dity P ro gram C o sts                2,276                      -                 -                -              -            -                  -              -            2,276
                Stewardship Land A cquisitio n                      -                      -                26                -              -            -                  -              -                 26
                Other                                            (899)                   63                 (6)            (120)          (319)         981              1,139              -               839
            T o tal Gro ss C o sts with the P ublic             1,377                9,308               2,088            (802)          (353)        3,810              1,316              -           16,744
            Less: Earned R evenues fro m the P ublic              776                    114                 1              616           457           745                 19              -            2,728
            N et C o sts with the P ublic                         601                 9,194              2,087           (1,418)          (810)       3,065             1,297               -            14,016
            N et C o st o f Operatio ns                  $        638         $      10,051     $        2,291     $    (1,488)    $     (386)    $   3,125       $     1,453    $     (1,002)    $     14,682

                                                                                                                                                                                    Intra-
                                                                                                                                                                                  M issio n
              F Y 2003                                                                                                                                                                                T o tal
                                                         C o m m o dity           Inco m e      C o nservatio n     F o reign      F arm Lo an       C ro p                         A rea
                                                         Operatio ns              Suppo rt        P ro gram s      P ro gram s     P ro gram s    Insurance           Other      Elim inatio n
         P ro gram C o sts
            Intrago vernm ental Gro ss C o sts:          $         -                            $           -      $       -       $       -      $     -         $      -       $         -      $         -
                B enefit P ro gram C o sts                              -                 -                  -               -              -                6           156                 -              162
                Im puted C o sts                                       31               711                143               8             15                11          159             (899)              179
                R eim bursable C o sts                                  -               79                  38             (17)           278               32            161             (416)             155
                B o rro wing Interest Expense                          13              136                  19            179             343                 -             2                -             692
                Other                                                   5                 -                  -            188               -                 -             -                -              193
            T o tal Intrago vernm ental Gro ss C o sts                 49              926                 200            358             636               49           478            (1,315)           1,381
            Less: Intrago vernm ental Earned R evenue                   7                8                   -             99             221                 -          481             (397)              419
            Intrago vernm ental N et C o sts                           42              918                 200            259             415               49             (3)            (918)            962
            Gro ss C o sts With the P ublic
                Grants                                              -                 16,123             1,984             695              4             -                211              -           19,017
                Lo an C o st Subsidies                              -                     (7)                 -          (1,121)         (505)            -                  -              -           (1,633)
                Indem nities                                        -                      -                  -               -             -         3,768                  -              -           3,768
                C o m m o dity P ro gram C o sts                5,770                      -                  -               -             -             -                  -              -           5,770
                Stewardship Land A cquisitio n                      -                      -                48                -             -             -                  -              -               48
                Other                                             (55)                    83                (7)           (553)           773           844              1,210              -           2,295
            T o tal Gro ss C o sts with the P ublic             5,715                 16,199             2,025            (979)           272         4,612              1,421              -          29,265
            Less: Earned R evenues fro m the P ublic            3,212                    102                 (1)           491            660         1,072                 36              -           5,572
            N et C o sts with the P ublic                       2,503                16,097              2,026          (1,470)          (388)        3,540             1,385               -          23,693
            N et C o st o f Operatio ns                  $      2,545         $       17,015    $        2,226     $     (1,211)   $       27     $   3,589       $     1,382    $       (918)    $    24,655




   USDA
   224                                                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Natural Resources and Environment
                                                    National                    State and                                            Natural       Intra-Mission
    FY 2004                                       Forests and     Forest         Private     Wildland Fire   Working Capital        Resources           A rea
                                                  Grasslands     Research       Forestry     Management          Fund              Conservation      Elimination           Total
    Program Costs
      Intragovernmental Gross Costs
         Benef it Program Costs                   $      337     $     1    $            -   $         11    $           1     $            128    $          -        $       478
         Imputed Costs                                   243           -                 -              -                -                  122               -                365
         Reimbursable Costs                              385          39               122            188             (121)                 177              (2)               788
         Other                                             1           -                 -              -                -                    -               -                  1
      Total Intragovernmental Gross Costs                966          40               122            199             (120)                 427              (2)             1,632
      Less: Intragovernmental Earned Revenue              78          24                 7             10                2                   62              (2)               181
      Intragovernmental Net Costs                        888          16               115            189             (122)                 365               -              1,451
      Gross Costs With the Public
         Grants                                           709          2               169             11                -                   340               -             1,231
         Indemnities                                      (10)         -                 -              6                -                     1               -                (3)
         Stew ardship Land A cquisition                    87          -                 -              -                -                     -               -                87
         Other                                          1,628        296               126          1,467              221                 1,258               -             4,996
      Total Gross Costs w ith the Public                2,414        298               295          1,484              221                 1,599               -             6,311
      Less: Earned Revenues f rom the Public              413          2                 -             52               71                    16               -               554
      Net Costs w ith the Public                        2,001        296               295          1,432              150                 1,583               -             5,757
      Net Cost of Operations                            2,889        312               410          1,621               28                 1,948               -             7,208


                                                    National                    State and                                            Natural       Intra-Mission
    FY 2003                                       Forests and     Forest         Private     Wildland Fire   Working Capital        Resources           A rea
                                                  Grasslands     Research       Forestry     Management          Fund              Conservation      Elimination           Total
    Program Costs
      Intragovernmental Gross Costs
         Benef it Program Costs                   $      315     $     1    $            -   $          9    $           1     $            118    $          -        $       444
         Imputed Costs                                   229           -                 -              -                -                  109               -                338
         Reimbursable Costs                              297          24                13            202             (145)                  90              (2)               479
      Total Intragovernmental Gross Costs                841          25                13            211             (144)                 317              (2)             1,261
      Less: Intragovernmental Earned Revenue             130          48                 9            128                -                   43              (2)               356
      Intragovernmental Net Costs                        711         (23)                4             83             (144)                 274               -                905
      Gross Costs With the Public
         Grants                                           421          6               237              7                -                   177               -               848
         Indemnities                                       10          -                 -              1                -                     1               -                12
         Stew ardship Land A cquisition                   191          -                 -              -                -                     -               -               191
         Other                                          2,036        280               130          1,733              347                 1,109               -             5,635
      Total Gross Costs w ith the Public                2,658        286               367          1,741              347                 1,287               -             6,686
      Less: Earned Revenues f rom the Public              286         28                 1            104               62                    11               -               492
      Net Costs w ith the Public                        2,372        258               366          1,637              285                 1,276               -             6,194
      Net Cost of Operations                      $     3,083    $   235    $          370   $      1,720    $         141     $           1,550   $           -       $     7,099
                                                                                                                                                                   .




                                                                                                                                                                              USDA
                                          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                            225
NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS S




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Rural Development
                                                                                      A rea and
 FY 2004                                                            Housing            Regional         Energy Supply          A gricultural
                                            Mortgage Credit       A ssistance        Development         Conservation           Research               Total
 Program Costs
   Intragovernmental Gross Costs
      Benef it Program Costs                $           41    $                  4   $        18    $                5     $                   -   $              68
      Imputed Costs                                     60                       6            25                     7                         -                  98
      Reimbursable Costs                                42                       4            18                     5                         -                  69
      Borrow ing Interest Expense                      856                       -           562                 1,686                         -               3,104
   Total Intragovernmental Gross Costs                 999                      14           623                 1,703                         -               3,339
   Less: Intragovernmental Earned Revenue              128                       1           147                    73                         -                 349
   Intragovernmental Net Costs                         871                      13           476                 1,630                         -               2,990
   Gross Costs With the Public
      Grants                                             -                 875               815                      -                        2            1,692
      Loan Cost Subsidies                              275                  10               168                   (153)                       -              300
      Indemnities                                       (5)                  -                (2)                    (1)                       -               (8)
      Other                                            273                  29               188                    (67)                       -              423
   Total Gross Costs w ith the public                  543                 914             1,169                   (221)                       2            2,407
   Less: Earned Revenues f rom the Public            1,280                   -               624                  1,716                        -            3,620
   Net Costs w ith the Public                         (737)                914               545                 (1,937)                       2           (1,213)
   Net Cost of Operations                   $          134    $            927       $     1,021    $              (307)   $                   2   $        1,777

                                                                                      A rea and
 FY 2003                                                            Housing            Regional         Energy Supply          A gricultural
                                            Mortgage Credit       A ssistance        Development         Conservation           Research               Total
 Program Costs
   Intragovernmental Gross Costs:
      Benef it Program Costs                $           39    $                  4   $        17    $                4     $                   -   $              64
      Imputed Costs                                     58                       5            25                     7                         -                  95
      Reimbursable Costs                                39                       4            16                     5                         -                  64
      Borrow ing Interest Expense                      892                       -           586                 1,708                         -               3,186
   Total Intragovernmental Gross Costs               1,028                      13           644                 1,724                         -               3,409
   Less: Intragovernmental Earned Revenue              101                       1           142                    78                         -                 322
   Intragovernmental Net Costs                         927                      12           502                 1,646                         -               3,087
   Gross Costs With the Public
      Grants                                             1                 793               732                      -                        4               1,530
      Loan Cost Subsidies                              153                   2               226                    474                        -                 855
      Indemnities                                        5                   -                 2                      1                        -                   8
      Other                                          1,217                  27               601                    412                        -               2,257
   Total Gross Costs w ith the Public                1,376                 822             1,561                    887                        4               4,650
   Less: Earned Revenues f rom the Public            1,482                   -               607                  1,909                        -               3,998
   Net Costs w ith the Public                         (106)                822               954                 (1,022)                       4                 652
   Net Cost of Operations                   $          821    $            834       $     1,456    $               624    $                   4   $           3,739




   USDA
    226                                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                     NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Research, Education and Economics
                                                                                      National       Cooperative State   Intra-Mission
  FY 2004                                            Agricultural       Economic     Agricultural   Research Education        Area
                                                      Research          Research      Statistics      and Extension       Elimination         Total
  Program Costs
    Intragovernmental Gross Costs
       Benefit Program Costs                         $         88   $           5    $         12   $               5    $           -    $           110
       Imputed Costs                                           64               9              15                   8                -                 96
       Reimbursable Costs                                      21              13              14                  20              (26)                42
      Other                                                     -               1               -                   -                -                  1
    Total Intragovernmental Gross Costs                       173              28              41                  33              (26)               249
    Less: Intragovernmental Earned Revenue                     61               2              16                  44              (26)                97
    Intragovernmental Net Costs                               112              26              25                 (11)               -                152
    Gross Costs W ith the Public
      Grants                                                   19               1               -               1,062                -           1,082
      Indemnities                                               1               -               -                   -                -               1
      Other                                                 1,181              52             115                  41                -           1,389
    Total Gross Costs with the Public                       1,201              53             115               1,103                -           2,472
    Less: Earned Revenues from the Public                      24               -               3                   9                -              36
    Net Costs with the Public                               1,177              53             112               1,094                -           2,436
    Net Cost of Operations                           $      1,289   $          79    $        137   $           1,083    $           -    $      2,588

                                                                                      National       Cooperative State   Intra-Mission
  FY 2003                                            Agricultural       Economic     Agricultural   Research Education        Area
                                                      Research          Research      Statistics      and Extension       Elimination         Total
  Program Costs
    Intragovernmental Gross Costs:
       Benefit Program Costs                         $         80   $           5    $         11   $               5    $           -    $           101
       Imputed Costs                                           56               8              14                   8                -                 86
       Reimbursable Costs                                      40              18              24                  34              (57)                59
    Total Intragovernmental Gross Costs                       176              31              49                  47              (57)               246
    Less: Intragovernmental Earned Revenue                     71               3              12                  10              (57)                39
    Intragovernmental Net Costs                               105              28              37                  37                -                207
    Gross Costs W ith the Public
      Grants                                                   30               2               -               1,023                -           1,055
      Indemnities                                               1               -               -                   -                -               1
      Other                                                 1,102              51             115                  77                -           1,345
    Total Gross Costs with the Public                       1,133              53             115               1,100                -           2,401
    Less: Earned Revenues from the Public                      11              (1)              3                  15                -              28
    Net Costs with the Public                               1,122              54             112               1,085                -           2,373
    Net Cost of Operations                           $      1,227   $          82    $        149   $           1,122    $           -    $      2,580




                                                                                                                                                USDA
                                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                            227
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS S




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
Marketing and Regulatory Programs
                                                                                                 Grain
                                                                             Animal and       Inspection,   Intra-Mission
   FY 2004
                                                              Agricultural   Plant Health    Packers and         Area
                                                              Marketing       Inspection     Stockyards      Elimination         Total
   Program Costs
     Intragovernmental Gross Costs
        Benefit Program Costs                                 $         27   $         63    $          4   $           -    $         94
        Imputed Costs                                                   27             77              10               -             114
        Reimbursable Costs                                              32            101               5              (8)            130
        Total Intragovernmental Gross Costs                             86            241              19              (8)            338
     Less: Intragovernmental Earned Revenue                              2             31               2              (8)             27
     Intragovernmental Net Costs                                        84            210              17               -             311
        Grants                                                           4             52               -               -              56
        Indemnities                                                      -             40               -               -              40
        Other                                                          836            888              57               -           1,781
        Total Gross Costs with the Public                              840            980              57               -           1,877
     Less: Earned Revenues from the Public                             178            332              35               -             545
     Net Costs with the Public                                         662            648              22               -           1,332
     Net Cost of Operations                                   $        746   $        858    $         39   $           -    $      1,643

                                                                                                 Grain
                                                                             Animal and       Inspection,   Intra-Mission
   FY 2003
                                                              Agricultural   Plant Health    Packers and         Area
                                                              Marketing       Inspection     Stockyards      Elimination         Total
   Program Costs
     Intragovernmental Gross Costs:
        Benefit Program Costs                                 $         25   $         63    $         10   $           -    $         98
        Imputed Costs                                                   23             79               9               -             111
        Reimbursable Costs                                           1,486            100               3             (10)          1,579
        Other                                                            -             (1)              -               -              (1)
        Total Intragovernmental Gross Costs                          1,534            241              22             (10)          1,787
     Less: Intragovernmental Earned Revenue                              6             18               2             (10)             16
     Intragovernmental Net Costs                                     1,528            223              20               -           1,771
     Gross Costs W ith the Public
        Grants                                                           4             67               -               -              71
        Indemnities                                                      -             59               -               -              59
        Other                                                          236            960              45               -           1,241
        Total Gross Costs with the Public                              240          1,086              45               -           1,371
     Less: Earned Revenues from the Public                             172            301              31               -             504
     Net Costs with the Public                                          68            785              14               -             867
     Net Cost of Operations                                   $      1,596   $      1,008    $         34   $           -    $      2,638




  USDA
   228                                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                          NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 18. OTHER GROSS COSTS WITH THE PUBLIC
In FY 2004, other costs of $624 million include the following: risk management program delivery ($863
million), interest expense subsidy ($846 million), other interest expense ($366 million), adjustments to
allowance for bad debt expense ($2,525 million), other services including depreciation and assets below the
capitalization threshold ($1,458 million) and receivable for program overpayments ($384 million).
In FY 2003, other costs of $4,495 million include the following; risk management program delivery ($729
million), interest expense subsidy ($1,604 million), interest expense ($141 million), adjustments to allowance
for bad debt expense ($617 million), other services including depreciation and assets below the capitalization
threshold ($1,404 million).


        Object Class:                                                    FY 2004          FY 2003
           Personnel Compensation and Benefits                          $   6,724        $   6,727
           Travel and Transportation                                          357              366
           Rent, Communications, and Utilities                                302              270
           Printing and Reproduction                                            3                4
           Advisory and Assistance Services                                    94              170
           Operation and Maintenance                                        1,230            1,567
           Research and Development                                           627              596
           Supplies and Materials                                             931               32
           Other                                                              624            4,495
        Total Other Gross Costs with the Public                         $ 10,892         $ 14,227




                                                                                                        USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              229
NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 19. GROSS COST AND EARNED REVENUE BY BUDGET FUNCTIONAL
CLASSIFICATION
 FY 2004
                                                                                              Earned
 Budget Functional Classification:
                                                                         Gross Cost           Revenue         Net Cost
 150   International Affairs                                            $       (177)       $        295    $       (472)
 270   Energy                                                                  1,473               1,790            (317)
 300   Natural Resources and Environment                                       7,525                 731           6,794
 350   Agriculture                                                            67,534               3,516          64,018
 370   Commerce and Housing Credit                                             1,542               1,408             134
 450   Community and Regional Development                                      1,815                 771           1,044
 550   Health                                                                    958                 123             835
 600   Income Security                                                         1,558                   3           1,555
 800   General Government                                                        436                   6             430
 950   Undistributed Offsetting Receipts                                           1                   -               1
       Total                                                            $     82,665        $      8,643    $     74,022

 Intra gove rnme nta l Gross Cost a nd Ea rned Re ve nue by Budget Functiona l Classifica tion:

                                                                                                Earned
 Budget Functional Classification:
                                                                         Gross Cost             Revenue       Net Cost
 270   Energy                                                           $      1,702        $          74   $      1,628
 300   Natural Resources and Environment                                       1,637                  182          1,455
 350   Agriculture                                                             1,210                  452            758
 370   Commerce and Housing Credit                                               999                  128            871
 450   Community and Regional Development                                        625                  147            478
 550   Health                                                                    234                    8            226
 600   Income Security                                                            23                    2             21
       Total                                                            $      6,430        $         993   $      5,437




 FY 2003
                                                                                              Earned
 Budget Functional Classification:
                                                                         Gross Cost           Revenue         Net Cost
 150   International Affairs                                            $       (159)       $        199    $       (358)
 270   Energy                                                                  2,611               1,987             624
 300   Natural Resources and Environment                                       7,339                 759           6,580
 350   Agriculture                                                            76,763               6,363          70,400
 370   Commerce and Housing Credit                                             2,404               1,582             822
 450   Community and Regional Development                                      2,251                 750           1,501
 500   Education, Training, Employment, and Social Services                       (8)                  -               (8)
 550   Health                                                                    954                 108             846
 600   Income Security                                                         2,326                   1           2,325
 800   General Government                                                        608                  91             517
       Total                                                            $     95,089        $     11,840    $     83,249

 Intra gove rnme nta l Gross Cost a nd Ea rned Re ve nue by Budget Functiona l Classifica tion:

                                                                                              Earned
 Budget Functional Classification:
                                                                         Gross Cost           Revenue         Net Cost
 150   International Affairs                                            $        -          $        -      $        -
 270   Energy                                                                  1,724                  79           1,645
 300   Natural Resources and Environment                                       1,268                 352             916
 350   Agriculture                                                             1,522                 388           1,134
 370   Commerce and Housing Credit                                             1,028                 101             927
 450   Community and Regional Development                                        646                 142             504
 550   Health                                                                    221                   3             218
 600   Income Security                                                         1,479                   2           1,477
 800   General Government                                                           -                  6               (6)
       Total                                                            $      7,888        $      1,073    $      6,815




 USDA
 230                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 20. PRIOR PERIOD ADJUSTMENTS
In FY 2004, USDA corrected its FY 2003 financial statements as follows:
FS corrected errors in amounts for alignment of budgetary and proprietary account relationships in various
special and trust funds; unsupported balances in various suspense and deposit clearing funds; Fund Balance
with Treasury and associated custodial liability; and certain revenue transactions.
FNS, NRCS, and APHIS corrected errors in amounts for improper recognition of appropriations used.
RMA corrected errors in amounts for FY 2003 obligations and obligated balances carried forward from FY
2002. Additionally, RMA changed its accounting policy for funds held in escrow for crop insurance losses.
CCC corrected errors in amounts for intragovernmental costs previously recorded as costs with the public.
The Department corrected errors in amounts recorded for non-USDA disbursements from the Payroll
Accounting System for agencies serviced by the NFC.
The effects of these corrections and certain reclassifications made to conform to the current year presentation
are reflected in the schedules as follows:




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              231
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                                CONSOLIDATED BALANCE SHEET
                                                   As of September 30, 2003
                                                          (in millions)



                                                                      AS
                                                                  PREVIOUSLY                                                             AS
                                                                   REPORTED                                                           RESTATED
                                                                     2003    USDA        RMA     NRCS APHIS      FNS       FS           2003
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                            $    36,480    $   -   $   -   $   -   $   -   $     -       (30) $     36,450
   Investments (Note 5)                                                    45        -       -       -       -         -         -            45
   Accounts Receivable, Net (Note 6)                                      666        -       -       -       -         -       (20)          646
   Other (Note 10)                                                          7        -       -       -       -         -         -             7
 Total Intragovernmental                                               37,198        -       -       -       -         -       (50)      37,148

 Cash and Other Monetary Assets (Note 4)                                  141        -    100        -       -         -        -           241
 Investments (Note 5)                                                      15        -      -        -       -         -        -            15
 Accounts Receivable, Net (Note 6)                                      1,755        -      -        -       -         -       14         1,769
 Loans Receivable and Related Foreclosed Property, Net (Note 7)        73,590        -      -        -       -         -        -        73,590
 Inventory and Related Property, Net (Note 8)                             278        -      -        -       -         -        -           278
 General Property, Plant, and Equipment, Net (Note 9)                   4,919        -      -        -       -         -        -         4,919
 Other (Note 10)                                                          245        -   (100)       -       -         -        -           145

T otal Assets (Note 2)                                                $118,141 $     -   $   -   $   -   $   -   $     -       (36)     $118,105

Liabilities:
  Intragovernmental
    Accounts Payable                                                    1,206    $   -   $   -   $   -   $   -   $     -   $     - $      1,206
    Debt (Note 12)                                                     76,140        -       -       -       -         -         -        76,140
    Other (Note 14)                                                    19,942        -       -       -       -         -       (24)       19,918
  Total Intragovernmental                                              97,288        -       -       -       -         -       (24)      97,264

 Accounts Payable                                                       3,614       -        -       -       -         -         -         3,614
 Loan Guarantee Liability (Note 7)                                        883       -        -       -       -         -         -           883
 Debt Held by the Public (Note 12)                                         80       -        -       -       -         -         -            80
 Federal Employee and Veterans Benefits                                     -     940        -       -       -         -         -           940
 Environmental and Disposal Liabilities (Note 13)                          21       -        -       -       -         -         -            21
 Other (Note 14 & 15)                                                  13,860    (940)       -       -       -         -       (59)       12,861
 T otal Liabilities (Note 11)                                         115,746       -        -       -       -         -       (83)     115,663

 Commitments and Contingencies (Note 16)

Net Position:
 Unexpended Appropriations                                             16,810        -       -    478   311   4,761 (168)                 22,192
 Cumulative Results of Operations                                     (14,415)       -       -   (478) (311) (4,761) 215                 (19,750)
 T otal Net Position                                                    2,395        -       -      -     -       -   47                  2,442

T otal Liabilities and Net Position                               $ 118,141      $   -   $   -   $   -   $   -   $     -       (36) $ 118,105




 USDA
  232                           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                         NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                 CONSOLIDATED STATEMENT OF NET COST
                                   For the Year Ended September 30, 2003
                                                 (in millions)


                                                       AS
                                                   PREVIOUSLY
                                                    REPORTED                                  AS RESTATED
Program Costs:                                        2003        USDA      FS      CCC           2003

 Intragovernmental Gross Costs:                    $      7,707   (7,707)
   Benefit Program Costs                                     -     1,034                      $     1,034
   Imputed Costs                                             -       581                              581
   Reimbursable Costs                                        -     2,200                            2,200
   Borrowing Interest Expense                                -     3,878                            3,878
   Other                                                     -         7             188              195
   Total Intragovernmental Gross Costs                   7,707        (7)      -     188            7,888
 Less: Intragovernmental Earned Revenues                 1,089               (16)                   1,073
 Intragovernmental Net Costs                             6,618        (7)     16     188            6,815

 Gross Costs W ith the Public:
   Grants                                               63,099        (1)                          63,098
   Loan Cost Subsidies                                    (778)                                      (778)
   Indemnities                                           3,848                                      3,848
   Commodity Program Costs                               6,568        (1)                           6,567
   Stewardship Land Acquisition                            239                                        239
   Other (Note 18)                                      14,396       (22)    41      (188)         14,227
   Total Gross Costs with the Public                    87,372       (24)    41      (188)         87,201
 Less: Earned Revenues from the Public                  10,799       (30)    (2)                   10,767
 Net Costs with the Public                              76,573         6     43      (188)         76,434

 Net Cost of Operations (Notes 17 & 19)            $    83,191        (1)    59           -   $    83,249




                                                                                                  USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                         233
                                                                                                                                    NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                                                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                        For the Year Ended September 30, 2003
                                                                                                      (in millions)



                                                           A S P R EVIOUSLY
                                                          R EP OR T ED 2003               USD A                   NRCS                     A P H IS                   FNS                       FS            A S R EST A T ED 2003
                                                                       Unexpen                 Unexpen                 Unexpen                    Unexpen                 Unexpen                  Unexpen                  Unexpen
                                                        C umulative      ded     C umulative              C umulative             C umulative                C umulative             C umulative              C umulat ive
                                                                                                  ded                     ded                        ded                     ded                      ded                      ded
                                                        R esults o f             R esult s o f            R esults o f            R esult s o f              R esults o f            R esults o f             R esults o f
                                                                      A ppro pri               A ppro pri              A ppro pri                 A ppro pri              A ppro pri               A ppro pri               A ppro pri
                                                        Operatio ns              Operat io ns             Operatio ns             Operat io ns               Operatio ns             Operat io ns             Operatio ns
                                                                        atio ns                 atio ns                 atio ns                    atio ns                 atio ns                  atio ns                  atio ns
B eginning B alances                                    $     (15,443) $    26,196        744 $      (577)                                                                                                        $   (14,699) $ 25,619
Prior Period Adjustments (Note 20)                                744        (577)       (744)        577            -          -              -          -             -          -          258        (153)            258       (153)
Beginning Balances, as adjusted                               (14,699)      25,619          -           -            -          -              -          -             -          -          258        (153)         (14,441)  25,466

Budgetary Financing Sources:
    Appropriations Received                                         -       76,572          -           -            -          -              -          -             -          -             -           -              -      76,572
    Appropriations Transfer In (Out)                                -          (219)        -           -            -          -              -          -             -          -             -           -              -         (219)
    Other Adjustments(recissions, etc.)                           (16)       (4,812)        1           -            -          -              -          -             -          -             -          (1)           (15)      (4,813)
    Appropriations Used                                       80,373       (80,350)        (2)          -         (478)       478           (311)       311        (4,761)     4,761            16        (14)        74,837       (74,814)
    Nonexchange Revenue                                             6             -         -           -            -          -              -          -             -          -             -           -              6            -
    Donations and Forfeitures of Cash                             35              -         1           -            -          -              -          -             -          -             -           -            36             -
    Transfers In (Out) without Reimbursement                   3,790              -         -           -            -          -              -          -             -          -             -           -         3,790             -

Other Financing Sources:
      Donations and Forfeitures of Property                         1            -          -           -            -          -              -          -             -          -             -          -               1           -
      Transfers In (Out) without Reimbursement                 (2,019)           -          -           -            -          -              -          -             -          -             -          -          (2,019)          -
      Imputed Financing from Costs Absorbed by Others             581            -          -           -            -          -              -          -             -          -             -          -             581           -
      Other                                                      724             -         (1)          -            -          -              -          -             -          -             -          -            723            -
Total Financing Sources                                       83,475        (8,809)        (1)          -         (478)       478           (311)       311        (4,761)     4,761            16        (15)        77,940       (3,274)

Net Cost of Operations                                        (83,191)                      1                        -                         -                        -                     (59)                    (83,249)

Ending B alances                                        $     (14,415) $    16,810          -    $      0         (478) $     478           (311) $     311        (4,761) $   4,761          215    $   (168) $      (19,750) $   22,192




     USDA
      234                                                                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                            COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                  For the Year Ended September 30, 2003
                                                                (in millions)



                                                         AS PREV IOUSLY REPORTED 2003               USDA            RM A            FS
                                                                                                                                                      AS RESTATED 2003
                                                                   Non-Budge ta ry           Non-Budgetary                                  Non-Budge ta ry
                                                                     Financing                 Fina ncing                                     Financing
                                                         Budgetary                 Budgetary               Budge ta ry Budge tary Budgetary
Budgeta ry Resources:                                                Accounts                  Accounts                                       Accounts
 Budget Authority:
   Appropriations Received                               $   83,967 $             -     $      -     $      -   $           -   $          -    $    83,967 $             -
   Borrowing Authority (Note 22 & 23)                        49,343          10,257            -            -               -              -         49,343          10,257
   Net Transfers                                               (189)              -            -            -               -              -           (189)              -
 Unobligated Balances:
   Beginning of Period (Note 24)                             18,627            5,264           -            -        1,170                (9)        19,788           5,264
   Net Transfers, Actual                                       (439)               -           -            -            -               (14)          (453)              -
 Spending Authority From Offsetting Collections:
   Earned
     Collected                                               24,301            7,721           -           1                -              1         24,302           7,722
     Change in Receivables from Federal Sources               1,596               62           -           -                -              6          1,602              62
   Change in Unfilled Customer Orders
     Advances Received                                         289                -            -            -            -                 -        289                   -
     W ithout Advances from Federal Sources                     47               57            -           (1)           -                 -         47                  56
 Recoveries of Prior Year Obligations                        3,854              437           (1)           -            -                12      3,865                 437
 Permanently not Available                                 (57,168)          (4,275)           1            -            -                 -    (57,167)             (4,275)
 Total Budgetary Resources                               $ 124,228 $         19,523 $          - $          - $      1,170      $         (4) $ 125,394 $            19,523

Status of Budgetary Resource s:
  Obligations Incurred (Note 21):
    Direct                                                   70,628          13,721            -            -        1,167               145         71,940          13,721
    Reimbursable                                             36,758               -            -            -            -               (66)        36,692               -
  Unobligated Balance:
    Apportioned                                              5,832            5,343           11            -            3                 4      5,850               5,343
    Exempt from Apportionment                                  328                1            -            -            -                 -        328                   1
    Other Available                                              9                -            -            -            -                 -          9                   -
  Unobligated Balance not Available                         10,673              458          (11)           -            -               (87)    10,575                 458
  Total Status of Budgetary Resources                    $ 124,228     $     19,523     $      - $          -   $    1,170      $         (4) $ 125,394        $     19,523

Relationship of Obligations to Outla ys:
 Obligated Balance, Net, Beginning of Period (Note 24)   $   19,211    $     13,762     $      -     $      -   $   (1,054) $             23    $    18,180    $     13,762
 Obligations Incurred                                             -               -            -            -        1,167                79        108,632          13,721
  Less:
   Recoveries of Prior Year Obligations                           -                -           -            -                             12          3,865               437
   Change from Federal Sources                                    -                -           -            -                              6          1,649               118
   Obligated Balance, Net, End of Period:
      Accounts Receivable                                    (2,645)           (170)           -            -                             (6)        (2,651)           (170)
      Unfilled Customer Orders from Federal Sources            (313)           (732)           -            -                              -           (313)           (732)
      Undelivered Orders                                     14,143          15,351            -            -                            135         14,278          15,351
      Accounts Payable                                        9,830             422            -            -              97            (47)         9,880             422
   Total Obligated Balance, Net, End of Period           $   21,015 $        14,871 $          -    $       -   $          97   $         82 $       21,194 $        14,871

   Disbursements                                          100,262            12,058         (176)          (1)             16              2  100,104                12,057
   Collected and Advances Received                         (24,590)          (7,721)                       (1)              -             (1)  (24,591)              (7,722)
  Outlays                                                   75,672            4,337         (176)          (2)             16              1    75,513                4,335
       Less:Offsetting Receipts                              1,550            1,293          213           (1)              -              -     1,763                1,292
  Net Outlays                                            $ 74,122 $           3,044 $       (389) $        (1) $           16   $          1 $ 73,750 $               3,043




                                                                                                                                                                   USDA
                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                235
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




                                                  CONSOLIDATED STATEMENT OF FINANCING
                                                    For the Year Ended September 30, 2003
                                                                  (in millions)



                                                                                                          AS PREV IOUSLY                                                   AS RESTATED
                                                                                                          REPORTED 2003 USDA         RMA       APHIS CCC           FS          2003
Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                                                   $   121,107     $  - $ 1,167         $      -    $   -   $ 79    $   122,353
   Less: Spending authority from offsetting collections and recoveries                                         38,364       (1)      -                -        -     19         38,382
   Obligations net of offsetting collections and recoveries                                                     82,743       1   1,167                -        -     60         83,971
   Less: Offsetting receipts                                                                                    2,843      212                                                   3,055
   Net Obligations                                                                                              79,900    (211) 1,167                 -        -    60          80,916

Other Resources
   Donations and forfeitures of property                                                                            1           -          -          -        -      -              1
   Transfers In(Out) without reimbursement                                                                     (2,019)          -          -          -        -      -         (2,019)
   Imputed financing from costs absorbed by others                                                                581           -          -          -        -      -            581
   Other                                                                                                          724          (1)         -          -        -      -            723
   Net other resources used to finance activities                                                                 (713)        (1)         -          -        -      -           (714)

   T otal resources used to finance activities                                                                  79,187    (212)      1,167            -        -    60          80,202

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                                                   400           -          -          -        -   133             533
  Resources that fund expenses recognized in prior periods                                                      2,354           2          -          -        -     -           2,356
  Budgetary offsetting collections and receipts that do not affect net cost of operations
    Credit program collections which increase liabilities for loan guarantees or allowances for subsidy       (14,829)          -          -         -       -       -         (14,829)
    Other                                                                                                     (11,835)          1          -       203       -     (70)        (11,701)
  Resources that finance the acquisition of assets                                                             28,477           -          -         -     322       -          28,799
  Other resources or adjustments to net obligated resources that do not affect net cost of operations           2,644          (3)         -         -       -       -           2,641

   Total resources used to finance items not part of the net cost of operations                                  7,211          -          -       203     322      63           7,799

   T otal resources used to finance the net cost of operations                                                  71,976    (212)      1,167         (203) (322)       (3)        72,403

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                                                               42           -         -           -        -     -              42
  Increase in environmental and disposal liability                                                                  1           -         -           -        -     -               1
  Upward/Downward reestimates of credit subsidy expense                                                          (315)          -         -           -        -     -            (315)
  Decrease in exchange revenue receivable from the public                                                         597          (1)      177                    -   (15)            758
  Other                                                                                                         2,839         212    (1,344)       437         -    (3)          2,141
  Total components of Net Cost of Operations that will require or generate
    resources in future periods (Note 28)                                                                        3,164        211    (1,167)       437         -   (18)          2,627

Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                   522           -          -          -      -       -             522
  Revaluation of assets or liabilities                                                                            (38)          -          -          -    322       -             284
  Other                                                                                                         7,567           -          -       (234)     -      80           7,413
  Total components of Net Cost of Operations that will not require or generate resources                         8,051          -          -       (234)   322      80           8,219

   T otal components of Net Cost of Operations that will not require or generate
    resources in the current period                                                                             11,215        211    (1,167)       203     322      62          10,846

   Net Cost of Operations                                                                                 $     83,191         (1)         -          -        -    59     $    83,249




 USDA
   236                                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                          NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

       FY 2004
                                                          Direct         Reimbursable           Total
       Apportionment by Fiscal Quarter                   $ 69,234        $       891         $ 70,125
       Apportionment for Special Activities                19,897             26,702            46,599
       Exempt from Apportionment                            1,036                 49             1,085
       Total Obligations Incurred                        $ 90,167        $    27,642         $ 117,809


       FY 2003
                                                          Direct         Reimbursable           Total
       Apportionment by Fiscal Quarter                   $ 60,440        $     1,561         $ 62,001
       Apportionment for Special Activities                23,826             35,113            58,939
       Exempt from Apportionment                            1,395                 18             1,413
       Total Obligations Incurred                        $ 85,661        $    36,692         $ 122,353



NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2004, and 2003 was $38,828 and $27,133 million, respectively.



NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the
purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt
related to foreign assistance programs. The permanent indefinite borrowing authority includes both interest
bearing and non–interest notes. These notes are drawn upon daily when disbursements exceed deposits. Notes
payable under the permanent indefinite borrowing authority have a one-year term. On January 1 of each year,
USDA refinances its outstanding borrowings, including accrued interest, at that month’s borrowing rate.
Additionally, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit
programs to finance disbursements on post-credit reform, direct credit obligations and credit guarantees. In
accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October
1, for the entire fiscal year, based on annual estimates of the difference between the amount appropriated
(subsidy) and the amount to be disbursed to the borrower. Repayment under this agreement may be, in whole or
in part, prior to maturity by paying the principal amount of the borrowings plus accrued interest to the date of
repayment. Interest is paid on these borrowings based on weighted average interest rates for the cohort, to
which the borrowings are associated. Interest is earned on the daily balance of uninvested funds in the credit
reform financing funds maintained at Treasury. The interest income is used to reduce interest expense on the
underlying borrowings.
USDA has authority to borrow from the Federal Financing Bank (FFB) and private investors in the form of
Certificates of Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an
unconditional USDA repayment guarantee. CBOs outstanding with the FFB and private investors generally are
secured by unpaid loan principal balances. CBOs outstanding are related to pre-credit reform loans and no
longer used for program financing.
FFB’s CBOs are repaid as they mature. They are not related to any particular group of loans. Borrowings made
to finance loans directly between the borrower and FFB mature and are repaid as the related group of loans



                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              237
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




become due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings, except in
those situations where an FFB funded loan is restructured and the terms of the loan are modified.
While prepayments can be made on Treasury borrowings without a penalty; they cannot be made on FFB CBOs
without a penalty.
Funds also may be borrowed from private lending agencies and others. USDA reserves a sufficient amount of
its borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by
agencies and others. All bonds, notes, debentures and similar obligations issued by the Department are subject
to approval by the Secretary of the Treasury. Reservation of borrowing authority for these purposes has not
been required for many years.



NOTE 24. ADJUSTMENTS TO BEGINNING BALANCE OF BUDGETARY
RESOURCES
In FY 2004 and 2003, RMA corrected errors in amounts previously reported. The effect of these corrections
increased obligated and unobligated balances $97 million and $3 million, respectively in FY 2004. It also
decreased obligated and increased unobligated balances $1,054 million and $1,170 million, respectively, in FY
2003.
In FY 2004 and 2003, FS corrected errors in amounts previously reported. The effect of these corrections was to
increase obligated and decreased unobligated balances by $82 million, respectively, in FY 2004. It also
increased obligated and decreased unobligated balances $227 million and $379 million, respectively, in FY
2003.
In FY 2003, FNS corrected errors in amounts previously reported. The effect of these corrections decreased
obligated and increased unobligated balances $532 million and $460 million, respectively.


                                                     FY 2004                               FY 2003
                                            Obligated      Unobligated            Obligated      Unobligated
Beginning balances                          $ 35,886       $ 22,644               $ 33,300       $ 23,801
Adjustments                                        179             (80)               (1,358)         1,251
Beginning balances, as adjusted             $ 36,065       $ 22,564               $ 31,942       $ 25,052




NOTE 25. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform
programs, 2) certain costs of the crop insurance program, and 3) certain costs associated with FS programs.
The permanent indefinite appropriations for credit reform mainly are available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing provisions
of law without further action by Congress after transmittal of the budget for the year involved. While they are
treated as permanent the first year they become available and in succeeding years, they are not stated as specific
amounts but are determined by specified variable factors, such as cash needs for liquidating accounts and
information about the actual performance of a cohort or estimated changes in future cash flows of the cohort in
the program accounts.
The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy,
delivery expenses, losses in excess of premiums and research and delivery costs.


 USDA
  238                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                           NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




The permanent indefinite appropriation for FS programs are used to fund Recreation Fee Collection Costs,
Brush Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and
Improvements, Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber
Salvage Sales and Operations, and Maintenance of Quarters. Each of these permanent indefinite appropriations
is funded by receipts made available by law, and is available until expended.

NOTE 26. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED
BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance.
It represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity
in an expired account for an additional five fiscal years. The unobligated balance remains available to make
legitimate obligation adjustments, i.e., to record previously unrecorded obligations and make upward
adjustments in previously underestimated obligations for five years. At the end of the fifth year, the authority is
canceled. Thereafter, the authority is unavailable for any purpose.
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions
section at the end of the appropriations act.

NOTE 27. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
The differences between the FY 2003 Statement of Budgetary Resources and the FY 2003 actual numbers
presented in the FY 2005 Budget of the United States Government (Budget) are summarized below.
The Budget excludes expired accounts that are no longer available for new obligations. Audit adjustments were
made subsequent to the Budget submission. Disbursements from the payroll accounting system were included
erroneously in outlays. The Budget excludes resources of the crop insurance fund related to the reclassification
of amounts held in escrow and certain adjustments to obligated balances made subsequent to the Budget
submission. Unavailable collections for the Native American Institution Endowment Fund were included as
budgetary resources in the Statement of Budgetary Resources.
The Budget includes the Milk Market Orders Assessment Fund. Employees of the Milk Market Administrators
participate in the Federal retirement system even though these funds are unavailable for use by the Department.
Other items mainly consist of balances in suspense accounts and differences due to rounding that are excluded
from the Budget.
A comparison between the FY 2004 Statement of Budgetary Resources and the FY 2004 actual numbers
presented in the FY 2006 Budget cannot be performed as the FY 2006 Budget is not yet available. The FY 2006
Budget is expected to be published in February 2005 and will be available from the Government Printing
Office.




                                                                                                           USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                239
 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




        FY 2003
                                                                                Budgetary
                                                                                Resources              Outlays
        Combined Statement of Budgetary Resources                               $ 144,917          $     79,848
        Reconciling Items:
             Expired accounts                                                      (9,605)                 (251)
             A udit adjustments                                                        371                   (3)
             Payroll A ccounting System                                                  -                 177
             Crop Insurance Fund                                                   (1,166)                  (15)
             Native A merican Institution Endow ment Fund                              (53)                  (8)
             Milk Market Orders A ssessment Fund                                        40                    2
             Other                                                                      47                  29
        Budget of the United States Government                                  $ 134,551          $     79,779


NOTE 28. RELATIONSHIP BETWEEN LIABILITIES NOT COVERED BY
BUDGETARY RESOURCES ON THE BALANCE SHEET AND THE CHANGE IN
COMPONENTS REQUIRING OR GENERATING RESOURCES IN FUTURE PERIODS
The change in liabilities not covered by budgetary resources should be the same as the change in components
requiring or generating resources in future periods. This excludes other components requiring or generating
resources in future periods that are reported separately. The components requiring or generating resources in
future periods as reported on the Statement of Financing differ from the components requiring or generating
resources in future periods. They are reflected below for the portion of liabilities not covered by budgetary
resources.
                                                                                    FY 2004             FY 2003
        Current year liabilities not covered by budgetary resources,               $   3,697            $ 5,141
        as disclosed in Note 11
        Prior year liabilities not covered by budgetary resources                       (5,141)          (4,314)
        Increase (Decrease) in liabilities not covered by budgetary resources           (1,444)             827
        Upward/Downward Reestimates of Credit Subsidy Expense                             (341)            (315)
        Decrease in Exchange Revenue Receivable from the Public                              534            758
        Other                                                                           3,080             1,357
        Components requiring or generating resources in future periods,
        as reported on the Statement of Financing                                  $    1,829           $ 2,627



NOTE 29. DESCRIPTION OF TRANSFERS THAT APPEAR AS A RECONCILING
ITEM ON THE STATEMENT OF FINANCING
Allocation transfers that appear as reconciling items on the Statement of Financing include funds received from
the U.S. Department of Labor for training underemployed youths, the U.S. Department of Transportation for
maintenance and upkeep of Federal highways traversing National Forest System lands, the Appalachian
Regional Commission and Economic Development Administration for accounting services, and funds
transferred to the Agency for International Development for transportation in connection with foreign
commodity donations.




 USDA
  240                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                          NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




NOTE 30. INCIDENTAL CUSTODIAL COLLECTIONS
The majority of custodial collections represents National Forest Fund receipts from the sale of timber and other
forest products. The balance represents miscellaneous general fund receipts, such as collections on accounts
receivable related to canceled year appropriations, civil monetary penalties and interest, and commercial fines
and penalties. Custodial collection activities are considered immaterial and incidental to the mission of the
Department.


Revenue Activity:                                                                 FY 2004             FY 2003
     Sources of Collections:
     Miscellaneous                                                            $         62        $        134
Total Cash Collections                                                                  62                 134
Accrual Adjustments                                                                      9                 (13)
Total Custodial Revenue                                                                 71                 121
Disposition of Collections:
Transferred to Others:
     Treasury                                                                           (7)                (10)
     States and Counties                                                               (52)                (22)
( Increase )/Decrease in Amounts Yet to be Transferred                                 (12)                (87)
Retained by the Reporting Entity                                                         -                  (2)
Net Custodial Activity                                                        $          -        $          -



NOTE 31. DEDICATED COLLECTIONS
The FS recognizes the following funds as dedicated collections. These funds finance the enhancement and
maintenance of National Forest System lands including reforestation. Donations are handled on the cash basis
and all other collections are accounted for on the accrual basis. Financial information for all significant
dedicated collections is shown below. Following the financial information is the related descriptive narrative
for each of the significant dedicated collection funds.




                                                                                                         USDA
               FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              241
                                                                                                                        NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS




Dedicated Collections
As of and for the year ended September 30, 2003
(in millions)
                                                                                                            Fee,                                                    Roads and
                                                                          Payments                     Operations and     Timber                                     Trails for
                                                                          to States,        Timber     Maintenance of    Roads,      Expenses,    Recreation Fee     States,
                                             Cooperative      Land         National        Salvage      Recreation      Purchaser     Brush       Demonstration      National     Reforestation    Other
                                               W ork       Acquisition   Forest Fund        Sales        Facilities      Election    Disposal       Program        Forest Fund     Trust Fund     Funds          Total

ASSETS
Fund Balance with Treasury                   $      325    $       32    $      104    $         52    $          89    $      27    $      33    $          25    $        29    $         28    $   46     $      790
Investments                                           -             -             -               -                -            -            -                -              -               -         3              3
Accounts Receivable, Net                              8             -             -               6                -            -            1                1              -               -         3             19
General Property, Plant & Equipment, Net             13            48             -               1                -            1            1                2             13               -         1             80
TOTAL ASSETS                                 $      346    $       80    $      104    $         59    $          89    $      28    $      35    $          28    $        42    $         28    $   53     $      892

LIABILITIES
Accounts Payable                             $       (1)   $        2    $        -    $         (2)   $           -    $       -    $       -    $           -    $         1    $          -    $    2     $        2
Other Liabilities                                    47             2            51               5                8            -            -                -              2               2         5            122
TOTAL LIABILITIES                                    46             4            51               3                8            -            -                -              3               2         7            124
Total Net Position                                  300            76            53              56               81           28           35               28             39              26        46            768
TOTAL LIABILITIES AND NET POSITION           $      346    $       80    $      104    $         59    $          89    $      28    $      35    $          28    $        42    $         28    $   53     $      892

CHANGE IN NET POSITION
Beginning Balances                           $      213    $       59    $     (116)   $         90    $          81    $       8    $      38    $          26    $         2    $         30    $    9     $      440
Prior Period Adjustments                            (16)           (1)          116             (14)               -            -           (2)              (1)           (11)             (1)        6             76
Beginning Balances, as adjusted                     197            58             -              76               81            8           36               25             (9)             29        15            516

Budgetary Financing Sources:
   Donations and Forfeitures of Cash                  -             -             -               -                -            -            -                 -             -               -         1              1
   Transfers -in/out without Reimbursement          129           176           107              (5)               -            8            -                 -            16              30        21            482
Other Financing Sources:
   Transfers-in/out without Reimbursement             -             -             -              (1)               -            -            -                -              -               -         (1)           (2)
Total Financing Sources                             129           176           107              (6)               -            8            -                -             16              30         21           481
Net Cost of Operations                               26           158            54              14                -          (12)           1               (3)           (32)             33        (10)          229
ENDING BALANCES                              $      300    $       76    $       53    $         56    $          81    $      28    $      35    $          28    $        39    $         26    $    46    $      768




                                                                                                                                                                                                             USDA
                                                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                                243
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
USDA has stewardship responsibility for certain resources entrusted to it that do not meet the criteria for
recognition in the financial statements. Information about these resources is important to understanding
USDA’s mission, operations and financial condition at the date of the financial statements and in subsequent
periods. While costs of these stewardship-type resources are treated as expenses in the financial statements in
the year the costs are incurred, these costs and resultant resources are intended to provide long-term benefits to
the public. They are included as required supplementary stewardship reporting to highlight their long-term
benefit nature and to demonstrate accountability over them.
Stewardship resources are categorized into two major groups as follows:

STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT
Stewardship PP&E consists of assets whose physical properties resemble those of general PP&E that are
traditionally capitalized in financial statements. However, due to the nature of these assets, (1) valuation would
be difficult and (2) matching costs with specific periods would not be meaningful. Stewardship PP&E includes
heritage assets and stewardship land.

Heritage Assets
             Category                                                    FY 2003 (Sites)   Condition
             Total Heritage Assets                                       310,611           Poor to fair
             Eligible for the National Register of Historic Places       58,669            Poor to fair
             Listed on the National Register                             3,380             Fair
             Sites with Structures Listed on the National Register       1,870             Poor to fair
             National Historic Landmarks                                 18                Fair to
                                                                                           good



FS estimates that more than 300,000 heritage assets are on land that it manages. Assets held at museums and
universities are managed by those entities. This information was estimated from the nine FS regions and annual
U.S. Department of the Interior report to Congress. Some of these assets are listed on the National Register of
Historic Places, and others are designated as National Historic Landmarks. The FS heritage resource specialists
on the 155 national forests maintain separate inventories of heritage assets. Most assets not used for
administrative or public purposes receive no annual maintenance. A long-term methodology to assess the extent
and condition of these assets better is being formulated to comply with Executive Order 13287, Preserve
America. While a module in the agency’s Real Property Management Infrastructure System (INFRA) has been
developed and implemented for heritage assets, the Healthy Forests Initiative and competing budget priorities,
however, have prevented full population of the database. Heritage assets include the following:
Historic Structures
Constructed works consciously created to serve some human purpose. They include buildings, monuments,
logging and mining camps, and ruins.
National Historic Landmarks
Includes sites, buildings or structures that possess exceptional value in commemorating or illustrating the
history of the United States. They also demonstrate exceptional value or quality in illustrating and interpreting
the heritage of the United States. The Secretary of the Interior is the official designator of National Historic
Landmarks.
National Register of Historic Places
Includes properties, buildings and structures significant in U.S. history, architecture, archaeology and the
cultural foundation of the Nation.



 USDA
  244                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                            REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




Eligible for the National Register
Those sites formally determined as eligible for the National Register through the Keeper of the National
Register or documented by consultation with State Historic Preservation Offices.
Acquisition and Withdrawal of Heritage Assets
FS generally does not construct heritage assets, although in some circumstances important site-structural
components may be rehabilitated or reconstructed into viable historic properties to provide forest visitors with
use and interpretation. While heritage assets can be acquired through the procurement process, this rarely
occurs. Normally, heritage assets are part of the land acquisition and inventory process. Withdrawal occurs
through land exchange or natural disasters.

Stewardship Land

                                                           FY 2004                                         FY 2003
  Description                                                           Additions (+)   Withdrawals (-)
                                                           Balance                                         Balance
  National Forest System Land (In acres):
      National Forests                                    144,076,791      233,515                   -    143,843,276
      National Forests Wilderness Areas                    34,953,370      124,868                   -     34,828,502
      National Forests Primitive Areas                        173,762            -                   -        173,762
      National Wild and Scenic River Areas                    950,906        2,907                   -        947,999
      National Recreation Areas                             2,911,239            -                   -      2,911,239
      National Scenic–Research Areas                          137,130           58                   -        137,072
      National Game Refuges and Wildlife Preserve Areas     1,198,099            -                   -      1,198,099
      National Monument Areas                               3,833,941            -                   -      3,833,941
      National Grasslands                                   3,839,543          376                   -      3,839,167
      Purchase Units                                          370,026       10,675                   -        359,351
      Land Utilization Projects                                 1,876            -                   -          1,876
      Other Areas                                             450,637          236                   -        450,401
  Total National Forest System Land                       192,897,320      372,635                   -    192,524,685
  Conservation Easements (In acres):
      Commodity Credit Corporation
          Wetlands Reserve Program                          1,262,119      162,784                   -      1,099,335
      Natural Resources Conservation Service
          Emergency Wetlands Reserve Program                   92,159            -                   -         92,159
          Emergency Watershed Protection Program               94,099            -                   -         94,099
  Total Conservation Easements                              1,448,377      162,784                   -      1,285,593


                                                           FY 2003                                         FY 2002
  Description                                                           Additions (+)   Withdrawals (-)
                                                           Balance                                         Balance
  National Forest System Land (In acres):
      National Forests                                    143,843,276        46,593                 -     143,796,683
      National Forests Wilderness Areas                    34,828,502        39,194                 -      34,789,308
      National Forests Primitive Areas                        173,762             -                 -         173,762
      National Wild and Scenic River Areas                    947,999         1,621                 -         946,378
      National Recreation Areas                             2,911,239           875                 -       2,910,364
      National Scenic–Research Areas                          137,072         1,257                 -         135,815
      National Game Refuges and Wildlife Preserve Areas     1,198,099             -                 -       1,198,099
      National Monument Areas                               3,833,941             -            (6,641)      3,840,582
      National Grasslands                                   3,839,167         2,590                 -       3,836,577
      Purchase Units                                          359,351         2,298                 -         357,053
      Land Utilization Projects                                 1,876             -                 -           1,876
      Other Areas                                             450,401             -              (860)        451,261
  Total National Forest System Land                       192,524,685        94,428            (7,501)    192,437,758
  Conservation Easements (In acres):
      Commodity Credit Corporation
          Wetlands Reserve Program                          1,099,335      127,655                   -       971,680
      Natural Resources Conservation Service
          Emergency Wetlands Reserve Program                   92,159            -                   -         92,159
          Emergency Watershed Protection Program               94,099        6,079                   -         88,020
  Total Conservation Easements                              1,285,593      133,734                   -      1,151,859




                                                                                                               USDA
                 FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                   245
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




National Forest System
FS manages more than 192 million acres of public land. Most of this acreage is classified as stewardship land.
Stewardship land is valued for its environmental resources, recreational and scenic value, cultural and
paleontological resources, vast open spaces, and resource commodities and revenue provided to the Federal
Government, States and counties. The National Forest System (NFS) is comprised of the following:
National Forests
A unit formerly established and permanently set aside and reserved for National Forest purposes. The following
categories of NFS lands have been set aside for specific purposes in designated areas:
 National Forests Wilderness Areas: Areas designated by Congress as part of the National Wilderness
    Preservation System.
 National Forests Primitive Areas: Areas designated by the Chief of the Forest Service as primitive areas.
    They are administered in the same manner as wilderness areas, pending studies to determine sustainability
    as a component of the National Wilderness Preservation System.
 National Wild and Scenic River Areas: Areas designated by Congress as part of the National Wild and
    Scenic River System.
 National Recreation Areas: Areas established by Congress for the purpose of assuring and implementing
    the protection and management of public outdoor recreation opportunities.
 National Scenic-Research Areas: Areas established by Congress to provide use and enjoyment of certain
    ocean headlands, ensure protection and encourage the study of the areas for research and scientific
    purposes.
 National Game Refuges and Wildlife Preserve Areas: Areas designated by Presidential Proclamation or by
    Congress for the protection of wildlife.
 National Monument Areas: Areas including historic landmarks, historic and prehistoric structures, and
    other objects for historic or scientific interest, declared by Presidential Proclamation or by Congress.
National Grasslands
A unit designated by the Secretary of Agriculture and permanently held by the USDA under Title III of the
Bankhead-Jones Tenent Act.
Purchase Units
A unit of land designated by the Secretary of Agriculture or previously approved by the National Forest
Reservation Commission for purposes of Weeks Law acquisition. The law authorizes the Federal Government
to purchase lands for stream-flow protection and maintain the acquired lands as national forests.
Land Utilization Projects
A unit reserved and dedicated by the Secretary of Agriculture for forest and range research and
experimentation.
Other Areas
Areas administered by FS that are excluded from the above.
Condition of NFS Lands
FS monitors the condition of NFS lands based on information compiled by two national inventory and
monitoring programs. Annual inventories of forest status and trends are conducted by the Forest Inventory and
Analysis Program in 48 States covering 70 percent of the forested lands of the U.S. The Forest Health
Monitoring Program is active in 50 States. It provides surveys and evaluations of forest health conditions and
trends. While most of the 149 million acres of forestland on NFS lands continue to produce valuable benefits
(i.e. clean air, clean water, habitat for wildlife, and products for human use), significant portions are at risk to
pest outbreaks and/or catastrophic fires.



 USDA
  246                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                        REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




About 33 million acres of NFS forestland are at risk to future mortality from insects and diseases (based on the
current Insect and Disease Risk Map). Nearly 73 million acres of NFS forestland are prone to catastrophic fire
based on current condition and departure from historic fire regimes (Fire Regimes 1&2 and Condition Classes
2&3). Based on these 2 maps, approximately 9.5 million acres are at risk to both pest-caused mortality and fire.
Invasive species of insects, diseases and plants continue to impact our native ecosystems by causing mortality
to, or displacement of native vegetation. The National Fire Plan has enhanced our efforts to prevent and
suppress future fires adequately and restore acres that are at risk. Risk to fires was reduced by fuel hazard
treatments on 1.4 million acres of NFS lands in FY 2003. Insect and disease prevention and suppression
treatments were completed on 1.5 million acres of NFS lands in FY 2003.
Conservation Easements
Wetlands Reserve Program
The Wetlands Reserve Program (WRP) is a voluntary program established to restore, protect, and enhance
wetlands on agricultural land. Participants in the program may sell a conservation easement or enter into a cost-
share restoration agreement with CCC/NRCS to restore and protect wetlands. The landowner voluntarily limits
the future use of the land, yet retains private ownership. The program provides many benefits for the entire
community, such as better water quality, enhanced habitat for wildlife, reduced soil erosion, reduced flooding,
and better water supply.
To be eligible for WRP, land must be restorable and suitable for wildlife benefits. Once land is enrolled in the
program, the landowner continues to control access to the land—and may lease it—for hunting, fishing and
other undeveloped recreational activities. Once enrolled, the land is monitored to ensure compliance with
program requirements. At any time, a landowner may request the evaluation of additional activities (such as
cutting hay, grazing livestock or harvesting wood products) to determine if there are other compatible uses for
the site. Compatible uses are allowed if it is fully consistent with the protection and enhancement of the
wetland. The condition of the land is immaterial as long as the easement on the land meets the eligibility
requirements of the program.
CCC/NRCS records an expense for the acquisition cost of purchasing easements plus any additional costs, such
as closing transactions, survey and restoration costs. Easements either can be permanent or have a 30-year
duration. In exchange for establishing a permanent easement, the landowner receives payment up to the
agricultural value of the land and 100 percent of the restoration costs for restoring the wetlands. The 30-year
easement payment is 75 percent of what would be provided for a permanent easement on the same site, and 75
percent of the restoration cost.
Withdrawals from the program are rare. The Secretary of Agriculture has the authority to terminate contracts
with agreement from the landowner. The termination could occur after an assessment of the effect on public
interest, and following a 90-day notification period of the U.S. House and Senate Agriculture Committees.
Emergency Wetlands Reserve Program
The Emergency Wetlands Reserve Program (EWRP) administered by NRCS was established as part of the
emergency restoration package following the flooding of the Mississippi River and its tributaries in 1993.
EWRP provides landowners an alternative to restoring agricultural production lands that were previously
wetlands. The program is patterned after WRP. Participants in the program sell a conservation easement to
USDA to restore and protect wetlands. The landowner voluntarily limits the future use of the land, yet retains
private ownership.
To be eligible, the land must have been damaged by a natural disaster and be restorable as a wetland. Once the
land is enrolled in the program, the landowner continues to control access to the land. The land is monitored to
ensure that the wetland is in compliance with contract requirements, including compatible uses, such as
recreational activities or grazing livestock.
Easements purchased under this program meet the definition of stewardship land. NRCS records an expense for
the acquisition cost of purchasing easements plus any additional costs such as closing, survey and restoration



                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              247
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




costs. Easements purchased under EWRP are permanent in duration. In exchange for establishing a permanent
easement, the landowner receives payment based on agricultural value of the land, a geographic land payment
cap or the landowner offer. Easement values are assessed on pre-disaster conditions. The landowner may
receive up to 100 percent of restoring the wetland. There are no provisions in the easement to terminate the
purchase.
Emergency Watershed Protection Program
The Emergency Watershed Protection Program (EWP) Floodplain Easements is administered by NRCS. A
floodplain easement is purchased on flood prone lands to provide a more permanent solution to repetitive
disaster assistance payments. The purchase is also designed to achieve greater environmental benefits where the
situation warrants when the affected landowner is willing to participate in the easement approach. The easement
is to restore, protect, manage, maintain and enhance the functions of wetlands, riparian areas, conservation
buffer strips and other lands.
Easements purchased under this program meet the definition of stewardship land. NRCS records an expense for
the acquisition cost of purchasing easements plus any additional costs such as closing, survey and restoration
costs. Easements purchased under EWP are permanent. In exchange for establishing a permanent easement, the
landowner receives payment based on agricultural value of the land, a geographic land payment cap or the
landowner offer. Easement values are assessed on pre-disaster conditions. The landowner may receive up to 100
percent of the installation and maintenance of land treatment measures deemed necessary and desirable to
achieve the purposes of the easement effectively. The easements provide permanent restoration of the natural
floodplain hydrology as an alternative to traditional attempts to restore damaged levees, lands and structures.
There are no provisions in the easement to terminate the purchase.




 USDA
  248                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




STEWARDSHIP INVESTMENTS
Stewardship investments are substantial investments made by the Federal Government to benefit the Nation.
These investments are not physical assets owned by the Federal Government. Such investments are measured in
terms of expenses incurred for non-Federal physical property, human capital, and research and development.

Stewardship Investments (in millions)
                                                                 FY 2004        FY 2003        FY 2002           FY 2001           FY 2000
                                                                 Expense        Expense        Expense           Expense           Expense
Non-Federal Physical Property:
Food and Nutrition Service
   Food Stamp Program                                        $         36   $         39   $             -   $         41      $           28
   Special Supplemental Nutrition Program                               8             16                 -             18                  29
Cooperative State Research, Education, and Extension Service
   Extension 1890 Facilities Program                                   15             15             14                12                  12
Total Non-Federal Property                                   $         59   $         70   $         14      $         71      $           69

Human Capital:
Cooperative State Research, Education, and Extension Service
   Higher Education and Extension Programs                   $       502    $       511    $        532      $       479       $       466
Food and Nutrition Service
   Food Stamp Program                                                  75             99                 -             57              156
Forest Service
   Job Corps Program                                                 106             118            104              101                   94
Agricultural Research Service
   National Agricultural Library                                       21             21             20                21                  19
Risk Management Agency
   Risk Management Education                                           7               4              -                -                 1
Total Human Capital                                          $       711    $        753   $        656      $       658       $       736

Research and Development:
Agricultural Research Service
   Plant Sciences                                            $         -    $        394   $        384      $       324       $       296
   Commodity Conversion and Delivery                                   -             185            182              194               172
   Animal Sciences                                                     -             194            102              146               133
   Soil, Water, and Air Sciences                                       -             110            100               98                89
   Human Nutrition                                                    83              78             80               77                72
   Integration of Agricultural Systems                                 -              43             40               34                31
   Collaborative Research Program                                      5               6             11               11                 -
   Product Quality/Value Added                                       104               -
   Livestock Production                                               82               -                 -                 -                 -
   Crop Production                                                   194               -                 -                 -                 -
   Food Safety                                                        96               -                 -                 -                 -
   Livestock Protection                                               64               -                 -                 -                 -
   Crop Protection                                                   183               -                 -                 -                 -
   Environmental Stewardship                                         216               -                 -                 -                 -
   Homeland Security                                                  21               -                 -                 -                 -
Cooperative State Research, Education, and Extension Service
   Land-grant University System                                      610             601            542              495               476
Forest Service                                                       312             233            227              200               255
Economic Research Service
   Economic and Social Science                                         71             69             67                66                  64
National Agricultural Statistics Service
   Statistical                                                          5              5              5                 4                 4
Total Research and Development                               $      2,046   $      1,918   $      1,740      $      1,649      $      1,592



Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by the State
and local governments to administer the Food Stamp Program (FSP). The total FSP expense for ADP
Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-Federal physical
property also consists of computer systems and other equipment obtained by the State and local Governments to
administer the Special Supplemental Nutrition Program for Women, Infants and Children.




                                                                                                                                   USDA
                   FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                     249
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




Cooperative State Research, Education and Extension Service
The Extension 1890 Facilities Program supports the renovation of existing buildings and the construction of
new facilities that permit faculty, students and communities to benefit fully from the partnership between
USDA and the historically African-American land-grant universities.

Human Capital
Cooperative State Research, Education and Extension Service
The higher education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-
year Post Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a
Native American institutions program, a Native American institutions endowment fund, an Alaska Native
Serving and Native Hawaiian Serving institutions program and a capacity-building program at the 1890
institutions. These programs enable universities to broaden their curricula, increase faculty development and
student research projects, and increase the number of new scholars recruited in the food and agriculture
sciences. CSREES also supports extension-related work at 1862 and 1890 land-grant institutions throughout the
country through formula and competitive programs. CSREES supported the Outreach and Assistance for
Disadvantaged Farmers Program for the first time in FY 2003. The purpose is to enhance the ability of minority
and small farmers and ranchers to operate farming or ranching enterprises independently to assure adequate
income and maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the FSP. The E&T requires recipients of
food stamp benefits to participate in an employment and training program as a condition to food stamp
eligibility.
Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 685,400 work registrants subject to the 3-month FSP participation limit. It also has declared
1,626,783 work registrants not subject to the limit in either job search, job training, job workfare, education or
work experience.
Forest Service
The FS’ Job Corps Civilian Conservation (Job Corps) Centers, in coordination with the National Parks Service,
Fish and Wildlife Service, and Bureau of Reclamation, celebrated its 40th anniversary. The anniversary’s theme
was, “40 Years of Empowering Youth and Enhancing Communities and Natural Resources.” Secretary of
Agriculture Ann Veneman was the keynote speaker.
The anniversary event highlighted that, in the last 40 years, all the Job Corps Centers combined have
contributed an appraised value of work of approximately $1.5 billion in community projects, community and
public structures, natural resources and fighting wildland fires. Some of the anniversary events were a
presentation of the 40th anniversary video, the unveiling of the Job Corps Wall of Names (erected at the
entrance of the Schenck Job Corps Center), visits to the Lyndon B. Johnson (the first Forest Service Job Corps
Center) and the Oconaluftee Job Corps Centers, and remarks by past and present staff, center directors and
students.
In partnership with the U.S. Department of Labor (DOL), the FS operates 18 Job Corps Centers. Job Corps is
the only Federal residential employment and education training program for economically challenged young
people ages 16 to 24. The program is designed to provide young adults with the skills necessary to become
employable, independent, and productive citizens. It is administered in a structured, coeducational, residential
environment that provides education, vocational and life-skills training, counseling, medical care, work
experience, placement assistance and follow-up, recreational opportunities, and bi-weekly monetary stipends.
Job Corps students choose from a wide variety of careers, such as urban forestry, heavy equipment operations
and maintenance, business, clerical, carpentry, culinary arts, painting, cement and brick masonry, welding, auto
mechanics, health services, building and apartment maintenance, warehousing, and plastering.




 USDA
  250                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                        REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




Job Corps is funded from DOL annually on a program year. The fiscal year is from July 1 to June 30. During
Job Corps’ FY 2004, accomplishments included the following:
 8,133 participants received 3,780 placements with an average starting hourly wage of $8.41, 32 cents more
    than the DOL national average;
 Approximately 1,857 female students received training in nontraditional vocations;
 617 students received high school diplomas, and 1,438 students obtained general equivalency diplomas;
 Approximately 3,000 Job Corps students and staff assisted the agency in its firefighting efforts; and
 Students accomplished conservation work on NFS lands appraised at $17.4 million.
Since 1964, FS’ Job Corps Centers have trained and educated more than 235,000 young men and women. The
agency is actively pursuing the transfer of two U.S. Department of Interior’s Fish and Wildlife Job Corps
Centers and their personnel to FS.
Agricultural Research Service
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a
mission to increase the availability and utilization of agricultural information for researchers, educators,
policymakers, consumers of agricultural products, and the public. The NAL is one of the world's largest and
most accessible agricultural research libraries and plays a vital role in supporting research, education and
applied agriculture.
NAL was created as the USDA library in 1862. It became a national library in 1962. One of four national
libraries of the U.S. (with the Library of Congress, the National Library of Medicine and the National Library of
Education), it is also the coordinator for a national network of State land-grant and USDA field libraries. In its
international role, the NAL serves as the U.S. center for the international agricultural information system,
coordinating and sharing resources and enhancing global access to agricultural data. The NAL collection of
more than 3.5 million items and its leadership role in information services and technology applications combine
to make it the foremost agricultural library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the
Federal Agricultural Improvement and Reform Act of 1996, FCIC has formed new partnerships with CSREES,
the Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic Research
Service, and private industry. The partnerships are designed to leverage the Federal Government’s funding of its
RME program by using both public and private organizations to help educate their members in agricultural risk
management. The RME effort was launched in 1997 with a Risk Management Education Summit that raised
awareness of the tools and resources needed by farmers and ranchers to manage their risks. RMA built on this
foundation during fiscal year 2003 by expanding State and Regional education partnerships. It also encouraged
the development of information and technology decision aids, supported the National Future Farmers of
America (FFA) Foundation with an annual essay contest facilitating local training workshops and supported
cooperative agreements with educational and outreach organizations.
During FY 2004 and FY 2003, the RME worked toward the goals by funding risk management sessions, most
of which targeted producers directly. The number of producers reached through these sessions is approximately
46,000 in FY 2004 and 62,000 in FY 2003. Additionally, some training sessions helped those who work with
producers, such as lenders, agricultural educators, and crop insurance agents, better understand those areas of
risk management with which they may be unfamiliar. Total RME obligations incurred by the FCIC were
approximately $9.8 million for fiscal year 2004 and $9.4 million for fiscal year 2003. The following table
summarizes the RME initiatives since fiscal year 2000:
                                                      2004          2003      2002       2001        2000
                                                      (dollars in millions)
     RME Obligations                              $   10            9         6          5           1
     Number of producers attending RME sessions       46,000        62,000    50,000     50,000      30,000




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               251
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and
outreach efforts in certain areas of the country that have been underserved historically by the Federal Crop
Insurance Program. The Secretary determined that 15 states met the underserved criteria. These states are
Maine, Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania,
Vermont, Maryland, Utah, Rhode Island, New Hampshire and West Virginia.

Research and Development
Agricultural Research Service
ARS is the principal in-house research agency of USDA. Its mission is to conduct research to develop the
following program activities:
Plant Sciences
The research emphasis is on increasing the productivity and quality of crop plants, and improving the
competitiveness of agricultural products in domestic and world markets. The research involves developing
improved production practices and methods for reducing crop losses caused by weeds, diseases, insects and
other pests. The research also includes broadening the germplasm resources of plants and beneficial organisms
to ensure genetic diversity for improving productivity.
Commodity Conversion and Delivery
The research program focuses on maximizing the use of agricultural products in domestic and international
markets. New agricultural products and processes are developed along with technologies for reducing or
eliminating post harvest losses caused by pests, spoilage, and physical and environmental damage. Also,
research is conducted on food safety to reduce pathogens, naturally occurring toxicants, mycotoxins, and
chemical residues in the food supply.
Animal Sciences
The research program places primary emphasis on increasing the productivity of animals and the quality of
animal products. The research involves increasing the genetic capacity of animals for production, improving the
efficiency of reproduction, improving animal nutrition and feed efficiency, and controlling or preventing losses
from pathogens, diseases, parasites and insect pests. Additionally, the research includes the development of
systems and technologies to manage and utilize animal wastes better.
Soil, Water, and Air Sciences
The research program is directed to managing and conserving the Nation’s soil, water and air resources to
maintain a stable and productive agriculture. The research focuses on developing technologies and systems to
conserve water and protect its quality, enhance soil quality, reduce erosion and improve air quality. The effects
of global change are also researched.
Human Nutrition
The research program emphasizes promoting optimum human health and well being through improved
nutrition. Research is directed to defining the nutrient requirements of humans at all stages of the life cycle. The
research also focuses on determining the nutrient content of agricultural products and processed foods
consumed, and establishing the bioavailability of their nutrients.
Integration of Agricultural Systems
The research integrates scientific knowledge of agricultural production, processing and marketing into systems
that optimize resources management and facilitate the transfer of technology to users.
Collaborative Research Program
Funds from the U.S. Agency for International Development allow USDA to provide short-term scientific
exchanges with the new independent states of the former Soviet Union. The plan is designed to develop market-
based agricultural systems necessary to meet the food needs of their populations. It also focuses on developing




 USDA
  252                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                        REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




and strengthening trade linkages between their countries and related agribusiness and agricultural enterprise in
the U.S.
Product Quality/Value Added
ARS research enhances the economic viability and competitiveness of U.S. agriculture by maintaining the
quality of harvested agricultural commodities or enhancing their marketability. It also expands domestic and
global market opportunities through the development of value-added food and non-food products and processes,
and reduces the Nation's dependence on foreign oil and improving the environment by developing alternate
energy sources and increasing the use of agricultural crops as feedstocks for biofuels.
Livestock Production
ARS conducts research that develops biotechnological methods to use animal germplasm and associated genetic
and genomic repositories and databases to ensure an abundant and safe food supply of animal products.
Research also provides the knowledge to scientifically assess farm animal well being, reduce animal stress,
increase animal health and improve the international competitiveness and sustainability of United States
aquaculture.
Crop Production
ARS safeguards and utilizes plant, microbial and insect germplasm associated genetic and genomic databases,
and bioinformatic tools to ensure an abundant, safe and inexpensive supply of food, feed, fiber, ornamentals and
industrial products. The agency conducts fundamental research on plants that form the basis for greater crop
productivity and efficiency, better product quality and safety, improved protection against pests and diseases,
and sustainable practices that maintain environmental quality.
Food Safety
ARS research provides the means to ensure that the food supply is safe for consumers, and that food and feed
meet foreign and domestic regulatory requirements. Research also focuses on the reduction of the hazards of
both introduced and naturally occurring toxicants in foods and feed. These toxicants include pathogenic
bacteria, viruses, parasites, chemical contaminants, mycotoxins produced by fungi growing on plants, and
naturally occurring toxins produced by plants.
Livestock Protection
ARS produces the knowledge and technology to reduce the economic losses from infectious, genetic and
metabolic diseases of livestock and poultry. This work also helps eliminate the losses to animal production and
products caused by arthropod diseases and arthropod borne trauma. An arthropod disease refers to one
transmitted via the bite or feces of a mite, tick or other insect. The research also reduces the risk to humans of
arthropod borne zoonotic diseases, enhances the safety of animal products and increases the quality of life for
humans.
Crop Protection
ARS provides the knowledge to reduce the losses caused by plant diseases by defining practices that are
effective and affordable, and maintain environmental quality. Research also provides the technology to manage
pest populations below economic damage thresholds. It does this by integrating by the integration of
environmentally compatible strategies that are based on an increased understanding of the pest’s biology and
ecology.
Environmental Stewardship
Forest, rangeland and pasture ecosystems provide a number of goods and services that are critical to
maintaining a healthy and livable environment. Among these are clean water, clean air, productive soils, carbon
storage, biodiversity, scenic vistas and recreational opportunities. Additionally, they are an important source of
food, fiber and forest products. Even though these systems are managed less intensively than conventional
farmlands, sound scientific management is very important. Intensively managed croplands, in addition to
providing food and fiber, play a critical role in determining air, water and soil quality. Sound scientific




                                                                                                           USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                              253
 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




management of productive croplands should lead to the sustainability high levels of soil, air, and water quality
and benefit both agricultural production and the environment.
The NAL also provides support to ARS’ research programs.
Cooperative State Research, Education, and Extension Service Program (CSREES)
CSREES participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation among
the State institutions, and between the State institutions and their Federal research partners. CSREES
administers grants and formula payments to State institutions to supplement State and local funding for
agriculture research.
Forest Service (FS)
FS Research and Development (R&D) provides reliable, science-based information that is incorporated into
natural resource decision making. Responsibilities include developing new technology and then adapting and
transferring this technology to facilitate more effective resource management. Some major research areas
include the following:
 Vegetation management and protection;
 Wildlife, fish, watershed and air;
 Resource valuation and use research; and
 Forest Resources inventory and monitoring.
Research staff is involved in all areas of the FS, supporting agency goals by providing more efficient and
effective methods where applicable.
A representative summary of FY 2004 accomplishments include the following:
 250 new interagency agreements and contracts;
 445 interagency agreements and contracts continued;
 1,539 articles published in journals;
 2,419 articles published in all other publications;
 8 patents granted; and
 27 rights to inventions established.
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff
analyses, briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information
and analysis helps public and private decision makers attain the goals that promote agricultural competitiveness,
food safety and security, a well-nourished population, environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service are conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation
program through development of better estimators at lower cost and with less respondent burden. This means
greater efficiency in sampling and data collection coupled with higher quality data upon which to base the
official estimates. Additionally, new products for data users are being developed with the use of technologies
such as remote sensing and geographic information systems. Continued service to users will be increasingly
dependent upon methodological and technological efficiencies.




 USDA
  254                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                                                            REQUIRED SUPPLEMENTARY INFORMATION




REQUIRED SUPPLEMENTARY INFORMATION
STATEMENT OF BUDGETARY RESOURCES
                    F Y 2004                                    FFAS                             RD                       FNCS            F SIS              M RP                NRE              R EE             DO                    T o tal
                                                                         Non                              Non                                                                                                                                      Non
                                                                     B udgetary                       B udgetary                                                                                                                               B udgetary
                                                                     F inancing                       F inancing                                                                                                                               F inancing
                                                      B udgetary     A cco unts     B udgetary        A cco unts      B udgetary      B udgetary         B udgetary          B udgetary       B udgetary       B udgetary     B udgetary       A cco unts
B udgetary R eso urces:
   Budget Authority:
     Appropriations Received                          $   30,166     $        -     $    3,457        $        -      $    42,592     $       788        $      7,232        $     7,106      $     2,466      $        509   $   94,316       $           -
     Borrowing Authority (Note 21& 22)                    29,004          2,876              2             8,480                -                -                  -                  -                -                 -       29,006              11,356
     Net Transfers                                         (1,771)            -              3                 -            4,715               (1)            (4,569)             1,603               12                 8            -                   -
   Unobligated Balances:
     Beginning of Period (Note 23)                          3,431          4,411         2,298               1,391          8,077                 65             583               1,406             669                233        16,762             5,802
     Net Transfers, Actual                                     (2)             -             -                   -              -                  -             (195)                 4               -                  -           (193)               -
   Spending Authority From Offsetting Collections:
     Earned
         Collected                                         16,083         2,576          5,853             4,943                 84               124               185             505                  120            508       23,462              7,519
         Change in Receivables from Federal Sources          (653)          150             (16)              (4)                 -                (2)               (12)            (11)                 12             10         (672)               146
     Change in Unfilled Customer Orders
         Advances Received                                    943              -              -                  -              2                -                 -                   (10)             -                -             935                -
         Without Advances from Federal Sources                 (3)            (2)             -                (95)             -                -                 -                    15             10               77              99              (97)
   Recoveries of Prior Year Obligations                     2,328             91           309                543             468               93               351                 629            1,005               73           5,256              634
   Permanently not Available                              (41,590)        (2,028)        (2,981)           (2,348)         (2,369)             (20)               (8)                 (59)            (30)              (8)       (47,065)           (4,376)
   Total Budgetary Resources                          $   37,936     $     8,074    $    8,925        $     12,910    $    53,569     $      1,047       $     3,567         $     11,188     $     4,264      $     1,410    $    121,906     $     20,984




                                                                                                                                                                                                                                                   USDA
                                                             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                                                          255
 REQUIRED SUPPLEMENTARY INFORMATION




                       F Y 2004                                      FFAS                               RD                       FNCS           F SIS              M RP              NRE             R EE             DO                       T o t al
                                                                              Non                                Non                                                                                                                                     Non
                                                                          B udgetary                         B udget ary                                                                                                                             B udgetary
                                                                          F inancing                         F inancing                                                                                                                              F inancing
                                                           B udgetary     A cco unts      B udgetary         A cco unt s     B udget ary    B udget ary        B udget ary       B udgetary      B udgetary       B udgetary       B udgetary        A cco unt s
Stat us o f B udget ary R eso urces:
  Obligations Incurred (Note 20):
     Direct                                                $    8,835     $    3,563      $    4,665         $     11,096    $    45,783    $       847        $     2,395       $     8,813     $     3,565      $        605     $   75,508         $   14,659
     Reimbursable                                              25,563              -             509                    -             18            146                281              323              202               600         27,642                  -
  Unobligated Balance:
     Apportioned                                                2,949          4,488             396               1,433             619                  1           335              1,514             428               154          6,396              5,921
     Exempt from Apportionment                                      3              6               -                   -               -                  -           524                  5              16                 3            551                  6
     Other Available
  Unobligated Balance not Available                               586             17           3,355                  381          7,149              53                32               533              53               48           11,809               398
  Total Status of Budgetary Resources                          37,936          8,074           8,925               12,910         53,569           1,047             3,567             11,188          4,264            1,410          121,906            20,984

R elat io nship o f Obligatio ns to Outlays:
   Obligated Balance, Net, Beginning of Period (Note 23)        6,429            482            6,916             14,389            2,796            88                495            2,789            1,582               99           21,194             14,871
   Obligations Incurred                                        34,398          3,563            5,174              11,096          45,801           993              2,676            9,136            3,767            1,205          103,150            14,659
  Less:
    Recoveries of Prior Year Obligations                        2,328             91             309                 543             468                93                351           629             1,005               73          5,256                634
    Change from Federal Sources                                  (656)           148              (16)               (99)              -                (2)               (12)            4                22               87           (573)                49
    Obligated Balance, Net, End of Period:
        Accounts Receivable                                     (1,437)          (316)           (78)                   -              -                (22)          (39)             (268)               (62)            (72)          (1,978)             (316)
        Unfilled Customer Orders from Federal Sources               (5)            (16)            -                 (619)             -                   -            -                (121)            (105)            (181)            (412)           (635)
        Undelivered Orders                                      2,234             188          6,320              17,547             531                 92           478              2,641            1,804              253          14,353            17,735
        Accounts Payable                                        5,280            352             285                    -          2,517                  31           98               679                 76               81          9,047               352
     Total Obligated Balance, Net, End of Period                6,072            208           6,527              16,928           3,048                 101          537              2,931             1,713               81          21,010            17,136

  Disbursements                                                33,083           3,598           5,270               8,113         45,081            889              2,295            8,361            2,609            1,063           98,651              11,711
  Collected and Advances Received                              (17,026)        (2,576)         (5,853)            (4,943)            (86)           (124)              (185)           (495)            (120)            (508)         (24,397)            (7,519)
 Outlays                                                        16,057          1,022            (583)             3,170          44,995            765               2,110           7,866            2,489              555           74,254              4,192
    Less: Offsetting Receipts                                      995            600             387                   -              -               3                 141            385               17                -            1,928               600
  Net Outlays                                              $    15,062    $       422     $      (970)       $     3,170     $    44,995    $       762        $     1,969       $    7,481      $     2,472      $       555      $    72,326        $    3,592




 USDA
   256                                                                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                                                           REQUIRED SUPPLEMENTARY INFORMATION




                     F Y 2003                                   FFAS                              RD                       FNCS            F SIS             M RP               NRE            R EE              DO                    T o tal
                                                                         Non                               Non                                                                                                                                   Non
                                                                     B udgetary                        B udget ary                                                                                                                           B udget ary
                                                                     F inancing                        F inancing                                                                                                                            F inancing
                                                      B udgetary     A cco unts     B udgetary         A cco unts      B udgetary      B udgetary        B udget ary        B udgetary     B udgetary        B udget ary    B udgetary       A cco unts
B udgetary R eso urces:
   Budget Authority:
     Appropriations Received                          $   25,338     $         -    $    3,545         $         -     $     37,148    $       763       $      7,074       $     6,873    $     2,667       $        559   $   83,967                  -
     Borrowing Authority (Note 21& 22)                    49,343           2,881             -               7,376                -              -                  -                 -              -                  -       49,343             10,257
     Net Transfers                                         (2,091)             -            82                   -            4,819              -             (4,299)            1,326            (30)                 4         (189)
   Unobligated Balances:
     Beginning of Period (Note 23)                         3,647           4,188          1,487              1,076           12,216                58            626              1,001           562                 191        19,788             5,264
     Net Transfers, Actual                                   (315)             -              -                  -                -                 -              -               (129)           (9)                  -          (453)                -
   Spending Authority From Offsetting Collections:
     Earned
         Collected                                         16,248         3,250          6,382               4,472              101                106              171            785                 111            398       24,302              7,722
         Change in Receivables from Federal Sources         1,467            58             69                   4                -                  1               (8)            88                (18)              3        1,602                 62
     Change in Unfilled Customer Orders
         Advances Received                                   292               -             -                   -               -                  -              (1)               (1)            (1)                -            289                   -
         Without Advances from Federal Sources                  2              8             -                  48               -                  -               -              (50)            18                 77             47                  56
   Recoveries of Prior Year Obligations                     1,416             91           193                 346             470                 80            282               365            978                 81          3,865                 437
   Temporarily not Available Pursuant to Public Law
   Permanently not Available                              (48,413)        (2,408)        (4,101)             (1,867)         (4,572)             (5)              (14)              (33)           (25)               (4)        (57,167)          (4,275)
   Total Budgetary Resources                          $   46,934     $     8,068    $    7,657         $     11,455    $     50,182    $      1,003      $      3,831       $    10,225    $     4,253       $     1,309    $   125,394      $     19,523




                                                                                                                                                                                                                                                 USDA
                                                             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                                                                        257
 REQUIRED SUPPLEMENTARY INFORMATION




                        F Y 2003                                     FFAS                               RD                       FNCS             F SIS              M RP            NRE            R EE            DO                      T o tal
                                                                              Non                                Non                                                                                                                                  Non
                                                                          B udgetary                         B udgetary                                                                                                                           B udgetary
                                                                          F inancing                         F inancing                                                                                                                           F inancing
                                                           B udgetary     A cco unt s     B udgetary         A cco unts      B udget ary      B udget ary        B udgetary      B udgetary     B udgetary      B udgetary       B udgetary       A cco unt s
Status o f B udget ary R eso urces:
  Obligations Incurred (Note 20):
    Direct                                                 $    8,999     $     3,658     $    4,872         $    10,063     $    42,044      $       836        $     3,053     $     8,117    $     3,427     $        592     $   71,940       $     13,721
    Reimbursable                                               34,504               -            487                   -              61              102                195            701             158              484         36,692                  -
  Unobligated Balance:
    Apportioned                                                 2,772           4,300             317              1,043             760                28               317             956            555             145            5,850            5,343
    Exempt from Apportionment                                       11              1               -                  -                -                1              246               35             32               3              328                1
    Other Available                                                 9               -               -                  -                -                -                 -               -              -               -                9                -
  Unobligated Balance not Available                               639             109           1,981                349            7,317               36                20             416             81              85           10,575              458
  Total Status of Budgetary Resources                          46,934           8,068          7,657              11,455           50,182            1,003             3,831          10,225          4,253           1,309          125,394           19,523

R elatio nship o f Obligatio ns to Outlays:
   Obligated Balance, Net, Beginning of Period (Note 23)        4,883             604          6,774               13,158           2,354              73                325           2,172          1,494             105            18,180          13,762
   Obligations Incurred                                        43,503           3,658          5,359              10,063           42,105             938              3,248           8,818          3,585           1,076          108,632            13,721
  Less:
    Recoveries of Prior Year Obligations                          1,416           91              193               346              470                  80            282             365             978               81           3,865              437
    Change from Federal Sources                                  1,469            66               69                52                -                   1             (8)             38               -               80           1,649               118
    Obligated Balance, Net, End of Period:
        Accounts Receivable                                     (2,091)          (166)           (94)                  (4)             -                  (24)          (50)           (279)             (50)             (63)         (2,651)            (170)
        Unfilled Customer Orders from Federal Sources               (8)            (18)             -                (714)             -                    -             -             (106)            (96)            (103)           (313)           (732)
        Undelivered Orders                                      2,552            246           6,599               15,105            436                   91           478           2,243            1,669              210         14,278            15,351
        Accounts Payable                                        5,976            420              411                   2          2,360                   21            67              931              59               55          9,880              422
     Total Obligated Balance, Net, End of Period                6,429            482           6,916              14,389           2,796                   88           495           2,789            1,582               99          21,194           14,871

  Disbursements                                                39,072           3,623           4,955              8,434           41,193             842              2,804          7,798           2,519            921           100,104           12,057
  Collected and Advances Received                              (16,541)        (3,250)         (6,382)            (4,472)             (101)           (106)              (170)         (784)            (110)         (398)          (24,591)          (7,722)
 Outlays                                                       22,531             373           (1,427)            3,962           41,092             736              2,634          7,014           2,409            523            75,513            4,335
    Less: Offsetting Receipts                                     353           1,292              791                 -                 -               3                143           439              34              -             1,763            1,292
  Net Outlays                                              $   22,178     $      (919)    $     (2,218)      $     3,962     $     41,092     $       733        $     2,491     $    6,575     $     2,375     $      523       $   73,750       $     3,043




  USDA
   258                                                                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                      REQUIRED SUPPLEMENTARY INFORMATION




DEFERRED MAINTENANCE

                                                                        Cost to Return to    Cost of Critical   Cost of Non-critical
    FY 2004
                                                                      Acceptable Condition    Maintenance         Maintenance
Asset Class
 Forest Service
   Roads, Bridges, and Major Culverts                                 $             5,280    $          774     $            4,506
   Buildings                                                                          462               129                    333
   Developed Recreation Sites                                                         178                52                    126
   Dams                                                                                29                10                     19
   Range Structures                                                                   464               464                      -
   Wildlife, Fish, and Threatened and Endangered Species Structures                     6                 4                      2
   Trails                                                                             107                37                     70
   Heritage Assets                                                                     10                 5                      5
Total Forest Service                                                  $             6,536    $        1,475     $            5,061


                                                                        Cost to Return to    Cost of Critical   Cost of Non-critical
    FY 2003
                                                                      Acceptable Condition    Maintenance         Maintenance
Asset Class
 Forest Service
   Roads, Bridges, and Major Culverts                                 $             3,851    $          696     $            3,155
   Buildings                                                                          421               128                    293
   Developed Recreation Sites                                                         189                55                    134
   Dams                                                                                29                10                     19
   Range Structures                                                                   490               490                      -
   Wildlife, Fish, and Threatened and Endangered Species Structures                     5                 3                      2
   Trails                                                                             120                42                     78
   Heritage Assets                                                                     83                45                     38
Total Forest Service                                                  $             5,188    $        1,469     $            3,719


Deferred maintenance is scheduled maintenance delayed until a future period. Deferred maintenance represents
a cost that the government has elected not to fund and, therefore, the costs are not reflected in the financial
statements. Maintenance is defined to include preventative maintenance, normal repairs, replacement of parts
and structural components, and other activities needed to preserve the asset so that it continues to provide
acceptable service and achieve its expected life. It excludes activities aimed at expanding the capacity of an
asset or otherwise upgrading it to service needs different from, or significantly greater than, those originally
intended. Deferred maintenance is reported for general PP&E, stewardship assets, and heritage assets. It also is
reported separately for critical and non-critical amounts of maintenance needed to return each class of asset to
its acceptable operating condition.
FS uses condition surveys to estimate deferred maintenance on all major classes of PP&E. There is no deferred
maintenance for fleet vehicles and computers that are managed through the Agency’s working capital fund.
Each fleet vehicle is maintained according to schedule. The cost of maintaining the remaining classes of
equipment is expensed.

Condition of Administrative Facilities
The condition of administrative facilities ranges from poor to good. Approximately half of these buildings are
obsolete or in poor condition needing major repair or renovation. Approximately one fourth is in fair condition
and the remaining in good condition.

Condition of Dams
The overall condition of dams is below acceptable. The condition of dams is acceptable when current design
standards are met and no deficiencies that threaten the safety of the structure or public are detected.




                                                                                                                          USDA
                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                             259
 REQUIRED SUPPLEMENTARY INFORMATION




Condition of General Property, Plant and Equipment
The standards for acceptable operating condition for various classes of general PP&E, stewardship and heritage
assets are:
Buildings
Comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and the
Occupational Safety Health Administration as determined by condition surveys.
Roads and Bridges
Conditions of the National Forest System Road system are measured by various standards that include
applicable regulations for the Highway Safety Act developed by the Federal Highway Administration, best
management practices for road construction and maintenance developed by the Environmental Protection
Agency and the states to implement the non-point source provisions of the Clean Water Act, road management
objectives developed through the forest planning process prescribed by the National Forest Management Act,
and the requirements of FS manuals and handbooks.
Developed Recreation Sites
This category includes campgrounds, trailheads, trails, wastewater facilities, interpretive facilities, and visitor
centers. All developed sites are managed in accordance with Federal laws and regulations (CFR 36). Detailed
management guidelines are contained in the Forest Service Manual (FSM 2330, Publicly Managed Recreation
Opportunities) and regional and forest level user guides. Standards of quality for developed recreation sites
were developed under the meaningful measures system and established for the following categories: health and
cleanliness, settings, safety and security, responsiveness, and the condition of facility.
Range Structures
The condition assessment is based on: 1) a determination by knowledgeable range specialists or other district
personnel that the structure performs as intended, and 2) a determination through the use of a protocol system to
assess conditions based on age. A long-range methodology is used to gather this data.
Dams
Managed according to Forest Service Manual 7500, Water Storage and Transmission, and Forest Service
Handbook 7509.11, Dams Management as determined by condition surveys.
Wildlife, Fish and Threatened and Endangered Species Structures
Field biologists at the forest used their professional judgment to determine deferred maintenance. Deferred
maintenance was considered as upkeep that had not occurred on a regular basis. The amount was considered
critical if resource damage or species endangerment would likely occur if maintenance was deferred much
longer.
Trails
Trails are managed according to Federal law and regulations (CFR 36). More specific direction is contained in
the Forest Service Manual (FSM 2350, Trail, River, and Similar Recreation Opportunities) and the Forest
Service Trails Management Handbook (FSH 2309.18).
Heritage Assets
These assets include archaeological sites that require determinations of National Register of Historic Places
status, National Historic Landmarks, and significant historic properties. Some heritage assets may have
historical significance, but their primary function within the agency is as visitation or recreation sites and,
therefore, may not fall under the management responsibility of the heritage program.




 USDA
  260                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                  REQUIRED SUPPLEMENTARY INFORMATION




INTRAGOVERNMENTAL AMOUNTS
Assets
         FY 2004                                                Fund
                                                             Balance with                  Accounts
                                                              Treasury      Investments   Receivable       Other
  Trading Partner (Code)
     Unidentified (00)                                        $        -    $        -    $     143    $           (5)
     Department of Interior (14)                                       -             -           29                 -
     Department of Justice (15)                                        -             -            1                 -
     Department of Labor (16)                                          -             -            -                 -
     Department of the Navy (17)                                       -             -            1                 -
     U.S. Postal Service (18)                                          -             -            -                 6
     Department of State (19)                                          -             -            -                 -
     Department of the Treasury (20)                              39,488            56           10                 -
     Department of the Army (21)                                       -             -           10                 -
     Office of Personnel Management (24)                               -             -            2                 -
     General Services Administration (47)                              -             -            7                 -
     Federal Deposit Insurance Corporation (51)                        -             -            -                 -
     Department of Transportation (69)                                 -             -          298                 -
     Department of Homeland Security (70)                              -             -            9                 -
     Agency for International Development (72)                         -             -           54                 -
     Department of Health and Human Services (75)                      -             -            -                 -
     Department of Energy (89)                                         -             -            2                 -
     U.S. Army Corps of Engineers (96)                                 -             -            1                 -
     Office of the Secretary of Defense-Defense Agencies (97)          -             -           12                 -
     Treasury General Fund (99)                                        -             -           46                 -
  Total Assets                                                $   39,488    $       56    $     625    $            1


         FY 2003                                                Fund
                                                             Balance with                  Accounts
                                                              Treasury      Investments   Receivable       Other
  Trading Partner (Code)
     Unidentified (00)                                        $        -    $        4    $      47    $            5
     Department of Interior (14)                                       -             -            9                 -
     Department of Justice (15)                                        -             -            1                 -
     Department of Labor (16)                                          -             -            4                 -
     Department of the Navy (17)                                       -             -            1                 -
     U.S. Postal Service (18)                                          -             -            1                 3
     Department of State (19)                                          -             -           (1)                -
     Department of the Treasury (20)                              36,450            41           67                 -
     Department of the Army (21)                                       -             -            7                 -
     Office of Personnel Management (24)                               -             -            1                 -
     General Services Administration (47)                              -             -            6                 -
     Federal Deposit Insurance Corporation (51)                        -             -            1                 -
     Department of Transportation (69)                                 -             -          428                (1)
     Department of Homeland Security (70)                              -             -            7                 -
     Agency for International Development (72)                         -             -           33                 -
     Department of Health and Human Services (75)                      -             -           13                 -
     Department of Energy (89)                                         -             -            3                 -
     U.S. Army Corps of Engineers (96)                                 -             -            1                 -
     Office of the Secretary of Defense-Defense Agencies (97)          -             -           10                 -
     Treasury General Fund (99)                                        -             -            7                 -
  Total Assets                                                $   36,450    $       45    $     646    $            7




                                                                                                              USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  261
 REQUIRED SUPPLEMENTARY INFORMATION




Liabilities
            FY 2004                                                                          Resources
                                                                   Accounts                  Payable to
                                                                   Payable         Debt       Treasury        Other
    Trading Partner (Code)
        Unidentified (00)                                          $      4    $         -   $        -   $       205
        Architect of the Capitol (01)                                     -              -            -            (5)
        Government Printing Office (04)                                   -              -            -             -
        Department of Commerce (13)                                       -              -            -             3
        Department of Interior (14)                                       -              -            -           129
        Department of Justice (15)                                        -              -            -            22
        Department of Labor (16)                                          -              -            -           166
        Department of the Navy (17)                                       -              -            -             -
        U.S. Postal Service (18)                                          -              -            -             1
        Department of State (19)                                          -              -            -            (4)
        Department of the Treasury (20)                                   1         69,053            -            20
        Department of the Army (21)                                       -              -            -             5
        Office of Personnel Management (24)                               -              -            -            39
        General Services Administration (47)                              -              -            -            21
        Tennessee Valley Authority (64)                                   -              -            -             1
        Environmental Protection Agency (68)                              -              -            -             1
        Department of Transportation (69)                                 -              -            -             1
        Department of Homeland Security (70)                              -              -            -             -
        Agency for International Development (72)                       804              -            -             1
        Department of Health and Human Services (75)                      -              -            -            30
        Department of Energy (89)                                         -              -            -             1
        U.S. Army Corps of Engineers (96)                                 -              -            -          (133)
        Office of the Secretary of Defense-Defense Agencies (97)          -              -            -             1
        Treasury General Fund (99)                                        -              -       17,469           887
    Total Liabilities                                              $    809    $    69,053   $   17,469   $     1,392



            FY 2003                                                                          Resources
                                                                   Accounts                  Payable to
                                                                   Payable         Debt       Treasury        Other
    Trading Partner (Code)
        Unidentified (00)                                          $       4   $         -   $        -   $       289
        Architect of the Capitol (01)                                      -             -            -             -
        Government Printing Office (04)                                    -             -            -            (2)
        Department of Commerce (13)                                        -             -            -             2
        Department of Interior (14)                                        -             -            -            17
        Department of Justice (15)                                         -             -            -            24
        Department of Labor (16)                                           -             -            -           186
        Department of the Navy (17)                                        -             -            -            (1)
        U.S. Postal Service (18)                                           -             -            -             -
        Department of State (19)                                           -             -            -            (4)
        Department of the Treasury (20)                                    -        76,140            -           242
        Department of the Army (21)                                        -             -            -             4
        Office of Personnel Management (24)                                -             -            -            28
        General Services Administration (47)                               -             -            -            22
        Tennessee Valley Authority (64)                                    -             -            -             -
        Environmental Protection Agency (68)                               -             -            -             -
        Department of Transportation (69)                                  -             -            -             -
        Department of Homeland Security (70)                               -             -            -             1
        Agency for International Development (72)                      1,202             -            -             4
        Department of Health and Human Services (75)                       -             -            -             -
        Department of Energy (89)                                          -             -            -             -
        U.S. Army Corps of Engineers (96)                                  -             -            -          (100)
        Office of the Secretary of Defense-Defense Agencies (97)           -             -            -             1
        Treasury General Fund (99)                                         -             -       16,981         2,224
    Total Liabilities                                              $   1,206   $    76,140   $   16,981   $     2,937




 USDA
  262                            FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                   REQUIRED SUPPLEMENTARY INFORMATION




Earned Revenue
                                                                      FY 2004        FY 2003
     Earned Revenue:
       Trading Partner (Code)
       Unidentified (00)                                          $         14   $         (2)
       Library of Congress (03)                                              1              1
       General Accounting Office (05)                                        1              1
       Executive Office of the President (11)                                1              1
       Department of Commerce (13)                                           6              6
       Department of Interior (14)                                          60             80
       Department of Justice (15)                                           19             16
       Department of Labor (16)                                             19             27
       Department of the Navy (17)                                           2              2
       U.S. Postal Service (18)                                              1              1
       Department of State (19)                                              4              4
       Department of the Treasury (20)                                     631            658
       Department of the Army (21)                                          28             19
       Office of Personnel Management (24)                                   3              2
       Smithsonian Institution (33)                                          -              1
       Department of Veterans Affairs (36)                                   -              1
       General Services Administration (47)                                 50             53
       Federal Deposit Insurance Corporation (51)                            1              2
       Department of the Air Force (57)                                      1             (4)
       Environmental Protection Agency (68)                                  6              7
       Department of Transportation (69)                                    15             20
       Department of Homeland Security (70)                                 15            114
       Agency for International Development (72)                            67              9
       Small Business Administration (73)                                    1              -
       Department of Health and Human Services (75)                          9              5
       National Aeronautics and Space Administration (80)                    1              2
       Department of Housing and Urban Development (86)                      1              2
       Department of Energy (89)                                             5             17
       Independent Agencies (95)                                             1              -
       U.S. Army Corps of Engineers (96)                                    17             15
       Office of the Secretary of Defense-Defense Agencies (97)             13             13
     Total Earned Revenue                                         $        993   $      1,073




Cost to Generate Earned Revenue
                                                                      FY 2004        FY 2003

     Functional Classification
        350 Agriculture                                           $       709    $       630
     Total Cost to Generate Revenue                               $       709    $       630




                                                                                               USDA
            FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                        263
 REQUIRED SUPPLEMENTARY INFORMATION




Cost
                                                                    FY 2004         FY 2003
   Trading Partner (Code)
     Unidentified (00)                                          $        102    $      1,461
     Library of Congress (03)                                              1               1
     Government Printing Office (04)                                      25              17
     General Accounting Office (05)                                       11              21
     Department of Commerce (13)                                          84             109
     Department of Interior (14)                                          11              15
     Department of Justice (15)                                          102             153
     Department of Labor (16)                                              2               7
     Department of the Navy (17)                                          10              19
     U.S. Postal Service (18)                                             31              36
     Department of State (19)                                          3,914           3,927
     Department of the Treasury (20)                                       7               7
     Department of the Army (21)                                       1,639           1,502
     Office of Personnel Management (24)                                   6              10
     Social Security Administration (28)                                   4               1
     Department of Veterans Affairs (36)                                 487             384
     General Services Administration (47)                                  1               1
     Office of Special Counsel (62)                                        1               1
     Tennessee Valley Authority (64)                                       9             199
     Environmental Protection Agency (68)                                 (7)            (39)
     Department of Transportation (69)                                  (188)              -
     Department of Homeland Security (70)                                  1               -
     Department of Health and Human Services (75)                        134              24
     National Aeronautics and Space Administration (80)                    4               6
     Department of Energy (89)                                             9               7
     Department of Education (91)                                          1               1
     Federal Mediation and Conciliation Service (93)                       -               1
     Independent Agencies (95)                                             -               1
     U.S. Army Corps of Engineers (96)                                    18               8
     Office of the Secretary of Defense-Defense Agencies (97)             11               5
     Treasury General Fund (99)                                            -               3
   Total Cost                                                   $      6,430    $      7,888




 USDA
 264                  FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                    REQUIRED SUPPLEMENTARY INFORMATION




Non-exchange Revenue
                                                      FY 2004                     FY 2003
                                               Transfers-  Transfers-      Transfers-  Transfers-
                                                   In         Out              In         Out
Trading Partner (Code)
   Unidentified (00)                            $      395   $     (376)   $   2,189    $ (1,843)
   Department of Commerce (13)                           -          (80)           3           -
   Department of Interior (14)                         131          (13)           -           -
   Department of Justice (15)                            1            -            -           -
   Department of Labor (16)                            100           (1)         108           -
   Department of State (19)                              5            -            6           -
   Department of the Treasury (20)                       -            -            -           -
   Appalachian Regional Commission (46)                 16            -           16           -
   Department of Transportation (69)                    12            -            -           -
   Department of Homeland Security (70)                 30         (194)           -        (151)
   Agency for International Development (72)             -         (696)           -      (1,196)
   Department of Health and Human Services (75)          -            -           58           -
   Independent Agencies (95)                             3            -            -           -
   Treasury General Fund (99)                        5,930       (3,991)       6,954      (4,592)
Total Non-exchange Revenue                     $     6,623   $ (5,351)     $   9,334    $ (7,782)




                                                                                            USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                   265
 REQUIRED SUPPLEMENTARY INFORMATION




Segment Information
The Departmental Working Capital Fund and the FS Working Capital Fund are not reported separately in the
consolidated financial statements. The following information summarizes the working capital funds’ financial
condition and results of operations as of and for the fiscal years ending September 30, 2004, and 2003.
        FY 2004                                   Departmental         Forest Service           Total
                                                 Working Capital       Working Capital      Working Capital
                                                     Fund                   Fund                Funds
Condensed Information
   Fund Balance                                   $          109        $          139       $          248
   Accounts Receivable                                        29                     3                   32
   Property, Plant, and Equipment                             52                   242                  294
   Other Assets                                                1                     -                    1
Total Assets                                      $          191        $          384       $          575
Liabilities and Net Position
   Accounts Payable                               $            2        $            1       $            3
   Other Liabilities                                          77                    24                  101
   Unexpended Appropriations                                  87                     9                   96
   Cumulative Results of Operations                           25                   350                  375
Total Liabilities and Net Position                $          191        $          384       $          575
                                                                                                 Excess of
                                                  Cost of Goods              Related             Costs Over
                                                  and Services              Exchange             Exchange
                                                    Provided                Revenue               Revenue
Product or Business Line
Departmental Working Capital Fund:
   Finance and Management                         $          257        $          250       $             7
   Communications                                             11                    11                     -
   Information Technology                                     96                    97                    (1)
   Administration                                             34                    33                     1
   Executive Secretariat                                       3                     3                     -
Total Departmental Working Capital Fund                      401                   394                     7
Forest Service Working Capital Fund:
   Other                                                     263                   238                    25
Total Working Capital Funds                       $          664        $          632       $            32




 USDA
  266                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                REQUIRED SUPPLEMENTARY INFORMATION




       FY 2003                             Departmental     Forest Service        Total
                                          Working Capital   Working Capital   Working Capital
                                              Fund               Fund             Funds
Condensed Information
   Fund Balance                           $          86     $         134     $          220
   Accounts Receivable                               17                 1                 18
   Property, Plant, and Equipment                    47               275                322
   Other Assets                                       4                 -                  4
Total Assets                              $         154     $         410     $          564
Liabilities and Net Position
   Accounts Payable                       $           2     $           1     $            3
   Other Liabilities                                 55                34                 89
   Unexpended Appropriations                         44                 -                 44
   Cumulative Results of Operations                  53               375                428
Total Liabilities and Net Position        $         154     $         410     $          564
                                                                                  Excess of
                                          Cost of Goods          Related          Costs Over
                                          and Services          Exchange          Exchange
                                            Provided            Revenue            Revenue
Product or Business Line
Departmental Working Capital Fund:
   Finance and Management                 $         222     $         203     $            19
   Communications                                     6                 6                   -
   Information Technology                            89                87                   2
   Administration                                    33                28                   5
   Executive Secretariat                              2                 2                   -
Total Departmental Working Capital Fund             352               326                  26
Forest Service Working Capital Fund:
   Other                                            369               224                145
Total Working Capital Funds               $         721     $         550     $          171




                                                                                        USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                               267
 REQUIRED SUPPLEMENTARY INFORMATION




Departmental Working Capital Fund
Services provided by the Departmental Working Capital Fund include the following:
 Administrative and Supply Services;
 Video, Teleconferencing, Graphic and Exhibit Services;
 Payroll, Accounting and Administrative Services and Thrift Saving Plan Support;
 ADP Services, Application Development and Telecommunications Services; and
 Executive correspondence control and tracking.
Major customers of the fund are the FS and the Thrift Investment Board.

Forest Service Working Capital Fund
Services provided by FS Working Capital Fund include the following:
 Fleet services, rental and maintenance;
 Aircraft services, operation and maintenance;
 Supply services; and
 Computer services.
Major customers of the fund are FS units.




 USDA
  268                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                       U.S. Department of Agriculture

                                            Office of Inspector General
                                             Financial & IT Operations




                 Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2004 and 2003



  (Pages 269 through 303 have intentionally been left blank.
 OIG’s Report is included in the first section of this document.)




                                                Report No. 50401-53-FM
                                                        November 2004
VI. APPENDICIES




USDA
 304       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      APPENDICES




APPENDIX A—MANAGEMENT CHALLENGES




                                                            USDA
      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          305
APPENDICES




USDA
306          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          307
APPENDICES




USDA
308          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          309
APPENDICES




USDA
310          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          311
APPENDICES




USDA
312          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          313
APPENDICES




USDA
314          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          315
APPENDICES




USDA
316          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          317
APPENDICES




USDA
318          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          319
APPENDICES




USDA
320          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          321
APPENDICES




USDA
322          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          323
APPENDICES




USDA
324          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          325
APPENDICES




USDA
326          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          327
APPENDICES




USDA
328          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                APPENDICES




                                                      USDA
FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT          329
APPENDICES




USDA
330          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                 APPENDICES




APPENDIX B—ERRONEOUS PAYMENTS AND RECOVERY AUDITING
DETAILS
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management
and Budget’s (OMB) Circular A-11, “Preparation, Submission and Execution of the Budget.” This document
provides guidance on preparing the FY 2006 budget submission, including instructions on budget execution.
Section 57 of A-11 lists approximately 40 Government programs on which agencies were required to report
(e.g., the Food Stamp Program, the National School Lunch Program, Medicaid, Medicare).
Under the Improper Payments Information Act (IPIA), executive agencies must identify any of its programs that
may be susceptible to significant improper payments. IPIA also calls for agencies to estimate the annual amount
of improper payments and submit those estimates to Congress. Section 831 of the Defense Authorization Act of
2002 requires recovery auditing. In this process, agencies that enter into contracts worth more than $500 million
in a fiscal year must execute a cost-effective program for identifying errors made in paying contractors and
recovering amounts erroneously paid to the contractors. FY 2004 marked the first full year of implementation
for both IPIA and recovery auditing.
USDA is taking steps to implement IPIA. The Department worked to ensure that all programs were identified
and risk assessments completed to identify those considered high-risk. However, risk assessments of the Farm
Service Agency programs were not fully completed in FY 2004. Developing a good risk-assessment process in
the first year also will assist in meeting the annual requirement. USDA is working with OMB to determine how
best to complete statistical samples of the programs identified as high risk. Due to budget and program
constraints, this can be a complicated and expensive process. For the programs that cannot become fully
compliant with IPIA in FY 2005, USDA is working with OMB to develop interim methods to establish and
track erroneous payment percentages. The Department plans to have all high-risk programs either fully
compliant or interim methods for FY 2005 reporting. These methodologies include aging analysis of available
data to determine erroneous payment trends, and performing component studies. The specific sampling
methodologies used for the high-risk programs and plans to become fully compliant are discussed fully in
sections III-V below.
Additionally, USDA is taking steps to implement recovery auditing. Most USDA agencies implemented in-
house auditing of a limited number of contracts. Two agencies, Forest Service and Departmental
Administration, agreed to use a recovery auditing contractor as a USDA pilot. Most audits will be completed
during the first half of FY 2005. Then USDA will determine the best methodology to be used for a cost-
effective recovery auditing program. As this is the first year of recovery auditing, it is expected that future
administrative costs of the program will be lower as USDA gains proficiency.




                                                                                                          USDA
                FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                               331
 APPENDICES




USDA completed the following OMB-provided template for IPIA reporting:

   I.      Describe your agency’s risk assessment premise(s) and process(es) that you performed
           subsequent to compiling your full program inventory. List the risk-susceptible programs
           identified through your risk assessments. Include the programs previously identified in the
           former Section 57 of OMB Circular A-11.
   USDA agencies evaluated all program activities using the OMB guidance definition for high-risk (>2.5
   percent and $10 million). The information used to assess risk included:
        Management information, such as program-evaluation reviews, surveys and studies of specific
            programs, and administrative data collected through routine reporting;
        Office of Inspector General (OIG) & Government Accountability Office reports, including
            audits, inspections, reviews and investigations;
        Internal reviews of the existing processes and controls; and
        Management knowledge of daily program and financial operations.
   After risk assessments were completed, OIG audited a sample of them to determine if improvements
   could be implemented.

        Selection Methodology                    Agency                                     Program
                                   Farm Service Agency (FSA),              Marketing Assistance Loan Program
                                   Commodity Credit Corporation (CCC)
   Section 57 of OMB                                                       Food Stamp Program
   Circular A-11                                                           School Programs
                                   Food Nutrition Service (FNS)
                                                                           Special Supplemental Nutrition Program for
                                                                           Woman, Infants and Children
                                   Food Nutrition Service (FNS)            Child and Adult Care Food Program
                                   Forest Service (FS)                     Wildland Fire Suppression Management
                                   Rural Development (RD)                  Rental Assistance Program
   USDA Identified as Risk-
   Susceptible                     Risk Management Agency (RMA)            Federal Crop Insurance Corporation Program
                                                                           Fund
                                   Natural Resources Conservation
                                                                           Farm Security and Rural Investment Programs
                                   Service (NRCS)



   II.     Describe the statistical sampling process conducted to estimate the improper payment rate
           for each program identified.

        Agency        Program                                          Sampling Process
   FSA/CCC         Marketing          FSA hired a contractor to develop an approach for completing the statistical-
                   Assistance         sampling process. The contractor is collecting data from the field offices where it
                   Loan Program       originates to improve the quality of the sampling and review process, and obtain
                   (MAL)              MAL application information unavailable in the Kansas City or the Washington
                                      offices. The sampling process begins with data provided by the producer and ends
                                      with disbursement. The sampling work and related analysis are projected for
                                      completion by December 2004.
   FNS             Food Stamp         The FSP payment-error rate is developed from a long-standing program integrity
                   Program (FSP)      process called Quality Control (QC). The QC system reviews and measures the
                                      accuracy of household certifications using a statistical-sampling process initially
                                      established in 1970. The system is mandated by the Food Stamp Act and further
                                      defined in program regulations and agency guidance. Specific procedures are
                                      established in three handbooks: Sampling Methodology, State Review Procedures
                                      and Federal Validation Reviews. This well-designed and controlled process yields
                                      quality data with a confidence level for accuracy that complies with IPIA.




 USDA
  332                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                           APPENDICES




 Agency    Program                                              Sampling Process
FNS        FSP (cont’d)      During the process:
                              States select a statistical sample from all participating households. This
                                  occurs after the monthly issuance amount for households has been
                                  determined. It follows the Federally pre-approved sampling plan devised for
                                  that fiscal year;
                              State personnel conduct QC reviews on the cases selected;
                              States report the findings of all QC reviews to FNS;
                              FNS conducts validation reviews of a statistical sample of the completed State
                                  reviews;
                              The results of the Federal validation and State findings are used to calculate a
                                  final error rate for each State agency. These individual rates have been used
                                  previously to assess penalties against States with high rates and award
                                  incentives to those with low rates; and
                              Official State error rates are weighted annually to determine a national
                                  average error rate for the Food Stamp Program.
FNS        School            “School Programs” includes three components: National School Lunch Program
           Programs          (NSLP), School Breakfast Program (SBP) and Special Milk Program.
                             School Programs were unable to estimate an improper payment rate for FY 2004.
                             Section IV discusses the difficulties in estimating a rate and includes detailed plans
                             to calculate the rate in the future.
FNS        Woman,            WIC was unable to estimate an improper payment rate for FY 2004. Section IV
           Infants and       discusses the difficulties in estimating a rate and includes detailed plans to
           Children (WIC)    calculate the rate in the future.
FNS        Child and Adult   CACFP was unable to estimate an improper payment rate for FY 2004. Section IV
           Care Food         discusses the difficulties in estimating a rate and includes detailed plans to
           Program           calculate the rate in the future.
           (CACFP)
FS         Wildland Fire     FS entered into a contract with a recovery audit contractor. This will result in fulfilling the
           Suppression       requirements of both IPIA and the recovery audit initiative. The risk for erroneous
           Management        payments in the Wildland Fire Suppression Management program is through the
                             procurement contracts. The recovery auditors also will have access to disbursement
                             data in FS to find possible disbursing errors in addition to the procurement contracts.
                             The number of erroneous payments detected through the recovery audit work will
                             determine the erroneous-payment rate for this program. The FS will work with OMB and
                             OCFO to ensure that the program is tested fully and meets the goals of IPIA.
RD         Rental            The statistical sample for this review was based on the universe of multifamily properties
           Assistance        in the Rural Housing Service multifamily portfolio that receive rental assistance. From
           Program           the universe of properties that receive rental assistance (13,186), a statistically valid
                             sample of 2 percent of the properties was selected to achieve a 95-percent confidence
                             level. RD conducted the audit program in July and collected and analyzed data from the
                             field in August and September.
RMA        Federal Crop      Under the terms of the Standard Reinsurance Agreement, the companies are provided
           Insurance         a random sample of indemnity payments to review at the completion of each crop year.
           Corporation       RMA selects the policies from the entire population of indemnities paid. The companies
           Program Fund      then are required to complete a full review of the payments, correct errors according to
                             procedure and report the results to RMA. For the current cycle, the companies reviewed
                             1,575 polices with $44,346,567 in indemnities. RMA will use this interim process for the
                             2003 and 2004 reinsurance year. Starting with the 2005 reinsurance year, RMA will
                             begin using random policy selections from company operations reviews to develop a
                             rolling Program Error Rate. RMA will complete a review of all participating companies
                             once every three years. Accordingly, the first full review cycle will be complete by the
                             end of 2007.
NRCS       Farm Security     NRCS is developing plans to perform the first statistical sample in FY 2005. The
           and Rural         sample may be performed in house or by a contractor. Potential areas of risk for
           Investment        erroneous payments include ineligible participants receiving benefits, a participant
           Programs          exceeding program limits for total assistance and errors in cost-sharing
                             calculations. In coordination with OCFO and OMB, NRCS will develop an action
                             plan to achieve IPIA compliance by November 30, 2004. The plan will include a
                             timeline and be structured to meet the goals of the new President’s Management
                             Agenda criteria.




                                                                                                                       USDA
          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                  333
APPENDICES




 III. Explain the corrective action plan(s) your agency plans to implement to reduce the
      estimated rate of improper payments. Include in this discussion what is seen as the cause(s)
      of errors and the corresponding steps necessary to prevent future occurrences. If efforts are
      already underway, and/or have been ongoing for some length of time, it is appropriate to
      include that information in this section.

      Agency     Program                                   Corrective Actions Planned
 FSA           Marketing       FSA has completed its risk assessment of MAL and, while it was determined that
               Assistance      the program has a low risk for improper payments, the statistical-sampling process
               Loan Program    will confirm the actual level of erroneous payments. The sampling contractor also
               (MAL)           has been requested to provide information concerning the cause of erroneous
                               payments and recommendations on how Commodity Credit Corporation (CCC) can
                               reduce or eliminate those causes. The primary source for errors that result in
                               erroneous payments relate to the information that is provided by the producer
                               concerning the collateral being offered for the loan. CCC has introduced new
                               technology to assist in the confirmation of the type of commodities grown by the
                               producer and assist in determining whether the quantity being offered is
                               reasonable.
 FNS           Food Stamp      Program regulations require State agencies to analyze data to develop corrective-
               Program (FSP)   action plans to reduce or eliminate program deficiencies. A State must develop a
                               QC corrective-action plan addressing the causes of errors detected through the
                               original process. This plan should be in place when the State’s combined payment-
                               error rate is, equals or exceeds 6 percent, or its negative-case error rate is more
                               than 1 percent. Corrective action also is required whenever underpayments result
                               from State agency rules, practices or procedures. Most States have developed
                               corrective actions to address deficiencies revealed in their FY 2002 QC data.
                               FNS regional offices work directly with States to assist them in developing effective
                               corrective-action strategies to reduce payment errors. Regional offices provide
                               many forms of technical assistance to States, such as:
                                Analyzing data;
                                Reviewing and monitoring corrective-action plans;
                                Developing strategies for error reduction and corrective action;
                                Participating on boards and in work groups; and
                                Hosting, attending and supporting payment-accuracy conferences.
                               FNS also administers a State Exchange Program whereby funds are provided to
                               States to facilitate travel to obtain, observe and share information on best practices
                               and most effective techniques for error reduction. Coalitions have been formed
                               among States to promote partnerships, information exchange and collaborative
                               efforts, which address mutual concerns and support development of effective
                               corrective action.
                               While the above strategies are designed to help States stop erroneous payments,
                               a claims-collection process to recover overpayments also is an important
                               mechanism for correcting errors. Although FSP regulations provide States with
                               flexibility in their claims operation, one of the requirements is that a claim be
                               pursued if an overpayment is discovered during a QC review.
                               The above activities have been determined to be both cost efficient and effective
                               toward reducing FSP payment errors. The FSP will continue to build upon and
                               refine its activities in small increments absent a significant increase in funding for
                               payment accuracy.

 FNS           School          In the NSLP and SBP, erroneous payments potentially can occur when ineligible
               Programs        households misreport income at application, are approved for free or reduced-price
                               meals, and then receive them. Such payments also can occur when a school
                               incorrectly certifies a student as eligible for meal benefits, or submits inaccurate
                               claims for meals that were misclassified, not served or failed to meet program
                               requirements.




USDA
334                    FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                 APPENDICES




 Agency       Program                               Corrective Actions Planned
FNS        School       In recent years, there has been growing evidence of errors in certifying students for
           Programs     subsidized school meals. While certification errors alone do not result in a loss to
           (cont’d)     the Government – loss occurs when ineligible students actually receive meals –
                        these errors represent a significant risk for erroneous payments. In response, FNS
                        has taken such actions as participating in several demonstration projects to
                        understand the extent and nature of the problem better. FNS also is working with
                        program partners to improve certification in the context of current regulations, and
                        exploring alternatives to and/or improvements in the process.
                        One such effort is the collection of data on eligibility determination and verification
                        efforts at the school food authority (SFA) level. States will be expected to identify
                        and resolve problems with the certification and verification processes based on
                        these data. A number of key data elements also will be reported to FNS. These
                        elements include certification type (direct certification or application), verifications
                        conducted and their results. These will be used over time to explore regulatory,
                        policy and training efforts to improve the accuracy and reliability of the income
                        eligibility-determination process. Initial reporting for School Year 2003-04 is
                        optional. Reports from all SFAs are required first on School Year 2004-05 and due
                        to FNS in March 2005.
                        Planned Actions to Measure Erroneous Payments: FNS has secured resources
                        and entered into a contract in September to conduct a nationally representative
                        study of the NSLP eligibility determination process and establish the first
                        erroneous-payments rate. FNS currently projects completion of an erroneous
                        payments rate for School Year 2005-2006 in FY 2007. Because of the scope and
                        cost of this study, it is more prudent to repeat it on a multi-year cycle. With
                        appropriate funding approval, FNS will repeat this type of study and produce an
                        erroneous payment measurement every five years. Also, as part of the current
                        project, FNS intends to develop a methodology that uses data available from other
                        sources to measure erroneous payments on a component of the NSLP on an
                        annual basis.
                        In the interim (before the nationally representative erroneous payments rate is
                        available in FY 2007), FNS is planning to monitor/assess two components of the
                        program:
                         Conducting annual on-site reviews focused on the certification and verification
                              process. One important source of certification error that FNS has identified is
                              SFA errors in certifying and verifying applications. In 2002, FNS conducted
                              on-site reviews at 14 SFAs. It determined that 6 percent of the SFAs’ eligibility
                              determinations were incorrect due to administrative errors. Training and
                              technical assistance is being developed to help SFAs improve the accuracy of
                              these processes. FNS plans to repeat this review process annually using a
                              statistical sample of SFA eligibility determinations. It will be used to measure
                              changes in administrative error rates. Beginning in 2007, this component also
                              will be associated with an estimate of dollars in error. This will allow FNS to
                              assess the impact of its corrective action, and target and focus future
                              activities; and
                         Comparing annual demographic data on the number of children eligible for
                              school meals with the number of children actually certified. One of the sources
                              of data originally used to assess the extent of the problem of certification error
                              was a comparison of national survey data on household income with
                              administrative data on NSLP certification. FNS plans to resume the use and
                              publication of this analysis annually. Data from the Survey on Income and
                              Program Participation (SIPP) will be compared with State-reported
                              administrative data on the number of free and reduced price certifications.
                              SIPP is administered by the U.S. Census Bureau. While this comparison has
                              some methodological weaknesses and cannot substitute for the payment error
                              estimate required under IPIA, the comparison does provide an annual error
                              indicator that will help gauge changes in the rate of certification error. It also
                              will determine the effectiveness of administrative initiatives intended to
                              improve certification accuracy. Reporting of this data will resume in 2006
                              using FY 2005 data.




                                                                                                             USDA
          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        335
APPENDICES




      Agency     Program                                    Corrective Actions Planned
 FNS           Woman,           Erroneous WIC payments potentially can occur at the participant level (ineligible
               Infants and      persons receive benefits) and/or the vendor level (WIC food instruments redeemed
               Children (WIC)   for foods not received, provided at excess prices or for unauthorized items). FNS
                                periodically has constructed estimates relating to these types of errors:
                                    Certification error: The 1988 WIC Income Verification Study found that 5.7
                                     percent of program participants actually were income ineligible. The 1998
                                     National Survey of WIC Participants yielded an estimate of 4.5 percent. The
                                     estimate was lower – 2.9 percent – in the subset of States that had income-
                                     documentation requirements at application (Both estimates only considered
                                     income eligibility. Although nutritional risk also is required to be eligible for
                                     WIC, a recent review by the National Academies’ Institute of Medicine found
                                     that the great majority of those otherwise eligible for WIC also have one or
                                     more nutritional risks);
                                    Vendor error: The 1998 WIC Vendor Management Study estimates that
                                     vendor overcharges represent between 0.9 and 1.6 percent of total program
                                     payments. Undercharges are estimated at between 0.4 and 0.6 percent.
                                     These rates are very similar to those found in a 1988 study.
                                Recent studies show that both participant and vendor error in the WIC Program
                                have remained fairly stable despite major program growth from 1988-1998.
                                Further, since these most recent measurements were made, FNS has taken
                                substantial actions to reduce error, including:
                                 Changing program rules so that WIC applicants now are required to document
                                     income;
                                 Publishing a final rule in December 2000 on food-delivery systems that
                                     strengthened retail vendor management by establishing mandatory vendor-
                                     selection criteria, vendor-training requirements, criteria to be used to identify
                                     high-risk vendors and such vendor-monitoring requirements as compliance
                                     investigations; and
                                 Supporting the development of WIC electronic benefit transfer (EBT) systems.
                                     EBT is an electronic system that allows a recipient to authorize the transfer of
                                     his or Government benefits from a Federal account to a retailer account to pay
                                     for products received. Because these systems require a personal identification
                                     number entry prior to retail transactions and the validation of WIC-authorized
                                     foods by Universal Product Codes, participant and vendor error should be
                                     minimized. An evaluation of operational WIC EBT systems thus far indicates
                                     that participant and vendor error related to the retail transaction process is
                                     virtually eliminated.
                                Planned Actions to Measure Erroneous Payments: FNS plans to
                                continue periodic examinations of certification and vendor error in WIC.
                                Certification Error: The next decennial national study to measure certification
                                error in the WIC Program is scheduled for 2008. This study will include a first
                                measurement of the amount of erroneous payments associated with certification
                                error. While previous studies did not include any determination of erroneous
                                payments, FNS has collected and continues to collect selected demographic,
                                income and other characteristics on a near census of WIC program participants
                                every two years. From this, data that most strongly correlate with error, along with
                                other administrative data and data from the 1998 study were used to develop aged
                                estimates of the WIC certification error rate since 1998. When the data from the
                                1998 decennial study is applied to the demographic, it provides a trend in the error
                                rate over a six-year period. This error rate remains constant at 2.6-percent. A
                                similar method or an improved alternative (conditional upon funding for its
                                development) will be used to develop estimates for the years following the 2008
                                study.




USDA
336                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                    APPENDICES




 Agency       Program                                   Corrective Actions Planned
FNS        WIC (cont’d)      Vendor Error: The vendor-management study currently underway will provide a
                             national erroneous payments estimate of vendor charges. This information, for FY
                             2005 activity, will be available in 2006. Subsequently, FNS will generate an annual
                             update for the improper payment measurement of this vendor component using
                             statistical techniques. FNS is exploring options for aging this estimate for the years
                             following this study using existing administrative data. Although FNS has not
                             determined a specific approach, the agency is continuing to explore other options.
                             These options include focusing on information on high-risk vendors and information
                             from States which might serve as “sentinel sites.” If an acceptable method for aging
                             cannot be developed using existing data, FNS could develop a regulatory proposal
                             requiring limited new data collection and reporting by the States on not more than 1
                             percent of WIC vendors.
FNS        Child and Adult   Because payments and claim information must be transferred between FNS, State
           Care Food         agencies, program sponsors and program sites, and requirements vary between
           Program           different types of program sponsors and sites, a full and rigorous assessment of
           (CACFP)           the rate of erroneous payments in CACFP is extremely complex. Despite this, FNS
                             has undertaken significant action recently to improve program management in an
                             effort to reduce erroneous payment risks.
                             Based on recommendations from FNS, USDA’s Office of the Inspector General
                             (OIG) initiated a series of audits beginning in 1996 of CACFP’s family daycare
                             home (FDCH) component–a part of the program that is particularly vulnerable to
                             erroneous payment risks. Problems which resulted in erroneous payments were
                             areas attributed to:
                                 A lack of operational record keeping;
                                 Unsupported claims;
                                 The claiming of unallowable costs;
                                 A lack of the required provider training and monitoring;
                                 Health and safety violations; and
                                 Money laundering.
                             Because of the program’s structure, claiming unallowable costs and money
                             laundering only occurred at the sponsoring organization level, while health and
                             safety violations were limited to the daycare homes level. The remaining errors
                             occurred at both the sponsoring organization and the daycare homes. Some of
                             these errors were attributed to a lack of effective oversight by the sponsoring
                             organization.
                             As these problems were identified, FNS initiated a series of actions to address the
                             problems, including:
                              Working with Congress to enact legislation to improve CACFP oversight and
                                  accountability. Interim regulations implementing these laws have been
                                  published;
                              Developing new management-improvement guidance for program
                                  cooperators;
                              Training all State agencies on implementing statutory and regulatory changes
                                  and providing new management-improvement guidance materials;
                              Proposing additional discretionary changes designed to improve management
                                  and accountability. An interim rule implementing changes is planned for 2004;
                              Revising monitoring tools to evaluate State agencies’ and institutions’
                                  implementation of CACFP better and support State agency oversight efforts;
                                  and
                              Initiating an FY 2005 budget request to fund the development of methods and
                                  data to produce a measure of erroneous payments in CACFP and other
                                  programs. The request ultimately was not included in the President’s Budget.

                             Planned Actions to Measure Erroneous Payments: As noted above, FNS
                             does not have the resources to develop a measurement approach for erroneous
                             payments in CACFP. FNS will renew a request for resources in the FY 2006
                             budget process. This will enable FNS to pursue the development of a
                             measurement methodology that would yield the nationally representative estimate
                             required under the Improper Payments Information Act (IPIA). FNS projects that a
                             measurement for FY 2009 would be available in 2010. In the interim, FNS has
                             designed two activities to improve the integrity of CACFP family daycare homes.




                                                                                                               USDA
          FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                         337
APPENDICES




      Agency      Program                                   Corrective Actions Planned
 FNS           CACFP               Tiering Error—Beginning in 2005 and implemented annually thereafter,
               (cont’d)              FNS will measure the level of erroneous payments due to sponsor error in the
                                     classification of FDCHs for Tier 1 or Tier 2 program reimbursement. Tiering
                                     determination error can result in both over and underpayments. An annual
                                     review of a statistical sample of sponsor tiering determinations will be used
                                     along with payment records to determine the percent and amount of error for
                                     this component.
                                Child Care Assessment Project—Currently, FNS measures the
                                     effectiveness of the series of actions mentioned above. Over a four-year
                                     period, starting in the spring of 2004, FNS will conduct comprehensive on-site
                                     assessments of a sample of participating family day care home sponsors.
                                     These assessments are designed to analyze the effectiveness of FNS
                                     regulatory and policy initiatives on program performance in the areas of
                                     vulnerability identified by OIG. Key program elements that will be reviewed
                                     include:
                                    − Compliance with record keeping requirements;
                                    − Supportability of claims for meal reimbursement at FDCH, including:
                                    − Claiming meals not served;
                                    − Claiming meals served to ineligible participants;
                                    − Claiming meals to nonparticipants;
                                    − Claiming meals not meeting meal pattern requirements;
                                    − Claiming meals to absent, but eligible, participants; and
                                    − Claiming meals in excess of per participant per day maximum.
                                Unsupported claims for meal reimbursement by sponsoring organization,
                                     including:
                                    − Incorrect consolidation of FDCH meal counts;
                                    − Misclassification of meals by eligibility category; and
                                    − Inadequate editing of FDCH meal claims (i.e., failure to identify ineligible
                                         meal claims by FDCHs).
                               Data on these elements will be collected from a selected number of program
                               sponsors annually. Review and collection of data on the prevalence of these
                               program problems will help FNS assess which aspects of its management-
                               improvement efforts are most effective and which areas require additional attention
                               or focus. It also will offer additional insights on the control points in the claiming and
                               reimbursement process that cause or contribute to improper payments most
                               frequently. This information also will help to support the effort to develop
                               measurement strategies to estimate CACFP erroneous payments pursuant to IPIA.
 FS            Wildland Fire   The recovery auditing contract includes recommendations for control
               Suppression     improvements to mitigate future overpayments. Management improvement plans
               Management      will be developed based on the type and number of erroneous payments found and
                               the control improvements recommended by the recovery auditor. Data-mining
                               activity is expected to begin in November with preliminary results available by
                               December 31, 2004. The first recoveries are expected to occur in the second
                               quarter of FY 2005.
 RD            Rental          RD began the study in July. It collected and analyzed the data in August and
               Assistance      September. Final results of the study, with findings and recommendations for
               Program         corrective action, will be available for publication in December.
 RMA           Federal Crop    RMA is implementing revised procedures to determine the program error rate in the
               Insurance       future. OIG has questioned the results of the current process. Thus, RMA has
               Corporation     renegotiated a new standard reinsurance agreement that will redirect company
               Program Fund    reviews to targeted anomalous policies. The agency has completed the first of the
                               company program reviews that include its staff reviewing a random sample of
                               policies. RMA then will compile the results of these reviews on an ongoing basis to
                               identify the program-error rate in the future. Current plans call for the review cycle
                               to be completed at least triennially.
 NRCS          Farm Security   The statistical sampling planned for FY 2005 will determine the exact causes and
               and Rural       rates of erroneous payments. NRCS will use the results of the sample to develop a
               Investment      corrective action plan. Potential areas of risk for erroneous payments include
               Programs        ineligible participants receiving benefits, a participant exceeding program limits for
                               total assistance and errors in cost-sharing calculations.




USDA
338                       FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                   APPENDICES




IV. The table below is required for each reporting agency:
                      Improper Payment Reduction Outlook FY 2003 – FY 2007
      Based on the rate(s) obtained in Step III, set annual improvement targets through FY 2007.
Currently, the Food Stamp Program (FSP) is the only USDA high-risk program that can calculate over
and underpayments. Additionally, several programs have yet to calculate a baseline erroneous-payment
rate. Below is a detailed table for the FSP and a summary-level table for all high-risk programs. When
a number cannot be provided, it is noted when the agency plans to provide.
                                           Food Stamp Program ($ in millions)
                                                                                                     2005        2006           2007
                          2002 Actual              2003 Actual                 2004 Actual          Target      Target         Target
                       Dollars        Rate       Dollars   Rate           Dollars        Rate        Rate         Rate         Rate
Total Payments         $18.244                  $21.371                  $24.298
Underpayments                       2.10%                     1.59%                   Note #1       1.88%       1.88%          1.88%
Overpayments                        6.16%                     5.05%                    Note #1      5.52%       5.52%          5.52%


                                    Summary of High-Risk Programs ($ in millions)
                                                                                IP %                      IP %             IP %
                                       FY 04                                   Target                    Target           Target
          Program                     Outlays         IP%         IP $          2005                      2006             2007
Marketing Assistance Loan                8,768    Note #2      Note #2       Note #2                    Note #2          Note #2
Program, CCC
Food Stamp Program, FNS                   24,298        Note #1          Note #1        7.4%            7.4%             7.4%
School Programs, FNS                       8,390        Note #3          Note #3        Note #3         Note #3          Note #3
Women, Infants and Children,               4,764        Note #3          Note #3        Note #3         Note #3          Note #3
FNS
Child and Adult Care Food                    1,989      Note #3          Note #3        Note #3         Note #3          Note #3
Program, FNS
Wildland Fire Suppression                     625       Note #4          Note #4        Note #4         Note #4          Note #4
Management, FS
Rental Assistance Program,                    710       Note #5          Note #5        Note #5         Note #5          Note #5
RD
Federal Crop Insurance                       2,500      5.0              125            4.9             4.8              4.7
Corporation Program Fund,
RMA (Note #7)
Farm Security and Rural                      1,027      Note #6          Note #6        Note #6         Note #6          Note #6
Investment Programs, NRCS
Note #1   Actual figures will be available June 2005. The latest error rate of 6.64 percent was calculated in June 2004 for
          FY 2003 activity. Based on USDA exceeding expected performance in reducing errors in the Food Stamp Program,
          USDA is working to update future year improper payment estimates as new information becomes available.
Note #2   FY 2004 statistical testing will be completed in March 2005. Target rates then will be established once the baseline is
          calculated.
Note #3   FNS has worked with OCFO and OMB to develop plans to calculate an error rate fully compliant with IPIA. Currently,
          it is estimated that FNS will be able to calculate these errors rate in FY 2007 for School Programs, FY 2008 for WIC
          and FY 2010 for CACFP. Starting in FY 2005, FNS will be reporting interim error rates using the methodologies
          described in Section IV of this report.
Note #4   This number will be the result of the recovery auditing efforts. The contract results will be available for the FY 2005
          PAR.
Note #5   RD’s results and recommendations were finalized after this report was published.
Note #6   The first statistical sample is planned to be for FY 2005. Improper payment target rates will be developed in
          coordination with OMB after the sample has been completed, the causes of improper payments identified and a
          corrective action plan developed.
Note #7   Improper payment amounts are based on the FY 2003 crop year (February 2003 through January 2004). The
          results presented in this report will not be comparable to the results presented in future reports due to substantial
          changes and improvements planned for the sampling methodology.




                                                                                                                                  USDA
             FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                         339
APPENDICES




 V.    Discuss your Agency’s Recovery Auditing effort, if applicable, including the amount of
       recoveries expected, the actions taken to recover them, and the business process changes
       and internal controls instituted and/or strengthened to prevent further occurrences. (This
       reporting replaces the original legislative requirement for reporting not later than 12/31/04.)

 Description and Evaluation of the Recovery Auditing Program
 USDA has implemented its recovery auditing program at the agency level. Eight Departmental
 components with more than $25 million in contracts developed their own recovery auditing programs.
 These agencies reviewed their contracts, determined which should be exempted and performed
 recovery audits with agency staff. These eight agencies are:
      Agriculture Marketing Service (AMS);
      Animal and Plant Health Inspection Service (APHIS);
      Agriculture Research Service (ARS);
      Food and Nutrition Service (FNS);
      Farm Service Agency (FSA);
      Food Safety and Inspection Service (FSIS);
      Natural Resources Conservation Service (NRCS); and
      Rural Development (RD).
 The other two departmental components, Forest Service (FS) and Departmental Administration (DA),
 contracted with a recovery auditing firm. In July, USDA awarded a contracted to a recovery audit firm.
 Most of the work will be performed during the first two quarters of 2005. The contractors also will
 review 2004 contracts for 2005 reporting during this period.
 To date, FY 2004 recovery auditing program costs greatly exceed the value of the total errors
 identified. While most agency programs still are auditing their contracts and have not finalized their
 results, the end resulting recoveries likely will not equal the costs.
 In FY 2005, OCFO will assist DA and FS with their recovery auditing contracts. OCFO then will
 evaluate the success of the contracts. If successful, all agencies will be added to the Departmental
 recovery auditing contract.

 Classes of Contracts Excluded from Recovery Auditing Program
 USDA established basic criteria for exemptions. These exemptions included:
     All purchase card transactions because they are tracked and reconciled by cardholders
       nationwide through USDA’s Purchase Card Management System;
     Simplified-acquisition actions less than $100,000; and
     Agencies that do not contract for more than $25 million a year.
 In developing their recovery auditing programs, some agencies further restricted the number of
 contracts audited.
      APHIS—Sampled 20 contracts out of 161.
      ARS—All contracts were exempted due to the extensive reviews already performed.




USDA
340                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                APPENDICES




         FNS—All contracts were exempted due to the extensive reviews already performed.
         FSA—Contracts funded via interim contract payments based on performance, milestone
          payments based upon the completion of tasks and contracts with review processes
          independent of the procurement office.
         FSIS—Firm fixed-price contracts were exempted.
         NRCS—Selected a 10-percent sample of contracts meeting the basic USDA criteria listed
          above.

Total Cost of Recovery Auditing Program
              Cost Item (shown in dollars)                      Direct Cost   Contractor Cost    Total Cost
Administration of Recovery Audit Program                            27,206                  0       27,206
Recovery Auditing                                                   12,366                  0       12,366
Recovery of Funds                                                       90                  0           90
Management Improvement Plan                                             70                  0           70
Total Cost:                                                         39,732                  0       39,732


Total Errors Identified
                                       Collection Status                      Dollars
                    Payment errors deemed not collectable                          0
                    Total errors recovered                                         0
                    Total errors pending final Resolution                      2,249
                    Total Payment Errors Identified:                           2,249



Management Improvement Plan
               Type of Payment Error (shown in dollars)                        Number             Dollars
Contractor overpaid in the base years (Incorrect unit prices)                           7            2,248
Incorrect amount listed on the contractor’s invoice amount                              1                   1


The errors identified will be offset against contractors’ invoices submitted at the end of the fourth
quarter. Identifying the cause of errors and developing recommendations to prevent future errors is part
of the recovery auditing contract. This process will assist USDA in developing management
improvement plans.

VI. Describe of the steps (including time line) the agency has taken and plans to take to ensure
    that agency managers (including the agency head) are held accountable for reducing and
    recovering improper payments.

FARM SERVICE AGENCY (FSA)
FSA has developed a Strategic Plan Framework, which is the foundation for the development of the Agency’s
FY 2005 – 2010 Strategic Plan. The framework is designed to link FSA’s budget with its performance
measures. It also will strengthen the agency’s performance-oriented business decisions.
Incorporated within this framework is a set of major management-crosscutting areas. These areas include a
performance measure for reducing improper payments. FSA managers’ (i.e., grades 14, 15 and Senior
Executives) performance plans were linked to the framework in June.




                                                                                                            USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                     341
APPENDICES




 FOOD AND NUTRITION SERVICE (FNS)
 FNS already has a corporate priority to improve stewardship of Federal funds. Within this priority are
 specific goals applicable to programs at high risk for erroneous payments. The goals are:
      To continue reducing the FSP error rate;
      To improve the accuracy of National School Lunch Program (NSLP) certifications; and
      To continue Child and Adult Care Food Program management improvements.
 The agency goals and priorities are incorporated into each manager’s performance plan.
 RISK MANAGEMENT AGENCY (RMA)
 RMA has added a performance element to management’s standards that ties performance to the
 agency’s strategic objectives. Strategic objective 4 is “program integrity.” This holds managers
 accountable for reducing program fraud, waste and abuse.
 RURAL DEVELOPMENT (RD)
 Within the Multifamily Program, the national office establishes and ensures implementation of policy, which
 includes loan-servicing goals. The State offices oversee area offices, which monitor the performance of the
 multifamily portfolio. Area office staff makes property inspections, performs supervisory-site visits, approves
 the amount of subsidy or rental assistance requests and generally oversees all the activity at these properties.
 The servicing goals have been modified to include a State office goal to reduce the error rate by property
 managers in the calculation and documentation support of rental assistance. Servicing goal achievement is
 monitored quarterly and reported back to the States, the Rural Housing Service Administrator and the Under
 Secretary for Rural Development.
 NATURAL RESOURCES CONSERVATION SERVICE (NRCS)
 After the statistical sample determines the rate of erroneous payments, NRCS will develop a corrective-action
 plan. The plan will be completed by May 31, 2005, and include steps to ensure that NRCS managers reduce
 any erroneous payments.
 VII. A.   A statement of whether the agency has the information systems and other infrastructure
           it needs in order to reduce improper payments to the levels the agency has targeted.
 USDA has identified nine high-risk programs in six of its agencies. The issues of information systems
 and other infrastructure are determined at the agency level. USDA is working to complete statistical
 analyses of many high-risk programs. After baseline rates are established and the causes of erroneous
 payments are identified fully, more system and infrastructure needs may be developed. Currently, two
 agencies have identified information and infrastructure improvements needed to reduce improper
 payments.

 FOOD AND NUTRITION SERVICE (FNS)
 While the infrastructure already exists for the Food Stamp Program, there is nothing in place for the
 other FNS programs. Until such time as baseline erroneous payment estimates are produced for School
 Programs, WIC and Adult Care Food Programs, reduction targets cannot be established.
 RISK MANAGEMENT AGENCY (RMA)
 RMA has targeted replacement of the current information technology (IT) infrastructure to address
 identified payment vulnerabilities better. Improved automated processes can limit these vulnerabilities.
 Under existing and anticipated budget allocations, RMA believes it will be difficult to obtain the funds
 necessary to improve the program-accounting systems. The agency will continue to maintain and improve
 the existing system as much as possible pending additional funding to replace the IT infrastructure.




USDA
342                      FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                             APPENDICES




VII. B.   If the agency does not have such systems and infrastructure, a description of the
          resources the agency has requested in its most recent budget submission to
          Congress to obtain the necessary information systems and infrastructure.

FOOD AND NUTRITION SERVICE (FNS)
As a part of its FY 2005 budget submission, FNS sought resources to enhance integrity in the Food
Stamp and Child Nutrition Programs, and implement the President’s Management Agenda.
An annual increase of $7 million and 77 staff years was requested to enable FNS to augment technical
assistance and training to States. FNS would provide increased assistance to States to foster significant
improvements in program operations. Such improvements would include:
      Better identification of Federal and State cost-saving opportunities;
      Increased accuracy and delivery of program benefits;
      More accurate eligibility determinations; and
      Enhanced State accounting and financial management practices.
An increase in staffing levels also would allow FNS to address criticism aimed at the management of
the nutrition-assistance programs better. A number of Government Accountability Office and Office of
Inspector General audit reports have indicated that FNS has inadequate staff resources to correct
certain key deficiencies. Likewise, the need for oversight has increased only with the attention placed
on financial accountability. The move resulted in Federal agency goals for reducing erroneous
payments and meeting management challenges. Increased staffing capacity will enable FNS to provide
this critical oversight in the effort to reduce erroneous payments.

Risk Management Agency (RMA)
RMA has requested funds to replace its IT systems and add staff to implement company program
reviews fully. These funds were requested for FY 2005.
VIII. A description of any statutory or regulatory barriers, which may limit the agencies’
      corrective actions in reducing improper payments
Farm Service Agency (FSA)—The Department of Agriculture Reorganization Act of 1994, Section
281, provides that, “Each decision of a State, county or area committee or an employee of such a
committee…, made in good faith in the absence of misrepresentation, false statement, fraud or willful
misconduct shall be final not later than 90 calendar days after the date of filing of the application for
benefits, [and] …no action may be taken…to recover amounts found to have been disbursed as a result
of the decision in error unless the participant had reason to believe that the decision was erroneous.”
This restriction places a constraint on FSA that does not exist in other programs or for other agencies.
Food and Nutrition Service (FNS)—Recent Child Nutrition reauthorization legislation includes
some of the changes requested by the Administration to improve accountability, it also limits the
agency’s ability to act in this area because of concerns about potential barriers to participation by
eligible people.
Risk Management Agency (RMA)—The Federal Crop Insurance Act contains a three-year
statutory limitation on identifying and collecting improper payments from crop insurance providers,
except for improper payments where intentional fraud or other criminal conduct is involved. This
restriction places constraints on RMA that may not exist in other programs.




                                                                                                      USDA
           FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                343
 APPENDICES




APPENDIX C—TABLE OF EXHIBITS
Exhibit 1:    Headquarters Organization ...........................................................................................................1
Exhibit 2:    FY 2004 and 2003 USDA Program Obligations Dedicated to Strategic Goals* ..........................5
Exhibit 3:    FY 2004 and 2003 USDA Staff Years Dedicated to Strategic Goals* .........................................5
Exhibit 4:    USDA Scorecard for FY 2004 ......................................................................................................6
Exhibit 5:    List of Material Deficiencies ......................................................................................................20
Exhibit 6:    Resources Dedicated to Expand Alternative Markets for Agricultural Products
              and Activities ..............................................................................................................................24
Exhibit 7:    Increase U.S. Marketing Opportunities.......................................................................................27
Exhibit 8:    Expand and Retain Market Access .............................................................................................27
Exhibit 9:    Resources Dedicated to Support International Economic Development and
              Trade Capacity Building .............................................................................................................28
Exhibit 10:   Support Foreign Food Assistance ...............................................................................................30
Exhibit 11:   McGovern-Dole International Food for Education and Child Nutrition Program ......................31
Exhibit 12:   Resources Dedicated to Expand Alternative Markets for Agriculture Products
              and Activities ..............................................................................................................................31
Exhibit 13:   Expanding Bioenergy Production ...............................................................................................34
Exhibit 14:   Bioenergy Production Levels......................................................................................................34
Exhibit 15:   Increase the Use of Biobased Products .......................................................................................36
Exhibit 16:   Biobased Products Performance ..................................................................................................36
Exhibit 17:   Resources Dedicated to Providing Risk Management and Financial Tools to
              Farmers and Ranchers.................................................................................................................37
Exhibit 18:   Expand Use of Risk Management Tools.....................................................................................42
Exhibit 19:   Providing Risk Management and Financial Tools to Farmers and Ranchers..............................42
Exhibit 20:   Providing Credit Assistance........................................................................................................43
Exhibit 21:   Trends in Lending to Beginning and Socially Disadvantaged Farmers/Ranchers ......................44
Exhibit 22:   Resources Dedicated to Support Expanding Economic Opportunities Through |
              Financing of Businesses..............................................................................................................45
Exhibit 23:   Strengthen Rural Businesses.......................................................................................................48
Exhibit 24:   Trends in Creating or Saving Jobs ..............................................................................................48
Exhibit 25:   Resources Dedicated to Support Improving the Quality of Life in Rural
              America Through Financing Housing, Utilities and Community Facilities................................49
Exhibit 26:   Improving Rural Quality of Life Through Homeownership Opportunities ................................51
Exhibit 27:   Trends in Rural Homeownership ................................................................................................52
Exhibit 28:   Improving Water and Waste Disposal ........................................................................................53
Exhibit 29:   Trends in Water and Waste Disposal Service .............................................................................53
Exhibit 30:   Connecting and Improving Electric Service ...............................................................................54
Exhibit 31:   Trends in Connecting and Improving Electric Service ...............................................................54
Exhibit 32:   Support High-Speed Telecommunications Service.....................................................................55
Exhibit 33:   Trends in the Number of Subscribers Served by High-Speed Telecommunications
              Service ........................................................................................................................................56
Exhibit 34:   Number of New and Improved Community Facilities................................................................57
Exhibit 35:   Trends in New and Improved Essential Community Facilities...................................................57
Exhibit 36:   Resources Dedicated to Reduce Pest and Disease Outbreaks.....................................................59
Exhibit 37:   Pathogen Reduction (Food Inspection).......................................................................................64
Exhibit 38:   Trends in Pathogen Reduction (Food Inspection).......................................................................65
Exhibit 39:   Public Health Outreach & Education..........................................................................................67
Exhibit 40:   Number of Viewings for Food Safety Messages ........................................................................68
Exhibit 41:   Resources Dedicated to Reducing Pest and Disease Outbreaks..................................................69
Exhibit 42:   Strengthen the Effectiveness of Pest and Disease Surveillance and Detection
              Systems .......................................................................................................................................74




 USDA
  344                        FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                                                                APPENDICES




Exhibit 43:   Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and
              Detection Systems ......................................................................................................................74
Exhibit 44:   Ensure the Humane Care and Handling of Animals Used in Commerce ...................................76
Exhibit 45:   Trends in Ensuring the Humane Care and Handling of Animals Used in Commerce ................76
Exhibit 46:   Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved..............................77
Exhibit 47:   Trends Improving the Capabilities of Diagnostic Laboratories ..................................................78
Exhibit 48:   Provide Scientific Information to Protect Animals from pests, Infectious Diseases,
              and Other Disease-Causing Entities that Impact Animal and Human Health.............................78
Exhibit 49:   Trends in Providing Scientific Information to Protect Animals from Pests, Infectious
              Diseases, and Other Disease-Causing Entities that Impact Animal and Human Health.............79
Exhibit 50:   Resources Dedicated to Improving Access to Nutritious Food ..................................................80
Exhibit 51:   Improve Access to Nutritious Food ............................................................................................82
Exhibit 52:   Trends in Improving Access to Nutritious Food .........................................................................83
Exhibit 53:   Resources Dedicated to Promoting Healthier Eating Habits and Lifestyles ...............................84
Exhibit 54:   Promoting Healthier Eating Habits and Lifestyles......................................................................88
Exhibit 55:   Trends in Promoting Healthier Eating Habits and Lifestyles .....................................................88
Exhibit 56:   Provide Nutrition Information ....................................................................................................89
Exhibit 57:   Trends in Determining Food Consumption Patterns...................................................................90
Exhibit 58:   Resources Dedicated to Improving Food Program Management and Customer Service ...........90
Exhibit 59:   Increase Efficiency in Food Management ..................................................................................92
Exhibit 60:   Trends in Increase Efficiency in Food Management...................................................................92
Exhibit 61:   Resources Dedicated to Protect the Nation’s Resource Base and Environment .........................94
Exhibit 62:   Hazardous Fuel Reduction..........................................................................................................97
Exhibit 63:   Trends in Treatment of Hazardous Fuel ......................................................................................97
Exhibit 64:   Resources Dedicated to Improving Management of Private Lands ............................................98
Exhibit 65:   Maintain the Productive Capacity of the Natural Resource Base and the Quality
              of the Environment ...................................................................................................................101
Exhibit 66:   Trends in Planning and Application of Improved Management of Cropland and
              Grazing Lands...........................................................................................................................102
Exhibit 67:   Ensure Diverse Wildlife Habitats .............................................................................................103
Exhibit 68:   Trends in Wetland Protection ....................................................................................................103
Exhibit 69:   Communities and Individuals Protected Against Flood Risks and Benefiting from
              Productive Use of Water Resources .........................................................................................104
Exhibit 70:   Trend in Flood Damage Reduction ............................................................................................105
Exhibit 71:   USDA Program Obligations .....................................................................................................107
Exhibit 72:   USDA Staff Years ....................................................................................................................114
Exhibit 73:   Performance Threshold for 1.1.1 ..............................................................................................116
Exhibit 74:   Performance Threshold for 1.2.1 ..............................................................................................117
Exhibit 75:   Performance Threshold for 1.3.1 ..............................................................................................118
Exhibit 76:   Performance Threshold for 1.3.2 ..............................................................................................119
Exhibit 77:   Performance Threshold for 1.4.2 ..............................................................................................120
Exhibit 78:   Performance Threshold for 1.4.2 ..............................................................................................121
Exhibit 79:   Performance Threshold for 2.1.1 ..............................................................................................122
Exhibit 80:   Improve the Quality of Life in Rural America through Homeownership.................................122
Exhibit 81:   Performance Threshold for 2.2.2 ..............................................................................................123
Exhibit 82:   Performance Threshold for 2.2.3 ..............................................................................................124
Exhibit 83:   Performance Threshold for 2.2.4 ..............................................................................................124
Exhibit 84:   Performance Threshold for 2.2.5 ..............................................................................................125
Exhibit 85:   Performance Thresholds for 3.1.1, 3.1.2, 3.1.3 and 3.1.4 .........................................................126
Exhibit 86.   Performance Threshold for 3.2.1 ..............................................................................................128
Exhibit 87:   Performance Thresholds for 3.2.2 and 3.2.3 .............................................................................129
Exhibit 88:   Performance Threshold for 4.1.1 ..............................................................................................132
Exhibit 89:   Performance Threshold for 4.2.1 ..............................................................................................133



                                                                                                                                             USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                    345
 APPENDICES




Exhibit 90:    Performance Threshold for 4.2.2 ..............................................................................................134
Exhibit 91:    Performance Threshold for 4.3.1 ..............................................................................................134
Exhibit 92:    Performance Threshold for 5.1.1 and 5.1.2...............................................................................135
Exhibit 93:    Performance Threshold for 5.2.1 and 5.2.2...............................................................................136
Exhibit 94:    Performance Threshold for 5.2.3 ..............................................................................................137
Exhibit 95:    Performance Threshold for 5.2.4 ..............................................................................................137
Exhibit 96:    Decrease in Total Open Audit Inventory ..................................................................................167
Exhibit 97:    Audit Follow-Up Definitions ....................................................................................................168
Exhibit 98:    Inventory of Open Audits With Disallowed Costs....................................................................169
Exhibit 99:    Distribution of Adjustments to Disallowed Costs.....................................................................169
Exhibit 100:   Inventory of Open Audits with Funds to be Put to Better Use..................................................170
Exhibit 101:   Decrease In Audits Outstanding One or More Years Past Management Decision
               Date...........................................................................................................................................170
Exhibit 102:   Distribution of Audits Outstanding One or More Years Past the Management
               Decision Date, Disallowed Costs and FTBU............................................................................170
Exhibit 103:   Audits One Year or More Past the Management Decision Date and Behind Schedule ............171
Exhibit 104:   Summary of Outstanding Material Deficiencies and Estimated Completion Dates..................177
Exhibit 105:   Material Deficiencies Decline...................................................................................................179
Exhibit 106:   Material Deficiencies Corrected or Downgraded......................................................................179
Exhibit 107:   Initiatives Completed ................................................................................................................182
Exhibit 108:   Initiatives Remaining To Be Completed...................................................................................183




 USDA
  346                         FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                            APPENDICES




APPENDIX D—ACRONYMS
ADR       Alternative Dispute Resolution                EIP     Emergency Infections Programs
AHMS      Animal Health Monitoring and Surveillance     EITC    Earned Income Tax Credit
AMS       Agricultural Marketing Service                e-LDP   Electronic Loan Deficiency Payment
APHIS     Animal and Plant Health Inspection Service    END     Exotic Newcastle Disease
ARS       Agricultural Research Service                 EONR    Economic Optimal Nitrogen Fertilizer Rate
ASFSA     American School Food Service Association      EPA     United States Environmental Protection
                                                                Agency
ASTM      American Society of Testing Materials         EQIP    Environmental Quality Incentives Program
AWA       Animal Welfare Act                            ERS     Economic Research Service
B&F       Budget and Finance                            FAS     Foreign Agricultural Service
B&I       Business and Industry Guaranteed Loan         FB4P    Federal Biobased Product Preferred
          Program                                               Procurement Program
BP        United States Border Patrol                   FBCI    Faith-Based and Communities Initiative
BPI       Budget and Performance Integration            FCIC    Federal Crop Insurance Corporation
BPMS      Budget and Performance Management             FDA     United States Food and Drug Administration
          System
BSE       Bovine Spongiform Encephalopathy              FDCH    Family Daycare Home
C&A       Certification and Accreditation               FFAS    Farm and Foreign Agricultural Services
CACFP     Child and Adult Care Food Program             FFE     Food For Education
CAFTA     Central American Free Trade Agreement         FFIS    Foundation Financial Information Systems
CAP       Combined Application Project                  FFMIA   Federal Financial Management Improvement
                                                                Act
CBP       United States Bureau of Customs and Border    FISMA   Federal Information Security Management Act
          Protection
CCC       Commodity Credit Corporation                  FMD     Foot-and-Mouth Disease
CDC       United States Centers for Disease Control     FMFIA   Federal Managers’ Financial Integrity Act
          and Prevention
CEAP      Conservation Effects Assessment Project       FNS     Food and Nutrition Service
CERC      Coordinated Economic Relief Center            FNP     Family Nutrition Program
CIO       Chief Information Officer                     FS      Forest Service
CNPP      Center for Nutrition Policy and Promotion     FSA     Farm Service Agency
CORE      Commodity Credit Corporation’s Core           FSIS    Food Safety and Inspection Service
          Accounting System
CPAP      Community Programs Application Processing     FSP     Food Stamp Program
CRP       Conservation Reserve Program                  FSRIA   Farm Security and Rural Investment Act of
                                                                2002
CTA       Conversation Technical Assistance Program     FSRIO   Food Safety Research Information Office
CWPP      Community Wildfire Protection Plans           FTA     Free Trade Agreement
DA        Departmental Administration                   FTBU    Funds To Be Put To Better Use
DC        Disallowed Costs                              FY      Fiscal Year
DCIA      Debt Collection Improvement Act               GAO     Government Accountability Office
DHS       United States Department of Homeland          GEO     Genetically Engineered Organism
          Security
DNA       Deoxgubonucleus Acid                          GIPSA   Grain Inspection, Packers and Stockyards
                                                                Administration
DOC       United States Department of Commerce          GIS     Geographic Information Systems
DOI       United States Department of the Interior      GL      General Ledger
DWPT      Department-wide Planning Team                 GPEA    Government Paperwork Elimination Act of
                                                                1998
EA        Enterprise Architecture                       GPRA    Government Paperwork Elimination Act of
                                                                1998
EBT       Electronic Benefit Transfer                   HACCP   Hazard Analysis and Critical Control Point
EEO       Equal Employment Opportunity                  HCC     Hazards Control Coefficient
eGovern   Electronic Government                         HEI     Healthy Eating Index
ment
EIAO      Enforcement Investigations Analysis Officer   HFI     Healthy Forest Initiative



                                                                                                       USDA
              FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT                                             347
APPENDICES




HFRA     Healthy Forest Restoration Act               PAR     Performance and Accountability Report
HHS      United States Department of Health and       PART    Program Assessment Rating Tool
         Human Services
HUD      United States Department of Housing and      PDA     Personal Digital Assistant
         Urban Development
IOP      Integrated Organic Program                   PEIS    Program Elimination and Improvement Staff
IPAT     Interactive Physical Activity Tool           PMA     President’s Management Agenda
IPIA     Improper Payments Information Act            PP&E    Property, Plant and Equipment
ISO      International Standards Organization         PREP    Pathogen Reduction Enforcement System
IT       Information Technology                       PRS     Performance Results System
LARIS    Licensing and Registration Information       QC      Quality Control
         System
LDP      Loan Deficiency Payment                      RD      Rural Development
MAL      Marketing Assistance Loan Program            REE     Research, Education and Economics
MCR      Management Control Review                    RHS     Rural Housing Service
MFR      Minority Farm Registry                       RMA     Risk Management Agency
MIDAS    Modernize and Innovate the Delivery of       RRH     Rural Rental Housing
         Agricultural System
MYA      Marketing Year Average                       RSI     Required Supplementary Information
NACMCF   National Advisory Committee on               RTE     Ready-to-Eat
         Microbiological Criteria for Foods
NADN     National Animal Diagnostic Network           RULSS   Rural Utilities Loan Servicing System
NAFTA    North American Free Trade Agreement          SBP     School Breakfast Program
NAHMS    National Animal Health Monitoring System     SDLC    System Development Lifecycle
NAHRS    National Animal Health Reporting System      SES     Senior Executive Service Candidate Program
NAIS     National Animal Identification System        SFA     School Food Authority
NASDA    National Association of State Departments    SFMNP   Senior Farmers’ Market Nutrition Program
         of Agriculture
NASF     National Association of State Foresters      SIPP    Survey on Income and Program Participation
NCES     National Center for Educational Statistics   SIR     State Internal Review
NCIE     National Center for Import and Export        SMR     Suppressed Mite Reproduction
NDB      National Data Bank                           SNAP    State Nutrition Action Plans
NFP      National Fire Plan                           SOD     Sudden Oak Death
NFPORS   National Fire Plan Operations and            SPS     Sanitary and Phytosanitary
         Reporting System
NFSMI    National Food Service Management             SRA     Standard Reinsurance Agreement
         Institute
NHANES   National Health and Nutrition Examination    SSA     Social Security Administration
         Survey
NPDN     National Plant Diagnostic Network            SSI     Supplemental Security Income
NPGS     National Plant Germplasm System              SSOP    Sanitation Standard Operating Procedures
NRCS     Natural Resources Conservation Service       TSP     Technical Service Provider
NRE      Natural Resources and Environment            USDA    United States Department of Agriculture
NSLP     National School Lunch Program                USTR    United States Trade Representative
NVSL     National Veterinary Services Laboratories    WEP     Water and Environmental Program
OBPA     Office of Budget and Program Analysis        WFP     World Food Programme
OCFO     Office of the Chief Financial Officer        WIC     Special Supplemental Nutrition Program for
                                                              Women, Infants and Children
OCIO     Office of the Chief Information Officer      WRP     Wetlands Reserve Program
OEPNU    Office of Energy Policy and New Uses         WTO     World Trade Organization
OIG      Office of Inspector General                  WUI     Wildlife Urban Interface
OMB      Office of Management and Budget




USDA
348                     FY 2004 PERFORMANCE AND ACCOUNTABILITY REPORT
